<html>
<title> - CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA ANNUAL REPORT 2019</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                             ANNUAL REPORT

                                  2019

=======================================================================

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 18, 2019

                               __________

 Printed for the use of the Congressional-Executive Commission on China
 
 
 
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: https://www.cecc.gov










 
          CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                             ANNUAL REPORT

                                  2019

=======================================================================

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 18, 2019

                               __________

 Printed for the use of the Congressional-Executive Commission on China
 
 
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


     Available via the World Wide Web: https://www.cecc.gov


                               __________

                   U.S. GOVERNMENT PUBLISHING OFFICE

36-743PDF                WASHINGTON : 2019






              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS



House                                 Senate

JAMES P. McGOVERN, Massachusetts,    MARCO RUBIO, Florida, Co-chair
Chair                                JAMES LANKFORD, Oklahoma
MARCY KAPTUR, Ohio                   TOM COTTON, Arkansas
THOMAS SUOZZI, New York              STEVE DAINES, Montana
TOM MALINOWSKI, New Jersey           TODD YOUNG, Indiana
BEN McADAMS, Utah                    DIANNE FEINSTEIN, California
CHRISTOPHER SMITH, New Jersey        JEFF MERKLEY, Oregon
BRIAN MAST, Florida                  GARY PETERS, Michigan
VICKY HARTZLER, Missouri             ANGUS KING, Maine

                     EXECUTIVE BRANCH COMMISSIONERS

                  Department of State, To Be Appointed
                  Department of Labor, To Be Appointed
                Department of Commerce, To Be Appointed
                       At-Large, To Be Appointed
                       At-Large, To Be Appointed

                    Jonathan Stivers, Staff Director

                  Peter Mattis, Deputy Staff Director

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                            C O N T E N T S

                              ----------                              
                                                                   Page
I. Executive Summary.............................................     1

    Statement From the Chairs....................................     1
    Overview.....................................................     3
    Key Findings.................................................     7
    Political Prisoner Cases of Concern..........................    20
    General Recommendations to Congress and the Administration...    27
    Political Prisoner Database..................................    33

II. Human Rights.................................................    37

    Freedom of Expression........................................    37
      Findings and Recommendations...............................    37
      China's Compliance with International Standards on Freedom 
        of Expression............................................    39
      30 Years after Tiananmen...................................    39
      Press Freedom and Tiananmen................................    41
      Freedom of the Press.......................................    41
      Internet and Social Media..................................    45
      Curtailment of Academic Freedom in China...................    47
    Worker Rights................................................    58
      Findings and Recommendations...............................    58
      Trade Unions and Collective Bargaining.....................    61
      Heightened Suppression of Labor Rights Advocacy............    61
      Jasic Incident.............................................    62
      Civil Society Organizations................................    62
      Worker Strikes and Protests................................    64
      996.ICU Campaign and Excessive Overtime....................    65
      Social Insurance...........................................    65
      Employment Relationships...................................    66
      Work Safety and Industrial Accidents.......................    67
      Occupational Health........................................    68
    Criminal Justice.............................................    77
      Findings and Recommendations...............................    77
      Introduction...............................................    80
      Use of Criminal Law to Punish Rights Advocates.............    80
      Arbitrary Detention........................................    81
      Chinese Authorities' Retaliatory Use of Criminal Law 
        against Canadian Citizens................................    83
      Ongoing Challenges in Implementation of the Criminal 
        Procedure Law............................................    84
      Torture and Abuse in Custody...............................    86
      Medical Care in Custody....................................    86
      Wrongful Conviction........................................    87
      Policing...................................................    87
      Death Penalty..............................................    88
      Organ Harvesting...........................................    89
    Freedom of Religion..........................................   101
      Findings and Recommendations...............................   101
      International and Chinese Law on Religious Freedom.........   104
      Policies and Regulations Pertaining to Religious Freedom...   104
      Buddhism (Non-Tibetan) and Taoism..........................   106
      Christianity--Catholicism..................................   107
      Christianity--Protestantism................................   107
      Falun Gong.................................................   109
      Islam......................................................   109
      Other Religious Communities................................   110
    Ethnic Minority Rights.......................................   116
      Findings and Recommendations...............................   116
      Introduction...............................................   118
      Party and State ``Sinicization'' of Ethnic Minorities......   118
      Policies Affecting Hui Islamic Communities.................   118
      Grassland Protests in Inner Mongolia.......................   119
      Detention of Mongol Writers................................   120
    Population Control...........................................   123
      Findings and Recommendations...............................   123
      International Standards and China's Coercive Population 
        Policies.................................................   125
      Coercive Implementation and Punishment for Noncompliance...   125
      Report of Forced Sterilization in Mass Internment Camps in 
        the Xinjiang Uyghur Autonomous Region....................   127
      The Universal Two-Child Policy.............................   127
      Demographic and Humanitarian Consequences of Population 
        Control Policies.........................................   128
    Special Topic: Migrant Neighborhoods a Target of Anti-Crime 
      and Vice Campaign..........................................   138
      Findings and Recommendations...............................   138
      Introduction...............................................   140
      Urban Village Eviction, Demolition, and Surveillance under 
        the Anti-Crime and Vice Campaign: Yuhuazhai in Xi'an.....   141
      Vulnerability of Internal Migrants and Household 
        Registration Policies....................................   142
    Status of Women..............................................   148
      Findings and Recommendations...............................   148
      Discrimination in Employment...............................   150
      Domestic and Gender-Based Violence.........................   152
      Public Participation.......................................   152
    Human Trafficking............................................   157
      Findings and Recommendations...............................   157
      Defining Human Trafficking.................................   159
      Trends and Developments....................................   159
      Forced Labor in the Xinjiang Uyghur Autonomous Region......   162
      Risk Factors...............................................   162
      Anti-Trafficking Efforts...................................   163
      Hong Kong..................................................   164
    North Korean Refugees in China...............................   174
      Findings and Recommendations...............................   174
      Introduction...............................................   176
      Border Conditions and Repatriation of Refugees.............   176
      Crackdown on Foreign Missionaries..........................   177
      Trafficking of North Korean Women..........................   178
      Children of North Korean and Chinese Parents...............   178
    Public Health................................................   182
      Findings and Recommendations...............................   182
      Legislative and Policy Developments........................   183
      Food Safety................................................   183
      Drug Safety................................................   183
      Ongoing Misuse of the PRC Mental Health Law................   185
    The Environment..............................................   189
      Findings and Recommendations...............................   189
      Introduction and Environmental Governance..................   191
      Environmental Enforcement and Persistence of Severe 
        Pollution................................................   191
      Public Interest Litigation and Criminal Enforcement........   192
      Suppression of Environmental Protests and Advocates........   192
      Media Reporting on Environmental Incidents and Corruption..   194
      Assessing the Chinese Government's Commitment to Combat 
        Climate Change...........................................   195
      Wildlife Trade and Traditional Chinese Medicine............   196
    Business and Human Rights....................................   202
      Findings and Recommendations...............................   202
      Introduction...............................................   205
      Corporate Involvement in Possible Crimes Against Humanity 
        in the Xinjiang Uyghur Autonomous Region.................   205
      Clothing Made With Forced Labor Imported Into United States   207
      Commercial Firms' Role in Government Data Collection and 
        Surveillance Across China................................   209
      Role of Commercial Firms in Government Censorship..........   211

III. Development of the Rule of Law..............................   219

    Civil Society................................................   219
      Findings and Recommendations...............................   219
      Introduction...............................................   222
      Universal Periodic Review..................................   222
      Government Suppression of Civil Society....................   223
      Foreign NGOs' Activities in China..........................   224
      Arbitrary Detention of Canadian Citizen Michael Kovrig in 
        China....................................................   225
      Overall Regulatory Environment for Domestic NGOs...........   226
      Suppression of the LGBTQ Community.........................   226
    Institutions of Democratic Governance........................   234
      Findings and Recommendations...............................   234
      Governance in China's One-Party System.....................   236
      Communist Party Centralized and Expanded Control...........   236
      Communist Party Formalized Control Over Personnel 
        Management in Government.................................   237
      Use of Technology to Control Citizens......................   238
      Citizen Participation......................................   239
      Accountability.............................................   240
      Possible Political Motivations Behind Detaining Interpol 
        President................................................   242
    Access to Justice............................................   250
      Findings and Recommendations...............................   250
      Communist Party's Control Over the Judicial Process........   252
      Judicial Interference and Party-Led Investigation..........   252
      Persecution of Human Rights Lawyers........................   254
      Citizen Petitioning........................................   255
      Legal Aid..................................................   256
      Other Developments in the Judicial System..................   256

IV. Xinjiang.....................................................   263

    Findings and Recommendations.................................   263
    Intensified Repression in Mass Internment System.............   266
    Documentation of Mass Internment Camps.......................   270
    Forced Labor in Mass Internment Camps........................   272
    Transfer of Camp Detainees to Facilities Outside of the 
      Xinjiang Uyghur Autonomous Region..........................   273
    Detentions of Leading Turkic Cultural and Intellectual 
      Figures....................................................   273
    Detentions of Kazakhs and Kyrgyz; Documentation in Kazakhstan 
      and Kyrgyzstan of XUAR Mass Internment Camps...............   274
    Forcible Displacement of the Children of Camp Detainees......   275
    Intrusive Homestay Programs..................................   275
    Repressive Surveillance Technology and Security Measures.....   276
    Freedom of Religion..........................................   276

V. Tibet.........................................................   288

    Findings and Recommendations.................................   288
    Introduction.................................................   291
    Status of Negotiations Between the Chinese Government and the 
      Dalai Lama or His Representatives..........................   291
    Government and Party Policy..................................   291
    Religious Freedom for Tibetan Buddhists......................   293
    Self-Immolation..............................................   295
    Status of Tibetan Culture and Language.......................   296
    Freedom of Expression........................................   296
    Freedom of Movement..........................................   297
    Economy, Environment, and Development Concerns...............   298

VI. Developments in Hong Kong and Macau..........................   306

    Findings and Recommendations.................................   306
    Introduction: Hong Kong's Autonomy...........................   309
    Erosion of Political Autonomy in Hong Kong...................   309
    National Anthem Bill.........................................   310
    2019 Anti-Extradition Bill and Pro-Democracy Demonstrations..   311
    Government Prosecution in Hong Kong Courts...................   313
    Fundamental Freedoms.........................................   314
    Macau........................................................   315


              
              
              
              

                          I. Executive Summary


                       Statement From the Chairs

    The Congressional-Executive Commission on China 
(Commission) was established by the U.S.-China Relations Act of 
2000 (Public Law No. 106-286) as China prepared to enter the 
World Trade Organization. The Commission is mandated to monitor 
human rights and the development of the rule of law in China, 
and to submit an annual report to the President and Congress. 
The Commission is also mandated to maintain a database of 
political prisoners in China--individuals who have been 
detained or imprisoned by the Chinese government for exercising 
their internationally recognized civil and political rights, as 
well as rights protected by China's Constitution and other 
domestic laws.
    The Commission's 2019 Annual Report covers the period from 
August 2018 to August 2019. The comprehensive findings and 
recommendations in this report focus on the Chinese 
government's compliance with or violation of internationally 
recognized human rights, including the right to free 
expression, peaceful assembly, religious belief and practice, 
as well as any progress or regression on the development of the 
rule of law. As discussed in the subsequent chapters of this 
report, the human rights and rule of law conditions in China 
have continued to worsen this past year.
    A part of the Commission's mandate is the inclusion of 
recommendations for legislative and executive action. In 
addition to the recommendations contained in this report, the 
Commission drafted, edited, and provided support for numerous 
legislative initiatives over the last year, including those 
related to human rights in the Xinjiang Uyghur Autonomous 
Region, Hong Kong's autonomy and rule of law, Tibet policy and 
human rights, the 30th anniversary of the 1989 Tiananmen 
protests, and the use of advanced technology to facilitate 
human rights abuses in China.
    Over the past year, the Commission held congressional 
hearings on ``Hong Kong's Future in the Balance: Eroding 
Autonomy and Challenges to Human Rights,'' ``Tiananmen at 30: 
Examining the Evolution of Repression in China,'' and ``The 
Communist Party's Crackdown on Religion in China.'' The 
Commission also held a town hall event in New York City with 
the New York and New Jersey Tibetan communities. The Commission 
regularly conducts congressional briefings and meetings with 
non-governmental organizations, academics, legal professionals, 
and human rights advocates. The Commission's Political Prisoner 
Database is an important tool for documenting political 
prisoners in China and providing publicly accessible 
information on individual cases for U.S. Government officials, 
advocates, academics, journalists, and the public.
    As Legislative and Executive Branch decisionmakers seek a 
more effective strategy for promoting human rights and the rule 
of law in China, the Commission plays an essential role in 
reporting on conditions, raising awareness of human rights 
violations, and informing U.S. policy. We are grateful for the 
opportunity to serve as the Commission Chair and Co-Chair, and 
we appreciate the attention of the U.S. Congress and 
Administration to the issues highlighted in this report.

Sincerely,

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Representative James P. McGovern          Senator Marco Rubio
Chair                                      Co-Chair






                                Overview

    It has been three decades since China's People's Liberation 
Army was ordered to forcefully end the peaceful protests for 
political reform in Tiananmen Square and throughout China. The 
violent suppression of the 1989 Tiananmen protests was a key 
turning point in history as the Chinese government and 
Communist Party suspended experiments in openness and reform 
and strengthened a hardline approach to prevent the growth of 
independent civil society and reinforce their control over the 
people of China.
    Since the Tiananmen crackdown, the Chinese government and 
Party have expanded a costly and elaborate authoritarian system 
designed to intimidate, censor, and even imprison Chinese 
citizens for exercising their fundamental human rights, 
including freedom of expression, peaceful assembly, and freedom 
of religion. Authorities targeted and imprisoned citizens 
calling for democratic reform--including Nobel Peace Prize 
laureate Liu Xiaobo, who took part in the Tiananmen protests 
and co-authored Charter 08, a political treatise that called 
for constitutional government and respect for human rights. In 
the years since Tiananmen, Liu Xiaobo spent a total of almost 
16 years in detention and died in state custody in 2017.
    After Xi Jinping became Chinese Communist Party General 
Secretary in 2012, and President in 2013, the space for human 
rights advocacy and political reform narrowed further as the 
Chinese government and Party exerted a tighter grip over 
governance, law enforcement, and the judiciary. Under President 
Xi's tenure, authorities launched a nationwide crackdown on the 
legal community and rights defenders; curtailed civil society, 
academia, and religious life; led an anticorruption campaign 
that helped remove political opposition inside the Party; and 
eliminated term limits on the presidency, signaling Xi's 
intention to remain in power indefinitely.
    During its 2019 reporting year, the Congressional-Executive 
Commission on China (Commission) found that the human rights 
situation has worsened and the rule of law continued to 
deteriorate, as the Chinese government and Party increasingly 
used regulations and laws to assert social and political 
control. The Chinese government continued its crackdown on 
``citizen journalists'' who report on human rights violations, 
with mainstream Chinese journalists calling conditions in China 
an ``era of total censorship.'' The abuse of criminal law and 
police power to target rights advocates, religious believers, 
and ethnic minority groups also continued unabated, and 
reporting on such abuses became increasingly restricted.
    Further, the Chinese government has become more efficient 
in the use of advanced technology and information to control 
and suppress the people of China. Nowhere is this more of a 
concern than in the Xinjiang Uyghur Autonomous Region (XUAR), 
where the Commission believes Chinese authorities may be 
committing crimes against humanity against the Uyghur people 
and other Turkic Muslims. Over the past year, Chinese 
authorities have expanded a system of extrajudicial mass 
internment camps in the XUAR. Although the true number of 
detainees has not been publicly reported, experts estimate one 
million or more Uyghurs, Kazakhs, Kyrgyz, Hui, and others 
currently are or have been detained and subjected to abuse and 
forced labor in mass internment camps.
    Outside the camps, the Chinese government and Party have 
created a pervasive and high-tech surveillance system in the 
XUAR that some observers have called an ``open-air prison.'' 
The system integrates facial recognition cameras and real-time 
monitoring of cell phones into an Orwellian policing platform 
that observes every aspect of life in the XUAR and allows 
Chinese officials to tighten their control of Uyghurs and other 
Turkic Muslims in the region. This surveillance system is 
implemented--often with the assistance of domestic and 
international businesses--using security personnel and 
surveillance technology that helps Chinese officials repress 
Uyghurs and others in the XUAR.
    As the world commemorated the 30th anniversary of the 
Tiananmen Square Massacre in 2019, China's leaders not only 
refused to provide a full, public, and independent accounting 
of events, but also continued to prohibit any public mourning 
by the families of the victims and censored discussion of the 
events of 1989 in mainland China. Hundreds of thousands of 
people joined together in Victoria Park in Hong Kong to 
participate in a candlelight vigil on the Tiananmen 
anniversary.
    In Hong Kong, millions of people took to the streets to 
protest the Hong Kong government's introduction of a bill to 
amend the city's extradition law, revisions that would put 
anyone in Hong Kong--including U.S. citizens--at risk of 
extradition to mainland China, where lack of due process and 
custodial abuses have been well documented. The protest on June 
16, 2019, which organizers estimated had over two million 
participants, was spurred by the unwillingness of the Hong Kong 
government to formally withdraw the extradition bill. As 
protests continued throughout the summer, Hong Kong police used 
rubber bullets, tear gas, pepper spray, and water cannons 
against peaceful protesters. Although consideration of the 
extradition law amendments was suspended, protesters continued 
to call for the bill to be withdrawn and for accountability for 
the excessive use of force by the Hong Kong police and criminal 
gangs--who were suspected of working with police--against 
protesters.
    The 2019 Hong Kong protests are a manifestation of an 
unprecedented grassroots movement revealing deep discontent 
with the erosion of Hong Kong's autonomy. Under the ``one 
country, two systems'' framework based on the 1984 Sino-British 
Joint Declaration and established by Hong Kong's Basic Law, the 
Chinese government agreed to allow Hong Kong a ``high degree of 
autonomy'' with the ``ultimate aim'' of electing its Chief 
Executive and Legislative Council members by universal 
suffrage. Yet instead of making progress toward universal 
suffrage, Hong Kong authorities have prosecuted and sentenced 
pro-democracy leaders, disqualified and removed pro-democracy 
legislators from office, and introduced a new national anthem 
bill that would restrict free expression. In addition, mainland 
Chinese authorities continued to arbitrarily detain Hong Kong 
bookseller Gui Minhai, who was first abducted in 2015. Anson 
Chan, the former Hong Kong Chief Secretary and Legislative 
Council member, recently offered this insight: ``If only 
Beijing would understand what makes Hong Kong tick, what are 
the values we hold dear, then they can use that energy to 
benefit both China and Hong Kong. Instead, they have this 
mentality of control.''
    In Tibet, the 60th anniversary of the Dalai Lama's escape 
into exile passed without any progress toward a genuine 
dialogue between the Chinese government and the Dalai Lama or 
his representatives. This past year, Chinese authorities 
continued to systematically repress the peaceful exercise of 
internationally recognized human rights and intensify their 
restrictions on the religious and cultural life of Tibetans. 
Access to the Tibet Autonomous Region (TAR) remained tightly 
controlled, with international journalists reporting that it 
was more difficult to visit the TAR than North Korea. In a 
white paper issued in March 2019, the Chinese government 
restated the claim that it has the sole authority to select the 
next reincarnation of the Dalai Lama, in violation of the 
religious freedom of the Tibetan Buddhist community.
    Chinese authorities continued to aggressively target 
unregistered Christian churches this past year as part of the 
implementation of new regulations on religious affairs. In a 
troubling development, congregations with hundreds of 
worshipers were officially banned, including Zion Church and 
Shouwang Church in Beijing municipality; Rongguili Church in 
Guangzhou municipality, Guangdong province; and the Early Rain 
Covenant Church in Chengdu municipality, Sichuan province. 
Sources also reported Protestant church closures in Guizhou, 
Henan, Anhui, and Zhejiang provinces.
    The Chinese government and Communist Party seek to 
legitimize their political model internationally while 
preventing liberal and universal values from gaining a foothold 
inside China. The Party's United Front Work Department and 
Central Propaganda Department are increasingly active beyond 
China's borders, working to influence public perceptions about 
the Chinese government and neutralize perceived threats to the 
Party's ideological and policy agenda. These efforts focus 
heavily on shaping the mediums through which ideas about China, 
what it means to be Chinese, and Chinese government activities 
are understood. The practical effect of these activities is the 
exportation of the Party's authoritarian values. On the ground, 
this takes multiple forms, such as interfering in multilateral 
institutions; threatening and intimidating critics of the 
Chinese government; imposing censorship mechanisms on foreign 
publishers and social media companies; influencing academic 
institutions and critical analysis of China's past history and 
present policies; and compelling American companies to conform 
to the Party's narratives and to convey those narratives to 
U.S. policymakers. Chinese government-led investment and 
development projects abroad, such as the Belt and Road 
Initiative, bring with them a robust non-democratic political 
agenda. Just as at home, the Chinese government tries to 
integrate economic development and political control to 
leverage the market without endangering the Party's 
authoritarian values.
    The people of China continued to actively organize and 
advocate for their rights, despite the Chinese government's 
deepening repression. In the labor sector, non-governmental 
organizations and citizen journalists documented numerous 
worker strikes and other labor actions over the past year, 
despite an expanded crackdown on labor advocates and citizen 
journalists throughout the country. At Jasic Technology in 
Shenzhen municipality, Guangdong province, workers who 
attempted to set up a trade union were taken into custody in a 
crackdown starting in July 2018. Authorities also detained 
supporters of the Jasic workers, including university students, 
labor rights advocates, and citizen journalists, many of whom 
remained in detention as of August 2019. Earlier this year, 
Chinese internet technology workers launched a campaign against 
exploitative work hours--referred to as ``996,'' a 9 a.m. to 9 
p.m. schedule for six days a week common in many Chinese 
companies. Such long hours violate China's labor laws.
    Women in China continued to face severe discrimination in 
hiring, wages, and promotions along with gender bias and sexual 
harassment in the workplace. Public pressure from advocacy 
campaigns, including a #MeToo-inspired movement, led Chinese 
officials to initiate policies to address sexual harassment and 
gender discrimination in employment. Nonetheless, inadequate 
enforcement and discriminatory laws persist.
    Rising authoritarianism in China is one of the most 
important challenges of the 21st century. In the coming 
decades, global challenges will require a constructive Chinese 
role that respects and elevates the voices of over 1.3 billion 
people in China instead of suppressing them. U.S. foreign 
policy must prioritize the promotion of universal human rights 
and the rule of law in China, not only to respect and protect 
the basic dignity of the people of China, but to better promote 
security and prosperity for all of humanity.


                                                     Executive 
                                                        Summary
                                                Executive 
                                                Summary

                              Key Findings


                         Freedom of Expression

        <bullet> The Chinese government and Communist Party 
        continued to restrict freedom of expression and freedom 
        of the press in contravention of international human 
        rights standards.
        <bullet> At the UN Human Rights Council's third 
        Universal Periodic Review (UPR) of China's compliance 
        with international human rights norms, non-governmental 
        organizations (NGOs) reported that the Chinese 
        government and Communist Party violated freedom of 
        expression and freedom of the press. NGO stakeholders 
        raised concerns about Chinese government influence over 
        the UPR process.
        <bullet> Conditions for journalism in China continued 
        to deteriorate. Some professional Chinese journalists 
        described current conditions for journalism as an ``era 
        of total censorship.'' In addition, the government's 
        ongoing crackdown on ``citizen journalists'' who have 
        founded or are associated with websites that document 
        human rights violations continued, as seen in the 
        detention of individuals focused on labor conditions, 
        such as Wei Zhili, Yang Zhengjun, and Ke Chengbing. 
        Foreign journalists faced multiple challenges from the 
        government, including surveillance, harassment, and 
        obstruction.
        <bullet> The government and Party continued to link 
        internet security to national security. This past year, 
        authorities detained and prosecuted individuals who 
        criticized government officials and policies online. 
        Authorities also censored or distorted a range of news 
        and information that the government deemed 
        ``politically sensitive,'' including the 30th 
        anniversary of Tiananmen, rights conditions in the 
        Xinjiang Uyghur Autonomous Region (XUAR), the protests 
        in Hong Kong against proposed extradition legislation, 
        and trade issues.
        <bullet> Declining academic freedom in China linked to 
        Party General Secretary and President Xi Jinping's 
        reassertion of ideological control over universities 
        was illustrated by reports of the internment of 
        hundreds of predominantly Uyghur scholars in mass 
        internment camps in the XUAR; the detentions of 
        university students who advocated for labor rights; and 
        the dismissal, suspension, and other forms of 
        discipline imposed on faculty who criticized the 
        government and Party.

                             Worker Rights

        <bullet> China's laws and practices continue to 
        contravene international worker rights standards, 
        including the right to create or join independent trade 
        unions. The All-China Federation of Trade Unions, an 
        organization under the direction of the Chinese 
        Communist Party, remains the only trade union 
        organization permitted under Chinese law.
        <bullet> The Chinese government did not publicly report 
        on the number of worker strikes and protests, and NGOs 
        and citizen journalists continued to face difficulties 
        in obtaining comprehensive information on worker 
        actions. The Hong Kong-based NGO China Labour Bulletin 
        documented 1,702 strikes and other labor actions in 
        2018, up from 1,257 strikes and other labor actions in 
        2017. In March 2019, Chinese internet technology 
        workers launched a campaign against ``996''--a 9 a.m. 
        to 9 p.m. schedule for six days a week common in many 
        Chinese technology companies. The campaign began with a 
        project on the Microsoft-owned software development 
        platform Github that identified how the schedule 
        violates provisions in Chinese labor laws. The project 
        received over 200,000 stars indicating popular support.

 
----------------------------------------------------------------------------------------------------------------
                                                                                                    Total Number
 Year      Manufacturing        Construction        Transportation        Services       Other        Reported
----------------------------------------------------------------------------------------------------------------
 2018   15.5%                44.8%               15.9%                 13.3%          10.6%        1,702
        (263)                (763)               (270)                 (227)          (180)
----------------------------------------------------------------------------------------------------------------
 2017   19.7%                38.1%               8.6%                  15.2%          10.8%        1,257
        (267)                (518)               (117)                 (207)          (148)
----------------------------------------------------------------------------------------------------------------
Source: China Labour Bulletin. Note that the percentages indicate the percentage of total worker actions
  documented that year.

        <bullet> During the 2019 reporting year, Chinese 
        authorities restricted the ability of civil society 
        organizations to work on labor issues, and authorities 
        expanded a crackdown on labor advocates across China. 
        As of August 2019, authorities continued to detain over 
        50 workers and labor advocates, including Fu Changguo, 
        Zhang Zhiyu (more widely known as Zhang Zhiru), and Wu 
        Guijun.
        <bullet> Chinese authorities and university officials 
        monitored, harassed, and detained students and recent 
        graduates who advocated on behalf of workers. 
        Authorities detained approximately 50 supporters of 
        workers who attempted to organize an independent union 
        at Jasic Technology in Shenzhen municipality, Guangdong 
        province, including Peking University graduate Yue Xin. 
        In October 2018, Cornell University's School of 
        Industrial and Labor Relations suspended two student 
        exchange programs with Renmin University due to ``gross 
        violations of academic freedom'' in China. As of May 
        2019, Chinese authorities had detained 21 members of 
        the Marxist Society at Peking University, including Qiu 
        Zhanxuan and Zhang Shengye.
        <bullet> Government data showed a continued decline in 
        workplace deaths this past year, although Chinese 
        workers and labor organizations expressed concern about 
        inadequate safety equipment and training. In March 
        2019, a chemical explosion killed 78 people in Jiangsu 
        province, the largest industrial accident in China 
        since 2015.

                            Criminal Justice

        <bullet> Chinese government and Communist Party 
        officials continued to abuse criminal law and police 
        power to ``maintain stability'' (weiwen) with the goal 
        of perpetuating one-party rule. The Chinese government 
        used the criminal law to target rights advocates, 
        religious believers, and ethnic minority groups.
        <bullet> The government continued to claim that it 
        reserved the death penalty for a small number of crimes 
        and only the most serious offenders. Amnesty 
        International estimated that China carried out more 
        executions than any other country. The death penalty 
        disproportionately targeted ethnic and religious 
        minorities, such as Muslim Uyghurs, for their religious 
        beliefs.
        <bullet> Authorities continued to use various forms of 
        arbitrary detention to deprive individuals of their 
        liberty this past year, contravening international 
        human rights standards.
        <bullet> Authorities held rights advocates, lawyers, 
        petitioners, and others in prolonged pretrial 
        detention, including under ``residential surveillance 
        at a designated location,'' a form of incommunicado 
        detention that can last up to six months, restricts 
        access to counsel, and places detainees at risk of 
        abuse by authorities.

                          Freedom of Religion

        <bullet> Scholars and international rights groups have 
        described religious persecution in China over the last 
        year to be of an intensity not seen since the Cultural 
        Revolution. Chinese Communist Party General Secretary 
        and President Xi Jinping has doubled down on the 
        ``sinicization'' of religion--a campaign that aims to 
        bring religion in China under closer official control 
        and into conformity with officially sanctioned 
        interpretations of Chinese culture. Authorities have 
        expanded the ``sinicization'' campaign to target not 
        only religions perceived as ``foreign,'' such as Islam 
        and Christianity, but also Han Buddhism, Taoism, and 
        folk religious beliefs.
        <bullet> Violations of the religious freedom of Hui 
        Muslim believers continued to intensify, with plans to 
        apply ``anti-terrorism'' measures currently used in the 
        Xinjiang Uyghur Autonomous Region (XUAR) in the Ningxia 
        Hui Autonomous Region (Ningxia)--a region with a high 
        concentration of Hui Muslim believers. A five-year plan 
        to ``sinicize'' Islam in China was passed in January 
        2019. Meanwhile, ongoing policies included measures 
        requiring Islamic religious leaders and lay believers 
        to demonstrate their political reliability.
        <bullet> Chinese authorities continued to subject 
        Protestant Christian believers in China belonging to 
        both official and house churches to increased 
        surveillance, harassment, and control. The Commission 
        observed reports this past year of official bans of 
        large unregistered churches, including Zion Church and 
        Shouwang Church in Beijing municipality; Rongguili 
        Church in Guangzhou municipality, Guangdong province; 
        and Early Rain Covenant Church in Chengdu municipality, 
        Sichuan province. After the PRC Ministry of Foreign 
        Affairs signed an agreement with the Holy See in 
        September 2018 paving the way for unifying the state-
        sanctioned and underground Catholic communities, local 
        Chinese authorities subjected Catholic believers in 
        China to increasing persecution by demolishing 
        churches, removing crosses, and continuing to detain 
        underground clergy.
        <bullet> As in previous years, authorities continued to 
        detain Falun Gong practitioners and subject them to 
        harsh treatment, with 931 practitioners reportedly 
        sentenced for criminal ``cult'' offenses in 2018. Human 
        rights organizations and Falun Gong practitioners 
        documented coercive and violent practices against 
        practitioners during custody, including physical 
        violence, forced drug administration, and other forms 
        of torture.
        <bullet> Bans on religious belief proliferated at the 
        local level for students and various professionals. 
        Party disciplinary regulations were revised to impose 
        harsher punishment on members for manifestations of 
        religious belief.

                         Ethnic Minority Rights

        <bullet> Authorities carried out the physical 
        destruction and alteration of Hui Muslim spaces and 
        structures, continuing a recent trend away from 
        relative toleration of Hui Muslim communities. These 
        changes narrowed the space for Hui Muslim believers to 
        assert an ethnic and religious identity distinct from 
        that of the dominant Han Chinese population.
        <bullet> Mongol herders in the Inner Mongolia 
        Autonomous Region demonstrated and petitioned the 
        government over the loss of traditional grazing lands. 
        As in past reporting years, authorities detained some 
        of the Mongol herders who peacefully protested.

                           Population Control

        <bullet> Central government authorities rejected calls 
        to end birth restrictions, despite population experts 
        and National People's Congress delegates voicing 
        demographic, economic, and human rights concerns over 
        the Chinese government's population control policies. 
        The Commission continued to observe reports of Chinese 
        authorities threatening or imposing punishments on 
        families for illegal pregnancies and births, using 
        methods including heavy fines, job termination, and 
        abortion.
        <bullet> The Chinese government's restrictive family 
        planning policies have exacerbated China's aging 
        society and sex ratio imbalance. Human trafficking for 
        forced marriage and commercial sexual exploitation 
        continue to be challenges that have worsened under the 
        decades-long population control policies implemented by 
        the Chinese government.

 Special Topic: Migrant Neighborhoods a Target of Anti-Crime and Vice 
                                Campaign

        <bullet> An anti-crime campaign launched by central 
        authorities in 2018 was used to target marginalized 
        groups in China. Called the ``Specialized Struggle to 
        Sweep Away Organized Crime and Eliminate Vice,'' the 
        stated aims of the three-year campaign include 
        guaranteeing China's lasting political stability and 
        further consolidating the foundation of Communist Party 
        rule.
        <bullet> The Commission observed reports of local 
        governments invoking this anti-crime campaign in order 
        to target petitioners (individuals and groups who seek 
        redress from the government), religious believers, 
        village election candidates, and lawyers. Some local 
        governments have also increased monitoring of internal 
        migrant neighborhoods in the name of the anti-crime 
        campaign.

                            Status of Women

        <bullet> Women in China face severe discrimination 
        throughout their careers, from job recruitment and 
        hiring to wages and promotions. Gender bias and sexual 
        harassment in the workplace are major factors 
        contributing to the employment gender gap, as well as 
        national laws mandating parental leave and other 
        entitlements for women but not men.
        <bullet> Despite official repression, independent 
        public advocacy for women's rights continue to 
        influence public discourse and policy. Following 
        significant public pressure via advocacy campaigns led 
        by grassroots activists, Chinese officials initiated 
        policies to address gender discrimination in 
        employment. Nonetheless, inadequate enforcement and 
        discriminatory laws persist.
        <bullet> Thirty percent of women have experienced some 
        form of domestic violence, yet as of December 2018--
        nearly three years after the passage of the PRC Anti-
        Domestic Violence Law in March 2016--Chinese courts had 
        issued only a total of 3,718 protection orders.

                           Human Trafficking

        <bullet> Chinese authorities subjected Uyghur Muslims 
        and other ethnic minorities in the XUAR to forced labor 
        in the production of food, textiles, and other goods.
        <bullet> Women and girls from countries including Burma 
        (Myanmar), Cambodia, Indonesia, Laos, Mongolia, North 
        Korea, Pakistan, and Vietnam were trafficked into China 
        for forced marriage and sexual exploitation; and 
        individuals from Burma, Mongolia, Nepal, and North 
        Korea were trafficked to China for the purpose of 
        forced labor. Chinese nationals were trafficked outside 
        of China to other parts of the world, including the 
        United States.
        <bullet> The government of the Democratic People's 
        Republic of Korea (DPRK) reportedly continued to 
        generate revenue by sending DPRK nationals to work in 
        China under conditions that may constitute forced 
        labor, in possible violation of UN sanctions.
        <bullet> Hong Kong remained a destination for the 
        trafficking of migrant domestic workers from Indonesia 
        and the Philippines who face exploitative working 
        conditions.

                     North Korean Refugees in China

        <bullet> The Chinese government continued to detain 
        North Korean refugees in China and repatriate them to 
        the DPRK, where they face severe punishment, including 
        torture, imprisonment, forced labor, and even 
        execution. The repatriation of North Korean refugees 
        violates China's obligations under international human 
        rights and refugee law and may amount to ``aiding and 
        abetting crimes against humanity.'' This past year, 
        Chinese and North Korean authorities reportedly imposed 
        stricter border controls to deter North Korean refugees 
        from escaping the DPRK.
        <bullet> The majority of North Korean refugees leaving 
        the DPRK are women. The Chinese government's refusal to 
        recognize these women as refugees denies them legal 
        protection and may encourage the trafficking of North 
        Korean women and girls within China. Many children born 
        to Chinese fathers and North Korean mothers remain 
        deprived of basic rights to education and other public 
        services, owing to their lack of legal resident status 
        in China, which constitute violations of the PRC 
        Nationality Law and the Convention on the Rights of the 
        Child.

                             Public Health

        <bullet> Food safety and vaccine safety scandals have 
        continued to flare up in the past year, despite the 
        Chinese government's attempts in the past decade to 
        improve quality control. Analysts point to a lack of 
        accountability, weak regulatory capacity and 
        enforcement of laws, corruption, and government 
        procurement systems that favor low-cost goods. The 
        National People's Congress passed a new vaccine 
        management law in June 2019 aimed at strengthening 
        vaccine supervision, penalizing producers of 
        substandard or fake vaccines, and introducing 
        compensation for victims of faulty vaccines.
        <bullet> Despite strong regulations aimed at improving 
        food and vaccine safety and punishment for companies 
        and individuals found guilty of criminal acts, 
        authorities also continued to detain citizens for 
        speaking out and organizing protests, including victims 
        and parents of children who received tainted vaccines.
        <bullet> Chinese authorities reportedly continued to 
        forcibly commit individuals to psychiatric facilities, 
        including government critics and those with grievances 
        against government officials and legal processes, even 
        though the PRC Mental Health Law prohibits such abuses.

                            The Environment

        <bullet> Environmental pollution remained a major 
        challenge in China due to authorities' top-down 
        approach to environmental challenges, transparency 
        shortcomings, and the suppression and detention of 
        environmental advocates. The Chinese government's 
        vision of environmental governance was articulated in 
        the National Development and Reform Commission's work 
        report for 2018, which states, ``the government leads, 
        enterprises are the main actors, and social 
        organizations and the public participate.'' The role 
        for the public in environmental protection, however, 
        remained limited.
        <bullet> In 2018, carbon dioxide emissions in China 
        continued to increase, as Chinese state-owned banks 
        funded international coal-fired power projects. While 
        the Chinese government continued to report progress in 
        environmental protection, a March 2019 ranking of air 
        pollution in over 3,000 cities around the world, 
        indicated that 57 of the 100 most polluted cities in 
        2018 (based on fine particulate concentrations) were in 
        China.

                       Business and Human Rights

        <bullet> Chinese domestic businesses and international 
        businesses are increasingly at risk of complicity in 
        the egregious human rights violations committed by the 
        Chinese Communist Party and government. For example, in 
        the XUAR, experts have documented the rapid expansion 
        of a network of mass internment camps in which 
        authorities have arbitrarily detained over a million 
        individuals from predominantly Muslim ethnic minority 
        groups. The company Hangzhou Hikvision Digital 
        Technology has supplied surveillance systems to the 
        camps as part of a public-private partnership with XUAR 
        authorities.
        <bullet> The Commission observed numerous reports this 
        past year of forced labor in the XUAR. One 
        investigation found that materials from firms using 
        forced labor in the XUAR had entered the supply chains 
        of major international clothing companies including 
        Adidas, H&M, Nike, and Patagonia.
        <bullet> Chinese security authorities continued to work 
        with domestic companies to expand the reach and 
        analytical power of government surveillance systems 
        across China. Chinese technology firms SenseTime, 
        Megvii, CloudWalk, Yitu, and Tiandy all reportedly sold 
        technology to Chinese authorities for use in 
        surveillance systems. The government uses this 
        technology to surveil rights advocates and others the 
        government views as threats.

                             Civil Society

        <bullet> In the past few years, the Chinese government 
        has harshly repressed human rights lawyers, women's 
        rights advocates, labor rights defenders, citizen 
        journalists, and petitioners. In conjunction with the 
        continued implementation of legislative and regulatory 
        reforms passed in 2016 and the increased role and 
        purview of the Party over all aspects of Chinese 
        society, the space non-governmental organizations 
        (NGOs) had in which to carry out human rights advocacy 
        activities continued to shrink.
        <bullet> The Chinese government highlighted overseas 
        NGOs as threats to China's ``political security,'' 
        without defining the term. The Chinese government 
        invoked this vague term to crack down on organizations 
        working in human rights and rule-of-law advocacy.
        <bullet> Chinese government efforts to suppress labor 
        advocacy--labeling such advocacy as driven by foreign 
        interests--made it increasingly difficult for workers 
        in China to organize grassroots efforts and advocate 
        for their rights. Chinese authorities carried out a 
        large-scale nationwide crackdown on labor rights 
        advocates that began in July 2018 when workers at the 
        Jasic Technology factory in Shenzhen municipality, 
        Guangdong province, attempted to organize a labor union 
        and received widespread national support from 
        university students and internet users. Authorities 
        portrayed the labor protests as orchestrated by a 
        ``foreign-funded'' NGO, and harassed, physically 
        assaulted, detained, and prosecuted labor advocates and 
        supporters.
        <bullet> The Chinese government continued to suppress 
        the rights of lesbian, gay, bisexual, transgender, and 
        questioning (LGBTQ) individuals in China. LGBTQ 
        individuals faced a multitude of challenges, including 
        a lack of legal protections. The Chinese government 
        cracked down on organizations and rights defenders 
        active on LGBTQ issues. Nevertheless, LGBTQ advocates 
        supported online campaigns highlighting workplace 
        discrimination and sexual harassment, and censorship. 
        The Chinese government has not followed multiple 
        recommendations from UN bodies regarding LGBTQ 
        protections.

                 Institutions of Democratic Governance

        <bullet> China's one-party authoritarian political 
        system remains out of compliance with international 
        human rights standards because authorities deprived 
        citizens of the right to meaningfully participate in 
        the electoral process and in public affairs in general.
        <bullet> As General Secretary Xi Jinping continued to 
        promote rule-based governance, the Chinese Communist 
        Party passed a series of rules to formalize the manner 
        and extent of the Party's control over the government 
        and society. These rules reinforced the all-
        encompassing authority of the Party and centralized 
        personal leadership of Xi Jinping. One set of rules 
        formalized the Party's longstanding control over the 
        judiciary, the procuratorate, public security agencies, 
        national security agencies, and judicial administration 
        agencies.
        <bullet> Central authorities also issued rules to 
        regulate personnel management in the government by 
        requiring civil servants to receive political 
        indoctrination and by imposing political considerations 
        as criteria for career advancement. In one instance, 
        the Party Central Committee issued an opinion 
        prohibiting officials from expressing views 
        inconsistent with or ``improperly discussing'' the 
        Party's policy even outside of work hours.
        <bullet> Citizens' opportunities to participate in 
        limited local elections diminished this past year. 
        Chinese authorities reduced the frequency of elections 
        for grassroots-level committees--from once every three 
        years to once every five years--in order to synchronize 
        with the terms of the corresponding Party offices, 
        thereby ``complementing the Party's complete 
        leadership.''
        <bullet> On the international stage, China 
        categorically denied responsibility for human rights 
        violations despite evidence of human rights abuses. It 
        further rejected recommendations to cease the practice 
        of arbitrary detention and rejected calls to release 
        political prisoners.

                           Access to Justice

        <bullet> Chinese authorities continued to influence the 
        judiciary, control the legal profession, and persecute 
        human rights lawyers in violation of the International 
        Covenant on Civil and Political Rights.
        <bullet> Official media's promotion of the Party's 
        absolute leadership over the judiciary had a negative 
        impact on the overall judicial process. The Supreme 
        People's Court planned to amend past judicial 
        interpretations to conform to the approved political 
        ideology and not issue any new judicial interpretations 
        unless the topic is specified by the Party. With 
        respect to the legal profession, the Minister of 
        Justice urged lawyers to ``unify their thoughts'' and 
        to accept the Party's complete leadership over their 
        work.
        <bullet> Authorities continued to view legal 
        representation provided by human rights lawyers as a 
        threat to the Party's political security, as they 
        continued to criminally prosecute them on charges such 
        as ``subversion of state power.'' Authorities also 
        restricted the speech and movement of human rights 
        lawyers, and in some cases stripped them of their law 
        licenses.

                                Xinjiang

        <bullet> In the past year, authorities in the XUAR 
        expanded a system of extrajudicial mass internment 
        camps, arbitrarily detaining one million or more 
        Uyghurs, Kazakhs, Kyrgyz, Hui, and others. Security 
        personnel at the camps subjected detainees to torture, 
        including forced ingestion of drugs; punishment for 
        behavior deemed religious; forced labor; overcrowding; 
        deprivation of food; and political indoctrination. 
        Authorities transferred some detainees from mass 
        internment camps in the XUAR to detention facilities in 
        other parts of China, due to factors including 
        overcrowding in camps within the XUAR and authorities' 
        desire to conceal information on camp detainees. Some 
        detainees reportedly died in camps due to poor 
        conditions, medical neglect, or other reasons.
        <bullet> Scholars and rights groups provided strong 
        arguments, based on available evidence, showing that 
        the ``crimes against humanity'' framework may apply to 
        the case of mass internment camps in the XUAR. Article 
        7 of the Rome Statute of the International Criminal 
        Court provides a list of 11 acts, any one of which may 
        constitute ``crimes against humanity'' ``when committed 
        as part of a widespread or systematic attack directed 
        against any civilian population, with knowledge of the 
        attack.''

------------------------------------------------------------------------
 Acts listed in Article 7 of the   Possible application to the treatment
          Rome Statute                 of Turkic Muslims in the XUAR
------------------------------------------------------------------------
(e) Imprisonment or other severe  Arbitrary, prolonged detention of
 deprivation of physical liberty   Uyghurs, Kazakhs, Kyrgyz, Hui, and
 in violation of fundamental       others in mass internment camps in
 rules of international law;       the XUAR since around April 2017;
------------------------------------------------------------------------
(f) Torture;                      Security personnel in mass internment
                                   camps in the XUAR subjected detainees
                                   to widespread torture, including
                                   through the use of electric shocks
                                   and shackling people in painful
                                   positions;
------------------------------------------------------------------------
(h) Persecution against any       Security personnel have detained a
 identifiable group or             million or more Uyghurs, Kazakhs,
 collectivity on political,        Kyrgyz, and Hui; enforced harsh,
 racial, national, ethnic,         widespread restrictions on peaceful
 cultural, religious, gender as    Islamic practices of XUAR residents;
 defined in Paragraph 3 [Article   and subjected Turkic and Muslim XUAR
 7(3) of the Rome Statute], or     residents to intense surveillance,
 other grounds that are            checkpoints, intimidation, and
 universally recognized as         involuntary biometric data
 impermissible under               collection.
 international law, in
 connection with any act
 referred to in this paragraph
 [Article 7 of the Rome Statute]
 or any crime within the
 jurisdiction of the Court;
------------------------------------------------------------------------
(i) Enforced disappearance of     Hundreds of intellectuals forcibly
 persons.                          disappeared by authorities in the
                                   XUAR are among the million or more
                                   Uyghurs, Kazakhs, Kyrgyz, and Hui
                                   detained in mass internment camps.
------------------------------------------------------------------------

        <bullet> Mass internment camp detainees reportedly 
        included permanent residents of the United States and 
        Australia. American officials stated in March 2019 that 
        Chinese authorities may have detained several American 
        residents in mass internment camps. As of April 2019, 
        authorities had reportedly detained more than a dozen 
        Australian residents. In addition, at least five 
        Australian children reportedly were unable to leave the 
        XUAR due to restrictions on the freedom of movement of 
        their parents in the XUAR.
        <bullet> Authorities reportedly placed the children of 
        mass internment camp detainees in the XUAR in 
        orphanages, welfare centers, and boarding schools, 
        often despite the willingness of other relatives to 
        care for the children, raising concerns of forcible 
        assimilation.
        <bullet> XUAR government authorities continued to use 
        surveillance technology and other measures to tighten 
        state control over ethnic minority groups in the 
        region, and to identify individuals to detain in mass 
        internment camps. A Human Rights Watch report 
        documented authorities' continued use of a centralized 
        system known as the ``Integrated Joint Operations 
        Platform'' (IJOP) to compile and analyze information 
        collected through mass surveillance mechanisms in the 
        XUAR and detect ``abnormal'' behaviors, targeting 
        individuals for detention in camps or other types of 
        restriction on movement.

                                 Tibet

        <bullet> The Chinese government and Communist Party 
        significantly tightened restrictions on access to the 
        Tibet Autonomous Region (TAR) and other Tibetan areas 
        in China for international journalists, non-
        governmental organizations (NGOs), foreign officials, 
        scholars, and members of the Tibetan diaspora. Chinese 
        authorities require all foreign visitors to the TAR to 
        apply for a special permit. Tourists must be 
        accompanied by government-designated tour guides, and 
        are only allowed to see controlled sites. International 
        journalists have stated that the isolation of the TAR 
        is worse than that of North Korea, allowing the Chinese 
        government to conceal human rights abuses and 
        environmentally damaging large-scale activities, such 
        as damming rivers and mining, and to promote the claim 
        that Tibetans benefit from and support the Party and 
        its actions.
        <bullet> The government and Party intensified security 
        and surveillance in the TAR and other Tibetan 
        autonomous areas, using increasingly advanced 
        technology, and continued an ``anti-crime and vice 
        campaign'' to crack down on Tibetans suspected of 
        organizing or participating in activities that 
        authorities deem to be threatening to government 
        control or ``social stability.''
        <bullet> Authorities continued to restrict the 
        religious freedom of Tibetan Buddhists under the 
        ``sinicization'' campaign, which aims to bring religion 
        in China under closer official control and into 
        conformity with officially sanctioned interpretations 
        of Chinese culture. Actions taken included mandatory 
        political education for religious leaders, large-scale 
        evictions from influential monasteries, banning 
        religious activities for youth, and replacing images of 
        the Tibetan Buddhists' spiritual leader, the Dalai 
        Lama, with past and current Party leaders Mao Zedong 
        and Xi Jinping.
        <bullet> The Chinese government continued to pursue 
        large-scale infrastructure and investment projects in 
        the TAR and other Tibetan areas, including hydropower 
        dams, mines, and the resettlement of Tibetan nomads, 
        with no apparent representative input from the Tibetan 
        population, independent environmental NGOs, or rights 
        groups. These activities violate the social, economic, 
        and cultural rights of Tibetans, such as their rights 
        to housing and livelihood, and raised concerns among 
        environmental scientists and advocates about their 
        regional and global impact.
        <bullet> The Panchen Lama, Gedun Choekyi Nyima, whom 
        the Dalai Lama recognized in May 1995, reached his 30th 
        birthday on April 25, 2019, while remaining 
        incommunicado in government custody at an unknown 
        location. Moreover, in violation of the religious 
        freedom of Tibetan Buddhists, the Party continued to 
        promote public appearances by its chosen Panchen Lama, 
        Gyaltsen Norbu, including his first trip abroad to 
        Thailand, and to a sacred Buddhist site, adding to 
        speculation that Chinese officials will eventually 
        attempt to use him in efforts to select the next Dalai 
        Lama.

                  Developments in Hong Kong and Macau

        <bullet> The Commission observed a further erosion of 
        Hong Kong's autonomy and fundamental freedoms under the 
        ``one country, two systems'' framework. The Hong Kong 
        government sought to advance changes to the territory's 
        extradition law to allow the surrender of individuals 
        to mainland China and to empower the Chief Executive to 
        make decisions on fugitive arrangements on a case-by-
        case basis without a vetting process in the Legislative 
        Council (LegCo). If passed, the bill would expose local 
        and foreign citizens transiting, visiting, or residing 
        in Hong Kong to the risk of being extradited to China.
        <bullet> A series of mass protests against the 
        extradition bill on the scale of tens of thousands to 
        two million took place in Hong Kong beginning in March 
        2019, garnering widespread international attention and 
        concern. Protests continued throughout the summer, 
        despite the Hong Kong government's decision to 
        suspend--but not withdraw--consideration of the 
        extradition bill. Protesters demanded that the 
        government formally withdraw the extradition bill, 
        create an independent commission to investigate reports 
        of the excessive use of force by police during the 
        protests, retract the characterization of the June 12 
        demonstrations as a ``riot,'' drop all charges against 
        arrested anti-extradition bill protesters, and pursue 
        democratic reforms to allow for universal suffrage in 
        Hong Kong's elections.
        <bullet> Over the past year, the Hong Kong government 
        continued to reject the candidacy of LegCo and local 
        election nominees such as Lau Siu-lai and Eddie Chu 
        Hoi-dick based on their political beliefs and 
        associations, violating Article 21 of the Hong Kong 
        Bill of Rights Ordinance, which guarantees the right to 
        ``vote and be elected at genuine periodic elections.''
        <bullet> The Hong Kong government continued to pursue 
        criminal charges against leaders and participants of 
        public demonstrations, including the 2014 pro-democracy 
        protests (``Umbrella Movement''). In April 2019, a Hong 
        Kong court found nine leaders of the Umbrella Movement 
        guilty of charges related to ``public nuisance'' and 
        sentenced Benny Tai Yiu-ting and Chan Kin-man to 16 
        months in prison and Raphael Wong and Shiu Ka-chun to 8 
        months in prison.
        <bullet> The Hong Kong government limited the freedoms 
        of expression, association, and assembly by banning the 
        pro-independence Hong Kong National Party (HKNP) and 
        rejecting the visa renewal request of Financial Times 
        Asia editor Victor Mallet who hosted an event featuring 
        Andy Chan, founder of the HKNP, months earlier. An 
        event featuring dissident artist Badiucao was canceled 
        over ``safety concerns'' after authorities from the 
        Chinese government reportedly issued threats against 
        the artist.
        <bullet> Chinese government influence over the 
        territory, and Hong Kong officials' willingness to 
        conform to the interests of the Chinese government, 
        continued a trend of decreased autonomy observed over 
        the past several years. This trend has implications for 
        both the protection of the rights and freedoms of the 
        people of Hong Kong and for the future of U.S. policy 
        towards Hong Kong, which is based on the territory's 
        continuing autonomy.
        <bullet> The Commission did not observe progress in 
        Macau toward universal suffrage in the 2019 Chief 
        Executive (CE) election. Former Macau Legislative 
        Assembly president Ho Iat Seng won the uncontested 
        election on August 25, 2019, because he was the only 
        candidate able to garner enough nominations in the 400-
        member CE Election Committee.

                          --------------------


    The Commission's Executive Branch members have participated 
in and supported the work of the Commission. The content of 
this Annual Report, including its findings, views, legal 
determinations, and recommendations, does not necessarily 
reflect the views of individual Executive Branch members or the 
policies of the Administration.
    The Commission adopted this report by a vote of 17 to 
0.<dagger>



    <dagger> Voted to adopt: Representatives McGovern, Kaptur, Suozzi, 
Malinowsky, McAdams, Smith, Mast, and Hartzler; Senators Rubio, 
Lankford, Cotton, Daines, Young, Feinstein, Merkley, Peters, and King.


                                                     Executive 
                                                        Summary
                                                Executive 
                                                Summary

                  Political Prisoner Cases of Concern

    Members of Congress and the Administration are encouraged 
to consult the Commission's Political Prisoner Database (PPD) 
for credible and up-to-date information on individual prisoners 
or groups of prisoners. The Cases of Concern in the 
Commission's 2019 Annual Report highlight a small number of 
individuals whom Chinese authorities have detained or sentenced 
for peacefully exercising their internationally recognized 
human rights. Members of Congress and the Administration are 
encouraged to advocate for these individuals in meetings with 
Chinese government and Communist Party officials. For more 
information on these cases and other cases raised in the Annual 
Report, see the Commission's Political Prisoner Database.

------------------------------------------------------------------------
      Name PPD Record No.            Case Summary (as of August 2019)
------------------------------------------------------------------------
Abdughappar Abdurusul            Date of Detention: July 2018
2018-00645                       Place of Detention: Unknown, but taken
                                  into custody while in Ghulja (Yining)
                                  city, Ili (Yili) Kazakh Autonomous
                                  Prefecture, Xinjiang Uyghur Autonomous
                                  Region (XUAR)
                                 Charge: Unknown
                                 Status: Sentenced to death
                                 Context: A 42-year-old businessman and
                                  philanthropist living in Ghulja,
                                  Abdughappar Abdurusul may have been
                                  detained for taking the Hajj
                                  pilgrimage independently, rather than
                                  through a Chinese government-organized
                                  group. His brother reported that
                                  officials sentenced Abdurusul to death
                                  in a mass trial without legal counsel
                                  and seized his family's assets.
                                 Additional Information: Authorities
                                  also reportedly detained his wife,
                                  Merhaba Hajim, in April 2018, and held
                                  her in a mass internment camp. She
                                  reportedly died in detention. In 2017,
                                  authorities detained their eldest son
                                  Abuzer, then 18, after he returned to
                                  China from studying in Turkey.
                                  Authorities also detained Abdurusul's
                                  younger brother Abduqadir Abdurusul
                                  and his wife (name not reported) in or
                                  around July 2018. Details on their
                                  detentions were unavailable.
------------------------------------------------------------------------
Rahile Dawut                     Date of Detention: December 2017
2018-00552                       Place of Detention: Unknown, possibly
                                  held in a mass internment camp in the
                                  XUAR
                                 Charge: Unknown
                                 Status: Disappeared
                                 Context: Uyghur ethnographer Rahile
                                  Dawut disappeared and is believed to
                                  be held in a mass internment camp.
                                  Friends and other observers suggested
                                  authorities may have detained her due
                                  to her efforts to preserve Uyghur
                                  culture and heritage, or her foreign
                                  connections. She formerly taught at
                                  Xinjiang University and is well
                                  regarded for her scholarly research on
                                  traditional Uyghur culture.
                                 Additional Information: At least one of
                                  Dawut's graduate students also
                                  reportedly disappeared.
------------------------------------------------------------------------
Tashpolat Teyip                  Date of Detention: March 2017
2019-00064                       Place of Detention: Unknown location in
                                  the XUAR
                                 Charge: Possibly related to separatism
                                 Status: Sentenced to death with 2-year
                                  reprieve
                                 Context: Xinjiang University president
                                  Tashpolat Teyip disappeared in Beijing
                                  municipality as he prepared to fly to
                                  Germany to attend a conference. A
                                  Uyghur geographer who received
                                  international acclaim for his
                                  environmental research, authorities
                                  accused Teyip of being a
                                  ``separatist,'' together with 5 other
                                  Uyghur intellectuals. Authorities
                                  reportedly cracked down on Teyip for
                                  being ``two-faced,'' a term Chinese
                                  officials use to refer to ethnic
                                  minority cadres who pretend to support
                                  the Chinese Communist Party. A student
                                  of Teyip said his custom of beginning
                                  public statements with a Uyghur
                                  greeting may have prompted authorities
                                  to target him.
------------------------------------------------------------------------
Sanubar Tursun                   Date of Detention: Late 2018
2019-00071                       Place of Detention: Unknown, possibly
                                  held in a mass internment camp in the
                                  XUAR
                                 Charge: Unknown
                                 Status: Unknown
                                 Context: Renowned Uyghur singer Sanubar
                                  Tursun disappeared inside China in
                                  late 2018. In November 2018, concerts
                                  she had been scheduled to perform in
                                  France in February 2019 were canceled,
                                  after her international contacts could
                                  no longer reach her. Authorities may
                                  have sentenced Tursun to 5 years in
                                  prison, but sources were unable to
                                  confirm this.
------------------------------------------------------------------------
Bonkho Kyi                       Date of Detention: November 2015
2012-00261                       Place of Detention: A prison in
                                  Wenchuan (Lunggu) county, Aba (Ngaba)
                                  Tibetan & Qiang Autonomous Prefecture
                                  (T&QAP), Sichuan province
                                 Charge: Unknown
                                 Status: Sentenced to 7 years
                                 Context: Between October and December
                                  2015, public security officials in Aba
                                  (Ngaba) county, Aba T&QAP, detained at
                                  least 8 Tibetans accused of
                                  involvement in organizing observances
                                  of the Dalai Lama's 80th birthday,
                                  including Bonkho Kyi, who had helped
                                  organize a public picnic to celebrate
                                  the birthday.
                                 Additional Information: Other Tibetans
                                  in Aba county detained for
                                  commemorating the Dalai Lama's 80th
                                  birthday included Argya Gya (Akyakya),
                                  Tsultrim (Tsulte), and Tsultrim, all
                                  of whom remained in detention.
------------------------------------------------------------------------
Tashi Wangchug (also spelled     Date of Detention: January 27, 2016
 Wangchuk)                       Place of Detention: Dongchuan Prison,
2016-00077                        Qinghai province
                                 Charge: Inciting separatism
                                 Status: Sentenced to 5 years
                                 Context: Tibetan language rights
                                  advocate and entrepreneur Tashi
                                  Wangchug (also spelled Wangchuk)
                                  shared information online calling on
                                  the Qinghai provincial government to
                                  improve bilingual education and hire
                                  more bilingual civil servants.
                                  Authorities used as evidence in Tashi
                                  Wangchug's trial a short New York
                                  Times documentary that featured his
                                  attempts to file a lawsuit over the
                                  lack of sufficient Tibetan-language
                                  education.
------------------------------------------------------------------------
Bian Lichao                      Date of Detention: February 25, 2012
2015-00171                       Place of Detention: Shijiazhuang
                                  Prison, Hebei province
                                 Charge: Unknown
                                 Status: Sentenced to 12 years
                                 Context: Public security officials
                                  detained middle school teacher and
                                  Falun Gong practitioner Bian Lichao,
                                  allegedly because he made DVDs and
                                  other materials to promote the Falun
                                  Gong-connected Shen Yun performance
                                  arts group.
                                 Additional Information: In 2014,
                                  authorities also detained Bian's wife,
                                  daughter, and another relative in
                                  connection with Bian's daughter's
                                  attempts to visit him in prison.
------------------------------------------------------------------------
Gao Zhisheng                     Date of Detention: August 2017
2005-00291                       Place of Detention: Beijing
                                  municipality (unconfirmed).
                                  Authorities disappeared Gao while
                                  holding him at his family's home in
                                  Jia county, Yulin municipality,
                                  Shaanxi province.
                                 Charge: Unknown (if any)
                                 Status: Disappeared
                                 Context: The reason for Gao's current
                                  detention is unknown. Since August
                                  2006, authorities have held Gao--a
                                  former lawyer whose license was
                                  suspended in 2005--under various forms
                                  of detention, reportedly for
                                  representing farmers in land
                                  expropriation cases and for writing
                                  open letters condemning persecution of
                                  Falun Gong practitioners and
                                  Christians. Authorities reportedly
                                  tortured Gao during detention.
------------------------------------------------------------------------
Huang Qi                         Date of Detention: November 28, 2016
2004-04053                       Place of Detention: Mianyang PSB
                                  Detention Center, Sichuan province
                                 Charges: Illegally providing state
                                  secrets to foreign entities,
                                  intentionally leaking state secrets
                                 Status: Sentenced to 12 years
                                 Context: Huang Qi is a citizen
                                  journalist and founder of the website
                                  64 Tianwang, which reported on
                                  petitioners and other human rights
                                  issues in China. Huang previously
                                  served prison sentences for posting
                                  articles online about the 1989
                                  Tiananmen protests and Falun Gong, and
                                  for aiding the parents of children who
                                  died in the 2008 earthquake in
                                  Sichuan.
                                 Additional Information: Authorities
                                  have refused requests for medical
                                  parole despite Huang's life-
                                  threatening kidney disease.
                                  Authorities have also detained Huang's
                                  85-year-old mother, Pu Wenqing, in
                                  confinement at home and at a hospital
                                  since December 2018.
------------------------------------------------------------------------
Jiang Wei                        Date of Detention: November 9, 2015
2018-00366                       Place of Detention: Liaoning Women's
                                  Prison, Liaoning province
                                 Charge: Unknown
                                 Status: Sentenced to 12 years
                                 Context: Jiang is a Falun Gong
                                  practitioner who has been detained
                                  multiple times for her beliefs.
                                  Previously, authorities ordered Jiang
                                  to serve 3 years at a reeducation-
                                  through-labor camp in 1999, subjecting
                                  her to electric shocks and other
                                  physical abuse. In 2004, authorities
                                  sentenced Jiang to 8 years in prison,
                                  and later committed her to a
                                  psychiatric hospital.
                                 Additional Information: Jiang has
                                  reportedly endured maltreatment while
                                  in prison, including abusive language,
                                  beatings, and 15 days of solitary
                                  confinement. While in solitary, she
                                  was kept in a cell too small to stand
                                  in. She was also forced to eat and
                                  defecate in the cell, which was
                                  infested with flies and mosquitoes.
------------------------------------------------------------------------
Li Yuhan                         Date of Detention: October 9, 2017
2017-00361                       Place of Detention: Shenyang No. 1 PSB
                                  Detention Center, Liaoning province
                                 Charges: Picking quarrels and provoking
                                  trouble, fraud
                                 Status: Pretrial detention
                                 Context: A lawyer, Li previously
                                  represented rights lawyer Wang Yu,
                                  whom authorities detained in a
                                  crackdown on human rights legal
                                  professionals that began in mid-2015.
                                 Additional Information: Li suffers from
                                  various health conditions, including
                                  heart disease, hypertension, and
                                  hyperthyroidism. Staff at the
                                  detention center reportedly instructed
                                  other inmates to urinate on her food,
                                  denied her hot water for showers,
                                  denied her medical treatment, and
                                  threatened to beat her to death. In
                                  March 2018, Li went on a hunger strike
                                  to protest the mistreatment, which
                                  prompted detention center officials to
                                  force-feed her.
------------------------------------------------------------------------
Qin Yongmin                      Date of Detention: January 9, 2015
2004-02138                       Place of Detention: Guanghua Prison,
                                  Hubei province
                                 Charge: Subversion of state power
                                 Status: Sentenced to 13 years
                                 Context: A longstanding democracy
                                  advocate, Qin Yongmin previously
                                  served 8 years in prison for his
                                  participation in the Democracy Wall
                                  movement and 12 years in prison for
                                  his role in co-founding the China
                                  Democracy Party. He also co-founded
                                  the NGO China Human Rights Watch (also
                                  known as ``Rose Group''). A 2018 court
                                  decision noted the 2012 publication in
                                  Hong Kong of Qin's writings on
                                  peaceful democratic transition.
                                 Additional Information: Authorities
                                  detained Qin's wife, Zhao Suli, around
                                  the same time as Qin. After more than
                                  3 years of ``enforced disappearance,''
                                  Zhao returned to her Wuhan home around
                                  February 2018. Authorities continued
                                  to restrict Zhao's activities after
                                  her release.
------------------------------------------------------------------------
Wang Yi                          Date of Detention: December 9, 2018
2018-00615                       Place of Detention: Chengdu PSB
                                  Detention Center, Sichuan province
                                 Charges: Inciting subversion of state
                                  power, illegal business activity
                                 Status: Pretrial detention
                                 Context: Authorities detained Early
                                  Rain Covenant Church pastor and
                                  founder Wang Yi one day before
                                  officially banning the unregistered
                                  Protestant church located in Chengdu
                                  municipality, Sichuan. Wang's
                                  detention took place amid a broad
                                  crackdown on unregistered churches in
                                  China.
                                 Additional Information: In addition to
                                  Wang, authorities detained at least
                                  100 Early Rain members beginning in
                                  December 2018. Authorities continued
                                  to surveil many of the members even
                                  after releasing them, including Wang's
                                  wife, Jiang Rong. Church members
                                  reported that while in detention they
                                  were force-fed unknown medication and
                                  were coerced to confess or to falsely
                                  accuse Wang and other church leaders
                                  of wrongdoing.
------------------------------------------------------------------------
Yue Xin                          Date of Detention: August 24, 2018
2018-00665                       Place of Detention: Unknown
                                 Charge: Unknown
                                 Status: Disappeared
                                 Context: Beginning in July 2018,
                                  authorities took into custody over 60
                                  individuals connected to factory
                                  workers' attempts to form a labor
                                  union at Jasic Technology (Jasic) in
                                  Shenzhen municipality, Guangdong
                                  province. On August 19, Peking
                                  University graduate Yue Xin published
                                  an open letter calling on central
                                  authorities to permit the workers to
                                  unionize. On August 24, police
                                  detained Yue Xin and about 50
                                  individuals who had gathered in
                                  Shenzhen to show support for the
                                  detained Jasic workers.
                                 Additional Information: Authorities
                                  continued to hold at least 32
                                  individuals in detention in connection
                                  with the Jasic protests as of December
                                  7, 2018. In January 2019, Yue Xin and
                                  other student supporters of Jasic
                                  workers appeared in a video giving
                                  what appeared to be forced
                                  confessions.
------------------------------------------------------------------------
Zhang Haitao                     Date of Detention: June 26, 2015
2015-00343                       Place of Detention: Shaya Prison, XUAR
                                 Charges: Inciting subversion of state
                                  power; stealing, spying, purchasing,
                                  and illegally providing state secrets
                                  and intelligence for overseas entities
                                 Status: Sentenced to 19 years, upheld
                                  on appeal
                                 Context: In June 2015, authorities in
                                  Urumqi municipality, XUAR, reportedly
                                  launched a ``clean-up of individuals
                                  active on the internet'' campaign as
                                  part of a ``stability maintenance''
                                  effort in the region, detaining Zhang
                                  in connection to his online criticism
                                  of the government's ethnic minority
                                  policies.
------------------------------------------------------------------------
Zhang Zhiyu                      Date of Detention: January 20, 2019
(more widely known as            Place of Detention: Detention center in
Zhang Zhiru)                      Bao'an district, Shenzhen
2019-00117                        municipality, Guangdong province
                                 Charge: Gathering a crowd to disturb
                                  social order
                                 Status: Formally arrested, awaiting
                                  trial
                                 Context: Zhang Zhiyu (more widely known
                                  as Zhang Zhiru) was one of five labor
                                  advocates whom authorities detained in
                                  January 2019. These detentions appear
                                  to be part of an ongoing crackdown on
                                  grassroots labor advocacy. Zhang is
                                  the director of the Chunfeng Labour
                                  Dispute Service Center, which he
                                  founded in 2007, and has been involved
                                  in many landmark labor disputes.
------------------------------------------------------------------------

    In addition, members of Congress and the Administration are 
encouraged to advocate for the increasing number of individuals 
prosecuted and imprisoned in connection with their promotion of 
democracy or human rights in Hong Kong. For more information on 
the following case and related cases, see Section VI--
Developments in Hong Kong and Macau in this report.

------------------------------------------------------------------------
             Name                   Case Summary (as of August 2019)
------------------------------------------------------------------------
Chan Kin-man                    Date of Detention: Began serving
                                 sentence April 24, 2019
                                Place of Detention: Pik Uk Prison, Sai
                                 Kung, New Territories, Hong Kong
                                Charges: Conspiracy to commit public
                                 nuisance, incitement to commit public
                                 nuisance, incitement to incite public
                                 nuisance
                                Status: Sentenced to 1 year and 4
                                 months, appeal filed
                                Context: Professor Chan Kin-man of the
                                 Chinese University of Hong Kong,
                                 Professor Benny Tai of the University
                                 of Hong Kong, and Reverend Chu Yiu-ming
                                 initiated the peaceful ``Occupy Central
                                 with Love and Peace Campaign'' in 2013,
                                 demanding universal suffrage for the
                                 2017 Chief Executive (CE) election and
                                 2020 Legislative Council elections. In
                                 response to the National People's
                                 Congress Standing Committee August 2014
                                 decision that the CE would not be
                                 elected by universal suffrage in 2017,
                                 Chan and others mobilized supporters to
                                 protest the decision in what is now
                                 known as the ``Umbrella Movement,''
                                 during which protesters occupied the
                                 Central district in Hong Kong for 79
                                 days, demanding electoral reform and
                                 universal suffrage.
                                Additional information: Hong Kong
                                 authorities pursued charges related to
                                 public nuisance against 9 pro-
                                 democracy advocates for their
                                 activities in the Umbrella Movement. In
                                 2019, a Hong Kong court found them
                                 guilty on April 9, and on April 24,
                                 sentenced Chan Kin-man and Benny Tai to
                                 1 year and 4 months in prison, and Chu
                                 Yiu-ming to 1 year and 4 months,
                                 suspended for 2 years. On August 15,
                                 2019, Tai was released on bail pending
                                 appeal.
------------------------------------------------------------------------



                                                     Executive 
                                                        Summary
                                                Executive 
                                                Summary

       General Recommendations to Congress and the Administration

    As the Chinese government and Communist Party continue to 
erode the rule of law in China and the human rights of the 
Chinese people, the U.S. Government should develop coordinated 
policies that reflect that pressing for greater transparency, 
reciprocity, and adherence to universal standards is necessary 
to advance American interests and the interests of Chinese 
citizens eager for peace, rights protections, the rule of law, 
and genuine political reform. A shared commitment to universal 
human rights and the rule of law--and willingness to act in 
their defense--is the foundation for the cooperative alliances, 
security partnerships, and multilateral consultative mechanisms 
underpinning U.S. power since the end of World War II. The 
Commission makes the following recommendations for 
consideration by Congress and the Administration:
    <bullet> Develop a Whole-of-Government Approach to Human 
Rights in China. In order to ensure that the U.S. Government 
can strategically address a more authoritarian China, the 
President should issue a policy directive to develop a 
comprehensive strategy embedding human rights, the rule of law, 
and democratic governance into the critical mission strategies 
of all U.S. Government entities interacting with the Chinese 
government. This strategy should include expanding efforts 
within the U.S. Government to counter disinformation, coercive 
political influence operations, and censorship efforts, 
particularly those targeting diaspora communities. As the 
Administration develops this strategy, attention should be paid 
to messaging and programs that address the rights violations 
that affect the largest number of Chinese citizens, 
particularly workers, families, religious believers, ethnic 
minority groups, internet users, women, and rural residents; 
avoid fostering an atmosphere of unfair suspicion of Chinese-
Americans who are often targets of coercive political influence 
operations; and inform Chinese nationals of their civil rights 
while living, studying, or working in the United States.
    <bullet> Address Abuses in the Xinjiang Uyghur Autonomous 
Region (XUAR). The Administration should aggregate policy 
responses within the U.S. Government to address gross human 
rights violations in the XUAR, including by:

          Using Global Magnitsky Human Rights Accountability 
        Act (Public Law No. 114-328) sanctions to hold 
        accountable Chinese business entities and officials 
        complicit in the mass internment and surveillance of 
        Uyghurs and other Turkic Muslim minorities and to 
        encourage like-minded allies to issue their own 
        sanctions.
          Controlling sales of new and emerging technologies, 
        including facial recognition systems, machine learning, 
        and biometric and artificial intelligence technologies, 
        by placing the XUAR government and security agencies on 
        the U.S. Department of Commerce's ``Entity List.''
          Requesting an open debate or, at the very least, an 
        Arria-formula briefing at the UN Security Council on 
        the XUAR, and initiating or signing on to joint 
        statements on the XUAR at the UN Human Rights Council.
          Creating guidelines for counterterrorism and law 
        enforcement cooperation with China and other countries 
        in the Shanghai Cooperation Organization to ensure that 
        the U.S. Government does not condone or assist in 
        Chinese authorities' crackdown on domestic political 
        dissent or restrictions on internationally recognized 
        human rights.
          Working with Congress to pass legislation that 
        provides information and new authorities, including 
        export controls and limitations on U.S. Government 
        procurement from China, that will allow a more robust 
        approach to the Chinese government's atrocities in the 
        XUAR, including through passage of the Uyghur Human 
        Rights Policy Act of 2019 (S. 178/H.R. 649).

    <bullet> Hold Chinese Government Officials Accountable for 
Abuses. In addition to the list-based sanctions of the Global 
Magnitsky Act, the Administration should strategically use the 
mechanisms available in the International Religious Freedom Act 
of 1998 (Public Law No. 105-292), the Victims of Trafficking 
and Violence Protection Act of 2000 (Public Law No. 106-386), 
the North Korea Sanctions and Policy Enhancement Act of 2016 
(Public Law No. 114-122), and the Admiral James W. Nance and 
Meg Donovan Foreign Relations Authorization Act of 2000 (Public 
Law No. 106-113--Appendix G) to levy financial sanctions 
against or deny U.S.-entry visas to Chinese officials complicit 
in human rights violations including severe religious freedom 
restrictions and human trafficking.
    <bullet> Update the ``Tiananmen Sanctions.'' Congress 
should strengthen existing sanctions prohibiting the sale of 
``crime control and detection'' equipment (Public Law No. 101-
246 902(a)(4)) to the Chinese government to include related 
services and training, as well as add language identifying and 
controlling the technology needed for mass surveillance, the 
creation of predictive policing platforms, and the gathering of 
sensitive electronic or biometric information.
    <bullet> Condition Access to U.S. Capital Markets. The 
Administration should identify and list Chinese companies and 
entities with a presence in U.S. capital markets that have 
provided material support or technical capabilities to 
facilitate human rights abuses in China--including in the 
XUAR--and strengthen disclosure requirements at the Securities 
and Exchange Commission to alert American investors about the 
presence of such Chinese entities in U.S. capital markets.
    <bullet> Address the Erosion of Hong Kong's Autonomy. The 
Congress should pass the Hong Kong Human Rights and Democracy 
Act of 2019 (S. 1838 / H.R. 3289), which requires an annual 
certification of Hong Kong's autonomy to spur regular 
discussions on how to maintain Hong Kong's special trade and 
economic status under U.S. law. The bill also provides tools to 
hold accountable Hong Kong and Chinese government officials who 
suppress freedom of expression and assembly or undermine the 
rule of law.
    <bullet> Update the Tibetan Policy Act. The Congress should 
update the Tibetan Policy Act of 2002 (Public Law No. 107-228) 
to clarify in U.S. policy that the reincarnation of the Dalai 
Lama is an exclusively religious matter that should be made 
solely by the Tibetan Buddhist faith community. The legislation 
should make clear that Chinese officials who interfere in the 
process of recognizing a successor or reincarnation of the 
Dalai Lama will be subject to targeted financial, economic, and 
visa-related sanctions like those in the Global Magnitsky Act. 
The Administration should heed the guidance from Congress on 
the implementation of the Reciprocal Access to Tibet Act of 
2018 (Public Law No. 115-330) and use the sanctions available 
in the act against Chinese officials responsible for denying 
Americans access to Tibetan regions.
    <bullet> Voice Support for Human Rights in China. Members 
of Congress and Administration officials, especially the 
President, should regularly meet with Chinese civil society and 
human rights defenders, Hong Kong civil society, the Dalai Lama 
and other Tibetans in exile including the Central Tibetan 
Administration, members of the Uyghur diaspora, and other human 
rights advocates and non-governmental organizations. It is also 
essential that the President of the United States express 
support for human rights and democracy in China.
    <bullet> Address Digital Authoritarianism. Because the 
growth of digital authoritarianism is one of the most urgent 
national security and human rights challenges associated with 
the Chinese government's foreign policy, the Administration and 
the Congress should work together to:

          Lead a global effort with allies and partners to 
        develop a set of principles for Artificial Intelligence 
        (AI) development and usage to ensure the protection of 
        human rights, including the right to privacy.
          Launch a digital infrastructure initiative that makes 
        information and communication technology development a 
        priority for U.S. foreign assistance programs, 
        including through implementation of the BUILD Act of 
        2018 (Public Law No. 115-254).

    <bullet> Counter Internet Censorship. The Administration 
should develop a comprehensive interagency action plan to 
promote internet freedom through the funding and wide 
distribution of effective technologies that provide the 
greatest possible access to the internet within China and 
globally. The plan could include actively opposing the Chinese 
government's efforts to establish a new international norm of 
``internet sovereignty,'' expanding digital security training 
for civil society advocates, and transparently employing 
congressionally mandated funding to circumvent China's ``Great 
Firewall.'' In addition, the Administration should develop 
talking points for U.S. Government officials--including those 
engaged in trade negotiations--that consistently link freedoms 
of press, speech, and association to U.S. and Chinese 
interests, noting how censorship prevents the free flow of 
information on issues of public concern, including public 
health and environmental crises, food safety problems, and 
corruption.
    <bullet> Promote Transparency in University and Think Tank 
Funding. As part of any amendment to the U.S. Higher Education 
Act of 1965 (Public Law No. 89-329), Congress should require 
U.S. colleges and universities to publicly report all foreign 
gifts, contracts, and in-kind contributions that exceed $10,000 
per year from a single foreign government, institution, or 
group of institutions. U.S. think tanks and other non-
governmental organizations should be required to publicly 
disclose all foreign grants and gifts as part of their tax 
filings to maintain non-profit status.
    <bullet> Counter Foreign Malign Influence. The 
Administration should provide to Congress a strategy to address 
the strategic challenge posed by the Chinese government's 
intensified use of disinformation, propaganda, economic 
intimidation, and political influence operations to weaken 
commitments to universal human rights and promote the Chinese 
Communist Party's political-economic model globally. The 
Administration should develop an action plan to counter the 
Chinese government's ``sharp power'' efforts globally, 
monitoring and controlling foreign influence operations and 
providing information about the Chinese ministries, entities, 
and individuals engaged in foreign influence operations and 
their connections with entities of the Chinese Communist Party 
or government. The Congress should pass the ``Countering the 
Chinese Government and Communist Party's Political Influence 
Operations Act'' (S. 480/H.R. 1811) that, among other 
priorities, clarifies that U.S. Government policy and 
statements should clearly differentiate between the Chinese 
people and culture and the Chinese government and Communist 
Party, ensuring that central Chinese government and Party 
political influence operations do not lead to the targeting of 
Chinese-Americans or the Chinese diaspora.
    <bullet> Expand the Mandate of the Foreign Agents 
Registration Act (FARA). The Administration and the Congress 
should work together to expand the mandate of the Foreign 
Agents Registration Act of 1938 (FARA) (Act June 8, 1938, ch. 
327, sec. 14) to bring oversight and transparency to issue 
areas beyond foreign representation and address the challenges 
the United States faces today, which include incidents of 
Chinese Students and Scholars Associations working with Chinese 
embassies and consulates in the United States, Confucius 
Institutes and Classrooms at U.S. universities and high 
schools, and American companies accepting funding from Chinese 
sources to acquire technologies prohibited by U.S. export 
controls.
    <bullet> Develop a Non-Governmental Code of Conduct. The 
Administration should work with U.S. non-governmental 
organizations and academic institutions to formulate a code of 
conduct for interacting with Chinese government-affiliated 
entities to assist them in navigating the challenges of working 
effectively in China and to counter influence operations that 
are manipulative, coercive, or corrupting of democratic 
institutions and help protect human rights and academic 
freedom.
    <bullet> Prioritize Reciprocity. The Administration, as 
part of ongoing trade discussions, should seek a rules-of-the-
road agreement that will correct longstanding diplomatic, 
investment, media, and cultural and academic exchange 
imbalances in U.S.-China relations and provide to Congress a 
strategy for pursuing reciprocity more generally in U.S.-China 
relations, particularly to ensure that U.S.-based media outlets 
and non-governmental organizations have the same freedom to 
operate, publish, and broadcast afforded to a growing number of 
Chinese government-sponsored and funded think tanks, academic 
institutions, and media entities in the United States.
    <bullet> Expand Global Alliances to Advance Human Rights. 
International responses to human rights have the greatest 
impact when the U.S. Government exercises effective diplomatic 
leadership with our allies and partners. The Administration 
should send to Congress a multilateral human rights diplomacy 
strategy on China, to coordinate responses when the Chinese 
government uses multilateral institutions to undermine human 
rights norms and closes off discussion of its failures to 
uphold its international obligations. The Administration should 
also consider as part of such strategy:

          Creating a public mechanism for coordinating human 
        rights diplomacy and technical assistance programs with 
        like-minded allies that includes the meaningful 
        participation of experts and non-governmental 
        organizations from all participating countries.
          Expanding funding for capacity-building initiatives 
        for rights and rule-of-law advocates in settings 
        outside China, given growing restrictions on the 
        funding of civil society organizations inside China.
          Forming a multinational human rights dialogue where 
        the U.S. Government invites countries without human 
        rights dialogues with China (or those whose human 
        rights dialogues have been canceled by the Chinese 
        government) to participate in or observe formal 
        discussions with the Chinese government.
          Coordinating public statements, diplomatic demarches, 
        and public diplomatic efforts to condemn detentions of 
        political and religious prisoners and other serious 
        human rights abuses in China, and creatively 
        communicating these efforts to the Chinese people.

    <bullet> Prioritize an End to Torture and Arbitrary 
Detention Through Diplomatic Engagement. The Administration 
should prioritize an end to torture in detention and all forms 
of arbitrary detention in China and raise these issues in all 
bilateral discussions and in multilateral institutions of which 
the U.S. and China are members. The Administration should 
create public diplomacy campaigns and support media efforts to 
raise global awareness about the detention of political and 
religious prisoners in ``black jails,'' psychiatric 
institutions, compulsory drug detoxification centers, police 
and state security detention centers, and mass internment camps 
in the XUAR. In addition, the Administration should consider 
funding non-governmental projects that assist individuals with 
submissions to the UN Working Group on Arbitrary Detention, in 
order to provide actionable information to the UN High 
Commissioner for Human Rights and UN system of Special 
Procedures, and to accumulate evidence on Chinese officials 
complicit in the torture and arbitrary detention of political 
and religious prisoners.
    <bullet> Take Meaningful Action to Address Human 
Trafficking. To respond to China's ``Tier 3'' designation for 
failing to meet minimum standards for addressing human 
trafficking, the Administration should use all the tools 
available in the Victims of Trafficking and Violence Protection 
Act of 2000 (Public Law No. 106-386) and the Girls Count Act of 
2015 (Public Law No. 114-24), including individual sanctions 
for officials and entities complicit in human trafficking. In 
addition, the Administration should send Congress a strategy to 
address forced labor in the XUAR, including by publicly 
identifying Chinese businesses profiting from such labor, 
assisting corporations to identify forced labor goods from the 
XUAR in global supply chains, and expanding the use of the 
``reasonable suspicion'' standard found in the Trade 
Facilitation and Trade Enforcement Act of 2015 (TFTEA) (Public 
Law No. 114-125) to stop goods made with forced labor from 
entering the United States.
    <bullet> Protect North Korean Refugees. The Administration 
should employ the tools available in the North Korean Human 
Rights Act of 2004 (Public Law No. 108-333) and the North Korea 
Sanctions and Policy Enhancement Act (Public Law No. 114-122) 
to expand efforts to channel uncensored news and information 
into North Korea and to North Korean asylum seekers in China, 
including through defector communities, and to impose secondary 
sanctions on Chinese corporations, individuals, or banks that 
profit from North Korean forced labor and those assisting the 
North Korean government in avoiding international sanctions. 
The Special Representative for North Korea at the Department of 
State should provide Congress with a strategy to protect North 
Korean refugees in China, implement the recommendations of the 
Commission of Inquiry on Human Rights in North Korea, and close 
existing prison labor camps and other forms of arbitrary 
detention in North Korea and in China where refugees are 
detained.
    <bullet> Advocate for Specific Political Prisoners. Members 
of Congress and Administration officials at the highest levels 
should raise specific prisoner cases in meetings with Chinese 
government officials. Experience demonstrates that consistently 
and prominently raising individual prisoner cases--and the 
larger human rights issues they represent--can result in 
improved treatment in detention, lighter sentences or, in some 
cases, release from custody, detention, or imprisonment. The 
Administration should consider creating a Special Advisor for 
Religious and Political Prisoners to coordinate interagency 
resources on behalf of political and religious prisoners in 
China and globally. Members of Congress are encouraged to 
``adopt'' individual prisoners and advocate on their behalf 
through the Tom Lantos Human Rights Commission's ``Defending 
Freedoms Project.''


                                                     Executive 
                                                        Summary
                                                Executive 
                                                Summary

                      Political Prisoner Database


                            Recommendations

    When composing correspondence advocating on behalf of a 
political or religious prisoner, or preparing for official 
travel to China, Members of Congress and Administration 
officials are encouraged to:

          Check the Political Prisoner Database (PPD) (https://
        ppdcecc.gov) for reliable, up-to-date information on a 
        prisoner or groups of prisoners. Consult a prisoner's 
        database record for more detailed information about the 
        prisoner's case, including his or her alleged crime, 
        specific human rights that officials have violated, 
        stage in the legal process, and location of detention 
        or imprisonment, if known.
          Advise official and private delegations traveling to 
        China to present Chinese officials with lists of 
        political and religious prisoners compiled from 
        database records.
          Urge U.S. state and local officials and private 
        citizens involved in sister-state and sister-city 
        relationships with China to explore the database, and 
        to advocate for the release of political and religious 
        prisoners in China.

                    A POWERFUL RESOURCE FOR ADVOCACY

    The Commission's 2019 Annual Report provides information 
about Chinese political and religious prisoners \1\ in the 
context of specific human rights and rule-of-law abuses. Many 
of the abuses result from the Chinese Communist Party and 
government's application of policies and laws. The Commission 
relies on the Political Prisoner Database (PPD), a publicly 
available online database maintained by the Commission, for its 
research, including the preparation of the Annual Report, and 
routinely uses the database as a resource to prepare summaries 
of information about and support advocacy for political and 
religious prisoners for Members of Congress and Administration 
officials. The Commission invites the public to read about 
issue-specific Chinese political imprisonment in sections of 
this Annual Report, and to access and make use of the PPD at 
https://ppdcecc.gov. (Information about the PPD is also 
available at https://www.cecc.gov/resources/political-prisoner-
database.)
    The PPD received approximately 306,974 online requests for 
prisoner information during the 12-month period ending July 31, 
2019--a change of approximately negative 38.96 percent compared 
with the 502,900 requests reported in the Commission's 2018 
Annual Report for the 12-month period ending July 31, 2018.\2\ 
During the 12-month period ending in July 2019, the United 
States remained the country of origin for the largest share of 
requests for information, with approximately 27.2 percent of 
such requests. China was in the second position, with 
approximately 20.5 percent of such requests, followed by 
Ukraine (3.9 percent), India (2.9 percent), the United Kingdom 
(2.6 percent), Hong Kong (2.3 percent), Brazil (1.9 percent), 
Canada (1.8 percent), the Russian Federation (1.7 percent), 
France (1.6 percent), and the Republic of Korea (1.4 percent).
    Internet Protocol addresses that do not provide information 
about the name of the registrant or the type of domain were the 
source of the largest share of online requests for information 
during the Commission's 2019 reporting year, accounting for 
approximately 52.6 percent of the 306,974 requests for 
information in the 12-month period ending in July 2019. The 
approximate number of requests from other sources are as 
follows: Domains ending in .com were second, with 18.9 percent 
of requests for PPD information. Domains ending in .net were 
third, with 8.8 percent of online requests for information, 
followed by U.S. Government domains (.gov) with 1.7, then by 
domains for Brazil (.br) with 1.6 percent, India (.in) with 
1.3, Germany (.de) with 1.0, Italy (.it) with 0.9, China (.cn) 
with 0.9, the European Union (.eu) with 0.7, and Mexico (.mx) 
with 0.7. Domains for Turkey (.tr), France (.fr), and the 
Russian Federation (.ru) accounted for 0.6 percent of requests 
each.

                          POLITICAL PRISONERS

    The PPD seeks to provide users with prisoner information 
that is reliable and up to date. Commission staff members work 
to maintain and update political prisoner records based on the 
staff member's area of expertise. Staff seek to provide 
objective analysis of information about individual prisoners, 
and about events and trends that drive political and religious 
imprisonment in China.
    As of September 1, 2019, the PPD contained information on 
9,933 cases of political or religious imprisonment in China. Of 
those, 1,587 are cases of political and religious prisoners 
currently known or believed to be detained or imprisoned, and 
8,346 are cases of prisoners who are known or believed to have 
been released, who were executed, who died while imprisoned or 
soon after release, or who escaped. The Commission notes that 
there are considerably more than 1,587 cases of current 
political and religious imprisonment in China. Commission staff 
work on an ongoing basis to add cases of political and 
religious imprisonment to the PPD.
    When the PPD was first launched, the Dui Hua Foundation, 
based in San Francisco, and the former Tibet Information 
Network, based in London, shared their extensive experience and 
data on political and religious prisoners in China with the 
Commission to help establish the database. The Dui Hua 
Foundation continues to do so. The Commission relies on its own 
staff research for prisoner information, as well as on 
information provided by non-governmental organizations (NGOs), 
other groups that specialize in promoting human rights and 
opposing political and religious imprisonment, and other public 
sources of information.

                   MORE POWERFUL DATABASE TECHNOLOGY

    The PPD has served since its launch in November 2004 as a 
unique and powerful resource for the U.S. Congress and 
Administration, other governments, NGOs, educational 
institutions, and individuals who research political and 
religious imprisonment in China, or who advocate on behalf of 
prisoners. The July 2010 PPD upgrade significantly leveraged 
the capacity of the Commission's information and technology 
resources to support such research, reporting, and advocacy.
    In 2015, the Commission enhanced the functionality of the 
PPD to empower the Commission, the U.S. Congress and 
Administration, other governments, NGOs, and individuals to 
strengthen reporting on political and religious imprisonment in 
China and advocacy undertaken on behalf of Chinese political 
prisoners. The upgrade allowed the PPD full text search and the 
basic search both to provide an option to return records that 
either include or do not include an image of the prisoner. In 
addition, the 2015 enhancement allowed PPD record short 
summaries to accommodate more text as well as greater capacity 
to link to external websites.
    The PPD aims to provide a technology with sufficient power 
to handle the scope and complexity of political imprisonment in 
China. The most important feature of the PPD is that it is 
structured as a genuine database and uses a powerful query 
engine. Each prisoner's record describes the type of human 
rights violation by Chinese authorities that led to his or her 
detention. These types include violations of the right to 
peaceful assembly, freedom of religion, freedom of association, 
and freedom of expression, including the freedom to advocate 
peaceful social or political change and to criticize government 
policy or government officials.
    The design of the PPD allows anyone with access to the 
internet to query the database and download prisoner data 
without providing personal information to the Commission, and 
without the PPD downloading any software or web cookies to a 
user's computer. Users have the option to create a user 
account, which allows them to save, edit, and reuse queries, 
but the PPD does not require a user to provide any personal 
information to set up such an account. The PPD does not 
download software or a web cookie to a user's computer as the 
result of setting up such an account. Saved queries are not 
stored on a user's computer. A user-specified ID (which can be 
a nickname) and password are the only information required to 
set up a user account.


                                                     Executive 
                                                        Summary
                                                Executive 
                                                Summary
    Notes to Section I--Executive Summary

    \1\ The Commission treats as a political prisoner an individual 
detained or imprisoned for exercising his or her human rights under 
international law, such as peaceful assembly, freedom of religion, 
freedom of association, and freedom of expression, including the 
freedom to advocate peaceful social or political change, and to 
criticize government policy or government officials. (This list is 
illustrative, not exhaustive.) In most cases, prisoners in the PPD were 
detained or imprisoned for attempting to exercise rights guaranteed to 
them by China's Constitution and law, or by international human rights 
standards, or both. Chinese security, prosecution, and judicial 
officials sometimes seek to distract attention from the political or 
religious nature of imprisonment by convicting a de facto political or 
religious prisoner under the pretext of having committed a generic 
crime. In such cases, defendants typically deny guilt but officials may 
attempt to coerce confessions using torture and other forms of abuse, 
and standards of evidence are poor. A defendant may authorize someone 
to provide him or her legal counsel and defense, as the PRC Criminal 
Procedure Law guarantees in Article 32, yet officials may deny the 
counsel adequate access to the defendant, restrict or deny the 
counsel's access to evidence, and not provide the counsel adequate time 
to prepare a defense.
    \2\ CECC, 2018 Annual Report, October 10, 2018, 22.


                                                    Freedom of 
                                                     Expression
                                                Freedom of 
                                                Expression

                            II. Human Rights


                         Freedom of Expression


                                Findings

        <bullet> At the UN Human Rights Council's third 
        Universal Periodic Review (UPR) of China's compliance 
        with international human rights norms, non-governmental 
        organizations (NGOs) reported that the Chinese 
        government and Communist Party violated freedom of 
        expression and freedom of the press. The Office of the 
        UN High Commissioner for Human Rights apparently 
        removed information submitted by at least seven non-
        governmental groups, among which were NGOs that 
        advocate for the rights of Tibetans, Uyghurs, and Hong 
        Kong people, from an official summary of UPR 
        submissions. That information from some of the missing 
        submissions was inserted in a supplement prior to the 
        November 2018 session did little to dispel stakeholder 
        concerns about Chinese government influence during the 
        UPR.
        <bullet> Conditions for journalism in China continued 
        to deteriorate. Some professional Chinese journalists 
        described current conditions for journalism as an ``era 
        of total censorship.'' In addition, the government's 
        ongoing crackdown continued against ``citizen 
        journalists'' who have founded or are associated with 
        websites that document human rights violations, as seen 
        in the detention of individuals focused on labor 
        conditions, such as Wei Zhili, Yang Zhengjun, and Ke 
        Chengbing. Foreign journalists faced multiple 
        challenges from the government, including surveillance; 
        harassment of Chinese nationals who work as news 
        assistants; limits on the length of work visas or visa 
        denial; and obstruction in the coverage of developments 
        in the Xinjiang Uyghur Autonomous Region (XUAR) and 
        other ethnic minority or border areas.
        <bullet> The government and Party continued to link 
        internet security to national security. This past year, 
        authorities detained and prosecuted individuals who 
        criticized government officials and policies online, 
        and censored or distorted a range of news and 
        information that the government deemed ``politically 
        sensitive,'' including the 30th anniversary of the 1989 
        Tiananmen protests, the protests in Hong Kong against 
        proposed extradition legislation, and trade issues.
        <bullet> Declining academic freedom in China linked to 
        Party General Secretary and President Xi Jinping's 
        reassertion of ideological control over universities 
        was illustrated by reports of the internment of 
        hundreds of predominantly Uyghur scholars in mass 
        internment camps in the XUAR; the detention of 
        university students who advocated for labor rights; and 
        the dismissal, suspension, and other forms of 
        discipline imposed on faculty who criticized the 
        government and Party.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Give greater public expression, including at the 
        highest levels of the U.S. Government, to the issue of 
        press freedom in China, condemning the harassment and 
        detention of both domestic and foreign journalists; the 
        denial, threat of denial, or delay of visas for foreign 
        journalists; and the censoring or blocking of foreign 
        media websites. Consistently link press freedoms to 
        U.S. interests, noting how censorship and restrictions 
        on journalists and media websites prevent the free flow 
        of information on issues of public concern, including 
        public health and environmental crises, food safety 
        problems, and corruption, and act as trade barriers for 
        foreign media and companies attempting to access the 
        Chinese market. Raise these issues with Chinese 
        officials during bilateral dialogues. Assess the extent 
        to which China's treatment of foreign journalists 
        contravenes its World Trade Organization commitments 
        and other obligations.
          Sustain, and where appropriate expand, programs that 
        develop and widely distribute technologies that will 
        assist Chinese human rights advocates and civil society 
        organizations in circumventing internet restrictions, 
        in order to access and share content protected under 
        international human rights standards. Continue to 
        maintain internet freedom programs for China at the 
        U.S. Department of State and the Broadcasting Board of 
        Governors to provide digital security training and 
        capacity-building efforts for bloggers, journalists, 
        civil society organizations, and human rights and 
        internet freedom advocates in China.
          Raise with Chinese officials, during all appropriate 
        bilateral discussions, the cost to U.S.-China relations 
        and to the Chinese public's confidence in government 
        institutions that is incurred when the Chinese 
        government restricts political debate, advocacy for 
        democracy or human rights, and other forms of peaceful 
        political expression. Emphasize that such restrictions 
        violate international standards for free expression, 
        particularly those contained in Article 19 of the 
        International Covenant on Civil and Political Rights 
        and Article 19 of the Universal Declaration of Human 
        Rights. Emphasize that such restrictions erode 
        confidence in media and government institutions.
          Urge Chinese officials to end unlawful detention and 
        official harassment of Chinese rights advocates, 
        lawyers, and journalists subject to reprisal for 
        exercising their right to freedom of expression. Call 
        on officials to release or confirm the release of 
        individuals detained or imprisoned for exercising 
        freedom of expression, such as Liu Feiyue, Huang Qi, 
        Sun Lin, Zhang Haitao, Tashi Wangchug, Chai Xiaoming, 
        Wei Zhili, Ke Chengbing, Yang Zhengjun, Lu Guang, Yang 
        Hengjun, and other political prisoners mentioned in 
        this report and documented in the Commission's 
        Political Prisoner Database.


                                                    Freedom of 
                                                     Expression
                                                Freedom of 
                                                Expression

                         Freedom of Expression


     China's Compliance with International Standards on Freedom of 
                               Expression

    During the Commission's 2019 reporting year, the Chinese 
government and Communist Party continued to restrict expression 
in contravention of international human rights standards,\1\ 
including Article 19 of the International Covenant on Civil and 
Political Rights (ICCPR) and Article 19 of the Universal 
Declaration of Human Rights.\2\ According to the ICCPR--which 
China signed in 1998 \3\ but has not ratified \4\--and as 
reiterated in 2011 by the Special Rapporteur on the promotion 
and protection of the right to freedom of opinion and 
expression, countries may impose certain restrictions or 
limitations on freedom of expression, if such restrictions are 
provided by law and are necessary for the purpose of respecting 
the ``rights or reputations of others'' or protecting national 
security, public order, public health, or morals.\5\ An October 
2009 UN Human Rights Council resolution specified that 
restrictions on the ``discussion of government policies and 
political debate,'' ``peaceful demonstrations or political 
activities, including for peace or democracy,'' and 
``expression of opinion and dissent'' are inconsistent with 
Article 19(3) of the ICCPR.\6\ The UN Human Rights Committee 
also cautioned that restrictions on freedom of expression noted 
in Article 19(3) should be interpreted narrowly so that the 
restrictions ``may not put in jeopardy the right itself.'' \7\
    At the UN Human Rights Council's (HRC) third Universal 
Periodic Review (UPR) of China's compliance with international 
human rights norms this past year,\8\ international non-
governmental organizations (NGOs) reported multiple violations 
of freedom of expression and press freedom in China in written 
submissions \9\ available in the months prior to China's 
November 2018 opening session and in oral comments at the March 
2019 session to consider the HRC's report.\10\ NGO stakeholders 
also raised concerns about efforts by the Chinese government to 
silence criticism of its record during the UPR.\11\ In one 
publicly reported incident, the Office of the UN High 
Commissioner for Human Rights (OHCHR) removed information 
submitted by at least seven groups, among which were NGOs that 
advocate for the rights of Tibetans, Uyghurs, and Hong Kong 
people,\12\ from an initial official summary of stakeholder 
submissions in September 2018,\13\ replacing that summary with 
a revised version in October 2018.\14\ That information from 
some but not all of the missing submissions was inserted in a 
corrigendum issued a few days before the November session \15\ 
did little to dispel stakeholder concerns about Chinese 
government influence.\16\ A coalition of 40 NGOs subsequently 
called on HRC States Parties to adopt a resolution to ``express 
collective concern about worsening rights abuse in China and 
the government's failure to follow through on its obligations 
and commitments.'' \17\

                        30 Years after Tiananmen

    International coverage of the 30th anniversary of the 
protests for political reform and democratic change in 
Tiananmen Square, Beijing municipality, and hundreds of other 
locations in China in the spring of 1989,\18\ provided new 
accounts, images,\19\ and analysis of the Chinese Communist 
Party and government's violent suppression of those 
demonstrations on June 3 and 4, 1989 (``June Fourth'' or 
``Tiananmen''). Among the highlights were a former military 
journalist's account of opposition among some military leaders 
to the use of force to quell the protests; \20\ a collection of 
secret documents from a meeting of senior Party leaders from 
June 19 to 21, 1989; \21\ and essays by younger Chinese 
describing how they learned about June Fourth despite ongoing 
government censorship.\22\ An academic analysis linked Party 
General Secretary and President Xi Jinping's aggressive 
policies of ideological conformity and information control, 
Party discipline, and centralization of his own power to the 
political legacy of June Fourth.\23\
    China's Defense Minister Wei Fenghe spoke publicly about 
Tiananmen in early June 2019, reiterating the official position 
that the government's crackdown in 1989 was ``correct.'' \24\ 
Wei's use of ``political turmoil'' (zhengzhi dongluan) in these 
comments reflected a revival of hardline official rhetoric on 
Tiananmen, a ``regression'' from the comparatively mild 
expressions commonly used in official statements such as 
``political turbulence'' (zhengzhi fengbo) and the ``turn from 
spring to summer'' (chunxia zhi jiao).\25\ Likewise, the July 
2019 obituary for senior leader Li Peng in the state-run media 
outlet Xinhua reiterated the harsher language: Xinhua commended 
Li--the premier who declared martial law in Beijing in May 1989 
\26\--for his staunch support of the ``resolute measures to 
halt the turmoil [dongluan] and quell the counterrevolutionary 
rebellion [fan'geming baoluan].'' \27\
    The government's tight control of information about the use 
of violence against protesters as well as the crackdown on 
protesters has left much unknown about Tiananmen, particularly 
the total number of dead and wounded. The Tiananmen Mothers 
\28\--a group in China composed of parents and family members 
of persons killed on or around June 4--wrote in March 2019 to 
the National People's Congress, again appealing to the 
government for truth, accountability, and a reckoning over the 
victims.\29\ Through years of effort, the Tiananmen Mothers 
have confirmed the deaths of 202 persons, but overall estimates 
range from the hundreds to the thousands.\30\ Referring to 
persons detained in connection to June Fourth, John Kamm, the 
executive director of the U.S.-based Dui Hua Foundation, which 
maintains an extensive database of political prisoners in 
China,\31\ estimated some 15,000 detentions in a 2009 speech, 
noting, ``Whatever the number is, it is staggeringly high.'' 
\32\

------------------------------------------------------------------------
                       Press Freedom and Tiananmen
-------------------------------------------------------------------------
  During the spring 1989 protests, freedom of expression was a key
 demand among the student demonstrators,\33\ a demand also taken up by
 Chinese journalists who petitioned the government for dialogue on press
 freedom.\34\ Despite a hardline editorial in the Party mouthpiece
 People's Daily on April 26, 1989, which condemned the student protests
 as ``counterrevolutionary'' and ``turmoil,'' \35\ some official media
 outlets reported on the demonstrations with a ``new openness'' and
 accuracy in May 1989,\36\ including front-page coverage of the protests
 across the country on May 6, 1989.\37\ Former People's Daily journalist
 Liu Binyan \38\ reported in 1992 that a `` `dark age' once more
 descended over the mass media'' after the military crackdown, with
 increased ideological control over news content.\39\ Progress also
 ended in the efforts to pass national press legislation in spite of
 robust developments and drafting in the late 1980s.\40\
------------------------------------------------------------------------

                          Freedom of the Press

    China fell one place lower in Reporters Without Borders' 
2019 press freedom index from its rank in 2018 (176th to 
177th), making it the fourth worst country in the world for 
press freedom.\41\ Some professional Chinese journalists 
described current conditions for journalism as an ``era of 
total censorship.'' \42\ A leading investigative journalist who 
left the field in 2019 \43\ emphasized his disenchantment with 
the practice of journalism in China.\44\ Freedom of the press 
is guaranteed in China's Constitution,\45\ yet regulations on 
news media, some related to the broad restrictions on internet 
content in the PRC National Security Law and PRC Cybersecurity 
Law, leave journalists vulnerable to criminal prosecution.\46\ 
The Chinese government's repression of Uyghur and other ethnic 
minority groups in the Xinjiang Uyghur Autonomous Region (XUAR) 
since 2017 has resulted in a significant increase in detained 
journalists \47\ as well as editorial staff from at least one 
leading newspaper and a publishing house.\48\ The November 2018 
detention of photojournalist and U.S. resident Lu Guang in the 
XUAR, while he was reportedly in Urumqi municipality to give a 
photography workshop,\49\ and the January 2019 detention of 
Australian national and political commentator Yang Hengjun, 
while at the Guangdong international airport en route to 
Shanghai municipality,\50\ heightened concerns about freedom of 
speech and the press, and for the safety of individuals 
traveling to China for personal or professional activity.\51\

                       PARTY CONTROL OF THE MEDIA

    In January 2019, Party General Secretary Xi Jinping and 
members of the Standing Committee of the Party Central 
Committee Political Bureau visited People's Daily, the Party's 
flagship newspaper, to publicize efforts by the news media to 
keep up with emerging technologies of the digital era.\52\ 
These efforts--officially referred to as ``media convergence'' 
(meiti ronghe)--envisage a fusion of news media and digital 
technologies,\53\ whereby ``Party newspapers, periodicals, 
broadcast stations, websites `and other mainstream media must 
catch up with the times, bravely utilizing new technologies, 
new mechanisms and new modes, accelerating the pace of 
convergence and achieving more expansive and optimized 
propaganda results.' '' \54\ High-level promotion of ``media 
convergence'' this past year occurred in tandem with government 
entities responsible for news media moving under the Central 
Propaganda Department's operations, part of a sweeping 
reorganization of Party and government institutions in March 
2018 that has reinforced Party power more broadly.\55\
    Media serving ``as government mouthpieces instead of as 
independent bodies operating in the public interest'' are a 
major challenge to free expression, according to international 
experts.\56\ The Chinese Communist Party historically 
designated the Chinese news media as its ``mouthpiece,'' \57\ 
providing the Party's version of the news and shaping public 
opinion.\58\ Official control included prohibitions on 
independent reporting or use of foreign media reports, and 
restricting coverage to ``authoritative'' content, typically 
from the state media agency Xinhua and People's Daily.\59\ 
China Digital Times, a U.S.-based web portal that translates 
leaked censorship directives from the Central Propaganda 
Department and other government entities,\60\ highlighted 
directives from the reporting year that restricted coverage of 
the China-U.S. trade war and of high-ranking Chinese leaders, 
among other issues authorities deemed ``politically 
sensitive.'' \61\ In a related development, People's Daily 
monetized its expertise in identifying ``politically 
sensitive'' content by marketing the services of its in-house 
censors \62\ and in formally training and certifying 
censors.\63\
    Wielding state media to positively portray the Party and 
government \64\ as well as to criticize developments that 
authorities consider to be security threats \65\ continues to 
be a manifestation of the Party-defined ``mouthpiece'' role of 
the news media. This past year, official coverage of Uyghurs 
and other predominantly Muslim groups in the Xinjiang Uyghur 
Autonomous Region, at least one million of whom have been 
detained in mass internment camps for ``political 
reeducation,'' reportedly portrayed the region as ``happy and 
stable.'' \66\ Chinese state media also reportedly manipulated 
information about the summer 2019 protests in Hong Kong, rather 
than objectively reporting on protester grievances about the 
eroding rule of law.\67\ State media, moreover, provided 
negative coverage of the Hong Kong protests in its 
international outlets, such as CGTN and China Daily, to 
generate a counter-narrative to international media outlets' 
coverage.\68\

       CRIMINAL DETENTION AND PROSECUTION OF CITIZEN JOURNALISTS

    This past year, the Committee to Protect Journalists (CPJ) 
ranked China in second place, after Turkey, for having the 
highest number of detained journalists in the world,\69\ a 
large number of whom can be classified as ``citizen 
journalists.'' \70\ Citizen journalists in China cover issues 
such as the treatment of ethnic minority groups, labor 
protests, and rights defense activities,\71\ topics that the 
government and Party restrict in official news outlets.\72\ 
Bitter Winter, an online magazine managed in Italy which 
reports on religious freedom and human rights in China,\73\ 
described its contributors from China as amateurs, noting that 
``only in a few cases [do] our reporters have professional 
training in journalism . . ..'' \74\ CPJ identified 47 
journalists in detention as of December 2018,\75\ and Reporters 
Without Borders counted 111 detained journalists as of April 
2019.\76\ Government control of court data, media censorship of 
cases, obstruction by local law enforcement, and official 
harassment of lawyers representing journalists contribute to 
the challenge in assessing the total number of detentions.\77\
    The ongoing crackdown on citizen journalists who have 
founded or are associated with websites that document human 
rights violations continued this past year, particularly in the 
detention of individuals focused on labor conditions and 
religious freedom. Authorities detained staff from two websites 
that monitor worker rights' protections, including Shang Kai in 
August 2018,\78\ Yang Zhengjun in January 2019,\79\ and Chai 
Xiaoming,\80\ Wei Zhili, and Ke Chengbing in March 2019.\81\ 
Shang and Chai were former editors at Red Reference, a self-
described ``leftist'' website that expressed support for worker 
efforts in 2018 to organize a union at the Jasic Technology 
factory in Shenzhen municipality, Guangdong province.\82\ Yang, 
Wei, and Ke worked at the website iLabour (Xin Shengdai), 
highlighting inadequate labor conditions and occupational 
health hazards such as pneumoconiosis.\83\ [For further 
information on the Jasic crackdown and occupational health 
hazards in China, see Section II--Worker Rights.] Between 
August and December 2018, authorities also reportedly detained 
45 Chinese contributors to Bitter Winter.\84\
    Trials and sentencing proceeded against several citizen 
journalists detained in 2016 \85\ and 2017 \86\ whom 
authorities prosecuted on the charges ``inciting subversion of 
state power,'' ``picking quarrels and provoking trouble,'' and 
``illegally procuring state secrets for overseas entities.'' 
\87\ According to the UN Working Group on Arbitrary Detention, 
the incitement and state secrets charges are ``vague and 
broad,'' thus restricting the freedoms of expression and 
association that are protected by international human rights 
instruments.\88\ The Dui Hua Foundation noted similar concerns 
about the lack of transparency in the charge ``illegally 
procuring state secrets for overseas entities,'' and its misuse 
to prosecute journalists, among others.\89\ Some citizen 
journalists are vulnerable to abuse and maltreatment in 
detention.\90\
    Citizen journalist cases of concern from this past year 
included the following:

        <bullet> Liu Feiyue, Civil Rights & Livelihood Watch 
        (CRLW). In January 2019, the Suizhou Municipal 
        Intermediate People's Court in Hubei province sentenced 
        Liu to five years' imprisonment and three years' 
        deprivation of political rights for ``inciting 
        subversion of state power.'' \91\ Liu's indictment 
        specified CRLW's reporting on human rights violations, 
        its annual report on rights defense and forced 
        psychiatric commitment, and its calls on authorities to 
        release political prisoners.\92\
        <bullet> Sun Lin, freelance writer. In January 2019, 
        the Nanjing Municipal Intermediate People's Court in 
        Jiangsu province sentenced Sun to four years' 
        imprisonment for ``inciting subversion of state power'' 
        in connection to Sun's social media posts that 
        authorities apparently deemed ``politically 
        sensitive.'' \93\ Authorities previously sentenced Sun, 
        a former journalist for Nanjing media outlets, to four 
        years' imprisonment in June 2008, in connection to work 
        he published on an overseas website.\94\
        <bullet> Huang Qi, 64 Tianwang.\95\ On July 29, 2019, 
        the Mianyang Municipal Intermediate People's Court in 
        Sichuan province found Huang guilty of ``illegally 
        providing state secrets to overseas entities'' and 
        ``intentionally leaking state secrets,'' sentencing him 
        to serve 12 years' imprisonment.\96\ In an editorial 
        following the sentence, the Washington Post noted, ``in 
        actuality, his only offense was speaking out against 
        government wrongdoing.'' \97\ Authorities also 
        continuously harassed and extralegally detained Huang's 
        85-year-old mother, Pu Wenqing,\98\ as she sought to 
        raise attention to reports that detention center 
        authorities have denied Huang adequate medical care, 
        tortured him, and refused her applications for his 
        medical parole.\99\

          WORSENING WORKING CONDITIONS FOR FOREIGN JOURNALISTS

    Official Chinese efforts to control coverage of China in 
international news media reportedly intensified this past year, 
increasing the difficulties for foreign journalists in China. 
The Foreign Correspondents' Club of China (FCCC) annual survey 
of working conditions in China described a marked deterioration 
in 2018.\100\ The FCCC documented the Chinese government's 
``escalation of human and digital'' surveillance of foreign 
journalists; \101\ harassment of Chinese nationals who worked 
as news assistants; \102\ threats against and harassment of 
sources; \103\ limits on the length of work visas or denial of 
work visa renewal altogether to retaliate against unfavorable 
coverage by specific journalists or their news outlets; \104\ 
and interference in the coverage of developments in the 
Xinjiang Uyghur Autonomous Region (XUAR) and other ethnic 
minority or border areas of China.\105\ The Chinese government 
also continued to block access in China to major international 
news outlets,\106\ such as the New York Times,\107\ and 
additional international news and online information sites were 
censored by authorities around the Tiananmen anniversary, 
including the Intercept, the Guardian,\108\ and Wikipedia.\109\
    Incidents this past year of official control of foreign 
journalists included the following:

        <bullet> Visa non-renewal or threat of withholding a 
        visa. In August 2018, Chinese authorities refused to 
        renew the work visa of Megha Rajagopalan,\110\ a 
        BuzzFeed reporter who described developments in the 
        XUAR as ``dystopian.'' \111\ In addition, authorities 
        did not issue a journalist visa to Bethany Allen-
        Ebrahimian, who submitted an application in late 2018 
        to join Agence France-Presse in China.\112\ The 
        Committee to Protect Journalists called it ``an act of 
        retribution for her past reporting on the Chinese 
        government's efforts to spread political power abroad 
        and is a shameful attempt to prevent critical coverage 
        of China . . ..'' \113\ In another incident, Voice of 
        America reported in March 2019 that a Chinese embassy 
        official in Russia threatened to place a journalist 
        from Russia's Sputnik News on a visa ``blacklist'' in 
        connection to the journalist's alleged ``negative'' 
        coverage of the Chinese economy.\114\ [For information 
        on the Hong Kong government's visa denial to Victor 
        Mallet, Asia editor of the Financial Times, see Section 
        VI--Developments in Hong Kong and Macau.]
        <bullet> Interference in the XUAR. FCCC also reported 
        instances of official harassment, surveillance, and 
        intimidation while foreign reporters were on assignment 
        in the XUAR in 2018.\115\ In April 2019, a New York 
        Times correspondent recounted both high-tech (digital) 
        and low-tech (human) surveillance of him and a 
        colleague while on assignment in the XUAR.\116\ [For 
        further information on official harassment of foreign 
        journalists in the XUAR, see Section IV--Xinjiang.]
        <bullet> Lack of access in the Tibet Autonomous Region 
        (TAR). Five respondents to the FCCC's annual working 
        conditions survey unsuccessfully applied to the Chinese 
        government for a special permit to visit the TAR in 
        2018.\117\ In a March 2019 position paper, the FCCC 
        emphasized that the Chinese government's restrictions 
        on access to the TAR and Tibetan areas in Qinghai, 
        Gansu, Sichuan, and Yunnan provinces has limited the 
        amount of ``accurate information'' on the ``lives of 
        ethnic Tibetans living in China.'' \118\

                       Internet and Social Media

    During the 2019 reporting year, senior officials reiterated 
the Party's aim to further secure Party control of digital 
space and technologies. In September 2018, the newly appointed 
head of the Cyberspace Administration of China, Zhuang Rongwen, 
urged Party and government to marshal ``netizens'' (wangmin) as 
a ``force'' (liliang) in Party control.\119\ As mentioned 
earlier in this section, in January 2019, Party General 
Secretary and President Xi Jinping called for even greater 
uniformity on digital platforms through deeper ``convergence'' 
with the Party's ideological priorities.\120\ A key premise 
underlying this aim is ``internet sovereignty,'' a notion the 
Chinese government and Party have linked to national security 
concerns such that each country may manage the internet within 
its own borders.\121\ Internet sovereignty, however, implies 
that internet and social media use in any individual country is 
not subject to international standards on freedom of 
expression, information, and association as they pertain to the 
internet and social media.\122\
    Content control remained a focus in the growing body of 
internet and social media regulations and censorship 
technologies.\123\ [For information on the role of internet 
service providers in censorship, data privacy concerns, and 
surveillance, see Section III--Business and Human Rights.] 
These regulatory and technological developments, in combination 
with provisions in the PRC Criminal Law that punish certain 
political and other speech,\124\ severely curtailed freedom of 
speech online,\125\ and included the detention and potential 
criminal prosecution of individuals engaged in speech \126\ and 
other forms of online expression authorities deem to be 
``politically sensitive.'' \127\ The Cyberspace Administration 
of China issued provisions for internet service providers in 
November 2018,\128\ that one expert claimed will ``increase the 
requirements for self-inspection for services with `public 
opinion properties' or `social mobilization capacity.' '' \129\ 
Some experts have found that Chinese government censorship is 
less motivated by preventing dissemination of sensitive content 
than by a fear that online speech has the potential to 
stimulate collective organizing.\130\ Other analysis, 
nevertheless, questioned this interpretation, finding instead 
that government criticism remains a central target of official 
censorship within the complex operation of state repression in 
China.\131\ Indeed, as Human Rights Watch researcher Yaqiu Wang 
observed, the nationwide Twitter crackdown this past year 
appeared ``absent any protests or other social events organized 
via Twitter as a trigger, . . . signal[ing] a new level of 
suppression of free speech . . ..'' \132\

        <bullet> Tiananmen anniversary.\133\ Official efforts 
        to suppress mention of Tiananmen online were 
        demonstrated by the government's ``simultaneous social 
        media crackdowns'' to stem access to information and 
        communication \134\ and blocking online access to 
        international media.\135\ At least one commentator 
        speculated that the Cybersecurity Association of 
        China's six-month campaign (January to June 2019) to 
        ``clean up online ecology'' \136\ was linked to the 
        30th anniversary.\137\ According to research conducted 
        by the University of Toronto's Citizen Lab and the 
        University of Hong Kong's Weiboscope, June Fourth is 
        the most censored topic on the Chinese internet.\138\ 
        During ten years of research, Citizen Lab collected a 
        list of 3,237 Tiananmen-related keywords that 
        apparently trigger censorship in China.\139\ Weiboscope 
        identified 1,256 Tiananmen-related posts censored 
        between 2012 and 2018, among which are images of a 
        single lit candle and the annual Tiananmen vigil held 
        in Hong Kong.\140\
        <bullet> Twitter crackdown. Reports began to emerge in 
        November 2018 that Chinese authorities were several 
        months into a coordinated, nationwide effort to silence 
        Twitter users in China.\141\ These Twitter users 
        included not only government critics and advocates for 
        greater rights protection but also individuals who 
        apparently were not politically active on- or 
        offline.\142\ Public security officials harassed and 
        intimidated targeted individuals, employing 
        interrogation, usually at a police station; 
        administrative or criminal detention; coercion to 
        compel a promise to no longer use Twitter; and deletion 
        of entire Twitter archives.\143\ Prior to the 30th 
        anniversary of Tiananmen, the social media company 
        Twitter reportedly suspended the accounts of at least 
        100 Twitter users, including political commentators and 
        nationalists,\144\ which it later claimed was part of 
        routine maintenance and not in response to Chinese 
        authorities.\145\
        <bullet> Criminal prosecution--``June Fourth liquor'' 
        case. In April 2019, the Chengdu Municipal Intermediate 
        People's Court in Sichuan province tried and sentenced 
        four men involved in the ``June Fourth liquor'' 
        case.\146\ Authorities accused them of posting photos 
        online of the self-made labels they placed on bottles 
        of hard liquor in 2016, which memorialized June Fourth 
        by using a product name homophonous with the date ``89/
        6/4,'' an image modeled on the well-known ``Tank Man'' 
        photo, and promotional language that said ``Never 
        forget, Never give up.'' \147\

                Curtailment of Academic Freedom in China

    Domestic and international experts have linked the 
widespread deterioration of academic freedom in China to Party 
General Secretary and President Xi Jinping's reassertion of 
ideological control over universities since he assumed the 
senior-most Party and government leadership positions in 2012 
and 2013, respectively.\148\ Around politically sensitive 
anniversaries this past year, such as the 100th anniversary of 
the 1919 May Fourth Movement and the 30th anniversary of the 
1989 Tiananmen protests, authorities also increased pressure at 
Chinese universities,\149\ such that some Chinese scholars 
reportedly have asserted that the ``current [academic] 
environment is the most restrictive in their lifetimes.'' \150\ 
Reports this past year demonstrated a broad range of official 
repression, including the following:

        <bullet> Detention or disappearance of 435 prominent 
        Uyghur scholars in mass internment camps by authorities 
        in the Xinjiang Uyghur Autonomous Region (XUAR) as part 
        of the government and Party's massive crackdown on 
        Uyghur and other ethnic minority groups in the XUAR 
        since 2017, according to a Uyghur rights advocacy 
        organization.\151\ Authorities also have detained 
        scholars from other ethnic minority groups in the XUAR; 
        \152\
        <bullet> Interrogation, forced videotaped confessions, 
        and in some cases detention of 20 student labor rights 
        advocates and participants of on-campus ``leftist'' 
        study groups by authorities,\153\ including Peking 
        University students Qiu Zhanxuan \154\ and Yue Xin; 
        \155\
        <bullet> Intensified promotion of ideological and 
        ``patriotic'' education in the classroom; \156\
        <bullet> Book bans,\157\ such as leading law scholar 
        Zhang Qianfan's textbook on constitutional law; \158\
        <bullet> A leadership change at Peking University that 
        apparently emphasized Party and public security 
        credentials over academic qualifications; \159\
        <bullet> Discipline, suspension, and dismissal of 
        professors who publicly aired critical assessments of 
        the government or Party,\160\ notably Tsinghua 
        University law professor Xu Zhangrun; \161\
        <bullet> Widespread use of surveillance cameras in 
        classrooms to monitor discussion as well as the 
        encouragement of students to report professors or 
        classmates with dissenting views; \162\
        <bullet> Pressure on domestic academic experts who have 
        been contacted by foreign journalists or scholars for 
        interviews and commentary either to refuse such 
        requests or restrict the ``candor'' of their comments; 
        \163\ and
        <bullet> Prevention of Chinese academics and others 
        from participating in academic exchange and 
        travel,\164\ such as rights lawyer Chen Jiangang's 
        April 2019 travel to the United States to begin a 
        Humphrey Fellowship.\165\

    The government and Party's restrictions on academic and 
intellectual freedom in China also compounded concerns in the 
United States about international scholarly exchange with 
China. A report from leading China specialists highlighted the 
lack of reciprocity and accountability in academic exchange as 
a factor for the report's policy guidance that recommended a 
shift away from engagement in U.S.-China relations to the more 
cautious ``constructive vigilance.'' \166\ In October 2018, 
Cornell University emphasized violations of academic freedom 
when it suspended two exchange programs with Renmin University 
(Renda) in Beijing municipality following reports that Renda 
officials had harassed students advocating for worker 
rights.\167\ The Commission also observed reports of alleged 
Chinese government harassment taking place outside mainland 
China involving two foreign specialists (one incident in Hong 
Kong and multiple incidents in New Zealand) whose work has been 
critical of the Chinese leadership.\168\ The Chinese government 
also denied a visa to one American expert to attend a 
conference in Beijing.\169\ While known cases of outright visa 
denial to foreign scholars whose research or publications are 
deemed by Chinese authorities to be ``politically sensitive'' 
remain limited,\170\ the threat of visa denial is a 
longstanding concern of foreign scholars.\171\ Foreign scholars 
also have pointed to difficulties accessing archives and 
libraries,\172\ the culling of digital archives and Chinese 
government censorship demands on foreign academic 
publishers,\173\ and limitations on conducting field work in 
China.\174\ Accurate data on the frequency and substance of 
such incidents, nevertheless, are difficult to obtain.\175\


                                                    Freedom of 
                                                     Expression
                                                Freedom of 
                                                Expression
    Notes to Section II--Freedom of Expression

    \1\ Civil Rights & Livelihood Watch, ``Gongmin yanlun ziyou de 
xianfa quanli burong jianta'' [Constitutional right to citizens' 
freedom of speech not easily trampled upon], October 3, 2018.
    \2\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of December 16, 1966, 
entry into force March 23, 1976, art. 19; Universal Declaration of 
Human Rights, adopted and proclaimed by UN General Assembly resolution 
217A (III) of December 10, 1948, art. 19.
    \3\ United Nations Treaty Collection, Chapter IV, Human Rights, 
International Covenant on Civil and Political Rights, accessed May 15, 
2019. China signed the convention on October 5, 1998.
    \4\ UN Human Rights Council, Report of the Working Group on the 
Universal Periodic Review--China, A/HRC/40/6, December 26, 2018, 
recommendations 28.5, 28.6; UN Human Rights Council, Report of the 
Working Group on the Universal Periodic Review China, Addendum, Views 
on Conclusions and/or Recommendations, Voluntary Commitments and 
Replies Presented by the State under Review, A/HRC/40/6.Add.1, February 
15, 2019, para. 2 (28.5, 28.6). The Chinese government did not accept 
recommendations to ratify the International Covenant on Civil and 
Political Rights proposed by several countries during the UN Human 
Rights Council's third Universal Periodic Review of China's compliance 
with international human rights norms, noting that it was ``making 
preparations for ratification, but the specific date of ratification 
depends on whether relevant conditions in China are in place.''
    \5\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of December 16, 1966, 
entry into force March 23, 1976, art. 19(3); UN Human Rights Council, 
Report of the Special Rapporteur on the Promotion and Protection of the 
Right to Freedom of Opinion and Expression, Frank La Rue, A/HRC/17/27, 
May 16, 2011, para. 24.
    \6\ Promotion and Protection of All Human Rights, Civil, Political, 
Economic, Social and Cultural Rights, Including the Right to 
Development, adopted by UN Human Rights Council resolution 12/16, A/
HRC/RES/12/16, October 12, 2009, para. 5(p)(i).
    \7\ UN Human Rights Committee, General Comment No. 34, Article 19: 
Freedoms of Opinion and Expression, CCPR/C/GC/34, September 12, 2011, 
para. 21.
    \8\ UN Human Rights Council, Universal Periodic Review--China, 
Third Cycle, accessed July 10, 2019.
    \9\ See, e.g., Chinese Human Rights Defenders et al., ``Collection 
of Civil Society Reports Submitted to the United Nations for 3rd 
Universal Periodic Review of People's Republic of China,'' October 
2018, paras. 18-28; International Service for Human Rights and 
Committee to Protect Journalists, ``The Situation of Human Rights 
Defenders in China: UPR Briefing Paper,'' March 2018; PEN 
International, Independent Chinese PEN Centre, PEN America, and PEN 
Tibet, ``Joint Submission for the UPR of the People's Republic of 
China,'' 2018, paras. 3, 4, 8, 9, 12, 18; Human Rights in China, 
``Stakeholder Submission by Human Rights in China,'' March 2018, paras. 
1, 15.
    \10\ ``China, UPR Report Consideration--38th Meeting, 40th Regular 
Session Human Rights Council,'' [Webcast], UN Web TV, March 15, 2019, 
38:43, International Service for Human Rights (Joint Statement), Ms. 
Sarah Brooks; 43:50, Helsinki Foundation for Human Rights, Mr. Kai 
Mueller; 49:11, Human Rights Watch, Mr. John Fisher; Human Rights 
Watch, ``UN: Unprecedented Joint Call for China to End Xinjiang 
Abuses,'' July 10, 2019.
    \11\ International Campaign for Tibet, ``China's Response to UN 
Rights Review Blatantly Ignores Its Persecution of Tibetans,'' March 
14, 2019; Massimo Introvigne, ``Universal Periodic Review of China: A 
Disappointing Document,'' Bitter Winter, March 15, 2019; Human Rights 
Watch, ``UN: China Responds to Rights Review with Threats,'' April 1, 
2019; Kris Cheng, `` `Political Censorship': United Nations Removes 
Submissions from Int'l Civil Groups at China's Human Rights Review,'' 
Hong Kong Free Press, November 6, 2018; Andrea Worden, ``China Deals 
Another Blow to the International Human Rights Framework at Its UN 
Universal Periodic Review,'' China Change, November 25, 2018.
    \12\ Su Xinqi and Joyce Ng, ``Demosisto Report Detailing Human 
Rights Concerns in Hong Kong Removed from UN Review Hearing, Joshua 
Wong Claims,'' South China Morning Post, November 7, 2018; ``Joint 
Press Statement: China UPR,'' reprinted in Human Rights Watch, November 
5, 2018. The signatories to the statement were the Hong Kong rights 
advocacy group Demosisto Human Rights Watch; International Service for 
Human Rights; Nonviolent Radical Party, Transnational and Transparty; 
Southern Mongolian Human Rights Information Center; Tibetan Centre for 
Human Rights and Democracy; Unrepresented Nations and Peoples 
Organization; Uyghur Human Rights Project; and World Uyghur Congress. 
Kris Cheng, `` `Political Censorship': United Nations Removes 
Submissions from Int'l Civil Groups at China's Human Rights Review,'' 
Hong Kong Free Press, November 6, 2018; Andrea Worden, ``China Deals 
Another Blow to the International Human Rights Framework at its UN 
Universal Periodic Review,'' China Change, November 25, 2018.
    \13\ UN Human Rights Council, Summary of Stakeholders' Submissions 
on China, Report of the Office of the United Nations High Commissioner 
for Human Rights, A/HRC/WG.6/31/CHN/3, September 3, 2018.
    \14\ UN Human Rights Council, Summary of Stakeholders' Submissions 
on China, Report of the Office of the United Nations High Commissioner 
for Human Rights, A/HRC/WG.6/31/CHN/3*, September 3, 2018 (October 10, 
2018 version).
    \15\ UN Human Rights Council, Summary of Stakeholders' Submissions 
on China, Report of the Office of the United Nations High Commissioner 
for Human Rights, Corrigendum, A/HRC/WG.6/31/CHN/Corr.1*, November 5, 
2018.
    \16\ Andrea Worden, ``China Deals Another Blow to the International 
Human Rights Framework at Its UN Universal Periodic Review,'' China 
Change, November 25, 2018; International Campaign for Tibet, ``China's 
Response to UN Rights Review Blatantly Ignores Its Persecution of 
Tibetans,'' March 14, 2019; Human Rights Watch, ``UN: China Responds to 
Rights Review with Threats,'' April 1, 2019; Kris Cheng, `` `Political 
Censorship': United Nations Removes Submissions from Int'l Civil Groups 
at China's Human Rights Review,'' Hong Kong Free Press, November 6, 
2018.
    \17\ International Service for Human Rights, ``HRC40--High Time for 
a Resolution Calling for Access, Accountability in China,'' January 30, 
2019.
    \18\ Elizabeth M. Lynch, ``Introducing #Tiananmen30--Eyewitnesses 
to History,'' China Law & Policy (blog), May 28, 2019; Elizabeth M. 
Lynch, ``Frank Upham--Our Man in Wuhan,'' China Law & Policy (blog), 
May 29, 2019; Elizabeth M. Lynch, ``Andrea Worden--The Cries of 
Changsha,'' China Law & Policy (blog), June 3, 2019; Eva Xiao and 
Elizabeth Law, ``The `Other' Tiananmen--30 Years Ago, Protests Engulfed 
China,'' Agence France-Presse, reprinted in Yahoo! News, May 31, 2019.
    \19\ Jennifer Creery, ``Video: 30 Years On, Canadian Journalist 
Shares Newly Restored Footage of China's Tiananmen Massacre Horror,'' 
Hong Kong Free Press, May 30, 2019.
    \20\ Chris Buckley, ``30 Years after Tiananmen, a Chinese Military 
Insider Warns: Never Forget,'' New York Times, May 28, 2019.
    \21\ Andrew J. Nathan, ``The New Tiananmen Papers,'' Foreign 
Affairs, May 30, 2019; Chris Buckley, ``New Documents Show Power Games 
behind China's Tiananmen Crackdown,'' New York Times, May 30, 2019.
    \22\ Yangyang Cheng, ``Four Is Forbidden,'' ChinaFile, Asia 
Society, May 30, 2019; Gerry Shih and Anna Fifield, ``What Does 
Tiananmen Mean for Chinese Too Young to Remember It?,'' Washington 
Post, June 1, 2019; ``How I Learned about Tiananmen,'' ChinaFile, Asia 
Society, June 3, 2019. See also Louisa Lim, ``After Tiananmen, China 
Conquers History Itself,'' New York Times, June 2, 2019.
    \23\ Glenn Tiffert, ``30 Years after Tiananmen: Memory in the Era 
of Xi Jinping,'' Journal of Democracy 30, no. 2 (April 2019): 39. See 
also Orville Schell, ``Tiananmen: The Crackdown That Defined Modern 
China,'' Wall Street Journal, May 31, 2019.
    \24\ Lee Chyen Yee, ``Chinese Defense Minister Says Tiananmen 
Crackdown Was Justified,'' Reuters, June 1, 2019; ``Wei Fenghe cheng 
Liusi Tiananmen zhenya shi zhengque de'' [Wei Fenghe says the June 4th 
Tiananmen crackdown was correct], Voice of America, June 2, 2019. See 
also ``China Military Says Shouldn't Say Tiananmen Protests Were 
`Suppressed,' '' Reuters, May 30, 2019.
    \25\ ``Xianggang yulun: Zhongguo Fangzhang de Liusi yanlun xianshi 
guanfang lichang `daotui' '' [Public opinion in Hong Kong: China's 
Defense Minister's statement about June 4th shows that the official 
position has ``regressed''], Voice of America, June 3, 2019; 
``Zhuanfang: Zhongguo guanmei heyi chongti `pinxi fan'geming baoluan' 
'' [Interview: Why has official Chinese media again raised ``quell the 
counter-revolutionary rebellion''], Deutsche Welle, December 18, 2018. 
See also Qian Gang, ``Reading Xi's Reform Anniversary Speech,'' China 
Media Project, December 18, 2018.
    \26\ Erik Eckholm and Chris Buckley, ``Li Peng, Chinese Leader 
Derided for Role in Tiananmen Crackdown, Dies at 90,'' New York Times, 
July 23, 2019.
    \27\ ``Zhonggong Zhongyang Quanguo Renda Weiyuanhui Guowuyuan 
Quanguo Zhengxie fugao Li Peng tongzhi shishi'' [Party Central 
Committee, NPC Standing Committee, State Council, and CPPCC report 
Comrade Li Peng passed away], Xinhua, July 23, 2019.
    \28\ Elizabeth M. Lynch, ``Teng Biao--His Tiananmen Awakening,'' 
China Law & Policy (blog), June 2, 2019.
    \29\ Tiananmen Mothers, ``Mourning Our Families and Compatriots 
Killed in the June Fourth Massacre: A Letter to China's Leaders,'' 
translated and reprinted in Human Rights in China, March 15, 2019.
    \30\ Ludovic Ehret and Eva Xiao, `` `Unimaginable': 30 Years On, 
Families of Tiananmen Dead Demand Truth,'' Agence France-Presse, 
reprinted in Hong Kong Free Press, June 2, 2019; Verna Yu, ``Tiananmen 
Square Anniversary: What Sparked the Protests in China in 1989?,'' 
Guardian, May 30, 2019.
    \31\ Dui Hua Foundation, ``Last Known Tiananmen Prisoner to Be 
Released in October,'' May 2, 2016.
    \32\ John Kamm, Dui Hua Foundation, ``How Tiananmen Changed 
China,'' Remarks to the Commonwealth Club of California, June 3, 2009.
    \33\ Wang Dan, ``30 Years after Tiananmen: The Meaning of June 
4th,'' Journal of Democracy 30, no. 2 (April 2019): 31-32; Verna Yu, 
``Tiananmen Square Anniversary: What Sparked the Protests in China in 
1989?,'' Guardian, May 30, 2019.
    \34\ Sheryl WuDunn and Special to the New York Times, ``1,000 
Chinese Journalists Call for Greater Freedom of Press,'' New York 
Times, May 10, 1989. Journalists from state media called for dialogue 
with senior leaders on freedom of the press and permission to provide 
more accurate coverage of the protests in a petition reportedly signed 
by approximately 1,000 journalists.
    \35\ Chris Buckley, ``People's Daily Editorial Fanned Flames of 
1989 Protest,'' Sinosphere (blog), New York Times, April 25, 2014. For 
a translated excerpt from the April 26, 1989, People's Daily editorial, 
see Geremie R. Barme, ``Rumour--A Pipe Blown by Surmises, Jealousies, 
Conjectures,'' China Heritage, Wairarapa Academy for New Sinology, June 
7, 2019.
    \36\ Liu Binyan, ``In Beijing's Newsrooms,'' Nieman Reports, Nieman 
Foundation for Journalism at Harvard University (Spring 1992), 
reprinted August 28, 2014; Orville Schell, ``Tiananmen: The Crackdown 
That Defined Modern China,'' Wall Street Journal, May 31, 2019; 
Elizabeth M. Lynch, ``Andrea Worden--The Cries of Changsha,'' China Law 
& Policy (blog), June 3, 2019. See also The Tiananmen Papers, eds. 
Andrew J. Nathan and Perry Link (New York: PublicAffairs, 2002), 92. 
The Tiananmen Papers included a translation of an official document 
from Shanghai municipality that noted many Shanghai newspapers at the 
time had praised former Party General Secretary Hu Yaobang in their 
coverage of his death.
    \37\ Sheryl WuDunn and Special to the New York Times, ``China 
Newspapers Try New Openness,'' New York Times, May 6, 1989.
    \38\ The Tiananmen Papers, eds. Andrew J. Nathan and Perry Link 
(New York: PublicAffairs, 2002), 14; John Gittings, ``Liu Binyan,'' 
Guardian, December 7, 2005.
    \39\ Liu Binyan, ``In Beijing's Newsrooms,'' Nieman Reports, Nieman 
Foundation for Journalism at Harvard University (Spring 1992), 
reprinted August 28, 2014.
    \40\ ``Zhongguo jizhe jie: Xinwen zui cha de shidai'' [Chinese 
journalists' day: Worst of times for news media], Radio Free Asia, 
November 8, 2018; Wu Wei, ``Fangsong xinwen guankong, tuijin xinwen 
lifa'' [Release control of news media, promote press legislation], New 
York Times, October 13, 2014; Sun Xupei, ``Sun Xupei: Sanshi nian 
xinwen lifa licheng he sikao'' [Sun Xupei: Thirty years on the history 
of and reflections on press legislation], China Reform Net (Zhongguo 
Gaige Wang), February 14, 2012.
    \41\ Reporters Without Borders, World Press Freedom Index 2019, 
accessed June 11, 2019.
    \42\ Jiang Yannan, ``Quanmian shencha shidai: Zhongguo meiti ren 
zheng zai jingli shenme?'' [An era of total censorship: What are 
Chinese journalists experiencing nowadays?], Initium, September 9, 
2018. For an English translation of this article, see ``Journalists in 
a `Total Censorship Era,' '' China Digital Times, October 8, 2018. 
``Zhongguo diaocha baodao: guoqu `shi' hengbianye wailai yi pian 
miming'' [Investigative journalism in China: a past strewn with 
``corpses,'' a future vast and hazy], Radio Free Asia, May 2, 2019.
    \43\ Jiang Ziwen and Yue Huairang, `` `Zang'ao jizhe', Zhongqingbao 
shendu diaochabu zhuren Liu Wanyong gaobie meiti'' [``Tibetan mastiff 
journalist'' China Youth Daily investigative journalism department head 
Liu Wanyong says farewell to journalism], The Paper, April 25, 2019; 
David Bandurski, ``Liu Wanyong Bids Journalism Farewell,'' China Media 
Project, May 6, 2019.
    \44\ Jane Perlez, ``For China's Leading Investigative Reporter, 
Enough Is Enough,'' New York Times, June 7, 2019; David Bandurski, 
``Liu Wanyong Bids Journalism Farewell,'' China Media Project, May 6, 
2019.
    \45\ PRC Constitution, passed and effective December 4, 1982 
(amended March 11, 2018), art. 35.
    \46\ PEN International, Independent Chinese PEN Centre, PEN 
America, and PEN Tibet, ``Joint Submission for the UPR of the People's 
Republic of China,'' accessed May 15, 2019, paras. 3, 4, 8, 9, 12, 18; 
Jiang Yannan, ``Quanmian shencha shidai: Zhongguo meiti ren zheng zai 
jingli shenme?'' [An era of total censorship: What are Chinese 
journalists experiencing nowadays?], Initium, September 9, 2018.
    \47\ Reporters Without Borders, ``China: 58 Uyghur Journalists 
Detained,'' June 3, 2019; Elana Beiser, Committee to Protect 
Journalists (CPJ), ``Hundreds of Journalists Jailed Globally Becomes 
the New Normal,'' December 13, 2018; Committee to Protect Journalists, 
``47 Journalists Imprisoned in China in 2018,'' accessed May 7, 2019. 
CPJ identified 23 ethnic Uyghurs in its list of 47 detained or 
imprisoned journalists. Marco Respinti, ``The Fate of Bitter Winter's 
45 Arrested Reporters,'' Bitter Winter, February 7, 2019. Of the 45 
detained contributors from Bitter Winter, at least 22 reportedly were 
detained in the Xinjiang Uyghur Autonomous Region.
    \48\ Uyghur Human Rights Project, ``Update--Detained and 
Disappeared: Intellectuals under Assault in the Uyghur Homeland,'' May 
21, 2019; ``Veteran Editor of Uyghur Publishing House among 14 Staff 
Members Held over `Problematic Books,' '' Radio Free Asia, November 26, 
2018; ``Xinjiang Authorities Detain Prominent Uyghur Journalist in 
Political `Re-Education Camp,' '' Radio Free Asia, October 18, 2018. 
For more information, see the Commission's Political Prisoner Database 
records 2019-00194 on Ablajan Seyit and 2019-00195 on Memetjan Abliz 
Boriyar.
    \49\ Committee to Protect Journalists, ``China Detains Award-
Winning Photographer in Xinjiang,'' November 28, 2018; Rights Defense 
Network, ``Lu Mei sheyingshi Lu Guang bei zhengshi zao Xinjiang Kashi 
jingfang zhengshi daibu'' [U.S.-based photographer Lu Guang confirmed 
to have been formally arrested by Kashgar, Xinjiang, police], December 
13, 2018; Robert Y. Pledge, ``A Photographer Goes Missing in China,'' 
New York Times, December 8, 2018. For more information on Lu Guang, see 
the Commission's Political Prisoner Database record 2018-00601.
    \50\ Damien Cave and Chris Buckley, ``Chinese-Australian Writer 
Yang Hengjun Detained in China,'' New York Times, January 23, 2019; 
Gerry Shih, ``China Confirms Detention of Australian Writer Yang 
Hengjun on Suspicion of Endangering National Security,'' Washington 
Post, January 24, 2019; Ministry of Foreign Affairs, ``Foreign Ministry 
Spokesperson Hua Chunying's Regular Press Conference on January 24, 
2019,'' January 24, 2019; David Bandurski, ``This Is Yang Hengjun,'' 
China Media Project, March 30, 2011.
    \51\ William Yang, ``Chinese Photographer Lu Guang's Detention 
Raises Alarm,'' Deutsche Welle, May 2, 2019; PEN America, 
``Disappearance of Australian Author Yang Hengjun Terrifying Sign of 
China's Repression of Writers,'' January 23, 2019.
    \52\ ``Xi Jinping: Tuidong meiti ronghe xiang zongshen fazhan 
gonggu quan Dang quanguo renmin gongtong sixiang jichu'' [Xi Jinping: 
Promote deeper development of media convergence, consolidate the entire 
Party and people's common ideological foundation], Xinhua, January 25, 
2019; David Bandurski, ``PSC Converges for Media Convergence,'' China 
Media Project, January 29, 2019.
    \53\ Central Commission for Discipline Inspection, ``Guanyu meiti 
ronghe fazhan, Xi Jinping Zongshuji zheyang shuo'' [These are General 
Secretary Xi Jinping's sayings about the development of media 
convergence], January 25, 2019.
    \54\ David Bandurski, ``PSC Converges for Media Convergence,'' 
China Media Project, January 29, 2019.
    \55\ ``Zhonggong jiaqiang guankong `bi ganzi' chuanmei jianguanju 
chengli'' [Central Committee strengthens control over the ``writing 
stick,'' news broadcast regulatory department established], Duowei, 
April 10, 2019. See also CECC, 2018 Annual Report, October 10, 2018, 
66-67, 227-28.
    \56\ UN Human Rights Council, Tenth Anniversary Joint Declaration: 
Ten Key Challenges to Freedom of Expression in the Next Decade, 
Addendum to Report of the Special Rapporteur on the Promotion and 
Protection of the Rights to Freedom of Opinion and Expression, A/HRC/
14/23/Add.2, March 25, 2010, para. 1(a). See also UN Special Rapporteur 
on Freedom of Opinion and Expression, Organization for Security and Co-
operation in Europe Representative on Freedom of the Media, 
Organization of American States Special Rapporteur on Freedom of 
Expression, and the African Commission on Human and Peoples' Rights 
Special Rapporteur on Freedom of Expression and Access to Information, 
Joint Declaration on Media Independence and Diversity in the Digital 
Age, May 2, 2018.
    \57\ ``Dangmei xing Dang yu zhengzhijia banbao Xi Jinping xinwen 
sixiang chulu'' [Party media is surnamed Party and politicians run 
newspapers, Xi Jinping's news thought released], Duowei, June 14, 2018; 
David Bandurski, ``Mirror, Mirror on the Wall,'' China Media Project, 
February 22, 2016; Anne-Marie Brady, Marketing Dictatorship: Propaganda 
and Thought Work in Contemporary China (Lanham, MD: Rowman & 
Littlefield, 2008), 46; Zhu Jidong, ``Lun xin shidai jianchi 
zhengzhijia banbao de zhongyaoxing'' [In the new era, adhering to the 
importance of politicians running the newspapers], Journalism Lover 
(Xinwen Aihaozhe), December 7, 2018, reprinted in People's Daily, 
December 10, 2018.
    \58\ David Bandurski, ``PSC Converges for Media Convergence,'' 
China Media Project, January 29, 2019; Xiao Qiang, ``As Hong Kong 
Demonstrations Continue, China Is Controlling What the Mainland 
Hears,'' interview with Ailsa Chang, All Things Considered, NPR, August 
14, 2019; WeChatscope, University of Hong Kong, ``Censored on WeChat: 
As Tensions in China-US Trade Conflict Rose, so Did WeChat 
Censorship,'' Global Voices, February 18, 2019.
    \59\ ``Minireview: 2018 in Censorship (Oct-Dec),'' China Digital 
Times, February 5, 2019.
    \60\ ``Directives from the Ministry of Truth,'' China Digital 
Times, accessed August 15, 2019.
    \61\ ``Minitrue: No News on U.S. Trade Dispute,'' China Digital 
Times, May 9, 2019; ``Minitrue: No Hyping Xi-Trump Meeting at G20,'' 
China Digital Times, December 2, 2018; ``Minireview: 2018 in Censorship 
(Oct-Dec),'' China Digital Times, February 5, 2019.
    \62\ Xie Yu, ``People's Daily Website Becomes Top Stock Pick as It 
Ratchets Up Censorship to New Level, Fuelling Revenue Expectations,'' 
South China Morning Post, March 12, 2019.
    \63\ Zhang Jinwen and Feng Sichao, ``Renminwang fafang shou pi 
hulianwang neirong fengkongshi zhengshu'' [People's Daily Online issues 
first group of certificates for online content risk control 
specialists], People's Daily, July 24, 2019.
    \64\ Louisa Lim and Julia Bergin, ``Inside China's Audacious Global 
Propaganda Campaign,'' Guardian, December 7, 2018; Javier C. Hernandez, 
`` `We're Almost Extinct': China's Investigative Journalists Are 
Silenced under Xi,'' New York Times, July 12, 2019.
    \65\ Javier C. Hernandez, `` `We're Almost Extinct': China's 
Investigative Journalists Are Silenced under Xi,'' New York Times, July 
12, 2019.
    \66\ Anna Fifield, ``China Celebrates `Very Happy Lives' in 
Xinjiang, after Detaining 1 Million Uighurs,'' Washington Post, July 
30, 2019.
    \67\ Emily Feng and Amy Cheng, ``China State Media Present Their 
Own Version of Hong Kong Protests,'' NPR, August 14, 2019; Lily Kuo, 
``Beijing's New Weapon to Muffle Hong Kong Protests: Fake News,'' 
Guardian, August 11, 2019.
    \68\ Emily Feng and Amy Cheng, ``China State Media Present Their 
Own Version of Hong Kong Protests,'' NPR, August 14, 2019; Simone 
McCarthy, ``Hong Kong Protests Put Chinese State Media's Drive to Win 
over an International Audience to the Test,'' South China Morning Post, 
August 16, 2019.
    \69\ Elana Beiser, Committee to Protect Journalists, ``Hundreds of 
Journalists Jailed Globally Becomes the New Normal,'' December 13, 
2018; Committee to Protect Journalists, ``47 Journalists Imprisoned in 
China in 2018,'' accessed May 7, 2019.
    \70\ Ian Johnson, `` `My Responsibility to History': An Interview 
with Zhang Shihe,'' NYRB Daily (blog), New York Review of Books, 
January 30, 2019; Eva Pils, Human Rights in China (Medford, MA: Polity 
Press, 2018), 88-89. Journalist Ian Johnson writes that ``citizen 
journalists'' are ``a breed of self-taught activists who used the newly 
emerging digital technologies to record interviews and post them 
online, thus bypassing--for about a decade starting in the early 
2000s--traditional forms of censorship.'' Scholar Eva Pils also points 
to the changes in communication technologies that gave rise to citizen 
journalism.
    \71\ Iris Hsu, ``How Many Journalists Are Jailed in China? 
Censorship Means We Don't Know,'' CPJ Blog (blog), Committee to Protect 
Journalists, March 12, 2019.
    \72\ Lin Yijiang, ``Dozens of Bitter Winter Reporters Arrested,'' 
Bitter Winter, December 27, 2018; Chinese Human Rights Defenders, 
``China: Release Liu Feiyue and Decriminalize Human Rights Activism,'' 
January 29, 2019; Catherine Lai, ``How China's Multi-Pronged Crackdown 
on Dissent Took Aim at Citizen Journalists and Rights Defence 
Websites,'' Hong Kong Free Press, February 16, 2018.
    \73\ Lin Yijiang, ``Dozens of Bitter Winter Reporters Arrested,'' 
Bitter Winter, December 27, 2018; Marco Respinti, ``The Fate of Bitter 
Winter's 45 Arrested Reporters,'' Bitter Winter, February 7, 2019.
    \74\ Marco Respinti, ``The Fate of Bitter Winter's 45 Arrested 
Reporters,'' Bitter Winter, February 7, 2019.
    \75\ Elana Beiser, Committee to Protect Journalists, ``Hundreds of 
Journalists Jailed Globally Becomes the New Normal,'' December 13, 
2018; Committee to Protect Journalists, ``47 Journalists Imprisoned in 
China in 2018,'' accessed May 7, 2019.
    \76\ Reporters Without Borders, ``China: 58 Uyghur Journalists 
Detained,'' June 3, 2019.
    \77\ Iris Hsu, ``How Many Journalists Are Jailed in China? 
Censorship Means We Don't Know,'' CPJ Blog (blog), Committee to Protect 
Journalists, March 12, 2019.
    \78\ ``Hongse Cankao bianji bu Beijing bangongshi bei chachao, 
gongzuo renyuan bei xingju'' [Red Reference's editorial department in 
Beijing subjected to search, staff criminally detained], Red Reference, 
August 12, 2018. For more information on Shang Kai, see the 
Commission's Political Prisoner Database record 2019-00010.
    \79\ Rights Defense Network, ``Jiya yi ge duo yue hou Guangdong zi 
meiti `Xin Shengdai' bianji Wei Zhili, Ke Chengbing you zao zhiding 
jusuo jianshi juzhu Yang Zhengjun de qingkuang bu ming'' [After more 
than one month of detention, ``New Generation'' editors Wei Zhili and 
Ke Chengbing placed under residential surveillance at a designated 
location, Yang Zhengjun's conditions are unclear], April 23, 2019. For 
more information on Yang Zhengjun, see the Commission's Political 
Prisoner Database record 2019-00129.
    \80\ Hong Kong Confederation of Trade Unions, ``Former Online Media 
Editor Arrested for `Inciting Subversion of State Power,' '' accessed 
June 15, 2019; ``Zhongguo zuoyi wangzhan bianji bei yi `dianfu zui' 
juliu'' [Editor of Chinese leftist website detained for ``subversion of 
state power''], Radio Free Asia, March 25, 2019. For more information 
on Chai Xiaoming, see the Commission's Political Prisoner Database 
record 2019-00126.
    \81\ ``Beijing Ramps Up Crackdown on Labour Activists,'' Financial 
Times, March 28, 2019. For more information, see the Commission's 
Political Prisoner Database records 2019-00127 on Wei Zhili and 2019-
00128 on Ke Chengbing.
    \82\ Hong Kong Confederation of Trade Unions, ``Former Online Media 
Editor Arrested for `Inciting Subversion of State Power,' '' March 21, 
2019; ``Zhongguo zuoyi wangzhan bianji bei yi `dianfu zui' juliu'' 
[Editor of Chinese leftist website detained for ``subversion of state 
power''], Radio Free Asia, March 25, 2019; ``Hongse Cankao bianji bu 
Beijing bangongshi bei chachao, gongzuo renyuan bei xingju'' [Red 
Reference's editorial department in Beijing subjected to search, staff 
criminally detained], Red Reference, August 12, 2018.
    \83\ Rights Defense Network, ``Shenzhen jingfang zaici kua shi 
zhuabu, Xin Shengdai bianji Wei Zhili (Xiao Wei) bei bu, Ke Chengbing 
(Lao Mu) shilian'' [Shenzhen police again cross city lines for 
detentions, New Generation editors Wei Zhili (Xiao Wei) detained, Ke 
Chengbing (Lao Mu) is disappeared], March 20, 2019; ``Chinese Labor 
Activist Repeatedly Interrogated in Detention,'' Radio Free Asia, April 
9, 2019.
    \84\ Lin Yijiang, ``Dozens of Bitter Winter Reporters Arrested,'' 
Bitter Winter, December 27, 2018; Marco Respinti, ``The Fate of Bitter 
Winter's 45 Arrested Reporters,'' Bitter Winter, February 7, 2019.
    \85\ Authorities prosecuted the cases of Huang Qi and Liu Feiyue 
this past year, both of which are described in detail later in this 
sub-section. The Commission also continued to monitor the cases of 
several 64 Tianwang ``volunteers'' detained in 2016. Authorities 
formally prosecuted some of them and held others in some form of 
detention during the 2019 reporting year. For more information on those 
cases, see the Commission's Political Prisoner Database records 2013-
00063 on Chen Tianmao, 2016-00464 on Yang Xiuqiong, 2016-00105 on Li 
Zhaoxiu, and 2018-00314 on Jiang Chengfen.
    \86\ ``Zhen Jianghua xingju 37 tian qiman wei huoshi duo wei 
weiquan renshi yin Shijiu Da bei weiwen'' [Zhen Jianghua not released 
37 days after criminal detention, many rights defenders subjected to 
stability maintenance measures due to 19th Party Congress], Canyu Net, 
October 9, 2017; Chinese Human Rights Defenders, ``Chinese Government 
Puts Human Rights Defenders on Trial during Holiday Season to Hide 
Rights Abuses,'' January 8, 2019; Human Rights Watch, ``China: Free 
Anti-Censorship Activist,'' April 2, 2018; Rights Defense Network, 
``Guangdong renquan hanweizhe, NGO renshi Zhen Jianghua huoxing 2 
nian'' [Guangdong human rights defender and NGO worker Zhen Jianghua 
sentenced to 2 years in prison], December 29, 2018. Zhen is scheduled 
for release on September 1, 2019. For more information on Zhen 
Jianghua, see the Commission's Political Prisoner Database record 2017-
00360. ``Minsheng Guancha bianji Ding Lingjie bei jing daizou jiashu 
wei shou tongzhi'' [Civil Rights & Livelihood Watch editor Ding Lingjie 
taken away by police, family has not received [detention] notice], 
Radio Free Asia, September 25, 2017; Civil Rights & Livelihood Watch, 
``Li Xuehui, Ding Lingjie he Li Hui deng duo ren bei yi xunxin zishi 
zui panxing'' [Li Xuehui, Ding Lingjie and Li Hui, among others, 
sentenced for picking quarrels and provoking trouble], December 28, 
2018; Chinese Human Rights Defenders, ``Ding Lingjie,'' accessed May 2, 
2019; Rights Defense Network, ``Weiquan renshi Ding Lingjie nushi 
xingman chuyu'' [Rights defender Ms. Ding Lingjie completed sentence 
and is released from prison], May 21, 2019. Authorities reportedly 
released Ding on May 21, 2019. For more information on Ding Lingjie, 
see the Commission's Political Prisoner Database record 2017-00328.
    \87\ Lin Yijiang, ``Dozens of Bitter Winter Reporters Arrested,'' 
Bitter Winter, December 27, 2018; Marco Respinti, ``The Fate of Bitter 
Winter's 45 Arrested Reporters,'' Bitter Winter, February 7, 2019.
    \88\ UN Human Rights Council, Opinions adopted by the Working Group 
on Arbitrary Detention at its eighty-first session, April 17-26, 2018, 
A/HRC/WGAD/2018/22, June 27, 2018, paras. 52-54.
    \89\ Dui Hua Foundation, ``The Arbitrary Classification of State 
Secrets,'' Dui Hua Human Rights Journal, August 16, 2018.
    \90\ ``China's Jailed Citizen Journalists at Risk of Torture, 
Death: Press Freedom Group,'' Radio Free Asia, December 19, 2018.
    \91\ Chinese Human Rights Defenders (CHRD), ``China: Release Liu 
Feiyue and Decriminalize Human Rights Activism,'' January 29, 2019. 
According to CHRD, the court also fined Liu approximately US$150,000, 
an amount purportedly equivalent to the overseas funding Liu allegedly 
received to finance the website. For more information on Liu Feiyue, 
see the Commission's Political Prisoner Database record 2016-00460.
    \92\ Civil Rights & Livelihood Watch, `` `Liu Feiyue an' jin 
kaiting shengyuanzhe zao kouya'' [``Liu Feiyue's case'' goes to trial 
today, supporters taken into custody], August 7, 2018.
    \93\ Chinese Human Rights Defenders, ``Chinese Government Puts 
Human Rights Defenders on Trial during Holiday Season to Hide Rights 
Abuses,'' January 8, 2019; ``China to Try Outspoken Nanjing Journalist 
for `Subversive' Social Media Posts,'' Radio Free Asia, February 8, 
2018. For more information on Sun Lin, see the Commission's Political 
Prisoner Database record 2008-00617.
    \94\ Reporters Without Borders, ``Boxun Journalist in Nanjing Gets 
Four Years in Prison,'' June 30, 2008.
    \95\ Dui Hua Foundation, ``The Arbitrary Classification of State 
Secrets,'' Dui Hua Human Rights Journal, August 16, 2018.
    \96\ Mianyang Municipal Intermediate People's Court, ``Huang Qi 
guyi xielou guojia mimi, wei jingwai feifa tigong guojia mimi an yishen 
gongkai xuanpan'' [First instance [trial] publicly announced sentence 
of Huang Qi for intentionally leaking state secrets and illegally 
providing state secrets abroad], July 29, 2019. The court sentenced 
Huang to 3 years' imprisonment on the charge of ``intentionally leaking 
state secrets'' and to 11 years' imprisonment on the charge of 
``illegally providing state secrets to overseas entities''; it ordered 
him to serve 12 years of the combined 14-year sentence. In addition, 
the court sentenced him to four years' deprivation of political rights 
and a fine of 200,000 yuan (US$28,000). For more information on Huang 
Qi, see the Commission's Political Prisoner Database record 2004-04053.
    \97\ ``A Chinese Dissident Jailed for Critical Thought Deserves the 
World's Help,'' editorial, Washington Post, July 31, 2019.
    \98\ Lily Kuo, `` `The Last Time I Saw Granny Pu': 85-Year-Old 
Mother of Chinese Dissident Seized by Police,'' Guardian, December 20, 
2018; Rights Defense Network, ``Zao ruanjin de Huang Qi muqin Pu 
Wenqing yao jian Zhongyang xunshizu, dianhua bei pingbi cheng konghao'' 
[Huang Qi's mother Pu Wenqing, currently held in soft detention, asks 
to see Central investigation team, but phone call filtered into empty 
number], July 9, 2019. For more information on Pu Wenqing, see the 
Commission's Political Prisoner Database record 2018-00619.
    \99\ ``Jailed Chinese Activist's Life in `Immediate' Danger: Rights 
Groups,'' Agence France-Presse, reprinted in Straits Times, November 5, 
2018; Yaxue Cao, ``85-Year-Old Mother Fights for the Release of Her 
Son, Renowned Human Rights Defender,'' China Change, October 15, 2018; 
Human Rights in China, ``Mother of Detained Rights Activist Huang Qi 
Fears Reprisal, Calls for International Attention,'' November 19, 2018.
    \100\ Foreign Correspondents' Club of China, Under Watch: Reporting 
in China's Surveillance State, January 2019, 1.
    \101\ Ibid., 1-2.
    \102\ Foreign Correspondents' Club of China, Under Watch: Reporting 
in China's Surveillance State, January 2019, 7-8. See also Owen Guo, 
``Reflections of a Chinese Reporter in Foreign Media,'' SupChina, 
August 21, 2018.
    \103\ Foreign Correspondents' Club of China, Under Watch: Reporting 
in China's Surveillance State, January 2019, 8.
    \104\ Ibid., 11-12.
    \105\ Foreign Correspondents' Club of China, Under Watch: Reporting 
in China's Surveillance State, January 2019, 5-7; Foreign 
Correspondents' Club of China (FCCC), ``Foreign Journalist Access to 
Tibet,'' FCCC Position Paper, March 2019, 1.
    \106\ Chinese Influence and American Interests: Promoting 
Constructive Vigilance, Report of the Working Group on Chinese 
Influence Activities in the United States (Stanford, CA: Hoover 
Institution Press, 2018), 5, 93.
    \107\ Gerry Shih, ``China Adds Washington Post, Guardian to `Great 
Firewall' Blacklist,'' Washington Post, June 8, 2019.
    \108\ Ryan Gallagher, ``China Bans The Intercept and Other News 
Sites in `Censorship Black Friday,' '' Intercept, June 7, 2019; 
``Western News Sites Blocked as Chill on Chinese Media Continues,'' 
China Digital Times, June 7, 2019.
    \109\ Josh Horwitz, ``Online Encyclopedia Wikipedia Blocked in 
China Ahead of Tiananmen Anniversary,'' Reuters, May 15, 2019.
    \110\ Austin Ramzy and Edward Wong, ``China Forces Out Buzzfeed 
Journalist,'' New York Times, August 23, 2018.
    \111\ Megha Rajagopalan, ``This Is What a 21st-Century Police State 
Really Looks Like,'' BuzzFeed News, October 17, 2017.
    \112\ Megha Rajagopalan, ``An American Reporter Was Denied a Visa 
to China. She Said It's Because She Criticized the Communist Party.,'' 
BuzzFeed News, June 19, 2019.
    \113\ Committee to Protect Journalists, ``China Refuses Visa 
Application for Critical American Journalist,'' June 19, 2019.
    \114\ ``Weixie ba jizhe liuru hei mingdan E'meiti zhize Zhongguo 
ganshe xinwen ziyou'' [For threatening to put journalist on blacklist, 
Russian media accuses China of meddling in freedom of the press], Voice 
of America, March 5, 2019.
    \115\ Foreign Correspondents' Club of China, Under Watch: Reporting 
in China's Surveillance State, January 2019, 14-15.
    \116\ Paul Mozur, ``Being Tracked while Reporting in China, Where 
`There Are No Whys,' '' New York Times, April 16, 2019.
    \117\ Foreign Correspondents' Club of China (FCCC), ``Foreign 
Journalist Access to Tibet,'' FCCC Position Paper, March 2019, 1, 4. 
The FCCC urged foreign governments to pressure the Chinese government 
to approve individual reporting trips to the TAR by the end of 2019, 
rather than offering only highly restricted government-arranged group 
media access, and to push for the removal of prior approval 
requirements in 2021, one year in advance of the 2022 Winter Olympics 
in Beijing municipality.
    \118\ Ibid., 1.
    \119\ Zhuang Rongwen, ``Kexue renshi wangluo chuanbo guilu nuli 
tigao yong wang zhi wang shuiping'' [Scientifically understanding the 
natural laws of online communication, striving to boost the level of 
internet use and network governance], Qiushi Journal, September 16, 
2018; Rogier Creemers, Paul Triolo, and Graham Webster, ``Translation: 
China's New Top Internet Official Lays Out Agenda for Party Control 
Online,'' DigiChina (blog), New America, September 24, 2018. See also 
Nectar Gan, ``Cyberspace Controls Set to Strengthen under China's New 
Internet Boss,'' South China Morning Post, September 20, 2018.
    \120\ ``Xi Jinping: Tuidong meiti ronghe xiang zongshen fazhan 
gonggu quan Dang quanguo renmin gongtong sixiang jichu'' [Xi Jinping: 
Promote deeper development of media convergence, consolidate the entire 
Party and people's common ideological foundation], Xinhua, January 25, 
2019; David Bandurski, ``PSC Converges for Media Convergence,'' China 
Media Project, January 29, 2019.
    \121\ Marina Svensson, ``Human Rights and the Internet in China: 
New Frontiers and Challenges'' in Handbook of Human Rights in China, 
eds. Sarah Biddulph and Joshua Rosenzweig (Northhampton, MA: Edward 
Elgar, 2019), 637.
    \122\ Ibid., 644, 646.
    \123\ Mingli Shi, ``What China's 2018 Internet Governance Tells Us 
about What's Next,'' DigiChina (blog), New America, January 28, 2019; 
Adrian Shahbaz, Freedom House, ``China,'' in Freedom on the Net 2018: 
The Rise of Digital Authoritarianism, October 2018.
    \124\ Eva Pils, ``Human Rights and the Political System'' in 
Handbook of Human Rights in China, eds. Sarah Biddulph and Joshua 
Rosenzweig (Northhampton, MA: Edward Elgar, 2019), 43n24.
    \125\ See, e.g., Manya Koetse, ``Chinese Blogger Addresses Weibo's 
`Elephant in the Room,' '' What's on Weibo (blog), June 10, 2019.
    \126\ See, e.g., ``Blogger Tried for `Defaming' Chinese Leaders 
Past and Present,'' Radio Free Asia, January 31, 2019. For more 
information on this case, see the Commission's Political Prisoner 
Database record 2016-00380 on Liu Yanli.
    \127\ See, e.g., `` `Spiritually Japanese' Artist Held in China's 
Anhui over Pig-Head Cartoons,'' Radio Free Asia, August 1, 2019. For 
more information on this case, see the Commission's Political Prisoner 
Database record 2019-00303 on Zhang Dongning.
    \128\ Cyberspace Administration of China, Ju You Yanlun Shuxing Huo 
Shehui Dongyuan Nengli de Hulian Wang Xinxi Fuwu Anquan Pinggu Guiding 
[Provisions for the Security Assessment of Internet Information 
Services Having Public Opinion Properties or Social Mobilization 
Capacity], effective November 30, 2018, art. 17. For an English 
translation of these provisions, see Rogier Creemers, ``New Rules 
Target Public Opinion and Mobilization Online in China (Translation),'' 
DigiChina (blog), New America, November 21, 2018.
    \129\ Rogier Creemers, ``New Rules Target Public Opinion and 
Mobilization Online in China (Translation),'' DigiChina (blog), New 
America, November 21, 2018.
    \130\ Jessica Baron, ``Cyber-Sovereignty and China's Great 
Firewall: An Interview with James Griffiths,'' Forbes, April 8, 2019; 
Gary King, Jennifer Pan, and Margaret E. Roberts, ``How Censorship in 
China Allows Government Criticism but Silences Collective Expression,'' 
American Political Science Review 107, no. 2 (May 2013).
    \131\ Blake Miller, ``Delegated Dictatorship: Examining the State 
and Market Forces behind Information Control in China,'' (PhD diss., 
University of Michigan, 2018), chap. IV.
    \132\ Yaqiu Wang, Human Rights Watch, ``China's Social Media 
Crackdown Targets Twitter,'' November 21, 2018.
    \133\ Renee Xia, Chinese Human Rights Defenders, ``30-Year 
Censorship and No Accountability for Tiananmen: Here Lies the Hope,'' 
June 4, 2019.
    \134\ Threat Lab, Electronic Frontier Foundation, ``30 Years Since 
Tiananmen Square: The State of Chinese Censorship and Digital 
Surveillance,'' June 4, 2019.
    \135\ Charlotte Gao, ``Ahead of Tiananmen Incident Anniversary, 
China Launches a New Round of Internet Crackdown,'' The Diplomat, 
January 4, 2019; ``Western News Sites Blocked in China,'' China Digital 
Times, June 7, 2019.
    \136\ David Bandurski, ``WeChat Exposes,'' China Media Project, 
January 5, 2019.
    \137\ Charlotte Gao, ``Ahead of Tiananmen Incident Anniversary, 
China Launches a New Round of Internet Crackdown,'' The Diplomat, 
January 4, 2019.
    \138\ Citizen Lab and Weiboscope, ``China's Censored Histories: 
Commemorating the 30th Anniversary of the Tiananmen Square Massacre,'' 
Global Voices, April 17, 2019.
    \139\ Citizen Lab and Weiboscope, ``China's Censored Histories: 
Commemorating the 30th Anniversary of the Tiananmen Square Massacre,'' 
Global Voices, April 17, 2019. See also Li Yuan, ``Learning China's 
Forbidden History So They Can Censor It,'' New York Times, January 2, 
2019.
    \140\ Holmes Chan, ``Archive Reveals Scale of China's Tiananmen 
Massacre Blackout as Netizens Fight to Evade Censors,'' Hong Kong Free 
Press, April 16, 2019. See also Li Yuan, ``Learning China's Forbidden 
History So They Can Censor It,'' New York Times, January 2, 2019.
    \141\ Eva Xiao, ``Stealth Crackdown: Chinese Censorship Extends to 
Twitter as Activists' Accounts Disappear,'' Agence France-Presse, 
reprinted in Hong Kong Free Press, November 18, 2018; Yaqiu Wang, Human 
Rights Watch, ``China's Social Media Crackdown Targets Twitter,'' 
November 21, 2018; Yaxue Cao, ``China Steps Up Nationwide Crackdown to 
Silence Twitter Users--The Unmediated Story,'' China Change, December 
5, 2018.
    \142\ Gerry Shih, ``Chinese Censors Go Old School to Clamp Down on 
Twitter: A Knock on the Door,'' Washington Post, January 4, 2019. See 
also Christian Shepherd and Yuan Yang, ``Chinese Authorities Step Up 
Crackdown on Twitter Users,'' Financial Times, April 15, 2019.
    \143\ Yaqiu Wang, Human Rights Watch, ``China's Social Media 
Crackdown Targets Twitter,'' November 21, 2018; Yaxue Cao, ``China 
Steps Up Nationwide Crackdown to Silence Twitter Users--The Unmediated 
Story,'' China Change, December 5, 2018.
    \144\ Paul Mozur, ``Twitter Takes Down Accounts of China Dissidents 
Ahead of Tiananmen Anniversary,'' New York Times, June 1, 2019.
    \145\ Paul Mozur, ``Twitter Takes Down Accounts of China Dissidents 
Ahead of Tiananmen Anniversary,'' New York Times, June 1, 2019; Ellen 
Cranley, ``Twitter Apologized for Suspending Accounts of Chinese 
Government Critics Ahead of Tiananmen Square Anniversary,'' Business 
Insider, June 2, 2019.
    \146\ Chinese Human Rights Defenders, ``June 4th Wine Bottle 
Case,'' May 30, 2018, accessed May 18, 2019; ``China Hands Suspended 
Jail Term to Man Who Sold Tiananmen Massacre Liquor,'' Radio Free Asia, 
April 1, 2019 (Fu Hailu was given a three-year sentence, suspended for 
five years); Rights Defense Network, `` `Chengdu Liusi Jiu'an' zui xin 
tongbao: Luo Fuyu dangting bei panjue youqi tuxing 3 nian, huanqi 4 
nian zhixing'' [Latest bulletin on ``Chengdu June 4th liquor case'': 
Luo Fuyu sentenced in court to 3 years, suspended for 4 years], April 
3, 2019; Rights Defense Network, `` `Chengdu Liusi Jiu'an' zui xin 
tongbao: Zhang Junyong dangting bei panjue youqi tuxing 3 nian, huanqi 
4 nian zhixing'' [Latest bulletin on ``Chengdu June 4th liquor case'': 
Zhang Junyong sentenced in court to 3 years, suspended for 4 years], 
April 2, 2019; Rights Defense Network, `` `Chengdu Liusi Jiu'an' zui 
xin tongbao: Chen Bing jujue renzui dangting bei panjue youqi tuxing 3 
nian 6 ge yue ci an daoci chen'ai luoding'' [Latest bulletin on 
``Chengdu June 4th liquor case'': Chen Bing refuses to admit guilt, 
sentenced in court to 3 years and 6 months in prison, the dust has now 
settled in this case], April 4, 2019; ``Court in China's Sichuan Jails 
Fourth Man over Tiananmen Massacre Liquor,'' Radio Free Asia, April 4, 
2019. For more information on the June Fourth liquor bottle cases, see 
the Commission's Political Prisoner Database records 2016-00240 on Fu 
Hailu, 2016-00241 on Chen Bing, 2016-00242 on Luo Fuyu, and 2016-00243 
on Zhang Junyong.
    \147\ Rowena Xiaoqing He, ``Never Forget. Never Give Up: The 
Tiananmen Movement, 30 Years Later,'' Globe and Mail, April 22, 2019; 
Chinese Human Rights Defenders, ``June 4th Wine Bottle Case,'' May 30, 
2018, accessed May 18, 2019; Didi Kirsten Tatlow, ``A High-Proof 
Tribute to Tiananmen's Victims Finds a Way Back to China,'' New York 
Times, May 30, 2017.
    \148\ Glenn Tiffert, ``30 Years after Tiananmen: Memory in the Era 
of Xi Jinping,'' Journal of Democracy 30, no. 2 (April 2019): 42.
    \149\ On May 4, 1919, students protested in Beijing municipality 
against the provisions in the Treaty of Versailles that ceded disputed 
territory to Japan. See Dan Xing Huang, ``The Chinese Enlightenment at 
100,'' Foreign Affairs, May 3, 2019; Chris Buckley and Amy Qin, ``Why 
Does a Student Protest Held a Century Ago Still Matter in China?,'' New 
York Times, May 3, 2019. On the role of university students during the 
100 Flowers Movement in 1957, see Yidi Wu, ``Blooming, Contending, and 
Staying Silent: Student Activism and Campus Politics in China, 1957'' 
(PhD diss., UC Irvine, 2017).
    \150\ Glenn Tiffert, ``30 Years after Tiananmen: Memory in the Era 
of Xi Jinping,'' Journal of Democracy 30, no. 2 (April 2019): 42.
    \151\ Uyghur Human Rights Project, ``Update--Detained and 
Disappeared: Intellectuals Under Assault in the Uyghur Homeland,'' May 
21, 2019; ``Uyghur Scholar Arrested Over Politically Sensitive Book,'' 
Radio Free Asia, December 10, 2018 (Gheyret Abdurahman, Xinjiang 
Academy of Social Sciences); Chris Buckley and Austin Ramzy, ``Star 
Scholar Disappears as Crackdown Engulfs Western China,'' New York 
Times, August 10, 2018 (Rahile Dawut, Xinjiang University); ``Xinjiang 
University President Purged under `Two-Faced' Officials Campaign,'' 
Radio Free Asia, February 10, 2018 (Tashpolat Teyip, Xinjiang 
University).
    \152\ ``Xinjiang Authorities Arrest Leading Kyrgyz Historian for 
`Undecided' Crime,'' Radio Free Asia, November 30, 2018 (Askar Yunus, 
Xinjiang Academy of Social Sciences).
    \153\ Eli Friedman, ``It's Time to Get Loud about Academic Freedom 
in China,'' Foreign Policy, November 13, 2018; Yuan Yang, ``China 
Student Speaks of Harassment over Protests,'' Financial Times, November 
4, 2018; Javier C. Hernandez, ``China Using Taped Confessions to 
Intimidate Young Communists, Students Say,'' New York Times, January 
21, 2019; Manfred Elfstrom, ``China's Recent Crackdown on Labour 
Activists May Have Little to Do with Their Own Actions,'' South China 
Morning Post, February 7, 2019.
    \154\ Gerry Shih, `` `If I Disappear': Chinese Students Make 
Farewell Messages amid Crackdowns over Labor Activism,'' Washington 
Post, May 25, 2019; Christian Shepherd and Ben Blanchard, ``Leading 
Chinese Marxist Student Taken Away by Police on Mao's Birthday,'' 
Reuters, December 26, 2018.
    \155\ Guo Rui and Mimi Lau, ``Fears for Young Marxist Activist 
Missing after Police Raid in China,'' South China Morning Post, October 
12, 2018; Hong Kong Confederation of Trade Unions, ``Who Are the 
Student [sic] Who `Go to Shenzhen'? Yue Xin, from Beijing to 
Shenzhen,'' accessed May 31, 2019.
    \156\ Glenn Tiffert, ``30 Years after Tiananmen: Memory in the Era 
of Xi Jinping,'' Journal of Democracy 30, no. 2 (April 2019): 42; Sarah 
Cook, ``The Chinese Communist Party's Latest Propaganda Target: Young 
Minds,'' The Diplomat, April 26, 2019.
    \157\ ``Beijing duli shudian bei yaoqiu xiajia yi xilie jingnei 
chuban wu'' [Independent bookstore in Beijing ordered to take a series 
of mainland publications off shelves], Voice of America, June 14, 2018; 
Amy Hawkins and Jeffrey Wasserstrom, ``Why 1984 Isn't Banned in 
China,'' Atlantic, January 13, 2019.
    \158\ Christian Shepherd, ``Disappearing Textbook Highlights Debate 
in China over Academic Freedom,'' Reuters, February 1, 2019; ``Zhang 
Qianfan on Academic Censorship,'' China Digital Times, February 8, 
2019.
    \159\ Yojana Sharma, ``Beijing Signals Tighter Control over 
Dissenting Scholars,'' University World News, November 1, 2018; ``China 
Replaces Head of Peking University with Communist Party Chief,'' Radio 
Free Asia, October 25, 2018.
    \160\ Civil Rights & Livelihood Watch, ``Gongmin yanlun ziyou de 
xianfa quanli burong jianta'' [Constitutional right to citizens' 
freedom of speech not easily trampled upon], October 3, 2018; ``Duo 
ming gaoxiao jiaoshi yin `yanlun budang' shoudao chuli'' [Many 
university teachers disciplined because their ``speech was 
inappropriate''], Yingying shoufa (WeChat account), reprinted in China 
Digital Times, February 7, 2019; ``Shandong xuezhe Liu Shuqing fabiao 
gongquanli wenzhang zao xiaofang chufen'' [Shandong scholar Li Shuqing 
disciplined for publishing essay on public power], Radio Free Asia, May 
7, 2019; ``Ketang lun zheng zao xuesheng jubao fu jiaoshou bei che 
jiaoshi zige'' [Reported on by student for discussing politics in 
class, associate professor's teaching credentials withdrawn], Radio 
Free Asia, March 29, 2019; Taisu Zhang et al., ``What Does the 
Punishment of a Prominent Scholar Mean for Intellectual Freedom in 
China?,'' ChinaFile, Asia Society, March 28, 2019; Chris Buckley, ``A 
Chinese Law Professor Criticized Xi. Now He's Been Suspended.,'' New 
York Times, March 26, 2019; Guo Yuhua, ``Na you xuezhe bu biaoda?'' 
[When do scholars not have something to say?], Financial Times, March 
26, 2019. For an English translation of Guo Yuhua's essay, see Geremie 
R. Barme, ``J'accuse, Tsinghua University,'' China Heritage (blog), 
Wairarapa Academy for New Sinology, March 29, 2019.
    \161\ Chris Buckley, ``A Chinese Law Professor Criticized Xi. Now 
He's Been Suspended.,'' New York Times, March 26, 2019; Guo Yuhua, ``Na 
you xuezhe bu biaoda?'' [When do scholars not have something to say?], 
Financial Times, March 26, 2019. For an English translation of Guo 
Yuhua's essay, see Geremie R. Barme, ``J'accuse, Tsinghua University,'' 
China Heritage (blog), Wairarapa Academy for New Sinology, March 29, 
2019.
    \162\ ``Ketang lun zheng zao xuesheng jubao fu jiaoshou bei che 
jiaoshi zige'' [Reported on by student for discussing politics in 
class, associate professor's teaching credentials withdrawn], Radio 
Free Asia, March 29, 2019; Sarah Cook, ``The Chinese Communist Party's 
Latest Propaganda Target: Young Minds,'' The Diplomat, April 26, 2019.
    \163\ Chinese Influence & American Interests: Promoting 
Constructive Vigilance, Report of the Working Group on Chinese 
Influence Activities in the United States (Stanford, CA: Hoover 
Institution Press, 2018), 59; Foreign Correspondents' Club of China, 
Under Watch: Reporting in China's Surveillance State, January 2019, 10.
    \164\ Elizabeth M. Lynch, ``The Despair behind May 4: Are We Seeing 
It Again Today?,'' China Law and Policy (blog), May 2, 2019; Ai 
Xiaoming, ``I Travel the Earth in Sound--Marking the 10th Year of Being 
Barred from Leaving China,'' China Change, March 29, 2019; Ian Johnson, 
``The People in Retreat: An Interview with Ai Xiaoming,'' NYRB Daily 
(blog), New York Review of Books, September 8, 2016.
    \165\ Chen Jian'gang, ``A Statement by Lawyer Chen Jiangang, 
Blocked Today from Leaving China to Take Part in the Humphrey 
Fellowship Program,'' China Change, April 1, 2019; ``China Bars Human 
Rights Lawyer from US State Dept. Program,'' Associated Press, April 3, 
2019. Chen had been accepted into a U.S. State Department-supported 
program. Authorities prevented him from leaving the Beijing Capital 
International Airport.
    \166\ Chinese Influence & American Interests: Promoting 
Constructive Vigilance, Report of the Working Group on Chinese 
Influence Activities in the United States (Stanford, CA: Hoover 
Institution Press, 2018), xi, 40, 47, 48-49; Tao Zhang, ``Chinese 
Influence and the Western Academy: Time for a Concerted Response,'' 
Asia Dialogue, University of Nottingham Asia Research Institute, April 
2, 2019; Ellen Nakashima, ``China Specialists Who Long Supported 
Engagement Are Now Warning of Beijing's Efforts to Influence American 
Society,'' Washington Post, November 28, 2018. See also Anastasya 
Lloyd-Damnjanovic, ``A Preliminary Study of PRC Political Influence and 
Interference Activities in American Higher Education,'' Wilson Center, 
September 6, 2018.
    \167\ Eli Friedman, ``It's Time to Get Loud about Academic Freedom 
in China,'' Foreign Policy, November 13, 2019; Yuan Yang, ``China 
Student Speaks of Harassment over Protests,'' Financial Times, November 
4, 2018.
    \168\ Holmes Chan, ``Visiting Australian Academic Kevin Carrico 
Tailed and Accused of Separatism by Pro-Beijing Newspaper,'' Hong Kong 
Free Press, December 18, 2018; Peter Hartcher, ``No Longer Safe: 
Researcher Harassed by China in Her Own Country,'' Sydney Morning 
Herald, January 29, 2019.
    \169\ Edward Wong and Chris Buckley, ``U.S. Scholar Who Advises 
Trump Says China Blocked His Visa Application,'' New York Times, April 
17, 2019.
    \170\ ``Mei dui Hua xuezhe shoujin qianzheng Zhongguo you jin le 
naxie Meiguo xuezhe?'' [U.S. tightens visas for Chinese scholars, which 
U.S. scholars does China prohibit?], Radio Free Asia, April 16, 2019. 
Radio Free Asia's examples are Richard Fisher, Andrew Nathan, Xia Ming, 
and Perry Link. Anastasya Lloyd-Damnjanovic, ``A Preliminary Study of 
PRC Political Influence and Interference Activities in American Higher 
Education,'' Wilson Center, September 6, 2018. The Wilson Center report 
examples included the ``Xinjiang 13,'' a group of 13 scholars allegedly 
placed on a blacklist following the publication of a book of critical 
essays about conditions in the Xinjiang Uyghur Autonomous Region. 
Sheena Chestnut Greitens and Rory Truex, ``Repressive Experience among 
China Scholars: New Evidence from Survey Data,'' Social Science 
Research Network, August 1, 2018, accessed May 15, 2019: 1, 6-7.
    \171\ Anastasya Lloyd-Damnjanovic, ``A Preliminary Study of PRC 
Political Influence and Interference Activities in American Higher 
Education,'' Wilson Center, September 6, 2018, 43, 64.
    \172\ Sheena Chestnut Greitens and Rory Truex, ``Repressive 
Experience among China Scholars: New Evidence from Survey Data,'' 
Social Science Research Network, August 1, 2018, accessed May 15, 2019: 
7-9, 13; Glenn Tiffert, ``30 Years After Tiananmen: Memory in the Era 
of Xi Jinping,'' Journal of Democracy 30, no. 2 (April 2019): 44.
    \173\ Glenn Tiffert, ``30 Years after Tiananmen: Memory in the Era 
of Xi Jinping,'' Journal of Democracy 30, no. 2 (April 2019): 45; 
Nicholas Loubere and Ivan Franceschini, ``How the Chinese Censors 
Highlight Fundamental Flaws in Academic Publishing,'' Chinoiresie, 
October 16, 2018.
    \174\ Sheena Chestnut Greitens and Rory Truex, ``Repressive 
Experience among China Scholars: New Evidence from Survey Data,'' 
Social Science Research Network, August 1, 2018, accessed May 15, 2019: 
1, 16, 17.
    \175\ Ibid., 13.


                                                  Worker Rights
                                                Worker Rights

                             Worker Rights


                                Findings

        <bullet> During the Commission's 2019 reporting year, 
        Chinese authorities severely restricted the ability of 
        civil society organizations to work on labor issues, 
        expanding a crackdown on labor advocates across China. 
        As of August 2019, over 50 workers and labor advocates 
        were under some form of detention in connection with 
        the crackdown.
        <bullet> The Chinese Communist Party-led All-China 
        Federation of Trade Unions (ACFTU) remains the only 
        trade union organization permitted under Chinese law, 
        and workers are not permitted to establish independent 
        unions. In November 2018, Chinese authorities detained 
        two local-level ACFTU officials, Zou Liping and Li Ao, 
        who attempted to assist workers at a Jasic Technology 
        factory in Shenzhen municipality, Guangdong province, 
        in setting up an ACFTU union.
        <bullet> The Chinese government did not publicly report 
        the number of worker strikes and protests, and non-
        governmental organizations (NGOs) and citizen 
        journalists continued to face difficulties in obtaining 
        comprehensive information on worker actions. The Hong 
        Kong-based NGO China Labour Bulletin (CLB), which 
        compiles data on worker actions collected from 
        traditional news sources and social media, documented 
        1,702 strikes and other worker actions in 2018, up from 
        1,257 incidents in 2017. In 2018, almost half (44.8 
        percent) of the worker actions documented by CLB were 
        in the construction sector, although significant 
        incidents were documented by workers at a recycling 
        company, food delivery workers, and factory workers in 
        the manufacturing sector.
        <bullet> In March 2019, Chinese internet technology 
        workers launched a campaign against exploitative work 
        hours--referred to as ``996,'' a 9 a.m. to 9 p.m. 
        schedule for six days a week common in many technology 
        companies. The campaign, described by an American tech 
        worker advocate as ``the largest demonstration of 
        collective action the tech world has ever seen,'' 
        posted a list of companies, including Huawei and 
        Alibaba, that reportedly require their employees to 
        follow the 996 schedule. Jack Ma, the founder of 
        Alibaba called the 996 schedule ``a blessing,'' and 
        some Chinese companies blocked access to the software 
        development platform Github, a Microsoft subsidiary, 
        where tech workers first posted the campaign.
        <bullet> During this reporting year, international 
        media documented the use of forced labor associated 
        with mass internment camps in the Xinjiang Uyghur 
        Autonomous Region (XUAR). Based on personal accounts, 
        analysis of satellite imagery, and official documents, 
        the New York Times documented a number of new factories 
        in or nearby the camps, and the Associated Press 
        tracked shipments from one of these factories to a 
        U.S.-based company Badger Sportswear.
        <bullet> In March 2019, following a chemical explosion 
        that killed 78 people in Jiangsu province, the largest 
        industrial accident in China since a 2015 industrial 
        explosion in Tianjin municipality killed 173 people, 
        the UN special rapporteur on human rights and toxics 
        stated that, ``China's repeated promises on chemical 
        safety must be followed by meaningful action and 
        lasting measures if it is to meet its human rights 
        obligations.''
        <bullet> In 2019, Chinese authorities detained three 
        citizen journalists from the iLabour (Xin Shengdai) 
        website--Yang Zhengjun, Ke Chengbing, and Wei Zhili--as 
        well as NGO worker Li Dajun, all of whom had advocated 
        on behalf of pneumoconiosis victims.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Press the Chinese government to immediately release 
        labor advocates and journalists who are in prison or 
        detention for the exercise of their lawful rights and 
        to stop censoring economic and labor reporting. 
        Specifically, consider raising the following cases:

                  Detained NGO staff and labor advocates, 
                including Fu Changguo and Zhang Zhiyu (more 
                widely known as Zhang Zhiru);
                  Citizen journalists and NGO workers who had 
                advocated on behalf of pneumoconiosis victims, 
                including Yang Zhengjun, Ke Chengbing, Wei 
                Zhili, and Li Dajun;
                  Detained factory worker advocates from Jasic 
                Technology in Shenzhen municipality, Guangdong 
                province, including Mi Jiuping and Liu Penghua;
                  Detained university students and recent 
                graduates, including Yue Xin and Qiu Zhanxuan; 
                and
                  Detained local-level ACFTU officials Zou 
                Liping and Li Ao who supported grassroots 
                worker organizing efforts.

          Call on the Chinese government to respect 
        internationally recognized rights to freedom of 
        association and collective bargaining, and allow 
        workers to organize and establish independent labor 
        unions. Raise concern in all appropriate trade 
        negotiations and bilateral and multilateral dialogues 
        about the Chinese Communist Party's role in collective 
        bargaining and elections of trade union 
        representatives, emphasizing that in a market economy, 
        wage rates should be determined by free bargaining 
        between labor and management.
          Call on the Chinese government to permit academic 
        freedom on university campuses in China, and stop the 
        harassment, surveillance, and detention of students who 
        support worker rights.
          Call on the Chinese government to end the use of 
        forced labor associated with the mass internment camps 
        in the XUAR.
          Promote and support bilateral and multilateral 
        exchanges among government officials, academics, legal 
        experts, and civil society groups to focus on labor 
        issues such as freedom of expression, collective 
        bargaining, employment discrimination, and occupational 
        health and safety. Seek opportunities to support 
        capacity-building programs to strengthen Chinese labor 
        and legal aid organizations defending the rights of 
        workers.
          When appropriate, integrate meaningful civil society 
        participation into bilateral and multilateral 
        dialogues, meetings, and exchanges. Invite 
        international unions and labor NGOs as well as domestic 
        civil society groups from all participating countries 
        to observe relevant government-to-government dialogues.
          Encourage compliance with fundamental International 
        Labour Organization (ILO) conventions. Request that the 
        ILO increase its work monitoring core labor standards 
        in China, including freedom of association and the 
        right to organize.


                                                  Worker Rights
                                                Worker Rights

                             Worker Rights


                 Trade Unions and Collective Bargaining

    The Chinese government and Communist Party's laws and 
practices continue to contravene international worker rights 
standards, including the right to create or join independent 
trade unions.\1\ The Party-led All-China Federation of Trade 
Unions (ACFTU) remains the only trade union organization 
permitted under Chinese law.\2\ The ACFTU's submission to the 
November 2018 session of the UN Human Rights Council's 
Universal Periodic Review (UPR) of the Chinese government's 
human rights record claimed that it had 303 million members,\3\ 
including 140 million migrant workers.\4\ Based on a National 
Bureau of Statistics of China survey,\5\ however, the Hong 
Kong-based non-governmental organization (NGO) China Labour 
Bulletin concluded that around 80 percent of the migrant 
members of the ACFTU were not aware of their membership.\6\ In 
2018, 288.36 million out of 775.86 million employed Chinese 
were migrant workers,\7\ individuals with rural household 
registration but who work and reside in urban areas without 
access to most government benefits.\8\ Scholars and 
international observers noted that the ACFTU typically 
prioritized Party interests over the interests of workers and 
did not effectively represent workers.\9\ In November 2018, at 
the 17th National Congress of the ACFTU, held once every five 
years, Wang Dongming, the ACFTU Chairman and a Vice Chairman of 
the National People's Congress Standing Committee, emphasized 
that the ACFTU should be loyal to the Party.\10\ At the 
enterprise level, union representatives often side with 
management interests.\11\ Provisions in the PRC Labor Law, PRC 
Labor Contract Law, and PRC Trade Union Law provide a legal 
framework for negotiating collective contracts,\12\ but these 
laws designate the Party-controlled ACFTU as responsible for 
negotiating with employers and signing collective contracts on 
behalf of workers.\13\ Restrictions on workers' rights to 
freely establish and join independent trade unions violate 
international standards set forth by the International Labour 
Organization (ILO),\14\ Universal Declaration of Human 
Rights,\15\ International Covenant on Civil and Political 
Rights,\16\ and the International Covenant on Economic, Social 
and Cultural Rights.\17\ As a member of the ILO, China is 
obligated to respect workers' right to collective 
bargaining.\18\

            Heightened Suppression of Labor Rights Advocacy

    The Hong Kong Confederation of Trade Unions, which 
participated in an October 2018 pre-session to the UPR, 
summarized that labor rights in China have ``deteriorated 
significantly in recent years'' and that authorities have 
increased efforts to ``quell labor [unrest] by coercive 
means.'' \19\ During the Commission's 2019 reporting year, 
Chinese authorities expanded a nationwide crackdown on labor 
advocates, following authorities' detention of workers and 
their supporters at a Jasic Technology factory in Shenzhen 
municipality, Guangdong province, beginning in July 2018.\20\ 
According to the China Labor Crackdown Concern Group, an 
organization made up of concerned individuals in mainland China 
and abroad, as of August 2019, over 50 of the 130 labor 
advocates detained since July 2018 remain missing or in 
custody,\21\ and beginning in January 2019, ``[s]ocial work 
organizations and labour rights activists at large have become 
targets.'' \22\

------------------------------------------------------------------------
                             Jasic Incident
-------------------------------------------------------------------------
  In July 2018, factory workers Mi Jiuping and Liu Penghua obtained
 signatures from 89 of approximately 1,000 employees at Jasic
 Technology, a company in Shenzhen municipality, Guangdong province,
 that manufactures industrial equipment, in support of organizing a
 union.\23\ Local-level ACFTU officials had initially supported worker
 efforts to organize a union,\24\ but later that month, Guangdong
 authorities in Guangdong province detained around 30 people including
 Mi and Liu.\25\ The Jasic incident was distinct from the thousands of
 other worker actions in 2018,\26\ because self-described Maoist and
 Marxist university students and recent graduates organized in support
 of the workers.\27\ In August 2018, authorities detained about 50 of
 the student and recent graduate supporters, including Peking University
 graduate and outspoken women's rights advocate Yue Xin, who had
 traveled to Guangdong.\28\ Police and university officials also
 monitored and harassed individuals involved in labor advocacy on
 college campuses.\29\ In October, Cornell University's School of
 Industrial and Labor Relations suspended two student exchange programs
 with Renmin University in Beijing municipality due to ``gross
 violations of academic freedom'' \30\ after university officials--
 reportedly at the direction of the Communist Party--harassed,
 threatened, and surveilled student supporters of the Jasic workers.\31\
 In November, authorities detained at least 12 additional supporters of
 the Jasic workers' labor advocacy,\32\ and two local-level ACFTU
 officials, Zou Liping and Li Ao, who had assisted the workers' attempts
 to establish a union.\33\ As of May 2019, Chinese authorities had
 detained 21 members of the Marxist society at Peking University,
 including the group's leader Qiu Zhanxuan.\34\ In May, the labor
 scholars who edit Made in China Journal, a publication supported in
 part by the Australian National University, wrote that there is a ``. .
 . serious moral and political issue for those Western universities that
 collaborate with academic institutions . . . that blatantly and
 unapologetically collude with Chinese authorities to suppress student
 activists.'' \35\ [For more information on academic freedom in China,
 see Section II--Freedom of Expression.]
------------------------------------------------------------------------

                      Civil Society Organizations

    This past year, Chinese authorities severely restricted the 
ability of civil society organizations to work on labor issues 
and expanded a crackdown on labor advocates across China.\36\ 
Labor NGOs have been active in China since the mid-1990s,\37\ 
and had even advised workers on collective bargaining and other 
rights advocacy beginning around 2002.\38\ Following an earlier 
crackdown on labor advocates that began in 2015,\39\ Chinese 
labor NGOs have been less active, and the work of some labor 
NGOs has become more service-oriented.\40\ In 2019, Chinese 
authorities continued to crack down on labor advocates, 
including Wu Guijun, He Yuancheng, and Song Jiahui.\41\ Between 
August 2018 and July 2019, authorities detained 22 individuals 
working with 10 different labor NGOs or social service 
centers,\42\ including from the following organizations:

        <bullet> Dagongzhe Migrant Workers Center (Dagongzhe 
        Zhongxin). In August 2018, authorities in Shenzhen 
        municipality, Guangdong province, detained Dagongzhe 
        staff Fu Changguo and Huang Qingnan on suspicion of 
        aiding Jasic workers with foreign financial 
        support.\43\
        <bullet> Red Reference (Hongse Cankao). In August 2018, 
        authorities in Beijing municipality searched the office 
        of this leftist website and detained staff member Shang 
        Kai.\44\ In March 2019, authorities in Nanjing 
        municipality, Jiangsu province, placed former editor 
        Chai Xiaoming under ``residential surveillance in a 
        designated location'' on suspicion of ``subversion of 
        state power.'' \45\
        <bullet> Qingying Dreamworks (Qingying Meng Gongchang). 
        In November 2018, Shenzhen authorities detained seven 
        individuals associated with Qingying Dreamworks, a non-
        profit center providing workers' services in a 
        neighborhood with many migrant workers: co-founders 
        Wang Xiangyi and He Pengchao; staff members Jian 
        Xiaowei, Kang Yanyan, Hou Changshan, Wang Xiaomei; and 
        supporter He Xiumei.\46\ As of June 2019, these 
        individuals were still missing.\47\
        <bullet> Chunfeng Labor Dispute Center (Chunfeng 
        Laodong Zhengyi Fuwu Bu). In January 2019, Shenzhen 
        authorities detained founder Zhang Zhiyu (more widely 
        known as Zhang Zhiru) and former staff Jian Hui from 
        Chunfeng Labor Dispute Center, which provided legal 
        assistance to workers.\48\ Authorities held Zhang on 
        suspicion of ``disturbing public order.'' \49\ In 2014, 
        Party-run Global Times described Zhang as ``one of 
        China's top defenders of labor rights.'' \50\
        <bullet> iLabour (Xin Shengdai). In January 2019, 
        authorities in Guangzhou municipality, Guangdong, 
        detained Yang Zhengjun,\51\ the editor-in-chief of the 
        labor advocacy website iLabour (Xin Shengdai), and in 
        March, authorities in Guangzhou detained two other 
        editors, Ke Chengbing \52\ and Wei Zhili.\53\ The 
        iLabour website reported on worker rights issues in 
        China, including the health hazard pneumoconiosis.\54\ 
        Authorities held the editors on suspicion of ``picking 
        quarrels and provoking trouble.'' \55\

    In May 2019, during three separate raids,\56\ Chinese 
authorities detained social workers from the following 
organizations that assisted migrant workers:

        <bullet> Hope Community (Lengquan Xiwang Shequ). 
        Beijing authorities detained Li Dajun, director of Hope 
        Community.\57\
        <bullet> Qinghu Social Learning Center (Qinghu Shequ 
        Xuetang). Shenzhen authorities detained center director 
        Li Changjiang.\58\
        <bullet> Guangdong Mumian Social Work Service Center 
        (Guangdong Mumian Shehui Fuwu Gongzuo Zhongxin). 
        Guangzhou authorities detained Tsinghua University 
        post-doctoral researcher and Mumian volunteer Liang 
        Zicun.\59\

    Domestic labor advocates' connections to foreign groups and 
funding were reportedly of particular concern to authorities. 
In January 2019, for example, Party-run Global Times reported 
that Dagongzhe Migrant Workers Center was ``fully funded by 
overseas NGOs,'' and ``instigating [labor] incidents and 
coercing some workers into taking radical actions.'' \60\ Also 
in January, Chinese authorities forced some student labor 
advocates to watch videotaped confessions of other students in 
which they may have been forced to admit to, among other 
things, ``working with foreign forces to hurt China's 
international image.'' \61\ [For more information on civil 
society in China, see Section II--Civil Society.]

                      Worker Strikes and Protests

    The Chinese government did not publicly report on the 
number of worker strikes and protests, and NGOs that work on 
labor issues continued to face difficulties in obtaining 
comprehensive information on worker actions.\62\ Lu Yuyu, a 
citizen journalist who posted data about social unrest--
including labor protests--on social media platforms, continued 
to serve a four-year sentence in Yunnan province.\63\ China 
Labour Bulletin (CLB), which compiles data on worker actions 
collected from traditional news sources and social media,\64\ 
documented 1,702 strikes and other labor actions in 2018, up 
from 1,257 strikes and other labor actions in 2017.\65\ The 
majority of the labor actions documented by CLB were small in 
scale: in 2018, 1,524 incidents (89.5 percent) involved fewer 
than 100 people, and 163 (9.6 percent) involved over 1,000 
people, including 13 with over 10,000 people (0.8 percent).\66\ 
In 2018, police were involved in 267 of the total incidents 
(15.7 percent), although police were involved in over half (7 
out of 13 protests) of the incidents involving over 1,000 
people.\67\ During this reporting year, wage arrears in China 
were a problem due in part to the continued refusal of 
employers to give workers contracts,\68\ and in 2018, 1,342 
strikes and other labor actions (78.7 percent) involved wage 
arrears.\69\

                                                       \70\
----------------------------------------------------------------------------------------------------------------
                                                                                                    Total Number
 Year      Manufacturing        Construction        Transportation        Services       Other        Reported
----------------------------------------------------------------------------------------------------------------
 2018   15.5%                44.8%               15.9%                 13.3%          10.6%        1,703
        (263)                (763)               (270)                 (227)          (180)
----------------------------------------------------------------------------------------------------------------
 2017   19.7%                38.1%               8.6%                  15.2%          10.8%        1,257
        (267)                (518)               (117)                 (207)          (148)
----------------------------------------------------------------------------------------------------------------
Source: China Labour Bulletin. Note that the percentages indicate the percentage of total worker actions
  documented that year. CLB changed their methodology beginning in 2017.

    Chinese law does not protect workers' right to strike,\71\ 
contravening the International Covenant on Economic, Social and 
Cultural Rights, which China has signed and ratified.\72\
    Examples of strikes and worker actions this past year 
included the following:

        <bullet> Temporary Workers. In November 2018, reports 
        indicated that hundreds to thousands of temporary 
        workers protested outside of a Biel Crystal factory, a 
        major supplier for Apple and Samsung, in Huizhou 
        municipality, Guangdong province, after the factory 
        reportedly laid off 8,000 people due to poor sales of 
        Apple's iPhone.\73\
        <bullet> Independent Contractors. In February 2019, 
        food delivery drivers for online food delivery 
        companies Meituan and Ele.me went on strike in four 
        cities after the companies significantly reduced 
        delivery rates for drivers.\74\
        <bullet> Wage Arrears and Bankruptcy. In April 2019, 
        over 1,000 workers at Little Yellow Dog Environmental 
        Protection, a recycling company, protested in at least 
        four cities after the company announced that it would 
        not be able to pay workers.\75\ According to CLB, the 
        local labor bureau in Dongguang municipality, 
        Guangdong, did not support an arbitration request filed 
        by the workers.\76\

------------------------------------------------------------------------
                 996.ICU Campaign and Excessive Overtime
-------------------------------------------------------------------------
  In March 2019, Chinese internet technology workers launched a campaign
 against exploitative working hours, protesting ``996''--a 9 a.m. to 9
 p.m. schedule for six days a week common in many technology
 companies.\77\ Chinese labor laws generally require that work schedules
 not exceed 8 hours per day or 44 hours per week,\78\ with overtime
 limited to 3 hours per day and 36 hours per month.\79\ The campaign
 began as a project on the software development platform Github,\80\ a
 subsidiary of Microsoft; the campaign identified labor law provisions
 that the schedule violates.\81\ The campaign posted a list of
 companies, including Huawei and Alibaba, that reportedly require their
 workers to adhere to the 996 schedule.\82\ According to an American
 tech worker advocate, the campaign was ``the largest demonstration of
 collective action the tech world has ever seen,'' \83\ as the project
 received over 200,000 ``stars'' indicating support.\84\ Jack Ma, the
 founder of Alibaba, called the 996 schedule ``a blessing,'' \85\ and
 some Chinese companies blocked access to Github.\86\ In April, two
 Chinese programmers released an ``anti-996'' license for open source
 software that requires any individual or company using the licensed
 software to comply with all applicable labor laws and international
 labor standards.\87\
------------------------------------------------------------------------

                            Social Insurance

    The majority of workers in China continued to lack social 
insurance coverage. According to the PRC Social Insurance Law, 
workers are entitled to five forms of social insurance: basic 
pension insurance, health insurance, work-related injury 
insurance, unemployment insurance, and maternity insurance.\88\ 
Under the law, employers and workers are required to contribute 
to basic pension, health, and unemployment insurance; in 
addition, employers are required to contribute to work-related 
injury and maternity insurance on behalf of workers.\89\ 
According to the National Bureau of Statistics of China (NBS), 
in 2018, the number of people covered by work-related injury 
insurance coverage increased by 11.45 million to a total of 
238.68 million for a coverage rate of 30.8 percent.\90\ 
Similarly, NBS reported that work-related injury insurance 
coverage increased for migrant workers by 2.78 million people 
to 80.85 million, for a coverage rate of 28.0 percent.\91\ 
Unemployment and maternity insurance coverage rates increased 
slightly to 25.3 percent and 26.3 percent, respectively for all 
workers.\92\ In July 2018, the central government established a 
central adjustment fund to shift some pension funds from 
wealthier provinces to provinces with more retirees.\93\ The 
Ministry of Finance reported that in 2019, central authorities 
planned to collect and redistribute a total of 484.5 billion 
yuan (US$72 billion),\94\ with Guangdong province expected to 
provide a net contribution of 47.4 billion yuan and Beijing 
municipality a net contribution of 26.3 billion yuan, while 
Liaoning and Heilongjiang provinces are expected to receive net 
distributions of 21.6 billion yuan and 18.4 billion yuan, 
respectively.\95\

                        Employment Relationships

    This past year, several categories of workers were unable 
to benefit fully from protections provided under Chinese law. 
The PRC Labor Law and PRC Labor Contract Law only apply to 
workers who have an ``employment relationship'' (laodong 
guanxi) with their employers.\96\

                   DISPATCH LABOR AND CONTRACT LABOR

    The Commission continued to observe reports of dispatch 
labor (laowu paiqian) and contract worker (waibao) abuses 
during this reporting year, in violation of domestic laws and 
regulations.\97\ Firms, including state-owned enterprises, have 
long used dispatch labor--workers hired through subcontracting 
agencies--to cut costs,\98\ and some firms have replaced 
dispatch labor with contract labor to further reduce costs.\99\ 
For example, in September and October 2018, former dispatch 
workers at the Sino-German automobile joint venture FAW-
Volkswagen in Changchun municipality, Jilin province, protested 
after management ended its reliance on dispatch workers, but 
then made employees choose to either become formal employees at 
lower pay or accept more tenuous employment as contract 
workers.\100\ In January 2019, the state-backed media outlet 
Sixth Tone reported on contract workers who were employed at a 
Protek factory in Shanghai municipality--a site that assembled 
Apple iPhones.\101\ Employees there protested after learning 
that they would not be paid promised bonuses.\102\ The PRC 
Labor Contract Law stipulates that dispatch workers shall be 
paid the same as full-time workers doing similar work, and may 
only perform work on a temporary, auxiliary, or substitute 
basis.\103\

                              INTERN LABOR

    During this reporting year, reports continued to emerge of 
labor abuses involving vocational school students working at 
school-arranged ``internships.'' In October 2018, the Hong 
Kong-based NGO Students and Scholars Against Corporate 
Misbehavior released a report on the widespread use of 16- to 
19-year-old student interns in Chongqing municipality who were 
forced to work 12-hour shifts on production lines as part of 
compulsory internships.\104\ In November 2018, the Financial 
Times reported that hundreds of students in Beijing 
municipality and Kunshan city, Shandong province, were required 
to complete mandatory internships during which they had to work 
up to 18 hours a day at below minimum wage sorting and packing 
goods for the Chinese e-commerce company JD.com.\105\ In August 
2019, China Labor Watch published a report on labor violations 
at Hengyang Foxconn in Hunan province, which included required 
overtime for interns at a facility that manufactures products 
for Amazon.\106\ Regulations prohibit interns from working 
overtime and require internships to be relevant to students' 
plans of study.\107\

                              FORCED LABOR

    This past year, international media reported on the use of 
forced labor associated with mass internment camps in the 
Xinjiang Uyghur Autonomous Region (XUAR). In December 2018, 
based on personal accounts, analysis of satellite imagery, and 
official documents, the New York Times documented a number of 
new factories in or nearby the camps,\108\ and the Associated 
Press tracked shipments from one of these factories to a U.S.-
based company Badger Sportswear.\109\ In March 2019, the State 
Council Information Office issued a white paper acknowledging 
that certain products were being made in the camps.\110\ In May 
2019, a Wall Street Journal report found that the supply chains 
for a number of additional international companies may involve 
forced labor in the XUAR, including Adidas, Kraft Heinz, Coca-
Cola, and Gap.\111\ [For more information on forced labor in 
the Xinjiang Uyghur Autonomous Region, see Section II--Human 
Trafficking, and Business and Human Rights; and Section IV--
Xinjiang.]

                    WORKERS ABOVE THE RETIREMENT AGE

    Chinese workers above the legal retirement age continued to 
lack certain legal protections afforded to other workers under 
Chinese law, as the number of elderly workers increased.\112\ 
According to the PRC Labor Contract Law and the law's 
implementing regulations, once workers reach retirement age or 
receive pensions, their labor contracts are terminated by 
operation of law.\113\ The inability of workers over the 
retirement age to establish a formal employment relationship 
with their employers leaves them without the protections 
provided for in Chinese labor laws in cases of work-related 
injury, unpaid overtime, or other labor issues.\114\ [For more 
information on China's aging population, see Section II--
Population Control.]

                  Work Safety and Industrial Accidents

    During this reporting year, government data showed a 
continued decline in workplace deaths, although Chinese workers 
and labor organizations expressed concerns about inadequate 
safety equipment and training. According to the National Bureau 
of Statistics of China (NBS), a total of 34,046 people died in 
workplace accidents in 2018,\115\ compared to 37,852 deaths in 
2017.\116\ According to one labor expert, however, the actual 
number of deaths ``may be much higher, because incidents 
involving few deaths often go unreported.'' \117\ In 2018, 
there were 333 officially reported coal mining deaths, a major 
decrease from recent years, although according to China Labour 
Bulletin, ``the decline in accident and death rates . . . has 
far more to do with mine closures and the falling demand for 
coal . . . than the introduction of any new safety measures.'' 
\118\
    Management of Chinese companies and factories often did not 
provide adequate safety equipment or required safety training. 
In April 2019, for example, a migrant construction worker in 
Qingdao municipality, Shandong province, claimed that he was 
fired after he filmed and posted a video online that showed the 
low quality of safety helmets that the company had allegedly 
provided to workers.\119\ In response to the video, which 
received over two million views, the Ministry of Emergency 
Management (MEM) posted a message on Weibo, China's Twitter-
like microblogging platform, which said that the realization of 
safe production relies on workers having safe helmets, and that 
[MEM] should pay more attention to safety measures in practice 
rather than what the companies say about those measures.\120\ 
In a December 2018 report entitled, ``A Nightmare for Workers: 
Appalling Conditions in Toy Factories Persist,'' New York City-
based China Labor Watch (CLW) detailed conditions in four 
factories that make toys for Hasbro, Disney, and Mattel, brands 
that are sold in Walmart, Costco, and Target,\121\ including 
inadequate pre-job safety training and inadequate safety 
equipment.\122\ In March 2019, CLW published a report on 
Dongguan Dongwon Electronics, a factory in Dongguan 
municipality, Guangdong province, that manufactures Samsung 
mobile phone chargers, which described, among other violations 
of Chinese law, a lack of pre-job safety training.\123\
    The Chinese government's ineffective enforcement of work 
safety regulations may also have contributed to a significant 
industrial accident.\124\ On March 22, 2019, an explosion at 
Jiangsu Tianjiayi Chemical plant in Yancheng city, Jiangsu 
province, killed 78 people, injured 640, destroyed 16 nearby 
factories, and forced the evacuation of almost 3,000 
people.\125\ This explosion was the largest industrial accident 
since a 2015 explosion in Tianjin municipality killed 173 
people.\126\ Between 2016 and 2018, Chinese authorities had 
issued 5 administrative fines against the chemical plant,\127\ 
and in February 2018, the State Administration of Work Safety 
had identified 13 production-related hazards at the 
facility.\128\ Following the explosion, the UN special 
rapporteur on human rights and toxics declared that, ``China's 
repeated promises on chemical safety must be followed by 
meaningful action and lasting measures if it is to meet its 
human rights obligations.'' \129\ [For more information on the 
Jiangsu Tianjiayi Chemical plant explosion, see Section II--The 
Environment and Climate Change.]

                          Occupational Health

    The Chinese government reported a decrease in the number of 
cases of occupational disease. In May 2019, the National Health 
Commission reported that there were 23,497 cases of 
occupational disease reported in 2018,\130\ compared to 26,756 
cases in 2017 \131\ and 31,789 cases in 2016.\132\ Of the 
occupational disease cases in 2018, 19,468 were work-related 
cases of the lung disease pneumoconiosis.\133\ In January 2019, 
however, National Health Commission research acknowledged that 
the documented number of pneumoconiosis cases was only ``the 
tip of the iceberg.'' \134\
    This past year, protesters from Hunan province who demanded 
compensation demonstrated the difficulties that pneumoconiosis 
victims face in obtaining the official recognition required to 
obtain workers' compensation.\135\ In November 2018, 
approximately 200 retired migrant construction workers from 
Hunan traveled to Shenzhen municipality, Guangdong, continuing 
a long-term campaign to seek compensation for pneumoconiosis, 
which they asserted was caused by their earlier work in 
Guangdong.\136\ After Shenzhen police used pepper spray on the 
retired workers on November 7, authorities agreed to provide 
limited compensation to the workers, most of whom had never 
signed labor contracts.\137\ In 2019, Chinese authorities 
detained three citizen journalists from the iLabour (Xin 
Shengdai) website, Yang Zhengjun, Ke Chengbing, and Wei 
Zhili,\138\ as well as NGO worker Li Dajun, all of whom had 
advocated on behalf of pneumoconiosis victims.\139\


                                                  Worker Rights
                                                Worker Rights
    Notes to Section II--Worker Rights

    \1\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of December 10, 1948, art. 
23(4); International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of December 16, 
1966, entry into force March 23, 1976, art. 22(1); United Nations 
Treaty Collection, Chapter IV, Human Rights, International Covenant on 
Civil and Political Rights, accessed May 15, 2019. China has signed but 
not ratified the ICCPR. International Covenant on Economic, Social and 
Cultural Rights, adopted by UN General Assembly resolution 2200A (XXI) 
of December 16, 1966, entry into force January 3, 1976, art. 8; Bureau 
of Democracy, Human Rights, and Labor, U.S. Department of State, 
``Country Reports on Human Rights Practices for 2018--China (Includes 
Tibet, Hong Kong and Macau),'' March 13, 2019, sec. 7.
    \2\ Zhonghua Renmin Gongheguo Gonghui Fa [PRC Trade Union Law], 
passed April 3, 1992, amended August 27, 2009, arts. 9-11; 
International Labour Organization, Interim Report--Report No 387, Case 
No 3184 (China), February 15, 2016, October 2018, 238-39; Elaine Hui 
and Eli Friedman, ``The Communist Party vs. China's Labor Laws,'' 
Jacobin, October 2, 2018; Aaron Halegua et al., ``Forty Years On, Is 
China Still Reforming?,'' ChinaFile, Asia Society, November 9, 2018. 
See also Christopher Balding and Donald C. Clarke, ``Who Owns 
Huawei?,'' Social Science Research Network, April 17, 2019, 9-10.
    \3\ All-China Federation of Trade Unions, ``Submission to United 
Nations Periodical Review of China,'' March 2018.
    \4\ All-China Federation of Trade Unions, ``Submission to United 
Nations Universal Periodical Review of China--On Migrant Workers,'' 
March 2018; All-China Federation of Trade Unions, ``Nongmin gong ruhui 
renshu cong 1 yi zengjia dao 1.4 yi'' [The number of migrant workers 
who join a union has increased from 100 million to 140 million], April 
16, 2018.
    \5\ National Bureau of Statistics of China, ``2018 nongmingong 
jiance diaocha baogao'' [Migrant workers monitoring and survey report], 
April 29, 2019.
    \6\ China Labour Bulletin, ``Migrant Workers and Their Children,'' 
May 2019; National Bureau of Statistics of China, ``2018 nongmingong 
jiance diaocha baogao'' [Migrant workers monitoring and survey report], 
April 29, 2019.
    \7\ National Bureau of Statistics of China, ``Statistical 
Communique of the People's Republic of China on the 2018 National 
Economic and Social Development,'' February 28, 2019.
    \8\ China Labour Bulletin, ``Migrant Workers and Their Children,'' 
May 2019; Cai Yiwen, ``China's Aging Migrant Workers Are Facing a 
Return to Poverty,'' Sixth Tone, November 28, 2018.
    \9\ Christopher Balding and Donald C. Clarke, ``Who Owns Huawei?,'' 
Social Science Research Network, April 17, 2019, 9-10; Freedom House, 
``China,'' in Freedom in the World 2019, February 2019, sec. E3; Bureau 
of Democracy, Human Rights, and Labor, U.S. Department of State, 
``Country Reports on Human Rights Practices for 2018--China (Includes 
Tibet, Hong Kong and Macau),'' March 13, 2019, sec. 7. See also Elaine 
Hui and Eli Friedman, ``The Communist Party vs. China's Labor Laws,'' 
Jacobin, October 10, 2018.
    \10\ ``Wang Dongming zai Zhongguo Gonghui Shiqi Da baogao zhong 
zhichu yi Xi Jinping Xin Shidai Zhongguo Tese Shehui Zhuyi Sixiang wei 
zhidao'' [Wang Dongming's report at the 17th National Congress of the 
ACFTU points out that Xi Jinping's Thought on Socialism with Chinese 
Characteristics for a New Era is the guide], October 23, 2018; ``The 
Chinese Trade Union Holds Its National Congress,'' Briefs, Made in 
China Journal, October 26, 2018.
    \11\ Hong Kong Confederation of Trade Unions, ``Absurdity of 
China's Trade Union Law and ACFTU Revealed in Jasic Labour Dispute,'' 
December 27, 2018; Hong Kong Confederation of Trade Unions, ``Years of 
Missing Social Security Contribution in Hong Kong-Owned Factory: ACFTU 
Ignored Workers' Call for Help,'' December 27, 2018.
    \12\ Zhonghua Renmin Gongheguo Laodong Fa [PRC Labor Law], passed 
July 5, 1994, effective January 1, 1995, amended December 29, 2018, 
arts. 16-35; Zhonghua Renmin Gongheguo Laodong Hetong Fa [PRC Labor 
Contract Law], passed June 29, 2007, effective January 1, 2008, amended 
July 1, 2013, arts. 51-56; Zhonghua Renmin Gongheguo Gonghui Fa [PRC 
Trade Union Law], passed April 3, 1992, amended August 27, 2009, arts. 
6, 20. See also China Labour Bulletin, ``The State of Labour Relations 
in China, 2018,'' January 9, 2019.
    \13\ Zhonghua Renmin Gongheguo Laodong Fa [PRC Labor Law], passed 
July 5, 1994, effective January 1, 1995, amended December 29, 2018, 
art. 33. Article 33 of the PRC Labor Law notes that ``In an enterprise 
that has not yet set up a trade union, such contracts shall be signed 
by and between representatives recommended by workers and the 
enterprise.'' Zhonghua Renmin Gongheguo Laodong Hetong Fa [PRC Labor 
Contract Law], passed June 29, 2007, effective January 1, 2008, amended 
July 1, 2013, arts. 6, 51, 56; Zhonghua Renmin Gongheguo Gonghui Fa 
[PRC Trade Union Law], passed April 3, 1992, amended August 27, 2009, 
arts. 6, 20; Ivan Franceschini and Kevin Lin, ``Labour NGOs in China: 
From Legal Mobilisation to Collective Struggle (and Back?),'' China 
Perspectives, no. 1 (2019): 77. See also China Labour Bulletin, ``The 
Road Ahead for China's Trade Unions,'' November 8, 2018.
    \14\ International Labour Organization, ILO Convention (No. 87) 
Concerning Freedom of Association and Protection of the Right To 
Organise, July 4, 1950, arts. 2, 3, 5. See also UN General Assembly, 
Report of the Special Rapporteur on the Rights to Freedom of Peaceful 
Assembly and of Association, Maina Kiai, A/71/385, September 14, 2016, 
paras. 3, 16-17, 54, 57.
    \15\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of December 10, 1948, art. 
23(4).
    \16\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of December 16, 
1966, entry into force March 23, 1976, art. 22(1); United Nations 
Treaty Collection, Chapter IV, Human Rights, International Covenant on 
Civil and Political Rights, accessed May 15, 2019. China has signed but 
not ratified the ICCPR. See also UN General Assembly, Report of the 
Special Rapporteur on the Rights to Freedom of Peaceful Assembly and of 
Association, Maina Kiai, A/71/385, September 14, 2016, para. 55.
    \17\ International Covenant on Economic, Social and Cultural Rights 
(ICESCR), adopted by UN General Assembly resolution 2200A (XXI) of 
December 16, 1966, entry into force January 3, 1976, art. 8.1; United 
Nations Treaty Collection, Chapter IV, Human Rights, International 
Covenant on Economic, Social and Cultural Rights, accessed May 15, 
2019. China has signed and ratified the ICESCR. See also UN General 
Assembly, Report of the Special Rapporteur on the Rights to Freedom of 
Peaceful Assembly and of Association, Maina Kiai, A/71/385, September 
14, 2016, para. 55.
    \18\ International Labour Organization, ILO Declaration on 
Fundamental Principles and Rights at Work and Its Follow-Up, June 18, 
1998, art. 2(a). Article 2 of the ILO Declaration on Fundamental 
Principles and Rights at Work states that ``all Members, even if they 
have not ratified the Conventions in question, have an obligation 
arising from the very fact of membership in the Organization to 
respect, to promote and to realize, in good faith and in accordance 
with the Constitution, the principles concerning the fundamental rights 
which are the subject of those Conventions, namely: (a) freedom of 
association and the effective recognition of the right to collective 
bargaining . . ..'' International Labour Organization, ``China,'' 
NORMLEX Information System on International Labour Standards, accessed 
May 15, 2019. China became a member of the ILO in 1919, and post-1949, 
the People's Republic of China began participating in the ILO in 1983. 
China Labour Bulletin, ``China and the ILO: Formalistic Cooperation 
Masks Rejection of Key Labor Rights,'' reprinted in Human Rights in 
China, January 20, 2001.
    \19\ Hong Kong Confederation of Trade Unions (HKCTU), ``HKCTU's 
Representative Speaking at the UPR Pre-Session: Bring Labour Rights 
Issues in China to International Scrutiny,'' October 31, 2018.
    \20\ China Labour Bulletin, ``CLB Calls for the Release of All 
Jasic Workers and Supporters,'' November 1, 2018; Chinese Human Rights 
Defenders, ``Submission to UN on Fu Changguo, Li Zhan, Liu Penghua, Mi 
Jiuping and Yu Juncong--March 13, 2019,'' April 1, 2019; China Labour 
Bulletin, ``Why the Jasic Dispute Matters: This Year and in the Years 
to Come,'' December 12, 2018.
    \21\ China Labour Crackdown Concern Group (@labour--china), ``Since 
July 2018, over 130 labor activists have been detained, or disappeared 
by the authorities. Over 50 of these activists are still missing or in 
custody . . .,'' Twitter, August 7, 2019, 2:25 a.m.; China Labor 
Crackdown Concern Group, ``One Year, One Hundred Arrested, What You 
Need to Know about China's Labor Crackdown,'' July 27, 2019; China 
Labor Crackdown Concern Group, ``About Us,'' accessed August 19, 2019. 
See also CIVICUS, ``China: `Crackdown on Jasic Labour Struggle Seeks to 
Eliminate Unrest during Economic Downturn,' '' March 26, 2019; 
``Chinese Labour Crackdown: Missing, Detained, Arrested,'' Financial 
Times, March 29, 2019.
    \22\ China Labor Crackdown Concern Group, ``One Year, One Hundred 
Arrested, What You Need to Know about China's Labor Crackdown,'' July 
27, 2019.
    \23\ Chinese Human Rights Defenders, ``Submission to UN on Fu 
Changguo, Li Zhan, Liu Penghua, Mi Jiuping and Yu Juncong--March 13, 
2019,'' April 1, 2019; Shannon Lee, ``Preliminary Thoughts on the 
Shenzhen Jasic Events,'' Shannon Lee's China Blog, September 17, 2018; 
HZ, ``Jasic Detainee #1: The Story of Worker-Poet Mi Jiuping,'' Labor 
Notes, November 5, 2018; Awei, ``Jasic Detainee #2: Li Zhan: Standing 
with Workers through Thick and Thin,'' Labor Notes, November 17, 2018; 
Xiao Hui, ``Jasic Detainee #3: The Story of Yu Juncong: Always Standing 
against Injustice,'' Labor Notes, November 19, 2018; HZ, ``Jasic 
Detainee #4: Liu Penghua: We Need a Union, Not Just Rights Defense,'' 
Labor Notes, November 26, 2018. See also Chinese Human Rights Defenders 
(CHRD), ``Defending Rights in a `No Rights Zone' Annual Report on the 
Situation of Human Rights Defenders in China (2018),'' February 2019, 
3, 19. For more information, see the Commission's Political Prisoner 
Database records 2018-00622 on Liu Penghua, 2018-00627 on Yu Juncong, 
2018-00628 on Mi Jiuping, and 2018-00629 on Li Zhan.
    \24\ China Labour Bulletin, ``Jasic Crackdown Extends to Trade 
Union Officials and Lawyers,'' December 4, 2018; International Labour 
Organization, Interim Report--Report No 389, June 2019, para. 226.
    \25\ Human Rights in China, ``30 Shenzhen Workers and Supporters 
Detained for Demanding to Form Labor Union,'' July 30, 2018; Shannon 
Lee, ``Preliminary Thoughts on the Shenzhen Jasic Events,'' Shannon 
Lee's China Blog, September 17, 2018. For more information on the 
individuals detained in July 2018, see the following records in the 
Commission's Political Prisoner Database: 2018-00622 on Liu Penghua, 
2018-00627 on Yu Juncong, 2018-00628 on Mi Jiuping, 2018-00629 on Li 
Zhan, 2018-00630 on Zhang Zeying, 2018-00632 on Huang Lanfeng, 2018-
00633 on Wu Shuang, 2018-00634 on Hu Zhi, 2018-00635 on Yu Junchuan, 
2018-00636 on Kuang Hengshu, 2018-00637 on He Qiong, 2018-00638 on Song 
Yao, 2018-00639 on Zhang Yu, 2018-00640 on Zhang Baoyan, 2018-00641 on 
Chen Zhongge, 2018-00642 on Yu Kailong, 2018-00646 on Chen Yeling, 
2018-00647 on Tang Xiangwei, 2018-00649 on Lan Zhiwei, 2018-00652 on 
Qiao Zhiqiang, 2018-00653 on Chen Zhongge, 2018-00654 on Hu Kaiqiao, 
2018-00655 on Shang Yangxue, 2018-00656 on Li Li, 2018-00657 on Yu 
Weiye, 2018-00658 on Zhang Yong, 2018-00659 on Mo Juezhan, 2018-00660 
on Xiong Zhi, 2018-00661 on Ye Yanfei, 2018-00662 on Huang Wenyi, and 
2018-00663 on He Xuanhua.
    \26\ China Labour Bulletin, ``Why the Jasic Dispute Matters: This 
Year and in the Years to Come,'' December 24, 2018.
    \27\ Au Loong Yu, ``The Jasic Mobilisation: A High Tide for the 
Chinese Labour Movement?,'' editorial, Made in China Journal 3, no. 4 
(2018):12-16; Shannon Lee, ``Preliminary Thoughts on the Shenzhen Jasic 
Events,'' Shannon Lee's China Blog, September 17, 2018.
    \28\ ``Detained Activist Yue Xin on the Jasic Workers,'' China 
Digital Times, August 24, 2018; Lily Kuo, ``50 Student Activists 
Missing in China after Police Raid,'' Guardian, August 24, 2018; 
Shannon Lee, ``Preliminary Thoughts on the Shenzhen Jasic Events,'' 
Shannon Lee's China Blog, September 17, 2018. For more information on 
the individuals detained in August 2018, see the following records in 
the Commission's Political Prisoner Database: 2018-00664 on Shen 
Mengyu, 2018-00665 on Yue Xin, 2018-00667 on Gu Jiayue, 2019-00001 on 
Zhan Zhenzhen, 2019-00003 on Yang Shaoqiang, 2019-00006 on Xu 
Zhongliang, 2019-00008 on Hu Pingping, 2019-00009 on Wu Haiyu, 2019-
00010 on Shang Kai, 2019-00011 on Fu Changguo, and 2019-00016 on Huang 
Qingnan.
    \29\ ``Beida xianshi 1984 ban, ni zhidao duoshao?'' [Peking 
University is now a real version of 1984, how much do you know?], 
Telegra.ph (blog), May 1, 2019; ``Orwell in the Chinese Classroom,'' 
Made in China Journal, May 27, 2019. Xin Guang Pingmin Fazhan Xiehui, 
``Jiankong, guli, wumie . . . . . . wo xiang ba Renda Xin Guang de 
zaoyu jiang gei ni ting'' [Surveilled, isolated, slandered . . . . . . 
I want to tell you about the treatment Xin Guang received], Jasic 
Workers Student Support Group (blog), GitHub, December 4, 2018; 
``Translation: Harassment of Workers' Rights Group,'' China Digital 
Times, December 21, 2018; Gerry Shih, `` `If I Disappear': Chinese 
Students Make Farewell Messages amid Crackdowns over Labor Activism,'' 
Washington Post, May 25, 2019; Eddie Park, ``The Red Runners of Peking 
University,'' SupChina, November 15, 2018.
    \30\ Elizabeth Redden, ``Cutting Ties: Cornell Ends a Partnership 
with Renmin University of China, Citing Academic Freedom Concerns,'' 
Inside Higher Ed, October 29, 2018.
    \31\ Eli Friedman, ``It's Time to Get Loud about Academic Freedom 
in China,'' Foreign Policy, November 13, 2018. See also Xin Guang 
Pingmin Fazhan Xiehui, ``Jiankong, guli, wumie . . . . . . wo xiang ba 
Renda Xin Guang de zaoyu jiang gei ni ting'' [Surveilled, isolated, 
slandered . . . . . . I want to tell you about the treatment Xin Guang 
received], Jasic Workers Student Support Group (blog), GitHub, December 
4, 2018; ``Translation: Harassment of Workers' Rights Group,'' China 
Digital Times, December 21, 2018.
    \32\ Sue-Lin Wong, ``Labor Activists Missing in China after 
Suspected Coordinated Raids,'' Reuters, November 12, 2018. For more 
information on the individuals detained in November 2018, see the 
following records in the Commission's Political Prisoner Database: 
2019-00019 on Zhang Shengye, 2019-00020 on Sun Min, 2019-00022 on Zong 
Yang, 2019-00023 on Liang Xiaogang, 2019-00027 on Zheng Yiran, 2019-
00028 on Lu Daxing, 2019-00029 on Li Xiaoxian, 2019-00030 on He 
Pengchao, 2019-00034 on Wang Xiangyi, 2019-00035 on Jian Xiaowei, 2019-
00036 on Kang Yanyan, 2019-00037 on Hou Changshan, 2019-00038 on Wang 
Xiaomei, 2019-00045 on He Xiumei, 2019-00046 on Zou Liping, 2019-00047 
on Li Ao, 2019-00048 on Wu Jiawei, and 2019-00049 on Zheng Shiyou.
    \33\ China Labour Bulletin, ``Jasic Crackdown Extends to Trade 
Union Officials and Lawyers,'' December 4, 2018; Christian Shepherd, 
``Two Chinese Trade Union Officials Arrested after Helping Workers: 
Source,'' Reuters, November 30, 2018; ``Police Detain Rights Lawyer 
Linked to Labor Movement in China's Guangdong,'' Radio Free Asia, 
November 30, 2018.
    \34\ Gerry Shih, `` `If I Disappear': Chinese Students Make 
Farewell Messages amid Crackdowns over Labor Activism,'' Washington 
Post, May 25, 2019. See also Eddie Park, `` `Deers' vs. `Horses': Old 
and New Marxist Groups Wage Ideological Battle at Peking University,'' 
SupChina, January 9, 2019.
    \35\ ``Orwell in the Chinese Classroom,'' Made in China Journal, 
May 27, 2019.
    \36\ Kevin Lin, ``State Repression in the Jasic Aftermath: From 
Punishment to Preemption,'' Made in China Journal 4, no. 1 (2019): 16-
19. See also Manfred Elfstrom, ``Two Steps Forward, One Step Back: 
China's State Reactions to Labor Unrest,'' China Quarterly, no. 237 
(March 2019): 6.
    \37\ Ivan Franceschini and Kevin Lin, ``A `Pessoptimistic' View of 
Chinese Labour NGOs,'' Made in China Journal 3, no. 2 (2018): 56-60.
    \38\ Jude Howell and Tim Pringle, ``Shades of Authoritarianism and 
State-Labour Relations in China,'' British Journal of Industrial 
Relations 57, no. 2 (June 2019): 234-35.
    \39\ Ivan Franceschini and Kevin Lin, ``Labour NGOs in China: From 
Legal Mobilisation to Collective Struggle (and Back?),'' China 
Perspectives, no. 1 (2019): 75.
    \40\ Ivan Franceschini and Kevin Lin, ``Labour NGOs in China: From 
Legal Mobilisation to Collective Struggle (and Back?),'' China 
Perspectives, no. 1 (2019): 82; Kevin Lin, ``State Repression in the 
Jasic Aftermath: From Punishment to Preemption,'' Made in China Journal 
4, no. 1 (2019): 16-19.
    \41\ China Labour Bulletin, ``Well-Known Labour Activists Detained 
by Shenzhen Police,'' January 22, 2019; Manfred Elfstrom, ``China's 
Recent Crackdown on Labour Activists May Have Little to Do with Their 
Own Actions,'' South China Morning Post, February 7, 2019. For more 
information on government suppression of labor advocates in the 2018 
reporting year, see CECC, 2018 Annual Report, October 10, 2018, 86-87.
    \42\ Hong Kong Confederation of Trade Unions, Students and Scholars 
Against Corporate Misbehavior, Worker Empowerment, et al., ``Statement 
of `18-19 Chinese Labor Rights Mass Crackdown' from Various Circles in 
Hong Kong,'' reprinted in China Labor Crackdown Concern Group, August 
7, 2019; China Labor Crackdown Concern Group, ``One Year, One Hundred 
Arrested, What You Need to Know about China's Labor Crackdown,'' July 
27, 2019.
    \43\ Worker Empowerment, ``Joint Statement: Release Fu Changguo 
Now!'' September 13, 2018; Chinese Human Rights Defenders, ``Submission 
to UN on Fu Changguo, Li Zhan, Liu Penghua, Mi Jiuping and Yu Juncong--
March 13, 2019,'' April 1, 2019. For more information, see the 
Commission's Political Prisoner Database records 2019-00011 on Fu 
Changguo and 2019-00016 on Huang Qingnan.
    \44\ Red Reference, ``Hongse cankao bianji bu Beijing bangongshi 
bei chachao, gongzuo renyuan bei xingju'' [Red Reference's editorial 
department in Beijing subjected to search, staff criminally detained,'' 
Jasic Workers Support Group, August 26, 2018; ``Zhongguo zuoyi wangzhan 
bianji bei yi `dianfu zui' juliu'' [Editor of Chinese leftist website 
detained for ``subversion of state power''], Radio Free Asia, March 25, 
2019. For more information on Shang Kai, see the Commission's Political 
Prisoner Database record 2019-00010.
    \45\ ``Zhongguo zuoyi wangzhan bianji bei yi `dianfu zui' juliu'' 
[Editor of Chinese leftist website detained for ``subversion of state 
power''], Radio Free Asia, March 25, 2019. For more information on Chai 
Xiaoming, see the Commission's Political Prisoner Database record 2019-
00126.
    \46\ Human Rights in China, ``HRIC Urges International Attention on 
32 Jasic Workers and Supporters Detained, Disappeared,'' December 7, 
2018; ``Shenzhen shi Pingshan qu kaichuang fuwu qing gong xin moshi 
zhuli wugong qingnian chuanye, dajian yuanmeng pingtai'' [Pingshan 
district, Shenzhen municipality, creating a new mode of serving young 
workers, helping young people start a business, building a dream 
platform], Global Times, September 14, 2017. For more information, see 
the Commission's Political Prisoner Database records 2019-00030 on He 
Pengchao, 2019-00034 on Wang Xiangyi, 2019-00035 on Jian Xiaowei, 2019-
00036 on Kang Yanyan, 2019-00037 on Hou Changshan, 2019-00038 on Wang 
Xiaomei, and 2019-00045 on He Xiumei.
    \47\ International Labour Office, International Labour 
Organization, 389th Report of the Committee on Freedom of Association, 
GB.336/INS/4/1, June 22, 2019, 68-69.
    \48\ China Labour Bulletin, ``Well-Known Labour Activists Detained 
by Shenzhen Police,'' January 22, 2019. See also ``Shenzhen Chunfeng 
Laodong Zhengyi Fuwu Bu zhuren Zhang Zhiru bei chuanhuan hou huoshi'' 
[Zhang Zhiru, director of the Shenzhen Chunfeng Labor Dispute Service 
Center, released after summons,'' Radio Free Asia, April 25, 2014. For 
more information on Zhang Zhiyu, see the Commission's Political 
Prisoner Database record 2019-00117.
    \49\ Keegan Elmer, ``At Least Five Labour Rights Activists Arrested 
across China,'' South China Morning Post, January 22, 2019.
    \50\ Li Qian, ``How Zhang Zhiru Became One of China's Top Defenders 
of Labor Rights,'' Global Times, September 19, 2014.
    \51\ ``Calls Grow for Release of Chinese Website Editors Who 
Advised Migrant Workers,'' Radio Free Asia, March 28, 2019. For more 
information on Yang Zhengjun, see the Commission's Political Prisoner 
Database record 2019-00129.
    \52\ China Labour Bulletin, ``Gone for 100 Days: Three Labour 
Activists `Disappeared' in China,'' June 27, 2019; ``Calls Grow for 
Release of Chinese Website Editors Who Advised Migrant Workers,'' Radio 
Free Asia, March 28, 2019. For more information on Ke Chengbing, see 
the Commission's Political Prisoner Database record 2019-00128.
    \53\ China Labour Bulletin, ``Gone for 100 Days: Three Labour 
Activists `Disappeared' in China,'' June 27, 2019; ``Calls Grow for 
Release of Chinese Website Editors Who Advised Migrant Workers,'' Radio 
Free Asia, March 28, 2019. For more information on Wei Zhili, see the 
Commission's Political Prisoner Database record 2019-00127.
    \54\ China Labour Bulletin, ``Gone for 100 Days: Three Labour 
Activists `Disappeared' in China,'' June 27, 2019; Committee to Protect 
Journalists, ``Labor Rights Website Editor Wei Zhili Arrested in China; 
Another Is Missing,'' March 21, 2019.
    \55\ China Labour Bulletin, ``Gone for 100 Days: Three Labour 
Activists `Disappeared' in China,'' June 27, 2019.
    \56\ Keegan Elmer and Guo Rui, ``Three More People Detained as 
China Continues to Crack Down on Labour Groups,'' South China Morning 
Post, May 12, 2019; Chinese Human Rights Defenders, ``China Must 
Release Detained Labor Rights Advocates,'' July 25, 2019. According to 
the South China Morning Post and Chinese Human Rights Defenders, the 
three raids appeared to be coordinated.
    \57\ Keegan Elmer and Guo Rui, ``Three More People Detained as 
China Continues to Crack Down on Labour Groups,'' South China Morning 
Post, May 12, 2019; Hongshui zhi tao (@hongshuizhitao), ``Canyu jiuzhu 
chenfei gongren de Beijing shegong Li Dajun shilian, qi qi bei zhua'' 
[Beijing social worker who participated in helping workers with 
pneumoconiosis Li Dajun lost contact, wife also detained], Weibo post, 
May 8, 2019, 9:40 p.m., reprinted in Youth Spark, May 8, 2019; ``Fei 
zhengfu zuzhi nijing qiu cun Beijing laogong zuzhi fuze ren yi bei 
kou'' [Non-governmental organizations face adversity, Beijing labor 
organization founder may have been taken into custody], Radio Free 
Asia, May 9, 2019.
    \58\ Chinese Human Rights Defenders, ``China Must Release Detained 
Labor Rights Advocates,'' July 25, 2019; Keegan Elmer and Guo Rui, 
``Three More People Detained as China Continues to Crack Down on Labour 
Groups,'' South China Morning Post, May 12, 2019.
    \59\ Guangdong Mumian Social Work Service Center, ``Mumian 
jianjie'' [Mumian introduction], accessed August 19, 2019; Chinese 
Human Rights Defenders, ``China Must Release Detained Labor Rights 
Advocates,'' July 25, 2019.
    \60\ Yu Jincui, ``Rational Solution Needs to Be Explored to Sort 
Out Capital-Labor Relations,'' Global Times, January 1, 2019.
    \61\ Javier C. Hernandez, ``China Using Taped Confessions to 
Intimidate Young Communists, Students Say,'' New York Times, January 
21, 2019.
    \62\ Hong Kong Confederation of Trade Unions, ``Investigative 
Report on Labour Rights Conditions of Hong Kong Enterprises and Hong 
Kong Listed Enterprises in Mainland China 2017-2018,'' October 2018, 2; 
Freedom House, ``China,'' in Freedom in the World 2019, February 2019, 
sec. E3.
    \63\ Human Rights Watch, ``Liu Feiyue Convicted of `Inciting 
Subversion' for Monitoring Violations,'' January 29, 2019. For more 
information on Lu Yuyu, see the Commission's Political Prisoner 
Database record 2016-00177.
    \64\ China Labour Bulletin changed their methodology beginning in 
2017. China Labour Bulletin, ``Strike Map Applies New Fixed Sampling 
Method in 2017,'' February 17, 2017. For information on China Labour 
Bulletin's methodology through the end of 2016, see China Labour 
Bulletin, ``An Introduction to China Labour Bulletin's Strike Map,'' 
March 29, 2016.
    \65\ China Labour Bulletin, ``CLB Strike Map,'' accessed April 26, 
2019; China Labour Bulletin, ``Economic Recovery Means More Bad Jobs 
for China's Workers,'' January 18, 2018.
    \66\ China Labour Bulletin, ``CLB Strike Map,'' accessed May 15, 
2019. Two incidents recorded in 2018 had an unknown number of 
participants.
    \67\ Ibid.
    \68\ China Labour Bulletin, ``A Decade On, China's Labour Contract 
Law Has Failed to Deliver,'' December 28, 2018; National Bureau of 
Statistics of China, ``2016 nian nongmingong jiance diaocha baogao'' 
[2016 report on monitoring and survey of migrant workers], April 28, 
2017. In 2016, 35.1 percent of migrant workers had contracts, down from 
42.8 percent in 2009. National Bureau of Statistics of China, 
``Nongmingong jiance diaocha baogao'' [Migrant workers monitoring and 
survey report], April 29, 2019. The Chinese government did not report 
the percentage of migrant workers who were working under a contract in 
2018.
    \69\ China Labour Bulletin, ``CLB Strike Map,'' accessed May 15, 
2019.
    \70\ Ibid.
    \71\ Feng Xiang, ``Solidarity Under a Song: What Strikes in China 
Tell Us,'' American Affairs Journal 3, no. 1 (2019); China Labour 
Bulletin, ``Labour Relations FAQ,'' accessed May 15, 2019.
    \72\ International Covenant on Economic, Social and Cultural Rights 
(ICESCR), adopted by UN General Assembly resolution 2200A (XXI) of 
December 16, 1966, entry into force January 3, 1976, art. 8(1)(d); 
United Nations Treaty Collection, Chapter IV, Human Rights, 
International Covenant on Economic, Social and Cultural Rights, 
accessed July 14, 2019. China has signed and ratified the ICESCR. See 
also UN General Assembly, Report of the Special Rapporteur on the 
Rights to Freedom of Peaceful Assembly and of Association, Maina Kiai, 
A/71/385, September 14, 2016, paras. 54, 56-57.
    \73\ ``Chinese Smartphone Screen Maker Hit by Workers' Protests,'' 
Financial Times, November 16, 2018; Peggy Sito and Li Tao, ``China-
Based Supplier of Apple Screens Biel Denies It Has Laid Off Thousands 
of Workers,'' South China Morning Post, November 16, 2018; ``Pingguo 
shouji gongying shang Guangdong caiyuan wan ren'' [Apple mobile phone 
supplier in Guangdong lays off [nearly] ten thousand], Radio Free Asia, 
November 16, 2018; Dui Hua Foundation, ``Mass Incidents Monitor,'' 
accessed May 15, 2019.
    \74\ China Labour Bulletin, ``Food Delivery Drivers Strike in 
Protest at Post-New Year Pay Cuts,'' February 28, 2019.
    \75\ China Labour Bulletin, ``Workers at Recycling Start-Up Stage 
Protests over Wage Arrears,'' April 23, 2019; Zhang Qing, ``Xiao Huang 
Gou qiongtu `qizu baoming' zhengtuo buliao tuan dai `wang' [Little 
Yellow Dog in straitened circumstances ``abandons life,'' [but] can't 
get rid of the ``net'' of group lending], Sina, April 29, 2019. The 
four cities were Dongguan municipality, Guangdong province; Shanghai 
municipality; Chongqing municipality; and, Xi'an municipality, Shaanxi 
province.
    \76\ China Labour Bulletin, ``Workers at Recycling Start-Up Stage 
Protests over Wage Arrears,'' April 23, 2019.
    \77\ ``996.ICU,'' reprinted in Github, accessed May 19, 2019; 
``GitHub Protest over Chinese Tech Companies' `996' Culture Goes 
Viral,'' Radii China, March 29, 2019; Yuan Yang, ``China and the Anti-
996 Campaign,'' Financial Times, May 8, 2019.
    \78\ Zhonghua Renmin Gongheguo Laodong Fa [PRC Labor Law], passed 
July 5, 1994, effective January 1, 1995, amended December 29, 2018, 
art. 36; Xin Zhiping, ``Xin Zhiping: fendou ying tichang, 996 dang 
tuichang'' [Xin Zhiping: struggle should be supported, 996 should be 
stopped], Xinhua, April 15, 2019. According to Xin, the ``996'' 
schedule ``clearly'' violates Chinese labor law.
    \79\ Zhonghua Renmin Gongheguo Laodong Fa [PRC Labor Law], passed 
July 5, 1994, effective January 1, 1995, amended December 29, 2018, 
art. 41.
    \80\ Emily Feng, ``GitHub Has Become a Haven for China's Censored 
Internet Users,'' Morning Edition, NPR, April 10, 2019.
    \81\ ``996.ICU,'' reprinted in Github, accessed May 19, 2019; 
``GitHub Protest over Chinese Tech Companies' `996' Culture Goes 
Viral,'' Radii China, March 29, 2019; Zhonghua Renmin Gongheguo Laodong 
Fa [PRC Labor Law], passed July 5, 1994, effective January 1, 1995, 
amended December 29, 2018, arts. 16, 41.
    \82\ ``996 (Huo qita weifa jiaban zhidu) gongsi mingdan'' [996 (and 
other illegal overtime systems) company list], 996.ICU, Github, 
accessed June 13, 2019; Rita Liao, ``China's Startup Ecosystem Is 
Hitting Back at Demanding Working Hours,'' TechCrunch, April 12, 2019.
    \83\ JS Chen, ``Tech Workers Are Workers, Too,'' Jacobin, May 6, 
2019.
    \84\ ``Overseas Tech Workers Warn of `Race to Bottom' in China 
Overtime Row,'' Radio Free Asia, April 25, 2019; Klint Fliney, ``How 
Github Is Helping Overworked Chinese Programmers,'' Wired, April 26, 
2019.
    \85\ Bryce Covert, ``The Richest Man in China Is Wrong, 12-Hour 
Days Are No `Blessing,' '' New York Times, April 21, 2019; Lin Qiqing 
and Raymond Zhong, `` `996' Is China's Version of Hustle Culture. Tech 
Workers Are Sick of It.,'' New York Times, April 29, 2019.
    \86\ ``Tech Employees' Work Schedule Protest Censored,'' China 
Digital Times, April 5, 2019.
    \87\ Klint Fliney, ``How Github Is Helping Overworked Chinese 
Programmers,'' Wired, April 26, 2019; `` `Anti 996' License Version 1.0 
(Draft)'', 996.ICU, Github, April 17, 2019.
    \88\ Zhonghua Renmin Gongheguo Shehui Baoxian Fa [PRC Social 
Insurance Law], passed October 28, 2010, effective July 1, 2011, art. 
2. For information on workers' low levels of social insurance coverage 
in previous reporting years, see CECC, 2018 Annual Report, October 10, 
2018, 90; CECC, 2017 Annual Report, October 5, 2017, 90; CECC, 2016 
Annual Report, October 6, 2016, 81-82; CECC, 2015 Annual Report, 
October 8, 2015, 87-88.
    \89\ Zhonghua Renmin Gongheguo Shehui Baoxian Fa [PRC Social 
Insurance Law], passed October 28, 2010, effective July 11, 2011, arts. 
10, 23, 33, 44, 53. See also China Labour Bulletin, ``China's Social 
Security System,'' March 2019.
    \90\ National Bureau of Statistics of China, ``Statistical 
Communique of the People's Republic of China on the 2018 National 
Economic and Social Development,'' February 28, 2019; National Bureau 
of Statistics of China, ``Statistical Communique of the People's 
Republic of China on the 2017 National Economic and Social 
Development,'' February 28, 2018.
    \91\ National Bureau of Statistics of China, ``Statistical 
Communique of the People's Republic of China on the 2018 National 
Economic and Social Development,'' February 28, 2019; National Bureau 
of Statistics of China, ``Statistical Communique of the People's 
Republic of China on the 2017 National Economic and Social 
Development,'' February 28, 2018.
    \92\ National Bureau of Statistics of China, ``Statistical 
Communique of the People's Republic of China on the 2018 National 
Economic and Social Development,'' February 28, 2019.
    \93\ State Council, ``Guowuyuan guanyu jianli qiye zhigong jiben 
ganglao baoxian jijin zhongyang tiaoji zhidi de tongzhi'' [State 
Council circular on the establishment of a central adjustment fund for 
basic pensions], June 13, 2018; State Council, ``Pension Funds for 
Enterprise Employees to be Centrally Coordinated,'' June 13, 2018.
    \94\ Ministry of Finance, ``2019 nian zhongyang tiaoji jijin shouru 
(shangjiao) qingkuang biao'' [2019 pension central adjustment fund 
(paid) situation table], accessed June 13, 2019; Cheng Siwei and Liu 
Jiefei, ``Rich Provinces Cough Up Pension Funds to Help Struggling 
Peers,'' Caixin, April 10, 2019.
    \95\ Ministry of Finance, ``2019 nian zhongyang tiaoji jijin jiao 
bo cha'e qingkuang biao'' [2019 pension central adjustment fund 
collection difference situation table], accessed June 13, 2019; Cheng 
Siwei and Liu Jiefei, ``Rich Provinces Cough Up Pension Funds to Help 
Struggling Peers,'' Caixin, April 10, 2019.
    \96\ Zhonghua Renmin Gongheguo Laodong Fa [PRC Labor Law], passed 
July 5, 1994, effective January 1, 1995, amended December 29, 2018, 
art. 2; Zhonghua Renmin Gongheguo Laodong Hetong Fa [PRC Labor Contract 
Law], passed June 29, 2007, effective January 1, 2008, amended December 
28, 2012, art. 2.
    \97\ Jenny Chan, ``Challenges of Dispatch Work in China,'' 
AsiaGlobal Online, March 21, 2019; China Labour Bulletin, ``Volkswagen 
Workers in Changchun Continue Their Fight for Equal Pay,'' November 10, 
2018; Qian Zhecheng and Fan Liya, ``Shady Agents Persist at Major Apple 
Product Factory,'' Sixth Tone, January 21, 2019.
    \98\ Jenny Chan, ``Challenges of Dispatch Work in China,'' 
AsiaGlobal Online, March 21, 2019. For information on contract or 
dispatch labor from previous reporting years, see CECC, 2018 Annual 
Report, October 10, 2018, 90-91; CECC, 2017 Annual Report, October 5, 
2017, 90-91; CECC, 2016 Annual Report, October 6, 2016, 86.
    \99\ China Labour Bulletin, ``Volkswagen Workers in Changchun 
Continue Their Fight for Equal Pay,'' November 10, 2018; Zhang Lu, 
``The Struggles of Temporary Agency Workers in Xi's China,'' Made in 
China Journal 3, no. 2 (2018): 46-49; ``Support Changchun FAW-
Volkswagen Dispatch Workers' Struggle for Equal Pay for Equal Work,'' 
Globalization Monitor, May 22, 2019.
    \100\ China Labour Bulletin, ``Volkswagen Workers in Changchun 
Continue Their Fight for Equal Pay,'' November 10, 2018; ``Support 
Changchun FAW-Volkswagen Dispatch Workers' Struggle for Equal Pay for 
Equal Work,'' Globalization Monitor, May 22, 2019; Zhang Lu, ``The 
Struggles of Temporary Agency Workers in Xi's China,'' Made in China 
Journal 3, no. 2 (2018): 46-49;
    \101\ Qian Zhecheng and Fan Liya, ``Shady Agents Persist at Major 
Apple Product Factory,'' Sixth Tone, January 21, 2019.
    \102\ Ibid.
    \103\ Zhonghua Renmin Gongheguo Laodong Hetong Fa [PRC Labor 
Contract Law], passed June 29, 2007, effective January 1, 2008, amended 
December 28, 2012, arts. 63, 66.
    \104\ Students and Scholars Against Corporate Misbehavior, ``Apple 
Watch Series 4: Still Failed to Protect Teenage Student Workers,'' 
October 2018, 3.
    \105\ Tom Hancock, Yuan Yang, and Nian Liu, ``Illegal Student 
Labour Fuels JD.com `Singles Day' Sale,'' Financial Times, November 20, 
2018.
    \106\ China Labor Watch, ``Amazon Recruits Illegally: Interns 
Forced to Work Overtime,'' August 8, 2019, 3; Gethin Chamberlain, 
``Schoolchildren in China Work Overnight to Produce Amazon Alexa 
Devices,'' Guardian, August 8, 2019.
    \107\ Ministry of Education and Ministry of Finance, Zhongdeng 
Zhiye Xuexiao Xuesheng Shixi Guanli Banfa, [Measures on Managing 
Secondary Vocational School Student Internships], issued and effective 
June 26, 2007, art. 5.
    \108\ Chris Buckley and Austin Ramzy, ``China's Detention Camps for 
Muslims Turn to Forced Labor,'' New York Times, December 16, 2018.
    \109\ Dake Kang, Martha Mendoza, and Yanan Wang, ``US Sportswear 
Traced to Factory in China's Internment Camps,'' Associated Press, 
December 19, 2018. Badger Sportswear is a part of Founder Sport Group 
which is owned by CCMP Capital Advisors LP. ``About Us,'' Badger Sport, 
accessed September 6, 2019; Iris Dorbian, ``CCMP to Buy Uniforms Maker 
Badger Sportswear,'' The PE Hub Network, August 23, 2016.
    \110\ State Council Information Office, ``The Fight against 
Terrorism and Extremism and Human Rights Protection in Xinjiang,'' 
March 2019, 22; ``Forced Labor Risk in Xinjiang, China,'' Fair Labor 
Standards Association, April 2019, 1-2.
    \111\ Eva Dou and Chao Deng, ``Western Companies Get Tangled in 
China's Muslim Clampdown,'' Wall Street Journal, May 16, 2019.
    \112\ National Bureau of Statistics of China, ``Nongmingong jiance 
diaocha baogao'' [Migrant workers monitoring and survey report], April 
29, 2019; Cai Yiwen, ``China's Aging Migrant Workers Are Facing a 
Return to Poverty,'' Sixth Tone, November 28, 2018.
    \113\ State Council, Zhonghua Renmin Gongheguo Laodong Hetong Fa 
Shishi Tiaoli [PRC Labor Contract Law Implementing Regulations], issued 
and effective September 18, 2008, art. 21; Zhonghua Renmin Gongheguo 
Laodong Hetong Fa [PRC Labor Contract Law, passed June 29, 2007, 
effective January 1, 2008, amended July 13, 2012, art. 44(2). The PRC 
Labor Contract Law provides that if a worker receives a pension, his or 
her labor contract terminates (zhongzhi), but the implementing 
regulations require that contracts be terminated for all workers upon 
reaching the legal retirement age.
    \114\ China Labour Bulletin, ``Tracking the Ever-Present Danger for 
Workers on the Streets of China,'' December 20, 2018; Hanming Fang and 
Jin Feng, ``The Chinese Pension System,'' Shanghaitech SEM Working 
Paper, September 1, 2018, 14.
    \115\ National Bureau of Statistics of China, ``Statistical 
Communique of the People's Republic of China on the 2018 National 
Economic and Social Development,'' February 28, 2019.
    \116\ National Bureau of Statistics of China, ``Statistical 
Communique of the People's Republic of China on the 2017 National 
Economic and Social Development,'' February 28, 2018, sec. XII.
    \117\ Gerry Shih, ``After China's Deadly Chemical Disaster, a 
Shattered Region Weighs Costs of the Rush to `Get Rich,' '' Washington 
Post, March 31, 2019.
    \118\ China Labour Bulletin, ``Deaths from Coal Mine Accidents in 
China Fall to New Low of 333 in 2018,'' January 24, 2019.
    \119\ ``Yixian gongren anquan mao duibi shiyan shipin yinfa taolun, 
yingji guanlibu huiying'' [First line workers safety helmet comparison 
test results in debate, Ministry of Environmental Management responds], 
Observer, March 17, 2019; Jiayun Feng, ``Construction Worker Loses Job 
after Exposing Low-Quality Helmets,'' SupChina, April 22, 2019; Linda 
Lew, ``Chinese Worker Smashes Hard Hat in Viral Video, Raises Safety 
Concerns,'' South China Morning Post, April 16, 2019.
    \120\ ``Yixian gongren anquan mao duibi shiyan shipin yinfa taolun, 
yingji guanlibu huiying'' [First line workers safety helmet comparison 
test results in debate, Ministry of Environmental Management responds], 
Observer, March 17, 2019; Jiayun Feng, ``Construction Worker Loses Job 
after Exposing Low-Quality Helmets,'' SupChina, April 22, 2019; Linda 
Lew, ``Chinese Worker Smashes Hard Hat in Viral Video, Raises Safety 
Concerns,'' South China Morning Post, April 16, 2019.
    \121\ China Labor Watch, ``A Nightmare for Workers: Appalling 
Conditions in Toy Factories Persist,'' December 6, 2018, 1.
    \122\ Ibid, 3.
    \123\ China Labor Watch, ``An Investigative Report on Dongguan 
Dongwon,'' March 11, 2019, 3, 4, 10.
    \124\ ``China Chemical Blast: Blast outside Zhangjiakou Plant Kills 
22,'' BBC, November 28, 2018. See also Linda Lew, ``Explosions and 
Landslides--The Worst Industrial Accidents in China since 2014,'' South 
China Morning Post, March 22, 2019.
    \125\ China Labour Bulletin, ``At Least 78 Dead, Hundreds Injured 
in Massive Chemical Plant Explosion,'' March 25, 2019; Liu Kang, Ling 
Junhui, and Chen Rufa, ``Yi shengming de mingyi Jiangsu Xiangshui `321' 
teda baozha shigu qi riji'' [In the name of life--Xiangshui, Jiangsu 
``3.21'' massive explosion tragedy 7th-day memorial], Xinhua, March 27, 
2019; Zhao Jing, Wei Shumin, Liang Yingfei, and Yang Rui, ``Xiangshui 
huagong yuan baozha zhuizong: gongren cheng baozha yi yin tianranqi 
qihou [Xiangshui chemical park explosion: workers suspect [it was] 
caused by natural gas leak], Caixin, March 22, 2019; Liu Jia, 
``Yanchang baozha shigu beihou: Nijiaxiang Jituan de hong yu hei'' 
[Behind the scenes of the Yanchang explosion story: Nijiaxiang Group's 
red and black], Southern Weekend, reprinted in China Digital Times, 
March 22, 2019.
    \126\ Linda Lew, ``Explosions and Landslides--The Worst Industrial 
Accidents in China since 2014,'' South China Morning Post, March 22, 
2019; William Zheng, ``Death Toll from China Chemical Plant Blast Rises 
to 79,'' South China Morning Post, March 25, 2019.
    \127\ Yu Han, ``The Yancheng Blast Shows the Importance of Media 
Oversight,'' Sixth Tone, March 22, 2019; Austin Ramzy and Javier C. 
Hernandez, ``Explosion at Chemical Plant Kills 64; Employees 
Detained,'' New York Times, March 22, 2019.
    \128\ Yu Han, ``The Yancheng Blast Shows the Importance of Media 
Oversight,'' Sixth Tone, March 22, 2019.
    \129\ UN Office of the High Commission for Human Rights, ``China 
Must Fulfil Repeated Pledges on Chemical Safety: Expert,'' March 29, 
2019.
    \130\ Planning Development and Information Technology Division, 
National Health Commission, ``2018 nian woguo weisheng jiankang shiye 
fazhan tongji gongbao'' [Report on development statistics of the health 
and wellness industry in 2018], May 22, 2019.
    \131\ National Institute of Occupational Health and Poison Control 
and Chinese Center for Disease Control and Prevention, ``2017 nian 
zhiye bing baogao qingkuang'' [Report on the situation of occupational 
diseases in 2017], June 19, 2018.
    \132\ National Health and Family Planning Commission, ``2015-2016 
nian quanguo zhiye bing baogao qingkuang'' [2015-2016 report on the 
situation of occupational diseases nationwide], December 28, 2017, 1, 
3-4.
    \133\ Planning Development and Information Technology Division, 
National Health Commission, ``2018 nian woguo weisheng jiankang shiye 
fazhan tongji gongbao'' [Report on development statistics of the health 
and wellness industry in 2018], May 22, 2019.
    \134\ Zhang Lei, ``Zhiye bing fangzhi meiyou wancheng shi'' 
[Occupational disease prevention unfinished], Jiankang bao [Health 
News], January 3, 2019.
    \135\ ``Winter Is Coming: China 2018-2019 (Wildcat),'' Chuang, June 
7, 2019. In 2016, reportedly fewer than 10 percent of pneumoconiosis 
victims had an employment contract.
    \136\ China Labour Bulletin, ``Shenzhen Commits to Compensate 
Protesting Pneumoconiosis Workers,'' November 14, 2018.
    \137\ China Labour Bulletin, ``Shenzhen Police Use Pepper Spray on 
Protesting Pneumoconiosis Workers,'' November 9, 2018; China Labour 
Bulletin, ``Shenzhen Commits to Compensate Protesting Pneumoconiosis 
Workers,'' November 14, 2018.
    \138\ Hong Kong Confederation of Trade Unions, ``Hundreds of Hunan 
Workers Petitioned to Support the Criminally Detained `iLabour' 
Editors!,'' April 15, 2019; Committee to Protect Journalists, ``Labor 
Rights Website Editor Wei Zhili Arrested in China; Another Is 
Missing,'' March 21, 2019. For more information on the three citizen 
journalists' cases, see the Commission's Political Prisoner Database 
records 2019-00127 on Wei Zhili, 2019-00128 on Ke Chengbing, and 2019-
00129 on Yang Zhengjun.
    \139\ Hongshui zhi tao (@hongshuizhitao), ``Canyu jiuzhu chenfei 
gongren de Beijing shegong Li Dajun shi lian, qi qi bei zhua'' [Beijing 
social worker who participated in helping workers with pneumoconiosis 
Li Dajun lost contact, wife also detained], Weibo post, May 8, 2019, 
9:40 p.m., reprinted in Youth Spark.


                                                      Criminal 
                                                        Justice
                                                Criminal 
                                                Justice

                            Criminal Justice


                                Findings

        <bullet> During the Commission's 2019 reporting year, 
        Chinese government and Communist Party officials 
        continued to abuse criminal law and police power to 
        punish government critics and to ``maintain stability'' 
        (weiwen) with the goal of perpetuating one-party rule. 
        The Chinese government in many cases violated the 
        freedoms of Chinese citizens protected under PRC laws 
        and international human rights standards, and used 
        criminal law to target rights advocates, religious 
        believers, and ethnic minority groups.
        <bullet> Authorities continued to use various forms of 
        arbitrary detention--such as extralegal ``black jails'' 
        and forced psychiatric commitment of individuals 
        without mental illness--to deprive individuals of their 
        liberty, contravening international human rights 
        standards. Authorities also continued to use 
        administrative detention that circumvented judicial 
        oversight and protections for detainees' rights under 
        the PRC Criminal Procedure Law (CPL).
        <bullet> Authorities continued to detain individuals 
        under broad provisions in the PRC Criminal Law--such as 
        crimes of ``endangering state security,'' ``picking 
        quarrels and provoking trouble,'' and ``organizing and 
        using a cult organization to undermine implementation 
        of the law''--to suppress rights advocacy and other 
        activities protected under international human rights 
        standards.
        <bullet> Authorities held rights advocates, lawyers, 
        petitioners, and others in prolonged pretrial 
        detention, including under ``residential surveillance 
        at a designated location'' (RSDL), a form of 
        incommunicado detention that can last up to six months, 
        restricts access to counsel, and places detainees at 
        risk of abuse by authorities.
        <bullet> In one case with numerous human rights 
        violations, Falun Gong practitioner Sun Qian said that 
        she was tortured while in custody, subjected to 
        arbitrary and prolonged pretrial detention, and 
        prevented from obtaining proper legal counsel. In other 
        cases, officials denied detainees access to counsel, 
        such as human rights lawyer Wang Quanzhang who was 
        prevented from seeing lawyers appointed by his wife.
        <bullet> In December 2018, Chinese authorities 
        separately detained Canadian citizens Michael Spavor 
        and Michael Kovrig for allegedly ``endangering state 
        security.'' In the same month, during a retrial, the 
        Dalian Intermediate People's Court sentenced to death 
        Canadian Robert Schellenberg for drug smuggling. 
        Observers believed these actions within the criminal 
        justice system were likely Chinese authorities' attempt 
        to exert pressure on the Canadian government for the 
        arrest of Meng Wanzhou, the chief financial executive 
        of the Chinese technology company Huawei, whom Canadian 
        authorities detained in December 2018 based on an 
        extradition request made by the U.S. Department of 
        Justice.
        <bullet> Authorities continued to torture and otherwise 
        abuse detainees:

                  Authorities denied requests to release human 
                rights website 64 Tianwang founder Huang Qi for 
                medical reasons. In October 2018, authorities 
                reportedly purposely manipulated readings of 
                Huang's high blood pressure and rejected 
                attempts by detention center officials to allow 
                additional treatment due to ``political'' 
                reasons.
                  Authorities reportedly required Taiwanese 
                college employee and non-governmental 
                organization (NGO) volunteer Lee Ming-cheh to 
                work more than 10 hours a day without a day of 
                rest and served him and other prisoners spoiled 
                food. After Lee's wife Lee Jingyu made public 
                statements concerning her prison visit, 
                authorities revoked her right to visit her 
                husband.

        <bullet> Authorities continued to develop technology-
        based means to help public security officials track 
        persons of interest--based in part on large-scale, 
        sometimes involuntary collection of personal data--
        raising concerns over Chinese citizens' privacy and the 
        potential for public security officials' capacity to 
        use this technology to crack down on rights advocates 
        and other targeted persons. The manner in which 
        authorities collected personal data, including 
        biometric data, appeared to violate privacy protections 
        in international human rights instruments.
        <bullet> While the Chinese government continued to 
        claim that it reserved the death penalty for a small 
        number of crimes and only the most serious offenders, 
        Amnesty International estimated that China carried out 
        more executions than any other country. China continued 
        to classify statistics on its use of the death penalty 
        as a state secret, and the Commission did not observe 
        official reports on overall death penalty numbers. A 
        French NGO reported that the death penalty 
        disproportionately targeted ethnic and religious 
        minorities, such as Uyghur Muslims, for their religious 
        beliefs.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Publicly advocate for political prisoners and other 
        targets of government oppression whom officials have 
        deprived of liberty on unsubstantiated criminal charges 
        and for apparent political or religious reasons. Refer 
        to the Commission's Political Prisoner Database for 
        details on individual cases.
          Include discussion of rights protections for rights 
        advocates and other targets of government repression in 
        a wide range of bilateral and multilateral discussions 
        with Chinese officials. Stress to the Chinese 
        government the importance of procedural compliance and 
        effective legal representation in criminal cases in 
        relation to the goal of rule-based governance.
          Urge Chinese officials to end all forms of arbitrary 
        detention, as well as forms of extrajudicial detention, 
        that are imposed without meeting the standards for a 
        fair trial as set forth in the International Covenant 
        on Civil and Political Rights and other international 
        human rights instruments. These include detentions in 
        ``black jails,'' psychiatric institutions, compulsory 
        drug detoxification centers, and the detention of over 
        a million Uyghurs, Kazakhs, and other individuals from 
        ethnic minority groups in mass internment camps in the 
        Xinjiang Uyghur Autonomous Region.
          Consult with Chinese officials regarding progress 
        toward adopting the recommendations made in February 
        2016 by the UN Committee against Torture in relation to 
        China's compliance with the Convention against Torture 
        and Other Cruel, Inhuman or Degrading Treatment or 
        Punishment, such as the call to repeal the provisions 
        in Chinese law allowing for ``residential surveillance 
        at a designated location.'' Further, encourage Chinese 
        officials to extend invitations to all UN special 
        rapporteurs who have requested to visit China.
          Urge Chinese officials to adopt a legal and 
        regulatory framework for technology-based policing 
        practices that meets international human rights 
        standards. Such a framework should include, for 
        example, privacy protections, restrictions on police 
        authority to collect personal information without 
        consent, and protections against discriminatory 
        practices, including profiling of ethnic and religious 
        minorities. Encourage Chinese officials to require 
        police who use information technology to complete 
        appropriate human rights training and impose strict 
        penalties for officials who authorize or carry out 
        preemptive detentions.
          Stress to the Chinese government the need for greater 
        transparency on the number and circumstances of 
        executions and urge Chinese officials to further limit 
        the crimes for which the death penalty is applicable. 
        Urge the Chinese government to ban explicitly in 
        national legislation the harvesting of organs from 
        executed prisoners.
          Continue and, where appropriate, expand support for 
        programs involving U.S. entities engaging with reform-
        minded Chinese organizations and individuals (both 
        within and outside the government) that draw on 
        comparative experience to improve the criminal justice 
        process. For example, the experience of the United 
        States and other jurisdictions can inform individuals 
        and institutions in China that are working toward 
        reducing reliance on confessions, enhancing the role of 
        witnesses at trials, and creating more reliable 
        procedures for reviewing death penalty cases.
          Call on the Chinese government to publicly commit to 
        a specific timetable for ratification of the 
        International Covenant on Civil and Political Rights, 
        which the Chinese government signed in 1998 but has not 
        yet ratified.


                                                      Criminal 
                                                        Justice
                                                Criminal 
                                                Justice

                            Criminal Justice


                              Introduction

    During the Commission's 2019 reporting year, Chinese 
government and Communist Party officials continued to use 
criminal law and police power to punish their critics and to 
``maintain stability'' (weiwen) with the goal of perpetuating 
one-party rule. In doing so, the Chinese government violated 
the freedoms and rights of Chinese citizens protected under PRC 
laws and international human rights standards \1\ and targeted 
rights advocates, religious believers, and ethnic minority 
groups in particular.

             Use of Criminal Law to Punish Rights Advocates

    This past year, authorities continued \2\ to detain 
individuals under provisions in the PRC Criminal Law (CL) to 
suppress rights advocacy and other activities protected under 
international human rights standards.\3\ Selected examples 
follow:

                  CRIMES OF ENDANGERING STATE SECURITY

    The Chinese government continued to prosecute individuals 
under ``endangering state security'' charges for peacefully 
exercising their rights.\4\ CL Articles 102 to 112--listing 
offenses including ``subversion of state power,'' \5\ 
``separatism,'' and ``espionage''--are collectively referred to 
as crimes of ``endangering state security,'' \6\ some of which 
carry multi-year sentences or the death penalty.\7\

        <bullet> In December 2018, the Zhuhai Municipal 
        Intermediate People's Court in Guangdong province 
        sentenced Zhen Jianghua \8\ to two years in prison for 
        ``inciting subversion of state power.'' \9\ Authorities 
        detained Zhen in September 2017,\10\ and officially 
        charged him in March 2018.\11\ Zhen is the executive 
        director of Human Rights Campaign in China (HRCIC), 
        which reports on cases involving rights advocacy and 
        provides aid for people who are involved in or who have 
        reported on advocacy cases.\12\
        <bullet> Beginning on December 9, 2018, public security 
        officials in Chengdu municipality, Sichuan province, 
        took into custody over 100 leaders and members of the 
        Early Rain Covenant Church, an unregistered Protestant 
        house church in Chengdu municipality, Sichuan 
        province.\13\ Authorities criminally detained Early 
        Rain founder and pastor Wang Yi \14\ and placed Wang's 
        wife Jiang Rong \15\ under ``residential surveillance 
        at a designated location,'' both on suspicion of 
        ``inciting subversion of state power.'' \16\ [For more 
        information on the crackdown on Early Rain, see Section 
        II--Freedom of Religion.]
        <bullet> Additional cases in which authorities detained 
        rights advocates on ``subversion'' grounds include 
        human rights lawyer Wang Quanzhang,\17\ Civil Rights 
        and Livelihood Watch founder Liu Feiyue,\18\ and 
        Tiananmen Square protest leader Zhou Yongjun.\19\

                 PICKING QUARRELS AND PROVOKING TROUBLE

    Authorities used the charge of ``picking quarrels and 
provoking trouble'' \20\ under Article 293 of the PRC Criminal 
Law to punish petitioners and rights advocates.\21\ One Chinese 
legal scholar described the criminal charge as being ``so 
broadly defined and ambiguously worded that prosecutors can 
apply it to almost any activity they deem undesirable, even if 
it may not otherwise meet the standards of criminality.'' \22\

        <bullet> In April 2019, the Chengdu Municipal 
        Intermediate People's Court in Chengdu, Sichuan 
        province, tried Zhang Junyong,\23\ Fu Hailu,\24\ and 
        Luo Fuyu \25\ and sentenced them to three years in 
        prison, suspended for four to five years,\26\ and Chen 
        Bing \27\ to three years and six months in prison, all 
        for ``picking quarrels and provoking trouble.'' \28\ 
        Authorities first detained the four in May 2016 on 
        suspicion of ``inciting subversion of state power'' 
        after Fu posted images online of satirical liquor 
        bottles meant to commemorate the violent suppression of 
        the June 4, 1989 Tiananmen pro-democracy protests.\29\
        <bullet> In May 2019, the Gulou District People's Court 
        in Xuzhou municipality, Jiangsu province, sentenced 
        Zhang Kun \30\ to two years and six months in prison 
        for ``picking quarrels and provoking trouble.'' \31\ 
        The arrest and sentencing was connected to Zhang 
        posting a video in which he revealed that prison 
        authorities at Pengcheng Prison in Yunlong district, 
        Xuzhou, had subjected him to torture and abuse while he 
        was imprisoned there between 2015 and 2016 for the same 
        charge.\32\

   ORGANIZING AND USING A CULT TO UNDERMINE IMPLEMENTATION OF THE LAW

    Authorities continued to charge members of religious 
communities and spiritual movements with ``organizing and using 
a cult organization to undermine implementation of the law'' 
under CL Article 300.\33\ For example, in January 2019, 
Qingshan District People's Court in Baotou municipality, Inner 
Mongolia Autonomous Region, sentenced Falun Gong practitioners 
Wang Ying \34\ and Wang Hongling \35\ to two years in prison 
and one year and six months in prison, respectively.\36\ 
Authorities detained the two in connection to Falun Gong 
materials they distributed in Batou.\37\ [For more information 
on official Chinese persecution of Falun Gong, see Section II--
Freedom of Religion.]

                     OTHER CRIMINAL LAW PROVISIONS

    Authorities accused rights advocates and others of other 
criminal offenses, including ``gathering a crowd to disturb 
social order,'' \38\ ``obstructing official business,'' \39\ 
and ``illegal business activity'' \40\ on account of activities 
protected under international human rights standards.\41\

                          Arbitrary Detention

    Authorities continued to use various forms of arbitrary 
detention \42\ that deprive individuals of their liberty, 
contravening international human rights standards.\43\ During 
China's November 2018 UN Human Rights Council Universal 
Periodic Review (UPR) of the Chinese government's human rights 
record, non-governmental organizations and member states called 
for the Chinese government to end its use of arbitrary 
detention, including in mass internment camps used to 
arbitrarily detain Uyghur Muslims and other ethnic minority 
groups in the Xinjiang Uyghur Autonomous Region.\44\ [For more 
information on arbitrary detention in China's mass internment 
camps, see Section IV--Xinjiang.] During the UPR, China 
rejected calls to end various forms of arbitrary detention.\45\
    Descriptions of selected forms of arbitrary detention 
follow:

                              BLACK JAILS

    Authorities continued to hold individuals in ``black 
jails,'' extralegal detention sites that operate outside of the 
PRC's judicial and administrative detention systems.\46\ For 
example, authorities or individuals presumably acting on their 
behalf held rights advocates in ``black jails'' as a part of 
``stability maintenance'' efforts leading up to the Shanghai 
International Import Expo in November 2018,\47\ and the annual 
meetings of the National People's Congress and Chinese People's 
Political Consultative Conference in March 2019.\48\

                         PSYCHIATRIC FACILITIES

    Authorities continued to forcibly commit individuals 
without mental illness to psychiatric facilities--a practice 
known as ``bei jingshenbing''--to punish rights advocates, 
despite protections in the PRC Mental Health Law (MHL) \49\ and 
related regulations.\50\ [For more information, see Section 
II--Public Health.] For example, from August to October 2018, 
authorities forcibly committed Lu Qianrong \51\ to a 
psychiatric facility in Changzhou municipality, Jiangsu 
province, reportedly due to Lu's posting ``unfavorably against 
the country'' on social media.\52\ Authorities reportedly 
forced Lu to take daily antipsychotic medication while in 
detention.\53\

                        ADMINISTRATIVE DETENTION

    Authorities continued to use administrative forms of 
detention, which allow officials to detain individuals without 
judicial oversight or protections for their rights under the 
PRC Criminal Procedure Law (CPL). For example, police have 
ordered human rights defenders to serve up to 20 days of 
administrative detention without any judicial process.\54\ In 
addition, authorities continued to operate compulsory drug 
detoxification centers \55\ where they can hold detainees for 
up to two years.\56\
    This past year, Chinese authorities, human rights 
advocates, and legal scholars continued to call for the 
abolition of ``custody and education'' (shourong jiaoyu),\57\ 
in which public security officials can detain sex workers and 
their clients for six months to two years without judicial 
oversight.\58\ Chinese legal experts have questioned the 
legality of such ``extrajudicial prisons without any due 
process.'' \59\

------------------------------------------------------------------------
  Chinese Authorities' Retaliatory Use of Criminal Law against Canadian
                                Citizens
-------------------------------------------------------------------------
  On December 10, 2018, Chinese authorities separately detained Canadian
 citizens Michael Spavor and Michael Kovrig on suspicion of
 ``endangering state security.'' \60\ Reports suggest that authorities
 held Spavor and Kovrig under ``residential surveillance at a designated
 location'' (RSDL),\61\ a coercive measure under the CPL that allows
 security authorities to hold a criminal suspect in de facto
 incommunicado detention for up to six months.\62\ Reports further
 indicate that authorities held them in conditions that some experts
 have said may amount to torture.\63\ In May 2019, the Chinese Ministry
 of Foreign Affairs said that authorities had formally arrested both
 Spavor and Kovrig for crimes of ``endangering state security.'' \64\
  In another case involving a Canadian citizen, the Dalian Municipal
 Intermediate People's Court in Liaoning province changed Robert
 Schellenberg's sentence for drug smuggling from a 15-year imprisonment
 to a death sentence in January 2019,\65\ in spite of a provision in the
 PRC Criminal Procedure Law generally prohibiting the trial court from
 imposing a harsher sentence in a retrial.\66\ The court cited ``new
 evidence'' for the change in Schellenberg's original November 2018
 judgment of 15 years.\67\ Moreover, Chinese lawyers and international
 observers noted irregularities in Schellenberg's case, namely, the
 court of second instance having remanded the case without being
 requested to do so by the procuratorate, as well as the expediency with
 which the court of first instance concluded the case on remand (16
 days), compared to the first round of proceedings (two years).\68\
  Observers suggested that the detentions of Spavor and Kovrig as well
 as the death sentence of Schellenberg, were likely Chinese authorities'
 attempt to exert pressure on the Canadian government \69\ for the
 arrest of the chief financial officer of the Chinese technology company
 Huawei,\70\ Meng Wanzhou,\71\ whom Canadian authorities detained based
 on an extradition request made by the U.S. Department of Justice.\72\
------------------------------------------------------------------------

    ``RETENTION IN CUSTODY'' (LIUZHI) UNDER THE PRC SUPERVISION LAW

    The PRC Supervision Law (Supervision Law),\73\ authorizes 
the National Supervisory Commission (NSC) to investigate 
suspected official misconduct \74\ using methods including 
``retention in custody'' (liuzhi),\75\ an extrajudicial form of 
detention that allows NSC officials to hold individuals without 
legal representation.\76\ ``Retention in custody'' contravenes 
rights guaranteed by international legal standards, as it 
denies the ``minimum guarantees'' of those charged as a 
criminal including access to counsel, and to be tried while 
present.\77\
    In early October 2018, authorities placed then President of 
the International Criminal Police Organization (Interpol), Meng 
Hongwei, under liuzhi while he was on a trip to China.\78\ NSC 
officials transferred Meng's case to the Supreme People's 
Procuratorate, which approved his arrest on April 23, 2019.\79\ 
In June 2019, while on trial in the Tianjin No. 1 Intermediate 
People's Court, Meng pled guilty to taking bribes.\80\ One 
Chinese commentator noted that the NSC's detention of the 
president of an organization such as Interpol highlights a 
``new normal'' of Chinese authorities arresting Party officials 
in anti-corruption cases despite their positions in prominent 
international organizations.\81\

 Ongoing Challenges in the Implementation of the Criminal Procedure Law

    This past year, the National People's Congress Standing 
Committee passed legislation that could adversely affect the 
rights of prisoners and detainees. In addition, the Commission 
continued to observe reports of authorities violating the 
rights of detainees, despite protections in the PRC Criminal 
Procedure Law (CPL) \82\ and international human rights 
standards.\83\

                        LEGISLATIVE DEVELOPMENTS

    In October 2018, the National People's Congress Standing 
Committee passed an amendment to the CPL.\84\ In cases of 
corruption, state security, and terrorism,\85\ the amendment 
allows courts to try defendants in absentia, which violates 
international fair trial standards.\86\ Rights groups warned 
that Chinese authorities might use this amendment to threaten 
and punish human rights defenders outside of China through 
abuse of international arrest warrants.\87\
    The CPL amendment also provides for lenient and expedited 
sentencing, both of which require the defendant to 
``voluntarily'' confess his or her crime, despite ongoing 
concerns about the reliance on coerced confessions in China's 
criminal justice system.\88\ ``Lenient sentencing'' is allowed 
if the defendant admits to a crime, does not dispute the facts 
of the case, and willingly accepts punishment.\89\ 
Additionally, the amendment provides for expedited sentencing 
in cases under the jurisdiction of basic-level people's courts 
of a defendant who faces a maximum three-year sentence, has 
confessed, accepted punishment, and who agrees to the use of an 
expedited process.\90\

                          COERCED CONFESSIONS

    Authorities continued to coerce detainees to confess guilt 
to crimes, in violation of the CPL,\91\ and in some cases 
forced detainees to recite apparently scripted remarks in court 
or on camera while in pretrial custody.\92\
    For example, in or around January 2019, authorities 
reportedly forced more than 20 university students involved in 
labor advocacy to watch video confessions of four young labor 
rights advocates--Yue Xin,\93\ Shen Mengyu,\94\ Gu Jiayue,\95\ 
and Zheng Yongming \96\--whom authorities detained in August 
2018 after they had helped organize protests in support of 
workers' attempts to organize a union at Jasic Technology in 
Shenzhen municipality, Guangdong province.\97\ The students 
reported that the videos appeared coerced,\98\ and that 
authorities showed the video confessions in order to deter 
students from further activism.\99\ [For more information on 
the Jasic student protests advocating labor rights, see Section 
II--Worker Rights. For information on the televised confession 
of former Supreme People's Court Judge Wang Linqing, see 
Section III--Access to Justice.]

                      PROLONGED PRETRIAL DETENTION

    Authorities in some cases held suspects in pretrial 
detention beyond limits allowed in the CPL \100\ and 
international human rights standards.\101\ Observers indicate 
that detainees held in prolonged pretrial detention are at an 
increased risk of torture.\102\

        <bullet> For example, in February 2017, authorities in 
        Beijing municipality detained Falun Gong practitioner 
        Sun Qian for ``organizing and using a cult to undermine 
        implementation of the law.'' \103\ During her trial in 
        September 2018, Sun said that she was tortured while in 
        custody,\104\ and lawyers have noted that in addition 
        to arbitrary and prolonged pretrial detention, 
        authorities have prevented her from obtaining legal 
        counsel by harassing and intimidating 11 different 
        lawyers she had hired to represent her.\105\
        <bullet> This past year, Chinese courts tried and 
        sentenced individuals after prolonged periods of 
        pretrial detention, including human rights lawyer Wang 
        Quanzhang \106\ (pretrial detention of almost three 
        years and six months),\107\ four men in the ``June 
        Fourth liquor'' case (almost three years of pretrial 
        detention for each),\108\ and founder of rights website 
        64 Tianwang Huang Qi \109\ (held for two years and 
        eight months before receiving a sentence).\110\

                           ACCESS TO COUNSEL

    Authorities continued to deny some criminal suspects 
meetings with their lawyers and to prevent others from hiring 
their preferred attorneys, particularly in cases involving 
rights advocates. Chinese law grants suspects and defendants 
the right to hire \111\ and meet with defense counsel,\112\ but 
it restricts meetings in cases of ``endangering state 
security,'' such as terrorism, or significant bribes,\113\ as 
well as for those held in ``residential surveillance at a 
designated location'' (RSDL),\114\ contravening international 
standards.\115\
    For example, in January 2019, the Tianjin No. 2 
Intermediate People's Court sentenced human rights lawyer Wang 
Quanzhang to four years and six months in prison for ``inciting 
subversion of state power,'' a crime of ``endangering state 
security.'' \116\ Authorities prevented lawyers appointed by 
Wang's wife, Li Wenzu, from representing Wang in court,\117\ 
and Wang dismissed his state-
appointed lawyer during the trial.\118\ Wang is well known for 
taking on cases of Falun Gong practitioners, petitioners, and 
others deemed ``politically sensitive'' by authorities, and had 
been in custody since the July 2015 crackdown on human rights 
lawyers.\119\ Several international observers expressed concern 
over Wang's deprivation of counsel and continued 
detention.\120\ [For more information on access to counsel and 
the harassment and prosecution of rights lawyers, see Section 
III--Access to Justice.]

           RESIDENTIAL SURVEILLANCE AT A DESIGNATED LOCATION

    Authorities continued to place some criminal suspects in 
``residential surveillance at a designated location'' 
(RSDL),\121\ a form of incommunicado detention that can last up 
to six months,\122\ restricts access to counsel,\123\ and 
places detainees at risk of abuse by authorities.\124\
    For example, in January 2019, authorities detained former 
Chinese official and Australian citizen Yang Hengjun \125\ when 
he arrived in China from New York.\126\ Authorities placed Yang 
in RSDL on suspicion of ``endangering national security.'' 
\127\ Authorities did not inform the Australian embassy within 
three days of Yang's detention in violation of the China-
Australian consular agreement.\128\ In August 2019, Chinese 
authorities notified Australian diplomats that Yang had been 
formally arrested on suspicion of committing espionage.\129\ 
Yang has written articles critical of the Chinese 
government.\130\

                      Torture and Abuse in Custody

    Authorities continued to torture and abuse detainees,\131\ 
violating international standards.\132\ Examples include the 
following:

        <bullet> On February 28, 2019, rights lawyer Jiang 
        Tianyong completed his two-year prison term for 
        ``inciting subversion of state power.'' \133\ Upon his 
        release, Jiang told his wife that authorities had 
        deprived him of sunlight and ordered him to sit on a 
        marble block for prolonged periods, injuring his spine 
        and causing him to no longer be able to sit up 
        straight.\134\ Jiang's wife also said that Jiang 
        suffered from depression and significant memory 
        loss.\135\
        <bullet> In December 2018, Lee Jingyu, wife of 
        Taiwanese college employee and non-governmental 
        organization (NGO) volunteer Lee Ming-cheh,\136\ 
        reported that authorities in Chishan Prison in Nanzui 
        township, Yuanjiang city, Yiyang municipality, Hunan 
        province, required her husband to work more than 10 
        hours a day without a day of rest, and served him and 
        other prisoners rotten food.\137\ Under such treatment, 
        Lee has reportedly lost significant weight.\138\ After 
        she made public statements concerning her prison visit, 
        authorities revoked Lee Jingyu's right to visit her 
        husband for three months.\139\ In 2017, authorities 
        sentenced Lee Ming-cheh to five years' imprisonment for 
        ``subversion of state power.'' \140\

                        Medical Care in Custody

    Authorities continued to deny or fail to provide adequate 
medical care to some detainees, which violates international 
human rights standards \141\ and may amount to torture.\142\

        <bullet> Human rights website 64 Tianwang founder Huang 
        Qi, whom authorities detained in 2016,\143\ suffers 
        from ``high blood pressure, heart disease, [a] chronic 
        kidney condition, and hydrocephalus.'' \144\ The 
        Mianyang Municipality Public Security Bureau (PSB) in 
        Sichuan province has denied requests to release Huang 
        on ``bail on medical grounds.'' \145\ In October 2018, 
        Huang reportedly told his lawyer that authorities in 
        Sichuan manipulated readings of his high blood pressure 
        and the Mianyang PSB rejected attempts by detention 
        center officials to allow additional treatment due to 
        ``political'' reasons.\146\ In January 2019, the 
        Mianyang Municipal Intermediate People's Court tried 
        Huang on charges of ``illegally providing state secrets 
        to foreign entities'' and ``intentionally leaking state 
        secrets.'' \147\ During the trial, Huang dismissed his 
        lawyer out of concern for his lawyer's safety.\148\ In 
        July 2019, the court sentenced Huang to 12 years in 
        prison.\149\
        <bullet> In July 2019, legal advocate Ji Sizun \150\ 
        died in a hospital less than three months after 
        completing a term of four years and six months in 
        prison, which authorities reportedly imposed in 
        connection to his support of the 2014 Hong Kong pro-
        democracy protests (``Umbrella Movement'').\151\ 
        Despite having completed his sentence in April, Ji 
        remained in the custody of authorities in Fujian 
        province, who placed him in a local hospital and 
        restricted family visits.\152\ Ji suffered a paralyzing 
        stroke in prison, intestinal cancer, and other 
        illnesses, but authorities reportedly denied him 
        adequate medical treatment and denied applications for 
        medical parole.\153\ Ji died after his condition 
        worsened due to internal bleeding.\154\ Within hours of 
        Ji's death, police officers reportedly coerced Ji's 
        family to consent to immediate cremation.\155\

                          Wrongful Conviction

    Although authorities highlighted efforts to correct past 
wrongful convictions and to prevent future ones,\156\ some 
Chinese legal experts expressed concern about continued abusive 
practices that facilitated wrongful convictions, such as 
illegal collection of evidence and coerced confessions.\157\ 
The Dui Hua Foundation noted how authorities' use of unreliable 
jailhouse informants could lead to wrongful convictions.\158\
    The Commission observed reports of wrongful convictions 
overturned this year:

        <bullet> In November 2018, the Jilin Province High 
        People's Court found Jin Zhehong--who had already 
        served 23 years in prison--not guilty because ``the 
        evidence was insufficient and the facts were not 
        clear'' in the murder of a 20-year old woman.\159\ One 
        of Jin's lawyers said his client had ``repeatedly 
        accused the investigators of using torture to extract 
        confessions out of him.'' \160\
        <bullet> In January 2019, the Liaoyuan Municipal 
        Intermediate People's Court in Jilin province ordered 
        4.6 million-yuan (approximately US$670,000) 
        compensation for Liu Zhonglin after he served 25 years 
        in prison.\161\ During his 1994 trial for murder, Liu 
        did not have a lawyer present, and has maintained that 
        police tortured him to obtain a confession.\162\

                                Policing

    This past year, authorities continued to develop 
technology-based means to help public security officials track 
persons of interest.\163\ These developments are based in part 
on large-scale, sometimes involuntary collection of personal 
data--raising concerns about privacy and public security 
officials' capacity to crack down on rights advocates and other 
targeted persons.\164\ Collection of personal information, 
including biometric data, may violate privacy protections in 
international human rights instruments,\165\ and the Commission 
did not observe efforts by authorities to bring the collection 
or use of such information in line with international 
standards.\166\ Examples of technology used to track and 
collect data on individuals included \167\ smart glasses,\168\ 
artificial intelligence,\169\ facial recognition,\170\ and 
drones.\171\ Authorities increasingly used technology that can 
scan facial features as well as vehicle license plates \172\ 
for comparison against a centralized database linked with other 
personal information.\173\ At times the technology was used in 
conjunction with the social credit system.\174\ [For more 
information on the social credit system, see Section II--
Business and Human Rights.] Reports indicated that authorities 
use such technology to publicly shame individual 
lawbreakers.\175\ While such technology could aid criminal 
investigations, observers have noted the risk involved in 
authorities using the technology against human rights 
advocates.\176\ Reports indicated that U.S. and Chinese firms 
aided Chinese police in developing their surveillance 
technology.\177\ [For more information on the involvement of 
U.S. companies in the Chinese government's development and 
procurement of surveillance technology, see Section II--
Business and Human Rights. For information on public security 
and counterterrorism policy implementation in the Xinjiang 
Uyghur Autonomous Region, see Section IV--Xinjiang.]
    In addition, in February 2019, new provisions from the 
Ministry of Public Security took effect \178\ with the stated 
purpose of ``protecting the law enforcement authority of the 
police.'' \179\ The provisions address concerns for police 
officers' safety when their interaction with citizens becomes 
violent by permitting the Ministry of Public Security to punish 
``actors who violate the law enforcement authority of the 
police,'' \180\ as well as reducing the liability of individual 
police for damage caused in the line of duty.\181\ A Chinese 
legal expert asserted that under the new regulations, the 
increase in police authority comes at the expense of citizens' 
rights.\182\

                             Death Penalty

    Following the November 2018 session of the UN Human Rights 
Council's Universal Periodic Review of the Chinese government's 
human rights record, the Chinese government rejected all 
recommendations calling for reform of its use of the death 
penalty,\183\ and continued \184\ to claim that it reserved the 
death penalty for a small number of crimes and only the most 
serious offenders.\185\ Amnesty International, however, 
estimated that authorities ``execute[d] and sentence[d] to 
death thousands of people,'' more than any other country,\186\ 
and officials voiced support for the continued use of the death 
penalty.\187\ The Chinese government classifies statistics on 
its use of the death penalty as a ``state secret,'' \188\ and 
the Commission did not observe official reports on overall 
death penalty numbers.
    According to a French NGO, authorities disproportionately 
sentenced religious minorities, including Uyghurs of the 
Xinjiang Uyghur Autonomous Region, to the death penalty for 
their religious beliefs.\189\ For example, in a case reported 
by Radio Free Asia in November 2018, authorities sentenced to 
death prominent Uyghur businessman and philanthropist, 
Abdughappar Abdurusul, reportedly for taking a trip to Saudi 
Arabia for the Hajj pilgrimage.\190\ [For more information on 
the crackdown on Uyghurs in the Xinjiang Uyghur Autonomous 
Region, see Section IV--Xinjiang.]

                            Organ Harvesting

    Between July and August 2019, two scientific journals 
retracted at least 13 transplant studies by authors in China 
published between 2008 and 2014.\191\ The studies were 
retracted after a bioethicist and her colleagues raised 
concerns that organs in certain studies may have been sourced 
from executed prisoners in China.\192\


                                                      Criminal 
                                                        Justice
                                                Criminal 
                                                Justice
    Notes to Section II--Criminal Justice

    \1\ Zhonghua Renmin Gongheguo Xingshi Susong Fa [PRC Criminal 
Procedure Law], passed July 1, 1979, amended and effective October 26, 
2018, arts. 2, 4, 52, 56, 123, 135-39, and 156-59; Zhonghua Renmin 
Gongheguo Jingshen Weisheng Fa [PRC Mental Health Law], passed October 
26, 2012, effective May 1, 2013, arts. 27, 29, 30, 32, 75(5), 78(1); 
Universal Declaration of Human Rights, adopted and proclaimed by UN 
General Assembly resolution 217A (III) of December 10, 1948; 
International Covenant on Civil and Political Rights, adopted by UN 
General Assembly resolution 2200A (XXI) of December 16, 1966, entry 
into force March 23, 1976; International Convention on the Elimination 
of All Forms of Racial Discrimination, adopted by UN General Assembly 
resolution 2106 (XX) of December 2, 1965, entry into force January 4, 
1969; Convention against Torture and Other Cruel, Inhuman or Degrading 
Treatment or Punishment, adopted by UN General Assembly resolution 39/
46 of December 10, 1984, entry into force June 26, 1987; United Nations 
Treaty Collection, Chapter IV, Human Rights, Convention against Torture 
and Other Cruel, Inhuman or Degrading Treatment or Punishment, accessed 
June 12, 2019. China signed the Convention against Torture on December 
12, 1986, and ratified it on October 4, 1988. Michael Caster, ``China 
Thinks It Can Arbitrarily Detain Anyone. It Is Time for Change,'' 
Guardian, January 3, 2019.
    \2\ See, e.g., CECC, 2018 Annual Report, October 10, 2018, 103-04; 
CECC, 2017 Annual Report, October 5, 2017, 103-04; CECC, 2016 Annual 
Report, October 6, 2016, 101-02; CECC, 2015 Annual Report, October 8, 
2015, 104-05.
    \3\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of December 10, 1948; 
International Covenant on Civil and Political Rights, adopted by UN 
General Assembly resolution 2200A (XXI) of December 16, 1966, entry 
into force March 23, 1976.
    \4\ For examples, see the Commission's Political Prisoner Database 
records 2014-00343 on Shi Genyuan, 2019-00126 on Chai Xiaoming, 2004-
02398 on Luan Ning, 2014-00387 on Yu Wensheng, and 2019-00041 on 
Halmurat Ghopur.
    \5\ Chinese Human Rights Defenders, `` `Inciting Subversion of 
State Power': A Legal Tool for Prosecuting Free Speech in China,'' 
January 8, 2008; Joshua Rosenzweig, ``What's the Difference between 
Subversion and Inciting Subversion?,'' Siweiluozi's Blog (blog), 
January 19, 2012; Zhonghua Renmin Gongheguo Xing Fa [PRC Criminal Law], 
passed July 1, 1979, revised March 14, 1997, amended and effective 
November 4, 2017, art. 105.
    \6\ Zhonghua Renmin Gongheguo Xing Fa [PRC Criminal Law], passed 
July 1, 1979, revised March 14, 1997, amended and effective November 4, 
2017, arts. 102-13; Zhonghua Renmin Gongheguo Xingshi Susong Fa [PRC 
Criminal Procedure Law], passed July 1, 1979, amended and effective 
October 26, 2018, art. 73. In addition to the severe criminal 
penalties, endangering state security offenses permit authorities to 
use ``residential surveillance at a designated location,'' which in 
practice could ``amount to incommunicado detention . . . putting 
detainees at a high risk of torture or ill-treatment.''
    \7\ Zhonghua Renmin Gongheguo Xing Fa [PRC Criminal Law], passed 
July 1, 1979, revised March 14, 1997, amended and effective November 4, 
2017, art. 113.
    \8\ For more information on Zhen Jianghua, see the Commission's 
Political Prisoner Database record 2017-00360.
    \9\ Rights Defense Network, ``Guangdong renquan hanwei zhe, NGO 
renshi Zhen Jianghua huoxing 2 nian'' [Guangdong rights defender and 
NGO worker Zhen Jianghua sentenced to 2 years in prison], December 29, 
2018.
    \10\ Human Rights Campaign in China, ``Zhen Jianghua jiaren shoudao 
xingshi juliu tongzhi shu zuiming shexian shandong dianfu guojia 
zhengquan'' [Zhen Jianghua's family received criminal detention notice, 
suspected of inciting subversion of state power], September 7, 2017.
    \11\ Wen Yuqing, ``Zhen Jianghua jian ju qiman ji zhuan pibu'' 
[Zhen Jianghua's arrest approved immediately after expiration of 
residential surveillance], Radio Free Asia, March 30, 2018.
    \12\ Rights Defense Network, ``Guangdong renquan hanwei zhe, NGO 
renshi Zhen Jianghua huoxing 2 nian'' [Guangdong rights defender and 
NGO worker Zhen Jianghua sentenced to 2 years in prison], December 29, 
2018.
    \13\ Independent Chinese PEN Center (ICPC), ``Guanyu huiyuan Wang 
Yi Mushi deng bei juya de kangyi shengming'' [Statement protesting 
against the detention of [ICPC] member and Pastor Wang Yi], December 
13, 2018; Mimi Lau, ``Christian Pastor Wang Yi Faces Subversion Charges 
in China after Raid on Church,'' South China Morning Post, December 13, 
2018.
    \14\ For more information on Wang Yi, see the Commission's 
Political Prisoner Database record 2018-00615.
    \15\ For more information on Jiang Rong, see the Commission's 
Political Prisoner Database record 2018-00643.
    \16\ Rights Defense Network, ``Sichuan Chengdu Qiuyu Jiao an 
qingkuang tongbao: 8 ren zao xingju, 1 ren zhidingjusuojianshijuzhu, 3 
ren bei qiangpo shizong (2018 nian 12 yue 13 ri)'' [Sichuan Chengdu 
Early Rain Church situation bulletin: 8 people detained, 1 person put 
in residential surveillance at a designated location, 3 people forcibly 
disappeared (December 13, 2018)], December 13, 2018; Rights Defense 
Network, ``Sichuan Chengdu `12.9' Qiuyu Jiao an qingkuang tongbao: 11 
ren zao xingju, 1 ren zhiding jusuo jianshi juzhu, 6 ren bei qiangpo 
shizong, 1 ren bei xingzheng juliu, gong 19 ren (2018 nian 12 yue 19 
ri)'' [Situation bulletin on ``December 9'' case of Early Rain Church 
in Chengdu, Sichuan: 11 criminally detained, 1 in residential 
Surveillance at a designated location, 6 forcibly disappeared, 1 
administratively detained, for a total of 19 persons (December 19, 
2018)], December 19, 2018; Chinese Human Rights Defenders, ``Submission 
to UN on Wang Yi and Jiang Rong--February 2019,'' February 20, 2019.
    \17\ For more information on Wang Quanzhang, see the Commission's 
Political Prisoner Database record 2015-00278.
    \18\ For more information on Liu Feiyue, see the Commission's 
Political Prisoner Database record 2016-00460.
    \19\ ``Tiananmen Square Protest Leader Charged with Subversion in 
China's Guangxi,'' Radio Free Asia, December 21, 2018. For more 
information on Zhou Yongjun, see the Commission's Political Prisoner 
Database record 2009-00228.
    \20\ Luo Xiang, ``Pocket Monsters: How `Pocket Crimes' Warp China's 
Legal System,'' Sixth Tone, January 7, 2019.
    \21\ For examples of petitioners charged with ``picking quarrels 
and provoking trouble,'' see Rights Defense Network, ``Shanghai 
`Jinbohui' yi jieshu 10 tian reng you 13 wei weiquan renshi zai laoli 
shounan'' [Shanghai Import Expo has been over for 10 days, 13 rights 
advocates still suffering detention], November 20, 2018. For more 
information, see the Commission's Political Prisoner Database records 
2018-00571 on Bao Naigang, 2019-00063 on Zeng Hao, and 2019-00252 on 
Guo Hongying. For rights advocates targeted by authorities on the 
charge of ``picking quarrels and provoking trouble,'' see Chinese Human 
Rights Defenders, Defending Rights in a ``No Rights Zone'': Annual 
Report on the Situation of Human Rights Defenders in China (2018), 
February 2019; Zhonghua Renmin Gongheguo Xing Fa [PRC Criminal Law], 
passed July 1, 1979, revised March 14, 1997, amended and effective 
November 4, 2017, art. 293. See also Dui Hua Foundation, ``Complaints 
with Retribution: China's Muffling of Gaoyangzhuang,'' Dui Hua Human 
Rights Journal, May 8, 2019.
    \22\ Luo Xiang, ``Pocket Monsters: How `Pocket Crimes' Warp China's 
Legal System,'' Sixth Tone, January 7, 2019.
    \23\ For more information on Zhang Junyong, see the Commission's 
Political Prisoner Database record 2016-00243.
    \24\ For more information on Fu Hailu, see the Commission's 
Political Prisoner Database record 2016-00240.
    \25\ For more information on Luo Fuyu, see the Commission's 
Political Prisoner Database record 2016-00242.
    \26\ Rights Defense Network, `` `Chengdu Liusi jiu an' zuixin 
tongbao: Zhang Junyong dang ting bei panjue youqi tuxing 3 nian, huanqi 
4 nian zhixing'' [Latest on the ``Chengdu June 4th liquor case'': Zhang 
Junyong sentenced to 3 years' imprisonment, suspended for 4 years], 
April 2, 2019; Rights Defense Network, `` `Chengdu Liusi jiu an' zuixin 
tongbao: Luo Fuyu dang ting bei panjue youqi tuxing 3 nian, huanqi 4 
nian zhixing'' [Latest on the ``Chengdu June Fourth Liquor Case'': Luo 
Fuyu sentenced to 3 years' imprisonment, suspended for 4 years], April 
3, 2019; Rights Defense Network, `` `Chengdu Liusi jiu an' zuixin 
tongbao: Fu Hailu dang ting bei panjue youqi tuxing 3 nian, huanqi 5 
nian zhixing'' [Latest on the `Chengdu June 4th liquor case': Fu Hailu 
sentenced to 3 years' imprisonment, suspended for 5 years], April 1, 
2019. The Chengdu Intermediate People's Court sentenced Zhang to 3 
years' imprisonment, suspended for 4 years; Fu Hailu to 3 years' 
imprisonment, suspended for 5 years; and Luo Fuyu to 3 years' 
imprisonment, suspended for 4 years.
    \27\ For more information on Chen Bing, see the Commission's 
Political Prisoner Database record 2016-00241.
    \28\ Rights Defense Network, `` `Chengdu Liusi jiu an' zuixin 
tongbao: Chen Bing jujue renzui dang ting bei panjue youqi tuxing 3 
nian 6 ge yue ci an daoci chen'ai luoding'' [Latest on the ``Chengdu 
June 4th liquor case'': Chen Bing refuses to admit guilt, sentenced to 
3 years and 6 months' imprisonment, the dust has now settled in this 
case], April 4, 2019; Rights Defense Network, `` `Chengdu Liusi jiu an' 
zuixin tongbao: Zhang Junyong dang ting bei panjue youqi tuxing 3 nian, 
huanqi 4 nian zhixing'' [Latest on the ``Chengdu June 4th liquor 
case'': Zhang Junyong sentenced to 3 years' imprisonment, suspended for 
4 years], April 2, 2019; ``Four Chinese Activists Sentenced over Liquor 
Labels,'' Agence France-Presse, reprinted in France24, April 4, 2019.
    \29\ Rights Defense Network, `` `Chengdu Liusi jiu an' zuixin 
tongbao: Chen Bing jujue renzui dangting bei panjue youqi tuxing 3 nian 
6 ge yue ci an daoci chen'ai luoding'' [Latest on the ``Chengdu June 
4th liquor case'': Chen Bing refuses to admit guilt, sentenced to 3 
years and 6 months' imprisonment, the dust has now settled in this 
case], April 4, 2019; Mimi Lau, ``Tiananmen Square `Tank Man Liquor 
Label' Protester Sentenced to 3\1/2\ years in Prison,'' South China 
Morning Post, April 4, 2019; ``Four Chinese Activists Sentenced over 
Liquor Labels,'' Agence France-Presse, reprinted in France24, April 4, 
2019.
    \30\ For more information on Zhang Kun, see the Commission's 
Political Prisoner Database record 2014-00110.
    \31\ Rights Defense Network, ``Zhang Kun beikong xunxinzishi an 5 
yue 5 ri zai Xuzhou Gulouqu fayuan xuanpan Zhang Kun huoxing 2 nian 6 
ge yue'' [Gulou District Court in Xuzhou announced decision in Zhang 
Kun's case of being accused of picking quarrels and provoking trouble 
on May 5, Zhang Kun sentenced to 2 years, 6 months], May 7, 2019.
    \32\ Rights Defense Network, ``Jiangsu Xuzhou renquan hanweizhe 
Zhang Kun an jiang yu 2018 nian 12 yue 28 ri zai Xuzhou shi Gulou qu 
fayuan kaiting'' [Case of Xuzhou, Jiangsu, rights defender Zhang Kun 
will go to trial on December 28, 2018, at the Gulou District Court in 
Xuzhou municipality], December 20, 2018; Human Rights Campaign in 
China, ``Xuzhou gongmin Zhang Kun shexian xunxinzishi an bei 
jianchayuan di er ci tuihui zhencha'' [Xuzhou citizen Zhang Kun's case 
of suspected picking quarrels and provoking trouble sent back for 
investigation for a second time by procuratorate], December 28, 2017.
    \33\ Zhonghua Renmin Gongheguo Xing Fa [PRC Criminal Law], passed 
July 1, 1979, revised March 14, 1997, amended and effective November 4, 
2017, art. 300. For more information on the use of Article 300, see Dui 
Hua Foundation, ``NGO Submission for the Universal Periodic Review of 
the People's Republic of China,'' March 2018, paras. 14-15. See also UN 
Human Rights Council, Report of the Working Group on the Universal 
Periodic Review--China, A/HRC/40/6, November 6, 2018, item 28.192; UN 
Human Rights Council, Report of the Working Group on the Universal 
Periodic Review--China, Addendum, A/HRC/40/6/Add.1, February 15, 2019, 
item 28.192. In response to a Universal Periodic Review recommendation 
from the Democratic People's Republic of Korea to ``continue to fight 
against cult organizations to safeguard the people's welfare,'' China 
replied, ``Accepted.'' For the Commission's past reporting on the 
issue, see, e.g., CECC, 2018 Annual Report, October 10, 2018, 104; 
CECC, 2017 Annual Report, October 5, 2017, 133; CECC, 2014 Annual 
Report, October 9, 2014, 97-98; CECC, 2013 Annual Report, October 10, 
2013, 93-94; CECC, 2012 Annual Report, October 10, 2012, 85.
    \34\ For more information on Wang Ying, see the Commission's 
Political Prisoner Database record 2019-00070.
    \35\ For more information on Wang Hongling, see the Commission's 
Political Prisoner Database record 2019-00084.
    \36\ ``Er ling yi ba nian ba yue yi ri dalu zonghe xiaoxi'' [August 
1, 2018, comprehensive news report from mainland China], Clear Wisdom, 
August 1, 2019; ``Neimenggu Baotou shi Wang Ying, Wang Hongling zao 
wupan'' [Wang Ying and Wang Hongling of Baotou municipality, Inner 
Mongolia, falsely accused], Clear Wisdom, February 6, 2019.
    \37\ ``Er ling yi ba nian ba yue yi ri dalu zonghe xiaoxi'' [August 
1, 2018, comprehensive news report from mainland China], Clear Wisdom, 
August 1, 2019.
    \38\ New Citizens' Movement, ``Shenzhen Zhang Zhiru deng shu ming 
laogong weiquan renshi bei zhuabu'' [In Shenzhen, Zhang Zhiru and 
several other labor advocates detained], New Citizens' Movement (blog), 
March 1, 2019. For more information, see the Commission's Political 
Prisoner Database records 2019-00117 on Zhang Zhiyu and 2013-00316 on 
Wu Guijun.
    \39\ Civil Rights & Livelihood Watch, ``Lushi shenqing huijian Liu 
Fuxiang deng ren zao ju'' [Lawyer's application to see Liu Fuxiang and 
others is denied], January 4, 2019.
    \40\ ``Hubei: Wuhan `8.03' feifa jingying an 8 ren ru xing jingying 
e gaoda 1000 yu wan'' [Hubei: in Wuhan ``8.03'' illegal business 
activity case 8 people sentenced, business [made] over 10 million 
yuan], National Office for the Fight against Pornography and Illegal 
Publications, June 18, 2019; Yang Rui and Ren Qiuyu, ``Novelist Known 
for Gay Content Sentenced for `Illegal Publishing,' '' Caixin, May 21, 
2019.
    \41\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of December 10, 1948, art. 
9; International Covenant on Civil and Political Rights, adopted by UN 
General Assembly resolution 2200A (XXI) of December 16, 1966, entry 
into force March 23, 1976, art. 9(1).
    \42\ UN Human Rights Council, Working Group on Arbitrary Detention, 
Opinions adopted by the Working Group on Arbitrary Detention at its 
78th session (19-28 April, 2017), A/HRC/WGAD/2017/4, August 11, 2017. 
The UN Working Group on Arbitrary Detention classifies detention as 
``arbitrary'' when there is no legal basis for the deprivation of 
liberty, when detention results from the exercise of certain 
fundamental rights, when non-observance of international fair trial 
norms is particularly serious, when displaced persons are placed in 
prolonged administrative custody without the possibility custody 
without resolution, or when it is a violation of international law on 
the grounds of discrimination.
    \43\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of December 10, 1948, art. 
9; International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of December 16, 
1966, entry into force March 23, 1976, art. 9(1). China has signed and 
stated its intent to ratify the ICCPR. United Nations Treaty 
Collection, Chapter IV, Human Rights, International Covenant on Civil 
and Political Rights, accessed April 1, 2019. China signed the ICCPR on 
October 5, 1998. Countries recommended that China ratify the ICCPR, but 
China rejected this, saying ``China is making preparations for 
ratification, but the specific date of ratification depends on whether 
relevant conditions in China are in place.'' UN Human Rights Council, 
Report of the Working Group on the Universal Periodic Review--China, A/
HRC/25/5, February 15, 2019, items 28.5, 28.6, 28.10; Permanent Mission 
of the People's Republic of China to the UN, ``Aide Memoire,'' 
reprinted in United Nations, April 13, 2006; State Council, European 
Council, Prime Minister's Office of Sweden, and European Commission, 
``Joint Statement of the 12th China-EU Summit,'' reprinted in Ministry 
of Foreign Affairs, November 30, 2009. Upon presenting its candidacy 
for the 2013 UN Human Rights Council elections, China reportedly 
promised to ``further protect civil and political rights,'' although it 
did not specifically state intent to ratify the ICCPR. UN General 
Assembly, Note Verbale Dated June 5, 2013 from the Permanent Mission of 
China to the United Nations Addressed to the President of the General 
Assembly, June 6, 2013, A/68/90. The UN Working Group on Arbitrary 
Detention classifies detention as ``arbitrary'' when there is no legal 
basis for the deprivation of liberty, when detention results from the 
exercise of certain fundamental rights, when non-observance of 
international fair trial norms is particularly serious, when displaced 
persons are placed in prolonged administrative custody without the 
possibility of resolution, or when it is a violation of international 
law on the grounds of discrimination. UN Human Rights Council, Working 
Group on Arbitrary Detention, Opinions adopted by the Working Group on 
Arbitrary Detention at its 78th session (19-28 April 2017), A/HRC/WGAD/
2017/5, July 28, 2017.
    \44\ UN Human Rights Council, Report of the Working Group on the 
Universal Periodic Review--China, A/HRC/40/6, December 26, 2018, 28.35 
(Switzerland), 28.175 (Australia), 28.177 (United States of America), 
28.178 (Belgium), 28.180 (Germany), 28.181 (Iceland), 28.191 (Czechia); 
Chinese Human Rights Defenders and Rights Defense Network, ``Joint 
Civil Society Submission for Universal Periodic Review (Third Cycle) 
Country: People's Republic of China,'' March 16, 2018; Human Rights 
Watch, ``Submission to the Universal Periodic Review of China,'' March 
2019.
    \45\ UN Human Rights Council, Report of the Working Group on the 
Universal Periodic Review--China, Addendum, Views on conclusions and/or 
recommendations, voluntary commitments and replies presented by the 
State under review, A/HRC/40/6/Add.1, February 15, 2019, paras. 28.35, 
28.175, 28.177, 28.178, 28.180, 28.181. For the original 
recommendations, see UN Human Rights Council, Report of the Working 
Group on the Universal Periodic Review--China, A/HRC/40/6, November 6, 
2018, 28.35 (Switzerland), 28.175 (Australia), 28.177 (United States of 
America), 28.178 (Belgium), 28.180 (Germany), 28.181 (Iceland).
    \46\ Harry Wu and Cole Goodrich, ``A Jail by Any Other Name: Labor 
Camp Abolition in the Context of Arbitrary Detention in China,'' Human 
Rights Brief 21, no. 1 (Winter 2014), 3-4; Teng Biao, ``Xing xing se se 
de Zhongguo heijianyu'' [Teng Biao: All sorts of black jails], Radio 
Free Asia, reprinted in Human Rights in China, March 19, 2019; Amnesty 
International, ``China: Submission to the United Nations Committee 
against Torture 56th Session, November 9-December 9, 2015,'' October 
2015, 16; Chinese Human Rights Defenders, `` `We Can Beat You to Death 
with Impunity': Secret Detention and Abuse of Women in China's `Black 
Jails,' '' October 2014, 6. See also ``Guo Gai, Wang Jianfen: Wuxi hei 
jianyu shimo: yingjiu he kuxing yanshi'' [Guo Gai and Wang Jianfen: 
Details of black jails in Wuxi: Rescue and torture reenactment], 
Charter 08 (blog), December 23, 2015.
    \47\ Rights Defense Network, `` `Zhongguo Guoji Jinkou Bolanhui' 
Shanghai kaimu zhong Shanghai weiquan renshi bei xing ju, guan 
heijianyu, qiangpo shizong'' [``China International Import Expo'' 
opened in Shanghai, Shanghai rights advocates were arrested, placed in 
black jails, and forcibly disappeared], November 5, 2018; ``Jinkou 
Bolanhui kaimu Shanghai zhongduo weiquan renshi zai `weiwen' '' [As 
Import Expo opens, numerous Shanghai rights defenders encounter 
``stability maintenance''], Radio Free Asia, November 5, 2018.
    \48\ Rights Defense Network, ``Zhonggong kai Lianghui Shanghai 
weiquan renshi zao xingshi juliu, guan heijianyu, qiangpo shizong 
qingkuang tongbao (xuji)'' [Status report on Shanghai rights defenders 
being criminally detained, held in black jails, forcibly disappeared 
during CCP's Two Sessions (continued)], March 9, 2019; Rights Defense 
Network, ``Beijing `Lianghui' linjin, dangju dasi bangjia weiquan 
renshi he fangmin qingkuang tongbao'' [With the ``Two Sessions'' 
approaching, authorities wantonly kidnap rights defenders and 
petitioners, a status report], February 28, 2019. See also Lily Kuo, `` 
`Two Sessions': Beijing Locked Down for China's Greatest Political 
Spectacle,'' Guardian, March 4, 2019.
    \49\ Zhonghua Renmin Gongheguo Jingshen Weisheng Fa [PRC Mental 
Health Law], passed October 26, 2012, effective May 1, 2013, arts. 27, 
29, 30, 32, 75(5), 78(1).
    \50\ Supreme People's Procuratorate, Renmin Jianchayuan Qiangzhi 
Yiliao Zhixing Jiancha Banfa (Shixing) [People's Procuratorate Measures 
on Implementation of Compulsory Medical Treatment (Trial)], issued May 
13, 2016, effective June 2, 2016, arts. 9, 12.
    \51\ For more information on Lu Qianrong, see the Commission's 
Political Prisoner Database record 2018-00614.
    \52\ Civil Rights & Livelihood Watch, ``Anhui Lu Qianrong bei guan 
jingshenbingyuan 65 tian'' [Anhui's Lu Qianrong forcibly committed to 
psychiatric hospital for 65 days], October 24, 2018.
    \53\ Rights Defense Network, ``Lu Qianrong bei wang shang quanmian 
jin yan shengming'' [Lu Qianrong's declaration concerning his being 
completely banned from online speech], January 11, 2019.
    \54\ Zhonghua Renmin Gongheguo Zhi'an Guanli Chufa Fa [PRC Public 
Security Administration Punishment Law], passed August 28, 2005, 
amended October 26, 2012, effective January 1, 2013, arts. 10, 16. See 
also the following records in the Commission's Political Prisoner 
Database: 2018-00448 on Hu Changjie and 2018-00457 on Zou Wanli.
    \55\ See, e.g., Yang Bo and Wang Mingrun, ``Guangzhou Ribao jizhe 
fang'ai ri zoujin Nanfeng Qiangzhi Geli Jiedusuo duihua HIV huanzhe'' 
[Guangzhou Daily reporter visits Nanfeng Compulsory Drug detoxification 
Center to speak with people with HIV on AIDS prevention day], Guangzhou 
Daily, December 1, 2018; ``Qiangzhi geli jiedu'' [Compulsory drug 
detoxification], Jiayuguan Education Information Web, March 6, 2019; 
Liang Dahong, ``Guizhou Tongzi xian Qiangzhi Geli Jiedusuo--20 nian 
anquan wushigu!'' [Tongzi county, Guizhou, Compulsory Detoxification 
Center--20 years all without any incidents], Spreading Culture Network, 
October 31, 2018. See also State Council, Jiedu Tiaoli [Regulations on 
Drug Detoxification], issued and effective June 22, 2011, art. 4; 
Ministry of Public Security, Gong'an Jiguan Qiangzhi Geli Jiedusuo 
Guanli Banfa [Measures on the Management of Public Security Agency 
Compulsory Isolation and Drug Detoxification Centers], issued and 
effective September 19, 2011, arts. 1-2.
    \56\ Zhonghua Renmin Gongheguo Jindu Fa [PRC Narcotics Law], issued 
December 27, 2007, effective June 1, 2008, art. 47; State Council, 
Jiedu Tiaoli [Regulations on Drug Detoxification], issued and effective 
June 22, 2011, art. 27.
    \57\ Emile Dirks, ``Partial Victory for China's Detainees,'' East 
Asia Forum, February 12, 2019; Isabelle Li and Shan Yuxiao, ``China 
Signals End of Controversial Sex Work Detention Program,'' Caixin, 
December 29, 2018; Li Qiaochu, ``Quanguo Renda Changweiyuanhui 
Fagongwei: jianyi feizhi shourong jiaoyu zhidu'' [NPC Legislative 
Affairs Commission: Proposes repeal of ``custody and education'' 
system], People's Daily, December 26, 2018.
    \58\ State Council, Maiyin Piaochang Renyuan Shourong Jiaoyu Banfa 
[Measures on Custody and Education for Sex Workers and Their Clients], 
issued September 4, 1993, amended January 8, 2011, arts. 2, 3, 9; Asia 
Catalyst, `` `Custody and Education': Arbitrary Detention for Female 
Sex Workers in China,'' December 2013; Meng Yaxu, ``Weihe si ci 
`maotou' duizhun shourong jiaoyu? Quanguo Zhengxie weiyuan huiying'' 
[Why critique custody and reeducation four times? CPPCC committee 
member responds], Beijing Youth Daily, December 26, 2018.
    \59\ Human Rights Watch, ``China: Abolish Arbitrary Detention for 
Sex Workers,'' March 7, 2019; ``Rights Group Calls on China's 
Parliament to End Sex Worker `Re-education,' '' Radio Free Asia, March 
6, 2019. One human rights scholar called for the end of the system 
because it primarily targets women and is prone to abuse.
    \60\ Nathan VanderKlippe, Robert Fife, Steven Chase, and Les 
Pereaux, ``Canadians and Chinese Justice: A Who's Who of the Political 
Feud So Far,'' Globe and Mail, January 15, 2019, accessed July 3, 2019.
    \61\ Michael Caster, ``China Thinks It Can Arbitrarily Detain 
Anyone. It Is Time for Change,'' Guardian, January 3, 2019; Safeguard 
Defenders, ``The Use of Solitary Confinement in RSDL as a Method of 
Torture,'' RSDL Monitor (blog), April 11, 2019.
    \62\ Nathan VanderKlippe, ``Two Canadians Detained in China for 
Four Months Prevented from Going Outside, Official Says,'' Globe and 
Mail, April 10, 2019; Safeguard Defenders, ``The Use of Solitary 
Confinement in RSDL as a Method of Torture,'' RSDL Monitor (blog), 
April 11, 2019.
    \63\ Nathan VanderKlippe, ``Two Canadians Detained in China for 
Four Months Prevented from Going Outside, Official Says,'' Globe and 
Mail, April 10, 2019; Safeguard Defenders, ``The use of solitary 
confinement in RSDL as a method of torture,'' RSDL Monitor (blog), 
April 11, 2019. Spavor and Kovrig were held in (separate) isolation 
rooms with lights on for 24 hours, were barred from going outside, and 
were subjected to 6- to 8-hour interrogations.
    \64\ Ministry of Foreign Affairs, ``2019 nian 5 yue 16 ri Waijiaobu 
fayanren Lu Kang zhuchi lixing jizhehui'' [May 16, 2019, Ministry of 
Foreign Affairs spokesperson Lu Kang holds a regular press conference], 
May 16, 2019; Liu Zhen, ``China Charges Canadians Michael Kovrig and 
Michael Spavor with Spying,'' South China Morning Post, May 16, 2019; 
``China Formally Arrests Canadians Kovrig, Spavor in Case Linked to 
Huawei,'' Associated Press, reprinted in Vancouver Sun, June 11, 2019; 
``Jia'nada ji renyuan Kang Mingkai shexian fanzui an qude zhongyao 
jinzhan'' [Canadian national Michael Kovrig's criminal case makes 
significant progress], China Peace Net, reprinted in Liupanshui 
Chang'an Net, March 5, 2019; Zhonghua Renmin Gongheguo Xing Fa [PRC 
Criminal Law], passed July 1, 1979, revised March 14, 1997, amended and 
effective November 4, 2017, art. 111.
    \65\ Abhishek G Bhaya, ``Canadian `Drug Smuggler' Faces Stricter 
Sentence as Chinese Court Orders Retrial,'' CGTN, December 30, 2019; 
Eva Dou and Paul Vieira, ``Chinese Court Sentences Canadian National to 
Death for Drug Crimes in Retrial,'' Wall Street Journal, January 14, 
2019.
    \66\ Zhonghua Renmin Gongheguo Xingshi Susong Fa [PRC Criminal 
Procedure Law], passed July 1, 1979, amended and effective October 26, 
2018, art. 237.
    \67\ Abhishek G Bhaya, ``Canadian `Drug Smuggler' Faces Stricter 
Sentence as Chinese Court Orders Retrial,'' CGTN, December 30, 2019; 
Eva Dou and Paul Vieira, ``Chinese Court Sentences Canadian National to 
Death for Drug Crimes in Retrial,'' Wall Street Journal, January 14, 
2019.
    \68\ ``The Schellenberg Affair: Chinese Lawyers and Law Professors 
Opposing Court's Handling of Robert Schellenberg's Case,'' China 
Change, January 16, 2019; Ye Bing, ``Mo Shaoping lushi: Xielunboge an 
chengxu budang dangting xuanpan sixing qiansuoweijian'' [Lawyer Mo 
Shaoping: Schellenberg's Case procedures were improper, pronouncing a 
death sentence in court is unprecedented], Voice of America, January 
16, 2019; Donald Clarke, ``China's Death Threat Diplomacy,'' China 
Collection (blog), January 14, 2019; Amnesty International, ``China 
Must Revoke Death Sentence against Canadian Citizen for Drug Crimes,'' 
January 15, 2019; Tom Blackwell, ``Rapid Verdict and Death Sentence to 
Canadian Was `Very Abnormal' in Chinese System, Says His Beijing 
Defence Lawyer,'' National Post, January 17, 2019; Eva Dou and Paul 
Vieira, ``Chinese Court Sentences Canadian National to Death for Drug 
Crimes in Retrial,'' Wall Street Journal, January 14, 2019. See also 
Zhonghua Renmin Gongheguo Xingshi Susong Fa [PRC Criminal Procedure 
Law], passed July 1, 1979, amended and effective October 26, 2018, art. 
237.
    \69\ Eva Dou and Paul Vieira, ``Chinese Court Sentences Canadian 
National to Death for Drug Crimes in Retrial,'' Wall Street Journal, 
January 14, 2019; Donald Clarke, ``China's Hostage Diplomacy,'' Lawfare 
(blog), January 11, 2019; Donald Clarke, ``China's Death Threat 
Diplomacy,'' China Collection (blog), January 14, 2019; ``Canadian Man 
Accused of Spying in China Gets Visit by Consular Officials,'' CBC, 
March 25, 2019.
    \70\ Julia Horowitz, ``Huawei CFO Meng Wanzhou Arrested in Canada, 
Faces Extradition to United States,'' CNN, April 6, 2019; Nathan 
VanderKlippe, Robert Fife, Steven Chase, and Les Pereaux, ``Canadians 
and Chinese Justice: A Who's Who of the Political Feud So Far,'' Globe 
and Mail, April 10, 2019.
    \71\ Christopher Balding and Donald C. Clarke, ``Who Owns 
Huawei?,'' Social Science Research Network, April 17, 2019; Raymond 
Zhong, ``Who Owns Huawei? The Company Tried to Explain. It Got 
Complicated,'' New York Times, April 25, 2019. Huawei may be a state-
owned enterprise, according to experts.
    \72\ Julia Horowitz, ``Huawei CFO Meng Wanzhou Arrested in Canada, 
Faces Extradition to United States,'' CNN, April 6, 2019; Nathan 
VanderKlippe, Robert Fife, Steven Chase, and Les Pereaux, ``Canadians 
and Chinese Justice: A Who's Who of the Political Feud So Far,'' Globe 
and Mail, April 10, 2019. Authorities released Meng on bail and ordered 
her to remain in Canada pending final judgment on her extradition to 
the United States.
    \73\ Zhonghua Renmin Gongheguo Jiancha Fa [PRC Supervision Law], 
passed and effective March 20, 2018.
    \74\ Ibid., art. 3.
    \75\ Zhonghua Renmin Gongheguo Jiancha Fa [PRC Supervision Law], 
passed and effective March 20, 2018, art. 22; CECC, 2018 Annual Report, 
October 10, 2018, 103. The 2018 CECC Annual Report used the term 
``confinement'' as the translation of the term liuzhi.
    \76\ Zhonghua Renmin Gongheguo Jiancha Fa [PRC Supervision Law], 
passed and effective March 20, 2018; International Covenant on Civil 
and Political Rights, adopted by UN General Assembly resolution 2200A 
(XXI) of December 16, 1966, entry into force March 23, 1976, art. 14; 
Amnesty International, ``China: Draft Criminal Procedure Law Amendments 
Would Mean Further Deprivation of Right to Fair Trial before Court,'' 
ASA 17/8545/2018, June 7, 2018; Maya Wang, ``Where Is China's Interpol 
Chief?,'' Made in China Journal 4, no. 1 (January-March 2019): 20-25.
    \77\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of December 16, 1966, 
entry into force March 23, 1976, art. 14; Universal Declaration of 
Human Rights, adopted and proclaimed by UN General Assembly resolution 
217A (III) of December 10, 1948.
    \78\ Chris Buckley and Aurelien Breeden, ``Head of Interpol 
Disappears, and Eyes Turn toward China,'' New York Times, October 5, 
2018; Lily Kuo, ``Former Interpol Chief `Held in China under New Form 
of Custody,' '' Guardian, February 11, 2019; Eva Dou, ``Interpol's 
Chinese Ex-President Is in Hands of Beijing's Powerful Antigraft 
Agency,'' Wall Street Journal, October 8, 2018.
    \79\ Yu Ziru, ``Zuigao Renmin Jianchayuan yifa dui Meng Hongwei 
jueding daibu'' [Supreme People's Procuratorate decides to arrest Meng 
Hongwei according to law], Xinhua, April 24, 2019; ``China Formally 
Arrests Interpol's Former Chief for Corruption,'' Press Trust of India, 
reprinted in Business Standard, April 24, 2019. See also Zhonghua 
Renmin Gongheguo Xingshi Susong Fa [PRC Criminal Procedure Law], passed 
July 1, 1979, amended and effective October 26, 2018, art. 170.
    \80\ Vanessa Romo, ``Former Interpol President Pleads Guilty to 
Bribery in Chinese Court,'' NPR, June 20, 2019; ``Gong'anbu fu buzhang 
Meng Hongwei shouhui an yi shen kaiting'' [First instance hearing in 
bribery case of former Vice Minister of Public Security Meng Hongwei 
begins], People's Daily, June 20, 2019.
    \81\ Chris Buckley and Aurelien Breeden, ``Head of Interpol 
Disappears, and Eyes Turn toward China,'' New York Times, October 5, 
2018.
    \82\ Zhonghua Renmin Gongheguo Xingshi Susong Fa [PRC Criminal 
Procedure Law], passed July 1, 1979, amended and effective October 26, 
2018, arts. 2, 14.
    \83\ See, e.g., Standard Minimum Rules for the Treatment of 
Prisoners, adopted by the First United Nations Congress on the 
Prevention of Crime and the Treatment of Offenders, Geneva 1955, 
approved by the Economic and Social Council resolutions 663 C (XXIV) of 
July 31, 1957 and 2076 (LXII) of May 13, 1977; Body of Principles for 
the Protection of All Persons Under Any Form of Detention or 
Imprisonment, adopted by UN General Assembly resolution 43/173 of 
December 9, 1988, principles 6, 21, 24.
    \84\ Zhonghua Renmin Gongheguo Xingshi Susong Fa [PRC Criminal 
Procedure Law], passed July 1, 1979, amended and effective October 26, 
2018.
    \85\ Zhonghua Renmin Gongheguo Xingshi Susong Fa [PRC Criminal 
Procedure Law], passed July 1, 1979, amended and effective October 26, 
2018, arts. 291-97; Mini vandePol et al., ``China's Revised Criminal 
Procedure Law Expands Powers for Corruption Trials,'' Global Compliance 
News, Baker McKenzie, January 15, 2019; Laney Zhang, ``China: Criminal 
Procedure Law Amended to Allow Criminal Trials In Absentia in 
Corruption Cases,'' Global Legal Monitor, Library of Congress, January 
10, 2019.
    \86\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of December 16, 1966, 
entry into force March 23, 1976, art. 14(3)(d). See also Amnesty 
International, ``China: Draft Criminal Procedure Law Amendments Would 
Mean Further Deprivation of Right to Fair Trial before Court,'' ASA 17/
8545/2018, June 7, 2018.
    \87\ Chinese Human Rights Defenders, Defending Rights in a ``No 
Rights Zone'': Annual Report on the Situation of Human Rights Defenders 
in China (2018), February 2019; ``China's Parliament Expands Use of In 
Absentia Trials Targeting `Absconders,' '' Radio Free Asia, October 30, 
2018. See also Amnesty International, ``China: Draft Criminal Procedure 
Law Amendments Would Mean Further Deprivation of Right to Fair Trial 
before Court,'' ASA 17/8545/2018, June 7, 2018.
    \88\ UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China, adopted by the Committee at its 1391st 
and 1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, February 3, 
2016, para. 20; Zhiyuan Guo, ``Torture and Exclusion of Evidence in 
China,'' China Perspectives, no. 1 (2019): 45-46; Zhonghua Renmin 
Gongheguo Xingshi Susong Fa [PRC Criminal Procedure Law], passed July 
1, 1979, amended and effective October 26, 2018, art. 15; Mini vandePol 
et al., ``China's Revised Criminal Procedure Law Expands Powers for 
Corruption Trials,'' Global Compliance News, Baker McKenzie, January 
15, 2019.
    \89\ Zhonghua Renmin Gongheguo Xingshi Susong Fa [PRC Criminal 
Procedure Law], passed July 1, 1979, amended and effective October 26, 
2018, art. 15; Mini vandePol et al., ``China's Revised Criminal 
Procedure Law Expands Powers for Corruption Trials,'' Global Compliance 
News, Baker McKenzie, January 15, 2019.
    \90\ Zhonghua Renmin Gongheguo Xingshi Susong Fa [PRC Criminal 
Procedure Law], passed July 1, 1979, amended and effective October 26, 
2018, art. 222; Mini vandePol et al., ``China's Revised Criminal 
Procedure Law Expands Powers for Corruption Trials,'' Global Compliance 
News, Baker McKenzie, January 15, 2019.
    \91\ Zhonghua Renmin Gongheguo Xingshi Susong Fa [PRC Criminal 
Procedure Law], passed July 1, 1979, amended and effective October 26, 
2018, arts. 52, 56; Zhai Yanmin, ``Forced Confessions and Trial by 
Media: The Testimony of Rights Defender Zhai Yanmin,'' Hong Kong Free 
Press, December 9, 2018.
    \92\ Zhai Yanmin, ``Forced Confessions and Trial by Media: The 
Testimony of Rights Defender Zhai Yanmin,'' Hong Kong Free Press, 
December 9, 2018; Safeguard Defenders, ``Scripted and Staged: Behind 
the Scenes of China's Forced TV Confessions,'' April 2018, 4-5.
    \93\ For more information on Yue Xin, see the Commission's 
Political Prisoner Database record 2018-00665.
    \94\ For more information on Shen Mengyu, see the Commission's 
Political Prisoner Database record 2018-00664.
    \95\ For more information on Gu Jiayue, see the Commission's 
Political Prisoner Database record 2018-00667.
    \96\ For more information on Zheng Yongming, see the Commission's 
Political Prisoner Database record 2018-00053.
    \97\ Javier C. Hernandez, ``China Using Taped Confessions to 
Intimidate Young Communists, Students Say,'' New York Times, January 
21, 2019; Jasic Workers Support Group, `` `Renzui shipin' xijie 
gongbu'' [``Confession video'' details made public], January 21, 2019; 
Christian Shepherd, ``At a Top Chinese University, Activist 
`Confessions' Strike Fear into Students,'' Reuters, January 21, 2019.
    \98\ Jasic Workers Supporters Group, ``Yi ping `renzui shipin': 
yanji zhuolie wuneng, kexiao zi dao ziyan'' [A review of the 
``confession video'': acting clumsy and incompetent, laughable that it 
was self-directed], January 21, 2019; Christian Shepherd, ``At a Top 
Chinese University, Activist `Confessions' Strike Fear into Students,'' 
Reuters, January 21, 2019.
    \99\ Javier C. Hernandez, ``China Using Taped Confessions to 
Intimidate Young Communists, Students Say,'' New York Times, January 
21, 2019; Jasic Workers Support Group, `` `Renzui shipin' xijie 
gongbu'' [``Confession video'' details made public], January 21, 2019; 
Christian Shepherd, ``At a Top Chinese University, Activist 
`Confessions' Strike Fear into Students,'' Reuters, January 21, 2019.
    \100\ Zhonghua Renmin Gongheguo Xingshi Susong Fa [PRC Criminal 
Procedure Law], passed July 1, 1979, amended and effective October 26, 
2018, arts. 156-59.
    \101\ See, e.g., International Covenant on Civil and Political 
Rights, adopted by UN General Assembly resolution 2200A (XXI) of 
December 16, 1966, entry into force March 23, 1976, arts. 9(3)-(4), 
14(3)(c).
    \102\ Amnesty International, ``China,'' in Amnesty International 
Report 2017/18: The State of the World's Human Rights, POL 10/6700/
2018, 2018, 125-27; ``Pretrial Detention and Torture: Why Pretrial 
Detainees Face the Greatest Risk,'' Open Society Justice Initiative, 
Open Society Foundations, Ludwig Boltzmann Institute, and University of 
Bristol, June 2011; Penal Reform International and Association for the 
Prevention of Torture, ``Pre-Trial Detention: Addressing Risk Factors 
to Prevent Torture and Ill-Treatment,'' 2013.
    \103\ Nathan VanderKlippe, ``Family Fears Canadian Falun Gong 
Practitioner Tortured for Confession,'' Globe and Mail, November 16, 
2018.
    \104\ Nathan VanderKlippe, `` `I Did Nothing Illegal': Canadian 
Falun Gong Practitioner Denies Wrongdoing in Single-Day Trial,'' Globe 
and Mail, September 12, 2018.
    \105\ Limin Zhou, ``Court Procedure for Canadian Citizen Detained 
in China a `Show Trial,' Says Sister,'' Epoch Times, September 12, 
2018; Nathan VanderKlippe, ``Eleven Lawyers and Counting: Pressure from 
China Frustrates Defence for Arrested Canadian Falun Gong 
Practitioner,'' Globe and Mail, May 9, 2018; Nathan VanderKlippe, `` `I 
Did Nothing Illegal': Canadian Falun Gong Practitioner Denies 
Wrongdoing in Single-Day Trial,'' Globe and Mail, September 12, 2018.
    \106\ For more information on Wang Quanzhang, see the Commission's 
Political Prisoner Database record 2015-00278.
    \107\ Rights Defense Network, ``709 an tongbao: Wang Quanzhang 
lushi bei yi dianfu guojia zhengquan zui qisu'' [July 9 case bulletin: 
lawyer Wang Quanzhang indicted for subversion of state power], February 
15, 2017; Rights Defense Network, ``Wang Quanzhang dianfu guojia 
zhengquan an yi shen gongkai xuanpan'' [Wang Quanzhang publicly 
sentenced in first instance trial for subversion of state power], 
January 28, 2019.
    \108\ Rights Defense Network, `` `Chengdu Liusi jiu an' zui xin 
tongbao: Zhang Junyong dang ting bei panjue youqi tuxing 3 nian, huanqi 
4 nian zhixing'' [Latest on the ``Chengdu June 4th liquor case'': Zhang 
Junyong sentenced to 3 years' imprisonment, suspended for 4 years], 
April 2, 2019. For more information, see the Commission's Political 
Prisoner Database records 2016-00241 on Chen Bing, 2016-00240 on Fu 
Hailu, 2016-00242 on Luo Fuyu, and 2016-00243 on Zhang Junyong.
    \109\ For more information on Huang Qi, see the Commission's 
Political Prisoner Database record 2004-04053.
    \110\ Rights Defense Network, ``Dalu NGO `Liusi Tianwang' fuzeren 
Huang Qi yi bei dangju zhixing daibu'' [Head of mainland NGO `64 
Tianwang' Huang Qi arrested by authorities], December 20, 2016; Chinese 
Human Rights Defenders, ``China: Release Huang Qi, Respect Right to 
Fair Trial,'' January 14, 2019; Mianyang Intermediate People's Court, 
``Huang Qi guyi xielou guojia mimi, wei jingwai feifa tigong guojia 
mimi an yishen gongkai xuanpan'' [First instance [trial] publicly 
announced sentence of Huang Qi for intentionally leaking state secrets 
and illegally providing state secrets abroad], July 29, 2019.
    \111\ Zhonghua Renmin Gongheguo Xingshi Susong Fa [PRC Criminal 
Procedure Law], passed July 1, 1979, amended and effective October 26, 
2018, art. 39.
    \112\ Ibid.
    \113\ Ibid.
    \114\ Ibid.
    \115\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of December 16, 1966, 
entry into force March 23, 1976, art. 14(3)(b), (3)(d).
    \116\ Tianjin No. 2 Intermediate People's Court, ``Wang Quanzhang 
dianfu guojia zhengquan an yi shen gongkai xuanpan'' [Wang Quanzhang 
publicly sentenced in first instance trial for subversion of state 
power], January 28, 2019. See also Chinese Human Rights Defenders, `` 
`Inciting Subversion of State Power': A Legal Tool for Prosecuting Free 
Speech in China,'' January 8, 2008; Joshua Rosenzweig, ``What's the 
Difference between Subversion and Inciting Subversion?,'' Siweiluozi's 
Blog (blog), January 19, 2012.
    \117\ UN Human Rights Council, Working Group on Arbitrary 
Detention, Opinion no. 62/2018 concerning Wang Quanzhang, Jiang 
Tianyong, and Li Yuhan (China), A/HRC/WGAD/2018/62, October 12, 2018, 
para. 67.
    \118\ Christian Shepherd, ``China Jailing of Rights Lawyer a 
`Mockery' of Law, Says Rights Group,'' Reuters, January 27, 2019.
    \119\ Rights Defense Network, ``709 Wang Quanzhang lushi suowei 
dianfu guojia zhengquan anjin xuanpan huoxing 4 nian 6 ge yue'' [709 
lawyer Wang Quanzhang's so-called inciting subversion of state power 
case is announced, receives a sentence of 4 years and 6 months], April 
10, 2019; Human Rights Watch, ``China: Protect Lawyers from Beatings 
and Harassment,'' June 25, 2015.
    \120\ Alvin Lum, ``China Faces Barrage of Criticism over Jailing of 
Human Rights Lawyer Wang Quanzhang,'' South China Morning Post, 
February 7, 2019; Press Statement, U.S. Department of State, 
``Sentencing of Wang Quanzhang,'' January 30, 2019.
    \121\ Zhonghua Renmin Gongheguo Xingshi Susong Fa [PRC Criminal 
Procedure Law], passed July 1, 1979, amended and effective October 26, 
2018, art. 75.
    \122\ Ibid., art. 79.
    \123\ Ibid., arts. 39, 77(2).
    \124\ See, e.g., UN Human Rights Council, ``Mandates of the Working 
Group on Arbitrary Detention; the Working Group on Enforced or 
Involuntary Disappearances; the Special Rapporteur on the promotion and 
protection of the right to freedom of opinion and expression; the 
Special Rapporteur on the rights to freedom of peaceful assembly and of 
association; the Special Rapporteur on the right of everyone to the 
enjoyment of the highest attainable standard of physical and mental 
health; the Special Rapporteur on the situation of human rights 
defenders; the Special Rapporteur on the independence of judges and 
lawyers; the Special Rapporteur on the right to privacy; the Special 
Rapporteur on the promotion and protection of human rights and 
fundamental freedoms while countering terrorism; and the Special 
Rapporteur on torture and other cruel, inhuman or degrading treatment 
or punishment,'' OL CHN 15/2018, August 24, 2018; Safeguard Defenders, 
``The Use of Solitary Confinement in RSDL as a Method of Torture,'' 
April 11, 2019; Michael Caster, ``China Thinks It Can Arbitrarily 
Detain Anyone. It Is Time for Change,'' Guardian, January 3, 2019. See 
also Benedict Rogers, ``China's `Residential Surveillance at a 
Designated Location'--A Licence to Disappear, Hold and Torture 
Dissenters,'' Hong Kong Free Press, February 4, 2018.
    \125\ For more information on Yang Hengjun, see the Commission's 
Political Prisoner Database record 2019-00083.
    \126\ Michael Smith, ``Lawyer for Detained Writer in China to Seek 
Release on Health Grounds,'' Australian Financial Review, March 17, 
2019.
    \127\ Amnesty International, ``China Secret Detention Places Writer 
at Risk of Torture,'' January 24, 2019.
    \128\ Jerome A. Cohen, ``Chinese Detention of Australian Blogger 
Yang Hengjun,'' Jerry's Blog (blog), January 25, 2019. See also Michael 
McGowan and Lily Kuo, ``Yang Hengjun: Australia `Deeply Disappointed' 
at Criminal Detention of Writer in China,'' Guardian, July 19, 2019.
    \129\ Zhang Hui, ``Waijiaobu zhengshi: Aoji renyuan Yang Jun 
shexian jiandie zui bei pibu'' [Ministry of Foreign Affairs confirms: 
Arrest of Australian Yang Jun on suspicion of espionage approved], 
Global Times, August 27, 2019; `` `We Are Just Ordinary People': Wife 
of Australian Jailed in China Shocked over Espionage Charges,'' 
Australian Broadcasting Corporation, August 27, 2019; Zhonghua Renmin 
Gongheguo Xing Fa [PRC Criminal Law], passed July 1, 1979, revised 
March 14, 1997, amended and effective November 4, 2017, art. 110.
    \130\ Amnesty International, ``China: Secret Detention Places 
Writer at Risk of Torture,'' January 24, 2019; Michael Smith, ``Lawyer 
for Detained Writer in China to Seek Release on Health Grounds,'' 
Australian Financial Review, March 17, 2019.
    \131\ Rights Defense Network, ``Shanghai weiquan renshi Ding Deyuan 
yuzhong zao canbao de nuedai ouda'' [Shanghai rights defender Ding 
Deyuan experiences mistreatment and beatings in prison], October 20, 
2018; ``Hubei Yingcheng Xiong Jiwei, Li Guoping bei kao laohu deng 20 
yu xiaoshi'' [Xiong Jiwei and Li Guoping of Yingcheng, Hubei, tied to 
tiger chair for over 20 hours], Clear Wisdom, November 13, 2017; 
Chinese Human Rights Defenders, ``Li Yuhan (Li Yuhan),'' accessed June 
25, 2019; Elizabeth Li, ``Woman Dies 3 Months after Prison Release: 
Years of Torture Damaged Her Body,'' Epoch Times, February 6, 2019; 
CECC, 2018 Annual Report, October 10, 2018, 107; CECC, 2017 Annual 
Report, October 5, 2017, 107-08.
    \132\ Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, adopted by UN General Assembly 
resolution 39/46 of December 10, 1984, entry into force June 26, 1987; 
Standard Minimum Rules for the Treatment of Prisoners, adopted by the 
First United Nations Congress on the Prevention of Crime and the 
Treatment of Offenders, Geneva 1955, approved by the Economic and 
Social Council resolutions 663 C (XXIV) of July 31, 1957 and 2076 
(LXII) of May 13, 1977, principles 31, 32; Body of Principles for the 
Protection of All Persons Under Any Form of Detention or Imprisonment, 
adopted by UN General Assembly resolution 43/173 of December 9, 1988, 
principle 6.
    \133\ For more information on Jiang Tianyong, see the Commission's 
Political Prisoner Database record 2011-00179.
    \134\ ``Jiang Tianyong jiankang kanyou qizi xiwang ta dao Meiguo 
kanbing'' [Jiang Tianyong's health a worry, wife hopes he can come to 
U.S. for medical treatment], Radio Free Asia, March 8, 2019.
    \135\ Ibid.
    \136\ For more information on Lee Ming-cheh, see the Commission's 
Political Prisoner Database record 2017-00248. See also CECC, 2018 
Annual Report, October 10, 2018, 105.
    \137\ Ryan Drillsma, ``HR Activists: Lee Ming-che Subject to 
`Inhumane Treatment' by China,'' Taiwan News, December 25, 2018; 
Racqueal Legerwood, Human Rights Watch, ``Taiwanese Activist at Risk in 
Chinese Prison,'' March 18, 2019; Amnesty International, ``Urgent 
Action Update: Prisoner of Conscience Ill-Treated in Prison (China: UA 
71.17),'' February 13, 2019; International Labour Organization, ILO 
Convention (No. 29) Concerning Forced or Compulsory Labour, June 28, 
1930, art. 13; International Labour Organization, ``Ratifications of 
CO29--Forced Labour Convention, 1930 (No. 29),'' accessed May 16, 2019. 
China has not ratified the ILO's Forced Labour Convention of 1930. See 
also International Labour Organization, ``Q&As on Business and Forced 
Labour,'' accessed July 11, 2019.
    \138\ Ryan Drillsma, ``HR Activists: Lee Ming-che Subject to 
`Inhumane Treatment' by China,'' Taiwan News, December 25, 2018. Under 
such treatment, Lee has reportedly lost 30 kilograms (66 pounds). 
Racqueal Legerwood, Human Rights Watch, ``Taiwanese Activist at Risk in 
Chinese Prison,'' March 18, 2019; Amnesty International, ``Urgent 
Action Update: Prisoner of Conscience Ill-Treated in Prison (China: UA 
71.17),'' February 13, 2019.
    \139\ Hunan Province Chishan Prison, ``Notice to Lee Chingyu from 
Chishan Prison,'' January 22, 2019, reprinted in Human Rights Watch; 
Racqueal Legerwood, Human Rights Watch, ``Taiwanese Activist at Risk in 
Chinese Prison,'' March 18, 2019.
    \140\ Mimi Lau, ``Rights Activist Lee Ming-Cheh First Taiwanese to 
Be Jailed for Subversion on Mainland China,'' South China Morning Post, 
November 28, 2017.
    \141\ Standard Minimum Rules for the Treatment of Prisoners, 
adopted by the First UN Congress on the Prevention of Crime and the 
Treatment of Offenders, Geneva 1955, approved by the Economic and 
Social Council resolutions 663 C (XXIV) of July 31, 1957 and 2076 
(LXII) of May 13, 1977, arts. 22-26; Body of Principles for the 
Protection of All Persons Under Any Form of Detention or Imprisonment, 
adopted by UN General Assembly resolution 43/173 of December 9, 1988, 
principle 24.
    \142\ UN Human Rights Council, Report of the Special Rapporteur on 
Torture and Other Cruel, Inhuman or Degrading Treatment or Punishment, 
Juan E. Mendez, A/HRC/22/53, February 1, 2013, paras. 17-22; Convention 
against Torture and Other Cruel, Inhuman or Degrading Treatment or 
Punishment, adopted by UN General Assembly resolution 39/46 of December 
10, 1984, entry into force June 26, 1987, art. 1.
    \143\ Rights Defense Network, ``Dalu NGO `Liusi Tianwang' fuzeren 
Huang Qi yi bei dangju zhixing daibu'' [Head of mainland NGO ``64 
Tianwang'' Huang Qi arrested by authorities], December 20, 2016. For 
more information on Huang Qi, see the Commission's Political Prisoner 
Database record 2004-04053.
    \144\ UN Office of the High Commissioner for Human Rights, ``China: 
UN Human Rights Experts Gravely Concerned about Huang Qi's Health,'' 
December 20, 2018. See also Chinese Human Rights Defenders, ``Huang 
Qi,'' December 19, 2016.
    \145\ Chinese Human Rights Defenders, ``Huang Qi,'' December 19, 
2016; Rights Defense Network, `` `Liusi Tianwang' fuzeren Huang Qi 
shenqing qubao houshen zao ju'' [Head of `64 Tianwang' Huang Qi's 
appeal for bail is denied], February 3, 2017.
    \146\ Chinese Human Rights Defenders, ``Huang Qi,'' December 19, 
2016.
    \147\ Chinese Human Rights Defenders, ``China: Release Huang Qi, 
Respect Right to Fair Trial,'' January 14, 2019.
    \148\ Human Rights in China, ``Trial Suspended as Sichuan Activist 
Huang Qi Reportedly Dismissed His Lawyer,'' January 16, 2019.
    \149\ Mianyang Intermediate People's Court, ``Huang Qi guyi xielou 
guojia mimi, wei jingwai feifa tigong guojia mimi an yishen gongkai 
xuanpan'' [First instance [trial] publicly announces sentence of Huang 
Qi for intentionally leaking state secrets and illegally providing 
state secrets abroad], July 29, 2019.
    \150\ For more information on Ji Sizun, see the Commission's 
Political Prisoner Database record 2008-00627. See also Chinese Human 
Rights Defenders, ``Ji Sizun,'' accessed August 14, 2019.
    \151\ Rights Defense Network, ``Ehao: Fujian zhuming renquan 
hanweizhe Ji Sizun Xiansheng zao Zhongguo dangju pohai zhi si chuyu jin 
2 yue 14 tian'' [News of passing: well-known human rights defender Mr. 
Ji Sizun is persecuted to death by Chinese authorities only 2 months 
and 14 days after leaving prison], July 10, 2019; Lily Kuo, ``Death of 
`Barefoot Lawyer' Puts Focus on China's Treatment of Political 
Prisoners,'' Guardian, July 15, 2019; Rights Defense Network, ``Fujian 
renquan lushi Ji Sizun jin huoxing 4 nian 6 ge yue'' [Fujian human 
rights lawyer Ji Sizun sentenced to four years and six months], April 
18, 2019; Chinese Human Rights Defenders, ``Ji Sizun,'' accessed August 
14, 2019; Yaqiu Wang, Human Rights Watch, ``Another Chinese Activist 
Leaves Prison Gravely Ill,'' May 20, 2019.
    \152\ Chinese Human Rights Defenders, ``Ji Sizun,'' accessed August 
14, 2019; Yaqiu Wang, Human Rights Watch, ``Another Chinese Activist 
Leaves Prison Gravely Ill,'' May 20, 2019.
    \153\ Chinese Human Rights Defenders, ``Ji Sizun,'' accessed August 
14, 2019; Yaqiu Wang, Human Rights Watch, ``Another Chinese Activist 
Leaves Prison Gravely Ill,'' May 20, 2019.
    \154\ Rights Defense Network, ``Ehao: Fujian zhuming renquan 
hanweizhe Ji Sizun Xiansheng zao Zhongguo dangju pohai zhi si chuyu jin 
2 yue 14 tian'' [News of passing: well-known human rights defender Mr. 
Ji Sizun is persecuted to death by Chinese authorities only 2 months 
and 14 days after leaving prison], July 10, 2019; Lily Kuo, ``Death of 
`Barefoot Lawyer' Puts Focus on China's Treatment of Political 
Prisoners,'' Guardian, July 15, 2019.
    \155\ Chinese Human Rights Defenders, ``Ji Sizun,'' accessed August 
14, 2019.
    \156\ See, e.g., ``Zhou Qiang: 2018 nian jiuzheng zhongda yuan 
cuo'an 10 jian xuangao 819 ren wuzui'' [Zhou Qiang: 2018 sees 10 major 
wrongful conviction cases corrected, 819 people declared not guilty], 
People's Daily, March 12, 2019; Grenville Cross, ``How a People's Jury 
System Is Helping Chinese Courts to Open Up as Part of Vital Judicial 
Reforms,'' South China Morning Post, November 21, 2018; ``Chinese Man 
Compensated for Wrongful Conviction,'' Xinhua, January 7, 2019; 
``Procuratorates to Engage More in Crime Investigation to Cut Wrongful 
Convictions,'' Xinhua, February 21, 2019.
    \157\ Zhiyuan Guo, ``Torture and Exclusion of Evidence in China,'' 
China Perspectives, no. 1 (2019). See also Eva Pils, Human Rights in 
China (Medford, MA: Polity Press, 2018), 64-69.
    \158\ Dui Hua Foundation, ``Jailhouse Informants and Wrongful 
Convictions,'' Dui Hua Human Rights Journal, February 7, 2019.
    \159\ Laurie Chen and William Zheng, ``Chinese Man Cleared over 
1995 Murder after Spending 23 Years in Jail,'' South China Morning 
Post, December 1, 2018; Jin Zhehong, ``Man Freed after 23 Years, Name 
Cleared,'' China Daily, November 30, 2018.
    \160\ Laurie Chen and William Zheng, ``Chinese Man Cleared over 
1995 Murder after Spending 23 Years in Jail,'' South China Morning 
Post, December 1, 2018.
    \161\ ``Liu Zhonglin an: mengyuan guanya 25 nian huo Zhongguo 
guojia peichang 460 wan'' [Liu Zhonglin's case: wrongfully jailed for 
25 years, receives compensation of 4.6 million from the Chinese 
government], BBC, January 7, 2019; ``Chinese Man Compensated for 
Wrongful Conviction,'' Xinhua, January 7, 2019; ``Chart of the Day: 
Compensation for Wrongful Convictions,'' Caixin, January 10, 2019.
    \162\ Wang Lianzhang, ``Man Exonerated after Longest-Ever 
Wrongfully Served Term,'' Sixth Tone, April 20, 2019; ``Liu Zhonglin 
an: mengyuan guanya 25 nian huo Zhongguo guojia peichang 460 wan'' [Liu 
Zhonglin's case: wrongfully jailed for 25 years, receives compensation 
of 4.6 million from the Chinese government], BBC, January 7, 2019; 
``Chinese Man Compensated for Wrongful Conviction,'' Xinhua, January 7, 
2019. See also, CECC, 2018 Annual Report, October 10, 2018, 108.
    \163\ Liang Chenyu, ``Five Ways China Used Facial Recognition in 
2018,'' Sixth Tone, December 28, 2019; Stephen Chen, ``China to Build 
Giant Facial Recognition Database to Identify Any Citizen within 
Seconds,'' South China Morning Post, September 24, 2018; Sui-Lee Wee, 
``China Uses DNA to Track Its People, with the Help of American 
Expertise,'' New York Times, February 21, 2019.
    \164\ Liang Chenyu, ``Five Ways China Used Facial Recognition in 
2018,'' Sixth Tone, December 28, 2019; Stephen Chen, ``China to Build 
Giant Facial Recognition Database to Identify Any Citizen within 
Seconds,'' South China Morning Post, September 24, 2018; Sui-Lee Wee, 
``China Uses DNA to Track Its People, with the Help of American 
Expertise,'' New York Times, February 21, 2019.
    \165\ UN Human Rights Council, The Right to Privacy in the Digital 
Age, Report of the United Nations High Commissioner for Human Rights, 
A/HRC/39/29, August 3, 2018, paras. 5-11, 17, 23; Universal Declaration 
of Human Rights, adopted and proclaimed by UN General Assembly 
resolution 217A (III) of December 10, 1948, art. 12; International 
Covenant on Civil and Political Rights, adopted by UN General Assembly 
resolution 2200A (XXI) of December 16, 1966, entry into force March 23, 
1976, art. 17. See also UN Office of Counter-Terrorism and Counter-
Terrorism Committee Executive Directorate, UN Security Council, United 
Nations Compendium of Recommended Practices for the Responsible Use and 
Sharing of Biometrics in Counter-terrorism, accessed August 15, 2019, 
30-53.
    \166\ For additional discussion about privacy concerns in this 
context, see, e.g., Human Rights Watch, ``China: Voice Biometric 
Collection Threatens Privacy,'' October 22, 2017; Human Rights Watch, 
``China: Police `Big Data' Systems Violate Privacy, Target Dissent,'' 
November 19, 2017; Paul Mozur, ``Internet Users in China Expect to Be 
Tracked. Now, They Want Privacy.,'' New York Times, January 4, 2018.
    \167\ Paul Mozur, ``Inside China's Dystopian Dreams: A.I., Shame 
and Lots of Cameras,'' New York Times, July 8, 2018.
    \168\ Liang Chenyu, ``Five Ways China Used Facial Recognition in 
2018,'' Sixth Tone, December 28, 2019; ``China's First 5G Police 
Station Unveiled in Shenzhen,'' Global Times, April 29, 2019.
    \169\ Tom Simonite, ``This US Firm Wants to Help Build China's 
Surveillance State,'' Wired, November 14, 2018; Charles Parton, 
``Social Credit Is Just One Part of China's New State Control,'' 
Spectator, November 17, 2018.
    \170\ Liang Chenyu, ``Five Ways China Used Facial Recognition in 
2018,'' Sixth Tone, December 28, 2019; Stephen Chen, ``China to Build 
Giant Facial Recognition Database to Identify Any Citizen within 
Seconds,'' South China Morning Post, September 24, 2018; Li Tao, 
``Facial Recognition Snares China's Air Con Queen Dong Mingzhu for 
Jaywalking, but It's Not What It Seems,'' South China Morning Post, 
November 23, 2018.
    \171\ ``China's First 5G Police Station Unveiled in Shenzhen,'' 
Global Times, April 29, 2019; Tenzin Dharpo, ``China Deploys `Hunter-
Killer' Drones in High Altitude Border Regions of Tibet, Xinjiang,'' 
Phayul, December 7, 2018.
    \172\ Xue Keyue, ``Lhasa Uses Facial Recognition, Big Data Analysis 
in New Taxis,'' Global Times, March 5, 2019; Erika Kinetz, ``In China, 
Your Car Could Be Talking to the Government,'' Associated Press, 
November 29, 2018.
    \173\ Li Tao, ``China Tests Facial Recognition at Border Crossing 
of Hong Kong-Zhuhai-Macau Bridge,'' South China Morning Post, October 
24, 2018; ``China Rolls Out Facial Recognition Scans on Guangzhou 
Subway,'' Radio Free Asia, October 29, 2018; Alfred Ng, ``Chinese 
Facial Recognition Company Left Database of People's Locations 
Exposed,'' CNet, February 13, 2019. See also Paul Mozur, ``Inside 
China's Dystopian Dreams: A.I., Shame and Lots of Cameras,'' New York 
Times, July 8, 2018.
    \174\ See, e.g.,``2018 nian shixin heimingdan niandu fenxi baogao 
fabu'' [2018 annual credit blacklist report published], Credit China 
(CreditChina.gov.cn), February 19, 2019; Robyn Dixon, ``China's New 
Surveillance Program Aims to Cut Crime. Some Fear It'll Do Much More,'' 
Los Angeles Times, October 27, 2018. See also He Huifeng, ``China's 
Social Credit System Shows Its Teeth Banning Millions from Taking 
Flights, Trains,'' South China Morning Post, February 2, 2019.
    \175\ Laurence Dodds, ``Chinese Businesswoman Accused of Jaywalking 
after AI Camera Spots Her Face on an Advert,'' Telegraph, November 25, 
2018; Robyn Dixon, ``China's New Surveillance Program Aims to Cut 
Crime. Some Fear It'll Do Much More,'' Los Angeles Times, October 27, 
2018. See also Paul Mozur, ``Inside China's Dystopian Dreams: A.I., 
Shame and Lots of Cameras,'' New York Times, July 8, 2018.
    \176\ Sarah Cook, `` `Social Credit' Scoring: How China's Communist 
Party Is Incentivizing Repression,'' Hong Kong Free Press, February 27, 
2018.
    \177\ Tom Simonite, ``This US Firm Wants to Help Build China's 
Surveillance State,'' Wired, November 14, 2018; Emily Feng, ``Chinese 
Surveillance Group Faces Crippling US Ban,'' Financial Times, November 
18, 2018; Charles Rollet, ``Evidence of Hikvision's Involvement with 
Xinjiang IJOP and Re-Education Camps,'' IVPM, October 2, 2018; Sophie 
Richardson, Human Rights Watch, ``Thermo Fisher's Necessary, but 
Insufficient, Step in China,'' February 22, 2019.
    \178\ Ministry of Public Security, Gong'an Jiguan Weihu Minjing 
Zhifa Quanwei Gongzuo Guiding [Provisions on Safeguarding the Law 
Enforcement Authority of Police Officers by Public Security Agencies], 
passed December 7, 2018, effective February 1, 2019.
    \179\ Du Xiao, ``Duo cuo bing ju weihu minjing zhifa quanwei'' 
[Using multiple measures simultaneously to safeguard authority of 
people's police to enforce the law], Legal Daily, February 2, 2019; 
Zhang Yu and Zhu Ziyang, ``Gong'anbu zhiding chutai `Gong'an Jiguan 
Weihu Minjing Zhifa Quanwei Gongzuo Guiding' '' [Ministry of Public 
Security formulates and launches ``Provisions on Safeguarding the Law 
Enforcement Authority of Police Officers by Public Security 
Agencies''], People's Daily, December 29, 2018.
    \180\ Ministry of Public Security, Gong'an Jiguan Weihu Minjing 
Zhifa Quanwei Gongzuo Guiding [Provisions on Safeguarding the Law 
Enforcement Authority of Police Officers by Public Security Agencies], 
passed December 7, 2018, effective February 1, 2019, arts. 8, 9.
    \181\ Ministry of Public Security, Gong'an Jiguan Weihu Minjing 
Zhifa Quanwei Gongzuo Guiding [Provisions on Safeguarding the Law 
Enforcement Authority of Police Officers by Public Security Agencies], 
passed December 7, 2018, effective February 1, 2019, art. 16. See also 
Charlotte Gao, ``China Vows to Protect The Authority of Police,'' The 
Diplomat, September 11, 2018.
    \182\ ``Gong'anbu ni xin gui `weihu jingcha quanwei' '' [Ministry 
of Public Security drafts new regulations ``to protect police 
authority''], Radio Free Asia, September 10, 2018.
    \183\ UN Human Rights Council, Report of the Working Group on the 
Universal Periodic Review--China, A/HRC/40/6, December 26, 2018, paras. 
28.2, 28.158-28.169; UN Human Rights Council, Report of the Working 
Group on the Universal Periodic Review--China, Addendum, Views on 
conclusions and/or recommendations, voluntary commitments and replies 
presented by the State under review, A/HRC/40/6/Add.1, February 15, 
2019, paras. 28.2, 28.158-28.169.
    \184\ CECC, 2018 Annual Report, October 10, 2018, 109.
    \185\ ``Zuigao Renmin Fayuan gongzuo baogao'' [Supreme People's 
Court work report], Xinhua, March 12, 2019, sec. 2. See also Zhonghua 
Renmin Gongheguo Xing Fa [PRC Criminal Law], passed July 1, 1979, 
revised March 14, 1997, amended and effective November 4, 2017, art. 
48.
    \186\ Amnesty International, Amnesty International Global Report: 
Death Sentences and Executions 2018, ACT 50/9870/2019, April 2019, 21.
    \187\ Christian Shepherd, ``Chinese Judges Make Rare Defense of 
Death Penalty amid Western Criticism,'' Reuters, December 21, 2018; Cao 
Yin, ``Hard Line Taken on Acts against Children,'' China Daily, 
November 29, 2018; All-China Women's Federation, ``Quanguo Renda 
daibiao Zhang Baoyan: guaimai funu ertong fanzui ying `lingrongren' '' 
[NPC deputy Zhang Baoyan: The crime of trafficking women and children 
should receive ``zero tolerance''], March 4, 2019.
    \188\ Amnesty International, Amnesty International Global Report: 
Death Sentences and Executions 2018, ACT 50/9870/2019, April 2019, 21. 
See also Dui Hua Foundation, ``How Transparency in Death Penalty Cases 
Can Reduce Wrongful Convictions,'' Dui Hua Human Rights Journal, August 
22, 2017.
    \189\ Martin Banks, ``Governments Use Death Penalty to Crackdown on 
Religious Minorities,'' New Europe, March 1, 2019. See also Amnesty 
International, ``China's Deadly Secrets,'' ASA 17/5849/2017, April 
2017, 7; Chinese Human Rights Defenders, ``Criminal Arrests in Xinjiang 
Account for 21% of China's Total in 2017,'' July 25, 2018.
    \190\ ``Xinjiang Authorities Sentence Uyghur Philanthropist to 
Death for Unsanctioned Hajj,'' Radio Free Asia, November 21, 2018. For 
more information on Abdughappar Abdurusul, see the Commission's 
Political Prisoner Database record 2018-00645.
    \191\ J.R. Chapman, P. Stock, and M. Haberal, ``Organs from 
Executed People Are Not a Source of Scientific Discovery,'' editorial, 
Transplantation 103, no. 8 (August 2019): 1534; ``Retraction: Salvage 
Liver Transplantation for Recurrent Hepatocellular Carcinoma after 
Liver Resection: Retrospective Study of the Milan and Hangzhou 
Criteria,'' PLOS ONE 14, no. 7 (July 23, 2019); ``Retraction: De Novo 
Cancers Following Liver Transplantation: A Single Center Experience in 
China,'' PLOS ONE 14, no. 7 (July 23, 2019); ``Retraction: A Scoring 
Model Based on Neutrophil to Lymphocyte Ratio Predicts Recurrence of 
HBV-Associated Hepatocellular Carcinoma after Liver Transplantation,'' 
PLOS ONE 14, no. 7 (July 23, 2019); ``Retraction: Downgrading MELD 
Improves the Outcomes after Liver Transplantation in Patients with 
Acute-on-chronic Hepatitis B Liver Failure,'' PLOS ONE 14, no. 7 (July 
25, 2019); ``Retraction: Genetic Polymorphism of Interferon Regulatory 
Factor 5 (IRF5) Correlates with Allograft Acute Rejection of Liver 
Transplantation,'' PLOS ONE 14, no. 7 (July 31, 2019); ``Retraction: 
Symptom Experienced Three Years after Liver Transplantation under 
Immunosuppression in Adults,'' PLOS ONE 14, no. 8 (August 1, 2019). See 
also Ivan Oransky, ``Journals Retract More Than a Dozen Studies from 
China That May Have Used Executed Prisoners' Organs,'' Retraction Watch 
(blog), August 14, 2019.
    \192\ Ivan Oransky, ``Journals Retract More Than a Dozen Studies 
from China That May Have Used Executed Prisoners' Organs,'' Retraction 
Watch (blog), August 14, 2019; Melissa Davey, ``Call for Retraction of 
400 Scientific Papers amid Fears Organs Came from Chinese Prisoners,'' 
Guardian, February 5, 2019; Wendy Rogers et al., ``Compliance with 
Ethical Standards in the Reporting of Donor Sources and Ethics Review 
in Peer-Reviewed Publications Involving Organ Transplantation in China: 
A Scoping Review,'' BMJ Open 9, no. 2 (February 2019).


                                                    Freedom of 
                                                       Religion
                                                Freedom of 
                                                Religion

                          Freedom of Religion


                                Findings

        <bullet> Observers have described religious persecution 
        in China over the last year to be of an intensity not 
        seen since the Cultural Revolution. The Chinese 
        government under President and Communist Party General 
        Secretary Xi Jinping has doubled down on the 
        ``sinicization'' of religion--a campaign that aims to 
        bring religion in China under closer official control 
        and in line with officially sanctioned interpretations 
        of Chinese culture. Authorities have expanded the 
        ``sinicization'' campaign to target not only religions 
        perceived as ``foreign,'' such as Islam and 
        Christianity, but also Chinese Buddhism, Taoism, and 
        folk religious beliefs.
        <bullet> Party disciplinary regulations were revised to 
        impose harsher punishments on Party members for 
        manifestations of religious belief.
        <bullet> In sharp contrast to their past treatment of 
        Buddhist and Taoist communities, local officials 
        directly targeted local Buddhist and Taoist sites of 
        worship throughout China. Local officials in the 
        provinces of Liaoning, Shanxi, Hubei, and Hebei ordered 
        the destruction of Buddhist statues. In past decades, 
        government and Party officials had rarely targeted 
        Chinese Buddhist and Taoist communities with direct 
        suppression--both were considered to be relatively 
        compliant with Party and government leadership and 
        compatible with the official promotion of traditional 
        Chinese culture.
        <bullet> In September 2018, the Chinese Ministry of 
        Foreign Affairs signed an agreement with the Holy See, 
        paving the way for the unification of state-sanctioned 
        and underground Catholic communities. Subsequently, 
        local Chinese authorities subjected Catholic believers 
        in China to increased persecution by demolishing 
        churches, removing crosses, and continuing to detain 
        underground clergy. The Party-led Catholic national 
        religious organizations also published a plan to 
        ``sinicize'' Catholicism in China.
        <bullet> As in previous years, authorities continued to 
        detain Falun Gong practitioners and subject them to 
        harsh treatment, with at least 931 practitioners 
        sentenced for criminal ``cult'' offenses in 2018. Human 
        rights organizations and Falun Gong practitioners 
        documented coercive and violent practices against 
        practitioners in custody, including physical violence, 
        forced drug administration, sleep deprivation, and 
        other forms of torture.
        <bullet> Violations of the religious freedom of Hui 
        Muslim believers continued to intensify, with plans to 
        apply ``anti-terrorism'' measures currently used in the 
        Xinjiang Uyghur Autonomous Region (XUAR) in the Ningxia 
        Hui Autonomous Region (Ningxia)--a region with a high 
        concentration of Hui Muslim believers. A five-year plan 
        to ``sinicize'' Islam in China was passed in January 
        2019. Meanwhile, ongoing policies included measures 
        requiring Islamic religious leaders and lay believers 
        to demonstrate their political reliability.
        <bullet> Religious communities outside of the five 
        religions that are the main objects of official 
        regulation continued to exist in China, but the 
        religious practices of communities that previously 
        received tacit recognition and support were subject to 
        repression over the last year.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Call on the Chinese government to guarantee to all 
        citizens freedom of religion in accordance with its 
        international human rights obligations. Stress to 
        Chinese authorities that freedom of religion includes 
        the right to freely adopt beliefs and practice 
        religious activities without government interference.
          Stress to the Chinese government that the right to 
        freedom of religion includes, but is not limited to: 
        the right of Buddhists and Taoists to carry out 
        activities in temples and to select monastic teachers 
        independent of state control; the right of Catholics to 
        be led by clergy who are selected and who conduct their 
        ministry according to the standard called for by 
        Catholic religious beliefs; the right of Falun Gong 
        practitioners to freely practice Falun Gong inside 
        China; the right of Muslims to freely preach, undertake 
        overseas pilgrimage, select and train religious 
        leaders, and wear clothing with religious significance; 
        the right of Protestants to exercise their faith free 
        from state controls over doctrine and worship, and free 
        from harassment, detention, and other abuses for public 
        and private manifestations of their faith, including 
        the display of crosses; and the right of members of 
        other religious communities to be free from state 
        control and harassment.
          Call for the release of Chinese citizens confined, 
        detained, or imprisoned for peacefully pursuing their 
        religious beliefs, as well as people confined, 
        detained, or imprisoned in connection to their 
        association with those people. The Administration 
        should use existing laws to hold accountable Chinese 
        government officials and others complicit in severe 
        religious freedom restrictions, including by using the 
        sanctions available in the Global Magnitsky Human 
        Rights Accountability Act (Public Law No. 114-328) and 
        the International Religious Freedom Act of 1998 (Public 
        Law No. 105-292). Ensure that conditions related to 
        religious freedom are taken into account when 
        negotiating any trade agreement as mandated by the 
        Bipartisan Congressional Trade Priorities and 
        Accountability Act of 2015 (Public Law No. 114-26).
          Call on the Chinese government to fully implement 
        accepted recommendations from its October 2013 session 
        of the UN Human Rights Council's Universal Periodic 
        Review, including taking necessary measures to ensure 
        that rights to freedom of religion, religious culture, 
        and expression are fully observed and protected; 
        cooperating with the UN human rights system, 
        specifically UN special procedures and mandate holders; 
        facilitating visits to China for UN High Commissioners; 
        taking steps to ensure that lawyers working to advance 
        religious rights can practice their profession freely, 
        and promptly investigating allegations of violence and 
        intimidation impeding their work; and considering 
        possible revisions to legislation and administrative 
        rules to provide better protection of freedom of 
        religion.
          Call on the Chinese government to abolish Article 300 
        of the PRC Criminal Law, which criminalizes 
        ``organizing and using a cult to undermine 
        implementation of the law,'' and Article 27 of the PRC 
        Public Security Administration Punishment Law, which 
        provides for detention or fines for organizing or 
        inciting others to engage in ``cult'' activities and 
        for using ``cults'' or the ``guise of religion'' to 
        disturb social order or to harm others' health.
          Encourage U.S. political leaders to visit religious 
        sites in China to raise awareness of and promote 
        freedom of religion.


                                                    Freedom of 
                                                       Religion
                                                Freedom of 
                                                Religion

                          Freedom of Religion


           International and Chinese Law on Religious Freedom

    Both Chinese and international law provide guarantees of 
religious freedom. Despite these guarantees, the Commission 
continued to observe widespread and systematic violation of the 
principles of religious freedom, as Chinese authorities 
exercised broad discretion over religious practice.
    Under international law, freedom of religion or belief 
encompasses both the right to form, hold, and change 
convictions, beliefs, and religion--which cannot be 
restricted--and the right to outwardly manifest those beliefs--
which can be limited for certain, specific justifications.\1\ 
These principles are codified in various international 
instruments, including the Universal Declaration of Human 
Rights and the International Covenant on Civil and Political 
Rights (ICCPR).\2\ China has signed \3\ and stated its intent 
to ratify \4\ the ICCPR, which obligates China to refrain in 
good faith from acts that would defeat the treaty's purpose.\5\
    Article 36 of China's Constitution guarantees citizens 
``freedom of religious belief'' and protection for ``normal 
religious activities.'' \6\ With essential terms such as 
``normal'' undefined, it is unclear whether China's 
Constitution protects the same range of belief and outward 
manifestation that is recognized under international law.\7\ 
Nevertheless, China's Constitution and other legal provisions 
\8\ join the ICCPR in prohibiting discrimination based on 
religion \9\ and loosely parallel the ICCPR's prohibition on 
coercion \10\ by forbidding state agencies, social 
organizations, and individuals from compelling citizens to 
believe or not believe in any religion.\11\
    China's Constitution prohibits ``making use of religion to 
engage in activities that disrupt social order, impair the 
health of citizens, or interfere with the educational system of 
the State.'' \12\ The ICCPR does allow State Parties to 
restrict outward manifestations of religion or belief, but such 
restrictions must be ``prescribed by law and . . . necessary to 
protect public safety, order, health, or morals or the 
fundamental rights and freedoms of others.'' \13\

        Policies and Regulations Pertaining to Religious Freedom

        <bullet> Top Chinese officials continued to emphasize 
        the importance of the national-level campaign to 
        ``sinicize'' religion. Members of the Standing 
        Committee of the Communist Party Central Committee 
        Political Bureau (Politburo)--China's top policymaking 
        body--continued to highlight the need to ``sinicize'' 
        religion in China at national-level political 
        gatherings.\14\ Politburo Standing Committee member 
        Wang Yang promoted the campaign among lower level 
        officials through local visits \15\ and in meetings 
        with state-affiliated religious organizations.\16\ 
        Party General Secretary Xi Jinping announced ``the need 
        to uphold the sinicization of religion in order to 
        actively guide religions to adapt to socialist 
        society'' in 2015,\17\ and the subsequent 
        ``sinicization'' campaign aims to bring religion in 
        China under closer official control and in line with 
        officially sanctioned interpretations of Chinese 
        culture.\18\ In the years following, officials have 
        escalated the repression of religious practice, which 
        one scholar of Chinese politics has characterized as 
        being the worst since the Cultural Revolution.\19\
        <bullet> The ``sinicization'' campaign characterizes 
        control over religious groups as connected to national 
        security and foreign affairs. The repression of 
        religion is happening alongside a general crackdown on 
        popular culture \20\ as the Party responds to the 
        increased complexity of society and the growth of new 
        groups in the period of economic reform and 
        opening.\21\ Religious believers are among the social 
        groups of which Chinese officials are the most 
        wary.\22\ This is in part because the fast growth and 
        the level of organization within certain religious 
        communities represents the potential for competing with 
        the Party and government monopoly on collective 
        organization.\23\ Party and government officials accuse 
        some of these religious communities of being used by 
        foreign forces to ``infiltrate'' Chinese society,\24\ 
        targeting Christian, Muslim, and Tibetan Buddhist 
        groups in particular as retaining undue foreign 
        influence.\25\ Official pronouncements also identified 
        ``extremism'' as a particular problem that officials 
        should address within Islam.\26\ Meanwhile, Party and 
        government policy promoted the Chinese Buddhist 
        community to project an image of China as a country 
        supporting Buddhism while fostering connections with 
        majority-Buddhist countries.\27\
        <bullet> Administration of religious affairs and 
        implementation of the revised Regulations on Religious 
        Affairs. Local government bureaus continued to be 
        responsible for managing religious affairs.\28\ These 
        religious affairs agencies have effective authority 
        over the state-sanctioned ``patriotic'' religious 
        associations that act as liaisons between the 
        government and practitioners of the five ``main'' 
        religions in China,\29\ while the Party's United Front 
        Work Department vets the association leaders.\30\ 
        Public security bureaus are generally responsible for 
        enforcement of laws against religious activity that 
        authorities deem illegal.\31\ Following President and 
        Party General Secretary Xi Jinping's exhortations to 
        focus on religious work,\32\ the regulatory framework 
        for religion imposed increased restrictions on 
        religious freedom through revisions to the Regulations 
        on Religious Affairs that took effect on February 1, 
        2018.\33\ The revisions include prohibitions on groups, 
        schools, and venues engaging in or hosting religious 
        activities unless they have been officially designated 
        as religious (Article 41) and on clergy acting as 
        religious professionals without official certification 
        (Article 36).\34\ The revisions also established legal 
        responsibilities and penalties for violations of the 
        regulations, including fining those who ``provide the 
        conditions'' for unauthorized religious activities 
        (Article 71).\35\
        <bullet> Other laws and Party policies also continued 
        to restrict citizens' freedom to hold religious beliefs 
        and practice religion. Article 300 of the PRC Criminal 
        Law criminalizes ``organizing and using a cult to 
        undermine implementation of the law,'' \36\ and the PRC 
        National Security Law prohibits ``the use of religion 
        to conduct illegal criminal activities that threaten 
        state security.'' \37\ The latter also contains 
        mandates to ``maintain the order of normal religious 
        activities,'' ``oppose the interference of foreign 
        influence into domestic religious affairs,'' and 
        ``suppress cult organizations.'' \38\
        <bullet> Revised Party disciplinary regulations impose 
        harsher punishments on Party members for manifestations 
        of religious belief. New disciplinary measures for 
        Party members that increased the penalty for 
        involvement in religious activities in violation of 
        Party policies from a warning for a ``minor offense'' 
        to dismissal took effect on October 1, 2018.\39\ One 
        international law expert has noted that because Party 
        membership to a large degree determines the extent to 
        which citizens may participate in public life, the ban 
        on religious belief for Party members constitutes 
        discrimination against religious believers and a 
        violation of freedom of religious belief.\40\

                   Buddhism (Non-Tibetan) and Taoism

    In sharp contrast to the past treatment of Buddhist and 
Taoist communities, the Commission observed numerous reports of 
local officials ordering the destruction of Buddhist statues 
throughout China, including in the provinces of Liaoning, 
Shanxi, Hubei, and Hebei.\41\ Officials in Dalian municipality, 
Liaoning province, ordered Buddhist iconography taken down and 
replaced with the Chinese national flag.\42\ In September 2018, 
the Party secretary of Hebei province threatened county-level 
officials with dismissal if a large bronze Guanyin bodhisattva 
statue in their jurisdiction was not demolished.\43\ In 
November 2017 the State Administration for Religious Affairs 
and 11 other central Party and government departments issued a 
joint opinion targeted at combating commercialization in 
Buddhism and Taoism that prohibited the construction of large 
outdoor statues so as to avoid negative effects on ``the 
healthy development of [the two religions'] dissemination.'' 
\44\ One human rights expert has noted that when a state 
distinguishes between proper and improper conduct in order to 
uphold religious standards or to enhance the legitimacy of 
particular religions over others, it violates the state 
neutrality necessary to maintain the free exercise of religious 
freedom.\45\
    A large number of Chinese citizens engage in Buddhist and 
Taoist practices, with estimates of around 244 million 
Buddhists as of 2010,\46\ and 173 million citizens engaging in 
some Taoist practices as of 2007.\47\ [For information on 
Tibetan Buddhism, see Section V--Tibet.] Both communities have 
been subjected to extensive regulation and control by 
officials: government authorities connected with local 
religious affairs bureaus are involved with the administration 
of officially sanctioned temples; all candidates for the clergy 
must obtain the approval of the local patriotic association and 
religious affairs bureau for ordination; \48\ and Buddhist 
ordinations themselves are restricted by the state-run 
patriotic associations.\49\
    In past decades, government and Party officials rarely 
targeted Chinese Buddhist and Taoist communities with direct 
suppression--both were considered to be relatively compliant 
with Party and government leadership and compatible with the 
official promotion of traditional Chinese culture.\50\ At the 
outset of the implementation of ``sinicization'' policies in 
Buddhist and Taoist contexts, Chinese officials had sought to 
bolster the idea of these two religions as indigenous religions 
embodying Chinese culture and values so that they might serve 
as a bulwark against ``infiltration'' of other values via 
religions perceived as foreign.\51\ Officials also sought to 
leverage the Buddhist and Taoist communities to foster closer 
diplomatic ties with other countries with significant Buddhist 
or Taoist communities--an aim that has persisted within this 
reporting year to include overtures toward majority-Buddhist 
countries.\52\

                       Christianity--Catholicism

    The number of Catholics in China is estimated to be around 
10.5 million,\53\ and they have historically been divided 
between ``official'' congregations led by state-sanctioned 
bishops and ``underground'' congregations whose bishops are not 
recognized by the Chinese government.\54\ Official statistics 
reported in 2018 that 6 million Catholics were part of 
officially sanctioned congregations \55\ with bishops selected 
by Party-led religious organizations and ordained by other 
official bishops--a process described by the Chinese government 
as ``self-selection and self-ordination.'' \56\ Underground 
Catholic believers have historically avoided the ministry of 
official bishops because of the belief that legitimate 
ecclesiastical authority can be conferred only by the Pope's 
mandate,\57\ and also an objection to official bishops' 
affiliation with the Party-led body for Catholic leadership in 
China, the Catholic Patriotic Association (CPA).\58\ 
Underground clergy are frequently subjected to detention and 
other government pressure to compel them to join the CPA.\59\
    The Holy See and the Chinese government announced a 
provisional agreement on the appointment of bishops on 
September 22, 2018.\60\ A representative for the Holy See 
stated that its aim was for Chinese Catholic believers to have 
bishops recognized by both the Holy See and Chinese 
authorities,\61\ while observers noted that the Chinese 
government was likely seeking to increase its control over the 
underground community.\62\ Although the terms of the agreement 
were not made public, a source familiar with the negotiations 
stated that the agreement gave the Chinese government the 
authority to nominate bishops, which the Pope would retain the 
right to veto.\63\ The Holy See also recognized seven formerly 
excommunicated official bishops as part of the deal,\64\ having 
already asked two underground bishops to give up their 
positions to make way for two of these state-sanctioned 
bishops; \65\ the Chinese government made no commitments toward 
recognizing the more than 30 underground bishops.\66\
    Observers and Catholic believers expressed concern that the 
agreement did not provide sufficient support for the Chinese 
Catholic community,\67\ with one scholar pointing out that the 
authorities' persecution of both underground and official 
Catholic communities has actually intensified over the last 
year under the ``sinicization'' campaign.\68\ In spring 2019, 
authorities detained three underground priests of Xuanhua 
diocese in Hebei province.\69\

                      Christianity--Protestantism

    During the 2019 reporting year, Chinese officials further 
\70\ escalated the repression of Protestant Christian belief. 
While official repression has historically focused on 
unregistered church communities (commonly referred to as 
``house churches''), believers worshiping at state-sanctioned 
churches have also become targets of state restrictions under 
President Xi Jinping.\71\ The number of Chinese Protestants is 
estimated to number around 60 to 80 million.\72\ Instances of 
official persecution recorded by U.S.-based organization 
advocating for religious freedom, ChinaAid Association 
(ChinaAid), increased from 1,265 in 2017 to more than 10,000 in 
2018.\73\
    Much of the increased repression targeted house church 
communities. Several major house churches with hundreds to 
thousands of members were forcibly closed: Zion Church and 
Shouwang Church, among the largest unregistered churches in 
Beijing municipality, were banned in September 2018 and March 
2019, respectively; \74\ Rongguili Church, an important church 
in southern China, Guangzhou municipality, Guangdong province, 
was forced to suspend activities in December 2018; \75\ and 
Early Rain Covenant Church (Early Rain) in Chengdu 
municipality, Sichuan province, was declared an ``illegal 
social organization'' in December 2018.\76\ Beginning December 
9, authorities also detained more than 100 Early Rain church 
members for several days, including Early Rain pastor Wang 
Qi,\77\ who, along with three other church members, remained in 
criminal detention as of August 2019.\78\
    Local authorities also banned or shut down activities at 
numerous other house churches across China,\79\ with a campaign 
in Henan province reportedly aiming to close more than two-
thirds of all churches within the province.\80\ Local 
authorities in different areas also pressured unregistered 
churches to disband with repeated raids and harassment,\81\ 
heavy administrative penalties,\82\ termination of electricity 
and water supplies,\83\ and compelling landlords to evict 
churches from meeting spaces.\84\ Authorities also subjected 
individual members of house church communities to detention: 
ChinaAid recorded more than 5,000 detentions in 2018, more than 
1,000 of which were of church leaders.\85\ Members were also 
subject to other rights abuses--for example, various people 
connected to Early Rain, including lawyers defending the 
detained, reported ongoing detentions \86\ and 
disappearances,\87\ denying detainees access to lawyers,\88\ 
and various forms of harassment, including physical assault, 
eviction, cutting off utilities, death threats, and 
surveillance.\89\ Authorities also tried to compel at least one 
member to sign a statement renouncing the church.\90\
    Officials in different localities violated believers' 
freedom of religion by eliminating their options to join 
unregistered churches, shutting down state-sanctioned churches, 
and increasing control over remaining churches. In some cases, 
unregistered house churches were pressured into joining the 
state-sponsored Three-Self Patriotic Movement (TSPM)--a 
national religious organization responsible for maintaining 
political relations between the Protestant community and Party 
and government leadership.\91\ In some areas, officials refused 
to let churches register and demanded instead that individual 
believers join already-established TSPM churches.\92\ In Henan, 
even TSPM churches were ordered closed by officials, with most 
of the 10,000 churches shut down in Henan in 2018 being state-
sponsored.\93\ For many of the remaining TSPM churches in Henan 
and in other areas such as Beijing municipality, government 
officials implemented measures subjecting congregations to 
increased control, for example, by requiring the installation 
of surveillance equipment inside church buildings.\94\
    In many areas, local authorities required both TSPM and 
house churches to demonstrate political loyalty to the Chinese 
Communist Party and Chinese government, for example, by 
requiring changes to church services to include singing the 
national anthem and speeches by government officials, as well 
as demanding that churches hang national flags, portraits of 
President Xi, and posters listing ``socialist core values,'' 
while also ordering the removal of Christian symbols such as 
crosses and signs with Christian messages.\95\ In parts of 
Henan province, the prohibition on Christian symbols was 
extended to the homes of believers.\96\

                               Falun Gong

    As in previous years, authorities continued to detain Falun 
Gong practitioners and subject them to harsh treatment.\97\ Due 
to government suppression, it is difficult to determine the 
number of Falun Gong practitioners in China.\98\ Chinese 
authorities commonly prosecute Falun Gong practitioners under 
Article 300 of the PRC Criminal Law; \99\ the Falun Gong-
affiliated website Clear Wisdom reported that at least 931 
practitioners were sentenced under Article 300 in 2018, with 
the greatest number sentenced in the northern provinces of 
Liaoning, Shandong, Hebei, and Heilongjiang.\100\ In November 
2018, two lawyers had their licenses to practice temporarily 
suspended by the Ministry of Justice in Changsha municipality, 
Hunan province, for arguments made in defense of Falun Gong 
practitioners against Article 300 charges.\101\ International 
human rights non-governmental organization Dui Hua Foundation 
characterized the penalties as part of an incipient pattern of 
official punishment of attorneys representing politically 
sensitive clients that will likely discourage other criminal 
defense lawyers from pursuing ``perfectly legal and effective 
defense strategies.'' \102\ Clear Wisdom, an organization that 
reports on the Falun Gong community, documented coercive and 
violent practices against practitioners during custody, 
including physical violence,\103\ forced drug 
administration,\104\ sleep deprivation,\105\ and other forms of 
torture.\106\ In February 2019, Clear Wisdom reported 69 
confirmed deaths of Falun Gong practitioners in 2018 due to 
abuse by officials.\107\

                                 Islam

    Violations of the religious freedom of the 10.5 million 
\108\ Hui Muslim believers continued to intensify, with 
observers raising alarm at an announcement in November 2018 
that authorities in the Ningxia Hui Autonomous Region (Ningxia) 
had signed an ``anti-terrorism'' cooperation agreement with 
counterparts in the Xinjiang Uyghur Autonomous Region 
(XUAR).\109\ The agreement would apply ``anti-terrorism'' 
measures currently used in the XUAR to Ningxia--a region with a 
high concentration of Hui Muslim believers.\110\ Ningxia 
authorities announced in March 2019 that they would launch 
``thorough inspections'' of religious venues and carried out 
``innovative'' religious management measures, such as raising 
national flags in mosques and organizing religious leaders to 
study the Chinese Constitution, socialist core values, and 
traditional classical Chinese culture.\111\ Local officials in 
Weishan Yi and Hui Autonomous County, Dali Bai Autonomous 
Prefecture, Yunnan province, reportedly accused Hui Muslim 
believers of engaging in ``illegal religious activities'' and 
forcibly evicted the local Muslim community from three mosques 
in December 2018 before a planned demolition.\112\ [For more 
information on Uyghur Muslim believers, see Section IV--
Xinjiang; for more information on Muslim believers of other 
ethnic minority backgrounds, see Section II--Ethnic Minority 
Rights.]
    A five-year plan to ``sinicize'' Islam in China was passed 
in January 2019.\113\ Meanwhile, ongoing policies included 
measures requiring Islamic religious leaders and lay believers 
to demonstrate their ``political reliability''--for example, to 
be officially certified, imams and other religious personnel 
must be educated at one of 10 state-sanctioned Islamic schools 
or otherwise obtain equivalent education,\114\ and be vetted by 
the local religious affairs bureau and the China Islamic 
Association.\115\ After certification, religious leaders are 
required to continue attending political training 
sessions.\116\ All Chinese Muslims seeking to carry out the 
Hajj pilgrimage must fulfill requirements for ``political 
reliability,'' including taking ``patriotic education'' 
classes, obtaining the approval of their local religious 
affairs bureau, and participating only through tours arranged 
by the China Islamic Assocation.\117\

                      Other Religious Communities

    Religious communities outside of the five religions that 
are the main objects of official regulation \118\ continued to 
exist in China, but the religious practice of communities that 
previously received tacit recognition and support were subject 
to repression over the last year. For example, although folk 
religion was acknowledged in a 2018 white paper issued by the 
State Council Information Office,\119\ authorities in Jiangsu 
province launched a wide-scale campaign from February through 
March 2019 to demolish over 5,900 temples of tudigong, a god 
from traditional Chinese folk religion.\120\ Authorities also 
destroyed religious iconography and filled in the mikveh (a 
bath used for religious ceremonies) in a synagogue in Kaifeng 
municipality, Henan province, and subjected the Jewish 
community of less than 1,000 to other increased restrictions, 
including the cancelation of plans for foreign support for the 
local Jewish community.\121\


                                                    Freedom of 
                                                       Religion
                                                Freedom of 
                                                Religion
    Notes to Section II--Freedom of Religion

    \1\ Paul M. Taylor, Freedom of Religion: UN and European Human 
Rights Law and Practice (New York: Cambridge University Press, 2005), 
19, 24, 203-04.
    \2\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of December 10, 1948, art. 
18; International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of December 16, 
1966, entry into force March 23, 1976, art. 18. Article 18 of the ICCPR 
upholds a person's right to ``have or adopt a religion or belief'' and 
the freedom to manifest that religion or belief ``in worship, 
observance, practice and teaching.'' Article 18 also prohibits coercion 
that impairs an individual's freedom to freely hold or adopt a religion 
or belief. See also Declaration on the Elimination of All Forms of 
Intolerance and of Discrimination Based on Religion or Belief, 
proclaimed by UN General Assembly resolution 36/55 of November 25, 
1981.
    \3\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of December 16, 
1966, entry into force March 23, 1976; United Nations Treaty 
Collection, Chapter IV, Human Rights, International Covenant on Civil 
and Political Rights, accessed June 29, 2019. China has signed but not 
ratified the ICCPR.
    \4\ State Council Information Office, ``Guojia Renquan Xingdong 
Jihua (2016-2020 nian)'' [National Human Rights Action Plan of China 
(2016-2020)], September 29, 2016, sec. 5. The Chinese government stated 
its intent to ratify the ICCPR in its 2016-2020 National Human Rights 
Action Plan.
    \5\ United Nations Conference on the Law of Treaties, Vienna 
Convention on the Law of Treaties, adopted May 23, 1969, entry into 
force January 27, 1980, arts. 18, 26.
    \6\ PRC Constitution, passed and effective December 4, 1982 
(amended March 11, 2018), art. 36.
    \7\ PRC Constitution, passed and effective December 4, 1982 
(amended March 11, 2018), art. 36; Liu Peng, ``Crisis of Faith,'' China 
Security 4, no. 4 (August 2008): 30.
    \8\ PRC Constitution, passed and effective December 4, 1982 
(amended March 11, 2018), art. 36; State Council, Zongjiao Shiwu Tiaoli 
[Regulations on Religious Affairs], issued November 30, 2004, amended 
June 14, 2017, effective February 1, 2018, art. 2; Zhonghua Renmin 
Gongheguo Laodong Fa [PRC Labor Law], passed July 5, 1994, effective 
January 1, 1994, amended December 29, 2018, art. 12.
    \9\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of December 16, 1966, 
entry into force March 23, 1976, art. 26.
    \10\ Ibid., art. 18(2).
    \11\ PRC Constitution, passed and effective December 4, 1982 
(amended March 11, 2018), art. 36; State Council, Zongjiao Shiwu Tiaoli 
[Regulations on Religious Affairs], issued November 30, 2004, amended 
June 14, 2017, effective February 1, 2018, art. 2.
    \12\ PRC Constitution, passed and effective December 4, 1982 
(amended March 11, 2018), art. 36.
    \13\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of December 16, 1966, 
entry into force March 23, 1976, art. 18; UN Human Rights Committee, 
General Comment No. 22: Article 18 (Freedom of Thought, Conscience or 
Religion), CCPR/C/21/Rev.1/Add.4, July 30, 1993, para. 8.
    \14\ State Council, ``Li Keqiang zuo de zhengfu gongzuo baogao'' 
[Government work report delivered by Li Keqiang], March 5, 2019; John 
Dotson, ``Propaganda Themes at the CPPCC Stress the `Sinicization' of 
Religion,'' China Brief, Jamestown Foundation, April 9, 2019, 1-4.
    \15\ ``Wang Yang: quanmian tigao zongjiao gongzuo shuiping, qieshi 
weihu zongjiao lingyu hexie wending'' [Wang Yang: raise level of 
religious work across the board, earnestly safeguard harmony and 
stability in the religious sphere], Xinhua, April 17, 2019; ``Wang 
Yang: quanmian guanche Dang de zongjiao gongzuo fangzhen jianchi woguo 
zongjiao zhongguohua fangxiang'' [Wang Yang: thoroughly implement the 
Party's religious work policy, adhere firmly to sinicization of 
religion in China], Xinhua, February 6, 2018; ``Wang Yang: shenru zashi 
zuohao minzu zongjiao he tuopin gongjian gongzuo'' [Wang Yang: 
thoroughly and practically accomplish ethnic and religious work, and 
poverty alleviation], Xinhua, October 17, 2018.
    \16\ ``Wang Yang: quanmian guanche Dang de zongjiao gongzuo 
fangzhen jianchi woguo zongjiao zhongguohua fangxiang'' [Wang Yang: 
thoroughly implement the Party's religious work policy, adhere firmly 
to sinicization of religion in China], Xinhua, February 6, 2018.
    \17\ ``Jiang woguo zongjiao zhongguohua chixu tuixiang shenru--
Quanguo Zhengxie `Xin Shidai Jianchi Woguo Zongjiao Zhongguohua 
Fangxiang De Shijian Lujing' Jie Bie Zhuti Xieshang Zuotan Hui 
zongshu'' [Continue to deepen the sinicization of religion in China--a 
summary of the National Symposium on the Theme of the CPPCC's ``New Era 
of Adhering to the Practical Path of Our Nation's Religious 
Sinicization''], People's Political and Legal News, reprinted in 
National Committee of the Chinese People's Political Consultative 
Conference, January 7, 2019.
    \18\ John Dotson, ``Propaganda Themes at the CPPCC Stress the 
`Sinicization' of Religion,'' China Brief, Jamestown Foundation, April 
9, 2019, 4.
    \19\ Willy Wo-Lap Lam, ``Vatican Agreement Latest Front in Xi's 
Widening Religious Clampdown,'' China Brief, Jamestown Foundation, 
October 10, 2018, 4-5.
    \20\ John Dotson, `` `Dramas Must Feature Goodness': The CCP 
Launches Renewed Efforts to Control Themes in Popular Culture,'' China 
Brief, Jamestown Foundation, March 5, 2019, 1-5.
    \21\ Gerry Groot, ``The Rise and Rise of the United Front Work 
Department under Xi,'' China Brief, Jamestown Foundation, April 24, 
2018, 14.
    \22\ Ian Johnson, ``How the Top-Heavy Catholic Church Is Losing the 
Ground Game in China,'' America, September 18, 2017; Eleanor Albert, 
Council on Foreign Relations, ``Religion in China,'' October 11, 2018.
    \23\ See, e.g., Cyrille Pluyette, ``En Chine, le Pouvoir Renforce 
son Controle sur les Religions,'' Le Figaro, updated December 12, 2017, 
translated in Marc Alves, ``In China's Crackdown on Religions, Buddhism 
Gets a Pass,'' Worldcrunch, February 5, 2018; Andre Laliberte, 
``Buddhist Revival under State Watch,'' Journal of Current Chinese 
Affairs (2011): 111-12.
    \24\ Theory Study Center Group of the Party Organization for the 
State Administration for Religious Affairs, ``Dang de Shiba Da yilai 
zongjiao gongzuo lilun he shijian chuangxin'' [Innovations in religious 
work theory and practice since the 18th Party Congress], Seeking Truth, 
September 15, 2017; State Administration for Religious Affairs, 
``Guojia Zongjiao Shiwu Ju 2018 nian gongzuo yaodian'' [State 
Administration for Religious Affairs 2018 work objectives], February 
14, 2018.
    \25\ John Dotson, ``Propaganda Themes at the CPPCC Stress the 
`Sinicization' of Religion,'' China Brief, Jamestown Foundation, April 
9, 2019, 4.
    \26\ State Administration for Religious Affairs, ``Guojia Zongjiao 
Shiwu Ju 2018 nian gongzuo yaodian'' [State Administration for 
Religious Affairs 2018 work objectives], February 14, 2018; ``Yang 
Faming weiyuan: jianchi woguo Yisilan jiao zhongguohua fangxiang'' 
[CPPCC member Yang Faming: maintain China's sinicization of Islam], 
Xinhua, March 10, 2018.
    \27\ Sudha Ramachandran, ``Rivalries and Relics: Examining China's 
Buddhist Public Diplomacy,'' China Brief, Jamestown Foundation, March 
5, 2019; Angad Singh, ``China Is Using `Buddhist Diplomacy' in Its 
Quest to Dominate Global Trade,'' Vice News, March 21, 2019.
    \28\ China Human Rights Lawyers Concern Group, ``Report on 
Religious Freedom in Mainland China (2016),'' 2016, 38-39.
    \29\ Vincent Goossaert and David A. Palmer, The Religious Question 
in Modern China (Chicago: University of Chicago Press, 2011), 153-54, 
330. The ``patriotic'' religious associations are state-controlled 
institutions that represent the five ``main'' religions of China: the 
Buddhist Association of China, the China Islamic Association, the China 
Taoist Association, the Chinese Catholic Patriotic Association, the 
National Conference of Bishops (an organization led by Catholic 
clergy), the Three-Self (for ``self-governing, self-financing, and 
self-expanding'') Patriotic Movement and the Chinese Christian Council 
(the latter two organizations have overlapping membership and represent 
Protestants). According to Goossaert and Palmer, although ``nominally 
independent,'' the ``patriotic'' religious associations are effectively 
under the authority of the State Council's agency for religious 
affairs.
    \30\ Ibid., 154.
    \31\ Jessica Batke, ``PRC Religious Policy: Serving the Gods of the 
CCP,'' China Leadership Monitor, Hoover Institution, Stanford 
University, 52 (Winter 2017), February 14, 2017, 3; Vincent Goossaert 
and David A. Palmer, The Religious Question in Modern China (Chicago: 
University of Chicago Press, 2011), 330.
    \32\ CECC, 2016 Annual Report, October 6, 2016, 122.
    \33\ ``Li Keqiang qianshu Guowuyuan ling gongbu xiuding hou de 
`Zongjiao Shiwu Tiaoli' '' [Li Keqiang signs State Council order 
issuing revised ``Regulations on Religious Affairs], Xinhua, September 
7, 2017.
    \34\ State Council, Zongjiao Shiwu Tiaoli [Regulation on Religious 
Affairs], issued November 30, 2004, amended June 14, 2017, effective 
February 1, 2018, arts. 36, 41.
    \35\ Ibid., art. 71.
    \36\ Zhonghua Renmin Gongheguo Xing Fa [PRC Criminal Law ], passed 
July 1, 1979, revised March 14, 1997, effective October 1, 1997, 
amended November 4, 2017, art. 300.
    \37\ Zhonghua Renmin Gongheguo Guojia Anquan Fa [PRC National 
Security Law], passed and effective July 1, 2015, art. 27.
    \38\ Ibid.
    \39\ ``Chinese Communist Party Targets Members with Religious 
Beliefs,'' Union of Catholic Asian News, September 13, 2018; Zhongguo 
Gongchandang Jilu Chufen Tiaoli [Chinese Communist Party Regulations on 
Disciplinary Action], effective October 1, 2018, arts. 61-64.
    \40\ Carolyn M. Evans, ``Chinese Law and the International 
Protection of Religious Freedom,'' University of Melbourne Faculty of 
Law Public Law and Legal Theory Research Paper No. 36 (2002), 20.
    \41\ Wang Anyang, ``Buddhist Statues Disappearing throughout 
China,'' Bitter Winter, February 20, 2019; Shen Xinran, ``CCP 
`Exterminating Buddha' by Destroying Large Statues,'' Bitter Winter, 
March 17, 2019; Shen Xinran, ``World's Largest Cliff-Carved Guanyin 
Statue Demolished,'' Bitter Winter, March 1, 2019. See also Yang 
Xiangwen, ``Factories of Buddhist Statues Demolished in Hebei,'' Bitter 
Winter, April 2, 2019.
    \42\ Wang Anyang, ``Buddhist Statues Disappearing throughout 
China,'' Bitter Winter, February 20, 2019.
    \43\ Shen Xinran, ``CCP `Exterminating Buddha' by Destroying Large 
Statues,'' Bitter Winter, March 17, 2019.
    \44\ State Administration for Religious Affairs, et al., ``Guojia 
Zongjiao Shiwu Ju deng 12 bumen lianhe fa wen zhili Fojiao Daojiao 
shangyehua wenti'' [State Administration for Religious Affairs among 12 
departments to jointly issue document to manage problem of 
commercialization of Buddhism and Taoism], November 23, 2017.
    \45\ Paul M. Taylor, Freedom of Religion: UN and European Human 
Rights Law and Practice (New York: Cambridge University Press, 2005), 
69.
    \46\ Pew Research Center, ``Pew-Templeton Global Religious Futures 
Project--China,'' accessed June 10, 2019. See also Zhe Ji, ``Chinese 
Buddhism as a Social Force: Reality and Potential of Thirty Years of 
Revival,'' Chinese Sociological Review 45, no. 2 (Winter 2012-2013): 
10-12. Quantitative assessments for the total number of Buddhists are 
difficult to determine because Buddhist religious identity does not 
need to be formalized within a particular institution and may overlap 
with other religious practices.
    \47\ Katharina Wenzel-Teuber, ``2015 Statistical Update on 
Religions and Churches in the People's Republic of China,'' China 
Heute, no. 1 (2016), translated in Religions & Christianity in Today's 
China 6, no. 2 (2016): 25.
    \48\ State Administration for Religious Affairs, Quanguo Hanchuan 
Fojiao Siyuan Guanli Banfa [National Measures for Regulating Chinese 
Buddhist Temples and Monasteries], issued October 21, 1993, arts. 1, 3; 
Sarah Cook, Freedom House, ``The Battle for China's Spirit: Religious 
Revival, Repression, and Resistance under Xi Jinping,'' February 2017, 
32-33. See also Vincent Goossaert and David A. Palmer, The Religious 
Question in Modern China (Chicago: University of Chicago Press, 2011), 
332-33.
    \49\ State Administration for Religious Affairs, Quanguo Hanchuan 
Fojiao Siyuan Chuanshou San Tan Da Jie Guanli Banfa [National Measures 
for Administering the Initiation Regarding the Three Pure Precepts in 
Chinese Buddhist Temples], issued September 22, 2011, amended September 
20, 2016.
    \50\ Cyrille Pluyette, ``En Chine, le Pouvoir Renforce son Controle 
sur les Religions,'' Le Figaro, updated December 12, 2017, translated 
in Marc Alves, ``In China's Crackdown on Religions, Buddhism Gets a 
Pass,'' Worldcrunch, February 5, 2018; Eleanor Albert, Council on 
Foreign Relations, ``Religion in China,'' October 11, 2018.
    \51\ ``China's Holy Sites List on the Stockmarket,'' Economist, 
April 26, 2018; ``Party vs Profit in Tug of War over Chinese 
Buddhism,'' China Digital Times, April 27, 2018.
    \52\ Sudha Ramachandran, ``Rivalries and Relics: Examining China's 
Buddhist Public Diplomacy,'' China Brief, Jamestown Foundation, March 
5, 2019.
    \53\ Ian Johnson, ``How the Top-Heavy Catholic Church Is Losing the 
Ground Game in China,'' America, September 18, 2017; Anthony Lam Sui-
ky, ``The Decline of China's Catholic Population and Its Impact on the 
Church,'' AsiaNews, August 23, 2016.
    \54\ Jason Horowitz and Ian Johnson, ``China and Vatican Reach Deal 
on Appointment of Bishops,'' New York Times, September 22, 2018.
    \55\ State Council Information Office, ``China's Policies and 
Practices on Protecting Freedom of Religious Belief,'' April 3, 2018.
    \56\ State Administration for Religious Affairs, ``Guojia Zongjiao 
Shiwu Ju 2018 nian gongzuo yaodian'' [State Administration for 
Religious Affairs 2018 work objectives], February 14, 2018; Li Zhao, 
``Zhongguo jiang jinian `duli' jiaohui de `zixuan zisheng' zhujiao 
liushi zhounian'' [China commemorates ``self-selection, self-
ordination'' of bishops for 60 years in the ``independent'' church], 
AsiaNews, February 10, 2018; China Catholic Patriotic Association and 
Bishops' Conference of the Catholic Church, Zhujiao Tuan Guanyu Xuan 
Sheng Zhujiao De Guiding, [Provisions for Selecting and Ordaining 
Bishops], issued and effective April 8, 2013.
    \57\ Rachel Xiaohong Zhu, ``The Division of the Roman Catholic 
Church in Mainland China: History and Challenges,'' Religions 8, no. 3 
(March 2017): 1, 3, 6-7.
    \58\ Eva Dou, ``For China's Catholics, State-Controlled Church Is 
`Like a Tree with No Roots,' '' Wall Street Journal, February 14, 2018; 
Rachel Xiaohong Zhu, ``The Division of the Roman Catholic Church in 
Mainland China: History and Challenges,'' Religions 8, no. 3 (March 
2017): 7; Ilaria Maria Sala and Isabella Steger, ``Some Catholics Are 
Deeply Disturbed That the Vatican Is Cozying Up to China's Repressive 
Regime,'' Quartz, August 25, 2016.
    \59\ CECC, 2018 Annual Report, October 10, 2018, 125-26; Eva Dou, 
``For China's Catholics, State Controlled Church Is `Like a Tree with 
No Roots,' '' Wall Street Journal, February 14, 2018; ``Msgr. Peter 
Shao Zhumin of Wenzhou Freed after 7 Months,'' AsiaNews, April 1, 2018.
    \60\ ``Communique Concerning the Signing of a Provisional Agreement 
between the Holy See and the People's Republic of China on the 
Appointment of Bishops,'' Vatican News, September 22, 2018; Ministry of 
Foreign Affairs, ``Zhongguo tong Fandigang jiu youguan wenti qianshu 
linshixing xieyi'' [China and the Vatican sign provisional agreement 
regarding related questions], September 22, 2018.
    \61\ ``Greg Burke: Holy See/China Agreement Has Pastoral 
Objective,'' Vatican News, September 22, 2018.
    \62\ Paul P. Mariani, ``The Extremely High Stakes of the China-
Vatican Deal,'' America, December 7, 2018; Ian Johnson, ``With Vatican 
Talks and Bulldozers, China Aims to Control Christianity,'' New York 
Times, September 24, 2018.
    \63\ Jason Horowitz and Ian Johnson, ``China and Vatican Reach Deal 
on Appointment of Bishops,'' New York Times, September 22, 2018.
    \64\ Paul P. Mariani, ``The Extremely High Stakes of the China-
Vatican Deal,'' America, December 7, 2018.
    \65\ Jason Horowitz and Ian Johnson, ``China and Vatican Reach Deal 
on Appointment of Bishops,'' New York Times, September 22, 2018.
    \66\ Ibid.
    \67\ Joseph Zen Ze-Kiun, ``The Pope Doesn't Understand China,'' New 
York Times, October 24, 2018; Ian Johnson, ``With Vatican Talks and 
Bulldozers, China Aims to Control Christianity,'' New York Times, 
September 24, 2018; Willy Wo-Lap Lam, ``Vatican Agreement Latest Front 
in Xi's Widening Religious Clampdown,'' China Brief, Jamestown 
Foundation, October 10, 2018.
    \68\ Willy Wo-Lap Lam, ``Vatican Agreement Latest Front in Xi's 
Widening Religious Clampdown,'' China Brief, Jamestown Foundation, 
October 10, 2018.
    \69\ Mimi Lau, ``Vatican Officials on Goodwill Mission to China to 
Build on Bishops Deal with Beijing after Detention of Underground 
Catholic Priest,'' South China Morning Post, April 17, 2019.
    \70\ ChinaAid Association, ``2018 Annual Report: Chinese Government 
Persecution of Churches and Christians in Mainland China,'' February 
28, 2019, 57-59.
    \71\ Eleanor Albert, Council on Foreign Relations, ``Christianity 
in China,''October 11, 2018.
    \72\ Sarah Cook, Freedom House, ``The Battle for China's Spirit: 
Religious Revival, Repression, and Resistance under Xi Jinping,'' 
February 2017, 9.
    \73\ ChinaAid Association, ``2018 Annual Report: Chinese Government 
Persecution of Churches and Christians in Mainland China,'' February 
28, 2019, 58.
    \74\ Christian Shepherd, ``China Outlaws Large Underground 
Protestant Church in Beijing,'' Reuters, September 9, 2018; Javier C. 
Hernandez, ``As China Cracks Down on Churches, Christians Declare `We 
Will Not Forfeit Our Faith,' '' New York Times, December 25, 2018; 
``Beijing shi zhengfu zhengshi qudi Shouwang Jiaohui'' [Beijing 
government formally bans Shouwang Church], Radio Free Asia, March 26, 
2019.
    \75\ Mimi Lau, ``China Shuts Leading Underground Christian Church, 
Third This Winter,'' South China Morning Post, December 16, 2018.
    \76\ ChinaAid Association, ``2018 Annual Report: Chinese Government 
Persecution of Churches and Christians in Mainland China,'' February 
28, 2019, 36.
    \77\ ``Group Says Dozens Detained in Raid on Chinese Church,'' 
Associated Press, December 10, 2018; ChinaAid Association, ``Updated: 
100 Church Attendees in Custody,'' December 10, 2018; Human Rights 
Watch, ``China: Repression of Christian Church Intensifies,'' December 
13, 2018.
    \78\ Rights Defense Network, `` `12-9' Chengdu Qiuyu Shengyue Jiao 
an Li Yingqiang qubao huoshi, bei xingju de 28 ren zhong reng you 3 ren 
zao jiya (2019 nian 8 yue 8 ri)'' [8/18/2019: Li Yingqiang of 
``December 9'' Chengdu Early Rain Covenant Church case released; 3 of 
28 people criminally detained still in detention], August 18, 2019.
    \79\ ``Zhongguo duodi quanmian gudi jiating jiaohui'' [Complete 
bans on house churches in multiple locations across China], Radio Free 
Asia, October 29, 2018; ChinaAid Association, ``2018 Annual Report: 
Chinese Government Persecution of Churches and Christians in Mainland 
China,'' February 28, 2019, 34-37.
    \80\ ``Crackdown on Christian Churches Intensifies in China,'' 
Voice of America, September 7, 2018.
    \81\ ChinaAid Association, ``Chinese Officials Continue Sunday 
Raids on Local Churches, Early Rain Covenant Church Congregants Still 
Not Free despite Bail,'' June 28, 2019; ChinaAid Association, ``2018 
Annual Report: Chinese Government Persecution of Churches and 
Christians in Mainland China,'' February 28, 2019, 45.
    \82\ ChinaAid Association, ``2018 Annual Report: Chinese Government 
Persecution of Churches and Christians in Mainland China,'' February 
28, 2019, 46.
    \83\ Ibid., 45.
    \84\ Ibid., 45.
    \85\ Ibid., 58.
    \86\ ChinaAid Association, ``More Than 30 Early Rain Covenant 
Church Members Taken into Custody,'' January 11, 2019; ChinaAid 
Association, ``Updated: Spouses of Arrested House Church Members Taken 
into Custody,'' February 15, 2019.
    \87\ ChinaAid Association, ``Early Rain Covenant Church Members 
Vanish,'' March 19, 2019.
    \88\ ChinaAid Association, ``Government Denies Imprisoned Members 
of Sichuan Church Meetings with Lawyers,'' February 5, 2019; ChinaAid 
Association, ``Imprisoned Pastor Denied Communication with Lawyer,'' 
February 23, 2019; ChinaAid Association, ``Early Rain Covenant Church 
Pastor and Deacon Continue to Face Significant Legal Challenges,'' 
August 26, 2019; Rights Defense Network, ``Chengdu Qiuyu Jiao an zhi 
Wang Yi Mushi an jinzhan tongbao'' [Bulletin of developments in the 
case of Pastor Wang Yi of Chengdu's Early Rain Church], August 1, 2019.
    \89\ ChinaAid Association, ``Officials Continue Abuse of Early Rain 
Covenant Church Members,'' January 4, 2019; ChinaAid Association, `` `I 
Will Kill You Sooner or Later,' Official Threatens Family of Imprisoned 
Christians,'' February 20, 2019; ChinaAid Association, ``Wife, Children 
of Imprisoned Church Elder Evicted,'' February 22, 2019; ChinaAid 
Association, ``Officer Beats Elderly Mother of Imprisoned Pastor,'' 
February 24, 2019; ChinaAid Association, ``Authorities Beat Christian 
Couple,'' March 4, 2019; ChinaAid Association, ``Chengdu Authorities 
Force Christians from Homes,'' March 7, 2019; ChinaAid Association, 
``Non-Christian Seized by Police for Helping Early Rain Covenant Church 
Members,'' April 11, 2019; ChinaAid Association, ``Authorities Continue 
Crackdown on Early Rain Covenant Church,'' April 18, 2019; Rights 
Defense Network, ``Qiuyu Shengyue Jiaohui jianbao (2019.5.30)'' 
[Briefing on the Early Rain Covenant Church (5/30/2019)], May 30, 2019; 
ChinaAid Association, ``Authorities Continue to Harass Early Rain 
Covenant Church,'' June 16, 2019; Michelle Yun, ``Christian Family 
Details Crackdown on Church in China,'' Associated Press, July 8, 2019.
    \90\ ``Early Rain Church Members Attend First Service after China 
Crackdown,'' Associated Press, July 8, 2019.
    \91\ ChinaAid Association, ``2018 Annual Report: Chinese Government 
Persecution of Churches and Christians in Mainland China,'' February 
28, 2019, 27; Vincent Goossaert and David A. Palmer, The Religious 
Question in Modern China, (Chicago: University of Chicago Press, 2011), 
330.
    \92\ ChinaAid Association, ``2018 Annual Report: Chinese Government 
Persecution of Churches and Christians in Mainland China,'' February 
28, 2019, 36.
    \93\ Nina Shea and Bob Fu, ``Inside China's War on Christians,'' 
Wall Street Journal, May 30, 2018.
    \94\ ChinaAid Association, ``2018 Annual Report: Chinese Government 
Persecution of Churches and Christians in Mainland China,'' February 
28, 2019, 25.
    \95\ Ibid., 20, 26, 40, 80.
    \96\ Ibid., 26.
    \97\ For information on suppression of Falun Gong practitioners 
from previous years, see, e.g., CECC, 2016 Annual Report, October 6, 
2016, 125-27; CECC, 2015 Annual Report, October 8, 2015, 123-25. See 
also ``Communist Party Calls for Increased Efforts to `Transform' Falun 
Gong Practitioners as Part of Three-Year Campaign,'' Congressional-
Executive Commission on China, March 22, 2011.
    \98\ Sarah Cook, Freedom House, ``The Battle for China's Spirit: 
Religious Revival, Repression, and Resistance under Xi Jinping,'' 
February 2017, 113.
    \99\ Dui Hua Foundation, ``NGO Submission for the Universal 
Periodic Review of the People's Republic of China,'' March 2018, para. 
14.
    \100\ ``931 Falun Gong Practitioners Sentenced for Their Faith in 
2018,'' Clear Wisdom, January 13, 2019.
    \101\ Dui Hua Foundation, ``Administrative Penalties against 
Lawyers: Another Strike against Professional Autonomy and Religious 
Freedom,'' Dui Hua Human Rights Journal, January 10, 2019.
    \102\ Ibid.
    \103\ ``Liaoning Man Immobilized on a Wood Board in Spread-Eagle 
Position for Weeks before and after His Two-Year Prison Sentence,'' 
Clear Wisdom, July 23, 2019.
    \104\ ``After Being Drugged in Detention, Woman in Her Late 70s 
Still Suffering from Lingering Effects Six Months after Release,'' 
Clear Wisdom, May 8, 2019.
    \105\ ``Falun Gong Practitioners Deprived of Sleep for Weeks in 
Hebei Provincial Women's Prison,'' Clear Wisdom, April 11, 2019.
    \106\ ``Liaoning Man Immobilized on a Wood Board in Spread-Eagle 
Position for Weeks before and after His Two-Year Prison Sentence,'' 
Clear Wisdom, July 23, 2019.
    \107\ ``69 Falun Gong Practitioners Confirmed to Have Died in 2018 
as a Result of Arrests and Torture,'' Clear Wisdom, February 14, 2019.
    \108\ Alice Y. Su, ``The Separation Between Mosque and State,'' 
ChinaFile, Asia Society, October 21, 2016; Sarah Cook, Freedom House, 
``The Battle for China's Spirit: Religious Revival, Repression, and 
Resistance under Xi Jinping,'' February 2017, 68-69. See also Ian 
Johnson, ``Shariah with Chinese Characteristics: A Scholar Looks at the 
Muslim Hui,'' New York Times, September 6, 2016. Experts on Chinese 
religion have noted that most statistics on Muslim believers in China 
make broad assumptions about religious identity based on ethnicity--for 
example, presuming that all people of Hui ethnicity are Muslim 
believers, and that no people of Han, Tibetan, or other ethnicities are 
Muslim.
    \109\ ``China's Ningxia to `Learn From' Xinjiang's Anti-Terror 
Campaign,'' Radio Free Asia, December 3, 2018; Sophia Yan, ``Fears 
China's Internment Camps Could Spread as Area Home to Muslim Minority 
Signs `Anti-Terror' Deal,'' Telegraph, November 29, 2018.
    \110\ ``China's Ningxia to `Learn From' Xinjiang's Anti-Terror 
Campaign,'' Radio Free Asia, December 3, 2018; Sophia Yan, ``Fears 
China's Internment Camps Could Spread as Area Home to Muslim Minority 
Signs `Anti-Terror' Deal,'' Telegraph, November 29, 2018.
    \111\ Cao Siqi, ``Ningxia Sets Up Democratic System to Select Imams 
for Mosques,'' Global Times, March 6, 2019.
    \112\ ``Dozens Detained as Muslims Resist Mosque Closures in 
China's Yunnan,'' Radio Free Asia, December 31, 2018.
    \113\ ``Beijing Outlines 5-Year Plan to Make Islam `Chinese in 
character,' '' ummid.com News Network, January 6, 2019; ``China 
Explores Effective Governance of Religion in Secular World,'' Global 
Times, January 6, 2019.
    \114\ State Council Information Office, ``China's Policies and 
Practices on Protecting Freedom of Religious Belief,'' April 4, 2018.
    \115\ China Islamic Association, Yisilan Jiao Jiaozhi Renyuan Zige 
Rending Banfa [Measures for Confirming the Credentials of Islamic 
Professional Religious Personnel], issued and effective August 7, 2006, 
art. 3; Sarah Cook, Freedom House, ``The Battle for China's Spirit: 
Religious Revival, Repression, and Resistance under Xi Jinping,'' 
February 2017, 76.
    \116\ Sarah Cook, Freedom House, ``The Battle for China's Spirit: 
Religious Revival, Repression, and Resistance under Xi Jinping,'' 
February 2017, 76.
    \117\ Li Ruohan, ``Chinese Muslims Say They Feel a Stronger Sense 
of National Identity During Pilgrimage to Mecca,'' Global Times, August 
2, 2018.
    \118\ State Council Information Office, ``China's Policies and 
Practices on Protecting Freedom of Religious Belief,'' April 4, 2018. 
The central government has referred to the five religions as China's 
``major religions,'' stating that the religions citizens ``mainly'' 
follow are Buddhism, Taoism, Islam, Catholicism, and Protestantism. 
See, e.g., Henan Province People's Congress Standing Committee, Henan 
Sheng Zongjiao Shiwu Tiaoli [Henan Province Regulations on Religious 
Affairs], issued July 30, 2005, effective January 1, 2006, art. 2; 
Shaanxi Province People's Congress Standing Committee, Shaanxi Sheng 
Zongjiao Shiwu Tiaoli [Shaanxi Province Regulations on Religious 
Affairs], issued September 23, 2000, amended July 30, 2008, effective 
October 1, 2008, art. 2. Some local regulations on religious affairs 
define ``religion'' to mean only these five religions.
    \119\ State Council Information Office, ``China's Policies and 
Practices on Protecting Freedom of Religious Belief,'' April 4, 2018.
    \120\ ChinaAid Association, ``Jiangsu Authorities Demolish 5,911 
Temples,'' April 23, 2019.
    \121\ ``Kaifeng Jews Persecuted along with Other Religions,'' 
AsiaNews, February 16, 2019.


                                                Ethnic Minority 
                                                         Rights
                                                Ethnic Minority 
                                                Rights

                         Ethnic Minority Rights


                                Findings

        <bullet> During the Commission's 2019 reporting year, 
        the Chinese Communist Party's United Front Work 
        Department continued to promote ethnic affairs work at 
        all levels of Party and state governance that 
        emphasized the importance of ``sinicizing'' ethnic and 
        religious minorities. Officials emphasized the need to 
        ``sinicize'' the country's religions, including Islam. 
        Official ``sinicization'' efforts contributed to the 
        increasing marginalization of ethnic minorities and 
        their cultures and languages.
        <bullet> Reports indicate that official efforts to 
        repress Islamic practices in the Xinjiang Uyghur 
        Autonomous Region (XUAR) have spread beyond the XUAR to 
        Hui communities living in other locations. Developments 
        suggest officials may be starting to carry out 
        religious repression in areas outside of the XUAR that 
        are modeled on restrictions already implemented within 
        the XUAR. In November 2018, official media reported 
        that Zhang Yunsheng, Communist Party official of the 
        Ningxia Hui Autonomous Region, had signed a 
        counterterrorism agreement with XUAR officials during a 
        trip to the XUAR to learn about its efforts to fight 
        terrorism, maintain ``social stability,'' and manage 
        religious affairs.
        <bullet> During the reporting year, authorities carried 
        out the physical destruction and alteration of Hui 
        Muslim spaces and structures, continuing a recent trend 
        away from relative toleration of Hui Muslim faith 
        communities. Officials demolished a mosque in a Hui 
        community in Gansu province, raided and closed several 
        mosques in Hui areas in Yunnan province, closed an 
        Arabic-language school serving Hui students in Gansu, 
        and carried out changes such as removing Arabic signage 
        in Hui areas. These changes narrowed the space for Hui 
        Muslim believers to assert an ethnic and religious 
        identity distinct from that of the dominant Han Chinese 
        population.
        <bullet> Mongol herders in the Inner Mongolia 
        Autonomous Region (IMAR) protested and petitioned the 
        government over the loss of traditional grazing lands. 
        As in past reporting years, authorities detained some 
        of the Mongol herders who peacefully protested.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Urge Chinese authorities to adopt a comprehensive 
        anti-discrimination law that includes a definition of 
        racial discrimination in full conformity with the 
        International Convention on the Elimination of All 
        Forms of Racial Discrimination (ICERD); to amend 
        Chinese domestic laws to expressly define and 
        criminalize all forms of racial discrimination in full 
        conformity with Article 1 of ICERD; and to expressly 
        prohibit both direct and indirect racial discrimination 
        in all fields of public life, including law enforcement 
        and other government powers.
          Urge Chinese authorities to establish independent 
        national human rights institutions in accordance with 
        the Principles relating to the Status of National 
        Institutions for the Promotion and Protection of Human 
        Rights (the Paris Principles).
          Urge Chinese authorities to formulate and establish 
        comprehensive statistics, surveys, and administrative 
        records on acts of racial discrimination and related 
        administrative and civil complaints, investigations, 
        procedures, and sanctions.
          Urge Chinese authorities to allow Hui and other 
        predominantly Muslim ethnic minority populations to 
        freely engage in Islamic religious rituals, as a matter 
        of their right to religious freedom, and in accordance 
        with the Universal Declaration of Human Rights and the 
        International Covenant on Civil and Political Rights, 
        as well as China's Constitution, which prohibits 
        discrimination based on religion.
          Call on the Chinese government to allow Mongol 
        herders to exercise their fundamental rights of freedom 
        of expression, association, and peaceful assembly, as 
        well as the right to be free from arbitrary detention. 
        Convey to Chinese officials the importance of 
        consulting with ethnic minority communities regarding 
        the impact of proposed development on their traditional 
        grazing lands.
          Raise the cases of Mongol political prisoners, 
        including detained Mongol historian Lhamjab Borjigin 
        and detained Mongol writers O. Sechenbaatar and 
        Tsogjil, in public forums and meetings with Chinese 
        officials, and call for their immediate release from 
        detention.


                                                Ethnic Minority 
                                                         Rights
                                                Ethnic Minority 
                                                Rights

                         Ethnic Minority Rights


                              Introduction

    During the Commission's 2019 reporting year, Chinese 
Communist Party and government authorities promoted policies 
and regulations restricting rights guaranteed to ethnic 
minority groups under Chinese and international law. The PRC 
Regional Ethnic Autonomy Law contains protections for the 
languages, religious beliefs, and customs of these 
``nationalities,'' in addition to a system of regional autonomy 
in designated areas.\1\ Article 27 of the International 
Covenant on Civil and Political Rights, which China has signed 
and declared its intention to ratify, contains safeguards for 
the rights of ``ethnic, religious or linguistic minorities'' 
within a state.\2\ In practice, however, Chinese authorities 
reportedly implemented policies that marginalized the cultures 
and languages of ethnic minority populations.\3\ International 
human rights organizations submitted reports in advance of the 
November 2018 session of the UN Human Rights Council's 
Universal Periodic Review that criticized China's controls on 
ethnic minorities' religious freedom and cultural identity.\4\ 
[For additional information on ethnic minority rights, see 
Section IV--Xinjiang and Section V--Tibet.]

         Party and State ``Sinicization'' of Ethnic Minorities

    During this reporting year, the Chinese Communist Party's 
United Front Work Department (UFWD) continued to promote ethnic 
affairs work at all levels of Party and state governance that 
emphasized the importance of ``sinicizing'' ethnic and 
religious minorities.\5\ The UFWD promoted an approach to 
ethnic affairs that stressed ethnic unity; \6\ the ``five 
identifications'' (wu ge rentong) (referring to identification 
with the Chinese nation, the Chinese people, Chinese culture, 
the Chinese Communist Party, and ``socialism with Chinese 
characteristics''); \7\ the primacy of Mandarin Chinese; \8\ a 
resistance to foreign culture; \9\ and the use of both material 
assistance and propaganda efforts to manage ``ethnic 
problems.'' \10\ At the March 2019 meetings of the Chinese 
People's Political Consultative Conference in Beijing 
municipality, officials emphasized the need to ``uphold the 
Party's leadership over religious work [and] persist in 
advancing the sinicization of our country's religions.'' \11\ 
During the March 2019 National People's Congress (NPC), Premier 
Li Keqiang delivered the annual government work report, telling 
NPC delegates that they must ``uphold the sinicization of 
religion in China.'' \12\

               Policies Affecting Hui Islamic Communities

    Officials implemented policies and restrictions in Hui 
communities in ways that represented intensified efforts to 
promote the ``sinicization'' of ethnic and religious 
minorities. In the past, Chinese officials have allowed Hui 
Muslims to practice religion more freely than Uyghur or other 
Turkic Muslims, but in recent years have placed more limits on 
Hui Muslim traditions.\13\ International observers have 
reported that official efforts to repress Islamic practices in 
the Xinjiang Uyghur Autonomous Region (XUAR) appear to have 
spread beyond the XUAR to Hui communities living in other 
locations.\14\ In November 2018, official media reported that 
Zhang Yunsheng, Communist Party official of the Ningxia Hui 
Autonomous Region, had signed a counterterrorism agreement with 
XUAR officials during a trip to the XUAR to learn about its 
efforts to fight terrorism, maintain ``social stability,'' and 
manage religious affairs.\15\ A researcher for the NGO Human 
Rights Watch expressed concern the agreement signaled that 
officials would carry out religious repression in areas outside 
of the XUAR modeled on restrictions already implemented within 
the XUAR.\16\
    During this reporting year, authorities carried out the 
physical destruction and alteration of Hui Muslim spaces and 
structures. Officials demolished a mosque in a Hui community in 
Gansu province,\17\ raided and closed several mosques in Hui 
areas in Yunnan province,\18\ and closed an Arabic-language 
school serving Hui students in Gansu.\19\ Officials in 
provinces with significant Hui populations promoted ``anti-
halal'' and ``sinicization'' efforts during the year, requiring 
the removal of Arabic signage on buildings and crescent domes 
on mosques, and also discontinued halal food standards, in 
order to stop the spread of Islamic influences officials deemed 
``foreign.'' \20\ In July, Reuters reported that officials in 
Beijing municipality had ordered some local restaurants and 
stores to remove words and symbols with Islamic significance 
from their signage, including the word ``halal'' written in 
Arabic.\21\ [For more information on freedom of religion for 
Muslims in China, see Section II--Freedom of Religion.]

                  Grassland Protests in Inner Mongolia

    During this reporting year, authorities detained Mongol 
herders who protested or petitioned the government over the 
loss of traditional grazing lands. As in past reporting 
years,\22\ authorities detained some of the Mongol herders who 
peacefully protested.\23\
    Representative examples of protests and petitioning by 
Mongol herders included the following:

        2<bullet> In April 2019, authorities administratively 
        detained three Mongol herders who had traveled to 
        Hohhot municipality, Inner Mongolia Autonomous Region 
        (IMAR), to petition authorities over access to grazing 
        lands.\24\ Authorities escorted herders Haaserdun, 
        Tegshibayla, and Oobuuren back to their hometown in 
        Zaruud Banner, Tongliao municipality, IMAR, and ordered 
        them to serve eight days' administrative detention for 
        ``picking quarrels and provoking trouble.'' \25\
        <bullet> On April 22, 2019, more than 100 Mongol 
        herders in Urad (Wulate) Middle Banner, Bayannur 
        (Bayannao'er) municipality, IMAR, protested in front of 
        local government offices to demand a meeting with IMAR 
        chairwoman Bu Xiaolin, who was visiting the area.\26\ 
        Authorities detained around a dozen herders, including 
        Bai Xiurong and Altanbagan, each of whom security 
        personnel ordered to serve 14 days' administrative 
        detention for unknown charges.\27\ On the evening of 
        April 22 and the early morning of April 23, some of the 
        herders protested in front of a local government 
        building to call for the release of Bai, Altanbagan, 
        and other herders still detained.\28\

                      Detention of Mongol Writers

    Authorities in the IMAR tried a Mongol historian on charges 
related to a book he wrote and detained two Mongol writers who 
had advocated on behalf of herders' rights:

        <bullet> Lhamjab Borjigin. On April 4, 2019, the 
        Xilingol (Xilinguole) League Intermediate People's 
        Court in Xilinhot city, Xilingol League, tried 75-year-
        old Mongol historian Lhamjab Borjigin on the charges of 
        ``ethnic separatism,'' ``sabotaging national unity,'' 
        and ``illegal publication and illegal distribution.'' 
        \29\ A Xilinhot official previously linked the first 
        two charges to a book Borjigin self-published in 2006 
        about Mongols' experiences during the Cultural 
        Revolution.\30\
        <bullet> O. Sechenbaatar. On April 12, 2019, security 
        personnel in Heshigten (Keshenketeng) Banner, Chifeng 
        municipality, detained 68-year-old Mongol writer O. 
        Sechenbaatar on suspicion of ``obstructing official 
        business,'' after he participated in a nearby protest 
        involving more than 200 herders over government plans 
        to restrict local herders' access to traditional 
        grazing lands.\31\ Sechenbaatar has authored numerous 
        books and other materials on Mongolian culture, and he 
        has hosted group discussions about Mongol herders' 
        concerns on the messaging service WeChat.\32\ On April 
        16, 2019, more than 100 herders protested in front of a 
        government building in Heshigten to call for O. 
        Sechenbaatar's release from detention.\33\
        <bullet> Tsogjil. On April 16, 2019, security personnel 
        in Hohhot took into custody 40-year-old Mongol writer 
        Tsogjil, and authorities subsequently took him back to 
        his hometown in Heshigten Banner, and detained him on 
        April 17 on the charge of ``picking quarrels and 
        provoking trouble.'' \34\ According to a U.S.-based 
        Mongol rights organization, prior to his detention, 
        Tsogjil had advocated for Mongols' language and 
        cultural rights, as well as their access to natural 
        resources, including by hosting WeChat discussion 
        groups.\35\ Tsogjil had traveled to Hohhot to submit a 
        complaint to regional government officials regarding 
        Mongol herders' rights.\36\


                                                Ethnic Minority 
                                                         Rights
                                                Ethnic Minority 
                                                Rights
    Notes to Section II--Ethnic Minority Rights

    \1\ Zhonghua Renmin Gongheguo Minzu Quyu Zizhi Fa, [PRC Regional 
Ethnic Autonomy Law], passed May 31, 1984, effective October 1, 1984, 
amended February 28, 2001. For protections related to languages, 
religious beliefs, and customs, see Articles 10, 11, 21, 36, 37, 47, 
49, and 53.
    \2\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of December 16, 1966, 
entry into force March 23, 1976, art. 27.
    \3\ See, e.g., Rustem Shir, ``China's Effort to Silence the Sound 
of Uyghur,'' The Diplomat, May 16, 2019; Sang Jieja, ``Why Is China So 
Terrified of Tibetan Language Classes?,'' La Croix International, March 
4, 2019; Southern Mongolian Human Rights Information Center, ``SMHRIC 
Statement at UN Forum on Minority Issues 11th Session and Chinese 
Delegate's Response,'' November 29, 2018.
    \4\ See, e.g., Amnesty International, ``China: Human Rights 
Violations in the Name of `National Security': Amnesty International 
Submission for the UN Universal Periodic Review, 31st Session of the 
UPR Working Group, November 2018,'' March 1, 2018, 7, 11-12; Society 
for Threatened Peoples, ``Third Cycle, Thirty-First Session of the UPR, 
UPR Submission on China,'' accessed June 11, 2019, 2-3; Human Rights 
Watch, ``Submission to the Universal Periodic Review of China,'' March 
29, 2018.
    \5\ Gerry Groot, ``The Rise and Rise of the United Front Work 
Department under Xi,'' China Brief, Jamestown Foundation 18, no. 7, 
April 24, 2018; ``Zhonggong zhongyang yinfa `shenhua Dang he guojia 
jigou gaige fang'an' '' [CCP Central Committee issues ``plan for 
deepening reform of Party and state government agencies' reform 
agenda''], Xinhua, March 21, 2018; CECC, 2018 Annual Report, October 
10, 2018, 137. At the March 2018 meetings of the National People's 
Congress and the Chinese People's Political Consultative Conference in 
Beijing municipality (Two Sessions), the UFWD assumed control of the 
government departments overseeing ethnic affairs (the State Ethnic 
Affairs Commission) and religion (the State Administration for 
Religious Affairs).
    \6\ Shen Guiping, ``Jiang qingchu Zhonghua wenhua, zhulao Zhonghua 
minzu gongtong ti yishi--`Shehui Zhuyi Xueyuan Gongzuo Tiaoli' xuexi 
tihui'' [Clearly explain Chinese culture, forge a unified Chinese 
consciousness - ``Socialism Institute Work Regulations'' learning 
experience], China Ethnicity News, February 1, 2019.
    \7\ Tao Wenzhao, ``Zai gongtong fanrong fazhan zhong zhulao 
Zhonghua minzu gongtong ti yishi'' [Forging Chinese collective 
consciousness while collectively prospering in development], Guangming 
Daily, January 5, 2018.
    \8\ Hao Shiyuan, ``Zhulao Zhonghua minzu gongtong ti yishi bixu 
tuiguang guojia tongyong yuyan wenzi'' [To forge Chinese collective 
consciousness the national common language and characters must be 
promoted], People's Daily, October 31, 2018; Shen Guiping, ``Jiang 
qingchu Zhonghua wenhua, zhulao Zhonghua minzu gongtong ti yishi--
`Shehui Zhuyi Xueyuan Gongzuo Tiaoli' xuexi tihui'' [Clearly explain 
Chinese culture, forge a unified Chinese consciousness - ``Socialism 
Institute Work Regulations'' learning experience], China Ethnicity 
News, February 1, 2019.
    \9\ Shen Guiping, ``Jiang qingchu Zhonghua wenhua, zhulao Zhonghua 
minzu gongtong ti yishi--`Shehui Zhuyi Xueyuan Gongzuo Tiaoli' xuexi 
tihui'' [Clearly explain Chinese culture, forge a unified Chinese 
consciousness - ``Socialism Institute Work Regulations'' learning 
experience], China Ethnicity News, February 1, 2019.
    \10\ State Ethnic Affairs Commission, ``Guojia minwei zhaokai 
quanguo minzu xuanchuan gongzuo huiyi Guo Weiping chuxi bing jianghua'' 
[SEAC holds national ethnic propaganda work meeting, Guo Weiping 
attends and delivers a speech], March 27, 2019.
    \11\ ``You Quan: Jianchi Dang dui zongjiao gongzuo de lingdao, 
chixu tuijin woguo zongjiao Zhongguohua'' [You Quan: uphold the Party's 
leadership over religious work, persist in advancing the Sinicization 
of our country's religions] Xinhua, March 20, 2019. See also John 
Dotson, ``Propaganda Themes at the CPPCC Stress the `Sinicization' of 
Religion,'' China Brief, Jamestown Foundation, April 9, 2019, 2.
    \12\ State Council, ``Zhengfu gongzuo baogao'' [Government work 
report], reprinted in Xinhua, March 16, 2019; Nectar Gan, ``Beijing 
Plans to Continue Tightening Grip on Christianity and Islam as China 
Pushes Ahead with the `Sinicisation of Religion,' '' South China 
Morning Post, March 6, 2019.
    \13\ See, e.g., Mimi Lau, ``Chinese Arabic School to Close as Areas 
with Muslim Populations Are Urged to Study the Xinjiang Way,'' South 
China Morning Post, December 9, 2018; Sam McNeil, ``Hui Poet Fears for 
His People as China `Sinicizes' Religion,'' Associated Press, December 
28, 2018.
    \14\ Ian Johnson, ``How the State Is Co-Opting Religion in China,'' 
Foreign Affairs, January 7, 2019; Chun Han Wong, ``China Applies 
Xinjiang's Policing Lessons to Other Muslim Areas,'' Wall Street 
Journal, December 23, 2018; Nectar Gan, ``Chinese Hui Mosque Protest 
Ends after Authorities Promise to Consult Community,'' South China 
Morning Post, August 15, 2018; ``China's Ningxia to `Learn From' 
Xinjiang's Anti-Terror Campaign,'' Radio Free Asia, December 3, 2018. 
Hui Muslims also live in the XUAR, but reports from the past reporting 
year have focused on increased repression of Hui communities outside of 
the XUAR. See, e.g., Joanne Smith Finley, `` `Now We Don't Talk 
Anymore,' '' ChinaFile, Asia Society, December 28, 2018.
    \15\ Ji Yuqiao, ``Ningxia Learns From Xinjiang How to Fight 
Terrorism,'' Global Times, November 27, 2018; Deng Zhihua, ``Ningxia 
dangwei zhengfa wei deng bumen fu Xinjiang kaocha duijie fankong weiwen 
gongzuo'' [Ningxia political-legal committee department travels to 
Xinjiang to inspect counterterrorism and stability maintenance work], 
Ningxia Daily, November 27, 2018. See also ``China's Ningxia to `Learn 
From' Xinjiang's Anti-Terror Campaign,'' Radio Free Asia, December 3, 
2018; Sophia Yan, ``Fears China's Internment Camps Could Spread as Area 
Home to Muslim Minority Signs `Anti-Terror' Deal,'' Telegraph, November 
29, 2018.
    \16\ Sophia Yan, ``Fears China's Internment Camps Could Spread as 
Area Home to Muslim Minority Signs `Anti-Terror' Deal,'' Telegraph, 
November 29, 2018. See also David R. Stroup, ``The Xinjiang Model of 
Ethnic Politics and the Daily Practice of Ethnicity,'' China at the 
Crossroads (blog), December 19, 2018.
    \17\ ``Gansu Linxia yi qingzhensi zao qiangchai duo ren bei ju'' [A 
mosque in Linxia, Gansu, is demolished, many people are detained], 
Radio Free Asia, April 12, 2019; William Yang, ``Zhongguo xu tui 
Yisilan Hanhua Gansu qingzhensi zao `mieding' '' [China continues 
Hanification of Islam, Gansu mosque ``extinguished''], Deutsche Welle, 
April 12, 2019; Bai Shengyi, ``Gansu yi qingzhensi gang jiancheng jiu 
zao qiangchai Musilin laoren tang de tongku'' [Mosque in Gansu 
demolished just after being built, elderly Muslims lie on the ground 
and weep], Bitter Winter, April 12, 2019.
    \18\ Liwei Wu, ``Love Allah, Love China,'' Foreign Policy, March 
25, 2019; Meng Yihua, ``Three Hui Mosques Raided in China's Yunnan 
Province,'' Muslim News, January 25, 2019.
    \19\ Zhao Yusha, ``Gansu Shuts Down Arabic School over 
Regulations,'' Global Times, December 4, 2018; Mimi Lau, ``Chinese 
Arabic School to Close as Areas with Muslim Populations Are Urged to 
Study the Xinjiang Way,'' South China Morning Post, December 9, 2018; 
Chun Han Wong, ``China Applies Xinjiang's Policing Lessons to Other 
Muslim Areas,'' Wall Street Journal, December 23, 2018.
    \20\ James Palmer, ``China's Muslims Brace for Attacks,'' Foreign 
Policy, January 5, 2019; Liu Caiyu, ``Gansu Removes 4 Halal-Linked 
Standards to Curb Religious Extremism,'' Global Times, December 17, 
2018; ``China: `Arabic-Sounding' River Renamed to Curb Islamic 
Influence,'' Al Jazeera, October 2, 2018; Liwei Wu, ``Love Allah, Love 
China,'' Foreign Policy, March 25, 2019. See also Liu Caiyu, ``Islamic 
Communities Urged to Uphold Sinicization, Improve Political Stance,'' 
Global Times, January 6, 2019; Nectar Gan, ``Beijing Plans to Continue 
Tightening Grip on Christianity and Islam as China Pushes Ahead with 
the `Sinicisation of Religion,' '' South China Morning Post, March 6, 
2019; Sam McNeil, ``Hui Poet Fears for His People as China `Sinicizes' 
Religion,'' Associated Press, December 28, 2018.
    \21\ Huizhong Wu, ``Sign of the Times: China's Capital Orders 
Arabic, Muslim Symbols Taken Down,'' Reuters, July 31, 2019.
    \22\ See, e.g., CECC, 2018 Annual Report, October 10, 2018, 139; 
CECC, 2017 Annual Report, October 5 2017, 148-49.
    \23\ See, e.g., ``Chinese Police Hold Another Ethnic Mongolian 
Writer over Protest,'' Radio Free Asia, April 16, 2019; Southern 
Mongolian Human Rights Information Center, ``Two More WeChat Group 
Administrators Detained,'' April 26, 2019.
    \24\ ``Chinese Police Hold Another Ethnic Mongolian Writer over 
Protest,'' Radio Free Asia, April 16, 2019; ``Nei menggu duo wei mumin 
shangfang bei juliu Neimeng xuexiao jinggao bu de wangyi lingdao ren'' 
[Many herder petitioners detained in Inner Mongolia, Inner Mongolian 
school warned against discussing leaders], Radio Free Asia, April 8, 
2019.
    \25\ ``Chinese Police Hold Another Ethnic Mongolian Writer over 
Protest,'' Radio Free Asia, April 16, 2019; ``Nei menggu duo wei mumin 
shangfang bei juliu Neimeng xuexiao jinggao bu de wangyi lingdao ren'' 
[Many herder petitioners detained in Inner Mongolia, Inner Mongolian 
school warned against discussing leaders], Radio Free Asia, April 8, 
2019.
    \26\ Southern Mongolian Human Rights Information Center, ``Two More 
WeChat Group Administrators Detained,'' April 26, 2019; ``Two More 
Ethnic Mongolians Jailed in China, WeChat Groups Deleted,'' Radio Free 
Asia, April 26, 2019.
    \27\ Southern Mongolian Human Rights Information Center, ``Two More 
WeChat Group Administrators Detained,'' April 26, 2019; ``Two More 
Ethnic Mongolians Jailed in China, WeChat Groups Deleted,'' Radio Free 
Asia, April 26, 2019.
    \28\ Southern Mongolian Human Rights Information Center, ``Two More 
WeChat Group Administrators Detained,'' April 26, 2019; ``Two More 
Ethnic Mongolians Jailed in China, WeChat Groups Deleted,'' Radio Free 
Asia, April 26, 2019.
    \29\ Southern Mongolian Human Rights Information Center, ``Writer 
Tried behind Closed Doors as `National Separatist,' Pending Sentence,'' 
April 11, 2019; ``China Tries Ethnic Mongolian Historian for Genocide 
Book, in Secret,'' Radio Free Asia, April 12, 2019. For more 
information on Lhamjab Borjigin, see the Commission's Political 
Prisoner Database record 2019-00105.
    \30\ Southern Mongolian Human Rights Information Center, ``Southern 
Mongolian Writer Faces Charges of `National Separatism' and `Sabotaging 
National Unity,' '' July 23, 2018; ``Neimeng qi xun zuojia jiu zuo 
fanyi Hanzi zao qingsuan dangju ni yi fenlie zui qisu'' [Inner 
Mongolian writer in his seventies faces criticism for older Chinese 
translation work, authorities plan to indict him for separatism], Radio 
Free Asia, July 23, 2018; ``China Holds Ethnic Mongolian Historian Who 
Wrote `Genocide' Book,'' Radio Free Asia, July 23, 2018.
    \31\ Southern Mongolian Human Rights Information Center, ``Writer 
Placed under Criminal Detention for Defending Herders' Rights,'' April 
16, 2019; ``Chinese Police Hold Another Ethnic Mongolian Writer over 
Protest,'' Radio Free Asia, April 16, 2019.
    \32\ Southern Mongolian Human Rights Information Center, ``Writer 
Placed under Criminal Detention for Defending Herders' Rights,'' April 
16, 2019; ``Chinese Police Hold Another Ethnic Mongolian Writer over 
Protest,'' Radio Free Asia, April 16, 2019.
    \33\ Southern Mongolian Human Rights Information Center, ``Writer 
Placed under Criminal Detention for Defending Herders' Rights,'' April 
16, 2019.
    \34\ Southern Mongolian Human Rights Information Center, ``Activist 
Placed under Criminal Detention for `Picking Quarrels and Provoking 
Troubles,' '' April 19, 2019; ``Third Ethnic Mongolian Writer Held in 
China's Inner Mongolia,'' Radio Free Asia, April 22, 2019.
    \35\ Southern Mongolian Human Rights Information Center, ``Activist 
Placed under Criminal Detention for `Picking Quarrels and Provoking 
Troubles,' '' April 19, 2019; ``Third Ethnic Mongolian Writer Held in 
China's Inner Mongolia,'' Radio Free Asia, April 22, 2019.
    \36\ Southern Mongolian Human Rights Information Center, ``Activist 
Placed under Criminal Detention for `Picking Quarrels and Provoking 
Troubles,' '' April 19, 2019; ``Third Ethnic Mongolian Writer Held in 
China's Inner Mongolia,'' Radio Free Asia, April 22, 2019.


                                                    Population 
                                                        Control
                                                Population 
                                                Control

                           Population Control


                                Findings

        <bullet> To address demographic concerns and spur 
        population growth, the Chinese Communist Party and 
        government relaxed the family planning policy in 2016 
        to allow all married couples to have two children. The 
        ``universal two-child policy,'' however, remained a 
        birth limit policy, and the Commission continued to 
        observe reports of official coercion committed against 
        women and their families during this reporting year. 
        Chinese authorities threatened or imposed punishments 
        on families for illegal pregnancies and births, using 
        methods including heavy fines, job termination, and 
        abortion.
        <bullet> Chinese authorities implemented the 
        ``universal two-child policy'' for a fourth consecutive 
        year in 2019, and the latest government statistics 
        showed that the policy's effect was limited. The 
        National Bureau of Statistics of China data showed that 
        the total number of births in 2018--reportedly the 
        lowest since 1961--dropped by 2 million in comparison 
        to the 2017 figure. This decline is much larger than 
        what some population experts had predicted. In 2018, 
        China's fertility rate remained around 1.6 births per 
        woman, below the replacement rate of 2.1 births per 
        woman necessary to maintain a stable population. The 
        birth rate was 10.94 per 1,000 persons, reportedly the 
        lowest since 1949 when the People's Republic of China 
        was founded. The working-age population continued its 
        seventh consecutive decline by 4.7 million, while the 
        elderly population increased by 8.59 million. China's 
        overall sex ratio in 2018 was 104.64 males to 100 
        females, and there were approximately 31.64 million 
        more males than females in China.
        <bullet> This reporting year, central government 
        authorities rejected calls to end birth restrictions, 
        despite population experts and National People's 
        Congress delegates voicing demographic, economic, and 
        human rights concerns over China's population control 
        policies. Experts urged the Chinese government to 
        implement policies, including financial incentives and 
        other forms of assistance, to encourage couples to have 
        children. If not adequately addressed, China's decades-
        long birth limit policies and resultant demographic 
        challenges could weaken China's economy and political 
        stability.
        <bullet> The Chinese government's restrictive family 
        planning policies have exacerbated China's sex ratio 
        imbalance, which reportedly has fueled the demand for 
        foreign women and resulted in human trafficking for 
        forced marriage and commercial sexual exploitation.
        <bullet> Four decades of China's population control 
        policies combined with a traditional preference for 
        sons may have encouraged a black market for illegal 
        adoptions. This past year, the Commission observed a 
        new trend in which pregnant foreign women sold their 
        newborn children in China for illegal adoption.
        <bullet> One former mass internment camp detainee in 
        the Xinjiang Uyghur Autonomous Region (XUAR) alleged 
        that authorities sterilized her without her knowledge 
        while she was in detention. Two former detainees 
        reported that camp authorities forced female detainees 
        to take unknown medications and injected them with 
        unknown substances, after which the women ceased 
        menstruating.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Highlight the looming demographic challenges 
        currently facing China in bilateral meetings with 
        Chinese government officials--including a rapidly aging 
        population, shrinking workforce, and sex ratio 
        imbalance; and emphasize that these demographic trends 
        could harm China's economy if not addressed in a timely 
        manner by ending as soon as possible all birth 
        restrictions imposed on families.
          Use authorities provided in the Foreign Relations 
        Authorization Act of 2000 (Public Law No. 106-113) and 
        the Global Magnitsky Human Rights Accountability Act 
        (Public Law No. 114-328) to deny entry into the United 
        States and impose sanctions against Chinese officials 
        who have been directly involved in the formulation, 
        implementation, or enforcement of China's coercive 
        family planning policies, including those who have 
        forced men and women to undergo sterilizations and 
        abortions.
          Call on China's central and local governments to 
        vigorously enforce provisions of Chinese law that 
        provide for punishment of officials and other 
        individuals who engage in these abuses.
          Publicly link, with supporting evidence, the sex 
        ratio imbalance exacerbated by China's population 
        control policies with regional humanitarian and 
        security concerns--human trafficking, crime, increased 
        internal and external migration, and other possible 
        serious social, economic, and political problems--and 
        discuss and address these issues in bilateral and 
        multilateral dialogues.
          Call on officials in the XUAR to address allegations 
        of the forced sterilization of mass internment camp 
        detainees; and call on officials to respond to accounts 
        that authorities subjected female camp detainees to the 
        forced injection of unknown substances and forced 
        ingestion of unknown medication that disrupted their 
        menstrual cycles.


                                                    Population 
                                                        Control
                                                Population 
                                                Control

                           Population Control


    International Standards and China's Coercive Population Policies

    During the Commission's 2019 reporting year, Chinese 
authorities continued to implement coercive population control 
policies that violate international standards. Starting in 
2016, the Chinese Communist Party and government relaxed birth 
restrictions and implemented the ``universal two-child 
policy.'' \1\ The ``universal two-child policy,'' however, 
continued to impose birth limits as the PRC Population and 
Family Planning Law and provincial-level regulations restrict 
married couples to having two children.\2\ Exceptions allowing 
for additional children exist for couples who meet certain 
criteria, which vary by province, including some exceptions for 
ethnic minorities,\3\ remarried couples, and couples who have 
children with disabilities.\4\ Despite population experts and 
National People's Congress delegates voicing their concerns 
over China's population policy on demographic and human rights 
grounds, central government authorities rejected calls to end 
birth limits during this reporting year.\5\ Local-level 
officials reportedly continued to enforce compliance with 
family planning policies using methods including heavy 
fines,\6\ job termination,\7\ and coerced abortion.\8\
    Coercive controls imposed on women and their families, as 
well as additional abuses engendered by China's population and 
family planning system, violate standards set forth in the 1995 
Beijing Declaration and Platform for Action and the 1994 
Programme of Action of the Cairo International Conference on 
Population and Development.\9\ China was a state participant in 
the negotiation and adoption of both documents.\10\ Acts of 
official coercion committed in the implementation of population 
control policies also contravene provisions of the Convention 
against Torture and Other Cruel, Inhuman or Degrading Treatment 
or Punishment,\11\ which China has ratified.\12\

        Coercive Implementation and Punishment for Noncompliance

    During the Commission's 2019 reporting year, the Commission 
continued to observe reports of coercive enforcement of family 
planning policies. The PRC Population and Family Planning Law 
contains provisions that prohibit officials from infringing 
upon the ``legitimate rights and interests'' of citizens while 
implementing family planning policies.\13\ Some provincial-
level population planning regulations, however, continued to 
explicitly instruct officials to carry out abortions--often 
referred to as ``remedial measures'' (bujiu cuoshi)--for 
unsanctioned pregnancies.\14\ Some local government authorities 
emphasized in official reports the need to prevent and control 
illegal pregnancies and births, and instructed family planning 
officials to carry out the invasive ``three inspections'' 
(intrauterine device (IUD), pregnancy, and health inspections) 
and ``four procedures'' (IUD insertion, first trimester 
abortion, mid- to late-term abortion, and sterilization).\15\ 
For example, a government report from Dalu township, Qionghai 
city, Hainan province, stated that local authorities carried 
out in total 264 ``four procedures'' operations in 2018.\16\ 
The same report also touted that local authorities had a 
success rate of 83 percent in detecting pregnancies within the 
first six months of the gestation period and reached 100.5 
percent of their family planning work targets.\17\
    Chinese authorities also continued to use various methods 
of punishment to enforce citizens' compliance with family 
planning policies. In accordance with national-level legal 
provisions,\18\ local provisions and governments have directed 
officials to punish noncompliance through heavy fines, termed 
``social compensation fees'' (shehui fuyang fei), which are 
often much greater than the average annual income in localities 
across China.\19\ In addition to fines, officials imposed or 
threatened other punishments for family planning violations 
that included job termination \20\ and abortion.\21\ The PRC 
Population and Family Planning Law prohibits, and provides 
punishments for, infringement by officials on citizens' 
personal, property, and other rights while implementing family 
planning policies.\22\

                           CASES OF COERCION

    In March 2019, authorities in Yuncheng district, Yunfu 
municipality, Guangdong province, reportedly dismissed a female 
public school teacher, surnamed Xie, from her job for giving 
birth to a third child in violation of China's two-child 
policy.\23\ Earlier in December 2018, authorities also 
dismissed Xie's husband from his job, reportedly leaving the 
family in a dire financial situation.\24\ Xie became pregnant 
in June 2018, and local authorities from various government 
agencies pressured her--a total of 14 times--to terminate her 
pregnancy or face losing her job.\25\ Xie refused and gave 
birth to her third child in January 2019.\26\ She argued that 
authorities' administrative actions were illegal and violated 
several provincial and national laws and regulations.\27\ As of 
June 2019, the Commission had not observed any update on the 
case.
    According to Chinese and international reports, shortly 
before the lunar new year in January 2019, local authorities in 
Chengwu county, Heze municipality, Shandong province, froze the 
financial accounts and work pay of a couple surnamed Wang, 
because they had failed to pay ``social compensation fees'' in 
the amount of 64,626 yuan (approximately US$9,500).\28\ The 
couple, however, had approximately 23,000 yuan (approximately 
US$3,300) in their accounts, with the remaining balance still 
due.\29\ Authorities had fined the couple for the January 2017 
birth of their third child, which violated national law and 
local family planning regulations.\30\ The Wangs were 
reportedly in a dire financial situation as a result of the 
account freeze.\31\

------------------------------------------------------------------------
 Report of Forced Sterilization in Mass Internment Camps in the Xinjiang
                     Uyghur Autonomous Region (XUAR)
-------------------------------------------------------------------------
  Mihrigul Tursun. According to international media, authorities in the
 XUAR forcibly sterilized ethnic Uyghur Mihrigul Tursun without her
 knowledge while she was detained in a mass internment camp in the XUAR.
 Authorities detained Tursun three times in mass internment camps and
 other facilities, for a total of 10 months.\32\ Tursun said authorities
 at a mass internment camp where she was held forced her and other
 detainees to swallow unknown pills and drink ``some kind of white
 liquid,'' and injected them with unknown substances.\33\ According to
 Tursun, the white liquid halted menstruation in some detainees and
 caused severe bleeding in others.\34\ Following her release from
 custody \35\ and arrival in the United States, doctors confirmed that
 she had been sterilized.\36\ Gulbahar Jelilova, an ethnic Uyghur woman
 detained in a mass internment camp in the XUAR, also said that doctors
 repeatedly injected female detainees with an unknown substance that
 stopped their menstruation.\37\
------------------------------------------------------------------------

                     The Universal Two-Child Policy

    To address demographic challenges facing China, the Party 
and government implemented the ``universal two-child policy'' 
in 2016 to boost population growth,\38\ but government 
statistics showed that the policy's effect was limited. In 
2016, the former National Health and Family Planning Commission 
had predicted that the universal two-child policy would result 
in population growth,\39\ with an estimated total of 17.5 to 21 
million children born per year during the 13th Five-Year Plan 
period (2016-2020).\40\ According to a January 2019 National 
Bureau of Statistics of China (NBS) report, however, the number 
of total births in 2018 was 15.23 million--reportedly the 
lowest since 1961 \41\--showing a decline of 2 million births 
in comparison to the 2017 figure of 17.23 million.\42\ This 
decline is much larger than the range of 300,000 to 800,000 
annual drop that some population experts predicted.\43\ Yi 
Fuxian, a prominent U.S.-based demographic expert, disagreed 
with the official NBS report and suggested that the total 
births in 2018 may have been as low as 10.3 million.\44\
    Some experts argued that the universal two-child policy did 
have a short-term effect of encouraging births and stabilizing 
the birth rate.\45\ This effect was evidenced by the one-time 
increase of 1.31 million births in 2016, and in the first few 
years of the ``universal two-child policy,'' over 50 percent of 
new births reportedly were second children.\46\ Experts noted, 
however, that these phenomena were likely caused by a temporary 
``pile-up effect,'' as many women nearing the end of their 
childbearing age rushed to give birth to a second child after 
the two-child policy became effective in 2016.\47\ As this 
``pile-up effect'' is unsustainable, experts predicted that 
beginning in 2018, the annual newborn population would rapidly 
decline further.\48\ Some experts attributed the decline in 
births to the shrinking number of women of childbearing age 
\49\ and the reluctance on the part of many married couples to 
have children owing to concerns such as the high cost of 
rearing a child,\50\ the lack of adequate child care and 
education options,\51\ and the potential disruption to career 
development.\52\
    As the ``universal two-child policy'' failed to boost 
population growth for a second consecutive year, population 
experts and National People's Congress (NPC) delegates, citing 
demographic and economic challenges, as well as human rights 
concerns, called on the Chinese government to end all birth 
restrictions imposed on Chinese families. Experts noted that 
China's decades-long birth limit policies and resultant 
demographic challenges, which include a rapidly aging 
population and a shrinking workforce, could weaken China's 
economy and political stability.\53\ Falling fertility in the 
past two years shows that the existing universal two-child 
policy may not adequately mitigate China's demographic 
challenges, causing experts and NPC delegates to call on 
Chinese authorities to abolish all birth restrictions.\54\ 
Experts also warned that even if all birth restrictions are 
removed, it may not stop the trend of a falling birth rate and 
population decline, especially if it is not supplemented by 
policies that encourage births.\55\ Experts urged the Chinese 
government to provide financial incentives, such as tax breaks, 
subsidies, and other forms of assistance to encourage couples 
to have more children.\56\
    In addition to demographic concerns, some experts also 
emphasized that Chinese government authorities should respect 
and protect citizens' human rights and not intrude on their 
private reproductive lives.\57\ In an August 2018 China Daily 
interview, Zhang Juwei, Director of the Institute of Population 
and Labor Economics at the Chinese Academy of Social Sciences, 
said that it is ``inappropriate'' to control population size 
for the sake of ``boosting economic and social development . . 
. because reproductive rights are the fundamental rights of 
families.'' \58\
    This past year, central government authorities rejected 
calls to end all birth restrictions imposed on Chinese 
families. In a written statement posted in January 2019, the 
National Health Commission (NHC) rejected an NPC recommendation 
of abolishing the birth limit policy, stating that ``it is not 
appropriate to immediately and completely remove the `family 
planning [policy],' '' as it is still a law and policy mandated 
in China's Constitution.\59\ In a separate response to the NPC, 
the NHC reiterated that Chinese family planning authorities 
will continue to impose ``social compensation fees'' on couples 
who violate the two-child policy.\60\

    Demographic and Humanitarian Consequences of Population Control 
                                Policies

    Four decades of population control policies have 
exacerbated China's demographic challenges, which include a 
rapidly aging population, shrinking workforce, and sex ratio 
imbalance. Affected in recent decades by government 
restrictions on the number of births per couple, China's total 
fertility rate has dropped from approximately 3 births per 
woman in the late 1970s \61\ to an estimated 1.6 births per 
woman in 2018, below the replacement rate of 2.1 births per 
woman necessary to maintain a stable population.\62\ Some 
reports suggested that the fertility rate in 2018 may have been 
as low as 1.02 births per woman.\63\ In addition, the National 
Bureau of Statistics of China (NBS) reported that China's birth 
rate in 2018 was 10.94 per 1,000 persons in the population, 
reportedly the lowest since the founding of the People's 
Republic of China in 1949.\64\
    China's low fertility rate and birth rate have contributed 
to a rapidly aging population and a shrinking workforce. 
According to the NBS, from 2017 to 2018, China's working-age 
population (persons between the ages of 16 and 59) declined by 
4.7 million to 897.29 million, continuing a downward trend for 
a seventh consecutive year.\65\ During the same period, the 
elderly population (persons aged 60 or older) increased by 8.59 
million in 2018 to 249.49 million, or 17.9 percent of the total 
population.\66\ According to the State Council National 
Population Development Plan (2016-2030), China's working-age 
population is expected to decline rapidly from 2021 to 2030, 
while the elderly population will increase markedly during the 
same period and is predicted to reach a quarter of the 
population by 2030.\67\ By 2050, the elderly population is 
expected to account for approximately one-third of China's 
total population,\68\ while the working-age population is 
expected to decrease by 200 million.\69\ These demographic 
trends reportedly may burden China's healthcare, social 
services, and pension systems,\70\ and could bring adverse 
effects to China's economy.\71\
    The Chinese government's restrictive family planning 
policies have also exacerbated China's sex ratio imbalance, 
which reportedly fueled the demand for foreign women and 
contributed to human trafficking. Although Chinese authorities 
continued to implement a ban on ``non-medically necessary sex 
determination and sex-selective abortion,'' \72\ some people 
reportedly continued the practice in keeping with a traditional 
cultural preference for sons.\73\ According to a January 2019 
NBS report, China's overall sex ratio in 2018 was 104.64 males 
to 100 females, and there were approximately 31.64 million more 
males than females in China (713.51 million males to 681.87 
million females).\74\ The NBS reported that the sex ratio at 
birth (SRB) in 2015 was 113.51 males to 100 females,\75\ but it 
did not provide statistics on the SRB since 2016 when the 
universal two-child policy was implemented.\76\ Demographic 
experts have long expressed concerns that the sex ratio 
imbalance in China could lead to an increase in crime,\77\ 
trafficking of women,\78\ and social instability.\79\ This past 
year, international media reports continued to suggest a link 
between China's sex ratio imbalance and the trafficking of 
foreign women--from countries including Burma (Myanmar), 
Cambodia, Indonesia, Laos, Pakistan, and Vietnam--into China 
for forced marriage or commercial sexual exploitation.\80\ [For 
more information on cross-border trafficking, see Section II--
Human Trafficking.]
    Decades of birth limits under China's population control 
policies combined with a traditional preference for sons may 
also have encouraged a black market for illegal adoptions.\81\ 
This reporting year, the Commission observed a new trend in 
which foreign women sold their newborn children in China for 
illegal adoption.\82\ According to Vietnamese news media 
reports, Vietnamese authorities detained and investigated 
individuals suspected of moving pregnant women across the 
border into China to sell newborn children.\83\ In the 
Vietnamese province of Nghe An alone, there were at least 27 
pregnant women who had traveled to China to sell their newborns 
in 2018.\84\ [For inconsistencies in the definition of ``human 
trafficking'' between Chinese law and international standards, 
see Section II--Human Trafficking.]


                                                    Population 
                                                        Control
                                                Population 
                                                Control
    Notes to Section II--Population Control

    \1\ National Health and Family Planning Commission, ``2016 nian 12 
yue 12 ri Guojia Weisheng Jishengwei lixing xinwen fabuhui wenzi 
shilu'' [National Health and Family Planning Commission regular press 
conference text record], December 12, 2016; Zhonghua Renmin Gongheguo 
Renkou Yu Jihua Shengyu Fa [PRC Population and Family Planning Law], 
passed December 29, 2001, amended December 27, 2015, effective January 
1, 2016, art. 18.
    \2\ Zhonghua Renmin Gongheguo Renkou Yu Jihua Shengyu Fa [PRC 
Population and Family Planning Law], passed December 29, 2001, amended 
December 27, 2015, effective January 1, 2016, art. 18. Article 18 of 
the Population and Family Planning Law provides that ``the state 
advocates two children per married couple.'' For provincial population 
regulations that require couples be married to have children and limit 
them to bearing two children, see, e.g., Fujian Province People's 
Congress Standing Committee, Fujian Sheng Renkou Yu Jihua Shengyu 
Tiaoli [Fujian Province Population and Family Planning Regulations], 
issued April 29, 1988, amended November 24, 2017, arts. 8, 12; Guangxi 
Zhuang Autonomous Region People's Congress Standing Committee, Guangxi 
Zhuangzu Zizhiqu Renkou He Jihua Shengyu Tiaoli [Guangxi Zhuang 
Autonomous Region Population and Family Planning Regulations], issued 
March 23, 2012, effective June 1, 2012, amended January 15, 2016, art. 
13.
    \3\ See, e.g., Fujian Province People's Congress Standing 
Committee, Fujian Sheng Renkou Yu Jihua Shengyu Tiaoli [Fujian Province 
Population and Family Planning Regulations], issued April 29, 1988, 
amended November 24, 2017, art. 9(4)-(5); Heilongjiang Province 
People's Congress Standing Committee, Heilongjiang Sheng Renkou Yu 
Jihua Shengyu Tiaoli [Heilongjiang Province Population and Family 
Planning Regulations], issued October 18, 2002, effective January 1, 
2003, amended April 21, 2016, art. 13.
    \4\ For provincial population planning provisions that allow these 
exceptions for having an additional child, see, e.g., Fujian Province 
People's Congress Standing Committee, Fujian Sheng Renkou Yu Jihua 
Shengyu Tiaoli [Fujian Province Population and Family Planning 
Regulations], issued April 29, 1988, amended November 24, 2017, art. 
9(1)-(3); Guangxi Zhuang Autonomous Region People's Congress Standing 
Committee, Guangxi Zhuangzu Zizhiqu Renkou He Jihua Shengyu Tiaoli 
[Guangxi Zhuang Autonomous Region Population and Family Planning 
Regulations], issued March 23, 2012, effective June 1, 2012, amended 
January 15, 2016, art. 14(1)-(5); Jiangxi Province People's Congress 
Standing Committee, Jiangxi Sheng Renkou Yu Jihua Shengyu Tiaoli 
[Jiangxi Province Population and Family Planning Regulations], issued 
June 16, 1990, amended January 20, 2016, art. 9(2)-(3).
    \5\ National Health Commission, ``Dui Shisan Jie Renda Yici Huiyi 
di 1949 hao jianyi de dafu'' [Reply to 13th NPC First Session's 
suggestion no. 1949], January 8, 2019; ``Zhongguo shengyu lu quanqiu 
dao shu quanmian kaifang reng yaoyao wuqi (xia)'' [China's fertility 
rate lowest in the world, is the end of family planning policy still 
distant? (part 2)], Radio Free Asia, January 25, 2019; Christopher 
Bodeen, ``China's Leaders Want More Babies, but Local Officials 
Resist,'' Associated Press, February 19, 2019.
    \6\ See, e.g., Michelle Wong, ``China's Two-Child Policy Under Fire 
as Parents' Bank Account Frozen for Having Third Child,'' South China 
Morning Post, February 14, 2019; Luo Fa, ``Zhongguo yan'ge shixing er 
tai zhengce Shandong fufu sheng san tai zao fa'' [China strictly 
implements two-child policy, Shandong couple punished for giving birth 
to a third child], Deutsche Welle, February 18, 2019.
    \7\ See, e.g., Dashan, ``Guangdong: nu jiaoshi san tai, fuqi 
shuangshuang kaichu, 3 ge haizi 4 ge laoren, juejing'' [Guangdong: 
female teacher had three children, husband and wife both fired, 3 
children and 4 elderly family members in dire situation], China 50 
Plus, April 3, 2019. See also Xie Zhengling, ``Huai di san hai bei 
citui'' [Fired for bearing a third child], Worker Online, Southern 
Daily, January 10, 2019.
    \8\ See, e.g., Dashan, ``Guangdong: nu jiaoshi san tai, fuqi 
shuangshuang kaichu, 3 ge haizi 4 ge laoren, juejing'' [Guangdong: 
female teacher had three children, husband and wife both fired, 3 
children and 4 elderly family members in dire situation], China 50 
Plus, April 3, 2019. See also Xie Zhengling, ``Huai di san hai bei 
citui'' [Fired for bearing a third child], Worker Online, Southern 
Daily, January 10, 2019.
    \9\ Beijing Declaration and Platform for Action, adopted at the 
Fourth World Conference on Women on September 15, 1995, and endorsed by 
UN General Assembly resolution 50/203 on December 22, 1995, Annex I, 
paras. 9, 17. The Beijing Declaration states that governments which 
participated in the Fourth World Conference on Women reaffirmed their 
commitment to ``[e]nsure the full implementation of the human rights of 
women and of the girl child as an inalienable, integral and indivisible 
part of all human rights and fundamental freedoms'' (Annex I, para. 9) 
and ``[t]he explicit recognition and reaffirmation of the right of all 
women to control all aspects of their health, in particular their own 
fertility, is basic to their empowerment'' (Annex I, para. 17). 
Programme of Action adopted by the Cairo International Conference on 
Population and Development on September 13, 1994, paras. 7.2, 8.25. 
Paragraph 7.2 states, ``Reproductive health therefore implies that 
people . . . have the capability to reproduce and the freedom to decide 
if, when and how often to do so. Implicit in this last condition are 
the right of men and women to be informed and to have access to safe, 
effective, affordable and acceptable methods of family planning of 
their choice . . ..'' Paragraph 8.25 states, ``In no case should 
abortion be promoted as a method of family planning.'' For coercive 
controls imposed on Chinese women and their families, see, e.g., Sha 
Heshang de Weibo (@Shaheshangdeweibo01), ``Guangdong Yufun shi nuzi 
sheng san tai, fuqi shuangshuang bei kaichu'' [A woman in Yunfu 
municipality, Guangdong, gave birth to three children, husband and wife 
both dismissed from jobs], Weibo post, March 26, 2019; Michelle Wong, 
``China's Two-Child Policy Under Fire as Parents' Bank Account Frozen 
for Having Third Child,'' South China Morning Post, February 14, 2019.
    \10\ United Nations, Report of the Fourth World Conference on 
Women, A/CONF.177/20/Rev.1, September 15, 1995, chap. II, para. 3; 
chap. VI, para. 12. China was one of the participating States at the 
Fourth World Conference on Women, which adopted the Beijing Declaration 
and Platform for Action. United Nations Population Information Network, 
Report of the International Conference on Population and Development 
(ICPD), A/CONF.171/13, October 18, 1994, 271. China was one of the 
participating States at the ICPD, which reached a general agreement on 
the Programme of Action.
    \11\ Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, adopted by UN General Assembly 
resolution 39/46 of December 10, 1984, entry into force June 26, 1987, 
art. 1; UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China, adopted by the Committee at its 1391st 
and 1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, February 3, 
2016, para. 51. In 2016, the UN Committee against Torture noted its 
concern regarding ``reports of coerced sterilization and forced 
abortions, and . . . the lack of information on the number of 
investigations into such allegations . . . [and] the lack of 
information regarding redress provided to victims of past violations.'' 
For acts of coercion committed in the implementation of population 
planning policies, see, e.g., Dashan, ``Guangdong: nu jiaoshi san tai, 
fuqi shuangshuang kaichu, 3 ge haizi 4 ge laoren, juejing'' [Guangdong: 
female teacher had three children, husband and wife both fired, 3 
children and 4 elderly family members in dire situation], China 50 
Plus, April 3, 2019. See also Xie Zhengling, ``Huai di san hai bei 
citui'' [Fired for bearing a third child], Worker Online, Southern 
Daily, January 10, 2019; Luo Fa, ``Zhongguo yan'ge shixing er tai 
zhengce Shandong fufu sheng san tai zao fa'' [China strictly implements 
two-child policy, Shandong couple punished for giving birth to a third 
child], Deutsche Welle, February 18, 2019.
    \12\ United Nations Treaty Collection, Chapter IV, Human Rights, 
Convention against Torture and Other Cruel, Inhuman or Degrading 
Treatment or Punishment, accessed May 14, 2019. China signed the 
Convention on December 12, 1986, and ratified it on October 4, 1988.
    \13\ Zhonghua Renmin Gongheguo Renkou Yu Jihua Shengyu Fa [PRC 
Population and Family Planning Law], passed December 29, 2001, amended 
December 27, 2015, effective January 1, 2016, arts. 4, 39.
    \14\ He Yafu, ``Cha dian bei duotai de Deng Chao he Zhao Ruirui'' 
[Deng Chao and Zhao Ruirui who were almost aborted], CNPOP, February 9, 
2014. For examples of provincial-level population planning regulations 
instructing officials to carry out abortions, see Jiangxi Province 
People's Congress Standing Committee, Jiangxi Sheng Renkou Yu Jihua 
Shengyu Tiaoli [Jiangxi Province Population and Family Planning 
Regulations], issued June 16, 1990, amended and effective May 31, 2018, 
art. 15; Hubei Province People's Congress Standing Committee, Hubei 
Sheng Renkou Yu Jihua Shengyu Tiaoli [Hubei Province Population and 
Family Planning Regulations], issued December 1, 2002, amended and 
effective January 13, 2016, art. 12.
    \15\ See, e.g., ``Chen Zhongyi zai Xide xian ducha tuo pin gong 
jian shi qiangdiao: jia kuai anquan zhufang jianshe zhua hao tuchu 
wenti zhenggai qianfang baiji quebao wancheng niandu jian pin renwu'' 
[Chen Zhongyi inspects [work] on poverty allievation in Xide county and 
emphasizes: accelerate construction of safe housing, focus on 
rectification of problems, use all means necessary to ensure completion 
of annual poverty alleviation tasks], Liangshan Daily, reprinted in 
Liangshan Yi Autonomous Prefecture Poverty and Immigration Bureau, 
November 16, 2018; Ju'nan County People's Government, ``Laopo Zhen 
Jisheng Ban gongzuo zhize'' [Laopo Township Family Planning Office job 
responsibilities], November 27, 2018; Dalu Township People's 
Government, ``Dalu zhen 2018 niandu zhengfu gongzuo baogao'' [Dalu 
township 2018 government work report], reprinted in Qionghai Municipal 
People's Government, January 23, 2019. See also Ma Jian, Women's Rights 
in China, ``Nongcun jihua shengyu zhong de `san cha' qingkuang 
diaocha'' [Investigation into the ``three inspections'' of rural family 
planning], reprinted in Boxun, April 15, 2009; Yu Han, ``Jihua shengyu 
qiangzhi jiezha renliu hai ku le Zhongguo ren'' [Chinese people suffer 
from family planning [policy's] forced sterilizations and abortions], 
Tencent, June 15, 2012.
    \16\ Dalu Township People's Government, ``Dalu zhen 2018 niandu 
zhengfu gongzuo baogao'' [Dalu township 2018 government work report], 
reprinted in Qionghai Municipal People's Government, January 23, 2019.
    \17\ Ibid.
    \18\ State Council, Shehui Fuyang Fei Zhengshou Guanli Banfa 
[Measures for Administration of Collection of Social Compensation 
Fees], issued August 2, 2002, effective September 1, 2002, arts. 3, 7; 
Zhonghua Renmin Gongheguo Renkou Yu Jihua Shengyu Fa [PRC Population 
and Family Planning Law], passed December 29, 2001, amended December 
27, 2015, effective January 1, 2016, arts. 18, 41.
    \19\ For a list of provincial-level provisions that mandate 
collection of ``social compensation fees,'' see ``2018 nian shehui 
fuyang fei zhengshou biaozhun yu zui xin guiding'' [2018 social 
compensation fee collection standards and newest provisions], Shebao 
Chaxun Wang, January 15, 2018. For an example of a local government 
that collected or demanded collection of ``social compensation fees'' 
during this reporting year, see, e.g., Luo Fa, ``Zhongguo yan'ge 
shixing er tai zhengce Shandong fufu sheng san tai zao fa'' [China 
strictly implements two-child policy, Shandong couple punished for 
giving birth to a third child], Deutsche Welle, February 18, 2019. 
``Social compensation fees'' are also known as ``social maintenance 
fees.''
    \20\ See, e.g., Dashan, ``Guangdong: nu jiaoshi san tai, fuqi 
shuangshuang kaichu, 3 ge haizi 4 ge laoren, juejing'' [Guangdong: 
female teacher had three children, husband and wife both fired, 3 
children and 4 elderly family members in dire situation], China 50 
Plus, April 3, 2019. See also Xie Zhengling, ``Huai di san hai bei 
citui'' [Fired for bearing a third child], Worker Online, Southern 
Daily, January 10, 2019.
    \21\ See, e.g., Dashan, ``Guangdong: nu jiaoshi san tai, fuqi 
shuangshuang kaichu, 3 ge haizi 4 ge laoren, juejing'' [Guangdong: 
female teacher had three children, husband and wife both fired, 3 
children and 4 elderly family members in dire situation], China 50 
Plus, April 3, 2019. See also Xie Zhengling, ``Huai di san hai bei 
citui'' [Fired for bearing a third child], Worker Online, Southern 
Daily, January 10, 2019.
    \22\ Zhonghua Renmin Gongheguo Renkou Yu Jihua Shengyu Fa [PRC 
Population and Family Planning Law], passed December 29, 2001, amended 
December 27, 2015, effective January 1, 2016, arts. 4, 39(1)-(2). 
Article 4 of the PRC Population and Family Planning Law states that 
officials ``shall perform their family planning work duties strictly in 
accordance with the law, and enforce the law in a civil manner, and 
they may not infringe upon the legitimate rights and interests of 
citizens.'' Article 39 states that an official is subject to criminal 
or administrative punishment if he ``infringe[s] on a citizen's 
personal rights, property rights, or other legitimate rights and 
interests'' or ``abuse[s] his power, neglect[s] his duty, or engage[s] 
in malpractice for personal gain'' in the implementation of family 
planning policies.
    \23\ Dashan, ``Guangdong: nu jiaoshi san tai, fuqi shuangshuang 
kaichu, 3 ge haizi 4 ge laoren, juejing'' [Guangdong: female teacher 
had three children, husband and wife both fired, 3 children and 4 
elderly family members in dire situation], China 50 Plus, April 3, 
2019. See also Xie Zhengling, ``Huai di san hai bei citui'' [Fired for 
bearing a third child], Worker Online, Southern Daily, January 10, 
2019.
    \24\ Dashan, ``Guangdong: nu jiaoshi san tai, fuqi shuangshuang 
kaichu, 3 ge haizi 4 ge laoren, juejing'' [Guangdong: female teacher 
had three children, husband and wife both fired, 3 children and 4 
elderly family members in dire situation], China 50 Plus, April 3, 
2019. See also Xie Zhengling, ``Huai di san hai bei citui'' [Fired for 
bearing a third child], Worker Online, Southern Daily, January 10, 
2019.
    \25\ Dashan, ``Guangdong: nu jiaoshi san tai, fuqi shuangshuang 
kaichu, 3 ge haizi 4 ge laoren, juejing'' [Guangdong: female teacher 
had three children, husband and wife both fired, 3 children and 4 
elderly family members in dire situation], China 50 Plus, April 3, 
2019. See also Xie Zhengling, ``Huai di san hai bei citui'' [Fired for 
bearing a third child], Worker Online, Southern Daily, January 10, 
2019.
    \26\ Dashan, ``Guangdong: nu jiaoshi san tai, fuqi shuangshuang 
kaichu, 3 ge haizi 4 ge laoren, juejing'' [Guangdong: female teacher 
had three children, husband and wife both fired, 3 children and 4 
elderly family members in dire situation], China 50 Plus, April 3, 
2019.
    \27\ Ibid.
    \28\ ``Shandong cunmin sheng san hai wei jiao shehui fuyang fei 
Weixin lingqian bei dongjie, cun ganbu: ta jia jingji tiaojian bing bu 
hao'' [Shandong villager had three children but did not pay social 
compensation fees, WeChat cash account frozen, village official said 
his family's financial situation not good], Jiemian, reprinted in 
Guancha Net, February 13, 2019; Luo Fa, ``Zhongguo yan'ge shixing er 
tai zhengce Shandong fufu sheng san tai zao fa'' [China strictly 
implements two-child policy, Shandong couple punished for giving birth 
to a third child], Deutsche Welle, February 18, 2019; Michelle Wong, 
``China's Two-Child Policy Under Fire as Parents' Bank Account Frozen 
for Having Third Child,'' South China Morning Post, February 14, 2019; 
Christopher Bodeen, ``China's Leaders Want More Babies, but Local 
Officials Resist,'' Associated Press, February 19, 2019.
    \29\ Christopher Bodeen, ``China's Leaders Want More Babies, but 
Local Officials Resist,'' Associated Press, February 19, 2019; 
``Shandong cunmin sheng san hai wei jiao shehui fuyang fei Weixin 
lingqian bei dongjie, cun ganbu: ta jia jingji tiaojian bing bu hao'' 
[Shandong villager had three children but did not pay social 
compensation fees, WeChat cash account frozen, village official said 
his family's financial situation not good], Jiemian, reprinted in 
Guancha Net, February 13, 2019; Luo Fa, ``Zhongguo yan'ge shixing er 
tai zhengce Shandong fufu sheng san tai zao fa'' [China strictly 
implements two-child policy, Shandong couple punished for giving birth 
to a third child], Deutsche Welle, February 18, 2019; Michelle Wong, 
``China's Two-Child Policy Under Fire as Parents' Bank Account Frozen 
for Having Third Child,'' South China Morning Post, February 14, 2019.
    \30\ ``Shandong cunmin sheng san hai wei jiao shehui fuyang fei 
Weixin lingqian bei dongjie, cun ganbu: ta jia jingji tiaojian bing bu 
hao'' [Shandong villager had three children but did not pay social 
compensation fees, WeChat cash account frozen, village official said 
his family's financial situation not good], Jiemian, reprinted in 
Guancha Net, February 13, 2019; Luo Fa, ``Zhongguo yan'ge shixing er 
tai zhengce Shandong fufu sheng san tai zao fa'' [China strictly 
implements two-child policy, Shandong couple punished for giving birth 
to a third child], Deutsche Welle, February 18, 2019; Michelle Wong, 
``China's Two-Child Policy Under Fire as Parents' Bank Account Frozen 
for Having Third Child,'' South China Morning Post, February 14, 2019; 
Christopher Bodeen, ``China's Leaders Want More Babies, but Local 
Officials Resist,'' Associated Press, February 19, 2019.
    \31\ ``Shandong cunmin sheng san hai wei jiao shehui fuyang fei 
Weixin lingqian bei dongjie, cun ganbu: ta jia jingji tiaojian bing bu 
hao'' [Shandong villager had three children but did not pay social 
compensation fees, WeChat cash account frozen, village official said 
his family's financial situation not good], Jiemian, reprinted in 
Guancha Net, February 13, 2019; Luo Fa, ``Zhongguo yan'ge shixing er 
tai zhengce Shandong fufu sheng san tai zao fa'' [China strictly 
implements two-child policy, Shandong couple punished for giving birth 
to a third child], Deutsche Welle, February 18, 2019; Michelle Wong, 
``China's Two-Child Policy Under Fire as Parents' Bank Account Frozen 
for Having Third Child,'' South China Morning Post, February 14, 2019; 
Christopher Bodeen, ``China's Leaders Want More Babies, but Local 
Officials Resist,'' Associated Press, February 19, 2019.
    \32\ The Communist Party's Crackdown on Religion in China, Hearing 
of the Congressional-Executive Commission on China, 115th Cong. (2018) 
(testimony of Mihrigul Tursun, Uyghur Muslim detained in Chinese mass 
internment camp), 1-2, 5; Shosuke Kato and Kenji Kawase, ``Xinjiang: 
What China Shows World vs. What Former Detainee Describes,'' Nikkei 
Asian Review, August 10, 2019.
    \33\ The Communist Party's Crackdown on Religion in China, Hearing 
of the Congressional-Executive Commission on China, 115th Cong. (2018) 
(testimony of Mihrigul Tursun, Uyghur Muslim detained in Chinese mass 
internment camp), 4, 5, 7; Shosuke Kato and Kenji Kawase, ``Xinjiang: 
What China Shows World vs. What Former Detainee Describes,'' Nikkei 
Asian Review, August 10, 2019.
    \34\ The Communist Party's Crackdown on Religion in China, Hearing 
of the Congressional-Executive Commission on China, 115th Cong. (2018) 
(testimony of Mihrigul Tursun, Uyghur Muslim detained in Chinese mass 
internment camp), 4.
    \35\ Ibid., 5.
    \36\ Shosuke Kato and Kenji Kawase, ``Xinjiang: What China Shows 
World vs. What Former Detainee Describes,'' Nikkei Asian Review, August 
10, 2019; Shannon Molloy, ``China's Sickening Acts on Female Prisoners 
at `Re-Education' Camps,'' news.com.au, August 13, 2019.
    \37\ Shannon Molloy, ``China's Sickening Acts on Female Prisoners 
at `Re-Education' Camps,'' news.com.au, August 13, 2019. For more 
information on Gulbahar Jelilova, see the Commission's Political 
Prisoner Database record 2019-00032.
    \38\ Noelle Mateer and Tang Ziyi, `` `Singles Tax' Furor Highlights 
Sensitivity over Pressure to Have More Children,'' Caixin, November 5, 
2018; ``China to Encourage Childbirth in 2019,'' Xinhua, December 22, 
2018; ``China's Demographic Danger Grows as Births Fall Far Below 
Forecast,'' Wall Street Journal, February 9, 2019.
    \39\ National Health and Family Planning Commission, ``Li Bin 
zhuren deng jiu `shishi quanmian lianghai zhengce' da jizhe wen wenzi 
shilu'' [Text record of director Li Bin and others answering 
journalists' questions regarding ``implementation of the universal two-
child policy''], March 8, 2016.
    \40\ National Health and Family Planning Commission, ``Zhidaosi 
fuzeren jiu 2015 nian chusheng renkou shu da Jiankang Bao, Zhongguo 
Renkou Bao jizhe wen'' [Department of Community Family Planning 
official answers questions from Health News and China Population Daily 
journalists regarding the number of births in 2015], January 20, 2016.
    \41\ ``China's Demographic Danger Grows as Births Fall Far Below 
Forecast,'' Wall Street Journal, February 9, 2019; ``China Sees Fewest 
Births in 2018 since Mao's Great Famine,'' Bloomberg, January 21, 2019; 
Hu Chao and Meng Leilei, ``Is China Facing a Looming Population 
Crisis?,'' CGTN, February 7, 2019.
    \42\ National Bureau of Statistics of China, ``2018 nian jingji 
yunxing baochi zai heli qujian fazhan de zhuyao yuqi mubiao jiao hao 
wancheng'' [The economy moved within reasonable range in 2018, main 
expected development targets were reached], January 21, 2019; National 
Bureau of Statistics of China, ``Li Xiru: renkou zongliang pingwen 
zengzhang chengzhenhua shuiping wenbu tigao'' [Li Xiru: total 
population increases steadily, urbanization level improves steadily], 
January 23, 2019. For the total number of births in 2017, see National 
Bureau of Statistics of China, ``2017 nian jingji yunxing wenzhong 
xianghao, hao yu yuqi'' [The economy was stable in 2017, exceeding 
expectations], January 18, 2018.
    \43\ Ma Danmeng and Han Wei, ``Couples Not Delivering on Beijing's 
Push for Two Babies,'' Caixin, January 19, 2018; Liang Jianzhang and 
Huang Wenzheng, ``Chusheng renkou xuebeng wei yao haizi jianshui he 
butie'' [Birth population avalanche: cut taxes and provide subsidies to 
encourage having more children], Caixin, January 18, 2018; ``China's 
Declining Birth Rate Requires Policy Change,'' Xinhua, January 25, 
2018.
    \44\ ``Zhongguo shengyu lu quanqiu dao shu quanmian kaifang reng 
yaoyao wuqi? (xia)'' [China's fertility rate lowest in the world, is 
the end of family planning policy still distant? (Part 2)], Radio Free 
Asia, January 25, 2019.
    \45\ Shannon Tiezzi, ``China's Number of Births Just Keeps 
Dropping,'' The Diplomat, November 1, 2018; Liang Jianzhang and Huang 
Wenzhang, ``Opinion: China's Demographic Crisis Is a Reality,'' Caixin, 
January 25, 2019; Asa Butcher, ``Birth Rate Drops in China for Third 
Consecutive Year since Child Policy Change,'' GB Times, January 4, 
2019; Cao Siqi, ``China Births Dip in 2018,'' Global Times, January 1, 
2019.
    \46\ Shannon Tiezzi, ``China's Number of Births Just Keeps 
Dropping,'' The Diplomat, November 1, 2018; Liang Jianzhang and Huang 
Wenzhang, ``Opinion: China's Demographic Crisis Is a Reality,'' Caixin, 
January 25, 2019; Asa Butcher, ``Birth Rate Drops in China for Third 
Consecutive Year since Child Policy Change,'' GB Times, January 4, 
2019; Cao Siqi, ``China Births Dip in 2018,'' Global Times, January 1, 
2019; CECC, 2017 Annual Report, October 5, 2017, 154.
    \47\ Liang Jianzhang and Huang Wenzhang, ``Opinion: China's 
Demographic Crisis Is a Reality,'' Caixin, January 25, 2019; Shannon 
Tiezzi, ``China's Number of Births Just Keeps Dropping,'' The Diplomat, 
November 1, 2018; ``Zhongguo weilai ji nian xin sheng renkou yuji chixu 
xiajiang'' [China's newborn population expected to continue declining 
in the next few years], Voice of America, November 1, 2018.
    \48\ Liang Jianzhang and Huang Wenzhang, ``Opinion: China's 
Demographic Crisis Is a Reality,'' Caixin, January 25, 2019; Cao Siqi, 
``China Births Dip in 2018,'' Global Times, January 1, 2019; Shannon 
Tiezzi, ``China's Number of Births Just Keeps Dropping,'' The Diplomat, 
November 1, 2018.
    \49\ Shannon Tiezzi, ``China's Number of Births Just Keeps 
Dropping,'' The Diplomat, November 1, 2018; Asa Butcher, ``Birth Rate 
Drops in China for Third Consecutive Year since Child Policy Change,'' 
GB Times, January 4, 2019; Hu Chao and Meng Leilei, ``Is China Facing a 
Looming Population Crisis?,'' CGTN, February 7, 2019.
    \50\ Hu Chao and Meng Leilei, ``Is China Facing a Looming 
Population Crisis?,'' CGTN, February 7, 2019; Wang Xiaodong, 
``Birthrate's Continued Fall Triggers Search for Ways to Grow 
Families,'' China Daily, March 18, 2019; Marcus Roberts, ``The 
Bifurcation of Chinese Family Planning Policy,'' Mercator Net, February 
26, 2019.
    \51\ Wang Xiaodong, ``Birthrate's Continued Fall Triggers Search 
for Ways to Grow Families,'' China Daily, March 18, 2019; ``China 
Facing Shortage of Child Care Services,'' Xinhua, April 3, 2019; 
``China to Encourage Childbirth in 2019,'' Xinhua, December 22, 2018.
    \52\ Wang Xiaodong, ``Birthrate's Continued Fall Triggers Search 
for Ways to Grow Families,'' China Daily, March 18, 2019; Echo Huang, 
``China in 2018 Saw Its Fewest Births in More than Half a Century,'' 
Quartz, January 21, 2019; ``Family Support, Career Prospects Top 
Concerns for Having Second Child: Newspaper,'' Xinhua, January 23, 
2019.
    \53\ ``China's Demographic Danger Grows as Births Fall Far Below 
Forecast,'' Wall Street Journal, February 9, 2019; ``China Sees Fewest 
Births in 2018 since Mao's Great Famine,'' Bloomberg, January 21, 2019; 
Zhou Minxi, ``Young, Middle Class and Childless: Behind China's 
Declining Birth Rates,'' CGTN, January 30, 2019; Tom Clifford, ``China 
Faces Economic Headwinds from Shrinking Population,'' International 
Policy Digest, March 27, 2019.
    \54\ Steven Lee Myers and Claire Fu, ``A Flurry of Ideas to Reverse 
China's Declining Birthrate, but Will Beijing Listen?,'' New York 
Times, March 13, 2019; Teng Jing Xuan, ``Will a Boom in Lucky `Pig' 
Babies Reverse China's Fertility Slump?,'' Caixin, December 20, 2018; 
Asa Butcher, ``Birth Rate Drops in China for Third Consecutive Year 
since Child Policy Change,'' GB Times, January 4, 2019.
    \55\ Liang Jianzhang and Huang Wenzhang, ``Opinion: China's 
Demographic Crisis Is a Reality,'' Caixin, January 25, 2019; Steven Lee 
Myers and Claire Fu, ``A Flurry of Ideas to Reverse China's Declining 
Birthrate, but Will Beijing Listen?,'' New York Times, March 13, 2019; 
Marcus Roberts, ``The Bifurcation of Chinese Family Planning Policy,'' 
Mercator Net, February 26, 2019.
    \56\ Shannon Tiezzi, ``China's Number of Births Just Keeps 
Dropping,'' The Diplomat, November 1, 2018; Liang Jianzhang and Huang 
Wenzhang, ``Opinion: China's Demographic Crisis Is a Reality,'' Caixin, 
January 25, 2019; Shi Yu, ``People-First Policy for Healthy Growth,'' 
China Daily, August 22, 2018.
    \57\ ``Zhongguo shengyu lu quanqiu dao shu quanmian kaifang reng 
yaoyao wuqi (xia)'' [China's fertility rate lowest in the world, is the 
end of family planning policy still distant? (part 2)], Radio Free 
Asia, January 25, 2019; Christopher Bodeen, ``China's Leaders Want More 
Babies, but Local Officials Resist,'' Associated Press, February 19, 
2019; Shi Yu, ``People-First Policy for Healthy Growth,'' China Daily, 
August 22, 2018.
    \58\ Shi Yu, ``People-First Policy for Healthy Growth,'' China 
Daily, August 22, 2018.
    \59\ National Health Commission, ``Dui Shisan Jie Renda Yici Huiyi 
di 1949 hao jianyi de dafu'' [Reply to 13th NPC First Session's 
suggestion no. 1949], January 8, 2019.
    \60\ National Health Commission, ``Dui Shisan Jie Renda Yici Huiyi 
di 1948 hao jianyi de dafu'' [Reply to 13th NPC First Session's 
suggestion no. 1948], January 8, 2019.
    \61\ World Bank, ``Fertility Rate, Total (Births Per Woman): 
China,'' accessed April 3, 2019.
    \62\ Central Intelligence Agency, ``World Factbook: China,'' 
accessed May 15, 2019; Charlie Campbell, ``China Is Preparing to End 
Draconian Family Planning Measures. but That Won't Solve Its 
Demographic Crisis,'' Time, August 28, 2018.
    \63\ Marcus Roberts, ``The Bifurcation of Chinese Family Planning 
Policy,'' Mercator Net, February 26, 2019; Christopher Bodeen, 
``China's Leaders Want More Babies, but Local Officials Resist,'' 
Associated Press, February 19, 2019.
    \64\ National Bureau of Statistics of China, ``2018 nian jingji 
yunxing baochi zai heli qujian fazhan de zhuyao yuqi mubiao jiao hao 
wancheng'' [The economy moved within reasonable range in 2018, main 
expected development targets were reached], January 21, 2019; Tom 
Clifford, ``China Faces Economic Headwinds from Shrinking Population,'' 
International Policy Digest, March 27, 2019; Stella Qiu, Yawen Chen, 
and Ryan Woo, ``Modern China's Birth Rate Falls to Lowest Ever,'' 
Reuters, January 21, 2019; Central Intelligence Agency, ``World 
Factbook: China,'' accessed May 15, 2019. According to the Central 
Intelligence Agency, the birth rate is defined as ``the average annual 
number of births during a year per 1,000 persons in the population . . 
.. The birth rate is usually the dominant factor in determining the 
rate of population growth.''
    \65\ National Bureau of Statistics of China, ``2018 nian jingji 
yunxing baochi zai heli qujian fazhan de zhuyao yuqi mubiao jiao hao 
wancheng'' [The economy moved within reasonable range in 2018, main 
expected development targets were reached], January 21, 2019; National 
Bureau of Statistics of China, ``Li Xiru: renkou zongliang pingwen 
zengzhang chengzhenhua shuiping wenbu tigao'' [Li Xiru: total 
population increases steadily, urbanization level improves steadily], 
January 23, 2019; National Bureau of Statistics of China, ``2017 nian 
jingji yunxing wenzhong xianghao, hao yu yuqi'' [The economy was stable 
in 2017, exceeding expectations], January 18, 2018; ``Jisheng weiji 
baofa Zhongguo 10 nian hou 2 ren gongzuo yang 1 ren'' [Family planning 
crisis, in China 10 years from now, the work of 2 people will support 1 
person], 21st Century Business Herald, reprinted in Boxun, January 29, 
2019.
    \66\ National Bureau of Statistics of China, ``2018 nian jingji 
yunxing baochi zai heli qujian fazhan de zhuyao yuqi mubiao jiao hao 
wancheng'' [The economy moved within reasonable range in 2018, main 
expected development targets were reached], January 21, 2019; National 
Bureau of Statistics of China, ``Li Xiru: renkou zongliang pingwen 
zengzhang chengzhen hua shuiping wenbu tigao'' [Li Xiru: total 
population increases steadily, urbanization level improves steadily], 
January 23, 2019; National Bureau of Statistics of China, ``2017 nian 
jingji yunxing wenzhong xianghao, hao yu yuqi'' [The economy was stable 
in 2017, exceeding expectations], January 18, 2018.
    \67\ State Council, ``Guojia Renkou Fazhan Guihua (2016-2030 
Nian)'' [National Population Development Plan (2016-2030)], issued 
December 30, 2016.
    \68\ Chen Jian, ``Baogao yuce, 2050 nian Zhongguo laonian xiaofei 
shichang jiang da 60 wanyi yuan'' [Report predicts, China's elderly 
consumer market will reach 60 trillion yuan by 2050], China News 
Service, October 21, 2018; Zhu Yueying, ``Fazhan zhihui yanglao yingdui 
laolinghua'' [Develop smart [ways] to care for the elderly to address 
aging], People's Daily, December 6, 2018.
    \69\ `` `Renkou yu Laodong Lupishu: Zhongguo Renkou yu Laodong 
Wenti Baogao No. 19' fabuhui zhaokai'' [``Population and Labor Green 
Paper: China's Population and Labor Issues Report No. 19'' conference 
held], Social Sciences Academic Press, January 3, 2019; Tang Ziyi, 
``Chart of the Day: China's Shrinking Workforce,'' Caixin, January 29, 
2019.
    \70\ ``Jisheng weiji baofa Zhongguo 10 nian hou 2 ren gongzuo yang 
1 ren'' [Family planning crisis, in China 10 years from now, the work 
of 2 people will support 1 person], 21st Century Business Herald, 
reprinted in Boxun, January 29, 2019; Wang Feng and Yong Cai, ``China 
Isn't Having Enough Babies,'' New York Times, February 19, 2019; David 
Stanway, ``China Lawmakers Urge Freeing Up Family Planning as Birth 
Rates Plunge,'' Reuters, March 12, 2019; Frank Tang, ``China's State 
Pension Fund to Run Dry by 2035 as Workforce Shrinks Due to Effects of 
One-Child Policy, Says Study,'' South China Morning Post, May 3, 2019.
    \71\ `` `Renkou yu Laodong Lupishu: Zhongguo Renkou yu Laodong 
Wenti Baogao No. 19' fabuhui zhaokai'' [``Population and Labor Green 
Paper: China's Population and Labor Issues Report No. 19'' conference 
held], Social Sciences Academic Press, January 3, 2019; Zhou Minxi, 
``Young, Middle Class and Childless: Behind China's Declining Birth 
Rates,'' CGTN, January 30, 2019; ``China's Demographic Danger Grows as 
Births Fall Far Below Forecast,'' Wall Street Journal, February 9, 
2019.
    \72\ For national laws and regulations prohibiting the practices of 
non-medically necessary gender determination testing and sex-selective 
abortion, see Zhonghua Renmin Gongheguo Renkou Yu Jihua Shengyu Fa [PRC 
Population and Family Planning Law], passed December 29, 2001, amended 
December 27, 2015, effective January 1, 2016, art. 35; National Health 
and Family Planning Commission et al., Jinzhi Fei Yixue Xuyao De Tai'er 
Xingbie Jianding He Xuanze Xingbie Rengong Zhongzhi Renshen De Guiding 
[Provisions on Prohibiting Non-Medically Necessary Sex Determination 
and Sex-Selective Abortion], issued March 28, 2016, effective May 1, 
2016. For provincial regulations that ban non-medically necessary sex 
determination and sex-selective abortion, see, e.g., Jiangxi Province 
People's Congress Standing Committee, Jiangxi Sheng Renkou Yu Jihua 
Shengyu Tiaoli [Jiangxi Province Population and Family Planning 
Regulations], issued June 16, 1990, amended and effective May 31, 2018, 
arts. 12-14; Hubei Province People's Congress Standing Committee, Hubei 
Sheng Renkou Yu Jihua Shengyu Tiaoli [Hubei Province Population and 
Family Planning Regulations], issued December 1, 2002, amended and 
effective January 13, 2016, art. 31.
    \73\ See, e.g., Linda Lew, ``Chinese Blood Mule, 12, Caught Trying 
to Smuggle 142 Samples into Hong Kong for Sex Testing,'' South China 
Morning Post, March 28, 2019; ``Feifa tai'er xingbie jianding cheng 
heishe! Chouxue ji dao jingwai jiance bian zhi nan nu'' [A black market 
for illegal fetal sex determination! Blood sample sent overseas to 
determine sex], Shanghai Observer, October 26, 2018.
    \74\ National Bureau of Statistics of China, ``2018 nian jingji 
yunxing baochi zai heli qujian fazhan de zhuyao yuqi mubiao jiao hao 
wancheng'' [The economy moved within reasonable range in 2018, main 
expected development targets were reached], January 21, 2019.
    \75\ National Bureau of Statistics of China, ``2015 nian guomin 
jingji yunxing wenzhong youjin, wenzhong youhao'' [National economy 
moved in the direction of steady progress in 2015], January 19, 2016.
    \76\ National Bureau of Statistics of China, ``2016 nian guomin 
jingji shixian `Shisan Wu' lianghao kaiju'' [National economy achieved 
a good start for the ``13th Five-Year Plan'' period in 2016], January 
20, 2017; National Bureau of Statistics of China, ``2017 nian jingji 
yunxing wenzhong xianghao, hao yu yuqi'' [The economy was stable in 
2017, exceeding expectations], January 18, 2018; National Bureau of 
Statistics of China, ``2018 nian jingji yunxing baochi zai heli qujian 
fazhan de zhuyao yuqi mubiao jiao hao wancheng'' [The economy moved 
within reasonable range in 2018, main expected development targets were 
reached], January 21, 2019; Zhonghua Renmin Gongheguo Renkou Yu Jihua 
Shengyu Fa [PRC Population and Family Planning Law], passed December 
29, 2001, amended December 27, 2015, effective January 1, 2016, art. 
18. On December 27, 2015, the 12th National People's Congress Standing 
Committee amended the Population and Family Planning Law, which became 
effective on January 1, 2016, allowing all married couples to have two 
children.
    \77\ Liu Yanju, ``Daling sheng nu bushi shenme wenti, nongcun sheng 
nan caishi zhenzheng de weiji'' [Older leftover women are not a 
problem, rural leftover men are the real crisis], Beijing News, January 
23, 2019; Wusheng County Communist Party Committee Party School, 
``Pinkun diqu daling nan qingnian hunpei kunnan wenti de diaocha yu 
sikao ---- yi Wusheng xian Liemian zhen weili'' [Research and 
reflection on the problem of older men with marriage difficulties in 
poor rural areas: Wusheng county's Liemian township as an example], 
December 6, 2018; Dandan Zhang, Lisa Cameron, and Xin Meng, ``Has 
China's One Child Policy Increased Crime?,'' Oxford University Press 
(blog), March 25, 2019; Andrea den Boer and Valerie M. Hudson, ``The 
Security Risks of China's Abnormal Demographics,'' Monkey Cage (blog), 
Washington Post, April 30, 2014.
    \78\ Liu Yanju, ``Daling sheng nu bushi shenme wenti, nongcun sheng 
nan caishi zhenzheng de weiji'' [Older leftover women are not a 
problem, rural leftover men are the real crisis], Beijing News, January 
23, 2019; Andrea den Boer and Valerie M. Hudson, ``The Security Risks 
of China's Abnormal Demographics,'' Monkey Cage (blog), Washington 
Post, April 30, 2014; Peng Xunwen, ``3000 wan `shengnan' gen shui 
jiehun'' [Who will marry the 30 million ``surplus men?''], People's 
Daily, February 13, 2017.
    \79\ Wusheng County Communist Party Committee Party School, 
``Pinkun diqu daling nan qingnian hunpei kunnan wenti de diaocha yu 
sikao ---- yi Wensheng xian Liemian zhen weili'' [Research and 
reflection on the problem of older men with marriage difficulties in 
poor rural areas: Wusheng county's Liemian township as an example], 
December 6, 2018; Andrea den Boer and Valerie M. Hudson, ``The Security 
Risks of China's Abnormal Demographics,'' Monkey Cage (blog), 
Washington Post, April 30, 2014; Peng Xunwen, ``3000 wan `shengnan' gen 
shui jiehun'' [Who will marry the 30 million ``surplus men?''], 
People's Daily, February 13, 2017.
    \80\ See, e.g., ``How China's Massive Gender Imbalance Drives Surge 
in Southeast Asian Women Sold into Marriage,'' Agence France-Presse, 
reprinted in South China Morning Post, December 11, 2018; Rina 
Chandran, ``New Roads, Old War Fan Sale of Southeast Asian Brides in 
China,'' Reuters, December 7, 2018; Anna Maria Romero, ``How China's 
One-Child Policy Has Resulted in Millions of Single Men, Plus South 
East Asian Women Sold into Marriage,'' The Independent, December 13, 
2018; Sidharth Shekhar, ``Chinese Men Using CPEC to Lure Pakistani 
Women for Trafficking to China as `Brides,' '' Times Now News, April 
20, 2019.
    \81\ See, e.g., Nguyen Hai, ``Another Vietnamese Woman Investigated 
in Sale of Newborns to China,'' VnExpress, February 16, 2019; Nguyen 
Hai, ``Vietnam Probes Sale of Newborns to China,'' VnExpress, January 
28, 2019; Frank Hossack, ``China's Child Trafficking Problem Its 
Unwanted Children,'' Nanjinger, August 19, 2018.
    \82\ Nguyen Hai, ``Another Vietnamese Woman Investigated in Sale of 
Newborns to China,'' VnExpress, February 16, 2019; Nguyen Hai, 
``Vietnam Probes Sale of Newborns to China,'' VnExpress, January 28, 
2019.
    \83\ Nguyen Hai, ``Another Vietnamese Woman Investigated in Sale of 
Newborns to China,'' VnExpress, February 16, 2019; Nguyen Hai, 
``Vietnam Probes Sale of Newborns to China,'' VnExpress, January 28, 
2019.
    \84\ Nguyen Hai, ``Another Vietnamese Woman Investigated in Sale of 
Newborns to China,'' VnExpress, February 16, 2019; Nguyen Hai, 
``Vietnam Probes Sale of Newborns to China,'' VnExpress, January 28, 
2019.


                                                Anti-Crime and 
                                                  Vice Campaign
                                                Anti-Crime and 
                                                Vice Campaign

 Special Topic: Migrant Neighborhoods a Target of Anti-Crime and Vice 
                                Campaign


                                Findings

        <bullet> An anti-crime campaign launched by central 
        authorities in 2018 is being used to target 
        marginalized groups in China. Called the ``Specialized 
        Struggle to Sweep Away Organized Crime and Eliminate 
        Vice,'' the stated aims of the three-year campaign 
        include guaranteeing China's lasting political 
        stability and consolidating the foundation of the 
        Chinese Communist Party's authoritative power.
        <bullet> The Commission observed reports of local 
        governments invoking this anti-crime campaign to target 
        groups of people including petitioners (individuals who 
        seek redress from the government), religious believers, 
        village election candidates, lawyers, and internal 
        migrants.
        <bullet> Municipal governments carried out large-scale 
        evictions and demolitions of internal migrant 
        neighborhoods in the name of the anti-crime campaign. 
        These localities appear to be using the campaign to 
        achieve the goals of a central government plan to 
        ``renovate'' urban villages across China by 2020. Urban 
        villages are municipal neighborhoods that are 
        categorized as rural under China's household 
        registration (hukou) system. Registered residents of 
        these urban villages often rent to internal migrants, 
        who have hukou from other localities and face 
        discrimination in housing, education, and the provision 
        of government services.
        <bullet> In addition to evictions and demolitions of 
        internal migrant neighborhoods, local governments have 
        also invoked the anti-crime campaign to justify 
        increasing monitoring and surveillance of internal 
        migrant neighborhoods. For example, in Xi'an 
        municipality, public security officers investigated 
        over 800 internal migrant communities and over 400 
        urban villages under the local ``2019 Thunder Strike 
        and Iron Fist Anti-Crime and Vice Operation.''

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Call on Chinese authorities to end forced evictions, 
        demolitions, and heightened surveillance of internal 
        migrant communities across China, and to follow both 
        international and Chinese law in providing adequate 
        notice, compensation, and assistance to residents when 
        public safety requires demolishing dangerous 
        structures.
          Encourage the Chinese government to expand both the 
        rights of migrant workers in China, and the space for 
        civil society organizations that provide social 
        services and legal assistance to internal migrants. 
        Note that improving the rights of internal migrants and 
        expanding their access to social services would likely 
        lower the chances of spontaneous, large-scale protests, 
        while large-scale forced evictions, demolitions, and 
        surveillance could increase the likelihood of such 
        protests.
          Call on Chinese authorities to accelerate reforms to 
        the hukou system, including lowering restrictions on 
        migration to major cities and centers of economic 
        opportunity; equalizing the level and quality of public 
        benefits and services tied to local hukou and residence 
        permits; and implementing laws and regulations to 
        provide equal treatment for all Chinese citizens, 
        regardless of place of birth, residence, or hukou 
        status.
          Support programs, organizations, and exchanges with 
        Chinese policymakers and academic institutions engaged 
        in research and outreach to migrants, in order to 
        advance legal and anti-discrimination assistance for 
        migrants and their families, and to encourage policy 
        debates aimed at eliminating inequality and 
        discrimination connected to residence policies, 
        including the hukou system.


                                                Anti-Crime and 
                                                  Vice Campaign
                                                Anti-Crime and 
                                                Vice Campaign

 Special Topic: Migrant Neighborhoods a Target of Anti-Crime and Vice 
                                Campaign


                              Introduction

    This past year, the Commission observed reports of local 
authorities in jurisdictions across China targeting internal 
migrants, petitioners, religious groups, and others with 
increased monitoring and other forms of repression. In many 
cases, local authorities tied these actions to a central-level 
Chinese Communist Party and government campaign called the 
``Specialized Struggle to Sweep Away Organized Crime and 
Eliminate Vice'' (Saohei Chu'e Zhuanxiang Douzheng, or the 
``anti-crime and vice campaign''). This section will examine 
the origins and broad application of this campaign, with a 
special focus on how lower-level Party and government officials 
used the campaign to justify increased monitoring of internal 
migrants and large-scale evictions and demolitions of migrant 
neighborhoods.
    On January 23, 2018, the Communist Party Central Committee 
and the State Council announced the commencement of a three-
year national anti-crime and vice campaign in the form of a 
centrally issued circular. Authorities did not make the 
circular publicly available, but the central government news 
agency Xinhua provided a summary of the circular.\1\ According 
to that summary, the four stated aims of the campaign are:

        <bullet> guaranteeing the people's contentment in life 
        and work,
        <bullet> social stability and orderliness,
        <bullet> China's lasting political stability,\2\ and
        <bullet> further consolidating the foundation of 
        Communist Party rule.\3\

    A Chinese academic observed that the campaign is intended 
to bring greater legitimacy to the Party's governance by 
increasing central Party and government officials' control over 
local government, which is often otherwise dominated by 
``grass-roots leaders'' of villages and enterprises.\4\ A Party 
official announced that by the end of March 2019, authorities 
had prosecuted 79,018 people as part of the campaign.\5\
    According to state-run media outlet Xinhua, the Party has 
directed the campaign to focus on ``key areas, key industries, 
and key sectors with prominent problems of crime and vice,'' 
\6\ and the Ministry of Public Security emphasized that the 
campaign must include the ``modernization of social management 
at the grassroots level to eradicate the breeding grounds of 
crime and vice'' (chanchu hei'e shili zisheng turang).\7\ This 
broad mandate has provided local authorities with large 
discretion to target various types of groups and conduct, 
leading international media \8\ as well as the Central 
Commission for Discipline and Inspection to openly criticize 
the broad application of the campaign at the local level.\9\
    Local authorities across China have invoked the campaign to 
restrict the freedoms of a wide range of marginalized groups. 
For example, a number of local governments have specifically 
named petitioners--individuals with grievances seeking redress 
from the government--as targets of the campaign.\10\ Some local 
governments reportedly increased monitoring and suppression of 
religious groups in the name of the anti-crime and vice 
campaign, with officials asking residents to report on members 
of religious groups that are not officially registered.\11\ 
Authorities excluded 51,000 individuals from running in village 
elections as part of the anti-crime and vice campaign, claiming 
some of these individuals had suspected ties to organized crime 
or ``did not meet criteria'' such as ``excellent political 
quality.'' \12\ Authorities have also used the campaign to 
suppress ethnic minority groups in the Xinjiang Uyghur 
Autonomous Region and the Tibet Autonomous Region.\13\ [For 
more information on how government officials have used this 
campaign against religious believers, ethnic minority groups, 
petitioners, and other groups, see Section II--Freedom of 
Religion, Section IV--Xinjiang, and Section V--Tibet.]
    Also as part of the campaign, some local governments 
increased monitoring of ``urban villages'' (chengzhong cun) 
that are often areas with large populations of internal 
migrants.\14\ Local municipal governments have sought to 
demolish these urban villages, sometimes referred to as 
``slums'' (penghu qu) by government sources, as part of a 
national plan to ``renovate'' (gaizao) all urban villages by 
2020.\15\ Some local government documents specifically point to 
urban villages and neighborhoods with large numbers of migrant 
workers as areas with ``crime and vice forces'' (hei e 
shili).\16\ One example of increased monitoring of migrant 
communities this past year as part of the anti-crime and vice 
campaign is Xi'an's ``2019 Thunder Strike and Iron Fist Anti-
Crime and Vice Operation'' (lei ting tie wan saohei chu'e 
xingdong) that involved public security officers investigating 
over 800 internal migrant communities and over 400 urban 
villages.\17\

------------------------------------------------------------------------
  Urban Village Eviction, Demolition, and Surveillance under the Anti-
               Crime and Vice Campaign: Yuhuazhai in Xi'an
-------------------------------------------------------------------------
  In October 2018, local officials of the Xi'an Hi-Tech Industries
 Development Zone (Xi'an Hi-Tech Zone), Xi'an municipality, Shaanxi
 province, initiated an eviction and demolition campaign followed by a
 large-scale inspection and registration of remaining businesses and
 residents as part of local implementation of the national ``anti-crime
 and vice campaign'' in February 2019.\18\ The campaign targeted
 Yuhuazhai village in Yanta district, Xi'an, itself a collection of
 eight urban villages \19\ with a local official reporting more than
 100,000 internal migrant residents compared with 9,000 residents with
 local residence permits--leading to numerous rights abuses and several
 deaths.\20\ The campaign was led by the Xi'an Hi-Tech Zone Management
 Committee and largely state-owned education technology company China Hi-
 Tech Group,\21\ acting jointly with over 20 government agencies to
 ``thoroughly renovate, evict, and demolish'' residences and local
 enterprises within the village.\22\ China Business News reporters
 observed that in October 2018, the Xi'an Hi-Tech Zone Management
 Committee reportedly held a competition among ten districts and
 townships over the acquisition of more than 33 square kilometers of
 land, scoring them on categories including whole-village demolition,
 barrier removal, and pollution reduction.\23\
------------------------------------------------------------------------


------------------------------------------------------------------------
  Urban Village Eviction, Demolition, and Surveillance under the Anti-
         Crime and Vice Campaign: Yuhuazhai in Xi'an--Continued
-------------------------------------------------------------------------
  Local officials reportedly hired several thousand people--some
 allegedly members of criminal syndicates--to harass and assault
 residents,\24\ resulting in at least one death,\25\ as well as to
 demolish commercial establishments in October.\26\ Officials gave
 businesses and residents notice on the same day of the demolition,
 thereby depriving them of the opportunity to seek judicial or
 administrative review and denying entrance to those without residence
 permits so that many were unable to recover their personal
 property.\27\ In November, residents reportedly protested continued
 demolitions and faced violence from people in local security
 uniforms.\28\ Demolition campaigns reportedly were also planned for 116
 villages in and around Xi'an, with 62 scheduled to begin within
 2019.\29\
------------------------------------------------------------------------

 Vulnerability of Internal Migrants and Household Registration Policies

    Chinese authorities have a history of carrying out forced 
evictions \30\ that affect migrant workers in particular. 
International rights organizations documented widespread forced 
evictions prior to the 2008 Beijing Olympics and Expo 2010 in 
Shanghai municipality.\31\ In late 2017 and early 2018, in 
response to two fatal fires in migrant neighborhoods,\32\ 
authorities in Beijing municipality and the surrounding areas 
launched a campaign of large-scale forced evictions and 
demolitions in migrant neighborhoods across the region.\33\ 
Residents reportedly were given days or hours to leave.\34\
    Chinese migrant workers continued to be marginalized 
because of their residency status under the household 
registration (hukou) system. The hukou system, established in 
1958,\35\ classified Chinese citizens as being urban or rural 
and effectively tied them to a locality.\36\ According to the 
National Bureau of Statistics of China, in 2018, 286 million 
people in China did not live in their hukou location.\37\ Yet 
provision of certain government services, such as education, 
remains tied to one's hukou location, which is, in general, 
inherited from one's parents.\38\ The hukou system reportedly 
also exacerbates these migrants' vulnerability to exploitation 
in China's workforce.\39\ [For more information on forced 
labor, see Section II--Human Trafficking.]
    In 2014, the government began to reform the hukou system to 
gradually eliminate the urban-rural distinction and allow some 
migrants to obtain hukou in smaller cities.\40\ In April 2019, 
the National Development and Reform Commission required cities 
with populations of 1 to 3 million to eliminate all 
restrictions on obtaining hukou, yet restrictions remained in 
cities with populations above 3 million, such as Xi'an and 
Beijing,\41\ and the government continues to use the hukou 
system to restrict internal migration.\42\
    In 2014, the UN Committee on Economic, Social and Cultural 
Rights urged China ``to ensure that any relocation necessary 
for city renewal is carried out after prior consultation with 
the affected individuals . . ..'' \43\ In 2018, the UN 
Committee on the Elimination of Racial Discrimination was 
concerned by reports that changes to the hukou system ``have 
not made substantial positive changes for many rural migrants, 
including ethnic minorities.'' \44\
    Actions taken by Chinese government officials enforcing the 
eviction campaign throughout China contravene both 
international standards \45\ and Chinese law.\46\ Restrictions 
on movement and discrimination arising from the hukou system 
contravene international human rights standards guaranteeing 
freedom of residence.\47\


                                                Anti-Crime and 
                                                  Vice Campaign
                                                Anti-Crime and 
                                                Vice Campaign
    Notes to Section II--Special Topic: Migrant Neighborhoods a Target 
of Anti-Crime and Vice Campaign

    \1\ ``Zhonggong Zhongyang, Guowuyuan fachu `Guanyu Zhankai Saohei 
Chu'e Zhuanxiang Douzheng De Tongzhi' '' [Party Central Committee and 
State Council issue ``Circular Regarding the Launch of the Specialized 
Struggle to Sweep Away Organized Crime and Eliminate Vice''], Xinhua, 
January 24, 2018.
    \2\ These three concepts originally appeared in Xi Jinping's 
inaugural address to the study session of the Communist Party Central 
Committee Political Bureau at the 18th Party Congress's in 2012. Xi 
Jinping, ``Jinjin weirao jianchi he fazhan Zhongguo tese shehui zhuyi 
xuexi xuanchuan guanche Dang de Shiba Da jingshen'' [Focus on upholding 
and developing socialism with Chinese characteristics; study, 
disseminate, and implement the spirit of the 18th Party Congress], 
November 17, 2012, reprinted in People's Daily, November 19, 2012; 
``Zhonggong Zhongyang, Guowuyuan fachu `Guanyu Zhankai Saohei Chu'e 
Zhuanxiang Douzheng De Tongzhi' '' [Party Central Committee and State 
Council issue ``Circular Regarding the Launch of the Specialized 
Struggle to Sweep Away Organized Crime and Eliminate Vice''], Xinhua, 
January 24, 2018.
    \3\ ``Zhonggong Zhongyang, Guowuyuan fachu `Guanyu Zhankai Saohei 
Chu'e Zhuanxiang Douzheng De Tongzhi' '' [Party Central Committee and 
State Council issue ``Circular Regarding the Launch of the Specialized 
Struggle to Sweep Away Organized Crime and Eliminate Vice''], Xinhua, 
January 24, 2018.
    \4\ Guo Rui, ``China's War on Organised Crime, Corrupt Officials 
Sees 79,000 People Detained,'' South China Morning Post, April 14, 
2019.
    \5\ ``Saohei ban: jiezhi sanyue di quanguo qisu shehei she'e fanzui 
an 14226 jian'' [Crime and vice office: number of suspected crime and 
vice cases prosecuted nationwide reaches 14,226 by end of March], 
Xinhua, April 9, 2019.
    \6\ ``Zhonggong Zhongyang, Guowuyuan fachu `Guanyu Zhankai Saohei 
Chu'e Zhuanxiang Douzheng De Tongzhi' '' [Party Central Committee and 
State Council issue ``Circular Regarding the Launch of the Specialized 
Struggle to Sweep Away Organized Crime and Eliminate Vice''], Xinhua, 
January 24, 2018.
    \7\ ``Tigao zhengzhi zhanwei zhongshen tuijin saohei chu'e 
gongjianzhan'' [Raise the status of political thought in deepening and 
promoting the tough battle to eliminate crime and evil], People's 
Public Security Daily, reprinted in Ministry of Public Security, 
October 17, 2018.
    \8\ ``Zhongguo san nian saohei chu'e ying `zhongkao': baolu de 
wenti yu qianjing'' [China's three-year [campaign to] eliminate crime 
and vice meets ``midterm test'': exposed problems and future 
possibilities], BBC, April 10, 2019; ``China Is Waging a Nationwide 
Campaign against Gang Crime,'' Economist, February 28, 2019.
    \9\ Zhang Yan, ``Saohei chu'e bixu jingzhun shibie jingzhun daji'' 
[Eliminate crime and vice campaign requires precise distinctions and 
precise attacks], China Discipline and Inspection Daily, April 17, 
2019.
    \10\ See, e.g., ``Yongzhou shi saohei chu'e zhuanxiang douzheng 
dudao zu gonggao'' [Yongzhou Municipal Specialized Struggle to 
Eliminate Crime and Vice Supervisory Group public announcement], 
Yongzhou Municipal People's Government, April 12, 2019; Rights Defense 
Network, ``Hei shehui dingyi zao dianfu, Hubei Qianjiang Zhouji 
Nongchang duli houxuanren Peng Feng shoudao difang saohei wenjian'' 
[Definition of organized crime radically changed, Zhouji farm, 
Qianjiang, Hubei independent candidate Peng Feng receives local anti-
crime document], August 15, 2018; Rights Defense Network, ``Neimenggu 
E'erduosi Hangjin Qi zhengfu ba shangfang gaozhuang wangshang fatie 
deng xingwei dou lieru saohei chu'e de fanchou'' [In Ordos, Inner 
Mongolia, Hanggin Banner government lists petitioning, online posting 
as categories in scope of eliminate crime and vice campaign], March 19, 
2018.
    \11\ Feng Gang, `` `Saohei chu'e' xingdong maotou zhizhi zongjiao 
xintu'' [``Anti-crime and vice'' campaign spearhead aimed at religious 
believers], Bitter Winter, November 16, 2018; Gu Qi, `` `Saohei' shize 
zhenya xinyang'' [``Anti-crime'' in reality suppresses religious 
faith], Bitter Winter, February 18, 2019.
    \12\ Xiong Feng, ``Rang renmin qunzhong daizhe manman de anquan gan 
juesheng quanmian xiaokang--quanguo saohei chu'e zhuanxiang douzheng 
kaiju zhi nian zongshu'' [Let the masses carry a sense of safety while 
achieving comprehensive moderate prosperity--national eliminate crime 
and vice campaign year summary], Xinhua, December 27, 2018; Zhang Yang, 
``Saohei chu'e wuzhuo shouhu tian lang qi qing'' [Eliminate the filth 
of crime and vice, protect clear skies and fresh air], People's Daily, 
Feburary 26, 2019.
    \13\ `` `Sao hei chu'e' ru jiang shaoshu minzu bei `hei'?'' 
[``Anti-Crime and Vice'' comes to Xinjiang, have ethnic minorities 
become ``criminalized''?], Radio Free Asia, April 16, 2019; ``China Is 
Waging a Nationwide Campaign against Gang Crime,'' Economist, February 
28, 2019. See also ``Hei shili goujie Dalai Lama Xizang saohei mingque 
qingli mubiao'' [Organized crime forces collude with the Dalai Lama, 
Tibet makes clear its goal of cleansing], Duowei, February 10, 2018.
    \14\ Ma Li, ``Why China's Migrants Can't Just Leave Poverty 
Behind,'' Sixth Tone, September 1, 2018; ``Saohei chu'e zhuanxiang 
douzheng youguan wenti'' [Questions regarding the specialized struggle 
to sweep away organized crime and eliminate vice], Yong'an Municipal 
People's Government, November 16, 2018; ``Saohei chu'e zhexie shi yao 
zhidao!'' [Things you need to know about the anti-crime and vice 
campaign!], Guizhou Finance Bureau, March 15, 2019.
    \15\ Tom Hancock, ``Chinese Slum Demolitions Reveal Government Debt 
Strains,'' Financial Times, April 22, 2019; He Huifeng, ``China's Mass 
Urbanisation Projects Mean the End for Guangzhou's 800-Year-Old Urban 
Villages,'' South China Morning Post, April 16, 2019; State Council, 
``Guojia Xinxing Chengzhenhua Guihua (2014-2020 nian)'' [National Plan 
for New Model of Urbanization (2014-2020)], March 16, 2014, table 5.
    \16\ ``Zhi quan qu guangda renmin qunzhong guanyu saohei chu'e 
zhuanxiang douzheng de gongkai xin'' [Open letter to the people of the 
district regarding the specialized struggle to sweep away organized 
crime and eliminate vice], Guangfeng District People's Government, 
March 4, 2019; ``Saohei chu'e zhexie shi yao zhidao!'' [Things you need 
to know about the anti-crime and evil campaign!], Guizhou Finance 
Bureau, March 15, 2019; Wang Ruolin, ``Woshi hangye lingyu zhengzhi 
qude jieduanxing chengxiao'' [Shenzhen business management achieving 
results in phases], Shenzhen News, April 9, 2019; ``Saohei chu'e 
zhuanxiang douzheng youguan wenti'' [Questions regarding the 
specialized struggle to sweep away organized crime and eliminate vice], 
Yong'an Municipal People's Government, November 16, 2018.
    \17\ ``Quanmian tuijin `2019 leiting tie wan saohei chu'e xingdong' 
woshi gong'an jiguan `tie chui xingdong' quanmian zhili she huang she 
du'' [Full-scale promotion of ``2019 Thunderclap Iron Fist Anti-Crime 
and Vice Operation'' Xi'an public security agencies' ``Iron Hammer 
Operation'' comprehensively managed suspected obscenity and gambling], 
Xi'an Evening Post, reprinted in Xi'an People's Government, March 28, 
2019.
    \18\ Xie Tao, ``Xi'an Gaoxin jingfang zuzhi kazhan Yuhuazhai da 
guimo qingcha xingdong'' [Police in Gaoxin, Xi'an, organize large-scale 
inspection operation in Yuhuazhai], China Business News, February 22, 
2019.
    \19\ ``Gaobie chengzhong cun bainian Yuhua yin `xinsheng' '' 
[Bidding farewell to 100-year-old urban village Yuhua and ushering in 
``new era''], Development Zone Report, October 26, 2018; Real Estate 
Elder Sister S (dichanSjie), ``Zaijian le, Yuhuazhai!'' [Goodbye, 
Yuhuazhai!], Zhihu, October 17, 2018.
    \20\ Li Jing, Zhao Bin, and Zhang Pengkang, ``Yuhuazhai yuedi 
chaiqian? gongye yuanqu kaichai, cunzi cengcai hai wei qidong'' 
[Yuhuazhai to be demolished at the end of the month? industrial park 
district begins demolition, village demolition yet to begin], China 
Business News, October 22, 2018. See also Li Yunfeng, ``Xi'an Yuhuazhai 
tuijin zhengcun chaiqian, bainian chengzhong cun jiu mao huan xin yan'' 
[Yuhuazhai, Xi'an, advances with demolition of entire village, hundred-
year-old urban village gets a facelift], Phoenix New Media, December 4, 
2018; Xiong Bin and Chen Jie, ``Xi'an Yuhuazhai cunmin kangyi qiangsu 
zao zhenya'' [Villagers in Yuhuazhai, Xi'an, protesting forced 
demolition are oppressed], New Tang Dynasty Television, December 6, 
2018.
    \21\ Real Estate Elder Sister S (dichanSjie), ``Zaijian le, 
Yuhuazhai!'' [Goodbye, Yuhuazhai!], Zhihu, October 17, 2018; Wang Feng, 
``Zhuanxing zhiye jiaoyu: Zhongguo Gaoke Jituan chengli quanqiu jiaoyu 
fazhan yanjiu yuan'' [Transforming professional education: China Hi-
Tech Group Co. establishes global education development research 
center], 21st Century Economic Report, April 28, 2017.
    \22\ Li Yunfeng, ``Xi'an Yuhuazhai tuijin zhengcun chaiqian, 
bainian chengzhong cun jiu mao huan xin yan'' [Yuhuazhai, Xi'an, 
advances with demolition of entire village, hundred-year-old urban 
village gets a facelift], Phoenix New Media, December 4, 2018.
    \23\ Li Jing, Zhao Bin, and Zhang Pengkang, ``Yuhuazhai yuedi 
chaiqian? gongye yuanqu kaichai, cunzi cengcai hai wei qidong'' 
[Yuhuazhai to be demolished at the end of the month? industrial park 
District begins demolition, village demolition yet to begin], China 
Business News, October 22, 2018.
    \24\ ``Xi'an yu qian cunmin kangyi qiangchai zao zhenya'' [Xi'an 
represses more than a thousand villagers protesting forced 
demolitions], Radio Free Asia, December 5, 2018.
    \25\ Xiong Bin and Chen Jie, ``Xi'an Yuhuazhai cunmin kangyi 
qiangsu zao zhenya'' [Villagers in Yuhuazhai, Xi'an, protesting forced 
demolition are oppressed], New Tang Dynasty Television, December 6, 
2018.
    \26\ Ibid.
    \27\ ``Feifa chaiqian yan de minxin yifa zhiguo zhongyu minsheng'' 
[How can illegal demolition gain the people's support, when rule of law 
is prioritized over people's livelihood], China Guangdong Web, November 
12, 2018.
    \28\ ``Feifa chaiqian yan de min xin yifa zhiguo zhongyu minsheng'' 
[How can illegal demolition gain the people's support, when rule of law 
is prioritized over people's livelihood], China Guangdong Web, November 
12, 2018; ``Xi'an yu qian cunmin kangyi qiangchai zao zhenya'' [Xi'an 
represses more than a thousand villagers protesting forced 
demolitions], Radio Free Asia, December 5, 2018.
    \29\ Real Estate Elder Sister S (dichanSjie), ``Zaijian le, 
Yuhuazhai!'' [Goodbye, Yuhuazhai!], Zhihu, October 17, 2018.
    \30\ See, e.g., Amnesty International, ``Standing Their Ground: 
Thousands Face Violent Eviction in China,'' ASA 17/001/201, October 
2012, 11-23; Human Rights Watch, ``Demolished: Forced Evictions and the 
Tenants' Rights Movement in China,'' March 25, 2004, 6-11.
    \31\ Amnesty International, ``Standing Their Ground: Thousands Face 
Violent Eviction in China,'' ASA 17/001/201, October 2012, 11-12, 31-
32; Centre on Housing Rights and Evictions, ``One World, Whose Dream? 
Housing Rights Violations and the Beijing Olympic Games,'' July 2008, 
7-8; UN Watch, ``38 Rights Groups Urge U.N. to Investigate Shanghai 
Expo Eviction of 18,000 Families,'' July 22, 2010.
    \32\ ``Beijing Daxing huozai yu'nanzhe mingdan gongbu jingfang 
xingju 18 ren'' [List of victims of fire in Daxing, Beijing, made 
public, police criminally detain 18], People's Daily, November 20, 
2017; Guo Chao, ``Quanshi kaizhan anquan yinhuan da paicha da qingli da 
zhengzhi'' [Citywide launch of major inspections, major sweeps, and 
major rectifications of safety risks], Beijing News, November 20, 2017; 
Jiang Chenglong and Cui Jia, ``Beijing Continues Its Safety Crackdown 
in Wake of Fire,'' China Daily, November 27, 2017; Zheping Huang, 
``What You Need to Know about Beijing's Crackdown on Its `Low-End 
Population,' '' Quartz, November 27, 2017; ``Beijing Shibalidian xiang 
huozai hou `diduan renkou' zai zao baoli quzhu gongmin lianshu duncu 
Cai Qi cizhi'' [After fire in Beijing's Shibalidian township, more 
violent evictions of the `low-end population,' citizens jointly sign 
letter urging Cai Qi to resign], Radio Free Asia, December 14, 2017.
    \33\ Beijing Municipality Administration of Work Safety Committee, 
Beijing Shi Anquan Shengchan Weiyuanhui Guanyu Kaizhan Anquan Yinhuan 
Da Paicha Da Qingli Da Zhengzhi Zhuanxiang Xingdong De Tongzhi 
[Circular on Launch of Special Campaign of Major Investigations, Major 
Cleanup, and Major Rectification of Safety Risks], issued November 19, 
2017, sec. 4; Matt Rivers and Serenitie Wang, ``Beijing Forces Migrant 
Workers from Their Homes in `Savage' Demolitions,'' CNN, December 9, 
2017; ``Sensitive Word of the Week: Low-End Population,'' China Digital 
Times, November 30, 2017; ``Beijing Shibalidian xiang huozai hou 
`diduan renkou' zai zao baoli quzhu gongmin lianshu duncu Cai Qi 
cizhi'' [After fire in Beijing's Shibalidian township, more violent 
evictions of the `low-end population,' citizens jointly sign letter 
urging Cai Qi to resign], Radio Free Asia, December 14, 2017; ``Chinese 
Artist Who Filmed Beijing's Mass Evictions Now Faces Eviction 
Himself,'' Radio Free Asia, January 1, 2018. See also Shen Fan and Li 
Rongde, ``Beijing's Migrant Eviction Frenzy Spills Over to Hebei,'' 
Caixin, December 27, 2017; ``Beijing `diduan' xingdong manyan Hebei 
Sanhe baoli qugan wailai renkou'' [Beijing `low-end' campaign spreads, 
migrants violently driven out of Sanhe, Hebei], Radio Free Asia, 
December 30, 2017.
    \34\ Shen Fan and Li Rongde, ``Beijing's Migrant Eviction Frenzy 
Spills Over to Hebei,'' Caixin Global, December 27, 2017; Emily Wang 
and Yi-Ling Liu, ``Beijing Evictions of Migrant Workers Stir Widespread 
Anger,'' Associated Press, November 29, 2017; Jun Mai, `` `They Came 
Banging and Kicking': Beijing Airport Workers Swept Up in Fire Safety 
Crackdown,'' South China Morning Post, November 29, 2017. For more 
information on past forced evictions, see CECC, 2018 Annual Report, 
October 10, 2018, Section II--Special Topic: Forced Evictions in 
Beijing Municipality.
    \35\ National People's Congress Standing Committee, Zhonghua Renmin 
Gongheguo Hukou Dengji Tiaoli [PRC Regulations on Household 
Registration], issued and effective January 9, 1958.
    \36\ See, e.g., Hongbin Li et al., ``Human Capital and China's 
Future Growth,'' Journal of Economic Perspectives 31, no. 1 (Winter 
2017): 28; Yang Song, ``Hukou-Based Labour Market Discrimination and 
Ownership Structure in Urban China,'' Urban Studies 53, no. 8 (2016): 
1658; Spencer Sheehan, ``China's Hukou Reforms and the Urbanization 
Challenge,'' The Diplomat, February 22, 2017. For more information on 
China's hukou system, see CECC, 2017 Annual Report, October 5, 2017, 
169-70.
    \37\ National Bureau of Statistics of China, ``2018 nian jingji 
yunxing baochi zai heli qujian fazhan de zhuyao yuqi mubiao jiaohao 
wancheng'' [The economy moved within a reasonable range in 2018, main 
expected development targets are accomplished well], January 21, 2019.
    \38\ See, e.g., Hongbin Li et al., ``Human Capital and China's 
Future Growth,'' Journal of Economic Perspectives 31, no. 1 (Winter 
2017): 28; Yang Song, ``Hukou-Based Labour Market Discrimination and 
Ownership Structure in Urban China,'' Urban Studies 53, no. 8 (2016): 
1658; China Labour Bulletin, ``Migrant Workers and Their Children,'' 
accessed July 26, 2019; Eli Friedman, Insurgency Trap: Labor Politics 
in Postsocialist China (Ithaca: Cornell University Press, 2014), 14.
    \39\ Ma Li, ``Why China's Migrants Can't Just Leave Poverty 
Behind,'' Sixth Tone, September 1, 2018; China Labour Bulletin, 
``Migrant Workers and Their Children,'' accessed July 26, 2019.
    \40\ State Council, Guowuyuan Guanyu Jinyibu Tuijin Huji Zhidu 
Gaige De Yijian [Opinion on Further Carrying Out Household Registration 
System Reform], issued July 30, 2014, paras. 4-9; ``China to Help 100m 
Settle in Cities,'' Xinhua, reprinted in China Daily, July 30, 2014; 
State Council General Office, ``Tuidong 1 yi fei huji renkou zai 
chengshi luohu fang'an'' [Plan promoting city hukou registration for 
100 million individuals without household registration], issued October 
11, 2019, paras. 4-6; ``Beijing to Scrap Urban-Rural Residency 
Distinction,'' China Digital Times, September 21, 2016.
    \41\ Cheng Siwei and Timmy Shen, ``Residency Restrictions to Be 
Scrapped in Many of China's Cities,'' Caixin, April 8, 2019; National 
Development and Reform Commission, ``2019 nian xinxing chengzhenhua 
jianshe zhongdian renwu'' [Key tasks of new urbanization construction 
in 2019], April 8, 2019; ``Hukou Difficulty Index,'' MacroPolo, Paulson 
Institute, accessed May 15, 2019. See also ``About On the Road,'' 
MacroPolo, Paulson Institute, accessed July 26, 2019.
    \42\ State Council, Guowuyuan Guanyu Jinyibu Tuijin Huji Zhidu 
Gaige De Yijian [Opinion on Further Carrying Out Household Registration 
System Reform], issued July 30, 2014, paras. 6-7. See also ``About On 
the Road,'' MacroPolo, Paulson Institute, accessed July 26, 2019.
    \43\ UN Committee on Economic, Social and Cultural Rights, 
Concluding Observations on the Second Periodic Report of China, 
Including Hong Kong, China, and Macao, China, adopted by the Committee 
at its 40th Meeting, May 23, 2014, E/C.12/CHN/CO/2, June 13, 2014, 
para. 30.
    \44\ UN Committee on the Elimination of Racial Discrimination, 
Concluding Observations on the Second Periodic Report of China, 
Including Hong Kong, China, and Macao, China, adopted by the Committee 
at its 2675th Meeting, August 28, 2018, CERD/C/CHN/CO/14-17, September 
19, 2018, paras. 34-35.
    \45\ UN Committee on Economic, Social and Cultural Rights, CESCR 
General Comment No. 4: The Right to Adequate Housing (Art. 11(1) of the 
Covenant), E/1992/23, December 13, 1991, paras. 8(a), 18. Note that 
this finding is reaffirmed in UN Committee on Economic, Social and 
Cultural Rights, General Comment No. 7: The Right to Adequate Housing 
(Art. 11.1): Forced Evictions, E/1998/2, 20 May 20, 1997, para. 1; 
International Covenant on Economic, Social and Cultural Rights 
(ICESCR), adopted by UN General Assembly resolution 2200A (XXI) of 
December 16, 1966, entry into force January 3, 1976, art. 11(1); United 
Nations Treaty Collection, Chapter IV, Human Rights, International 
Covenant on Economic, Social and Cultural Rights, accessed February 13, 
2019. China has signed and ratified the ICESCR. See also UN Committee 
on Economic, Social and Cultural Rights, General Comment No. 7: The 
Right to Adequate Housing (Art. 11.1): Forced Evictions, E/1998/2, May 
20, 1997, paras. 15-16.
    \46\ Zhonghua Renmin Gongheguo Xingzheng Qiangzhi Fa [PRC 
Administrative Enforcement Law], passed June 30, 2011, effective 
January 1, 2012, arts. 43-44. For analyses of the legality of the 
evictions in Beijing under Chinese law, see ``Jiang Ping, He Weifang 
deng xuezhe lushi dui Beijing shi zhengfu qugan wailai jumin de 
xingdong ji qi yiju de xingzheng wenjian xiang Quanguo Rendahui 
Changweihui tiqing hexianxing shencha de quanwen'' [Full text of 
request from Jiang Ping, He Weifang, and other scholars and lawyers to 
the National People's Congress Standing Committee for a review of the 
constitutionality of the Beijing government's campaign to expel 
nonresidents and relevant administrative documents], December 19, 2017, 
reprinted in Rights Defense Network, December 24, 2017; Wang Liuyi, 
``Beijing shi ``dongji qingli xingdong'' de hefaxing fenxi'' [Analyzing 
the legality of Beijing's ``winter cleanup campaign''], WeChat post, 
reprinted in China Digital Times, November 28, 2017.
    \47\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of December 16, 1966, 
entry into force March 23, 1976, arts. 2(1), 12(1), 12(3), 26; 
Universal Declaration of Human Rights, adopted and proclaimed by UN 
General Assembly resolution 217A (III) of December 10, 1948, arts. 2, 
13(1); UN Committee on Economic, Social and Cultural Rights, Concluding 
Observations on the Second Periodic Report of China, Including Hong 
Kong, China, and Macao, China, adopted by the Committee at its 40th 
Meeting (23 May 2014), E/C.12/CHN/CO/2, June 13, 2014, para. 15; UN 
Human Rights Council, Report of the Special Rapporteur on Extreme 
Poverty and Human Rights on His Mission to China, Philip Alston, A/HRC/
35/26/Add.2, March 28, 2017, paras. 27-28. See also Chinese Human 
Rights Defenders, ``From Forced Evictions of Migrant Workers to Abused 
Children: Violations of Social & Economic Rights in China Refute the 
`China Development Model,' '' December 7, 2017.


                                                Status of Women
                                                Status of Women

                            Status of Women


                                Findings

        <bullet> Women in China face severe discrimination 
        throughout their careers, from job recruitment and 
        hiring to wages and promotions. Such disparities have 
        increased over the current period of economic reform 
        that began in 1978, accelerating during the 2000s with 
        the intensification of market liberalization. Gender 
        biases and sexual harassment in the workplace are major 
        factors contributing to the employment gender gap, as 
        well as national laws mandating parental leave and 
        other entitlements for women and not men. These laws 
        enforce the role of women as caregivers and have led 
        employers to avoid hiring women without children in 
        order to avoid the cost of these legal entitlements.
        <bullet> Following widely publicized grassroots 
        campaigns highlighting challenges faced by women in the 
        workplace, Chinese officials initiated policies to 
        address gender discrimination in employment, including 
        creating a cause of action for disputes over employment 
        discrimination and sexual harassment and a series of 
        policies aimed primarily at punishing employers for 
        discriminatory job recruitment practices. Nonetheless, 
        inadequate enforcement and discriminatory laws persist; 
        local bureaus responsible for enforcement seldom take 
        punitive action in response to complaints, and some 
        laws themselves continue to discriminate against women 
        by barring them from performing certain jobs.
        <bullet> Thirty percent of women have experienced some 
        form of domestic violence, yet nearly three years after 
        the passage of the PRC Anti-Domestic Violence Law in 
        March 2016, Chinese courts had only issued a total of 
        3,718 protective orders by December 2018. News media 
        and expert analysis noted that cultural norms that do 
        not recognize domestic violence as a crime contributed 
        to the low number of reported incidents, with family 
        members and police commonly discouraging victims from 
        going forward with requesting protective orders or 
        divorce.
        <bullet> Despite official repression, independent 
        public advocacy for women's rights continues to 
        influence public discourse and policy. Public advocacy 
        in recent years has highlighted gender inequities in 
        recruitment and sexual harassment, while news media and 
        civil society actors have noted a connection to the 
        issues publicly addressed by national officials this 
        year as a sign that independent advocacy is having an 
        impact even as it has been severely suppressed.
        <bullet> Chinese officials continued censoring online 
        discussion of topics related to feminism and harassing 
        and threatening individual citizens engaging in 
        advocacy. These restrictions were a continuation of the 
        official repression of women's rights advocacy 
        beginning in 2015.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Publicly and privately urge the Chinese government to 
        respect the freedom of expression and assembly of all 
        rights advocates, and in particular to refrain from 
        harassing and intimidating the independent rights 
        advocates seeking to increase awareness about sexual 
        harassment in public areas.
          Urge the Chinese government to publicly expand its 
        commitment to gender equality through measures such as 
        increasing the number of women in the highest levels of 
        political leadership, instituting gender equality and 
        anti-harassment trainings in government workplaces, and 
        challenging discriminatory attitudes based on gender 
        through public education.
          Commend the Chinese government for recent legal 
        developments aimed at promoting the welfare of women 
        and gender equality. These include the inclusion of a 
        gender discrimination case among the Supreme People's 
        Court's guiding cases and the creation of causes of 
        action allowing plaintiffs to sue for sexual harassment 
        and gender discrimination in employment. Encourage the 
        government to strengthen formal support services for 
        implementation--for example, by increasing funding for 
        health services or shelters for women experiencing 
        violence, providing funding and support for lawyers for 
        legal services, and allowing independent lawyers and 
        advocates to assist with the promotion and 
        implementation of laws related to gender equality 
        through lawsuits and public campaigns.
          Support international exchanges among academics, 
        legal advocates, non-governmental organizations, and 
        others that focus on the implementation and enforcement 
        of recently adopted laws promoting gender equity. In 
        particular, facilitate and support technical assistance 
        programs that would help all those working in law 
        enforcement and the judiciary to implement the PRC 
        Anti-Domestic Violence Law effectively and challenge 
        discriminatory attitudes. As the first point of 
        contact, law enforcement in particular should be 
        trained in addressing reports of violence in a way that 
        does not undermine victims' concerns or safety. Urge 
        provincial level officials to implement provincial 
        regulations according to the PRC Anti-Domestic Violence 
        Law.
          Facilitate and support technical assistance programs 
        that would help the development of gender equality 
        education in schools and communities.
          Encourage the collection and analysis of data on 
        disparities in economic and social life based on gender 
        so as to monitor changes.


                                                Status of Women
                                                Status of Women

                            Status of Women


                      Discrimination in Employment

    Although international human rights standards prohibit 
discrimination on the basis of gender,\1\ women in China 
continued to face serious obstacles to equal treatment in 
employment.

        <bullet> Women in China face severe discrimination 
        throughout their careers, from job recruitment and 
        hiring to wages and promotions. Surveys have found that 
        recruitment listings frequently indicate a preference 
        or requirement for men,\2\ with 35 percent of civil 
        servant job listings for 2019 containing gender 
        specifications despite national laws prohibiting gender 
        discrimination in hiring.\3\ Women continued to be 
        represented in the top leadership of only 20.1 percent 
        of Chinese firms and political institutions while 
        earning on average 64.3 percent of what men earned, 
        according to the World Economic Forum's 2018 Global 
        Gender Gap Report.\4\ An International Labour 
        Organization (ILO) study conducted in 2015 noted that 
        such disparities have increased over the current period 
        of economic reform that began in 1978,\5\ accelerating 
        during the 2000s with the intensification of market 
        liberalization.\6\ A survey by Chinese online recruiter 
        Boss Zhipin Major found that three major reasons for 
        the gender disparity in workplace advancement were the 
        comparatively greater share of domestic obligations 
        shouldered by women, their lack of outside connections 
        and social support, and underdeveloped management 
        skills.\7\
        <bullet> National laws mandating parental leave and 
        other entitlements for women and not men are a major 
        reason for discriminatory hiring and dismissal. Male 
        employees are not legally entitled to parental leave, 
        but employers are required to grant female employees 98 
        days of parental leave by the Law on the Protection of 
        Women's Rights and Interests in addition to other 
        parental benefits required only for women, such as 
        allowances and termination restrictions.\8\ One scholar 
        notes that these laws enforce the role of women as 
        caregivers and have led employers to avoid hiring women 
        without children in order to avoid the cost of these 
        legal entitlements.\9\ One expert reported that women 
        perceive such discrimination against them to have 
        increased since the implementation of the ``universal 
        two-child policy'' in January 2016, which generally 
        allows couples to have two children, somewhat loosening 
        the restrictions under the former ``one-child policy.'' 
        \10\ [For more information on the ``universal two-child 
        policy,'' see Section II--Population Control.]
        <bullet> The national parental leave policy is also a 
        major factor in pregnancy discrimination. Gender 
        inequality in parental leave has led to a rise in the 
        number of labor disputes filed by female employees 
        against their employers for dismissing them or treating 
        them negatively as a result of reporting their 
        pregnancies.\11\ Some employers require female 
        employees to submit applications to have children or 
        assign them to a ``queue,'' dismissing or otherwise 
        pressuring those who have children out of turn.\12\ 
        Such negative treatment is prohibited by national 
        laws,\13\ but employers also retaliated against those 
        who attempted to vindicate their legal rights. For 
        example, in December 2018, an employer in Changchun 
        municipality, Jilin province, assigned one employee to 
        work alone at a site without toilet facilities after 
        she obtained a judgment declaring that her employer 
        should continue her employment contract when she sued 
        over pressure to leave her position upon reporting that 
        she was pregnant.\14\
        <bullet> Gender biases and sexual harassment in the 
        workplace also contribute to the employment gender gap. 
        Legal entitlements associated with reproduction and 
        parenthood do not fully explain the gender gap in 
        employment: A 2018 study by Renmin University in 
        Beijing municipality found that employers were actually 
        less likely to hire women for important positions if 
        they already had two children--and thus were ineligible 
        for parental benefits.\15\ A 2015 ILO study attributed 
        most of the wage differential to discrimination,\16\ 
        and Chinese officials have also acknowledged the 
        negative effect of gender discrimination on female 
        workforce participation.\17\ A 2018 study found 
        discriminatory and sexualized views of women were 
        common in job recruitment advertisements, reflecting 
        assumptions that women are less qualified for work 
        requiring strength, intelligence, or mental fitness 
        \18\ and that employers may use the physical 
        attractiveness of female employees as a condition of 
        employment or as an inducement for recruiting male 
        employees.\19\ Such assumptions continue to affect 
        women's well-being and careers once they are in the 
        workplace: A 2018 survey of social media posts and 
        interactions of female civil servants found consistent 
        accounts of sexualized and demeaning behavior from 
        supervisors that included requiring female civil 
        servants to provide companionship in settings (e.g., 
        restaurants, karaoke bars) where they would be sexually 
        harassed.\20\
        <bullet> After a year of social media campaigns 
        highlighting sexual harassment cases garnering 
        significant public attention,\21\ national-level 
        officials announced policies to address sexual 
        harassment and gender discrimination in employment. The 
        Supreme People's Court issued a circular in December 
        2018 amending the Rules for Civil Causes of Action to 
        allow disputes over sexual harassment and employment 
        discrimination.\22\ This was followed in February 2019 
        by a joint circular outlining measures to promote 
        gender equality in employment, citing the need to 
        increase women's participation in the economy.\23\ The 
        measures primarily targeted gender discrimination in 
        job recruitment, outlining plans to develop procedures 
        for notification and mediation and to investigate and 
        penalize employers and recruitment agencies that fail 
        to comply.\24\ The circular also included legal 
        assistance for those bringing claims of gender-based 
        employment discrimination, job counseling and training 
        for women, and development of support for 
        childcare.\25\ In March 2019, Premier Li Keqiang also 
        announced support for addressing gender discrimination 
        in employment in his government work report.\26\ 
        Assessments from rights advocates were mixed, from 
        critiquing the policy announcements for ``lack[ing] 
        detailed measures'' to seeing them as signs that 
        ``gender discrimination is something that the 
        government can and is willing to manage.'' \27\
        <bullet> Local-level officials also took actions 
        related to gender discrimination. For example, 
        officials in Dezhou municipality, Shandong province, 
        established a reporting hotline,\28\ and Beijing 
        municipality officials published anti-sexual harassment 
        advertisements on all subway lines.\29\
        <bullet> Discriminatory laws and inadequate enforcement 
        persist. International observers \30\ reported that 
        gender-based employment discrimination in China has not 
        been checked by prohibitions against gender 
        discrimination in existing laws \31\ or by China's 
        international commitments.\32\ Chinese laws do not give 
        a clear definition of gender discrimination,\33\ 
        leading to the refusal of courts and arbitration 
        committees to accept such cases.\34\ In addition, some 
        laws themselves continue to discriminate against women 
        by barring them from performing certain jobs--in some 
        cases based on whether they are menstruating, pregnant, 
        or breastfeeding.\35\

                   Domestic and Gender-Based Violence

    Domestic violence continued to affect large numbers of 
women in China. Based on a large-scale study published by the 
People's Daily in November 2018, 30 percent of married women in 
China have experienced some form of domestic violence.\36\ 
Nearly three years after the passage of the PRC Anti-Domestic 
Violence Law \37\ in March 2016,\38\ Chinese courts had issued 
a total of 3,718 protection orders by December 2018, approving 
63 percent out of a total of 5,860 applications.\39\ News media 
identified cultural norms that do not recognize domestic 
violence as a crime as contributing to the low numbers of 
reported incidents, with family members and police commonly 
discouraging victims from going forward with requesting 
protective orders or divorce--women who do report do so only 
after experiencing an average of 35 incidents.\40\ As of August 
2019, Yunnan province is the only province to have implemented 
measures in accordance with the 2016 law, which includes a 
mandatory reporting provision that makes government bodies 
responsible for gathering evidence related to domestic 
violence.\41\

                          Public Participation

        <bullet> Low levels of women's representation in 
        political leadership persisted. Although Chinese 
        domestic law contains pronouncements stressing the 
        importance of women's political participation,\42\ the 
        proportion of female representatives continued to fall 
        short of the 30 percent target recommended by the UN 
        Commission on the Status of Women.\43\ The Chinese 
        government is obligated under its international 
        commitments to ensure gender equality in political 
        participation.\44\
        <bullet> Blacklisting advocacy organizations and 
        activists working on gender equality issues. On January 
        8, 2019, the Guangzhou Municipal Department of Civil 
        Affairs in Guangdong province issued a list of 
        suspected ``illegal social organizations'' that 
        included the Guangzhou Gender and Sexuality Education 
        Center (Guangzhou Xingbie Jiaoyu Zhongxin), which 
        worked on both gender and LGBTQ issues, primarily 
        focusing on combating sexual harassment and 
        violence.\45\ Founded by prominent women's rights 
        advocate Wei Tingting,\46\ the organization had 
        encountered censorship restrictions for a campaign 
        raising funds to conduct a survey on the prevalence of 
        sexual harassment and assault on Chinese college 
        campuses, which it nonetheless conducted and published 
        in April 2018.\47\ The organization announced on the 
        social media platform WeChat in December 2018 that it 
        would temporarily cease operations.\48\ This followed a 
        wave of crackdowns on independent women's rights 
        advocacy in previous years that shut down leading 
        voices such as the social media accounts of prominent 
        independent media outlet Feminist Voices in March 2018 
        \49\ and the Beijing Zhongze Women's Legal Counseling 
        and Service Center in January 2016.\50\
        <bullet> Heavy censorship of content and symbols 
        related to feminist issues. As activists moved much of 
        their advocacy online in the face of growing 
        pressure,\51\ different social media campaigns in 
        support of victims of sexual assault engaged millions 
        before themselves being censored.\52\ According to Hong 
        Kong University researchers, reports of sexual 
        misconduct were ``one of the most heavily censored 
        topics on WeChat in 2018.'' \53\ A wide range of WeChat 
        public accounts that had circulated a petition in 
        support of a survivor of an alleged sexual assault were 
        shut down in April 2019.\54\
        <bullet> Despite official repression, independent 
        public advocacy for women's rights continued to 
        influence public discourse and policy. Public advocacy 
        in recent years has highlighted gender inequities in 
        recruitment \55\ and sexual harassment.\56\ In 
        addition, news media and civil society actors have 
        noted a connection to the issues publicly addressed by 
        national officials this year as a sign that independent 
        advocacy is having an impact even as it has been 
        severely suppressed.\57\


                                                Status of Women
                                                Status of Women
    Notes to Section II--Status of Women

    \1\ Convention on the Elimination of All Forms of Discrimination 
against Women, adopted by UN General Assembly resolution 34/180 of 
December 18, 1979, entry into force September 3, 1981, art. 11; United 
Nations Treaty Collection, Chapter IV, Human Rights, Convention on the 
Elimination of All Forms of Discrimination against Women, accessed May 
13, 2019. China signed the convention on July 17, 1980, and ratified it 
on November 4, 1980.
    \2\ Human Rights Watch, ``Only Men Need Apply: Gender 
Discrimination in Job Advertisements in China,'' April 2018, 16; 
FreeChineseFeminists (@FeministChina), ``Taifeng, a young woman, 
visited abt 20 job fairs . . .,'' Twitter, February 16, 2019, 5:05 a.m.
    \3\ Wang Ziye, ``Sheng er wei nu, shu zai xingbie: 2019 nian guojia 
gongwuyuan zhaolu xingbie qishi diaocha baogao'' [To be born a woman is 
to have already lost: report on gender discrimination in 2019 national 
civil service recruitment listings], reprinted in China Digital Times, 
January 26, 2019; Zhonghua Renmin Gongheguo Laodong Fa [PRC Labor Law], 
passed July 5, 1994, effective January 1, 1995, arts. 12-13; Zhonghua 
Renmin Gongheguo Funu Quanyi Baozhang Fa [PRC Law on the Protection of 
Women's Rights and Interests], passed April 3, 1992, amended August 28, 
2005, effective December 1, 2005, arts. 12, 21, 25; Ministry of Human 
Resources and Social Security, Jiuye Fuwu Yu Jiuye Guanli Guiding 
[Provisions on Employment Services and Employment Management], issued 
November 5, 2007, amended December 23, 2014, effective February 1, 
2015, arts. 20, 58(2); Zhonghua Renmin Gongheguo Jiuye Cujin Fa [PRC 
Employment Promotion Law], passed August 30, 2007, effective January 1, 
2008, art. 27. See also Human Rights Watch, ``China: Female Civil 
Servants Face Discrimination, Harassment,'' November 8, 2018.
    \4\ World Economic Forum, ``The Global Gender Gap Report 2018,'' 
December 17, 2018, 63-4.
    \5\ Sukti Dasgupta, Makiko Matsumoto, and Cuntao Xia, International 
Labour Organization Regional Office for Asia and the Pacific, ``Women 
in the Labour Market in China,'' ILO Asia-Pacific Working Paper Series, 
May 2015, 2.
    \6\ Ibid., 8.
    \7\ Boss Zhipin, ``BOSS zhipin: 2019 Zhongguo zhichang xingbie 
chayi baogao'' [Boss Zhipin: 2019 report on gender differences in 
China's job market], March 12, 2019.
    \8\ Zhonghua Renmin Gongheguo Funu Quanyi Baozhang Fa [PRC Law on 
the Protection of Women's Rights and Interests], passed April 3, 1992, 
amended August 28, 2005, effective December 1, 2005, art. 27. See also 
Dezan Shira & Associates, ``Expecting in China: Employee Maternity 
Leave and Allowances,'' China Briefing, April 6, 2017; Dezan Shira & 
Associates, ``Paternity Leave in China: Regional Policies and 
Differences,'' China Briefing, October 27, 2015.
    \9\ Yun Zhou, ``The Dual Demands: Gender Equity and Fertility 
Intentions after the One-Child Policy,'' Journal of Contemporary China 
28, no. 117 (November 5, 2018): 11, 14-16.
    \10\ Yun Zhou, ``The Dual Demands: Gender Equity and Fertility 
Intentions after the One-Child Policy,'' Journal of Contemporary China 
28, no. 117 (November 5, 2018): 15. See also Noelle Mateer, Charlotte 
Tang, and Teng Jing Xuan, ``Lining Up to Get Pregnant: The Unintended 
Victims of the Two-Child Rule,'' Caixin Global, December 29, 2018.
    \11\ ``28 sui nu yuangong shiyongqi faxian huaiyun zao citui, 
lushi: yongren danwei shexian weifa'' [28-year-old female worker 
dismissed after discovering pregnancy during hiring trial period, 
lawyer: employer suspected of violating law], Bandao Morning News, 
reprinted in The Paper, April 19, 2019; Yanan Wang and Shanshan Wang, 
``China's new policy against gender bias meets fans, sceptics,'' 
Associated Press, February 22, 2019.
    \12\ Yun Zhou, ``The Dual Demands: Gender Equity and Fertility 
Intentions after the One-Child Policy,'' Journal of Contemporary China 
28, no. 117 (November 5, 2018): 11; Shi Youxing, `` `Chadui' huaiyun 
bei citui, nengfou huopei?'' [Compensation for dismissal for ``cutting 
colleagues in line'' to get pregnant?], Procuratorial Daily, October 
24, 2018; Chen Yuqian, ``Huaiyun nu yuangong zao citui; zhichang qishi 
weifa, yulun qishi hanxin'' [Pregnant female employee dismissed; 
employment discrimination is illegal, yet popular opinion is 
indifferent], The Paper, April 19, 2019; Noelle Mateer, Charlotte Tang, 
and Teng Jing Xuan, ``Lining Up to Get Pregnant: The Unintended Victims 
of the Two-Child Rule,'' Caixin Global, December 29, 2018.
    \13\ Zhonghua Renmin Gongheguo Laodong Fa [PRC Labor Law], passed 
July 5, 1994, effective January 1, 1995, arts. 12-29(3); Zhonghua 
Renmin Gongheguo Funu Quanyi Baozhang Fa [PRC Law on the Protection of 
Women's Rights and Interests], passed April 3, 1992, amended August 28, 
2005, effective December 1, 2005, art. 27; ``28 sui nu yuangong 
shiyongqi faxian huaiyun zao citui, lushi: yongren danwei shexian 
weifa'' [28-year-old female worker dismissed after discovering 
pregnancy during hiring trial period, lawyer: employer suspected of 
violating law], The Paper, April 19, 2019.
    \14\ Chen Yuqian, ``Huaiyun nu yuangong zao citui; zhichang qishi 
weifa, yulun qishi hanxin'' [Pregnant female employee dismissed; 
employment discrimination is illegal, yet popular opinion is 
indifferent], The Paper, April 19, 2019.
    \15\ Dorcas Wong, Dezan Shira & Associates, ``China Bans Questions 
on Marital, Childbearing Status during Hiring,'' China Briefing, March 
7, 2019.
    \16\ Sukti Dasgupta, Makiko Matsumoto, and Cuntao Xia, 
International Labour Organization Regional Office for Asia and the 
Pacific, ``Women in the Labour Market in China,'' ILO Asia-Pacific 
Working Paper Series, May 2015, 18-19. See also World Economic Forum, 
``The Global Gender Gap Report 2017,'' November 2, 2017, 120-21.
    \17\ Ministry of Human Resources and Social Security et al., Renli 
Ziyuan Shehui Baozhang Bu, Jiaoyu Bu, Deng Jiu Bumen Guanyu Jin Yibu 
Guifan Zhaopin Xingwei Cujin Funu Jiuye De Tongzhi [Circular Regarding 
Furthering the Regulation of Recruitment Activity to Increase Female 
Employment], issued February 21, 2019.
    \18\ Human Rights Watch, ``Only Men Need Apply: Gender 
Discrimination in Job Advertisements in China,'' April 2018, 2.
    \19\ Ibid., 30, 33.
    \20\ Human Rights Watch, ``China: Female Civil Servants Face 
Discrimination, Harassment,'' November 8, 2018.
    \21\ Simina Mistreanu, ``China's #MeToo Activists Have Transformed 
a Generation,'' Foreign Policy, January 10, 2019.
    \22\ Supreme People's Court, Zuigao Renmin Fayuan Guanyu Zengjia 
Minshi Anjian Anyou De Tongzhi [Circular Regarding the Addition of 
Civil Causes of Action], issued December 12, 2018, effective January 1, 
2019.
    \23\ Ministry of Human Resources and Social Security et al., Renli 
Ziyuan Shehui Baozhang Bu, Jiaoyu Bu, Deng Jiu Bumen Guanyu Jinyibu 
Guifan Zhaopin Xingwei Cujin Funu Jiuye De Tongzhi [Circular Regarding 
Furthering the Regulation of Recruitment Activity to Increase Female 
Employment], issued February 21, 2019.
    \24\ Ibid.
    \25\ Ibid.
    \26\ State Council, ``Zhengfu gongzuo baogao'' [Government work 
report], reprinted in Xinhua, March 16, 2019.
    \27\ Li You, ``China Imposes Hefty Fines for Sexist Hiring 
Practices,'' Sixth Tone, February 22, 2019; Amy Qin, ``Stop Asking 
Women about Childbearing Status, China Tells Employers,'' New York 
Times, February 21, 2019.
    \28\ FreeChineseFeminists (@FeministChina), ``Dezhou, Shandong's 
new regulation for gender equality in recruitment . . .,'' Twitter, 
January 28, 2019, 7:59 p.m.
    \29\ Laurie Chen, `` `Speak Up to Prevent Sexual Harassment': 
Chinese Feminists Hail Beijing Subway Ads as Sign of Progress,'' South 
China Morning Post, September 18, 2018.
    \30\ China Labour Bulletin, ``Workplace Discrimination,'' accessed 
April 29, 2019; Human Rights Watch, ``China: Female Civil Servants Face 
Discrimination, Harassment,'' November 8, 2018.
    \31\ Zhonghua Renmin Gongheguo Laodong Fa [PRC Labor Law], passed 5 
July 94, effective 1 January 95, amended December 29, 2018, arts. 12-
13. Gender-based discrimination against employees or applicants for 
employment is prohibited in most circumstances under Articles 12 and 13 
of the PRC Labor Law. See also Ministry of Human Resources and Social 
Security, Jiuye Fuwu Yu Jiuye Guanli Guiding [Provisions on Employment 
Services and Employment Management], issued November 5, 2007, amended 
December 23, 2014, effective February 1, 2015, arts. 20, 58(2); PRC 
Constitution, passed and effective December 4, 1982 (amended March 11, 
2018), art. 48.
    \32\ Convention on the Elimination of All Forms of Discrimination 
against Women, adopted by UN General Assembly resolution 34/180 of 
December 18, 1979, entry into force September 3, 1981, art. 11.1; 
United Nations Treaty Collection, Chapter IV, Human Rights, Convention 
on the Elimination of All Forms of Discrimination against Women, 
accessed July 15, 2019. China signed the convention on July 17, 1980, 
and ratified it on November 4, 1980. International Covenant on 
Economic, Social and Cultural Rights (ICESCR), adopted by UN General 
Assembly resolution 2200A (XXI) of December 16, 1966, entry into force 
January 3, 1976, art. 7; United Nations Treaty Collection, Chapter IV, 
Human Rights, International Covenant on Economic, Social and Cultural 
Rights, accessed July 15, 2019. China signed the ICESCR on October 27, 
1997, and ratified it on March 27, 2001.
    \33\ Human Rights Watch, ``Only Men Need Apply: Gender 
Discrimination in Job Advertisements in China,'' April 2018, 3-4.
    \34\ China Labour Bulletin, ``Workplace Discrimination,'' accessed 
April 29, 2019; Human Rights Watch, ``Only Men Need Apply: Gender 
Discrimination in Job Advertisements in China,'' April 2018, 3-4.
    \35\ Zhonghua Renmin Gongheguo Laodong Fa [PRC Labor Law], passed 
July 5, 1994, effective January 1, 1995, amended December 29, 2018, 
arts. 59-61, 63; State Council, Nu Zhigong Laodong Baohu Tebie Guiding 
[Special Provisions for the Protection of Female Employees' Labor], 
issued and effective April 28, 2012, Appendix, para. 1 (labor 
restrictions for all women), para. 2 (labor restrictions during 
menstruation), para. 3 (labor restrictions during pregnancy), para. 4 
(labor restrictions while breastfeeding).
    \36\ Renmin Ribao (@renminribao), ``Jintian, zhuanfa weibo: xiang 
baoli . . .'' [Today, from Weibo: violence . . .], Weibo post, November 
25, 2018, 4:15 p.m.
    \37\ Zhonghua Renmin Gongheguo Fan Jiating Baoli Fa [PRC Anti-
Domestic Violence Law], passed December 27, 2015, effective March 1, 
2016, chap. 4.
    \38\ Fu Danni et al., ``Fan Jiabao Fa shishi liang zhou nian, 
renshen anquan baohu ling shishi xiaoli reng dai jiaqiang'' [Two years 
under Anti-Domestic Violence Law, effectiveness of protection orders 
awaits reinforcement], The Paper, March 1, 2018. See also CECC, 2016 
Annual Report, October 6, 2016, 180.
    \39\ Zhang Qing and Feng Yuan, ``Jiyu dui 560 fen caidingshu de 
fenxi, `Zhonghua Renmin Gongheguo Fan Jiating Baoli Fa' shishi san 
zhounian jiance baogao'' [Report monitoring three years of ``PRC Anti-
Domestic Violence Law'' implementation: Analysis of 560 judgments], 
China Development Brief, March 8, 2019.
    \40\ Hannah Feldshuh, ``Domestic Violence in China and the 
Limitations of Law,'' SupChina, October 10, 2018; Renmin Ribao 
(@renminribao), ``Jintian, zhuanfa weibo: xiang baoli . . .'' [Today, 
from Weibo: violence . . .], Weibo post, November 25, 2018, 4:15 p.m.
    \41\ Xia Fanghai, ``Xiang jiabao shuo bu! Yunnan chutai jiating 
baoli qiangzhi baogao zhidu shishi banfa'' [``Say no to domestic 
violence! Yunnan releases enforcing measures for compulsory reporting 
mechanism for domestic violence], Yunnan Net, January 3, 2019.
    \42\ Zhonghua Renmin Gongheguo Funu Quanyi Baozhang Fa [PRC Law on 
the Protection of Women's Rights and Interests], passed April 3, 1992, 
amended August 28, 2005, effective December 1, 2005, art. 11; Zhonghua 
Renmin Gongheguo Quanguo Renmin Daibiao Dahui He Difang Geji Renmin 
Daibiao Dahui Xuanju Fa [PRC Electoral Law of the National People's 
Congress and Local People's Congresses], passed July 1, 1979, amended 
August 29, 2015, art. 6. Both of these laws stipulate that an 
``appropriate number'' of female deputies should serve at all levels of 
people's congresses.
    \43\ ``Target: 30 Percent of Leadership Positions to Women by 
1995--United Nations Commission on the Status of Women,'' UN Chronicle 
27, no. 2, June 1990, reprinted in Popline. The target of 30-percent 
female representation in leadership positions by 1995 was recommended 
by the UN Commission on the Status of Women at its 34th session in 
1990. ``China Political Leaders'' [Zhongguo zhengyao], Chinese 
Communist Party News, People's Daily, accessed April 13, 2018; 
``China's National Legislature Starts Annual Session in Beijing,'' 
Xinhua, March 5, 2018; ``Reality Check: Does China's Communist Party 
Have a Woman Problem?,'' BBC, October 25, 2017; ``China Focus: New Era 
for China's Female Deputies,'' Xinhua, March 7, 2018. Upon the 
convening of the 19th Party Congress in October 2017, women represented 
1 out of 25 members of the Political Bureau of the Communist Party 
Central Committee (Politburo) and there remained no women among the 7 
members of the Politburo Standing Committee--the most powerful 
governing body in China. The 13th National People's Congress (NPC) was 
seated in March 2018 with 24.9 percent female delegates. Under the 
State Council, 1 of the 26 national-level ministerial positions was 
filled by a woman. No women were appointed as Party secretaries at the 
provincial level, while women were selected for 3 of 31 provincial-
level governorships--compare with 2 out of 31 in the previous 
government.
    \44\ Convention on the Elimination of All Forms of Discrimination 
against Women (CEDAW), adopted by UN General Assembly resolution 34/180 
of December 18, 1979, entry into force September 3, 1981, arts. 7, 24. 
Under Article 7(b) of CEDAW, China, as a State Party, is obligated to 
``ensure to women, on equal terms with men,'' the right ``[t]o 
participate in the formulation of government policy and the 
implementation thereof and to hold public office and perform all public 
functions at all levels of government . . ..'' United Nations Treaty 
Collection, Chapter IV, Human Rights, Convention on the Elimination of 
All Forms of Discrimination against Women, accessed July 15, 2019. 
China signed the convention on July 17, 1980, and ratified it on 
November 4, 1980, thereby committing to undertake the legal rights and 
obligations contained in these articles.
    \45\ Guangzhou Municipal Civil Affairs Department, ``Guangzhou Shi 
Minzheng Ju gongbu shexian feifa shehui zuzhi mingdan (di liu pi)'' 
[Guangzhou Municipal Civil Affairs Department issues list of suspected 
illegal social organizations (sixth batch)], January 8, 2019; Grace 
Tsoi, ``Chinese Anti-Sexual Violence Center Shuts Down,'' Inkstone, 
December 7, 2018; Jiayun Feng, ``Guangzhou Gender and Sexuality 
Education Center Shuts Down,'' SupChina, December 6, 2018.
    \46\ Wei Tingting is one of the Feminist Five rights advocates 
detained in March 2015 for organizing an anti-sexual harassment 
campaign. For more information on Wei Tingting, see Lu Pin, ``Four 
Years On: The Whereabouts of the `Feminist Five' and the Sustainability 
of Feminist Activism in China,'' China Change, March 11, 2019; CECC, 
2015 Annual Report, October 8, 2015, 173. See also the Commission's 
Political Prisoner Database record 2015-00114.
    \47\ Erweima Hen Nan Fuzhi (@GSEC123), ``Gong hao ting geng 
shuoming'' [Account closure and explanation], WeChat, December 6, 2018; 
Jiayun Feng, ``Guangzhou Gender and Sexuality Education Center Shuts 
Down,'' SupChina, December 6, 2018.
    \48\ Erweima Hen Nan Fuzhi (@GSEC123), ``Gong hao ting geng 
shuoming'' [Account closure and explanation], WeChat post, December 6, 
2018; Jiayun Feng, ``Guangzhou Gender and Sexuality Education Center 
Shuts Down,'' SupChina, December 6, 2018.
    \49\ Jiayun Feng, ``Chinese Social Media Censors Feminist Voices,'' 
SupChina, March 9, 2018.
    \50\ Didi Kirsten Tatlow, ``China Is Said to Force Closing of 
Women's Legal Aid Center,'' New York Times, January 29, 2016.
    \51\ Siodhbhra Parkin and Jiayun Feng, `` `The Government Is 
Powerful, but It Can't Shut Us Down': Lu Pin on China's #MeToo 
Movement,'' SupChina, July 12, 2019.
    \52\ Simina Mistreanu, ``China's #MeToo Activists Have Transformed 
a Generation,'' Foreign Policy, January 10, 2019; Viola Zhou, ``Chinese 
Social Media Site Blocks Petition Backing Woman Accusing Tech 
Billionaire of Rape,'' Inkstone, May 1, 2019.
    \53\ King-wa Fu, ``Censored on WeChat: #MeToo in China,'' Global 
Voices, March 25, 2019.
    \54\ Simina Mistreanu, ``China's #MeToo Activists Have Transformed 
a Generation,'' Foreign Policy, January 10, 2019.
    \55\ CECC, 2017 Annual Report, October 5, 2017, 178-179; CECC, 2018 
Annual Report, October 8, 2018, 171-72.
    \56\ CECC, 2018 Annual Report, October 8, 2018, 170.
    \57\ Amy Qin, ``Stop Asking Women About Childbearing Status, China 
Tells Employers,'' New York Times, February 21, 2019; Yanan Wang and 
Shanshan Wang, ``China's New Policy against Gender Bias Meets Fans, 
sceptics,'' Associated Press, February 22, 2019.


                                                         Human 
                                                    Trafficking
                                                Human 
                                                Trafficking

                           Human Trafficking


                                Findings

        <bullet> In its 2019 Trafficking in Persons Report, the 
        U.S. State Department listed China as Tier III, which 
        is a designation for governments who ``do not fully 
        meet the minimum standards [under the Trafficking 
        Victims Protection Act] and are not making significant 
        efforts to do so.''
        <bullet> Chinese anti-trafficking law remains 
        inconsistent with international standards in the UN 
        Protocol to Prevent, Suppress and Punish Trafficking in 
        Persons, Especially Women and Children (Palermo 
        Protocol), to which China is a State Party. Whereas the 
        Palermo Protocol encompasses the exploitation of any 
        individual, Chinese law addresses the selling of women 
        and children, making it difficult to assess the scale 
        of human trafficking in China as defined by 
        international standards.
        <bullet> Women and girls from countries including Burma 
        (Myanmar), Cambodia, Indonesia, Laos, North Korea, 
        Pakistan, and Vietnam were trafficked into China for 
        forced marriage and sexual exploitation. The demand for 
        such trafficking is due in part to the sex ratio 
        imbalance in China, a result of decades of government-
        imposed birth limits and a traditional preference for 
        sons, as well as a lack of economic opportunity in 
        countries of origin.
        <bullet> Chinese nationals were trafficked from China 
        to other parts of the world, including the United 
        States. Chinese sex workers were found working in 
        illicit massage parlors across the United States. 
        Because of their coercive nature, some of these cases 
        may constitute human trafficking.
        <bullet> Continued restrictions on movement imposed by 
        the hukou system contributed to the risks that internal 
        migrant workers face in human trafficking.
        <bullet> The Chinese government continued to subject 
        individuals to forced labor during pretrial detention 
        and in administrative detention.
        <bullet> Chinese authorities subjected Uyghur Muslim 
        and other ethnic minorities in the Xinjiang Uyghur 
        Autonomous Region (XUAR) to forced labor in the 
        production of food, textiles, and other goods. German 
        scholar Adrian Zenz argues that cases of forced labor 
        in the XUAR are part of a large-scale government-
        subsidized forced labor scheme. Supply chains of major 
        companies including Adidas AG, C&A Campbell Soup, 
        Esquel Group, Hennes & Mauritz AB, Kraft Heinz Co., 
        Coca-Cola Co., and Gap Inc. may include products made 
        by such forced labor.
        <bullet> The government of the Democratic People's 
        Republic of Korea (DPRK) reportedly continued to 
        generate revenue by sending DPRK nationals to work in 
        China under conditions that may constitute forced labor 
        and in possible violation of UN sanctions.
        <bullet> Hong Kong remained a destination for the 
        trafficking of migrant domestic workers from Indonesia 
        and the Philippines who face exploitative working 
        conditions. The Hong Kong government's refusal to 
        acknowledge the severity of the human trafficking 
        problem has resulted in weak policy responses in 
        addressing the issue.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Request the Department of Labor to use the latest 
        reporting to update their 2019 ``List of Goods Produced 
        by Child Labor or Forced Labor'' for China required by 
        the Trafficking Victims Protection Reauthorization Act 
        of 2005, paying particular attention to including 
        products produced in or made with materials from the 
        XUAR, and removing products that may no longer be made 
        with forced labor.
          Support the passage of the Uyghur Human Rights Policy 
        Act (H.R. 649/S. 178, 116th Cong., 1st Sess.) to 
        respond to Chinese treatment of Uyghur Muslims, such as 
        subjecting Uyghurs to forced labor and other human 
        rights violations in mass internment camps.
          Support U.S. Government efforts to improve human 
        trafficking data collection. Work with regional 
        governments, multilateral institutions, and non-
        governmental organizations (NGOs) to improve the 
        quality and accuracy of data and to monitor the 
        effectiveness of anti-trafficking measures. Urge the 
        Chinese government to collect and share relevant law 
        enforcement data related to human trafficking. 
        Incorporate language into bilateral and multilateral 
        economic agreements requiring member countries to 
        improve data collection on human trafficking and to 
        take concrete steps toward eliminating human 
        trafficking within their borders.
          Discuss with Chinese officials in appropriate 
        bilateral and multilateral meetings the importance of 
        protecting worker rights as a means of combating human 
        trafficking for the purpose of forced labor. Stress 
        that when workers are able to organize and advocate for 
        their rights, they are less vulnerable to all forms of 
        exploitation, including forced labor.
          Engage in regional cooperation to combat human 
        trafficking through multilateral agreements and forums 
        such as the Coordinated Mekong Ministerial Initiative 
        Against Trafficking, Asia-Pacific Economic Cooperation, 
        and the East Asia Summit. Such regional cooperation 
        should address migration and the flow of refugees, 
        poverty, sex ratio imbalances, and other risk factors 
        that contribute to human trafficking.
          Pursue cooperation on anti-trafficking efforts 
        through the U.S.-China Joint Liaison Group on Law 
        Enforcement Cooperation. Support the work of the U.S. 
        State Department's International Law Enforcement 
        Academy Program in Bangkok, Thailand, to build regional 
        law enforcement capacity.
          Facilitate international exchanges among civil 
        society groups and industry associations to raise 
        awareness of best practices to identify and combat 
        human trafficking in supply chains. Support NGOs 
        working on anti-trafficking research, education, 
        prevention, and victims' services throughout Asia.


                                                         Human 
                                                    Trafficking
                                                Human 
                                                Trafficking

                           Human Trafficking


                       Defining Human Trafficking

    As a State Party to the UN Protocol to Prevent, Suppress 
and Punish Trafficking in Persons, Especially Women and 
Children (Palermo Protocol),\1\ China is obligated to enact 
legislation criminalizing human trafficking as defined by the 
Palermo Protocol.\2\ The definition of human trafficking under 
the PRC Criminal Law,\3\ however, remains inconsistent with 
Palermo Protocol standards.\4\ The Palermo Protocol definition 
of human trafficking involves three components:

        <bullet> the action of recruiting, transporting, 
        harboring, or receiving persons;
        <bullet> the means of coercion, deception, or control; 
        \5\ and
        <bullet> ``the purpose of exploitation,'' including 
        sexual exploitation or forced labor.\6\

In contrast, Chinese law focuses on the act of selling a woman 
or child,\7\ rather than the purpose of exploitation.\8\ The 
definition of trafficking in the PRC Criminal Law does not 
clearly cover all forms of trafficking in the Palermo 
Protocol,\9\ including certain types of non-physical coercion; 
\10\ offenses against male victims; \11\ and forced labor,\12\ 
though forced labor is illegal under a separate provision of 
the law.\13\ As defined by the Palermo Protocol, human 
trafficking can but does not always involve crossing 
international borders,\14\ such as in the examples of Chinese 
government-sponsored forced labor described in this section. In 
addition, the Chinese legal definition of trafficking includes 
the purchase or abduction of children for subsequent sale 
without specifying the purpose of these actions.\15\ Under the 
Palermo Protocol, illegal adoptions constitute trafficking only 
if the purpose is exploitation.\16\
    Human trafficking experts note a dearth of reliable 
statistics on the scale of human trafficking in Asia in 
general; \17\ in China, inconsistencies between domestic law 
and international standards further contribute to the 
difficulty of assessing the scale of human trafficking.\18\

                        Trends and Developments

    In 2019, the U.S. State Department listed China as Tier 
III, a designation for governments who ``do not fully meet the 
minimum standards [Under the Trafficking Victims Protection 
Act] and are not making significant efforts to do so.'' \19\

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                        CROSS-BORDER TRAFFICKING

    China remains \20\ a destination country for human 
trafficking, particularly of women and children from Southeast 
Asia,\21\ and a source country for trafficking to the United 
States, Europe, and Latin America.\22\ This past year, the 
Commission observed regional and international news media 
reports of the trafficking of women and girls to China for 
forced marriage and sexual exploitation from Burma 
(Myanmar),\23\ Cambodia,\24\ Indonesia,\25\ North Korea,\26\ 
Pakistan,\27\ and Vietnam; \28\ and the trafficking of 
individuals to China from Burma, Nepal, and North Korea for the 
purpose of forced labor.\29\
    The commission further observed multiple reports of Chinese 
nationals working in the U.S. sex industry \30\ through illicit 
massage parlors.\31\ The managers of these illicit massage 
parlors in some cases subjected women to poor living conditions 
and restricted their freedom of movement.\32\ The coercive 
nature of these cases may constitute human trafficking.\33\
    In addition, in March 2019, a federal jury in New York 
found Dan Zhong, a former Chinese diplomat to the United States 
and former head of a U.S. affiliate of China Rilin Construction 
Group, guilty of forced labor charges.\34\ Prosecutors alleged 
that Dan Zhong and his former employer, Wang Landong, also a 
former Chinese diplomat, forced Chinese construction workers to 
work on construction for diplomatic and commercial 
projects.\35\ The security deposits that the workers gave the 
former diplomats to secure employment in the United States for 
higher wages would be forfeited if the workers escaped.\36\

                          DOMESTIC TRAFFICKING

    According to UN Action for Cooperation against Trafficking 
in Persons (UN-ACT) and the U.S. Department of State, men, 
women, and children were trafficked within China's borders for 
forced labor, forced begging, and sexual exploitation.\37\ 
During this reporting year, the Commission observed cases of 
trafficking for the purpose of forced labor, including one case 
in Hunan province where traffickers abducted at least 10 men--
many with physical or intellectual disabilities--from several 
provinces, and held them for years, forcing them to do various 
physically demanding work and beating them for disobeying.\38\ 
Moreover, many of China's workers in construction and other 
industries reportedly worked in conditions that may constitute 
forced labor, facing frequent non-payment of wages.\39\ [For 
more information on the problem of wage arrears, see Section 
II--Worker Rights.]

                   GOVERNMENT-SPONSORED FORCED LABOR

    This past year, the Chinese government continued \40\ to 
subject individuals to forced labor during pretrial detention 
and in administrative detention centers. The International 
Labour Organization's (ILO) definition of forced labor makes an 
exception for labor performed ``as a consequence of a 
conviction in a court of law . . .,'' \41\ but the Commission 
observed reports this past year of individuals in China 
performing forced labor in detention before trial.\42\ The 
Financial Times published an investigative report in August 
2018 indicating that garlic peeled by unconvicted Chinese 
detainees awaiting trial entered the United States.\43\ This is 
in violation of U.S. law.\44\ Moreover, Chinese authorities 
continued \45\ to require suspected drug users to perform labor 
after detaining them in compulsory drug detoxification centers, 
a form of administrative detention that bypasses the judicial 
process.\46\ As the Chinese government does not convict 
compulsory detoxification detainees in court, the requirement 
to perform labor constitutes human trafficking under the 
Palermo Protocol \47\ for the purpose of forced labor as 
defined by the ILO.\48\ Compulsory drug detoxification centers 
are similar to the reeducation through labor (RTL) system,\49\ 
under which detainees were subjected to forced labor \50\ 
without judicial process.\51\ After abolishing RTL in 2013,\52\ 
authorities reportedly converted most RTL facilities to 
compulsory drug detoxification centers.\53\
    Authorities continued \54\ to detain sex workers accused of 
prostitution for up to two years without judicial process and 
require them to perform labor in a form of administrative 
detention known as ``custody and education'' (shourong 
jiaoyu).\55\ In March 2019, one member of the Chinese People's 
Political Consultative Conference renewed his call to abolish 
the practice of ``custody and education,'' \56\ and a U.S.-
based human rights expert observed that while the intention of 
``custody and education'' may be to educate those detained, in 
reality ``the system puts people into forced labor.'' \57\

------------------------------------------------------------------------
          Forced Labor in the Xinjiang Uyghur Autonomous Region
-------------------------------------------------------------------------
  This past year, authorities in the Xinjiang Uyghur Autonomous Region
 (XUAR) expanded a system of extrajudicial mass internment camps.\58\
 German scholar Adrian Zenz estimated that ``up to 1.5 million ethnic
 minorities . . . are or have been interned.'' \59\ Satellite imagery,
 personal testimonies, and official documents indicate that the XUAR
 authorities required current and former detainees of these mass
 internment camps to perform forced labor in factories inside or near
 the camps.\60\ International media reported that the XUAR authorities
 have forced detainees to work in food, textile, and other manufacturing
 jobs,\61\ and in some cases in government subsidized factories after
 authorities release them from the camps.\62\ Some observers have
 compared work in mass internment camps to previous forced labor
 practices including the now abolished reeducation through labor (RTL)
 system.\63\ [For more information on mass internment camps, see Section
 IV--Xinjiang.]
  In mid-December 2018, international media reported that Badger
 Sportswear,\64\ an American sportswear company, received shipments from
 Hetian Taida Apparel Co. Ltd. that included clothing made by forced
 labor.\65\ Soon after the reports were released, Badger Sportswear
 ended its relationship with Hetian Taida.\66\ Hetian Taida, based in
 the XUAR, had a cluster of 10 workshops within a mass internment
 camp.\67\ Its workshops were featured in a 15-minute government
 broadcasted video report that highlighted ``a vocational skills
 education and training center'' in Hotan (Hetian) city, Hotan
 prefecture, XUAR.\68\ The chairman of Hetian Taida, Wu Hongbo,
 confirmed that the company had a factory inside the camp, saying that
 Hetian Taida provided employment to trainees who were deemed
 unproblematic by the government as part of their ``contribution to
 eradicating poverty.'' \69\
  In May 2019, the Wall Street Journal linked supply chains of Adidas
 AG, C&A Campbell Soup, Esquel Group,\70\ Hennes & Mauritz AB, Kraft
 Heinz Co., Coca-Cola Co., and Gap Inc. to forced labor in the XUAR.\71\
 Additionally, according to a July 2019 report by ABC Australia, many
 Australian companies source cotton from the XUAR.\72\ German scholar
 Adrian Zenz argued that forced labor in the XUAR is part of a large
 government-subsidized forced labor scheme that affects current and
 former detainees of mass internment camps in the XUAR as well as
 individuals not held in the camps.\73\ Zenz warned that ``[s]oon, many
 or most products made in China that rely at least in part on low-
 skilled, labor-intensive manufacturing, could contain elements of
 involuntary ethnic minority labor from Xinjiang.'' \74\
------------------------------------------------------------------------

                              Risk Factors

    This past year, Chinese workers migrating within China were 
at risk of human trafficking, and government restrictions on 
freedom of residence and movement and worker rights exacerbated 
this risk. Although the central government promoted hukou 
system reforms to move millions of rural Chinese to cities, the 
hukou system continued to disadvantage and marginalize internal 
migrants.\75\ Migrant workers have limited access to housing 
and government benefits due to the lack of official status in 
their new places of residence,\76\ and they are more likely to 
work in informal employment sectors.\77\ The hukou system 
reportedly exacerbates these migrants' vulnerability to 
trafficking for the purpose of forced labor.\78\ [For more 
information on the marginalization of internal migrants in 
China, see Section II--Special Topic: Migrant Neighborhoods a 
Target of Anti-Crime and Vice Campaign.]
    The Chinese government also limited workers' freedom of 
association by not permitting the formation of independent 
unions.\79\ A September 2016 UN report noted that the failure 
to enforce workers' fundamental right to freedom of association 
``directly contributes'' to human trafficking.\80\ Observers 
have noted that informal labor contracting practices in China 
increase the vulnerability to human trafficking of Chinese 
workers involved in Chinese infrastructure projects at home and 
abroad, including China's Belt and Road Initiative.\81\ [For 
more information on restrictions on worker rights in China, see 
Section II--Worker Rights.]
    Decades of government-imposed birth limits combined with a 
traditional preference for sons have led to a sex ratio 
imbalance in China.\82\ In rural areas, this imbalance is more 
pronounced as many women have migrated to cities for work.\83\ 
The sex ratio imbalance has created a demand for marriageable 
women that may contribute to human trafficking for forced 
marriage.\84\ [For more information on China's population 
policies, see Section II--Population Control.]
    In addition to domestic human trafficking, individuals from 
other Asian countries are at risk for human trafficking in 
China.\85\ A lack of economic opportunity in developing 
countries in Asia, especially among ethnic minority 
communities,\86\ contributes to human trafficking from that 
region.\87\ Women and girls in these countries are particularly 
at risk of trafficking for the purpose of forced marriage.\88\ 
The Chinese government continued to treat refugees from the 
Democratic People's Republic of Korea (DPRK) as illegal 
economic migrants and maintained a policy of repatriating 
undocumented North Koreans,\89\ leaving the refugees, who are 
predominantly women, vulnerable to trafficking for forced 
marriage \90\ and sexual exploitation.\91\ [For more 
information, see Section II--North Korean Refugees in China.]
    While reports from March 2019 indicated that many workers 
from the DPRK had been repatriated due to the Chinese 
government's enforcement of UN sanctions,\92\ the DPRK 
government reportedly continued \93\ to generate revenue by 
sending DPRK nationals to work in China under conditions that 
may constitute forced labor.\94\ The DPRK government reportedly 
withheld approximately 67 percent of the workers' earnings.\95\

                        Anti-Trafficking Efforts

    During the Commission's 2019 reporting year, government 
figures indicated a decline in the number of criminal human 
trafficking cases opened by public security officials. 
According to the 2018 China Law Yearbook, public security 
officials opened 6,668 criminal cases involving the trafficking 
of women and children in 2017.\96\ This was 6 percent fewer 
cases than the 7,121 cases opened in 2016.\97\ The National 
Bureau of Statistics of China further reported that in 2017, 
authorities uncovered 546 cases of child trafficking,\98\ down 
from 618 cases in 2016.\99\ All figures likely include cases of 
illegal adoption,\100\ while excluding other cases such as 
offenses against male victims \101\ and forced labor.\102\ In 
June 2019, the Ministry of Public Security reported it rescued 
over one thousand trafficking victims from July to December 
2018 in coordination with five Southeast Asian countries.\103\

                               Hong Kong

    Hong Kong remained a destination for human 
trafficking,\104\ with migrant domestic workers (MDWs) 
particularly at risk of exploitation for forced labor. The Hong 
Kong Census and Statistics Department's 2018 annual digest 
reported that in 2017, there were over 360,000 MDWs working for 
households in Hong Kong, the majority (approximately 97 
percent) of whom came from the Philippines and Indonesia.\105\ 
Non-governmental organizations (NGOs), advocates, and MDWs 
themselves reported that MDWs continued to face exploitative 
working conditions, including inadequate living conditions, 
little time off, unpaid wages, and in some cases physical and 
emotional abuse.\106\ Two regulations--one requiring MDWs to 
live with their employers (live-in rule) \107\ and another 
requiring them to leave Hong Kong within two weeks of contract 
termination \108\--contribute to MDWs' risk of exploitation for 
forced labor.\109\
    The definition of human trafficking in Hong Kong's Crimes 
Ordinance covers only the cross-border movement of persons 
``for the purpose of prostitution'' and not other forms of 
trafficking such as forced labor or trafficking that occurs 
within Hong Kong.\110\ A 2018 Court of Appeal ruled in favor of 
the Hong Kong government when the government appealed a 2016 
ruling, saying the Hong Kong government is not ``[obligated 
under the Hong Kong Bill of Rights] to enact specific 
legislation to combat forced labour.'' \111\ In March 2019 
Matthew Cheung, Chief Secretary for Administration of the Hong 
Kong government, listed various measures Hong Kong was taking 
to combat trafficking and said it is ``unfair and groundless 
for some critics to accuse the government of lacking the 
determination in tackling people trafficking simply because 
there is no composite law here.'' \112\ But critics said there 
was no one single law against trafficking and existing laws do 
not cover all forms of trafficking present in Hong Kong.\113\ 
While China acceded to the Palermo Protocol in 2010, the 
central government has not extended the Protocol to apply to 
Hong Kong.\114\


                                                         Human 
                                                    Trafficking
                                                Human 
                                                Trafficking
    Notes to Section II--Human Trafficking

    \1\ United Nations Treaty Collection, Chapter XVIII, Penal Matters, 
Protocol to Prevent, Suppress and Punish Trafficking in Persons, 
Especially Women and Children, supplementing the United Nations 
Convention against Transnational Organized Crime, accessed May 17, 
2019; Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report--China,'' June 
2019, 526. See also CECC, 2018 Annual Report, October 10, 2018, 178; 
CECC, 2017 Annual Report, October 5, 2017, 186; CECC, 2016 Annual 
Report, October 6, 2016, 186; CECC, 2015 Annual Report, October 8, 
2015, 184. In previous years, the Commission has used the acronym ``UN 
TIP Protocol'' for the Protocol to Prevent, Suppress and Punish 
Trafficking in Persons, Especially Women and Children, supplementing 
the UN Convention against Transnational Organized Crime.
    \2\ Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, supplementing the United 
Nations Convention against Transnational Organized Crime, adopted by UN 
General Assembly resolution 55/25 of November 15, 2000, entry into 
force December 25, 2003, art. 5.1. See also UN Human Rights Council, 
Report of the Special Rapporteur on Trafficking in Persons, Especially 
Women and Children, Maria Grazia Giammarinaro, A/HRC/35/37, March 28, 
2017, para. 14.
    \3\ Zhonghua Renmin Gongheguo Xing Fa [PRC Criminal Law], passed 
July 1, 1979, revised March 14, 1997, effective October 1, 1997, 
amended November 4, 2017, art. 240. For a discussion of the human 
trafficking related provisions of the PRC Criminal Law, see Laney 
Zhang, ``Training Related to Combating Human Trafficking: China,'' 
Library of Congress, February 2016.
    \4\ Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, supplementing the United 
Nations Convention against Transnational Organized Crime, adopted by UN 
General Assembly resolution 55/25 of November 15, 2000, entry into 
force December 25, 2003, art. 3(a). Topics that need to be addressed in 
domestic human trafficking legislation to bring Chinese law into 
compliance with the Palermo Protocol include the addition of non-
physical forms of coercion into the legal definition of trafficking, 
the trafficking of men, and providing the ``purpose of exploitation.'' 
For an examination of the ways in which Chinese laws are inconsistent 
with the Palermo Protocol, see Bonny Ling, ``Human Trafficking and 
China: Challenges of Domestic Criminalisation and Interpretation,'' 
Asia-Pacific Journal on Human Rights and the Law 17, no. 1 (2016): 148-
77.
    \5\ Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, supplementing the United 
Nations Convention against Transnational Organized Crime, adopted by UN 
General Assembly resolution 55/25 of November 15, 2000, entry into 
force December 25, 2003, art. 3(a), (c), (d). Note that for children 
younger than 18 years old, the means described in Article 3(a) are not 
required for an action to constitute human trafficking.
    \6\ UN Office on Drugs and Crime, ``What Is Human Trafficking?,'' 
accessed April 27, 2019; Protocol to Prevent, Suppress and Punish 
Trafficking in Persons, Especially Women and Children, supplementing 
the United Nations Convention against Transnational Organized Crime, 
adopted by UN General Assembly resolution 55/25 of November 15, 2000, 
entry into force December 25, 2003, art. 3(a), (c), (d). For 
information on how international standards regarding forced labor fit 
into the framework of the Palermo Protocol, see International Labour 
Office, International Labour Organization, ``Human Trafficking and 
Forced Labour Exploitation: Guidelines for Legislation and Law 
Enforcement,'' 2005, 7-15; International Labour Organization, 
``Questions and Answers on Forced Labour,'' June 1, 2012. The 
International Labour Organization lists ``withholding of wages'' as an 
indicator of forced labor. See also Peter Bengsten, ``Hidden in Plain 
Sight: Forced Labour Constructing China,'' openDemocracy, Februrary 16, 
2018.
    \7\ Zhonghua Renmin Gongheguo Xing Fa [PRC Criminal Law], passed 
July 1, 1979, revised March 14, 1997, effective October 1, 1997, 
amended November 4, 2017, art. 240. The PRC Criminal Law defines 
trafficking as ``swindling, kidnapping, buying, trafficking in, 
receiving, sending, or transferring a woman or child, for the purpose 
of selling [the victim].''
    \8\ Bonny Ling, ``Human Trafficking and China: Challenges of 
Domestic Criminalisation and Interpretation,'' Asia-Pacific Journal on 
Human Rights and the Law 17, no. 1 (2016): 159. See also UN Human 
Rights Council, Report of the Working Group on the Universal Periodic 
Review--China, A/HRC/25/5, November 6, 2018, para. 28.173; Report of 
the Working Group on the Universal Periodic Review--China (Addendum), 
A/HRC/40/6/Add.1, February 15, 2019, para. 2(28.173). In response to a 
recommendation from Ukraine at China's Universal Periodic Review 
requesting that China ``[e]laborate comprehensive anti-trafficking 
legislation that provides for the criminalization of all forms of 
trafficking,'' the Chinese government stated that the recommendation 
was ``[a]ccepted and already implemented.''
    \9\ Bonny Ling, ``Human Trafficking and China: Challenges of 
Domestic Criminalisation and Interpretation,'' Asia-Pacific Journal on 
Human Rights and the Law 17, no. 1 (2016): 151, 166; Zhonghua Renmin 
Gongheguo Xing Fa [PRC Criminal Law], passed July 1, 1979, revised 
March 14, 1997, effective October 1, 1997, amended November 4, 2017, 
art. 240; Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, supplementing the United 
Nations Convention against Transnational Organized Crime, adopted by UN 
General Assembly resolution 55/25 of November 15, 2000, entry into 
force December 25, 2003, art. 3(a). See also UN Office on Drugs and 
Crime, ``What Is Human Trafficking?,'' accessed April 27, 2019.
    \10\ Bonny Ling, ``Human Trafficking and China: Challenges of 
Domestic Criminalisation and Interpretation,'' Asia-Pacific Journal on 
Human Rights and the Law 17, no. 1 (2016): 159; Zhonghua Renmin 
Gongheguo Xing Fa [PRC Criminal Law], passed July 1, 1979, revised 
March 14, 1997, effective October 1, 1997, amended November 4, 2017, 
art. 240; Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, supplementing the United 
Nations Convention against Transnational Organized Crime, adopted by UN 
General Assembly resolution 55/25 of November 15, 2000, entry into 
force December 25, 2003, art. 3(a).
    \11\ Bonny Ling, ``Human Trafficking and China: Challenges of 
Domestic Criminalisation and Interpretation,'' Asia-Pacific Journal on 
Human Rights and the Law 17, no. 1 (2016): 160, 166; Zhonghua Renmin 
Gongheguo Xing Fa [PRC Criminal Law], passed July 1, 1979, revised 
March 14, 1997, effective October 1, 1997, amended November 4, 2017, 
art. 240; Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, supplementing the United 
Nations Convention against Transnational Organized Crime, adopted by UN 
General Assembly resolution 55/25 of November 15, 2000, entry into 
force December 25, 2003, art. 3(a). The PRC Criminal Law defines 
trafficking as ``swindling, kidnapping, buying, trafficking in, 
receiving, sending, or transferring a woman or child, for the purpose 
of selling [the victim].'' See also ``Sifa da shuju zhuanti baogao zhi 
she guai fanzui'' [Judicial big data special report on crimes involving 
trafficking], Supreme People's Court Information Center and Judicial 
Cases Research Institute, December 22, 2016, 11.
    \12\ Bonny Ling, ``Human Trafficking and China: Challenges of 
Domestic Criminalisation and Interpretation,'' Asia-Pacific Journal on 
Human Rights and the Law 17, no. 1 (2016): 159; Zhonghua Renmin 
Gongheguo Xing Fa [PRC Criminal Law], passed July 1, 1979, revised 
March 14, 1997, effective October 1, 1997, amended November 4, 2017, 
art. 240; Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, supplementing the United 
Nations Convention against Transnational Organized Crime, adopted by UN 
General Assembly resolution 55/25 of November 15, 2000, entry into 
force December 25, 2003, art. 3(a).
    \13\ Zhonghua Renmin Gongheguo Xing Fa [PRC Criminal Law], passed 
July 1, 1979, revised March 14, 1997, effective October 1, 1997, 
amended November 4, 2017, art. 244. For a discussion of the human 
trafficking related provisions of the PRC Criminal Law, see Laney 
Zhang, ``Training Related to Combating Human Trafficking: China,'' 
Library of Congress, February 2016.
    \14\ Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, supplementing the United 
Nations Convention against Transnational Organized Crime, adopted by UN 
General Assembly resolution 55/25 of November 15, 2000, entry into 
force December 25, 2003, art. 3(a); Anti-Slavery International, ``What 
Is Human Trafficking?'' accessed May 6, 2019; Human Rights Watch, 
``Smuggling and Trafficking Human Beings,'' July 7, 2015; Rebekah Kates 
Lemke, ``7 Things You May Not Know About Human Trafficking, and 3 Ways 
to Help,'' Catholic Relief Services, March 19, 2019. For an example of 
human trafficking report that lists government sponsored forced labor 
in China as part of human trafficking, see Office to Monitor and Combat 
Trafficking in Persons, U.S. Department of State, ``Trafficking in 
Persons Report--China,'' June 2019, 3, 140-44.
    \15\ Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report,'' June 2019, 141; 
Bonny Ling, ``Human Trafficking and China: Challenges of Domestic 
Criminalisation and Interpretation,'' Asia-Pacific Journal on Human 
Rights and the Law 17, no. 1 (2016): 166-67, 170-71; Zhonghua Renmin 
Gongheguo Xing Fa [PRC Criminal Law], passed July 1, 1979, revised 
March 14, 1997, effective October 1, 1997, amended November 4, 2017, 
art. 240; Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, supplementing the United 
Nations Convention against Transnational Organized Crime, adopted by UN 
General Assembly resolution 55/25 of November 15, 2000, entry into 
force December 25, 2003, art. 3(a). The PRC Criminal Law defines 
trafficking as ``swindling, kidnapping, buying, trafficking in, 
receiving, sending, or transferring a woman or child, for the purpose 
of selling [the victim].'' In contrast, the purpose of exploitation is 
a key element of the Palermo Protocol definition of human trafficking. 
For reports from the Commission's 2019 reporting year that describe the 
sale of children as human trafficking without specifying the purpose of 
the sale, see, e.g., Chen Yikai and You Tianyi, ``9 ming ertong bei 
guai an liang renfan bei pan sixing'' [In the case of 9 trafficked 
children, two traffickers sentenced to death], Beijing News, December 
29, 2018; Wuzhou Procuratorate (@wuzhoujiancha), ``Wuzhou shi jiancha 
jiguan pizhun daibu yidui shexian fanmai ziji duo ming haizi de fuqi'' 
[Wuzhou municipal procuratorate approved the arrest of a married couple 
suspected of selling several of their own children], Weibo post, March 
11, 2019, 18:55:53; ``Baby-Selling Couple Arrested for Trafficking,'' 
Sixth Tone, March 12, 2019.
    \16\ Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, supplementing the United 
Nations Convention against Transnational Organized Crime, adopted by UN 
General Assembly resolution 55/25 of November 15, 2000, entry into 
force December 25, 2003, art. 3(a), (c). The purpose of exploitation is 
one of the required elements of a trafficking case under Article 3 of 
the Palermo Protocol. See also UN General Assembly, Report of the Ad 
Hoc Committee on the Elaboration of a Convention against Transnational 
Organized Crime on the Work of Its First to Eleventh Sessions, 
Addendum, Interpretive Notes for the Official Records (Travaux 
Preparatoires) of the Negotiation of the United Nations Convention 
against Transnational Organized Crime and the Protocols Thereto, A/55/
383/Add.1, November 3, 2000, para. 66; Bonny Ling, ``Human Trafficking 
and China: Challenges of Domestic Criminalisation and Interpretation,'' 
Asia-Pacific Journal on Human Rights and the Law 17, no. 1 (2016): 171.
    \17\ See, e.g., W. Courtland Robinson and Casey Branchini, Johns 
Hopkins Bloomberg School of Public Health, and the Kachin Women's 
Association Thailand, ``Estimating Trafficking of Myanmar Women for 
Forced Marriage and Childbearing in China,'' December 2018, ix; Matt 
Blomberg and Kong Meta, ``Wedlocked: Tangled Webs Trap Cambodian 
`Brides' in China,'' Thomson Reuters Foundation, March 11, 2019; Jenny 
Vaughan and Tran Thi Minh Ha, ``Mothers of the Missing: Anguished 
Search for Vietnam's Kidnapped Brides,'' Agence France-Presse, December 
12, 2012.
    \18\ Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report--China,'' June 
2019; Bonny Ling, ``Human Trafficking and China: Challenges of Domestic 
Criminalisation and Interpretation,'' Asia-Pacific Journal on Human 
Rights and the Law 17, no. 1 (2016): 166, 177.
    \19\ Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report,'' June 2019, 37, 
48. See also Trafficking Victims Protection Act of 2000, 22 U.S.C. 
7102. For U.S. State Department Tier Rankings from 2011 through 2019, 
see Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report,'' June 2019, 35-
37, 141, 227; Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report,'' June 2018, 139, 
215.
    \20\ For information on cross-border trafficking to and from China 
in previous reporting years, see CECC, 2018 Annual Report, October 10, 
2018, 178-79; CECC, 2017 Annual Report, October 5, 2017, 186; CECC, 
2016 Annual Report, October 6, 2016, 186; CECC, 2015 Annual Report, 
October 8, 2015, 184.
    \21\ See, e.g., Heather Barr, Human Rights Watch, ``Give Us a Baby 
and We'll Let You Go,'' March 21, 2019; Anna Maria Romero, ``How 
China's One-Child Policy Has Resulted in Millions of Single Men, Plus 
South East Asian Women Sold into Marriage,'' Independent, December 13, 
2018; Jenny Vaughan and Tran Thi Minh Ha, ``Mother of the Missing: 
Anguished Search for Vietnam's Kidnapped Brides,'' Agence France-
Presse, December 12, 2012.
    \22\ Aamna Mohdin, ``Trafficked Chinese Woman: `The Lorry Door 
Opened and We Ran,' '' Guardian, December 12, 2018; Gustavo Arias 
Retana, ``Human Trafficking from China Sounds Alarm in Latin America,'' 
Dialogo, November 15, 2018; Nicholas Kulish, Frances Robles, and 
Patricia Mazzei, ``Behind Illicit Massage Parlors Lie a Vast Crime 
Network and Modern Indentured Servitude,'' New York Times, March 2, 
2019.
    \23\ Heather Barr, Human Rights Watch, ``Give Us a Baby and We'll 
Let You Go,'' March 21, 2019; W. Courtland Robinson and Casey 
Branchini, John's Hopkins Bloomberg School of Public Health, and the 
Kachin Women's Association Thailand, ``Estimating Trafficking of 
Myanmar Women for Forced Marriage and Childbearing in China,'' December 
2018; Htike Nanda Win, ``Myanmar Women in China Use WeChat to Escape 
Forced Marriages,'' Myanmar Now, February 14, 2019.
    \24\ Matt Blomberg and Kong Meta, ``Wedlocked: Tangled Webs Trap 
Cambodian `Brides' in China,'' Thomson Reuters Foundation, March 11, 
2019; Matt Blomberg, ``Family Ties Thwart Cambodia's Efforts to Tackle 
Bride Trafficking in China,'' Reuters, February 20, 2019; Pav Suy, 
``Woman Charged for Trafficking Girl to China,'' Khmer Times, September 
19, 2018.
    \25\ Resty Woro Yuniar, ``Beaten & Abused: An Indonesian Bride 
Trafficked to China,'' Inkstone, June 25, 2019; Anna Maria Romero, 
``How China's One-Child Policy Has Resulted in Millions of Single Men, 
Plus South East Asian Women Sold into Marriage,'' Independent, December 
13, 2018.
    \26\ Choe Sang-Hun, ``Children of North Korean Mothers Find More 
Hardship in the South,'' New York Times, November 25, 2018; Crossing 
Borders, ``North Korean Orphans,'' accessed April 19, 2019; ``Bei mai 
dao Zhongguo . . . Beihan xinniang cheng shengzi gongju songhui Beihan 
zao yuzu qiangbao'' [North Korean brides sold to China become 
childbearing tools, may be raped by prison guards upon repatriation to 
North Korea], Liberty Times Net, February 19, 2019; Yoon Hee-soon, 
Korea Future Initiative, ``Sex Slaves: The Prostitution, Cybersex & 
Forced Marriage of North Korean Women & Girls in China,'' May 20, 2019.
    \27\ Adnan Aamir, ``Chinese Illegal Marriage Operators Exploit 
Young Pakistani Women,'' Nikkei Asian Review, April 18, 2019; ``FIA 
Continues Crackdown Against Chinese Nationals Involved in Human 
Trafficking,'' Geo News, May 9, 2019; Irfan Yar, ``Why and How 
Pakistani Christian Girls Are Smuggled to China,'' The Diplomat, May 
24, 2019; Salman Masood and Amy Qin, ``She Thought She'd Married a Rich 
Chinese Farmer. She Hadn't.,'' New York Times, May 27, 2019.
    \28\ Hai Binh, ``Vietnamese Woman Jailed Five Years for Trafficking 
Daughter-in-Law to China,'' VN Express, September 28, 2019; ``Bringing 
Back the Vietnamese Women Sold into Sexual Slavery and Forced Marriages 
in China,'' Agence France-Presse, reprinted in South China Morning 
Post, December 13, 2018; ``Women Charged with Selling Teenage Girls to 
China,'' Asia Times, March 12, 2019.
    \29\ ``More Than 40 Human Trafficking Cases Reported in First Two 
Months,'' Mizzima, March 18, 2019; ``Myanmar Workers Return Home After 
Fleeing Miserable Conditions at Chinese Sugarcane Plantation,'' Radio 
Free Asia, January 23, 2019; ``China: 44 Nepali Women Tricked into 
Underpaid Overwork in Liaoning Province,'' MyRepublica, reprinted in 
Business and Human Rights Resource Centre, July 2, 2019; Lee Jeong-ho, 
``North Korean Workers and Imports Continue Cross Border into China 
Despite UN Sanctions,'' South China Morning Post, October 27, 2018; 
``North Korea Still Dispatching Workers to China Despite UN 
Sanctions,'' Radio Free Asia, March 21, 2019; Jason Arterburn, C4ADS, 
``Dispatched: Mapping Overseas Forced Labor in North Korea's 
Proliferation Finance System,'' August 2, 2018, 70-90.
    \30\ The Polaris Project, a non-governmental organization based in 
Washington, D.C., found that in the United States, ``[t]he vast 
majority of women reported to have been trafficked in [illicit massage 
businesses] are from China, with a relatively high number coming from 
the [sic] Fujian province.'' Polaris Project, ``Massage Parlor 
Trafficking,'' accessed April 27, 2019; Nicholas Kulish, Frances 
Robles, and Patricia Mazzei, ``Behind Illicit Massage Parlors Lie a 
Vast Crime Network and Modern Indentured Servitude,'' New York Times, 
March 2, 2019; Mary Helen Moore, ``How Vero Beach Police Landed the 
Only Human Trafficking Charge in Recent Florida Busts,'' TC Palm, USA 
Today, February 26, 2019.
    \31\ Patricia Mazzei, `` `The Monsters Are the Men': Inside a 
Thriving Sex Trafficking Trade in Florida,'' New York Times, February 
23, 2019; Mary Helen Moore, ``How Vero Beach Police Landed the Only 
Human Trafficking Charge in Recent Florida Busts,'' TC Palm, USA Today, 
February 26, 2019; Sean Ross, ``AG Steve Marshall Shuts Down Alleged 
`Human Traffickers' Masquerading as Massage Parlors in North Alabama,'' 
Yellowhammer News, April 24, 2019; Sara Jean Green, ``Major 
Prostitution Bust: Seattle Police Raid 11 Massage Parlors, Freeing 26 
Women,'' Seattle Times, March 8, 2019. See also Nicholas Kulish, 
Frances Robles, and Patricia Mazzei, ``Behind Illicit Massage Parlors 
Lie a Vast Crime Network and Modern Indentured Servitude,'' New York 
Times, March 2, 2019.
    \32\ Patricia Mazzei, `` `The Monsters Are the Men': Inside a 
Thriving Sex Trafficking Trade in Florida,'' New York Times, February 
23, 2019; Sean Ross, ``AG Steve Marshall Shuts Down Alleged `Human 
Traffickers' Masquerading as Massage Parlors in North Alabama,'' 
Yellowhammer News, April 24, 2019. See also Polaris Project, ``Human 
Trafficking in Illicit Massage Businesses,'' 2018, 19, 27-34; Mary 
Helen Moore, ``How Vero Beach Police Landed the Only Human Trafficking 
Charge in Recent Florida Busts,'' TC Palm, USA Today, February 26, 
2019.
    \33\ As countries that have ratified the Palermo Protocol, both the 
United States and China have an obligation to prevent and combat 
trafficking in persons. Protocol to Prevent, Suppress and Punish 
Trafficking in Persons, Especially Women and Children, supplementing 
the United Nations Convention against Transnational Organized Crime, 
adopted by UN General Assembly resolution 55/25 of November 15, 2000, 
entry into force December 25, 2003, art. 3(a), 9; United Nations Treaty 
Collection, Chapter XVIII, Penal Matters, 12.a., Protocol to Prevent, 
Suppress and Punish Trafficking in Persons, Especially Women and 
Children, supplementing the United Nations Convention against 
Transnational Organized Crime, accessed July 22, 2019. See also 
Nicholas Kulish, Frances Robles, and Patricia Mazzei, ``Behind Illicit 
Massage Parlors Lie a Vast Crime Network and Modern Indentured 
Servitude,'' New York Times, March 2, 2019; Polaris Project, ``Human 
Trafficking in Illicit Massage Businesses,'' 2018, 27-34.
    \34\ Brendan Pierson, ``Ex-Chinese Construction Exec Found Guilty 
in U.S. of Forced Labor Charges,'' Reuters, March 22, 2019; Stewart 
Bishop, ``Ex-Chinese Diplomat Convicted of Forced Labor Scheme,'' 
Law360, March 22, 2019.
    \35\ Stewart Bishop, ``Ex-Chinese Diplomat Convicted of Forced 
Labor Scheme,'' Law360, March 22, 2019; Brendan Pierson, ``Ex-Chinese 
Construction Executive Faces U.S. Trial for Forced Labor,'' Reuters, 
March 5, 2019; Brendan Pierson, ``Ex-Chinese Construction Exec Found 
Guilty in U.S. of Forced Labor Charges,'' Reuters, March 22, 2019. See 
also ``Former Chinese Diplomat Faces US Trial for Forced Labor,'' Epoch 
Times, March 6, 2019.
    \36\ Stewart Bishop, ``Ex-Chinese Diplomat Convicted of Forced 
Labor Scheme,'' Law360, March 22, 2019.
    \37\ Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report--China,'' June 
2019; UN Action for Cooperation against Trafficking in Persons (UN-
ACT), ``China,'' accessed May 16, 2019.
    \38\ Fan Liya, ``Hunan Family Abducted Disabled People for Slave 
Labor,'' Sixth Tone, January 21, 2019; Tan Jun, ``Hunan Baojing 
jingfang po qiangpo laodong an: jiejiu shi ren, zhu shisan 17 nian fuzi 
tuanju'' [Police from Baojing, Hunan, crack forced labor case: 10 
people rescued, helped reunite father and son who had been separated 
for 17 years], The Paper, January 19, 2019. In another case, 
authorities sentenced traffickers to prison terms between one and six 
years for subjecting 52 men from various provinces to forced labor. Zhu 
Yuanxiang, ``52 ming nanzi shizong ji: bei qiangpo laodong xianzhi 
renshen ziyou, youde changda liu nian'' [Recollection of 52 missing 
men: forced to perform labor and personal freedoms restricted, some as 
long as six years], The Paper, January 19, 2019; Frank Tang, `` `Not a 
Single Day of Rest': Victims Reveal Details of Modern Slavery Case in 
China,'' South China Morning Post, January 19, 2019.
    \39\ Peter Bengsten, ``Hidden in Plain Sight: Forced Labour 
Constructing China,'' openDemocracy, February 16, 2018; China Labour 
Bulletin, ``Understanding and Resolving the Fundamental Problems in 
China's Construction Industry,'' March 18, 2019. See also International 
Labour Organization, ``Questions and Answers on Forced Labour,'' June 
1, 2012. The International Labour Organization lists ``withholding of 
wages'' as an indicator of forced labor.
    \40\ For information from previous years on forced labor in 
pretrial and administrative detention, see CECC, 2018 Annual Report, 
October 10, 2018, 179; CECC, 2017 Annual Report, October 5, 2017, 187; 
CECC, 2016 Annual Report, October 6, 2016, 187; CECC, 2015 Annual 
Report, October 8, 2015, 186.
    \41\ International Labour Organization, ILO Convention (No. 29) 
Concerning Forced or Compulsory Labour, June 28, 1930, art. 2.1, 
2.2(c); International Labour Organization, ``Ratifications of CO29--
Forced Labour Convention, 1930 (No. 29),'' accessed May 16, 2019. 
Article 2.1 defines forced or compulsory labor as ``all work or service 
which is exacted from any person under the menace of any penalty and 
for which the said person has not offered himself voluntarily.'' China 
has not ratified this convention.
    \42\ Civil Rights & Livelihood Watch, ``Yang Qian yu zhong chixu 
aida qi an fahui chongshen'' [Yang Qian continues to be beaten in 
prison, his case is returned for retrial], January 7, 2019; Yuan Yang, 
``Supply Chains: The Dirty Secret of China's Prisons,'' Financial 
Times, August 30, 2018. See also Zhonghua Renmin Gongheguo Kanshousuo 
Tiaoli [PRC Public Security Bureau Detention Center Regulations], 
issued and effective March 17, 1990, arts. 2, 33-34.
    \43\ Yuan Yang, ``Supply Chains: The Dirty Secret of China's 
Prisons,'' Financial Times, August 30, 2018.
    \44\ Tariff Act of 1930, 19 U.S.C. 1307; Yuan Yang, ``Supply 
Chains: The Dirty Secret of China's Prisons,'' Financial Times, August 
30, 2018. See also U.S. Customs and Border Protection, ``CBP Issues 
Detention Order on Tuna Harvested by Forced Labor Aboard the Tunago No. 
61,'' February 6, 2019.
    \45\ For information on compulsory drug detoxification centers from 
previous reporting years, see CECC, 2018 Annual Report, October 10, 
2018, 179; CECC, 2017 Annual Report, October 5, 2017, 187; CECC, 2016 
Annual Report, October 6, 2016, 187; CECC, 2015 Annual Report, October 
8, 2015, 186.
    \46\ Yang Bo and Wang Mingrun, ``Guangzhou Ribao jizhe fang ai ri 
zou jin Nanfeng Qiangzhi Geli Jiedusuo duihua HIV huanzhe'' [Guangzhou 
Daily reporter visited Nanfeng Forced Quarantine Drug Rehabilitation 
Center to speak with people with HIV on AIDS prevention day], Guangzhou 
Daily, December 1, 2018; Wenzhou Municipal Justice Bureau, ``Shi 
Huanglong Qiangzhi Geli Jiedusuo zai quan sheng shuaixian tuixing 
`4+2+1' jiedu jiaozhi guanli moshi'' [Huanlong Compulsory Quarantine 
Drug Rehabilitation Center in Wenzhou Municipality first in the 
province to implement ``4+2+1'' drug rehabilitation and correction 
management model], Feburary 27, 2019. For relevant legal provisions, 
see Zhonghua Renmin Gongheguo Jindu Fa [PRC Narcotics Law], passed 
December 29, 2007, effective June 1, 2008, arts. 38, 41, 43, 47; State 
Council, Jiedu Tiaoli [Drug Detoxification Regulations], issued and 
effective June 22, 2011; Ministry of Justice, Sifa Xingzheng Jiguan 
Qiangzhi Geli Jiedu Gongzuo Guiding [Judicial and Administrative 
Bureaus Compulsory Drug Detoxification Work Regulations], issued March 
22, 2013, effective June 1, 2013, art. 43. See also Human Rights Watch, 
`` `Where Darkness Knows No Limits': Incarceration, Ill-Treatment, and 
Forced Labor as Drug Rehabilitation in China,'' January 2010, 27-31.
    \47\ Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, supplementing the United 
Nations Convention against Transnational Organized Crime, adopted by UN 
General Assembly resolution 55/25 of November 15, 2000, entry into 
force December 25, 2003, art. 3(a). Compulsory drug detoxification 
center detainee labor can be viewed as constituting trafficking under 
Article 3(a) of the Palermo Protocol, as authorities engage in the 
``harbouring'' and ``receipt of persons, by means of the threat or use 
of force . . . for the purpose of exploitation.'' According to Article 
3(a), exploitation includes ``forced labour.'' See also Office to 
Monitor and Combat Trafficking in Persons, U.S. Department of State, 
``Trafficking in Persons Report--China,'' June 2019.
    \48\ International Labour Organization, ILO Convention (No. 29) 
Concerning Forced or Compulsory Labour, June 28, 1930, art. 2. See also 
Patrick Tibke, International Drug Policy Consortium, ``Drug Dependence 
Treatment in China: A Policy Analysis,'' February 2017, 8; Human Rights 
Watch, `` `Where Darkness Knows No Limits': Incarceration, Ill-
Treatment, and Forced Labor as Drug Rehabilitation in China,'' January 
2010, 27-31.
    \49\ Amnesty International, `` `Changing the Soup but Not the 
Medicine?': Abolishing Re-Education Through Labour in China,'' December 
2013, 9.
    \50\ Amnesty International, `` `Changing the Soup but Not the 
Medicine?': Abolishing Re-Education Through Labour in China,'' December 
2013, 17-18; Human Rights Watch, ``China: Fully Abolish Re-Education 
Through Labor,'' January 8, 2013; State Council, Guanyu Laodong 
Jiaoyang Wenti de Jueding [Decision on the Issue of Reeducation Through 
Labor], issued August 3, 1957, item 2.
    \51\ Amnesty International, `` `Changing the Soup but Not the 
Medicine?': Abolishing Re-Education Through Labour in China,'' December 
2013, 5; Human Rights Watch, ``China: Fully Abolish Re-Education 
Through Labor,'' January 8, 2013; State Council, Guanyu Laodong 
Jiaoyang Wenti de Jueding [Decision on the Issue of Reeducation Through 
Labor], issued August 3, 1957, item 3; State Council, Guanyu Laodong 
Jiaoyang de Buchong Guiding [Supplementary Provisions on Reeducation 
Through Labor], issued and effective November 29, 1979, items 1-2.
    \52\ National People's Congress Standing Committee, Quanguo Renmin 
Daibiao Dahui Changwu Weiyuanhui Guanyu Feizhi Youguan Laodong Jiaoyang 
Falu Guiding De Jueding [Decision on Abolishing Legal Provisions 
Regarding Reeducation Through Labor], issued and effective December 28, 
2013.
    \53\ Sun Ying, ``Sifabu: quanguo jue da duoshu yuan laojiao 
changsuo zhuan wei qiangzhi geli jiedu changsuo'' [Ministry of Justice: 
vast majority of nation's former reeducation through labor centers 
turned into compulsory drug detoxification centers], China National 
Radio, November 5, 2014.
    \54\ CECC, 2018 Annual Report, October 10, 2018, 179; CECC, 2017 
Annual Report, October 5, 2017, 187-88.
    \55\ Emile Dirks, ``Partial Victory for China's Detainees,'' East 
Asia Forum, February 12, 2019; Isabelle Li and Shan Yuxiao, ``China 
Signals End of Controversial Sex Work Detention Program,'' Caixin, 
December 29, 2019; Yue Hongbin and Cao Kun, ``Quanguo Renda Changweihui 
Fagongwei: jianyi feizhi shourong jiaoyu zhidu'' [NPC Legislative 
Affairs Commission: Proposes repeal of ``custody and education'' 
system], National People's Congress, December 26, 2018. For relevant 
legal provisions, see State Council, Maiyin Piaochang Renyuan Shourong 
Jiaoyu Banfa [Measures on Custody and Education of Prostitutes], issued 
September 4, 1993, amended January 8, 2011, arts. 2, 6, 13. See also 
Asia Catalyst, `` `Custody and Education': Arbitrary Detention for 
Female Sex Workers in China,'' December 2013, 8, 25-27.
    \56\ Meng Yaxu, ``Weihe si ci `maotou' dui zhun shourong jiaoyu? 
Quanguo zhengxie weiyuan huiying'' [Why critique custody and education 
four times? CPPCC member's response], Beijing Youth Daily, December 26, 
2018; See also Isabelle Li and Shan Yuxiao, ``China Signals End of 
Controversial Sex Work Detention Program,'' Caixin, December 29, 2019; 
Lin Ping, ``Rights Group Calls on China's Parliament to End Sex Worker 
`Reeducation,' '' Radio Free Asia, March 6, 2019; Human Rights Watch, 
``China: Abolish Arbitrary Detention for Sex Workers,'' March 4, 2019.
    \57\ Lin Ping, ``Rights Group Calls on China's Parliament to End 
Sex Worker `Reeducation,' '' Radio Free Asia, March 6, 2019; Human 
Rights Watch, ``China: Abolish Arbitrary Detention for Sex Workers,'' 
March 4, 2019.
    \58\ Rob Taylor, ``China Supersizes Internment Camps in Xinjiang 
Despite International Criticism,'' Wall Street Journal, November 1, 
2018; Fergus Ryan, Danielle Cave, and Nathan Ruser, ``Mapping 
Xinjiang's `Re-education' Camps,'' International Cyber Policy Centre, 
Australian Strategic Policy Institute, November 1, 2018.
    \59\ Stephanie Nebehay, ``1.5 Million Muslims Could Be Detained in 
China's Xinjiang: Academic,'' Reuters, March 13, 2019; Nick Cumming-
Bruce, ``U.S. Steps Up Criticism of China for Detentions in Xinjiang,'' 
New York Times, March 13, 2019. See also UN Office of the High 
Commissioner for Human Rights, ``Committee on the Elimination of Racial 
Discrimination Reviews the Report of China,'' August 13, 2018.
    \60\ Dake Kang, Martha Mendoza, and Yanan Wang, ``US Sportswear 
Traced to Factory in China's Internment Camps,'' Associated Press, 
December 19, 2018; Emily Feng, ``Forced Labour Being Used in China's 
`Reeducation' Camps,'' Financial Times, December 15, 2018; Li Zaili, 
``Uyghur Women Forced to Labor in Camp,'' Bitter Winter, September 28, 
2018; Li Zaili, ``Handicraft Production Base Converted into a Camp 
(Video),'' Bitter Winter, September 21, 2018; ``Businesses in China's 
Xinjiang Use Forced Labor Linked to Camp System,'' Radio Free Asia, 
January 1, 2019; ``Xinjiang Yining qiangbi Musilin dang lianjia 
laogong'' [Yining, Xinjiang, forces Muslims to labor for cheap], Radio 
Free Asia, December 31, 2018.
    \61\ Emily Feng, ``Forced Labour Being Used in China's 
`Reeducation' Camps,'' Financial Times, December 15, 2018; Dake Kang, 
Martha Mendoza, and Yanan Wang, ``US Sportswear Traced to Factory in 
China's Internment Camps,'' Associated Press, December 19, 2018; China 
Countering Evil Cults, ``Uncovering Xinjiang's `Reeducation Camps' 
(High Definition Video)'' [Video File], YouTube, October 16, 2018.
    \62\ Dake Kang, Martha Mendoza, and Yanan Wang, ``US Sportswear 
Traced to Factory in China's Internment Camps,'' Associated Press, 
December 19, 2018; Chris Buckley and Austin Ramzy, ``China's Detention 
Camps for Muslims Turn to Forced Labor,'' New York Times, December 16, 
2018; ``Businesses in China's Xinjiang Use Forced Labor Linked to Camp 
System,'' Radio Free Asia, January 1, 2019.
    \63\ Emily Feng, ``Forced Labour Being Used in China's 
`Reeducation' Camps,'' Financial Times, December 15, 2018; Sarah Cook, 
``The Learning Curve: How Communist Party Officials Are Applying 
Lessons from Prior `Transformation' Campaigns to Repression in 
Xinjiang,'' China Brief, Jamestown Foundation, February 1, 2019.
    \64\ Badger Sportswear is a part of Founder Sport Group which is 
owned by CCMP Capital Advisors LP. ``About Us,'' Badger Sport, accessed 
September 6, 2019; Iris Dorbian, ``CCMP to Buy Uniforms Maker Badger 
Sportswear,'' The PE Hub Network, August 23, 2016.
    \65\ Chris Buckley and Austin Ramzy, ``China's Detention Camps for 
Muslims Turn to Forced Labor,'' New York Times, December 16, 2018; Dake 
Kang, Martha Mendoza, and Yanan Wang, ``US Sportswear Traced to Factory 
in China's Internment Camps,'' Associated Press, December 19, 2018. For 
more information on Badger Sportswear and its relationship with its 
Chinese supplier, Bada Sport and its Hetian Taida facility, see Worker 
Rights Consortium, ``Factory Assessment Hetian Taida Apparel Co., Ltd. 
(China): Findings, Recommendations, and Status,'' June 24, 2019. See 
also Emily Feng, `` Forced Labour Being Used in China's `Reeducation' 
Camps,'' Financial Times, December 15, 2018.
    \66\ Badger Sport (@badger_sport), ``Update: Wrap Investigation 
Concludes No Use of Forced Labor at Western China Facility,'' Twitter, 
December 22, 2018, 7:18 p.m.
    \67\ Dake Kang, Martha Mendoza, and Yanan Wang, ``US Sportswear 
Traced to Factory in China's Internment Camps,'' Associated Press, 
December 19, 2018.
    \68\ Dake Kang, Martha Mendoza, and Yanan Wang, ``US Sportswear 
Traced to Factory in China's Internment Camps,'' Associated Press, 
December 19, 2018; China Countering Evil Cults, ``Uncovering Xinjiang's 
`Reeducation Camps' (High Definition Video)'' [Video File], YouTube, 
October 16, 2018, 7:14-7:25; Chris Buckley and Austin Ramzy, ``China's 
Detention Camps for Muslims Turn to Forced Labor,'' New York Times, 
December 16, 2018.
    \69\ Dake Kang, Martha Mendoza, and Yanan Wang, ``US Sportswear 
Traced to Factory in China's Internment Camps,'' Associated Press, 
December 19, 2018.
    \70\ Eva Dou and Chao Deng, ``Western Companies Get Tangled in 
China's Muslim Clampdown,'' The Wall Street Journal, May 16, 2019. 
According to a Wall Street Journal report of May 16, 2019, ``Hong Kong-
based Esquel Group--the world's largest contract shirt maker, which 
says its customers include Calvin Klein, Tommy Hilfiger, Nike Inc. and 
Patagonia Inc.--set up three spinning mills in Xinjiang to be close to 
the region's cotton fields. Esquel CEO John Cheh said that in 2017 
officials began offering the company Uighurs from southern Xinjiang as 
workers.''
    \71\ Eva Dou and Chao Deng, ``Western Companies Get Tangled in 
China's Muslim Clampdown,'' Wall Street Journal, May 16, 2019. See also 
Fair Labor Association, ``Forced Labor Risk in Xinjiang, China,'' April 
2019.
    \72\ Sophie McNeill, Jeanavive McGregor, Meredith Griffiths, 
Michael Walsh, Echo Hui, and Bang Xiao, ``Cotton On and Target 
Investigate Suppliers after Forced Labour of Uyghurs Exposed in China's 
Xinjiang,'' Four Corners, ABC News (Australia), July 16, 2019.
    \73\ Adrian Zenz, ``Beyond the Camps: Beijing's Grand Scheme of 
Forced Labor, Poverty Alleviation and Social Control in Xinjiang,'' 
SocArXiv, July 14, 2019.
    \74\ Adrian Zenz, ``Beyond the Camps: Beijing's Grand Scheme of 
Forced Labor, Poverty Alleviation and Social Control in Xinjiang,'' 
SocArXiv, July 14, 2019, 2. See also Fair Labor Association, ``Forced 
Labor Risk in Xinjiang, China,'' April 2019.
    \75\ National Development and Reform Commission, ``2019 nian 
xinxing chengzhenhua jianshe zhongdian renwu'' [Key tasks of new 
urbanization construction in 2019], March 27, 2019; Cheng Siwei and 
Timmy Shen, ``Residency Restrictions to Be Scrapped in Many of China's 
Cities,'' Caixin, April 8, 2019. See also Paulson Institute, MacroPolo, 
``Hukou Difficulty Index,'' accessed May 15, 2019.
    \76\ China Labour Bulletin, ``Migrant Workers and Their Children,'' 
accessed May 8, 2019; Ma Li, ``Why China's Migrants Can't Just Leave 
Poverty Behind,'' Sixth Tone, September 1, 2018. See also Hongbin Li, 
Prashant Loyalka, Scott Rozelle, and Binzhen Wu, ``Human Capital and 
China's Future Growth,'' Journal of Economic Perspectives 31, no. 1 
(Winter 2017), 28; ``Chinese Cities Should Stop Expelling Chinese 
Migrants,'' Economist, November 30, 2017.
    \77\ China Labour Bulletin, ``Migrant Workers and Their Children,'' 
accessed May 8, 2019; Ma Li, ``Why China's Migrants Can't Just Leave 
Poverty Behind,'' Sixth Tone, September 1, 2018.
    \78\ China Labour Bulletin, ``Migrant Workers and Their Children,'' 
accessed May 8, 2019; Ma Li, ``Why China's Migrants Can't Just Leave 
Poverty Behind,'' Sixth Tone, September 1, 2018.
    \79\ Zhonghua Renmin Gongheguo Gonghui Fa [PRC Trade Union Law], 
passed April 3, 1992, amended and effective October 27, 2001, arts. 9-
11; China Labour Bulletin, ``Labour Relations in China: Some Frequently 
Asked Questions,'' July 2018. For relevant international standards 
regarding the right to freely form and join independent unions, see 
International Labour Organization, ILO Convention (No. 87) Concerning 
Freedom of Association and Protection of the Right to Organise, July 4, 
1950, arts. 2, 3, 5; Universal Declaration of Human Rights, adopted and 
proclaimed by UN General Assembly resolution 217A (III) of December 10, 
1948, art. 23(4); International Covenant on Civil and Political Rights, 
adopted by UN General Assembly resolution 2200A (XXI) of December 16, 
1966, entry into force March 23, 1976, art. 22.1; International 
Covenant on Economic, Social and Cultural Rights, adopted by UN General 
Assembly resolution 2200A (XXI) of December 16, 1966, entry into force 
January 3, 1976, art. 8.1.
    \80\ UN General Assembly, Report of the Special Rapporteur on the 
Rights to Freedom of Peaceful Assembly and of Association, Maina Kiai, 
A/71/385, September 14, 2016, paras. 2, 4, 11, 74.
    \81\ Emily Feng, ``China's Globetrotting Labourers Face Dangers and 
Debt,'' Financial Times, January 15, 2019; Emily Feng, ``China's Global 
Construction Boom Puts Spotlight on Questionable Labor Practices,'' 
NPR, March 30, 2019; Aaron Halegua and Jerome A. Cohen, ``The Forgotten 
Victims of China's Belt and Road Initiative,'' Washington Post, April 
23, 2019.
    \82\ Amanda Erickson, ``The `Bride Price' in China Keeps Rising. 
Some Villages Want to Put a Cap on It.,'' Washington Post, September 
23, 2018; Heather Barr, Human Rights Watch, ``You Should Be Worrying 
About the Woman Shortage,'' December 4, 2019.
    \83\ Amanda Erickson, ``The `Bride Price' in China Keeps Rising. 
Some Villages Want to Put a Cap on It.,'' Washington Post, September 
23, 2018.
    \84\ Amanda Erickson, ``The `Bride Price' in China Keeps Rising. 
Some Villages Want to Put a Cap on It.,'' Washington Post, September 
23, 2018; Heather Barr, Human Rights Watch, ``You Should Be Worrying 
about the Woman Shortage,'' December 4, 2018.
    \85\ See W. Courtland Robinson and Casey Branchini, John's Hopkins 
Bloomberg School of Public Health and the Kachin Women's Association 
Thailand, ``Estimating Trafficking of Myanmar Women for Forced Marriage 
and Childbearing in China,'' December 2018; Matt Blomberg, ``Family 
Ties Thwart Cambodia's Efforts to Tackle Bride Trafficking in China,'' 
Reuters, February 20, 2019; Yoon Hee-soon, Korea Future Initiative, 
``Sex Slaves: The Prostitution, Cybersex & Forced Marriage of North 
Korean Women & Girls in China,'' May 20, 2019, 12.
    \86\ Jenny Vaughan and Tran Thi Minh Ha, ``Mother of the Missing: 
Anguished Search for Vietnam's Kidnapped Brides,'' Agence France-
Presse, December 12, 2012; Emma Graham-Harrison, ``Kachin Women From 
Myanmar `Raped Until They Get Pregnant' in China,'' Guardian, March 21, 
2019; Heather Barr, Human Rights Watch, ``Give Us a Baby and We'll Let 
You Go: Trafficking of Kachin `Brides' from Myanmar to China,'' March 
2019, 2-4.
    \87\ Ming Ye, ``Through Her Lens: Cong Yan Chronicles China's 
Cambodian Brides,'' Sixth Tone, February 8, 2019; Heather Barr, Human 
Rights Watch, ``Give Us a Baby and We'll Let You Go: Trafficking of 
Kachin `Brides' from Myanmar to China,'' March 2019, 4; W. Courtland 
Robinson and Casey Branchini, John's Hopkins Bloomberg School of Public 
Health and the Kachin Women's Association Thailand, ``Estimating 
Trafficking of Myanmar Women for Forced Marriage and Childbearing in 
China,'' December 2018, 54-55; Irfan Yar, ``Why and How Pakistani 
Christian Girls Are Smuggled to China,'' The Diplomat, May 24, 2019.
    \88\ Ming Ye, ``Through Her Lens: Cong Yan Chronicles China's 
Cambodian Brides,'' Sixth Tone, February 8, 2019; Heather Barr, Human 
Rights Watch, ``Give Us a Baby and We'll Let You Go: Trafficking of 
Kachin `Brides' from Myanmar to China,'' March 2019; ``Bringing Back 
the Vietnamese Women Sold into Sexual Slavery and Forced Marriages in 
China,'' Agence France-Presse, reprinted in South China Morning Post, 
December 13, 2018; W. Courtland Robinson, and Casey Branchini, John's 
Hopkins Bloomberg School of Public Health and the Kachin Women's 
Association Thailand, ``Estimating Trafficking of Myanmar Women for 
Forced Marriage and Childbearing in China,'' December 2018.
    \89\ Human Rights Watch, ``North Korea,'' in World Report 2019: 
Events of 2018, 2019; Choe Sang-Hun, ``Children of North Korean Mothers 
Find More Hardship in the South,'' New York Times, November 25, 2018; 
Crossing Borders, ``North Korean Orphans,'' accessed April 19, 2019. 
See also Tim A. Peters, ``Reaching Underground Believers and Guiding 
Others in Flight: Silent Partners Assist North Koreans Under Caesar's 
Sword,'' HKNK Insider, September 24, 2018; Lin Taylor, ``Through Lunar 
New Year Feast, North Korean Defectors Draw Attention to Their 
Plight,'' Reuters, February 8, 2019; UN Office of the High Commissioner 
for Human Rights, ``Committee on the Elimination of Racial 
Discrimination Reviews the Report of China,'' August 13, 2018. The UN 
Committee on the Elimination of Racial Discrimination expressed concern 
that ``China continued to deny refugee status to asylum-seekers from 
the Democratic People's Republic of Korea and it also continued to 
forcibly return them to their country of origin, regardless of a 
serious threat of persecution and human rights violations.''
    \90\ Choe Sang-Hun, ``Children of North Korean Mothers Find More 
Hardship in the South,'' New York Times, November 25, 2018; Crossing 
Borders, ``North Korean Orphans,'' accessed April 19, 2019.
    \91\ Robert R. King, ``Attention on DPRK and China Policies That 
Result in Sex Trafficking,'' Peninsula (blog), Korea Economic 
Institute, January 23, 2019; Su-Min Hwang, ``The North Korean Women Who 
Had to Escape Twice,'' BBC, January 18, 2019; Julian Ryall, ``Returned 
North Korean Defectors Paraded to Lecture on Miseries of Capitalism 
They Saw in China,'' Telegraph, December 29, 2018.
    \92\ Michelle Nichols, ``Russia, China Sent Home More Than Half of 
North Korean Workers in 2018--UN Reports,'' Reuters, March 29, 2019; 
Richard Roth and Ben Westcott, ``China and Russia Claim Thousands of 
North Korean Workers Sent Home,'' CNN, March 26, 2019.
    \93\ For information on North Korean workers in China from previous 
reporting years, see CECC, 2018 Annual Report, October 10, 2018, 180; 
CECC, 2017 Annual Report, October 5, 2017, 188; CECC, 2016 Annual 
Report, October 6, 2016, 186-87.
    \94\ Lee Jeong-ho, ``North Korean Workers and Imports Continue to 
Cross into China,'' South China Morning Post, October 27, 2018; ``North 
Korea Still Dispatching Workers to China Despite UN Sanctions,'' Radio 
Free Asia, March 21, 2019. See also Jason Arterburn, C4ADS, 
``Dispatched: Mapping Overseas Forced Labor in North Korea's 
Proliferation Finance System,'' 2018.
    \95\ Lee Jeong-ho, ``North Korean Workers and Imports Continue to 
Cross into China,'' South China Morning Post, October 27, 2018. See 
also Jason Arterburn, C4ADS, ``Dispatched: Mapping Overseas Forced 
Labor in North Korea's Proliferation Finance System,'' 2018.
    \96\ 2018 Zhongguo falu nianjian [2018 China law yearbook] 
(Beijing: China Law Yearbook Press, 2018), 1191, table 1.
    \97\ 2017 Zhongguo falu nianjian [2017 China law yearbook] 
(Beijing: China Law Yearbook Press, 2017), 1168, table 1.
    \98\ National Bureau of Statistics of China, ``2017 nian `Zhongguo 
ertong fazhan gangyao (2011-2020 nian)' tongji jiance baogao'' [2017 
``Chinese children's development summary (2011-2020)'' statistical 
monitoring report], October 2018, sec. 1(5)2.
    \99\ National Bureau of Statistics of China, ``2016 nian `Zhongguo 
ertong fazhan gangyao (2011-2020 nian)' tongji jiance baogao'' [2016 
``Chinese children's development summary (2011-2020)'' statistical 
monitoring report], October 27, 2017, sec. 1(5)2.
    \100\ The PRC Criminal Law defines trafficking as ``abducting, 
kidnapping, buying, trafficking in, fetching, sending, or transferring 
a woman or child, for the purpose of selling [the victim].'' The 
illegal sale of children for adoption thus can be considered 
trafficking under Chinese law. In contrast, under the Palermo Protocol, 
illegal adoptions constitute trafficking only if the purpose is 
exploitation. Zhonghua Renmin Gongheguo Xing Fa [PRC Criminal Law], 
passed July 1, 1979, amended and effective November 4, 2017, art. 240; 
Protocol to Prevent, Suppress and Punish Trafficking in Persons, 
Especially Women and Children, supplementing the United Nations 
Convention against Transnational Organized Crime, adopted by UN General 
Assembly resolution 55/25 of November 15, 2000, entry into force 
December 25, 2003, art. 3(a). See also UN General Assembly, Report of 
the Ad Hoc Committee on the Elaboration of a Convention against 
Transnational Organized Crime on the Work of Its First to Eleventh 
Sessions, Addendum, Interpretive Notes for the Official Records 
(Travaux Preparatoires) of the Negotiation of the United Nations 
Convention against Transnational Organized Crime and the Protocols 
Thereto, A/55/383/Add.1, November 3, 2000, para. 66; Office to Monitor 
and Combat Trafficking in Persons, U.S. Department of State, 
``Trafficking in Persons Report--China,'' June 2019; Bonny Ling, 
``Human Trafficking and China: Challenges of Domestic Criminalisation 
and Interpretation,'' Asia-Pacific Journal on Human Rights and the Law 
17, no. 1 (2016), 166-67, 170-71.
    \101\ Zhonghua Renmin Gongheguo Xing Fa [PRC Criminal Law], passed 
July 1, 1979, amended and effective November 4, 2017, art. 240; 
Protocol to Prevent, Suppress and Punish Trafficking in Persons, 
Especially Women and Children, supplementing the United Nations 
Convention against Transnational Organized Crime, adopted by UN General 
Assembly resolution 55/25 of November 15, 2000, entry into force 
December 25, 2003, art. 3(a). See also Bonny Ling, ``Human Trafficking 
and China: Challenges of Domestic Criminalisation and Interpretation,'' 
Asia-Pacific Journal on Human Rights and the Law 17, no. 1 (2016): 160, 
166-70.
    \102\ Zhonghua Renmin Gongheguo Xing Fa [PRC Criminal Law], passed 
July 1, 1979, amended and effective November 4, 2017, art. 240; 
Protocol to Prevent, Suppress and Punish Trafficking in Persons, 
Especially Women and Children, supplementing the United Nations 
Convention against Transnational Organized Crime, adopted by UN General 
Assembly resolution 55/25 of November 15, 2000, entry into force 
December 25, 2003, art. 3(a). See also Bonny Ling, ``Human Trafficking 
and China: Challenges of Domestic Criminalisation and Interpretation,'' 
Asia-Pacific Journal on Human Rights and the Law 17, no. 1 (2016): 159, 
170, 175.
    \103\ Dake Kang, ``Chinese Police Raids Rescue 1,100 Trafficked 
Women,'' Associated Press, June 21, 2019; Zhang Hui, ``Chinese, 
Southeast Asian Police Rescue Abducted Women,'' Global Times, June 21, 
2019.
    \104\ For information on human trafficking in Hong Kong from 
previous reporting years, see CECC, 2018 Annual Report, October 10, 
2018, 181-82; CECC, 2017 Annual Report, October 5, 2017, 189-90; CECC, 
2016 Annual Report, October 6, 2016, 189-90; CECC, 2015 Annual Report, 
October 8, 2015, 187-88.
    \105\ Census and Statistics Department, Hong Kong Special 
Administrative Region, ``Xianggang tongji niankan'' [Hong Kong annual 
digest of statistics], October 2018, 44, table 2.12. The Hong Kong 
government refers to migrant domestic workers as ``foreign domestic 
helpers.'' For general information on migrant domestic workers, see 
International Labour Organization, ``Who Are Domestic Workers?,'' 
accessed April 24, 2019; International Labour Organization, ``Migrant 
Domestic Workers,'' accessed April 24, 2019.
    \106\ Mary Ann Benitez, ``Hong Kong Public Helps Bethune House 
Secure Enough Funding to Keep Two Refuges for Distressed Helpers Open 
until End of Year,'' South China Morning Post, October 28, 2018; Raquel 
Carvalho, ``Migrant Domestic Workers Prop Up Hong Kong's Economy, so 
Why Are They Excluded?,'' South China Morning Post, March 12, 2019; 
Alan Wong, ``Inkstone Index: Hong Kong's Foreign Domestic Workers 
Photo: Dickson Lee,'' Inkstone, March 4, 2019; Raquel Carvalho, 
``Filipino Domestic Worker in Hong Kong Fired after Employer Found Out 
She Has Cervical Cancer,'' South China Morning Post, March 5, 2019; 
Communications and Public Relations Office, Chinese University of Hong 
Kong, ``Migrants Rights Denied in Hong Kong,'' February 13, 2019.
    \107\ Immigration Department, Hong Kong Special Administrative 
Region Government, ``Cong waiguo shoupin lai gang jiating yonggong 
qianzheng/yanchang douliu qixian shenqing biao'' [Visa/extension of 
stay application form for domestic helper from abroad], accessed April 
25, 2019, 6(ii); Immigration Department, Hong Kong Special 
Administrative Region Government, ``Employment Contract for a Domestic 
Helper Recruited from Outside Hong Kong,'' accessed April 25, 2019, 
item 3. Immigration Department, Hong Kong Special Administrative Region 
Government, ``Foreign Domestic Helpers,'' accessed April 25, 2019, 
question 33. See also Karen Cheung, ``Hong Kong Domestic Worker Loses 
Legal Bid to Overturn Compulsory Live-In Rule,'' Hong Kong Free Press, 
February 14, 2018.
    \108\ Immigration Department, Hong Kong Special Administrative 
Region Government, ``Cong waiguo shoupin lai gang jiating yonggong 
qianzheng/yanchang douliu qixian shenqing biao'' [Visa/extension of 
stay application form for domestic helper from abroad], accessed April 
25, 2019, 6(vi); Immigration Department, Hong Kong Special 
Administrative Region Government, ``Conditions of Employment for 
Foreign Domestic Helpers: A General Guide to the Helper,'' accessed 
April 25, 2019, item 3; Immigration Department, Hong Kong Special 
Administrative Region Government, ``Foreign Domestic Helpers,'' 
accessed April 25, 2019, question 33.
    \109\ Centre for Comparative and Public Law, Faculty of Law, 
University of Hong Kong et al., ``Joint Submission of NGOs for the 
Universal Periodic Review (3rd Cycle) Hong Kong Special Administrative 
Region (HKSAR) China,'' March 2018, paras. 45-46, 48, 50; Mary Ann 
Benitez, ``Carrie Lam Urged to End `Institutional Slavery' in Hong Kong 
by Acting on Promise of Support for City's Foreign Domestic Workers,'' 
South China Morning Post, October 12, 2019.
    \110\ Crimes Ordinance (Cap. 200) sec. 129(1). See also Centre for 
Comparative and Public Law, Faculty of Law, University of Hong Kong et 
al., ``Joint Submission of NGOs for the Universal Periodic Review (3rd 
Cycle) Hong Kong Special Administrative Region (HKSAR) China,'' March 
2018, para. 49.
    \111\ Department of Justice, Hong Kong Special Administrative 
Region Government, ``Summary of Judicial Decision: ZN (`the Applicant') 
v Secretary for Justice, Director of Immigration, Commissioner of 
Police and Commissioner for Labour (Collectively as `the Respondents') 
CACV 14/17; [2018] HKCA 473,'' August 2, 2018, para. 8. For the full 
court ruling, see In the High Court of the Hong Kong Special 
Administrative Region Court of Appeal, Civil Appeal No. 14 of 2017, (On 
Appeal From Hcal 15/2015) Between ZN and Secretary for Justice, 
Director of Immigration, Commissioner of Police, Commissioner for 
Labour, Judgement.
    \112\ ``Hong Kong Determined to Fight People Trafficking and 
Protect Helpers,'' South China Morning Post, March 9, 2019.
    \113\ Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report--Hong Kong,'' June 
2019; Elise Mak, ``Human Trafficking in Hong Kong,'' Harbour Times, 
April 25, 2019.
    \114\ China made the following declaration regarding the 
application of the Palermo Protocol to Hong Kong: ``Unless otherwise 
notified by the Government, the Protocol shall not apply to the Hong 
Kong Special Administrative Region of the People's Republic of China.'' 
See United Nations Treaty Collection, Chapter XVIII, Penal Matters, 
12.a. Protocol to Prevent, Suppress and Punish Trafficking in Persons, 
Especially Women and Children, supplementing the United Nations 
Convention against Transnational Organized Crime, accessed May 17, 
2019. See also UN Committee on the Elimination of Discrimination 
against Women, Concluding Observations on the Combined Seventh and 
Eighth Periodic Reports of China, adopted by the Committee at its 59th 
Session (October 20-November 7, 2014), CEDAW/C/CHN/CO/7-8, November 14, 
2014, para. 56.


                                                  North Korean 
                                                   Refugees in 
                                                          China
                                                North Korean 
                                                Refugees in 
                                                China

                     North Korean Refugees in China


                                Findings

        <bullet> During the Commission's 2019 reporting year, 
        the Chinese government continued to detain North Korean 
        refugees in China and repatriate them to the Democratic 
        People's Republic of Korea (DPRK), where they face 
        severe punishments, including torture, imprisonment, 
        forced labor, and even execution. The repatriation of 
        North Korean refugees violates China's obligations 
        under international human rights and refugee law and 
        may amount to ``aiding and abetting crimes against 
        humanity.''
        <bullet> The majority of North Korean refugees escape 
        to South Korea via China and Southeast Asian countries. 
        This past year, Chinese and North Korean authorities 
        reportedly imposed stricter border controls to deter 
        North Korean refugees from escaping the DPRK. The South 
        Korean government reported that about 1,137 North 
        Korean refugees escaped to South Korea in 2018, 
        compared to the peak of 2,914 refugees in 2009.
        <bullet> South Korean missionaries and organizations 
        have played a crucial role in assisting and 
        facilitating the movement of North Korean refugees in 
        China. Chinese authorities' crackdown on and expulsions 
        of South Korean missionaries in recent years have 
        undermined refugee rescue work carried out by the 
        missionaries.
        <bullet> The majority of North Korean refugees leaving 
        the DPRK are women. The Chinese government's refusal to 
        recognize these women as refugees denies them legal 
        protection and may encourage the trafficking of North 
        Korean women and girls within China. The UK-based Korea 
        Future Initiative estimated that about 60 percent of 
        all female North Korean refugees in China are 
        trafficked for the purpose of sexual exploitation.
        <bullet> Many children born to Chinese fathers and 
        North Korean mothers remain deprived of basic rights to 
        education and other public services, owing to their 
        lack of legal resident status in China, which 
        constitutes violations of China's PRC Nationality Law 
        and the Convention on the Rights of the Child.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Urge the Chinese government to recognize North 
        Koreans in China as refugees, especially as refugees 
        sur place who fear persecution upon return to their 
        country of origin, regardless of their reason for 
        leaving the DPRK; immediately halt the repatriation of 
        North Korean refugees; adopt asylum or refugee 
        legislation and incorporate the principle of non-
        refoulement into domestic legislation; establish a 
        responsible government institution and mechanism to 
        determine asylee or refugee status for North Koreans 
        seeking international protection in China, in 
        cooperation with the UN High Commissioner for Refugees; 
        and allow North Korean refugees safe passage to another 
        country, including to the Republic of Korea.
          Consider using the suite of sanctions that are 
        available, where appropriate, against Chinese 
        government agencies and individuals involved in the 
        repatriation of North Korean refugees; and press for 
        increased international monitoring of and 
        accountability for the Chinese government's treatment 
        of refugees.
          Urge Chinese authorities to recognize the legal 
        status of North Korean women who marry or have children 
        with Chinese citizens, and ensure that all such 
        children are granted resident status and access to 
        education and other public services in accordance with 
        Chinese law and international standards.
          Appoint and confirm the U.S. Special Envoy on North 
        Korean Human Rights Issues, and encourage the Special 
        Envoy to work with South Korean counterparts to 
        coordinate efforts related to humanitarian assistance 
        and human rights promotion for North Korean refugees in 
        China, in accordance with the North Korean Human Rights 
        Reauthorization Act (Public Law No. 115-198).


                                                  North Korean 
                                                   Refugees in 
                                                          China
                                                North Korean 
                                                Refugees in 
                                                China

                     North Korean Refugees in China


                              Introduction

    During the Commission's 2019 reporting year, the Chinese 
government's policy to detain North Korean refugees and 
repatriate them to the Democratic People's Republic of Korea 
(DPRK) remained in place, despite substantial evidence that 
repatriated persons face torture, imprisonment, forced labor, 
execution, and other inhuman treatment.\1\ The North Korean 
government's imprisonment and torture of repatriated North 
Koreans render North Koreans in China refugees sur place who 
fear persecution upon return to their country of origin, 
regardless of their reason for leaving the DPRK.\2\ The Chinese 
government, however, regards North Korean refugees in China as 
illegal economic migrants \3\ and maintains a policy of 
forcible repatriation based on a 1998 border protocol with the 
DPRK.\4\ China's repatriation of North Korean refugees 
contravenes its international obligations under the 1951 UN 
Convention Relating to the Status of Refugees and its 1967 
Protocol, to which China has acceded.\5\ China is also 
obligated under the Convention against Torture and Other Cruel, 
Inhuman or Degrading Treatment or Punishment to refrain from 
repatriating persons if there are ``substantial grounds for 
believing that [they] would be in danger of being subjected to 
torture.'' \6\

             Border Conditions and Repatriation of Refugees

    The majority of North Korean refugees escape to South Korea 
via China and Southeast Asian countries,\7\ and heightened 
security measures along the China-North Korea border may have 
contributed to a trend of significant decline in the number of 
North Korean refugees that reach South Korea.\8\ This past 
year, Chinese and North Korean authorities reportedly imposed 
stricter border controls to deter North Korean refugees from 
escaping the DPRK.\9\ Chinese authorities also appear to be 
conducting regular raids on safe houses and detaining higher 
numbers of North Korean refugees than in the past.\10\ Reuters 
reported in June 2019 that Chinese authorities detained ``at 
least 30'' North Koreans in China since mid-April.\11\ A rights 
advocate, however, separately estimated 20 to 30 detentions and 
as many as 7 raids every month.\12\ The South Korean Ministry 
of Unification reported that about 1,137 North Korean refugees 
reached South Korea in 2018, compared to the peak of 2,914 
refugees in 2009.\13\
    Throughout the 2019 reporting year, Chinese authorities 
reportedly detained and repatriated North Korean refugees to 
the DPRK. Representative cases included the following:

        <bullet> November 2018. Chinese authorities reportedly 
        detained two North Korean refugees in Dandong 
        municipality, Liaoning province, and repatriated them 
        to the DPRK.\14\ In a separate incident, Chinese 
        authorities detained another North Korean refugee at an 
        unknown location near the China-North Korea border and 
        later repatriated the refugee.\15\
        <bullet> According to a December 2018 Daily NK report, 
        Chinese authorities repatriated an elderly North Korean 
        refugee after he had been involved in a traffic 
        accident at an unknown location in China.\16\ The 
        refugee reportedly died a week after his repatriation 
        to the DPRK, due to a lack of medical treatment.\17\
        <bullet> February 2019. China's Ministry of State 
        Security officials reportedly detained a North Korean 
        refugee family of three in Shenyang municipality, 
        Liaoning.\18\ The Daily NK warned that if repatriated, 
        the family could face severe punishment, because they 
        escaped North Korea during ``a very politically 
        sensitive time.'' \19\
        <bullet> April 2019. According to South Korean media 
        reports, in early April, Vietnamese authorities 
        reportedly detained three North Korean refugees near 
        the China-Vietnam border and later transferred them to 
        Chinese authorities.\20\ In late April, Chinese 
        authorities detained a group of seven North Korean 
        refugees--including a minor and her uncle--at an 
        unknown location in Shenyang, causing concerns that 
        they too may be repatriated.\21\
        <bullet> May 2019. The Daily NK reported the detentions 
        of 14 North Korean defectors in China: on May 15, two 
        detentions in Shenyang; on May 21, four detentions 
        (including two teenagers) in Nanning municipality, 
        Guangxi Zhuang Autonomous Region, two more detentions 
        in Shenyang, and two detentions in Tonghua 
        municipality, Jilin province; and on May 25, four more 
        detentions in Shenyang.\22\
        <bullet> July 2019. Radio Free Asia cited South Korean 
        sources who claimed that Chinese authorities detained 
        60 North Koreans and had already begun repatriating 
        some of them to the DPRK.\23\

    As of August 2019, the Commission had not observed any new 
developments in these cases.
    In 2014, the UN Commission of Inquiry on Human Rights in 
the Democratic People's Republic of Korea stated that China's 
forcible repatriation of North Korean refugees may amount to 
``aiding and abetting crimes against humanity.'' \24\ During 
this reporting year, UN officials again voiced their concerns 
and urged Chinese authorities on a number of occasions to stop 
the repatriation of North Korean refugees.\25\

                   Crackdown on Foreign Missionaries

    During this reporting year, the Commission continued to 
observe reports of Chinese authorities cracking down on 
organizations and individuals, particularly South Korean 
Christian missionaries and churches, that have played a crucial 
role in assisting and facilitating the movement of North Korean 
refugees outside the DPRK.\26\ As documented in the 
Commission's 2017 and 2018 annual reports, in recent years 
Chinese authorities expelled at least several hundred South 
Korean missionaries, many of whom assisted North Korean 
refugees in fleeing to South Korea and other countries.\27\ One 
international advocacy group stated that the recent wave of 
expulsions of foreign missionaries is one of the largest since 
1954, a development that has undermined refugee rescue work 
carried out by the missionaries.\28\

                   Trafficking of North Korean Women

    North Korean women who enter China illegally remain 
particularly vulnerable to human trafficking. The demand for 
North Korean women has been linked to a sex ratio imbalance in 
China exacerbated by the Chinese government's population 
planning policies.\29\ Sources indicate that the majority of 
North Korean refugees leaving the DPRK are women,\30\ many of 
whom are trafficked by force or deception from the DPRK into or 
within China for the purposes of forced marriage and commercial 
sexual exploitation.\31\
    The Chinese government's refusal to recognize these women 
as refugees denies them legal protection and may encourage the 
trafficking of North Korean women and girls within China.\32\ 
According to a May 2019 report published by U.K.-based Korea 
Future Initiative, an estimated 60 percent of all female North 
Korean refugees in China are trafficked for the purpose of 
sexual exploitation.\33\ Roughly 50 percent of those trafficked 
women ``are forced into prostitution'' and 15 percent are 
``pressed into cybersex.'' \34\ This past year, international 
news media reported several cases of traffickers confining 
North Korean women and girls at unknown locations in China and 
forcing them to work in ``cybersex dens.'' \35\ China is 
obligated to take measures to safeguard trafficking victims and 
suppress all forms of trafficking of women under the Convention 
on the Elimination of All Forms of Discrimination against Women 
and the UN Protocol to Prevent, Suppress and Punish Trafficking 
in Persons, Especially Women and Children.\36\ [For more 
information on the sex ratio imbalance and the trafficking of 
women in China, see Section II--Population Control and Section 
II--Human Trafficking.]

              Children of North Korean and Chinese Parents

    Many children born to Chinese fathers and North Korean 
mothers remain deprived of basic rights to education and other 
public services, owing to their lack of legal resident status 
in China. According to some estimates, the population of 
children born in China to North Korean women ranges between 
20,000 and 30,000.\37\ The PRC Nationality Law provides that 
all children born in China are entitled to Chinese nationality 
if either parent is a Chinese citizen.\38\ Chinese authorities 
reportedly continue to largely deprive these children of their 
rights to birth registration and nationality.\39\ Without proof 
of resident status, these children are unable to access 
education and other public services.\40\ The denial of 
nationality rights and access to education for these children 
contravenes China's obligations under the Convention on the 
Rights of the Child.\41\


                                                  North Korean 
                                                   Refugees in 
                                                          China
                                                North Korean 
                                                Refugees in 
                                                China
    Notes to Section II--North Korean Refugees in China

    \1\ Human Rights Watch, ``China: Protect 7 North Koreans Fleeing 
Oppression,'' May 14, 2019; Human Rights Watch, ``North Korea,'' in 
World Report 2019: Events of 2018, 2019, 437-442; William Gallo, ``S. 
Korea Works for Safety of 7 Defectors Held in China,'' Voice of 
America, May 3, 2019.
    \2\ UN High Commissioner for Refugees, Refugee Protection and 
International Migration, January 17, 2007, paras. 20-21; Human Rights 
Watch, ``China: Protect 7 North Koreans Fleeing Oppression,'' May 14, 
2019; Roberta Cohen, ``Legal Grounds for Protection of North Korean 
Refugees,'' Brookings Institution, September 13, 2010.
    \3\ Lin Taylor, ``Through Lunar New Year Feast, North Korean 
Defectors Draw Attention to Their Plight,'' Reuters, February 8, 2019; 
Tim A. Peters, Committee for Human Rights in North Korea, ``Reaching 
Underground Believers & Guiding Others in Flight: Silent Partners 
Assist North Koreans under Caesar's Sword,'' September 24, 2018; Colin 
Zwirko, ``South Korea `Mobilizing All' Diplomatic Resources to Help 
Defectors Held in China,'' NK News, May 3, 2019.
    \4\ Democratic People's Republic of Korea Ministry of State 
Security and People's Republic of China Ministry of Public Security, 
Zhonghua Renmin Gongheguo Gonganbu Chaoxian Minzhu Zhuyi Renmin 
Gongheguo Guojiabaoweibu Guanyu Zai Bianjing Diqu Weihu Guojia Anquan 
He Shehui Zhixu De Gongzuo Zhong Xianghu Hezuo De Yidingshu [Mutual 
Cooperation Protocol for the Work of Maintaining National Security and 
Social Order in the Border Areas], signed July 8, 1998, effective 
August 28, 1998, arts. 4, 9. The protocol commits each side to treat as 
illegal those border crossers who do not have proper visa certificates, 
except in cases of ``calamity or unavoidable factors.''
    \5\ Convention Relating to the Status of Refugees, adopted by the 
UN Conference of Plenipotentiaries on the Status of Refugees and 
Stateless Persons on July 28, 1951, entry into force April 22, 1954, 
arts. 1(A)(2), 33(1). Article 1 of the 1951 Convention, as amended by 
the 1967 Protocol, defines a refugee as someone who, ``owing to well-
founded fear of being persecuted for reasons of race, religion, 
nationality, membership of a particular social group or political 
opinion, is outside the country of his nationality and is unable or, 
owing to such fear, is unwilling to avail himself of the protection of 
that country . . ..'' Article 33 of the 1951 Convention mandates that, 
``No Contracting State shall expel or return (`refouler') a refugee in 
any manner whatsoever to the frontiers of territories where his life or 
freedom would be threatened on account of his race, religion, 
nationality, membership of a particular social group or political 
opinion.'' United Nations Treaty Collection, Chapter V, Refugees and 
Stateless Persons, Convention Relating to the Status of Refugees, 
accessed May 10, 2019. China acceded to the Convention Relating to the 
Status of Refugees on September 24, 1982. Protocol Relating to the 
Status of Refugees, adopted by UN General Assembly resolution A/RES/
2198 of December 16, 1966, entry into force October 4, 1967; United 
Nations Treaty Collection, Chapter V, Refugees and Stateless Persons, 
Protocol Relating to the Status of Refugees, accessed May 10, 2019. 
China acceded to the Protocol Relating to the Status of Refugees on 
September 24, 1982. See also Human Rights Watch, ``North Korea'' in 
World Report 2019: Events of 2018, 2019; Human Rights Watch, ``China: 
Protect 7 North Koreans Fleeing Oppression,'' May 14, 2019.
    \6\ Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, adopted by UN General Assembly 
resolution 39/46 of December 10, 1984, entry into force June 26, 1987, 
art. 3. Article 3 states that, ``No State Party shall expel, return 
(`refouler') or extradite a person to another State where there are 
substantial grounds for believing that he would be in danger of being 
subjected to torture.'' United Nations Treaty Collection, Chapter IV, 
Human Rights, Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, accessed May 10, 2019. China signed 
the Convention on December 12, 1986, and ratified it on October 4, 
1988. UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China, adopted by the Committee at its 1391st 
and 1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, February 3, 
2016, para. 46. See also Human Rights Watch, ``China: Protect 7 North 
Koreans Fleeing Oppression,'' May 14, 2019.
    \7\ Ann Babe, ``When the Dream Dies: Female North Korean Defectors 
Suffer Prejudice in the Competitive, Self-Absorbed South,'' South China 
Morning Post, October 18, 2018; Lee Jeong-ho, ``Treat North Korean 
Refugees as `Humanitarian Issue,' Former US Prisoner Kenneth Bae Urges 
China,'' South China Morning Post, April 18, 2019.
    \8\ See, e.g., ``Number of N. Korean Defectors to S. Korea Falls 
under Kim Jong-un: Data,'' Yonhap News Agency, September 30, 2018; Jung 
Da-min, ``Why Number of North Korean Defectors Keep Decreasing,'' Korea 
Times, October 22, 2018; Shim Kyu-Seok and Sarah Kim, ``3 Defectors 
Nabbed by Vietnam and Sent Back,'' Korea JoongAng Daily, April 5, 2019.
    \9\ Jung Da-min, ``Why Number of North Korean Defectors Keep 
Decreasing,'' Korea Times, October 22, 2018; ``Number of N. Korean 
Defectors to S. Korea Falls under Kim Jong-un: Data,'' Yonhap News 
Agency, September 30, 2018; Human Rights Watch, ``North Korea'' in 
World Report 2019: Events of 2018, 2019; Jo Hyon, ``Video Surveillance 
Network Expanded on China-North Korea Border,'' Daily NK, December 28, 
2018.
    \10\ Josh Smith and Joyce Lee, ``Chinese Raids Hit North Korean 
Defectors' `Underground Railroad,' '' Reuters, June 16, 2019; Helen 
Regan and Jake Kwon, ``China Is Cracking Down on Safe Houses Used by 
North Korean Defectors, Activists Say,'' CNN, June 20, 2019.
    \11\ Josh Smith and Joyce Lee, ``Chinese Raids Hit North Korean 
Defectors' `Underground Railroad,' '' Reuters, June 16, 2019.
    \12\ Helen Regan and Jake Kwon, ``China Is Cracking Down on Safe 
Houses Used by North Korean Defectors, Activists Say,'' CNN, June 20, 
2019.
    \13\ Ministry of Unification, Republic of Korea, ``Policy on North 
Korean Defectors,'' accessed May 10, 2019; ``Activists Urge China to 
Not Repatriate N. Korean Defectors,'' Voice of America, April 30, 2019.
    \14\ Kim Song Il, ``North Korean Defectors in China Repatriated,'' 
Daily NK, November 28, 2018.
    \15\ Ibid.
    \16\ Kim Yoo Jin, ``Elderly Man Dies After Defection Attempt and 
Repatriation to North Korea,'' Daily NK, December 14, 2018.
    \17\ Ibid.
    \18\ Kim Yoo Jin, ``North Korean Authorities Surprised by 
Defections During Politically Sensitive Period,'' Daily NK, March 6, 
2019.
    \19\ Ibid.
    \20\ ``It's Urgent, Too,'' editorial, Korea Herald, April 7, 2019; 
Shim Kyu-Seok and Sarah Kim, ``3 Defectors Nabbed by Vietnam and Sent 
Back,'' Korea JoongAng Daily, April 5, 2019; Kim Myong-song and Roh 
Suk-jo, ``Foreign Ministry `Ignored N.Korean Defectors' Pleas for 
Help,' '' Chosun Ilbo, April 5, 2019.
    \21\ Human Rights Watch, ``China: Protect 7 North Koreans Fleeing 
Oppression,'' May 14, 2019; ``Seven Detained North Korean Defectors in 
China Face Repatriation,'' Radio Free Asia, April 29, 2019; ``Rally 
Held at Chinese Embassy in Seoul for Seven North Korean Defectors 
Detained in Shenyang,'' Radio Free Asia, April 30, 2019.
    \22\ Jang Seul Gi, ``Arrests of North Korean Defectors in China 
Continue,'' Daily NK, June 18, 2019.
    \23\ ``China Detains 60 North Korean Defectors, Sends Some Back,'' 
Radio Free Asia, August 7, 2019.
    \24\ UN Commission of Inquiry on Human Rights in the Democratic 
People's Republic of Korea, Report of the Commission of Inquiry on 
Human Rights in the Democratic People's Republic of Korea, A/HRC/25/63, 
February 7, 2014, Annex II, 28. See also ``Seven Detained North Korean 
Defectors in China Face Repatriation,'' Radio Free Asia, April 29, 
2019; Jung-Hoon Lee and Joe Phillips, ``Drawing the Line: Combating 
Atrocities in North Korea,'' Washington Quarterly 39, no. 2 (2016): 62.
    \25\ ``UN Rapporteur Urges China Not to Send N. Korean Defectors 
Back to Regime,'' Arirang, May 17, 2019; ``UN Committee Voices Concern 
over China's Continued Deportation of N. Korean,'' KBS World Radio, 
September 6, 2018; Lee Chi-dong, ``U.N. Refugee Chief Asks S. Koreans 
to Be More Hospitable to Asylum Seekers,'' Yonhap News Agency, October 
24, 2018.
    \26\ Tim A. Peters, Committee for Human Rights in North Korea, 
``Reaching Underground Believers & Guiding Others in Flight: Silent 
Partners Assist North Koreans under Caesar's Sword,'' September 24, 
2018; Ha Yoon Ah, ``Many Churches Assisting North Korean Defectors in 
China Close, Missionaries Say,'' Daily NK, February 8, 2019; 
International Christian Concern, ``Expulsion of Foreign Missionaries in 
China Has Greatly Increased,'' February 13, 2019.
    \27\ CECC, 2018 Annual Report, October 10, 2018, 192; CECC, 2017 
Annual Report, October 5, 2017, 199.
    \28\ International Christian Concern, ``Expulsion of Foreign 
Missionaries in China Has Greatly Increased,'' February 13, 2019; Ha 
Yoon Ah, ``Many Churches Assisting North Korean Defectors in China 
Close, Missionaries Say,'' Daily NK, February 8, 2019.
    \29\ See, e.g., Joshua Berlinger, ``Report Claims Thousands of 
North Korean Women Sold into Sex Slavery in China,'' CNN, May 21, 2019; 
``Bei mai dao Zhongguo . . . Beihan xinniang cheng sheng zi gongju song 
hui Beihan zao yuzu qiangbao'' [North Korean brides sold to China 
became childbearing tools, may be raped by prison guards upon 
repatriation to North Korea], Liberty Times, February 19, 2019. See 
also Robbie Gramer et al., ``With Human Trafficking Report, Tillerson 
Rebukes China on Human Rights,'' Foreign Policy, June 27, 2017.
    \30\ Ministry of Unification, Republic of Korea, ``Policy on North 
Korean Defectors,'' accessed June 3, 2019. South Korean Ministry of 
Unification data show that as of June 2019, 85 percent (969) of the 
total number of North Korean refugees (1,137) who entered South Korea 
in 2018 were female; and 72 percent (23,606) of all North Korean 
refugees (32,706) who have entered South Korea since 1998 were female. 
Su-Min Hwang, ``The North Korean Women Who Had to Escape Twice,'' BBC, 
January 18, 2019; Robert R. King, ``Attention on DPRK and China 
Policies That Result in Sex Trafficking,'' Peninsula (blog), Korea 
Economic Institute, January 23, 2019.
    \31\ Robert R. King, ``Attention on DPRK and China Policies That 
Result in Sex Trafficking,'' Peninsula (blog), Korea Economic 
Institute, January 23, 2019; Su-Min Hwang, ``The North Korean Women Who 
Had to Escape Twice,'' BBC, January 18, 2019; Julian Ryall, ``Returned 
North Korean Defectors Paraded to Lecture on Miseries of Capitalism 
They Saw in China,'' Telegraph, December 29, 2018.
    \32\ Su-Min Hwang, ``The North Korean Women Who Had to Escape 
Twice,'' BBC, January 18, 2019; Choe Sang-Hun, ``Children of North 
Korean Mothers Find More Hardship in the South,'' New York Times, 
November 25, 2018.
    \33\ Yoon Hee-soon, Korea Future Initiative, ``Sex Slaves: The 
Prostitution, Cybersex & Forced Marriage of North Korean Women & Girls 
in China,'' May 20, 2019.
    \34\ Ibid.
    \35\ Joshua Berlinger, ``Report Claims Thousands of North Korean 
Women Sold into Sex Slavery in China,'' CNN, May 21, 2019; Emma Batha, 
``North Korean Women Tell of Slavery and Gang Rape in Chinese Cybersex 
Dens,'' Reuters, May 20, 2019; Jung Da-min, ``Young North Korean 
Defectors Fall Prey to Human Trafficking,'' Korea Times, January 22, 
2019.
    \36\ Convention on the Elimination of All Forms of Discrimination 
against Women, adopted by UN General Assembly resolution 34/180 of 
December 18, 1979, entry into force September 3, 1981, art. 6; United 
Nations Treaty Collection, Chapter IV, Human Rights, Convention on the 
Elimination of All Forms of Discrimination against Women, accessed May 
10, 2019. China signed the Convention on July 17, 1980, and ratified it 
on November 4, 1980. Protocol to Prevent, Suppress and Punish 
Trafficking in Persons, Especially Women and Children, Supplementing 
the United Nations Convention against Transnational Organized Crime, 
adopted by UN General Assembly resolution 55/25 of November 15, 2000, 
entry into force December 25, 2003, arts. 6-9; United Nations Treaty 
Collection, Chapter XVIII, Penal Matters, Protocol To Prevent, Suppress 
and Punish Trafficking in Persons, Especially Women and Children, 
Supplementing the United Nations Convention against Transnational 
Organized Crime, accessed May 10, 2019. China acceded to the Protocol 
on February 8, 2010.
    \37\ Crossing Borders, ``North Korean Orphans,'' accessed May 30, 
2019; Kim Kwang-tae, ``Journey to Freedom by N. Korean Victims of Human 
Trafficking,'' Yonhap News Agency, December 22, 2017; Rachel Judah, 
``On Kim Jong-un's Birthday, Remember the 30,000 Stateless Children He 
Has Deprived of Recognition,'' Independent, January 7, 2018.
    \38\ Zhonghua Renmin Gongheguo Guoji Fa [PRC Nationality Law], 
passed and effective September 10, 1980, art. 4. Article 4 of the PRC 
Nationality Law provides that, ``Any person born in China whose parents 
are both Chinese nationals and one of whose parents is a Chinese 
national shall have Chinese nationality.''
    \39\ See, e.g., Cara McGoogan, ``We Were Sex Trafficked from North 
Korea and Sold to Men at Bridal `Markets,' '' Telegraph, May 22, 2019; 
``Bei mai dao Zhongguo . . . Beihan xinniang cheng sheng zi gongju song 
hui Beihan zao yuzu qiangbao'' [North Korean brides sold to China 
became childbearing tools, may be raped by prison guards upon 
repatriation to North Korea], Liberty Times, February 19, 2019.
    \40\ See, e.g., Cara McGoogan, ``We Were Sex Trafficked from North 
Korea and Sold to Men at Bridal `Markets,' '' Telegraph, May 22, 2019; 
``Bei mai dao Zhongguo . . . Beihan xinniang cheng sheng zi gongju song 
hui Beihan xao yuzu qiangbao'' [North Korean brides sold to China 
became childbearing tools, may be raped by prison guards upon 
repatriation to North Korea], Liberty Times, February 19, 2019.
    \41\ Convention on the Rights of the Child, adopted by UN General 
Assembly resolution 44/25 of November 20, 1989, entry into force 
September 2, 1990, arts. 2, 7, 28(1)(a). Under the Convention on the 
Rights of the Child, China is obligated to register children born 
within the country immediately after birth and also provide all 
children with access to education without discrimination on the basis 
of nationality.


                                                  Public Health
                                                Public Health

                             Public Health


                                Findings

        <bullet> Food safety and vaccine safety scandals have 
        continued to emerge this past year, despite the Chinese 
        government's attempts in the past decade to improve 
        quality control. Analysts point to a lack of 
        accountability, weak regulatory capacity and 
        enforcement of laws, corruption, and government 
        procurement systems that favor low-cost goods. The 
        National People's Congress passed a new vaccine law in 
        June 2019 aimed at strengthening vaccine supervision, 
        penalizing producers of substandard or fake vaccines, 
        and introducing compensation for victims of faulty 
        vaccines.
        <bullet> Despite strong regulations aimed at improving 
        food and vaccine safety and punishments for companies 
        and individuals found guilty of criminal acts, 
        authorities also continued to detain citizens for 
        speaking out and organizing protests in response to 
        food and vaccine scandals.
        <bullet> Chinese authorities reportedly continued to 
        forcibly commit individuals to psychiatric facilities, 
        including government critics and those with grievances 
        against government officials and legal processes, even 
        though the PRC Mental Health Law prohibits forcible 
        commitment as a form of punishment.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Continue to support technical assistance and exchange 
        programs in public health. Require that U.S.-China 
        cooperative programs include the participation of U.S. 
        and Chinese non-governmental organizations and a focus 
        on human rights.
          Urge Chinese officials--including officials in the 
        National Health Commission--to focus on effective 
        implementation of laws and regulations that prohibit 
        health-based discrimination in employment and 
        education. Where appropriate, share the United States' 
        ongoing experience promoting the rights of persons with 
        disabilities in education and employment, through non-
        governmental advocacy and services, as well as legal 
        and regulatory means.
          Urge the Chinese government to establish panels of 
        legal, medical, social work, and security professionals 
        from within and outside the government to monitor and 
        report on implementation of the PRC Mental Health Law 
        (MHL) and initiatives under the National Mental Health 
        Work Plan (2015-2020) to ensure that local 
        implementation consistently meets standards of care and 
        rights protection stipulated in the MHL, the PRC Law on 
        the Protection of the Rights of Persons with 
        Disabilities, and international standards.


                                                  Public Health
                                                Public Health

                             Public Health


                  Legislative and Policy Developments

    In October 2018, the National People's Congress Standing 
Committee released a second draft of healthcare legislation 
aimed at protecting healthcare workers from the ongoing problem 
of ``commotions at hospitals'' (yi'nao).\1\ The draft 
legislation establishes that actions such as disturbing order 
at healthcare institutions, threatening or endangering the 
personal safety of staff, and illegally gaining favors will be 
investigated as crimes.\2\ In February 2019, the Chinese 
Communist Party General Office and State Council General Office 
issued the ``Provisions on the Food Safety Responsibility 
System for Local Party and Government Leading Cadres,'' which, 
if implemented, could strengthen food safety accountability for 
local officials.\3\ In June 2019, the National People's 
Congress passed the PRC Vaccine Management Law set to take 
effect in December 2019.\4\

                              Food Safety

    Although the Chinese government has committed itself to 
protect citizens' right to safe food,\5\ and it continues to 
take steps aimed at improving food safety,\6\ food safety 
scandals nevertheless continued to occur.\7\ Authorities 
suppressed protests by victims and their parents,\8\ violating 
freedoms of expression, assembly, and demonstration.\9\
    The Commission observed reports of the following instances 
of such suppression during its 2019 reporting year:

        <bullet> In September 2018, after expired, worm-
        infested food was served to children at three 
        kindergartens, authorities detained two individuals in 
        Wuhu municipality, Anhui province, who were believed to 
        be responsible.\10\ The incident reportedly affected 
        765 children.\11\
        <bullet> According to international and domestic 
        reports, in March 2019 public security authorities in 
        Chengdu municipality, Sichuan province, used pepper 
        spray to control parents who protested against 
        unsanitary food served at a private high school and 
        detained at least 12 of them.\12\ At least 77 students 
        received medical attention after ingesting the food, 
        including 3 who were hospitalized.\13\

                              Drug Safety

    Vaccine scandals continued this reporting year,\14\ 
sparking protests by parents of sickened children.\15\ In the 
aftermath of a major vaccine scandal uncovered in 2018 
involving Changsheng Biotechnology Company in Changchun 
municipality, Jilin province,\16\ public health expert Yanzhong 
Huang noted that the case had exposed ``systematic safety risks 
across China's entire vaccine industry.'' \17\ Huang further 
said that ongoing scandals stem from ``a host of issues 
confronting China today: corruption, moral decline, loopholes 
in internal corporate controls, weak regulatory capacity, and a 
lack of accountability.'' \18\
    The Office of the UN High Commissioner on Human Rights and 
the World Health Organization, in a jointly issued fact sheet, 
noted that the right to quality healthcare includes 
``scientifically approved and unexpired drugs.'' \19\ Following 
the 2018 vaccine scandal involving Changsheng Biotechnology 
Company,\20\ in June 2019 the National People's Congress 
Standing Committee passed the PRC Vaccine Management Law, aimed 
at strengthening supervision, penalizing producers and 
distributors of substandard or fake vaccines, and introducing 
compensation for victims of faulty vaccines.\21\
    During this past year, the Chinese government took the 
following actions against companies and individuals deemed 
responsible for vaccine safety violations:

        <bullet> In October 2018, the National Medical Products 
        Administration imposed a record total penalty of 9.1 
        billion yuan (approximately US$1.3 billion) on 
        Changsheng Biotechnology Company, which it found 
        responsible for producing faulty vaccines that were 
        administered to hundreds of thousands of people, along 
        with other illegal actions, and detained 18 people.\22\ 
        In November 2018, the Shanghai and Shenzhen stock 
        exchanges issued new measures providing for the 
        mandatory delisting of companies suspected of ``illegal 
        behavior in the areas of national security, public 
        security, environmental security, work safety, and 
        public health.'' \23\ In January 2019, the state media 
        outlet Xinhua reported that Changsheng Biotechnology 
        announced that it had received its delisting notice 
        from the Shenzhen Stock Exchange.\24\
        <bullet> In January 2019, authorities in Jinhu county, 
        Jiangsu province, reportedly fired 3 health officials 
        and ``held 33 persons responsible'' after at least 145 
        children were administered expired polio vaccines.\25\
        <bullet> In January 2019, authorities in Shijiazhuang 
        municipality, Hebei province, criminally detained a 
        nurse suspected of administering incorrect vaccines to 
        29 children for financial gain, and removed 2 district 
        heads of the Shijiazhuang disease control center.\26\
        <bullet> In April 2019, authorities in Hainan province 
        fined and revoked the license of privately-owned Bo'ao 
        Yinfeng Healthcare International Hospital, for 
        reportedly administering fake HPV vaccines to at least 
        38 patients, one of whom reportedly was pregnant.\27\

    The Commission observed that Chinese authorities violated 
the rights to free speech and free assembly of individuals who 
protested against unsafe vaccines and sought compensation, 
including the following: \28\

        <bullet> In February 2019, authorities in Beijing 
        municipality detained He Fangmei, whose daughter was 
        paralyzed in March 2018 by a series of tainted 
        vaccines,\29\ after He Fangmei organized other 
        aggrieved parents to protest before the annual meetings 
        of the National People's Congress and Chinese People's 
        Political Consultative Conference (Two Sessions).\30\ 
        In April 2019, authorities charged her with ``picking 
        quarrels and provoking trouble,'' and held her at the 
        Xinxiang Public Security Bureau Detention Center in 
        Xinxiang municipality, Henan province.\31\ He's case 
        was sent to court in August 2019.\32\
        <bullet> On or around September 2, 2018, authorities in 
        Beijing detained Tan Hua, in connection to her public 
        advocacy for compensation for victims of tainted 
        vaccines in August 2018, and reportedly transferred her 
        to the custody of authorities in Shanghai 
        municipality.\33\

              Ongoing Misuse of the PRC Mental Health Law

    Authorities continued to use forcible psychiatric 
commitment (bei jingshenbing), in violation of the PRC Mental 
Health Law, to punish or arbitrarily detain individuals who 
expressed political dissent or grievances against the 
government.\34\ Two experts in Chinese law commented that the 
law's definition of ``mental disorder'' is too vague, and a 
``lack of due process in such important decision-making 
jeopardizes millions of people's basic right to freedom from 
arbitrary detention.'' \35\
    Examples of misuse of the law this past year include the 
following:

        <bullet> On July 16, 2018, officials in Zhuzhou 
        municipality, Hunan province, forcibly committed Dong 
        Yaoqiong, a 29-year-old woman who live-streamed a video 
        of herself criticizing Communist Party General 
        Secretary Xi Jinping and the Chinese Communist Party, 
        to a psychiatric hospital.\36\ According to Radio Free 
        Asia, authorities detained her father in August 
        2018,\37\ and barred a rights lawyer from visiting 
        her.\38\ The Commission has not observed updates on the 
        status of Dong Yaoqiong during this reporting year.\39\
        <bullet> In March 2019, authorities in Shanghai 
        municipality forcibly committed Yan Fenlan to a 
        psychiatric institution after she had traveled to 
        Beijing during the Two Sessions to petition for 
        compensation for her demolished home.\40\ She was first 
        forcibly committed to a psychiatric institution in 2008 
        after she petitioned authorities in Beijing and 
        Shanghai regarding land confiscation.\41\


                                                  Public Health
                                                Public Health
    Notes to Section II--Public Health

    \1\ National People's Congress, Zhonghua Renmin Gongheguo Jiben 
Yiliao Weisheng yu Jiankang Cujin Fa (Cao'an) (Er Ci Shenyi Gao) [PRC 
Basic Healthcare and Health Promotion Law (Draft) (Second Deliberation 
Draft)], NPC Observer, accessed July 24, 2019, arts. 43, 47, 107; Tian 
Xiaohang, ``Woguo ni lifa baohu yiliao weisheng renyuan renshen 
anquan'' [China drafts legislation to protect healthcare workers' 
personal safety], Xinhua, October 22, 2018. Public reports about these 
``commotions'' typically describe incidents of violence against 
hospital personnel, sometimes resulting in fatalities, by aggrieved 
patients or their extended family. For more information on yi'nao, see 
CECC, 2016 Annual Report, October 6, 2016, 203.
    \2\ National People's Congress, Zhonghua Renmin Gongheguo Jiben 
Yiliao Weisheng yu Jiankang Cujin Fa (Cao'an) (Er Ci Shenyi Gao) [PRC 
Basic Healthcare and Health Promotion Law (Draft) (Second Deliberation 
Draft)], NPC Observer, accessed July 24, 2019, arts. 43, 47, 107; Tian 
Xiaohang, ``Woguo ni lifa baohu yiliao weisheng renyuan renshen 
anquan'' [China drafts legislation to protect healthcare workers' 
personal safety], Xinhua, October 22, 2018.
    \3\ Chinese Communist Party General Office and State Council 
General Office, Difang Dang Zheng Lingdao Ganbu Shipin Anquan Zerenzhi 
Guiding [Provisions on the Food Safety Responsibility System for Local 
Party and Government Leading Cadres], effective February 5, 2019; Wang 
Xiaodong, ``Leading Local Officials to Be Accountable for Food 
Safety,'' China Daily, February 26, 2019; ``China Launches Nationwide 
Inspection on Food Safety at Schools,'' Xinhua, March 4, 2019; ``State 
Council Passes Draft Rules on Implementing Food Safety Law,'' Xinhua, 
March 27, 2019; Tingmin Koe, ``China Unveils the First Set of Food 
Safety Tasks for Local Government,'' FoodNavigator-Asia, March 5, 2019.
    \4\ Zhonghua Renmin Gongheguo Yimiao Guanli Fa [PRC Vaccine 
Management Law], passed June 29, 2019, effective December 1, 2019.
    \5\ World Health Organization, ``Human Rights and Health,'' 
December 29, 2017; Universal Declaration of Human Rights, adopted and 
proclaimed by UN General Assembly resolution 217A (III) of December 10, 
1948, art. 25(1). See also Convention on the Rights of the Child, 
adopted by UN General Assembly resolution 44/25 of November 20, 1989, 
entry into force September 2, 1990, art. 24.2(c); International 
Covenant on Economic, Social and Cultural Rights, adopted by UN General 
Assembly resolution 2200A (XXI) of December 16, 1966, entry into force 
January 3, 1976.
    \6\ Chinese Communist Party General Office and State Council 
General Office, Difang Dang Zheng Lingdao Ganbu Shipin Anquan Zerenzhi 
Guiding [Provisions on the Food Safety Responsibility System for Local 
Party and Government Leading Cadres], effective February 5, 2019.
    \7\ Phoebe Zhang, ``Chinese Kindergartens `Served Rotten, Worm-
Infested Food' to Children, Two People Detained,'' South China Morning 
Post, September 27, 2018; Echo Xie, ``Chinese School Principal Sacked 
over Claims Mouldy Food Found in Canteen,'' South China Morning Post, 
March 17, 2019; Alice Yan, ``Shanghai School Food Scare Triggers City 
Wide Kitchen Health Check,'' South China Morning Post, October 23, 
2018.
    \8\ See, e.g., Mandy Zuo, ``Police Try to Quell Chinese Parents' 
Protest over `Mouldy' School Food,'' South China Morning Post, March 
14, 2019; Gerry Shih, ``Chinese Police Say They Used `Minimum' Pepper 
Spray to Disperse Fuming Parents in Food Safety Scandal,'' Washington 
Post, March 14, 2019.
    \9\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of December 16, 
1966, entry into force March 23, 1976, arts. 19, 21; United Nations 
Treaty Collection, Chapter IV, Human Rights, International Covenant on 
Civil and Political Rights, accessed July 15, 2019. China has signed 
but not ratified the ICCPR. Universal Declaration of Human Rights, 
adopted and proclaimed by UN General Assembly resolution 217A (III) of 
December 10, 1948, arts. 19, 20; PRC Constitution, passed and effective 
December 4, 1982 (amended March 11, 2018), art. 35.
    \10\ Phoebe Zhang, ``Chinese Kindergartens `Served Rotten, Worm-
Infested Food' to Children, Two People Detained,'' South China Morning 
Post, September 27, 2018.
    \11\ Ibid.
    \12\ Mandy Zuo, ``Police Try to Quell Chinese Parents' Protest over 
`Mouldy' School Food,'' South China Morning Post, March 14, 2019; Gerry 
Shih, ``Chinese Police Say They Used `Minimum' Pepper Spray to Disperse 
Fuming Parents in Food Safety Scandal,'' Washington Post, March 14, 
2019; ``Chengdu Qi Zhong Shiyan Xuexiao famei shipin shijian zhong duo 
ren zao juliu,'' [Many detained in Chengdu No. 7 Experimental Middle 
School moldy food incident], Australian Broadcasting Corporation, March 
18, 2019.
    \13\ Ye Hanyong, Li Like, and Liu Hai, ``Chengdu gongbu Chengdu Qi 
Zhong Shiyan Xuexiao shipin anquan wenti diaocha zuixin jinzhan'' 
[Chengdu announces latest progress in investigation of Chengdu No. 7 
Experimental Middle School food safety problem], Xinhua, March 17, 
2019.
    \14\ ``29 Children Receive Wrong Vaccine in North China City,'' 
Global Times, February 4, 2019; Joyce Huang, ``Use of Expired Vaccine 
Sparks Public Scare in China,'' Voice of America, January 16, 2019; 
Sui-Lee Wee and Elsie Chen, ``China Investigates Latest Vaccine Scandal 
After Violent Protests,'' New York Times, January 14, 2019; Yanzhong 
Huang, ``China's Vaccine Scandals Must Trigger Deeper Health Care 
Reforms,'' Nikkei Asian Review, August 15, 2018.
    \15\ Sui-Lee Wee and Elsie Chen, ``China Investigates Latest 
Vaccine Scandal After Violent Protests,'' New York Times, January 14, 
2019; ``Chinese Official Appears to Be Beaten in Protest over Vaccine 
Scandal'' [Video file], South China Morning Post, January 11, 2019.
    \16\ Sui-Lee Wee, ``China Imposes Record Fine on Vaccine Maker over 
Safety Scandal,'' New York Times, October 17, 2018. In 2018, China's 
National Medical Products Administration imposed a record penalty on 
Changchun Changsheng Biotechnology Company for the fabrication of data 
pertaining to a rabies vaccine the company produced. Authorities 
further accused the company of producing substandard vaccines for 
diptheria, tetanus, and whooping cough.
    \17\ Yanzhong Huang, ``China's Vaccine Scandals Must Trigger Deeper 
Health Care Reforms,'' Nikkei Asian Review, August 15, 2018. See also 
Yoel Kornreich, ``Vaccine Scandals in China: Why Do They Keep Happening 
Over and Over Again?'' Asia Pacific Foundation of Canada, December 21, 
2018.
    \18\ Yanzhong Huang, ``China's Vaccine Scandals Must Trigger Deeper 
Health Care Reforms,'' Nikkei Asian Review, August 15, 2018.
    \19\ UN Office of the High Commissioner for Human Rights and World 
Health Organization, Right to Health (Human Rights Fact Sheet no. 31), 
June 2008, 4. See also World Health Organization, Human Rights and 
Health, December 29, 2017.
    \20\ Kinling Lo, ``Changsheng Bio-Tech, the Vaccine Maker behind 
China's Latest Public Health Scare,'' South China Morning Post, July 
25, 2018.
    \21\ Zhonghua Renmin Gongheguo Yimiao Guanli Fa [PRC Vaccine 
Management Law], passed June 29, 2019, effective December 1, 2019, 
arts. 1, 72, 93, 96; Wang Xiaodong, ``Law on Vaccine Supervision 
Includes Tough Penalties for Producing Fakes,'' China Daily, July 1, 
2019; ``China Adopts Tough Law to Ensure Vaccine Safety,'' Xinhua, June 
29, 2019.
    \22\ Zhao Wenjun, ``Yao Jian Bumen yifa congyan dui Changchun 
Changsheng Gongsi weifa weigui shengchan kuangquanbing yimiao zuochu 
xingzheng chufa'' [National Medical Products Administration severely 
punishes Changchun Changsheng Company for illegal production of rabies 
vaccine], Xinhua, October 16, 2018; Sui-Lee Wee, ``China Imposes Record 
Fine on Vaccine Maker Over Safety Scandal,'' New York Times, April 29, 
2019; Eric Ng, ``Troubled Chinese Vaccine Maker Changsheng Faces 
Delisting for Endangering Public Security under Revised Rules,'' South 
China Morning Post, November 19, 2018; China Securities Regulatory 
Commission, ``Zhongguo Zhengjianhui xingzheng chufa jueding shu 
(Changsheng Shengwu Keji Gufen Youxian Gongsi, Gao Junfang, Zhang Jing 
deng 18 ming zeren renyuan)'' [China Securities Regulatory Commission 
Administrative Punishment Decision (Changsheng Biotechnology Company, 
Gao Junfang, Zhang Jing among 18 responsible individuals)], December 6, 
2018. The monetary penalties against Changsheng included confiscation 
of illegal gains of 1.9 billion yuan (approximately US$276 million) and 
a fine of 7.2 billion yuan (approximately US$1.05 billion).
    \23\ ``Zhongguo fabu shangshi gongsi zhongda weifa qiangzhi tui shi 
xin gui, Changsheng Shengwu tui shi jizhi qidong'' [China announces new 
rules for compulsory delisting of companies for serious violations of 
law, delisting of Changsheng Biotech begins], Reuters, November 18, 
2018; Wang Quanhao, ``Tui shi xin gui luodi, zhongda weifa tui shi 
gongsi zai shang shi xu jian ge 5 nian'' [New rules on delisting set 
down, companies delisted for serious violations of law must wait 5 
years to relist], Xinhua, November 19, 2018.
    \24\ Liu Hui, ``Ding le! Changsheng Shengwu queding bei shishi 
zhongda weifa qiangzhi tuishi'' [Decided! Changsheng Biotech confirmed 
for compulsory delisting for serious violations of law], Xinhua, 
January 15, 2019; Yin Peng, ``Shenjiaosuo qidong dui Changsheng Shengwu 
zhongda weifa qiangzhi tuishi jizhi'' [Shenzhen Stock Exchange begins 
compulsory delisting process against Changsheng Biotech for serious 
violation of law], Xinhua, November 17, 2018.
    \25\ Tang Tao and Yang Guang, ``Jinhu xian guoqi jihui yimiao 
shijian 17 ren yi bei chuli'' [17 people punished in Jinhu county 
expired polio vaccine incident], CCTV, January 11, 2019; Cang Wei, ``3 
Health Officials Fired Over Use of Expired Polio Vaccines,'' China 
Daily, January 10, 2019; ``Jiangsu Jinhu xian guoqi yimiao shijian 33 
zerenren yi bei wenze: 2 ren yisong sifa jiguan'' [33 responsible 
persons held accountable in Jinhu county, Jiangsu, expired vaccine 
incident: 2 persons handed over to judicial authorities], People's 
Daily, February 24, 2019; Nectar Gan, ``Over 100 Babies and Toddlers 
Given Expired Polio Vaccines in China, Months after Last Crisis,'' 
South China Morning Post, January 9, 2019.
    \26\ Zhou Yichuan, ``Wulian Yimiao touhuan shijian houxu: jiezhong 
renyuan shexian fanzui, yi xingshi juliu'' [Pentavalent vaccine switch 
incident follow-up: vaccinating staff detained on suspicion of crime], 
Sohu, February 12, 2019; ``29 Children Receive Wrong Vaccine in North 
China City,'' Global Times, February 4, 2019.
    \27\ Zhang Qianyi, ``Hainan tongbao Bo'ao Yinfeng Kangyang Guoji 
Yiyuan shexian shiyong jia yimiao'' [Hainan announces Bo'ao Yinfeng 
Kangyang International Hospital suspected of using fake vaccines], 
China News, April 29, 2019; Zhuang Pinghui, ``Private Hospital in China 
Closed Down after Dozens of Patients Given Fake HPV Vaccines,'' South 
China Morning Post, April 28, 2019; ``China Fines a Hospital for 
Administering Potentially Fake Vaccines,'' Bloomberg, April 29, 2019.
    \28\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of December 16, 
1966, entry into force March 23, 1976, arts. 19, 21; United Nations 
Treaty Collection, Chapter IV, Human Rights, International Covenant on 
Civil and Political Rights, accessed July 15, 2019. China has signed 
but not ratified the ICCPR. Universal Declaration of Human Rights, 
adopted and proclaimed by UN General Assembly resolution 217A (III) of 
December 10, 1948, arts. 19, 20. See also PRC Constitution, passed and 
effective December 4, 1982 (amended March 11, 2018), art. 35.
    \29\ Civil Rights & Livelihood Watch, ``Yimiao shouhai jiazhang He 
Fangmei fufu bei jin ban huzhao'' [He Fangmei and her husband, parents 
of vaccine victim, prevented from getting passports], September 14, 
2018. He Fangmei's daughter was sickened by a series of vaccines, 
including hepatitis A; measles, mumps, and rubella; and diptheria, 
tetanus, and pertussis.
    \30\ ``China Holds Vaccine Parent-Turned-Activist Detained at 
Beijing Protest,'' Radio Free Asia, March 26, 2019; ``Wenti weijie: 
yimiao huan'er jiazhang zai du jin Jing qingyuan'' [Problem unsolved: 
parents of child vaccine victims again petition in Beijing], Radio Free 
Asia, April 29, 2019.
    \31\ ``Chinese Vaccine Activist Formally Arrested, Will Likely Face 
Jail Over Campaign,'' Radio Free Asia, May 2, 2019; ``China Holds 
Vaccine Parent-Turned-Activist Detained at Beijing Protest,'' Radio 
Free Asia, March 26, 2019.
    \32\ Rights Defense Network, `` `Yimiao Baobao zhi Jia' weiquan 
tuanti faqi ren He Fangmei (Shisan Mei) an jianchayuan shencha qisu 
qiman, yi zhuan dao fayuan'' [``Tainted-Vaccine Babies' Home'' rights 
organization founder He Fangmei (Sister Thirteen) case sent to court 
upon expiration of procuratorial indictment review period], August 6, 
2019.
    \33\ New Citizens' Movement, ``Yimiao shouhaizhe Lianghui zao 
weiwen Tan Hua bei qiangpo shizong jin liangbai tian'' [Vaccine victims 
face stability maintenance during Two Sessions, Tan Hua forcibly 
disappeared nearly 200 days], March 4, 2019; Rights Defense Network, 
``Kuangquan yimiao shouhaizhe, Shanghai weiquan renshi Tan Hua bei 
qiangpo shizong jin yi 57 tian muqin ye zao qiangpo shizong 40 tian'' 
[Rabies vaccine victim and Shanghai rights defender Tan Hua forcibly 
disappeared for 57 days as of today, her mother also forcibly 
disappeared for 40 days], October 28, 2018. For more information on Tan 
Hua, see the Commission's Political Prisoner Database record 
[forthcoming].
    \34\ Zhonghua Renmin Gongheguo Jingshen Weisheng Fa [PRC Mental 
Health Law], passed October 26, 2012, effective May 1, 2013, arts. 27, 
30, 75(5), 78(1). Provisions in the PRC Mental Health Law prohibit 
forcible commitment of individuals who do not have mental illness or 
who do not exhibit clinically determined ``dangerousness'' to 
themselves or others.
    \35\ Jerome A. Cohen and Chi Yin, ``It's Too Easy to Wind Up in a 
Chinese Psychiatric Hospital, and Far Too Hard to Get Out,'' ChinaFile, 
Asia Society, August 23, 2018.
    \36\ ``Pomo nuhai Dong Yaoqiong bei song Zhuzhou jingshenbing yuan 
Zhongguo ge di ji che Xi huaxiang'' [Girl who splashed ink, Dong 
Yaoqiong, sent to Zhuzhou psychiatric hospital, Xi's image quickly 
removed from many sites in China], Voice of America, July 23, 2018; 
``Woman Who Splashed Xi Jinping Poster Sent to Psychiatric Hospital,'' 
Radio Free Asia, July 23, 2018.
    \37\ ``Chinese Police Detain Father of Ink-Splash Woman Held in 
Mental Hospital,'' Radio Free Asia, August 1, 2018. For more 
information on Dong Yaoqiong, see the Commission's Political Prisoner 
Database record 2018-00343.
    \38\ ``Chinese Police Detain Father of Ink-Splash Woman Held in 
Mental Hospital,'' Radio Free Asia, August 1, 2018; ``Chinese Police 
Block Lawyer Hired for Ink-Splash Woman in Mental Hospital,'' Radio 
Free Asia, July 31, 2018.
    \39\ Tracey Shelton and Bang Xiao, ``China `Disappeared' Several 
High-Profile People in 2018 and Some of Them Are Still Missing,'' 
Australian Broadcasting Corporation, June 6, 2019.
    \40\ Civil Rights & Livelihood Watch, ``Lianghui weiwen jinxing shi 
xilie baodao zhi liu'' [Maintaining social stability during the Two 
Sessions: sixth report in series], March 14, 2019; ``Cong yisheng dao 
fangmin, Lianghui jian Shanghai Yan Fenlan bei jingshenbing'' [From 
doctor to petitioner, Shanghai [resident] Yan Fenlan forcibly committed 
to psychiatric facility during Two Sessions], Epoch Times, March 20, 
2019.
    \41\ Civil Rights & Livelihood Watch, ``Lianghui weiwen jinxing shi 
xilie baodao zhi liu'' [Maintaining social stability during the Two 
Sessions: sixth report in series], March 14, 2019. For more information 
on Yan Fenlan, see the Commission's Political Prisoner Database record 
2008-00619.


                                                The Environment
                                                The Environment

                            The Environment


                                Findings

        <bullet> During the Commission's 2019 reporting year, 
        top Chinese Communist Party and government leaders 
        continued to highlight the importance of protecting the 
        environment, yet environmental pollution remained a 
        major challenge. The government's vision of top-down 
        environmental governance was demonstrated by the 
        National Development and Reform Commission's work 
        report for 2018 which stated, ``the government leads, 
        enterprises are the main actors, and social 
        organizations and the public participate.'' In 
        addition, the government severely limited the role of 
        the public in environmental protection.
        <bullet> In March 2019, Minister of Ecology and 
        Environment Li Ganjie reported that ``some local 
        governments were not containing pollution until clean-
        up deadlines approached or national inspection teams 
        arrived.'' Li noted that these local governments 
        imposed blanket production bans on businesses 
        regardless of their environmental performance, thereby 
        damaging the credibility of the government and the 
        rights of law-abiding enterprises. In 2018, Chinese 
        authorities approved the arrest of 15,095 people for 
        environmental crimes, an increase of over 50 percent 
        from 2017.
        <bullet> The government continued to report progress in 
        environmental protection, although a March 2019 ranking 
        of air pollution in over 3,000 cities around the world, 
        compiled by IQAir in collaboration with Greenpeace East 
        Asia, indicated that 57 of the 100 most polluted cities 
        in 2018 (based on fine particulate concentrations) were 
        in China. Although some non-governmental organizations 
        have standing as plaintiffs in certain public interest 
        lawsuits, most public interest litigation continued to 
        be brought by the government.
        <bullet> During this reporting year, Chinese and 
        international media reported on incidents in which 
        officials lied about environmental problems, failed to 
        take meaningful action despite repeated environmental 
        violations, or were involved in environmental 
        corruption, resulting in some cases of disciplinary 
        action against local officials. In March 2019, an 
        explosion at Jiangsu Tianjiayi Chemical plant--a 
        facility that had been penalized six different times in 
        the previous two years for environmental and safety 
        violations--killed 78 people, injured over 600, and 
        forced the evacuation of almost 3,000. Authorities 
        responded by closing down all chemical facilities in 
        the area.
        <bullet> Chinese citizens continued to raise concerns 
        about health issues related to the environment through 
        street-level protests and other forms of public 
        advocacy. Chinese authorities detained Lu Guang, an 
        American permanent resident and photojournalist who is 
        known for his photographs documenting environmental 
        degradation and coal mining, while he was in the 
        Xinjiang Uyghur Autonomous Region in November 2018.
        <bullet> In 2018, carbon dioxide emissions in China 
        continued to increase, as Chinese government-backed 
        financial institutions funded international coal-fired 
        power projects, raising international concerns about 
        air pollution and increasing carbon dioxide emissions.
        <bullet> The government promoted the use of traditional 
        Chinese medicine in countries participating in the Belt 
        and Road Initiative, raising international concerns 
        about wildlife trafficking and the sale of products 
        made from tigers and rhinos.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Call on the Chinese government to cease harassment of 
        environmental advocates and follow international 
        standards on freedom of speech, association, and 
        assembly, including those contained in the 
        International Covenant on Civil and Political Rights, 
        the Universal Declaration of Human Rights, and China's 
        Constitution.
          In meetings with Chinese officials, raise the 
        detentions of photojournalist Lu Guang; Tibetan village 
        head Karma; founder Xue Renyi and worker Pan Bin of 
        Chongqing municipality-based Green Leaf Action; 
        environmental advocates Chen Wuquan, Chen Weiliang, 
        Chen Zhenming, Chen Huansen, Chen Chunlin, Chen Shuai, 
        and Chen Longqun; and the Mongolian herders O. 
        Sechenbaatar and Tsojgil.
          Support efforts by Chinese and U.S. groups working to 
        use satellite analysis and remote sensing to monitor 
        environmental problems in China, and also expand 
        awareness of citizens' environmental rights in China 
        and the protection of those rights.
          Encourage Chinese leaders to strengthen the rule of 
        law and transparency in the environmental and climate 
        sectors. Raise questions with Chinese officials about 
        the manipulation of environmental data and censorship 
        of environmental news reporting, as well as the 
        detention of the former head of the National Energy 
        Administration, Nur Bekri.


                                                The Environment
                                                The Environment

                            The Environment


               Introduction and Environmental Governance

    During the Commission's 2019 reporting year, top Chinese 
Communist Party and government leaders continued to highlight 
the importance of protecting the environment, yet environmental 
pollution remained a major challenge in China due to 
authorities' top-down approach to environmental problems, 
transparency shortcomings, and the suppression and detention of 
environmental advocates. The central government was focused on 
addressing local level officials' shortcomings in protecting 
the environment.\1\ Central authorities heavily controlled 
media and permitted space for reporting only to the extent 
consistent with central government policies,\2\ such as pushing 
local officials to enforce its environmental policies.\3\ This 
reporting year, carbon dioxide emissions in China continued to 
increase,\4\ as Chinese government-backed financial 
institutions funded international coal-fired power projects, 
raising international concerns about air pollution and 
increasing carbon dioxide emissions.\5\
    The Chinese government's vision of top-down environmental 
governance was demonstrated by the National Development and 
Reform Commission's work report for 2018 which stated, ``the 
government leads, enterprises are the main actors, and social 
organizations and the public participate.'' \6\ In the recently 
enacted PRC Soil Pollution Prevention and Control Law,\7\ for 
example, the term ``public participation'' refers only to the 
requirement that the public must follow official policies.\8\ 
The law lacks any provision for public supervision, as noted by 
Greenpeace East Asia and Nanjing University Ecology department, 
who concluded that although ``the new law does take an 
important step towards openness . . ., [p]ublic supervision 
still has no place in the regulatory system.'' \9\ In December 
2018, the UN special procedure mandate holders issued a 
statement on climate change calling on State Parties to 
``ensure full and effective participation, access to 
information and transparency . . . in the public spaces where 
actors from civil society can gather and exercise their rights 
to freedom of expression and opinion, association and peaceful 
assembly.'' \10\
    Not only did Chinese authorities fail to promote meaningful 
public participation, they actively suppressed those who 
monitor environmental issues. Chinese authorities detained Lu 
Guang--an American permanent resident and photojournalist \11\ 
who is known for his photographs documenting environmental 
degradation and coal mining \12\--while he was in the Xinjiang 
Uyghur Autonomous Region (XUAR) in November 2018.\13\ According 
to the Committee to Protect Journalists, ``Lu's detention is a 
high-profile illustration of the cruel and arbitrary way that 
China detains journalists and other civilians in [the XUAR].'' 
\14\

     Environmental Enforcement and Persistence of Severe Pollution

    During this reporting year, severe pollution persisted in 
China, and Chinese authorities criticized some local officials 
for failing to enforce environmental regulations. In March 
2019, Minister of Ecology and Environment Li Ganjie reported 
that ``some local governments were not containing pollution 
until clean-up deadlines approached or national inspection 
teams arrived.'' \15\ Li noted that these local governments 
imposed blanket production bans on businesses regardless of 
their environmental performance, thereby damaging the 
credibility of the government and the rights of law-abiding 
enterprises.\16\ In constrast, other local governments ``might 
have loosened supervision on air pollution and carbon 
emissions'' due to the current economic downturn, according to 
a China-based adviser to an international environmental non-
governmental organization.\17\ While the government continued 
to report progress in environmental protection,\18\ a March 
2019 ranking of air pollution in over 3,000 cities around the 
world, compiled by IQAir in collaboration with Greenpeace East 
Asia,\19\ indicated that 57 of the 100 most polluted cities in 
2018 (based on fine particulate concentration) were in 
China.\20\ According to a Hong Kong-based professor, ``air 
pollution [has much] to do with burning of fossil fuel . . .; 
so by addressing the air pollution sources, you actually can 
address these CO2 emissions.'' \21\

          Public Interest Litigation and Criminal Enforcement

    During the 2019 reporting year, the Chinese government 
played a dominant role in public interest environmental 
litigation, and criminal environmental enforcement 
significantly increased. In 2018, Chinese courts accepted 1,737 
public interest environmental lawsuits filed by procuratorates, 
compared to 65 that were filed by non-governmental 
organizations (NGOs).\22\ Although some NGOs have standing as 
plaintiffs in certain public interest lawsuits, most public 
interest litigation continued to be brought by the 
government.\23\ In a significant development, in a public 
interest case brought by the NGOs China Biodiversity 
Conservation and Green Development Fund and Friends of Nature 
in December 2018, the Jiangsu High People's Court rejected 
claims that three chemical companies pay for soil remediation 
near a school.\24\ The court, however, held that the NGOs were 
not responsible for court fees assessed by the lower court--an 
issue that had been a significant concern to Chinese NGOs.\25\ 
In 2018, Chinese authorities increased criminal enforcement, as 
authorities indicted 42,195 people and approved the arrest of 
15,095 people for environmental crimes, a 51.5 percent increase 
in arrests from 2017.\26\

          Suppression of Environmental Protests and Advocates

    Chinese citizens continued to raise concerns about health 
issues related to the environment through street-level protests 
and other forms of public advocacy at the risk of being 
persecuted, such as by imprisonment. China's Constitution \27\ 
provides for freedom of speech, assembly, association, and 
demonstration, as do the International Covenant on Civil and 
Political Rights,\28\ the Universal Declaration of Human 
Rights,\29\ and the UN Human Rights Council Framework on Human 
Rights and the Environment.\30\ The following cases not only 
illustrate common types of environmental complaints raised by 
Chinese citizens but also reveal the ongoing lack of protection 
for citizens' rights when they raise environmental concerns:

        <bullet> Hazardous Waste Processing in Guangdong 
        province. In October 2018, thousands of residents in 
        Shunde district, Foshan municipality, Guangdong, 
        protested government plans to build an industrial waste 
        processing facility near local drinking water sources 
        and fish farms.\31\ Residents reported that the 
        government had not provided adequate public 
        consultation on the project, had criticized residents 
        who joined the protests for disturbing social order, 
        and had deleted thousands of social media posts about 
        the planned project.\32\
        <bullet> Environmental group in Chongqing municipality. 
        In December 2018, authorities at a closed trial 
        sentenced Pan Bin, a member of Green Leaf Action, to 
        four years in prison for ``picking quarrels and 
        provoking trouble.'' \33\ In May 2018, authorities had 
        detained Xue Renyi, the founder of Green Leaf Action, 
        and, as of May 2019, he remained in detention.\34\ 
        Green Leaf Action advocates for environmental 
        protection, and in 2016, police had warned Xue that the 
        group was being ``controlled'' by ``foreign forces.'' 
        \35\
        <bullet> Land Reclamation in Guangdong. In January 
        2019, the Zhanjiang Economic and Technological 
        Development Zone People's Court in Guangdong sentenced 
        environmental advocates Chen Wuquan (a disbarred rights 
        lawyer), Chen Weiliang, Chen Zhenming, Chen Huansen, 
        Chen Chunlin, Chen Shuai, and Chen Longqun to prison 
        terms ranging from one to five years in prison for 
        ``picking quarrels and provoking trouble.'' \36\ 
        Beginning in October 2017, these individuals and other 
        villagers from Diaoluo village, Donghai Island, 
        Zhanjiang, protested a land reclamation project that 
        they claimed was illegal and had destroyed the natural 
        environment.\37\ In February 2019, the Council of Bars 
        and Law Societies of Europe, an organization that 
        represents over one million lawyers in 45 European 
        countries, criticized the detention and sentencing of 
        Chen Wuquan as being ``solely motivated by his activity 
        as a lawyer'' and expressed concern about possible 
        violations of the UN Basic Principles on the Role of 
        Lawyers.\38\
        <bullet> Mining in the Tibet Autonomous Region (TAR). 
        Radio Free Asia reported that in March 2019, Chinese 
        authorities had forcibly relocated a group of 
        approximately 12 families in Gonjo (Gongjue) county, 
        Qamdo (Changdu) municipality, TAR, from their rural 
        homes to a newly built urban area.\39\ Authorities 
        reportedly moved the families for mining-related 
        development, and the villagers were only the most 
        recent group of Tibetans from nine villages 
        affected.\40\ In another mining case, in January 2019, 
        the Central Tibetan Administration, a political entity 
        based in Dharamsala, India, reported that due to a 
        ``total clampdown on phones and other communications,'' 
        they were unable to ascertain the current status of 
        villagers and village head Karma, in Driru (Biru) 
        county, Nagchu (Naqu) prefecture,\41\ whom authorities 
        detained in 2018 after they protested mining on a 
        sacred mountain.\42\
        <bullet> Environmental Degradation in the Inner 
        Mongolia Autonomous Region (IMAR). In April 2019, over 
        200 residents in Heshigten (Keshenketeng) Banner, 
        Chifeng municipality, IMAR, protested in front of a 
        government office after authorities imposed a grazing 
        ban on local herding communities.\43\ Heshigten police 
        criminally detained 68-year-old herder O. Sechenbaatar 
        on suspicion of ``obstructing official business.'' \44\ 
        Also that month, more than 100 herders in Urad Middle 
        Banner in Bayanur (Bayannao'er) municipality, gathered 
        to request a meeting with the IMAR Party Secretary 
        about environmental degradation and inadequate 
        compensation to local residents who had been removed 
        from their grazing lands.\45\ Also in April, Hohhot 
        (Huhehaote) municipality authorities criminally 
        detained Heshigten resident Tsogjil, in connection to 
        WeChat discussion groups with 2,500 members which he 
        hosted that encouraged people to join a protest in 
        Heshigten.\46\ [For further information on the 
        suppression of herders protesting environmental 
        pollution in the Inner Mongolia Autonomous Region, see 
        Section II--Ethnic Minority Rights.]
        <bullet> Waste Incineration in Hubei Province. In June 
        and July 2019, as many as ten thousand residents of 
        Xinzhou district, Wuhan municipality, protested against 
        a planned waste incineration plant.\47\ Chinese 
        authorities reportedly censored reporting on the 
        protests, blocked cell phone signals, and in some 
        instances, used violence against protestors.\48\

       Media Reporting on Environmental Incidents and Corruption

    During this reporting year, Chinese and international media 
reported on incidents in which officials lied about 
environmental problems, failed to take meaningful action 
despite repeated environmental violations, or were involved in 
environmental corruption, resulting in some cases of 
disciplinary action against local officials. Despite 
considerable censorship of the media in China,\49\ the 
Commission observed some notable media reports on environmental 
incidents:

        <bullet> In November 2018, a chemical spill in Quanzhou 
        municipality, Fujian province, resulted in the 
        hospitalization of 52 nearby residents, although at 
        first authorities instructed Chinese media not to 
        report on the leak.\50\ Domestic media later reported 
        that local officials initially lied about the cause and 
        size of the spill--authorities later stated that it was 
        10 times larger than first reported,\51\ prompting the 
        state-run newspaper China Daily to call for the 
        Quanzhou government to explain its shortcomings.\52\ A 
        female journalist from Caixin, a news outlet known for 
        more market-driven reporting, revealed that local 
        police harassed her while she was reporting on the 
        spill, including forcing their way into her hotel room 
        late one night to demand her press credentials and 
        following her around as she was gathering news.\53\ A 
        South China Morning Post editorial criticized the 
        ``clumsy cover-up'' and said that ``[t]he habit of 
        cover-ups that put officials' political interests first 
        seems to die hard.'' \54\ Authorities disciplined two 
        police officers involved in the harassment of the 
        journalist \55\ and three local officials involved in 
        the alleged coverup efforts.\56\
        <bullet> In March 2019, an explosion at Jiangsu 
        Tianjiayi Chemical plant in Yancheng municipality, 
        Jiangsu province, killed 78 people, injured over 600, 
        and forced the evacuation of almost 3,000.\57\ Between 
        2016 and 2018, authorities had administratively 
        penalized the chemical plant over five times, including 
        an 18-month suspended sentence for the company chairman 
        for environmental violations.\58\ The Institute of 
        Public and Environmental Affairs (IPE), an 
        environmental non-governmental organization based in 
        Beijing municipality, had reportedly documented 
        environmental violations at 300 of 367 facilities at 
        the industrial park.\59\ After the explosion, 
        authorities announced plans to shut down all industrial 
        chemical facilities in the industrial park.\60\ Ma Jun, 
        IPE's director, nevertheless, told the Party-affiliated 
        media outlet Global Times that ``the complete shutdown 
        that resulted is not the best solution since the park 
        has an important role in the chemical industry.'' \61\
        <bullet> In April 2019, state-run media reported on 
        corruption at the environmental protection bureau in 
        Suining municipality, Sichuan province.\62\ A total of 
        32 officials at the bureau were reported to have 
        accepted bribes related to environmental matters, 
        including from companies under environmental 
        inspection.\63\

 Assessing the Chinese Government's Commitment to Combat Climate Change

    During the 2019 reporting year, carbon dioxide emissions in 
China continued to increase, even as Chinese officials 
continued to call for ``green development.'' Based on an 
analysis of Chinese government data,\64\ carbon dioxide 
emissions in China increased by approximately three percent in 
2018.\65\ Coal consumption was reportedly responsible for more 
than 70 percent of energy-related carbon dioxide emissions.\66\ 
According to analysts, however, official reports on coal 
consumption and economic growth made it difficult to determine 
China's carbon intensity--an essential metric used to assess 
China's international commitment to combating climate 
change.\67\ In April 2016, the Chinese government signed the 
Paris Agreement,\68\ and its commitment under the agreement, 
known as its nationally determined contribution (NDC), included 
``lower[ing] carbon dioxide emissions per unit of GDP by 60 
percent to 65 percent from the 2005 level,'' ``achiev[ing] the 
peaking of carbon dioxide emissions around 2030 and making best 
efforts to peak early,'' and ``increas[ing] the share of non-
fossil fuels in primary energy consumption to around 20 
percent.'' \69\ According to Climate Action Tracker, which 
produces independent science research by a consortium of 
research institutes, China's NDC is ``highly insufficient.'' 
\70\ In October 2018, the United Nations' Intergovernmental 
Panel on Climate Change special report found that to limit 
global warming to 1.5 degrees Celsius by 2050, global coal use 
would need to be ``reduced to close to 0%.'' \71\ China has the 
largest concentration of glaciers outside of the polar regions, 
supplying water to 1.8 billion people, and the glaciers are at 
risk due to global warming.\72\ From June 25 to 29, 2019, in 
Lhasa municipality, TAR, the Chinese government recorded five 
consecutive days with an average daily temperature at or above 
71.6 degrees Farenheit (22 degrees Celsius), meeting the 
Chinese government's definition for the beginning of summer for 
the first time in Lhasa since authorities began measuring in 
1955.\73\
    International environmental groups and scientists were 
skeptical about the Chinese government's reported plans to 
suspend new coal-fired power plants in China and reduce methane 
emissions from coal mines--major sources of greenhouse gases--
in light of a Chinese industry policy group's recommendation 
that the government permit many new coal-fired power plants. 
Although central authorities had reportedly suspended a number 
of new coal-fired power plants in 2017, 2018 analysis of 
satellite imagery by an environmental group found that many of 
the suspended projects had resumed construction.\74\ In March 
2019, the China Electricity Council, an industry association, 
recommended that China increase its coal-fired power capacity 
to 1,300 gigawatts,\75\ an increase of 290 gigawatts of new 
coal-fired power capacity--more than the entire coal-fired 
power capacity of the United States.\76\ In January 2019, 
research published in Nature Communications found that although 
the Chinese government had set ``ambitious benchmarks'' for 
limiting methane production, based on satellite imagery, they 
found that ``[the methane] regulations have had `no discernible 
impact' on the continued increase in Chinese methane 
emissions.'' \77\
    This past year, as top Chinese officials proclaimed the 
importance of green development, international concern 
increased regarding Chinese government funding for coal-fired 
power plants in countries participating in the Belt and Road 
Initiative (BRI). In March 2019, at the BRI Forum in Beijing, 
Chinese Communist Party General Secretary Xi Jinping said, ``We 
need to pursue open, green and clean cooperation.'' \78\ 
Following the forum, attendees issued a joint communique 
highlighting that ``communication among . . . think tanks, 
academia, media, civil societies . . .'' would be welcomed.\79\ 
In 2019, reports that Chinese government-backed financial 
institutions provided funding to build coal-fired power plants 
abroad also raised international concerns.\80\ According to an 
analysis by a group of international researchers, Chinese 
financial institutions and corporations have offered funding to 
more than one-quarter of coal-fired power plants under 
construction outside of China.\81\ An international journalist 
believes that these Chinese-funded power plants will ``make it 
more difficult'' for some countries to meet their Paris 
Agreement commitments.\82\ In July 2019, the UN special envoy 
for the 2019 Climate Summit stated that ``[w]e would also like 
China to encourage green investment throughout the Belt and 
Road Initiative and not build coal-fired power plants.'' \83\

            Wildlife Trade and Traditional Chinese Medicine

    During this reporting year, the government continued to 
promote the worldwide use of traditional Chinese medicine 
leading to international concern about Chinese authorities' 
commitment to fighting wildlife trafficking. According to a 
Hong Kong-based foundation, ``[o]ne of the most alarming 
characteristics of wildlife trafficking is the growing use of 
threatened species in traditional medicines.'' \84\ By 2020, 
the government plans to set up 50 traditional Chinese medicine 
model centers outside China.\85\ In October 2018, the State 
Council issued a circular that would permit the use of tiger 
and rhinoceros bones for traditional Chinese medicine.\86\ The 
Chinese government had prohibited trade in tiger bones and 
rhino horns since 1993, when then-U.S. President Bill Clinton 
threatened to sanction the Chinese government for undermining 
the Convention on International Trade in Endangered Species of 
Wild Fauna and Flora (CITES).\87\ CITES generally prohibits all 
international trade in tigers, rhinos, and their derivative 
parts,\88\ and the CITES standing committee has identified 36 
facilities that keep tigers in China, the existence of which 
``may be of concern.'' \89\ The UN Environment Programme 
subsequently described any changes to the ban on the trade of 
tiger and rhino parts as an ``extremely alarming development'' 
pointing out that such trade ``falsely indicates that these 
products have medical value.'' \90\ Following international 
criticism, in November 2018, the Chinese government announced 
that implementation of the circular ``has been postponed after 
study.'' \91\ According to an international wildlife 
organization employee, ``[t]he lack of clarity does not help 
the wildlife enforcement authorities to do their job.'' \92\ 
The General Administration of China Customs (China Customs) 
reportedly cooperated with international non-governmental 
organizations (NGOs) to combat wildlife trafficking through 
educational outreach and identification of illicit 
shipments.\93\ In April 2019, China Customs suggested that 
``further cooperation'' with NGOs include ongoing publicization 
of the ``positive outcomes'' of the Chinese government's 
efforts to implement a ban on the ivory trade.\94\


                                                The Environment
                                                The Environment
    Notes to Section II--The Environment

    \1\ Ministry of Ecology and Environment, ``Quanwen shilu: Shengtai 
Huanjingbu buzhang Li Ganjie jiu `Dahao Wuran Fangzhi Gongjianzhan' da 
jizhe wen'' [Complete transcript: Ministry of Ecology and Environment 
Minister Li Ganjie ``Fully Engaging the War on Pollution'' answers to 
journalists' questions], March 11, 2019; Li Jing, ``China's `Iron Fist' 
against Pollution Is Softening,'' China Dialogue, March 14, 2019.
    \2\ Freedom House, ``China,'' in Freedom in the World 2019, 
February 2019, D1; Zhou Chen, ``Police Barged into My Room While I Was 
Covering the Fujian Chemical Spill,'' Caixin, November 20, 2018.
    \3\ Cai Fei, ``Quanzhou Officials Need to Come Clean about Chemical 
Leak,'' China Daily, November 22, 2018; Kang Jia and Zhou Shiling, ``6 
ci xingzheng chufa beihou de baozha huagong chang'' [Explosion at a 
chemical plant that had been administratively fined 6 times], Beijing 
News, March 23, 2019; Cao Xiao, ``Bei `wuran' de huanbao ju: Sichuan 
Suining huanbaoju 32 ren jiti shouhui yi ge ju de lingdao jihu quan jun 
fumo'' [``Polluted'' environmental protection bureau: 32 people from 
Suining, Sichuan environmental protection bureau collectively accepted 
bribes, bureau leadership almost completely annihilated], The Cover, 
April 17, 2019. See also Wu Changhua, ``How Is the Digital Age 
Redefining China's Environmental Governance?,'' CGTN, March 4, 2019.
    \4\ Lauri Myllyvirta, ``China's CO2 Emissions Surged in 2018 
Despite Clean Energy Gains,'' Unearthed, Greenpeace, February 28, 2019; 
Jan Ivar Korsbakken and Robbie Andrew, ``Guest Post: China's CO2 
Emissions Grew Slower Than Expected in 2018,'' CarbonBrief, March 5, 
2019. See also National Bureau of Statistics of China, ``Statistical 
Communique of the People's Republic of China on the 2018 National 
Economic and Social Development,'' February 28, 2019, Table 3.
    \5\ Christine Shearer, Melissa Brown, and Tim Buckley, ``China at a 
Crossroads: Continued Support for Coal Power Erodes Country's Clean 
Energy Leadership,'' Institute for Energy Economics and Financial 
Analysis, January 2019, 4; Isabel Hilton, ``How China's Big Overseas 
Initiative Threatens Global Climate Progress,'' Yale Environment 360, 
Yale School of Forestry & Environmental Studies, January 3, 2019; 
Michael Lelyveld, ``China's Belt and Road Initiative Blackened by 
Coal,'' Radio Free Asia, January 31, 2019.
    \6\ National Development and Reform Commission, ``Report on the 
Implementation of the 2018 Plan for National Economic and Social 
Development and on the 2019 Draft Plan for National Economic and Social 
Development,'' March 5, 2019, 41. See also Dan Guttman, Oran Young, and 
Yijia Jing, et al., ``Environmental Governance in China: Interactions 
Between the State and `Nonstate Actors,' '' Journal of Environmental 
Management 220 (August 15, 2018): 128; Elizabeth Economy, The Third 
Revolution: Xi Jinping and the New Chinese State (New York: Oxford 
University Press, 2018), 176. Economy describes the ``contradiction in 
the Xi government's approach to civic engagement in environmental 
protection: the government welcomes public participation but only in 
support of government policy and as long as it doesn't challenge 
existing policy or appear to challenge the government's legitimacy.'' 
She also notes that ``[p]articularly threatening in this regard are 
individuals who command large followings and speak out on issues in 
ways that move beyond a narrow technical complaint to address broader 
values.''
    \7\ Zhonghua Renmin Gongheguo Turang Wuran Fangzhi Fa [PRC Soil 
Pollution Prevention and Control Law], passed August 31, 2018, 
effective January 1, 2019.
    \8\ Ibid., arts. 3, 10, 21, 58, 66, 76.
    \9\ Greenpeace East Asia and Nanjing University Ecology Department, 
``Redeveloping the Polluted Land Under China's Cities: Problems and 
Solutions,'' April 17, 2019. See also Greenpeace East Asia and Nanjing 
University Ecology Department, ``Zhongguo chengshi wuran dikuai kaifa 
liyong zhong de wenti yu duice'' [Redeveloping the polluted land under 
China's cities: problems and solutions], April 2019, 2.
    \10\ UN Office of the High Commissioner for Human Rights, ``Joint 
Statement of the United Nations Special Procedures Mandate Holders on 
the Occasion of the 24th Conference of the Parties to the UNFCC,'' 
December 6, 2018.
    \11\ Robert Y. Pledge, ``A Photographer Goes Missing in China,'' 
New York Times, December 8, 2018. For more information on Lu Guang, see 
the Commission's Political Prisoner Database record 2018-00601.
    \12\ Nina Strochlic, ``Missing Chinese Photographer Known for 
Capturing Environmental Threats,'' National Geographic, January 24, 
2019.
    \13\ Robert Y. Pledge, ``A Photographer Goes Missing in China,'' 
New York Times, December 8, 2018.
    \14\ Committee to Protect Journalists, ``China Detains Award-
Winning Photographer in Xinjiang,'' November 28, 2018.
    \15\ Li Jing, ``China's `Iron Fist' against Pollution Is 
Softening,'' China Dialogue, March 14, 2019; Ministry of Ecology and 
Environment, ``Quanwen shilu: Shengtai Huanjingbu buzhang Li Ganjie jiu 
`Dahao Wuran Fangzhi Gongjianzhan' da jizhe wen'' [Complete transcript: 
Ministry of Ecology and Environment Minister Li Ganjie ``Fully Engaging 
the War on Pollution'' answers to journalists' questions], March 11, 
2019.
    \16\ Ministry of Ecology and Environment, ``Quanwen shilu: Shengtai 
Huanjingbu buzhang Li Ganjie jiu `Dahao Wuran Fangzhi Gongjianzhan' da 
jizhe wen'' [Complete transcript: Ministry of Ecology and Environment 
Minister Li Ganjie ``Fully Engaging the War on Pollution'' answers to 
journalists' questions], March 11, 2019; Li Jing, ``China's `Iron Fist' 
against Pollution Is Softening,'' China Dialogue, March 14, 2019. See 
also Jack Kamensky and Owen Haacke, ``Environmental Compliance for US 
Companies in China,'' US-China Business Council, March 2019, 6-7.
    \17\ Brady Dennis and Chris Mooney, `` `We Are in Trouble.' Global 
Carbon Emissions Reached a Record High in 2018,'' Washington Post, 
December 5, 2018.
    \18\ Ministry of Ecology and Environment, ``2018 Zhongguo shengtai 
huanjing zhuangkuang gongbao'' [2018 report on the state of the ecology 
and environment in China], May 22, 2019, 6.
    \19\ AirVisual, IQAir, ``2018 World Air Quality Report: Region & 
City PM2.5 Ranking,'' March 5, 2019, 4; Greenpeace International, 
``Latest Air Pollution Data Ranks World's Cities Worst to Best,'' March 
5, 2019.
    \20\ AirVisual, IQAir, ``World's Most Polluted Cities 2018 (PM 
2.5),'' accessed May 1, 2019.
    \21\ Jocelyn Timperley, ``The Carbon Brief Interview: Prof Qi Ye,'' 
Carbon Brief, January 22, 2019.
    \22\ Luo Sha, ``2018 nian quanguo fayuan shenjie jiancha jiguan 
huanjing gongyi susong anjian 1252 jian'' [2018 Chinese courts 
concluded 1,252 public interest cases brought by procuratorates], 
Xinhua, March 2, 2019.
    \23\ Wanlin Wang and Dimitri de Boer, ``China's Prosecutors Are 
Litigating Government Agencies for Being Soft on Pollution,'' China 
Dialogue, February 22, 2019. According to Wang and de Boer, NGOs are 
not allowed to ``target environmental violations by government 
departments.''
    \24\ Cang Wei, ``Polluting Companies Ordered to Apologize to 
Public,'' China Daily, December 28, 2018.
    \25\ China Development Brief, ``The Top Ten Stories of the Year in 
Chinese Civil Society,'' January 18, 2019.
    \26\ Chinese Communist Party Central Political and Legal Affairs 
Commission, ``Qunian jiancha jiguan pibu pohuai shengtai huanjing 
fanzui 15095 ren'' [Last year, procuratorates approved the arrest of 
15,095 people for ecological environment crimes], February 19, 2019; 
``China's Environmental Crime Arrests Soar in 2018,'' Reuters, 
reprinted in South China Morning Post, February 14, 2019.
    \27\ PRC Constitution, passed and effective December 4, 1982 
(amended March 11, 2018), art. 35.
    \28\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of December 16, 
1966, entry into force March 23, 1976, arts. 19, 21, 22; United Nations 
Treaty Collection, Chapter IV, Human Rights, International Covenant on 
Civil and Political Rights, accessed May 29, 2019. China has signed but 
not ratified the ICCPR.
    \29\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of December 10, 1948, 
arts. 19, 20.
    \30\ UN Human Rights Council, Report of the Special Rapporteur on 
the Issue of Human Rights Obligations Relating to the Enjoyment of a 
Safe, Clean, Healthy and Sustainable Environment, John H. Knox, A/HRC/
37/59, Annex, Framework Principles on Human Rights and the Environment, 
January 24, 2018, paras. 12-14.
    \31\ ``Thousands Protest Industrial Waste Processing Plant Plan in 
China's Guangdong,'' Radio Free Asia, October 24, 2018.
    \32\ ``Guangdong Shunde wan ren kangyi jian wei feiwu zhongxin'' 
[Ten thousand people in Shunde, Guangdong, protest establishment of 
hazardous waste center], Radio Free Asia, October 24, 2018; ``Shunde 
jumin haozhao jin wan zai shiwei dapi jingche jinzhu'' [Shunde 
residents call for another demonstration tonight, a large number of 
police vehicles stationed there], Boxun, October 25, 2018.
    \33\ ``Chongqing `Lu Ye Xingdong' chengyuan Pan Bin bei mimi 
panxing'' [Chongqing ``Green Leaf Action'' member Pan Bin sentenced in 
secret], Radio Free Asia, January 8, 2019.
    \34\ Chinese Human Rights Defenders, ``Xue Renyi,'' May 31, 2019; 
Dui Hua Foundation, ``From Hu to Xi: China's Grip on Environmental 
Activism Part II: Environmental Activism From Above and Below,'' Dui 
Hua Human Rights Journal, July 24, 2019.
    \35\ Dui Hua Foundation, ``From Hu to Xi: China's Grip on 
Environmental Activism Part II: Environmental Activism From Above and 
Below,'' Dui Hua Human Rights Journal, July 24, 2019.
    \36\ Rights Defense Network, ``Xiezhu jiaxiang cunmin weiquan 
baowei jiaxiang haitan de Guangdong renquan lushi Chen Wuquan bei 
panxing 5 nian'' [Chen Wuquan, Guangdong rights lawyer who assisted 
hometown villagers defending rights and protecting local coast, 
sentenced to 5 years], January 18, 2019. For more information, see the 
Commission's Political Prisoner Database records 2018-00136 on Chen 
Wuquan, 2018-00137 on Chen Shuai, 2018-00138 on Chen Longqun, 2018-
00139 on Chen Zhenming, 2018-00140 on Chen Chunlin, 2018-00141 on Chen 
Weiliang, and 2019-00044 on Chen Huansen.
    \37\ ``Hu hai zao daya Zhanjiang weiquan lushi Chen Wuquan ji duo 
wei cunmin bei zhua'' [Suppressed for protecting the sea, Zhanjiang 
rights defense lawyer Chen Wuquan and several villagers detained], 
Radio Free Asia, February 10, 2018; Human Rights Campaign in China, 
``Yin shouhu jiaxiang haitan qian weiquan lushi Chen Wuquan zao 
Zhanjiang dangju yi shexian xunxin zishi zui xingshi julu'' [Zhanjiang 
authorities criminally detained former rights defense lawyer Chen 
Wuquan on suspicion of picking quarrels and provoking trouble for 
protecting hometown beach], February 11, 2018.
    \38\ Letter from Jose de Freitas, President, Council of Bars and 
Law Societies of Europe, to Xi Jinping, President of the People's 
Republic of China, February 14, 2019. See also Basic Principles on the 
Role of Lawyers, adopted by the Eighth UN Congress on the Prevention of 
Crime and the Treatment of Offenders, Havana, Cuba, August 27 to 
September 7, 1990, principles 16, 17.
    \39\ ``Tibetan Villagers Forced from Their Homes in Gonjo County,'' 
Radio Free Asia, April 4, 2019.
    \40\ ``Tibetan Villagers Forced from Their Homes in Chamdo's Gonjo 
County,'' Radio Free Asia, October 1, 2018.
    \41\ Central Tibetan Administration, ``Tibetans Sentenced in 
Central Tibet in 2018 for `Inciting Separatism,' '' January 19, 2019. 
For more information on Karma, see the Commission's Political Prisoner 
Database record 2018-00132.
    \42\ Tibetan Centre for Human Rights and Democracy, ``China Detains 
30 Tibetans and Disappears Village Leader for Opposing Mining at Sacred 
Mountain,'' May 14, 2018.
    \43\ ``Chinese Police Hold Another Ethnic Mongolian Writer over 
Protest,'' Radio Free Asia, April 16, 2019.
    \44\ ``Two More Ethnic Mongolians Jailed in China, WeChat Groups 
Deleted,'' Radio Free Asia, April 26, 2019.
    \45\ ``Third Ethnic Mongolian Writer Held in China's Inner 
Mongolia,'' Radio Free Asia, April 23, 2019.
    \46\ Ibid.
    \47\ ``Thousands Protest Waste Incinerator Plans in China's 
Wuhan,'' Radio Free Asia, July 4, 2019; ``Wuhan Protests: Incinerator 
Sparks Mass Unrest,'' China Blog, BBC News, July 8, 2019.
    \48\ ``Thousands Protest Waste Incinerator Plans in China's 
Wuhan,'' Radio Free Asia, July 4, 2019; ``Thousands in Wuhan Protest 
against Waste Incineration,'' China Digital Times, July 5, 2019; Dui 
Hua Foundation, ``From Hu to Xi: China's Grip on Environmental Activism 
Part I: Mass Protests and the Threat to Activists,'' Dui Hua Human 
Rights Journal, July 17, 2019; Keith Bradsher, ``Protests over 
Incinerator Rattle Officials in Chinese City,'' New York Times, July 5, 
2019.
    \49\ Freedom House, ``China,'' in Freedom in the World 2019, 
February 2019, sec. D1; Zhou Chen, ``Police Barged into My Room While I 
Was Covering the Fujian Chemical Spill,'' Caixin, November 20, 2018. 
See also Will Ford, ``How One Activist Used a Little Shaming and a Lot 
of Patience to Clean Up Chinese Factories,'' Mother Jones, April 23, 
2019.
    \50\ Alice Shen, ``Lies and Fears: How a Chemical Leak in China 
Spilled Out of Control,'' South China Morning Post, November 15, 2018.
    \51\ Fan Liya, ``Chemical Spill Cover-Up Erodes Trust in Local 
Government,'' Sixth Tone, November 26, 2018.
    \52\ Cai Fei, ``Quanzhou Officials Need to Come Clean about 
Chemical Leak,'' China Daily, November 22, 2018.
    \53\ Zhou Chen, ``Police Barged into My Room While I Was Covering 
the Fujian Chemical Spill,'' Caixin, November 20, 2018; Zhou Chen, 
``Quanzhou jiudian jinghun ji'' [Horror story at Quanzhou hotel], 
Caixin, reprinted in Sina, November 19, 2018; ``Journalist Harassed 
While Covering Chemical Spill,'' China Digital Times, November 26, 
2018.
    \54\ ``Clumsy Cover-Up of Toxic Spill Has Again Damaged Public 
Trust,'' editorial, South China Morning Post, November 17, 2018.
    \55\ Cao Yin, ``Two Police Officers Disciplined after Searching 
Reporter's Hotel Room,'' China Daily, November 20, 2018.
    \56\ Hu Meidong and Cao Yin, ``Hiding Facts of Chemical Leak 
`Terrible,' '' China Daily, November 26, 2018.
    \57\ William Zheng, ``Death Toll from Chemical Plant Blast Rises to 
78,'' South China Morning Post, March 25, 2019.
    \58\ Yu Han, ``The Yancheng Blast Shows the Importance of Media 
Oversight,'' Sixth Tone, March 22, 2019; Gerry Shih, ``After China's 
Deadly Chemical Disaster, A Shattered Region Weighs Cost of the Rush to 
`Get Rich,' '' Washington Post, March 31, 2019.
    \59\ Zhang Han, ``Chemical Factories to Be Shut Down After Deadly 
Explosion in Xiangshui,'' Global Times, April 7, 2019.
    \60\ Ibid.
    \61\ Ibid.
    \62\ Cao Xiao, ``Bei wuran de Huanbaoju: Sichuan Suining Huanbaoju 
32 ren jiti shouhui yige ju de lingdao jihu quan jun fumo'' 
[Environmental Protection Bureau that was ``polluted'': 32 people from 
Sichuan Suining Environmental Protection Bureau collectively accepted 
bribes, the leadership of the bureau is almost completely annihilated], 
The Cover, April 17, 2019; Olivia Li, ``Chinese Authorities Sack an 
Entire Environmental Protection Bureau for Corruption Misdeeds,'' Epoch 
Times, April 20, 2019.
    \63\ Cao Xiao, ``Bei wuran de Huanbaoju: Sichuan Suining Huanbaoju 
32 ren jiti shouhui yige ju de lingdao jihu quan jun fumo'' 
[Environmental Protection Bureau that was ``polluted'': 32 people from 
Sichuan Suining Environmental Protection Bureau collectively accepted 
bribes, the leadership of the bureau is almost completely annihilated], 
The Cover, April 17, 2019;Olivia Li, ``Chinese Authorities Sack an 
Entire Environmental Protection Bureau for Corruption Misdeeds,'' Epoch 
Times, April 20, 2019.
    \64\ National Bureau of Statistics of China, ``2018 nian guomin 
jingji he shehui fazhan tongji gongbao'' [Statistical communique of the 
People's Republic of China on the 2018 national economic and social 
development],'' February 28, 2019.
    \65\ Lauri Myllyvirta, Greenpeace, ``China's CO2 Emissions Surged 
in 2018 Despite Clean Energy Gains,'' Unearthed (blog), February 28, 
2019.
    \66\ Jan Ivar Korsbakken, Robbie Andrew, and Glen Peters, ``Guest 
Post: China's CO2 Emissions Grew Slower Than Expected in 2018,'' Carbon 
Brief, March 5, 2019.
    \67\ Michael Lelyveld, ``China's Energy Efficiency Claims 
Questioned,'' Radio Free Asia, February 11, 2019.
    \68\ ``China Signs Paris Agreement on Climate Change,'' Xinhua, 
April 23, 2016. UN Framework Convention on Climate Change, Adoption of 
the Paris Agreement, FCCC/CP/2015/L.9/Rev.1, December 12, 2015.
    \69\ ``Country Summary: China,'' Climate Action Tracker, accessed 
May 1, 2019; ``About,'' Climate Action Tracker, accessed July 14, 2019; 
National Development and Reform Commission, ``Qinghua yingdui qihou 
bianhua xingdong-- Zhongguo guojia zizhu gongxian'' [Enhanced actions 
on climate change: China's intended nationally determined 
contributions], June 30, 2015, 4.
    \70\ ``Country Summary: China,'' Climate Action Tracker, accessed 
May 1, 2019.
    \71\ Intergovernmental Panel on Climate Change, ``Summary for 
Policymakers,'' in Global Warming of 1.5+C (Geneva: World 
Meteorological Organization, 2018), 15; Intergovernmental Panel on 
Climate Change, ``The Intergovernmental Panel on Climate Change,'' 
accessed July 14, 2019.
    \72\ Greenpeace East Asia, ``Greenpeace Survey Reveals Impact of 
Climate Change on Glaciers in China,'' November 20, 2018; Liang Chenyu, 
``Govt Reports Details Alarming Effects of Climate Change in China,'' 
Sixth Tone, April 4, 2019.
    \73\ Palden Nyima and Da Qiong, ``Lhasa Records Its First Summer, 
as Experts Blame Global Warming,'' China Daily, July 6, 2019.
    \74\ Christine Shearer et al., Global Energy Monitor, Sierra Club, 
and Greenpeace, ``Boom and Bust 2019: Tracking the Global Coal Plant 
Pipeline,'' March 2019, 9.
    \75\ China Electricity Council, ``Dianli `shisanwu' guihua zhongqi 
pinggu ji youhua'' [Mid-term evaluation and optimization of power 
during ``13th five-year plan], China Power Enterprise Management, 
reprinted in BJX Power T&D, March 18, 2019. 1.3 billion kilowatts is 
equal to 1,300 gigawatts.
    \76\ Christine Shearer et al., Global Energy Monitor, Sierra Club, 
and Greenpeace, ``Boom and Bust 2019: Tracking the Global Coal Plant 
Pipeline,'' March 2019, 9.
    \77\ Scott M. Miller, et al., ``China's Coal Mine Methane 
Regulations Have Not Curbed Growing Emissions,'' Nature Communications, 
10, no. 303 (January 29, 2019), 1, 2.
    \78\ Embassy of the People's Republic of China, ``The Complete Text 
of President Xi Jinping's Speech at the Belt and Road Forum for 
International Cooperation 2019,'' reprinted in China-Pakistan Economic 
Corridor, April 26, 2019. The full name of this forum was the ``Second 
Belt and Road Forum for International Cooperation.''
    \79\ ``Joint Communique of the Leaders' Roundtable of the 2nd Belt 
and Road Forum for International Cooperation,'' April 27, 2019.
    \80\ Christine Shearer, Melissa Brown, Tim Buckley, Institute for 
Energy Economics and Financial Analysis, ``China at a Crossroads: 
Continued Support for Coal Power Erodes Country's Clean Energy 
Leadership,'' January 2019, 4; Isabel Hilton, ``How China's Big 
Overseas Initiative Threatens Global Climate Progress,'' Yale 
Environment 360, Yale School of Forestry & Environmental Studies, 
January 3, 2019; Michael Lelyveld, ``China's Belt and Road Initiative 
Blackened By Coal,'' Radio Free Asia, January 31, 2019.
    \81\ Christine Shearer, Melissa Brown, Tim Buckley, Institute for 
Energy Economics and Financial Analysis, ``China at a Crossroads: 
Continued Support for Coal Power Erodes Country's Clean Energy 
Leadership,'' January 2019, 4.
    \82\ Isabel Hilton, ``How China's Big Overseas Initiative Threatens 
Global Climate Progress,'' Yale Environment 360, Yale School of 
Forestry & Environmental Studies, January 3, 2019.
    \83\ ``China Can Inspire the World to Tackle the Climate Crisis: UN 
Envoy,'' CGTN, July 25, 2019.
    \84\ Farah Master, ``As China Pushes Traditional Medicine Globally, 
Illegal Wildlife Trade Flourishes,'' Reuters, March 28, 2019; ADM 
Capital Foundation, ``Contact Us,'' accessed July 14, 2019.
    \85\ Zhuang Pinghui, ``Traditional Chinese Medicine Closes In On 
US$50 Billion Market With Long-Awaited Nod From WHO,'' South China 
Morning Post, September 29, 2018.
    \86\ State Council, Guowuyuan Guanyu Yange Guanzhi Xiniu he Hu ji 
Qi Zhipin Jingying Liyong Huodong de Tongzhi [State Council Notice on 
the Strict Control of the Trade and Use of Rhinoceroses and Tigers and 
Their Products], issued October 29, 2018; State Council, ``China to 
Control Trade in Rhino and Tiger Products,'' October 29, 2018.
    \87\ Rachel Nuwer, ``The Key to Stopping the Illegal Wildlife 
Trade: China,'' New York Times, November 19, 2018.
    \88\ CITES Secretariat, ``Statement Concerning a Circular Issued by 
China's State Council on the Use of Rhinoceroses and Tigers and Their 
Products,'' accessed July 14, 2019.
    \89\ Convention on International Trade in Endangered Species of 
Wild Fauna and Flora, Seventieth Meeting of the Standing Committee, 
October 1-5, 2018, 4.
    \90\ United Nations Environment Programme, ``Official Statement on 
the Reversal of the Ban on Trade in Rhino and Tiger Parts by China,'' 
November 7, 2018.
    \91\ ``Full Transcript: State Council Executive Deputy Secretary-
General Ding Xuedong Answers Media Questions,'' Xinhua, reprinted in 
China Internet Information Center, November 12, 2018.
    \92\ Peter Yeung, ``How China's WeChat Became a Grim Heart of 
Illegal Animal Trading,'' Wired, March 11, 2019; Born Free, ``About 
Us,'' accessed July 14, 2019. See also Farah Master and Joyce Zhou, 
``Profit-Hungry Tiger Breeders Behind Push To Lift China's Trading 
Ban,'' Reuters, January 7, 2019.
    \93\ WildAid, ``China Spearheads Campaign to End Illegal Wildlife 
Trade,'' May 6, 2019.
    \94\ Ibid.


                                                  Business and 
                                                   Human Rights
                                                Business and 
                                                Human Rights

                       Business and Human Rights


                                Findings

        <bullet> As the Chinese Communist Party and government 
        engage in increasingly egregious human rights 
        violations, domestic and international businesses are 
        increasingly at risk of complicity in abuses committed 
        by the Chinese government. Of particular concern are: 
        reports that companies are involved in the government's 
        suppression of ethnic minorities in the Xinjiang Uyghur 
        Autonomous Region (XUAR), including through the use of 
        forced labor; companies' complicity in government 
        surveillance of individuals throughout China; and 
        companies engaging in censorship on behalf of Chinese 
        authorities.
        <bullet> In the XUAR, the actions of the Party and 
        government may constitute crimes against humanity 
        according to scholars and rights groups, and companies 
        that work in the region are at great risk of complicity 
        in those crimes. Experts have documented the rapid 
        expansion of a network of mass internment camps in 
        which authorities have arbitrarily detained over a 
        million individuals from predominantly Muslim ethnic 
        minority groups. Commercial entities have been directly 
        involved in the construction of these camps and 
        supplied them with a wide range of goods and services. 
        The company Hangzhou Hikvision Digital Technology, in 
        particular, has supplied surveillance systems to the 
        camps as part of a public-private partnership with XUAR 
        authorities. U.S.-based firms such as Intel, Ambarella, 
        and Nvidia reportedly continue to supply Hikvision with 
        critical components. According to a March 2019 report, 
        the California State Teachers' Retirement System and 
        the New York State Teachers' Retirement System both 
        continued to own Hikvision stock.
        <bullet> The Commission observed numerous reports this 
        past year of forced labor associated with government 
        repression of ethnic minority groups in the XUAR. In 
        some cases, detainees performed forced labor within the 
        camps. In other cases, detainees were ``released'' in 
        order to perform forced labor. In still other cases, 
        XUAR authorities reportedly assigned individuals from 
        ethnic minority groups to forced labor directly, 
        without first sending them to the camps. A Wall Street 
        Journal investigation found that materials from firms 
        using forced labor in the XUAR had entered the supply 
        chains of major international clothing companies 
        including Adidas, H&M, Nike, and Patagonia.
        <bullet> Chinese security authorities continued to work 
        with domestic companies to expand the reach and 
        analytical power of government surveillance systems. 
        Chinese technology firms ZTE, Hikvision, iFlytek, 
        Huawei Technologies, SenseTime, Megvii, CloudWalk, 
        Yitu, and Tiandy all reportedly sold technology to 
        Chinese authorities for use in surveillance systems. 
        This surveillance is used to target rights advocates 
        and others whom the government views as a threat. For 
        example, police in at least 16 provinces and regions 
        were reportedly using artificial intelligence (AI) to 
        track the movement of Uyghurs, an ethnic minority 
        group.
        <bullet> Companies in China collect large amounts of 
        data on Chinese citizens and are required under Chinese 
        law to make this data available to authorities. In the 
        wake of rising domestic concerns over data collection 
        and misuse, the government has already begun to revise 
        recent regulations governing consumer data collection. 
        While the government has punished companies over the 
        collection of consumer data in some instances, the 
        government has simultaneously expanded its own data 
        collection powers.
        <bullet> Chinese government restrictions on freedom of 
        expression increased this past year, and companies--
        particularly tech companies--were both targets and 
        enablers of Chinese government censorship. For example, 
        Tencent's WeChat--a ubiquitous social media app in 
        China--regularly filters and censors content and turns 
        over user information to authorities. In 2018, media 
        reports revealed that Google was developing a censored 
        version of its search engine in an attempt to re-enter 
        the Chinese market. Following employee protests and 
        media attention, Google's Vice President for Government 
        Affairs and Public Policy informed the Congress in July 
        2019 that Google had ``terminated'' the search engine 
        project.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Take the necessary steps to prohibit the export of 
        U.S. goods and services to Chinese entities--including 
        government agencies and companies--that have been 
        directly involved in building and supplying the system 
        of internment camps in the Xinjiang Uyghur Autonomous 
        Region (XUAR). Specifically, the video surveillance 
        company Hangzhou Hikvision Digital Technology, which 
        has supplied the camps with surveillance equipment and 
        is complicit in state surveillance of ethnic minorities 
        more generally, should be placed on the Entity List of 
        the Bureau of Industry and Security (BIS) within the 
        U.S. Department of Commerce.
          Impose Global Magnitsky sanctions on both Chinese 
        government officials carrying out severe human rights 
        abuses in the XUAR as well as the companies directly 
        complicit in those abuses. U.S. Customs and Border 
        Protection should examine the import of goods made in 
        the XUAR--or containing materials made in the XUAR--and 
        determine whether such imports violate Section 1307 of 
        the Tariff Act of 1930 (19 U.S.C. 1307).
          The Department of Labor should update its list of 
        goods produced with child labor or forced labor to 
        reflect the recent reports of forced labor in the XUAR.
          Hold public hearings and private meetings with 
        companies from their districts to raise awareness of 
        the risks of complicity in human rights abuses that 
        U.S. companies working in China may face, including 
        complicity in possible crimes against humanity in the 
        XUAR; the possibility of goods made with forced labor 
        entering supply chains; and the use of AI technology 
        and surveillance equipment to monitor human rights 
        advocates, religious believers, and ethnic minorities.
          Encourage companies in their districts to engage in 
        appropriate due diligence with regard to potential 
        complicity in human rights abuses. For additional 
        resources on best practices, companies may consult the 
        UN Guiding Principles on Business and Human Rights, the 
        Organization for Economic Cooperation and Development 
        (OECD) Guidelines for Multinational Enterprises, and 
        the OECD Due Diligence Guidance for Responsible 
        Business Conduct.


                                                  Business and 
                                                   Human Rights
                                                Business and 
                                                Human Rights

                       Business and Human Rights


                              Introduction

    During the Commission's 2019 reporting year, the Chinese 
Communist Party and government engaged in increasingly 
egregious human rights violations, as detailed by international 
human rights organizations and in the other sections of this 
report.\1\ In this environment, domestic and international 
businesses are directly complicit in or at risk of complicity 
in human rights abuses committed by the Chinese government, 
including the severe repression of minority groups in the 
Xinjiang Uyghur Autonomous Region (XUAR), government 
surveillance of citizens without adequate privacy protections, 
and government censorship. Technology companies, in particular, 
play a major role in government surveillance and censorship, 
and Human Rights Watch warned companies operating in China that 
``the authorities might deploy [their] technology to commit 
serious abuses.'' \2\ Although the Chinese government requires 
companies to comply with domestic laws and regulations that 
infringe on internationally recognized rights such as the right 
to privacy and freedom of expression, the UN Guiding Principles 
on Business and Human Rights state that businesses have a 
responsibility to respect human rights and should seek to avoid 
``contributing to adverse human rights impacts . . ..'' \3\ 
Whereas the preceding sections of this report examine in detail 
Chinese government violations of human rights and relevant 
international human rights standards, this section focuses on 
the risk domestic and international companies face of 
complicity in these human rights violations.

 Corporate Involvement in Possible Crimes Against Humanity in the XUAR

    The actions of the Chinese Communist Party and government 
in the XUAR may constitute crimes against humanity \4\ 
according to scholars and rights groups.\5\ This past year, 
experts documented the expansion of a network of mass 
internment camps in which authorities have arbitrarily detained 
over a million individuals from predominantly Muslim ethnic 
minority groups.\6\ Outside the camps, members of ethnic 
minority groups in the XUAR face extreme levels of 
surveillance, restrictions on freedom of movement, and forced 
political indoctrination.\7\ Companies that work in the XUAR 
are at great risk of complicity in the human rights abuses 
being committed in the region.\8\ [For more information on 
human rights violations in the XUAR, including a discussion of 
possible crimes against humanity committed by Chinese 
authorities, see Section IV--Xinjiang.]

                COMPANIES USING FORCED LABOR IN THE XUAR

    The Commission observed numerous reports this past year of 
forced labor associated with government repression of ethnic 
minority groups in the XUAR. In some cases, detainees performed 
forced labor in factories within internment camps.\9\ In other 
cases, authorities released individuals from the camps to 
perform forced labor in factories elsewhere in the XUAR.\10\ In 
still other cases, XUAR authorities reportedly assigned 
individuals from ethnic minority groups to forced labor 
directly, without first sending them to the camps.\11\ Radio 
Free Asia (RFA) reported in January 2019 that authorities had 
also sent Uyghurs and Kazakhs from the XUAR to other provinces 
in China for forced labor.\12\ Comments from the president of 
the China National Textile and Apparel Council in March 2018 
suggested that textile manufacturers, in particular, were 
working with XUAR authorities to exploit detainee labor.\13\ 
More recent reports found that authorities used tax exemptions 
and subsidies to encourage Chinese garment manufacturers to 
move production to the XUAR.\14\ German scholar Adrian Zenz 
warned that ``[s]oon, many or most products made in China that 
rely at least in part on low-skilled, labor-intensive 
manufacturing, could contain elements of involuntary ethnic 
minority labor from Xinjiang.'' \15\ [For more information on 
forced labor in the XUAR and elsewhere in China, see Section 
II--Human Trafficking.]
    Products reportedly produced with forced labor by current 
and former camp detainees included:

        <bullet> textiles, such as yarn, clothing, gloves, 
        bedding, and carpet; \16\
        <bullet> electronics, including cell phones and 
        computer hardware and software; \17\
        <bullet> food products, including noodles and cakes; 
        \18\
        <bullet> shoes; \19\
        <bullet> tea; \20\ and
        <bullet> handicrafts.\21\

    Companies that used forced labor in the XUAR this past year 
included:

        <bullet> Hetian Taida Apparel,\22\ a supplier of the 
        U.S. company Badger Sportswear; \23\
        <bullet> Yili Zhou Wan Garment Manufacturing Company; 
        \24\
        <bullet> Zhihui Haipai Internet of Things Technology 
        Company; \25\
        <bullet> Urumqi Shengshi Hua'er Culture Technology 
        Limited Company; \26\
        <bullet> Litai Textiles; \27\
        <bullet> Huafu Fashion Company, whose yarn reportedly 
        entered the supply chains for H&M, Esprit, and Adidas; 
        \28\
        <bullet> Esquel Group, headquartered in Hong Kong, 
        which reportedly supplied clothing to Calvin Klein, 
        Tommy Hilfiger, Nike, and Patagonia; \29\ and
        <bullet> Cofco Tunhe Company, which supplied tomato 
        paste to Kraft Heinz and Campbell Soup, and sugar to 
        Coca-Cola.\30\

------------------------------------------------------------------------
       Clothing Made With Forced Labor Imported Into United States
-------------------------------------------------------------------------
  In January 2019, U.S. company Badger Sportswear \31\ (Badger) stopped
 importing clothing from Hetian Taida Apparel (Hetian Taida), following
 media reports that the clothing was made with forced labor by
 internment camp detainees.\32\ The Associated Press (AP) tracked
 shipments from Hetian Taida workshops located within an internment camp
 to Badger, and the U.S.-based Worker Rights Consortium independently
 confirmed that the Hetian Taida factory supplying Badger was located
 inside a camp.\33\ The chairman of Hetian Taida confirmed to the AP
 that his workforce included ``trainees'' from the camp.\34\ Badger said
 it relied on the U.S.-based social compliance nonprofit Worldwide
 Responsible Accredited Production (WRAP) to certify that its suppliers
 met certain standards.\35\ Following media reports, WRAP conducted its
 own investigation, concluding that ``this facility is not engaged in
 the use of forced labor.'' \36\ WRAP later admitted to the AP, however,
 that it had not visited the facility in question, but rather a separate
 Hetian Taida workshop located elsewhere.\37\
------------------------------------------------------------------------

                     SURVEILLANCE STATE IN THE XUAR

    Outside the network of extrajudicial internment camps, 
ethnic minority groups in the XUAR faced near-constant 
government surveillance in their daily lives,\38\ in violation 
of the internationally recognized right to privacy.\39\ 
Numerous companies--both Chinese and international--have 
facilitated what Human Rights Watch describes as ``Orwellian 
surveillance'' in the XUAR.\40\

        <bullet> In October 2018, the video surveillance 
        research firm IPVM provided evidence that the video 
        surveillance company Hangzhou Hikvision Digital 
        Technology was directly involved in the construction, 
        operation, and ongoing maintenance of the Integrated 
        Joint Operations Platform (IJOP) in the XUAR.\41\ Human 
        Rights Watch has described the IJOP as a ``predictive 
        policing'' system that aggregates and analyzes large 
        amounts of individuals' data, flagging ``those it deems 
        potentially threatening.'' \42\ In addition to tracking 
        them, authorities may arbitrarily detain individuals 
        flagged by the IJOP in the internment camps or other 
        detention facilities.\43\ Hikvision also reportedly 
        contracted with local XUAR authorities to build 
        surveillance systems to install in mosques in some 
        localities in the XUAR as part of a public-private 
        partnership.\44\
        <bullet> Despite Hikvision's involvement in both the 
        XUAR's network of extrajudicial camps and the IJOP, 
        foreign suppliers such as Intel, Ambarella, and Nvidia 
        reportedly sold computer processing chips and graphics 
        chips to Hikvision, and the U.S. data storage company 
        Seagate provided the company with ``custom storage 
        solutions'' for its surveillance systems, according to 
        a November 2018 Financial Times report.\45\ Foreign 
        Policy further reported in March 2019 that the U.S.-
        based company Amax, which provides advanced computing 
        technology, had formed a partnership with 
        Hikvision.\46\ Hikvision is listed on the Shenzhen 
        stock exchange and is 41.88 percent owned by two 
        subsidiaries of the Chinese state-owned enterprise 
        China Electronics Technology Corporation (CETC).\47\ 
        CETC is also involved in managing government 
        surveillance systems in the XUAR, including the 
        IJOP.\48\
        <bullet> Hikvision was one of the Chinese companies 
        that index provider MSCI included in its emerging 
        markets index, which means that funds investing in the 
        index are investing in Hikvision.\49\ MSCI announced 
        plans in February 2019 to quadruple the weight of 
        mainland Chinese shares in the index.\50\ According to 
        a March 2019 Financial Times article, the California 
        State Teachers' Retirement System and the New York 
        State Teachers' Retirement System both owned stock in 
        Hikvision.\51\ In addition, U.S. public relations firms 
        Burson-Marsteller \52\ and Mercury Public Affairs are 
        registered with the U.S. Department of Justice as 
        foreign agents working on behalf of Hikvision in the 
        U.S.\53\
        <bullet> In February 2019, a cybersecurity researcher 
        discovered that the Chinese firm SenseNets had left a 
        database tracking over 2.5 million people in the XUAR 
        exposed online.\54\ The database tracked individuals' 
        GPS coordinates--seemingly in real time--and also 
        contained government identification numbers, dates of 
        birth, photos, home addresses, and employers.\55\ 
        According to experts, the information in this database 
        suggested that authorities in the XUAR were working 
        with SenseNets to monitor residents.\56\
        <bullet> Bloomberg and the Financial Times reported 
        that SenseTime had set up a ``smart policing'' joint 
        venture in the XUAR with Urumqi-based Leon Technology 
        (Leon) called Xinjiang SenseTime Leon Technology.\57\ 
        According to Leon's website and the company's page on a 
        job-listing website, among Leon's main customers were 
        XUAR government agencies, including the XUAR public 
        security bureau.\58\ In March 2019, SenseTime sold its 
        stake in the joint venture with Leon, possibly to avoid 
        negative publicity in preparation for its planned 
        initial public offering (IPO).\59\ According to 
        Bloomberg, with investors such as Qualcomm, Fidelity 
        International, and Alibaba, SenseTime was ``the world's 
        most valuable AI startup.'' \60\ A May 2019 BuzzFeed 
        News investigation found that private equity firms IDG 
        Capital and Silver Lake both owned shares in 
        SenseTime.\61\ Those firms' clients reportedly included 
        14 public pension funds.\62\
        <bullet> Reports emerged this past year that XUAR 
        authorities purchased a video management system from 
        Infinova, a U.S.-based company that is listed on the 
        Shenzhen stock exchange, for use in urban surveillance 
        systems in the XUAR.\63\ According to IPVM, XUAR 
        authorities have purchased the company's surveillance 
        technology in the past.\64\
        <bullet> In April 2019, the Wall Street Journal 
        reported that U.S. firms, including Boeing and Carlyle 
        Group, had ``indirectly facilitated'' the Chinese 
        government's use of American-made satellites to aid in 
        communications during protests and strife in the XUAR 
        in 2009.\65\ The Hong Kong-based intermediary that sold 
        the satellite bandwidth to Chinese authorities, 
        AsiaSat, ``declined to comment directly'' when asked if 
        police in the XUAR continued to use the satellites.\66\

            OTHER COMMERCIAL CONNECTIONS TO XUAR AUTHORITIES

    The Commission observed additional instances of connections 
between companies and XUAR authorities that raised human rights 
concerns. For example, the U.S.-based firm Thermo Fisher 
Scientific sold DNA analysis equipment to XUAR authorities 
until February 2019, ending sales following criticism from 
Human Rights Watch (HRW) and members of the U.S. Congress.\67\ 
According to the New York Times, procurement documents showed 
that Chinese authorities intended for some of Thermo Fisher's 
equipment to be used by XUAR police.\68\ A 2017 HRW article 
highlighted Thermo Fisher's sales of DNA sequencers to XUAR 
police, with HRW's China Director calling the mass, involuntary 
collection of DNA from Uyghurs in the region ``a gross 
violation of international human rights norms.'' \69\ In 
addition, in January 2019, the Hong Kong-based security 
services company Frontier Services Group (FSG) announced on its 
website that it had signed an agreement with local XUAR 
officials to build a training facility in Kashgar prefecture, 
XUAR.\70\ The announcement, since removed, noted that the 
agreement was part of a ``strategic cooperation framework 
agreement'' (zhanlue xiezuo kuangjia xieyi) between the state-
owned company CITIC Group, which owns controlling shares in 
FSG, and the Xinjiang Production and Construction Corps, a Han-
Chinese led paramilitary institution that operates across the 
XUAR.\71\ FSG's American co-founder, Erik Prince, who remains a 
minority shareholder and deputy chairman of the board, claimed 
``no knowledge'' of the company's plans to build a training 
center in the XUAR.\72\

 Commercial Firms' Role in Government Data Collection and Surveillance 
                              Across China


                       EVOLVING REGULATORY REGIME

    Chinese law allows the government to collect personal data 
from companies without adequate protections for the 
internationally recognized right to privacy.\73\ For example, 
the PRC Cybersecurity Law requires companies to store user data 
inside mainland China \74\ and to provide technical support to 
authorities conducting criminal investigations or ``protecting 
state security,'' \75\ without specifying what such technical 
support entails.\76\ The PRC National Intelligence Law 
similarly requires entities operating in China--including 
companies--to provide support and assistance to authorities 
engaged in ``intelligence work'' without defining what the 
government considers ``intelligence work.'' \77\
    In September 2018, the Ministry of Public Security issued 
implementing provisions that further detailed the government's 
authority under the Cybersecurity Law.\78\ The new provisions 
allow police to inspect data centers, internet service 
providers, and others, providing for both on-site and remote 
inspections and allowing police to copy ``relevant 
information'' from the companies they inspect.\79\ Experts note 
that companies typically must comply with government demands to 
provide information.\80\ Chapter 4 of the implementing 
regulations stipulates potential criminal penalties for failure 
to comply.\81\
    In the wake of rising domestic concerns over data 
collection and misuse, the government has already begun to 
revise recent regulations governing consumer data 
collection.\82\ Observers noted that while the government has 
punished companies over the collection of consumer data in some 
instances, the government has simultaneously expanded its own 
data collection powers--in some cases leading to conflicting 
guidance for businesses over whether and when to retain user 
data.\83\

                          SOCIAL CREDIT SYSTEM

    The Chinese government continued to work with Chinese 
companies to develop and implement a social credit system that 
aimed to aggregate and monitor the data that the government and 
companies collect. Legal scholars and observers warned that the 
system could increase the government's capacity for social 
control and potentially violate the internationally recognized 
rights to privacy, due process, and freedom of expression.\84\ 
In 2014, the State Council released an outline for the creation 
of a national social credit system by 2020 to measure and 
improve the credibility of government agencies, organizations, 
and individuals.\85\ All Chinese individuals and organizations 
must now have a unique social credit code, including 
multinational companies operating in China.\86\ Private 
companies such as Ant Financial also offer private credit 
scoring services that collect large amounts of customer 
data.\87\ While these services are separate from the government 
system, the government has the authority to access the 
companies' data.\88\ In the case of Ant Financial's Sesame 
Credit, the company is reportedly providing information 
directly to the entity that oversees the government's social 
credit system.\89\

              CONTINUED EXPANSION OF SURVEILLANCE NETWORKS

    Chinese security authorities continued to work with 
domestic companies to expand the reach and analytical power of 
government surveillance systems. In February 2019, the Chinese 
Communist Party Central Committee called for the expansion of 
the rural surveillance system dubbed ``Sharp Eyes.'' \90\ 
According to the Nikkei Asian Review, numerous Chinese firms 
have supplied equipment and services to the government for the 
Sharp Eyes project, including Hikvision, ZTE, iFlytek, Inspur, 
Huawei Technologies, and Alibaba Group Holding.\91\ In addition 
to the Sharp Eyes surveillance project, Chinese technology 
firms SenseTime, Megvii, and Tiandy all reportedly sold 
technology to Chinese authorities for use in other surveillance 
systems.\92\ For example, SenseTime sold artificial 
intelligence (AI) technology to police in China in the form of 
SenseTotem and SenseFace surveillance systems.\93\ In April 
2019, the New York Times revealed that police departments in at 
least 16 provinces and regions were using AI to track the 
movement of Uyghurs, an ethnic minority group.\94\ Chinese 
companies CloudWalk, Megvii, Yitu, and SenseTime assisted 
authorities in this surveillance.\95\ The head of China equity 
strategy for Credit Suisse noted that for many Chinese AI 
firms, their ``biggest business'' was government surveillance 
projects.\96\ As one human rights advocate noted, while the 
Chinese government claims these surveillance projects target 
criminals, ``police treat those that exercise basic civil 
liberties like peaceful assembly or freedom of association as 
criminals.'' \97\
    U.S. firms have also assisted in the development of Chinese 
government surveillance systems. According to a November 2018 
Wall Street Journal report, the U.S. chipmaker Nvidia has sold 
chips to SenseTime.\98\ Nvidia has also sold chips to 
Hikvision, one of the Chinese firms that has been integral to 
the construction of government surveillance systems.\99\ The 
U.S. consulting firm McKinsey & Company reportedly assisted 
local governments in China to implement ``smart cities'' 
surveillance systems.\100\ In the words of one expert, these 
``smart cities'' projects are ``about political control.'' 
\101\

           Role of Commercial Firms in Government Censorship

    Chinese government restrictions on freedom of expression 
increased this past year, and companies--particularly tech 
companies--were both targets and enablers of Chinese government 
censorship. The international non-governmental organization 
Freedom House called the Chinese government ``the worst abuser 
of internet freedom in 2018,'' \102\ and Human Rights Watch 
reported that the government continued to censor ``politically 
sensitive information'' online.\103\ The PRC Cybersecurity Law 
requires companies to monitor content their customers create or 
share, censor content that violates laws and regulations, and 
report such content to authorities.\104\ New regulations,\105\ 
censorship campaigns,\106\ and increasing restrictions on the 
use of virtual private networks (VPNs) \107\ this past year 
have further circumscribed online expression. In 2018, 
regulators reportedly shut down over 6,000 websites.\108\ From 
January 3 to 21, 2019, the Cyberspace Administration of China 
shut down 733 websites and 9,382 mobile apps, and deleted over 
7 million pieces of online information.\109\ [For more 
information on censorship in China, see Section II--Freedom of 
Expression.]
    Faced with the possibility of lost revenue and other forms 
of punishment, both domestic and international companies 
engaged in self-censorship. For example, Tencent's WeChat--a 
ubiquitous social media app in China--regularly filters and 
censors content and turns over user information to 
authorities.\110\ In 2018, online news outlet The Intercept 
revealed that Google was developing a censored version of its 
search engine, called ``Project Dragonfly,'' in an attempt to 
re-enter the Chinese market.\111\ Work on the project appeared 
to end in late 2018 following employee protests and media 
attention.\112\ Google's Vice President for Government Affairs 
and Public Policy told the Senate Judiciary Committee in July 
2019 that Google had ``terminated'' Project Dragonfly.\113\
    Not only do companies engage in self-censorship, censorship 
itself can be a lucrative business in China. The online version 
of the Party-run newspaper People's Daily, People.cn, contracts 
with companies such as the news aggregator Jinri Toutiao to 
censor content that contravenes government censorship 
directives.\114\ Revenue from People.cn's censorship services 
reportedly rose 166 percent in 2018.\115\ Another censorship 
service, Rainbow Shield, owned by the company Beyondsoft, 
employs over 4,000 people in multiple cities to review online 
content.\116\ In Chengdu municipality, Sichuan province, 160 
Beyondsoft employees reportedly monitor a single news-
aggregating app for politically sensitive content.\117\ [For 
more information on censorship in China, see Section II--
Freedom of Expression.]


                                                  Business and 
                                                   Human Rights
                                                Business and 
                                                Human Rights
    Notes to Section II--Business and Human Rights

    \1\ Freedom House, ``China,'' in Freedom in the World 2019, 
February 2019; Human Rights Watch, ``China,'' in World Report 2019: 
Events of 2018, 2019, 135-36.
    \2\ Sophie Richardson, Human Rights Watch, ``Thermo Fisher's 
Necessary, but Insufficient, Step in China,'' February 22, 2019.
    \3\ UN Office of the High Commissioner for Human Rights, Guiding 
Principles on Business and Human Rights: Implementing the United 
Nations ``Protect, Respect and Remedy'' Framework, HR/PUB/11/04, June 
16, 2011, principle 13.
    \4\ Rome Statute of the International Criminal Court, adopted by 
the United Nations Diplomatic Conference of Plenipotentiaries on the 
Establishment of an International Criminal Court, A/CONF.183/9, July 
17, 1998, entry into force July 1, 2002, art. 7.
    \5\ Kate Cronin-Furman, ``China Has Chosen Cultural Genocide in 
Xinjiang--For Now,'' Foreign Policy, September 19, 2018; Kate Cronin-
Furman, ``About Me,'' Personal Website of Kate Cronin-Furman, accessed 
April 18, 2019; Uyghur Human Rights Project, ``Universal Children's Day 
2018: China Must Reunite Uyghur Children and Parents. Forcible 
Placement of Children of Living Parents in State-Run Facilities 
Constitutes a Crime against Humanity,'' November 19, 2018; Gene A. 
Bunin, ``Detainees Are Trickling Out of Xinjiang's Camps,'' Foreign 
Policy, January 18, 2019; Michael Caster, ``At Davos, the Message of 
`Globalization 4.0' Must Include a Rebuke of China's Ethnic Cleansing 
in Xinjiang,'' Hong Kong Free Press, January 21, 2019; Global Centre 
for the Responsibility to Protect, ``The Persecution of the Uighurs and 
Potential Crimes against Humanity in China,'' April 2019.
    \6\ See, e.g., Stephanie Nebehay, ``1.5 Million Muslims Could Be 
Detained in China's Xinjiang: Academic,'' Reuters, March 13, 2019; 
Adrian Zenz, ``Xinjiang's Re-Education and Securitization Campaign: 
Evidence from Domestic Security Budgets,'' China Brief, Jamestown 
Foundation, November 5, 2018; Fergus Ryan, Danielle Cave, and Nathan 
Ruser, ``Mapping Xinjiang's `Re-Education' Camps,'' International Cyber 
Policy Centre, Australian Strategic Policy Institute, November 1, 2018; 
Human Rights Watch, ``China,'' in World Report 2019: Events of 2018, 
2019, 142. For information from the previous reporting year, see CECC, 
2018 Annual Report, October 10, 2018, 273-83.
    \7\ Human Rights Watch, ``China,'' in World Report 2019: Events of 
2018, 2019, 142; Amnesty International et al., ``Joint Statement 
Calling for Xinjiang Resolution at the United Nations Human Rights 
Council,'' February 13, 2019.
    \8\ See, e.g., Eva Dou and Chao Deng, ``Western Companies Get 
Tangled in China's Muslim Clampdown,'' Wall Street Journal, May 16, 
2019; Human Rights Watch, ``China's Algorithms of Repression,'' May 1, 
2019.
    \9\ Chris Buckley and Austin Ramzy, ``China's Detention Camps for 
Muslims Turn to Forced Labor,'' New York Times, December 16, 2018; 
Emily Feng, ``Forced Labour Being Used in China's `Re-Education' 
Camps,'' Financial Times, December 15, 2018; Dake Kang, Martha Mendoza, 
and Yanan Wang, ``US Sportswear Traced to Factory in China's Internment 
Camps,'' Associated Press, December 19, 2018.
    \10\ Chris Buckley and Austin Ramzy, ``China's Detention Camps for 
Muslims Turn to Forced Labor,'' New York Times, December 16, 2018; 
Emily Feng, ``Forced Labour Being Used in China's `Re-Education' 
Camps,'' Financial Times, December 15, 2018; Dake Kang, Martha Mendoza, 
and Yanan Wang, ``US Sportswear Traced to Factory in China's Internment 
Camps,'' Associated Press, December 19, 2018.
    \11\ Eva Dou and Chao Deng, ``Western Companies Get Tangled in 
China's Muslim Clampdown,'' Wall Street Journal, May 16, 2019; Adrian 
Zenz, ``Beyond the Camps: Beijing's Grand Scheme of Forced Labor, 
Poverty Alleviation and Social Control in Xinjiang,'' SocArXiv, July 
12, 2019, 1-4; Sophie McNeill et al., ``Cotton On and Target 
Investigate Suppliers after Forced Labour of Uyghurs Exposed in China's 
Xinjiang,'' Australian Broadcasting Corporation, July 16, 2019. For the 
definition of forced labor, see International Labour Organization, ILO 
Convention (No. 29) Concerning Forced or Compulsory Labour, June 28, 
1930, art. 2.1; International Labour Organization, ``Ratifications of 
CO29-Forced Labour Convention, 1930 (No. 29),'' accessed August 28, 
2019. Article 2.1 defines forced or compulsory labor as ``all work or 
service which is exacted from any person under the menace of any 
penalty and for which the said person has not offered himself 
voluntarily.'' China has not ratified this convention.
    \12\ ``Neidi gu Xinjiang Hasakeren yaoqiu xue Hanyu ru Dang'' 
[Inland China employs Kazakhs from Xinjiang, asks them to learn Chinese 
and join the Party], Radio Free Asia, January 22, 2019.
    \13\ Sun Ruizhe, China National Textile and Apparel Council, ``Sun 
Ruizhe fenxiang shi da hangye fazhan redian'' [Sun Ruizhe shares ten 
major industry developments], reprinted in China Cotton Textile 
Association, March 4, 2018; Chris Buckley and Austin Ramzy, ``China's 
Detention Camps for Muslims Turn to Forced Labor,'' New York Times, 
December 16, 2018.
    \14\ Eva Dou and Chao Deng, ``Western Companies Get Tangled in 
China's Muslim Clampdown,'' Wall Street Journal, May 16, 2019; Adrian 
Zenz, ``Beyond the Camps: Beijing's Grand Scheme of Forced Labor, 
Poverty Alleviation and Social Control in Xinjiang,'' SocArXiv, July 
12, 2019, 8-10.
    \15\ Adrian Zenz, ``Beyond the Camps: Beijing's Grand Scheme of 
Forced Labor, Poverty Alleviation and Social Control in Xinjiang,'' 
SocArXiv, July 12, 2019, 2.
    \16\ See, e.g., Eva Dou and Chao Deng, ``Western Companies Get 
Tangled in China's Muslim Clampdown,'' Wall Street Journal, May 16, 
2019; Chris Buckley and Austin Ramzy, ``China's Detention Camps for 
Muslims Turn to Forced Labor,'' New York Times, December 16, 2018; 
Nathan VanderKlippe, `` `I Felt Like a Slave:' Inside China's Complex 
System of Incarceration and Control of Minorities,'' Globe and Mail, 
March 31, 2019.
    \17\ Li Zaili, ``Camps for Uyghurs, `Schools' or Jails? Exclusive 
Report, Photos, and Footage from Bitter Winter,'' Bitter Winter, 
November 12, 2018; Emily Feng, ``Forced Labour Being Used in China's 
`Re-Education' Camps,'' Financial Times, December 15, 2018; ``Neidi gu 
Xinjiang Hasakeren yaoqiu xue Hanyu ru Dang'' [Inland China employs 
Kazakhs from Xinjiang, asks them to learn Chinese and join the Party], 
Radio Free Asia, January 22, 2019.
    \18\ Li Zaili, ``Uyghur Women Forced to Labor in Camp,'' Bitter 
Winter, September 28, 2018; Chris Buckley and Austin Ramzy, ``China's 
Detention Camps for Muslims Turn to Forced Labor,'' New York Times, 
December 16, 2018.
    \19\ Emily Feng, ``Forced Labour Being Used in China's `Re-
Education' Camps,'' Financial Times, December 15, 2018.
    \20\ Ibid.
    \21\ Li Zaili, ``Uyghur Women Forced to Labor in Camp,'' Bitter 
Winter, September 28, 2018.
    \22\ Chris Buckley and Austin Ramzy, ``China's Detention Camps for 
Muslims Turn to Forced Labor,'' New York Times, December 16, 2018.
    \23\ Badger Sportswear is a part of Founder Sport Group which is 
owned by CCMP Capital Advisors LP. ``About Us,'' Badger Sport, accessed 
September 6, 2019; Iris Dorbian, ``CCMP to Buy Uniforms Maker Badger 
Sportswear,'' The PE Hub Network, August 23, 2016.
    \24\ ``Businesses in China's Xinjiang Use Forced Labor Linked to 
Camp System,'' Radio Free Asia, January 1, 2019; Nathan VanderKlippe, 
`` `I Felt Like a Slave:' Inside China's Complex System of 
Incarceration and Control of Minorities,'' Globe and Mail, March 31, 
2019; ``Yili Zhuo Wan Garment Manufacturing Co., Ltd.,'' Alibaba.com, 
accessed April 9, 2019.
    \25\ ``Neidi gu Xinjiang Hasakeren yaoqiu xue Hanyu ru Dang'' 
[Inland China employs Kazakhs from Xinjiang, asks them to learn Chinese 
and join the Party], Radio Free Asia, January 22, 2019.
    \26\ Sophie McNeill et al., ``Cotton On and Target Investigate 
Suppliers after Forced Labour of Uyghurs Exposed in China's Xinjiang,'' 
Australian Broadcasting Corporation, July 16, 2019.
    \27\ Ibid.
    \28\ Eva Dou and Chao Deng, ``Western Companies Get Tangled in 
China's Muslim Clampdown,'' Wall Street Journal, May 16, 2019.
    \29\ Ibid.
    \30\ Ibid.
    \31\ Badger Sportswear is a part of Founder Sport Group which is 
owned by CCMP Capital Advisors LP. ``About Us,'' Badger Sport, accessed 
September 6, 2019; Iris Dorbian, ``CCMP to Buy Uniforms Maker Badger 
Sportswear,'' The PE Hub Network, August 23, 2016.
    \32\ ``Sourcing Update,'' Founder Sport Group (previously Badger 
Sport), accessed April 10, 2019; Martha Mendoza and Yanan Wang, ``US 
Apparel Firm Cuts Off Chinese Factory in Internment Camp,'' Associated 
Press, January 10, 2019.
    \33\ Dake Kang, Martha Mendoza, and Yanan Wang, ``US Sportswear 
Traced to Factory in China's Internment Camps,'' Associated Press, 
December 19, 2018; Martha Mendoza and Yanan Wang, ``US Apparel Firm 
Cuts Off Chinese Factory in Internment Camp,'' Associated Press, 
January 10, 2019.
    \34\ Dake Kang, Martha Mendoza, and Yanan Wang, ``US Sportswear 
Traced to Factory in China's Internment Camps,'' Associated Press, 
December 19, 2018.
    \35\ Chris Buckley and Austin Ramzy, ``China's Detention Camps for 
Muslims Turn to Forced Labor,'' New York Times, December 16, 2018.
    \36\ Arthur Friedman, ``WRAP Says Chinese Factory Accused of Using 
Forced Labor Is Compliant,'' Sourcing Journal, December 24, 2018.
    \37\ Martha Mendoza and Yanan Wang, ``US Apparel Firm Cuts Off 
Chinese Factory in Internment Camp,'' Associated Press, January 10, 
2019.
    \38\ See, e.g., ``An Internment Camp for 10 Million Uyghurs: Meduza 
Visits China's Dystopian Police State,'' Meduza, October 1, 2018; 
Sophie Richardson, Human Rights Watch, ``Thermo Fisher's Necessary, but 
Insufficient, Step in China,'' February 22, 2019.
    \39\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of December 10, 1948, art. 
12; International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of December 16, 
1966, entry into force March 23, 1976, arts. 17; United Nations Treaty 
Collection, Chapter IV, Human Rights, International Covenant on Civil 
and Political Rights, accessed May 29, 2019. China has signed but not 
ratified the ICCPR. See also UN Human Rights Council, Report of the 
Special Rapporteur on the Right to Privacy, Joseph Cannataci, A/HRC/37/
62, October 25, 2018, para. 4; UN General Assembly, Resolution Adopted 
by UN General Assembly on December 18, 2013: 68/167. The Right to 
Privacy in the Digital Age, A/RES/68/167, January 21, 2014.
    \40\ Sophie Richardson, Human Rights Watch, ``Thermo Fisher's 
Necessary, but Insufficient, Step in China,'' February 22, 2019.
    \41\ Charles Rollet, ``Evidence of Hikvision's Involvement with 
Xinjiang IJOP and Re-Education Camps,'' IPVM, October 2, 2018. For a 
discussion of the IJOP in the previous reporting year, see CECC, 2018 
Annual Report, October 10, 2018, 108-09, 278-80.
    \42\ Human Rights Watch, ``China: Big Data Fuels Crackdown in 
Minority Region,'' February 26, 2018. See also Darren Byler, ``Ghost 
World,'' Logic, accessed April 5, 2019.
    \43\ Human Rights Watch, ``China's Algorithms of Repression,'' May 
1, 2019; Darren Byler, ``Ghost World,'' Logic, accessed April 5, 2019; 
Human Rights Watch, ``China: Big Data Fuels Crackdown in Minority 
Region,'' February 26, 2018.
    \44\ Charles Rollet, ``Evidence of Hikvision's Involvement with 
Xinjiang IJOP and Re-Education Camps,'' IPVM, October 2, 2018; Isaac 
Stone Fish, ``Why Are U.S. Companies Working for a Chinese Firm That's 
Implicated in Ethnic Cleansing?,'' editorial, Washington Post, 
September 21, 2018.
    \45\ Emily Feng, ``Chinese Surveillance Group Faces Crippling US 
Ban,'' Financial Times, November 18, 2018.
    \46\ Lindsay Gorman and Matt Schrader, ``U.S. Firms Are Helping 
Build China's Orwellian State,'' Foreign Policy, March 29, 2019.
    \47\ ``Hikvision Global,'' About, Hikvision, accessed April 8, 
2019; Chris Buckley and Paul Mozur, ``How China Uses High-Tech 
Surveillance to Subdue Minorities,'' New York Times, May 22, 2019.
    \48\ Chris Buckley and Paul Mozur, ``How China Uses High-Tech 
Surveillance to Subdue Minorities,'' New York Times, May 22, 2019; 
Human Rights Watch, ``China's Algorithms of Repression,'' May 1, 2019.
    \49\ James Kynge and Demetri Sevastopulo, ``US Pressure Building on 
Investors in China Surveillance Group,'' Financial Times, March 29, 
2019; Rodrigo Campos and Samuel Shen, ``MSCI to Quadruple Weighting of 
China A-Shares in Its Global Benchmarks,'' Reuters, February 28, 2019.
    \50\ James Kynge and Demetri Sevastopulo, ``US Pressure Building on 
Investors in China Surveillance Group,'' Financial Times, March 29, 
2019; Rodrigo Campos and Samuel Shen, ``MSCI to Quadruple Weighting of 
China A-Shares in Its Global Benchmarks,'' Reuters, February 28, 2019.
    \51\ James Kynge and Demetri Sevastopulo, ``US Pressure Building on 
Investors in China Surveillance Group,'' Financial Times, March 29, 
2019.
    \52\ ``WPP Announces the Merger of Burson-Marsteller and Cohn & 
Wolfe,'' WPP, February 27, 2018; ``Our Companies,'' WPP, accessed April 
8, 2019. Although the Foreign Agents Registration Act database on the 
U.S. Department of Justice website uses the name Burson-Marsteller, 
LLC, in February 2018, the firm merged with Cohn & Wolfe to form BCW 
(Burson Cohn & Wolfe), which itself is a subsidiary company of the 
communications services holding company WPP.
    \53\ ``Active Foreign Principals by Country or Location as of 04/
08/2019,'' Active Foreign Principals by Country or Location, Quick 
Search, U.S. Department of Justice, accessed April 8, 2019. See also 
Isaac Stone Fish, ``Why Are U.S. Companies Working for a Chinese Firm 
That's Implicated in Ethnic Cleansing?,'' editorial, Washington Post, 
September 21, 2018.
    \54\ Cate Cadell and Philip Wen, ``China Surveillance Firm Tracking 
Millions in Xinjiang: Researcher,'' Reuters, February 17, 2019; Yanan 
Wang and Dake Kang, ``Exposed Chinese Database Shows Depth of 
Surveillance State,'' Associated Press, February 19, 2019; Caitlin 
Cimpanu, ``Chinese Company Leaves Muslim-Tracking Facial Recognition 
Database Exposed Online,'' ZDNet, February 14, 2019.
    \55\ Cate Cadell and Philip Wen, ``China Surveillance Firm Tracking 
Millions in Xinjiang: Researcher,'' Reuters, February 17, 2019; Yanan 
Wang and Dake Kang, ``Exposed Chinese Database Shows Depth of 
Surveillance State,'' Associated Press, February 19, 2019; Caitlin 
Cimpanu, ``Chinese Company Leaves Muslim-Tracking Facial Recognition 
Database Exposed Online,'' ZDNet, February 14, 2019.
    \56\ Lindsay Gorman and Matt Schrader, ``U.S. Firms Are Helping 
Build China's Orwellian State,'' Foreign Policy, March 29, 2019; 
Caitlin Cimpanu, ``Chinese Company Leaves Muslim-Tracking Facial 
Recognition Database Exposed Online,'' ZDNet, February 14, 2019. The 
Chinese firms NetPosa Technologies and SenseTime set up SenseNets in 
2015, though SenseTime sold its stake in the company in July 2018. Li 
Tao, ``SenseNets: The Facial Recognition Company That Supplies China's 
Skynet Surveillance System,'' South China Morning Post, April 12, 2019. 
For additional reporting on the relationship between SenseTime and 
suppliers Nvidia and Qualcomm, see Ryan Mac, Rosalind Adams, and Megha 
Rajagopalan, ``US Universities and Retirees Are Funding the Technology 
behind China's Surveillance State,'' BuzzFeed News, June 5, 2019.
    \57\ David Ramli and Mark Bergen, ``This Company Is Helping Build 
China's Panopticon. It Won't Stop There,'' Bloomberg, November 19, 
2018; Christian Shepherd, ``China's SenseTime Sells Out of Xinjiang 
Security Joint Venture,'' Financial Times, April 15, 2019; ``Shouye'' 
[Homepage], Li'ang Jishu [Leon Technology], accessed April 16, 2019.
    \58\ ``Li'ang Jishu pai ren canjia de `Xinjiang Weiwu'erzu Zizhiqu 
Tianshan Wang xin jihua xinxihua youxiu guanli rencai peixun ban' 
yuanman jieshu'' [Perfect ending to ``Xinjiang Uyghur Autonomous Region 
Tianshan internet information planning [and] informatization excellent 
managers personnel training class'' that Leon Technology staff 
attended], Li'ang Jishu [Leon Technology], accessed April 16, 2019; 
``Li'ang Jishu Gufen Youxian Gongsi'' [Leon Technology Company 
Limited], Xinjiang Rencai Wang [Xinjiang Human Resources Net], accessed 
April 16, 2019.
    \59\ Christian Shepherd, ``China's SenseTime Sells Out of Xinjiang 
Security Joint Venture,'' Financial Times, April 15, 2019.
    \60\ David Ramli and Mark Bergen, ``This Company Is Helping Build 
China's Panopticon. It Won't Stop There,'' Bloomberg, November 19, 
2018.
    \61\ Ryan Mac, Rosalind Adams, and Megha Rajagopalan, ``US 
Universities and Retirees Are Funding the Technology Behind China's 
Surveillance State,'' BuzzFeed News, May 30, 2019.
    \62\ Ibid.
    \63\ Charles Rollet, ``Infinova's Xinjiang Business Examined,'' 
IPVM, December 7, 2018; Ryan Mac, Rosalind Adams, and Megha 
Rajagopalan, ``US Universities and Retirees Are Funding the Technology 
Behind China's Surveillance State,'' BuzzFeed News, May 30, 2019.
    \64\ Charles Rollet, ``Infinova's Xinjiang Business Examined,'' 
IPVM, December 7, 2018.
    \65\ Brian Spegele and Kate O'Keeffe, ``China Exploits Fleet of 
U.S. Satellites to Strengthen Police and Military Power,'' Wall Street 
Journal, April 23, 2019. For more information on the protests and 
strife in the Xinjiang Uyghur Autonomous Region in 2009, see CECC, 2009 
Annual Report, October 10, 2009, 249-53.
    \66\ Brian Spegele and Kate O'Keeffe, ``China Exploits Fleet of 
U.S. Satellites to Strengthen Police and Military Power,'' Wall Street 
Journal, April 23, 2019.
    \67\ Natasha Khan, ``American Firm, Citing Ethics Code, Won't Sell 
Genetic Sequencers in Xinjiang,'' Wall Street Journal, February 20, 
2019; Sui-Lee Wee, ``China Uses DNA to Track Its People, With the Help 
of American Expertise,'' New York Times, February 21, 2019; Human 
Rights Watch, ``China: Minority Region Collects DNA from Millions,'' 
December 13, 2017.
    \68\ Sui-Lee Wee, ``China Uses DNA to Track Its People, With the 
Help of American Expertise,'' New York Times, February 21, 2019.
    \69\ Human Rights Watch, ``China: Minority Region Collects DNA from 
Millions,'' December 13, 2017.
    \70\ ``Xianfeng Jituan Xinjiang Kashi peixun zhongxin qianyue yishi 
zai Jing juxing'' [Signing ceremony for Frontier Services Group 
Training Center in Kashgar, Xinjiang, held in Beijing], Frontier 
Services Group, January 22, 2019; ``Erik Prince Company to Build 
Training Centre in China's Xinjiang,'' Reuters, January 31, 2019. The 
Commission did not observe reports regarding what kind of training 
facility would be built.
    \71\ ``Xianfeng Jituan Xinjiang Kashi peixun zhongxin qianyue yishi 
zai Jing juxing'' [Signing ceremony for Frontier Services Group 
Training Center in Kashgar, Xinjiang, held in Beijing], Frontier 
Services Group, January 22, 2019; ``Erik Prince Company to Build 
Training Centre in China's Xinjiang,'' Reuters, January 31, 2019. For 
more information on the Xinjiang Production and Construction Corps, see 
Uyghur Human Rights Project, ``The Bingtuan: China's Paramilitary 
Colonizing Force in East Turkestan,'' April 26, 2018.
    \72\ Anna Fifield, ``Blackwater Founder Erik Prince's New Company 
Is Building Training Center in Xinjiang,'' Washington Post, February 1, 
2019.
    \73\ Human Rights Watch, ``China,'' in World Report 2019: Events of 
2018, 2019, 136; Universal Declaration of Human Rights, adopted and 
proclaimed by UN General Assembly resolution 217A (III) of December 10, 
1948, art. 12; International Covenant on Civil and Political Rights 
(ICCPR), adopted by UN General Assembly resolution 2200A (XXI) of 
December 16, 1966, entry into force March 23, 1976, art. 17; United 
Nations Treaty Collection, Chapter IV, Human Rights, International 
Covenant on Civil and Political Rights, accessed May 29, 2019. China 
has signed but not ratified the ICCPR. See also UN Human Rights 
Council, Report of the Special Rapporteur on the Right to Privacy, 
Joseph Cannataci, A/HRC/37/62, Advance Unedited Version, February 28, 
2018, para. 4; UN General Assembly, Resolution Adopted by UN General 
Assembly on December 18, 2013: 68/167. The Right to Privacy in the 
Digital Age, A/RES/68/167, January 21, 2014.
    \74\ Zhonghua Renmin Gongheguo Wangluo Anquan Fa [PRC Cybersecurity 
Law], passed November 7, 2016, effective June 1, 2017, art. 37.
    \75\ For more information on the Chinese government's use of 
``state security'' charges to target rights advocates, see, e.g., 
Bureau of Democracy, Human Rights, and Labor, U.S. Department of State, 
``2018 Human Rights Report: China (Includes Tibet, Hong Kong and 
Macau),'' March 13, 2019; Human Rights Watch, ``China: State Security, 
Terrorism Convictions Double,'' March 16, 2016; CECC, 2017 Annual 
Report, October 5, 2017, 103-4.
    \76\ Zhonghua Renmin Gongheguo Wangluo Anquan Fa [PRC Cybersecurity 
Law], passed November 7, 2016, effective June 1, 2017, art. 28; Donald 
C. Clarke, ``The Zhong Lun Declaration on the Obligations of Huawei and 
Other Chinese Companies under Chinese Law,'' available at Social 
Science Research Network, March 28, 2019, 9-11; Amnesty International, 
``When Profits Threaten Privacy--5 Things You Need to Know about Apple 
in China,'' 27 February 18.
    \77\ Zhonghua Renmin Gongheguo Guojia Qingbao Fa [PRC National 
Intelligence Law], passed June 27, 2017, effective June 28, 2017, arts. 
7, 14; Donald C. Clarke, ``The Zhong Lun Declaration on the Obligations 
of Huawei and Other Chinese Companies under Chinese Law,'' available at 
Social Science Research Network, March 28, 2019, 9-11; Murray Scot 
Tanner, ``Beijing's New National Intelligence Law: From Defense to 
Offense,'' Lawfare (blog), July 20, 2017.
    \78\ Ministry of Public Security, Gong'an Jiguan Hulianwang Anquan 
Jiandu Jiancha Guiding [Provisions on Internet Security Supervision and 
Inspection by Public Security Organizations], issued September 5, 2018, 
effective November 1, 2018.
    \79\ Ministry of Public Security, Gong'an Jiguan Hulianwang Anquan 
Jiandu Jiancha Guiding [Provisions on Internet Security Supervision and 
Inspection by Public Security Organizations], issued September 5, 2018, 
effective November 1, 2018, arts. 9, 15-16. See also Laney Zhang, 
``China: New Regulations on Police Cybersecurity Supervision and 
Inspection Powers Issued,'' Global Legal Monitor (blog), Library of 
Congress, November 13, 2018; ``China's New Cybersecurity Measures Allow 
State Police to Remotely Access Company Systems,'' Insikt Group, 
February 8, 2019.
    \80\ Donald C. Clarke, ``The Zhong Lun Declaration on the 
Obligations of Huawei and Other Chinese Companies under Chinese Law,'' 
available at Social Science Research Network, March 28, 2019, 3-4; 
Claudia Biancotti, Peterson Institute for International Economics, 
``The Growing Popularity of Chinese Social Media Outside China Poses 
New Risks in the West,'' January 11, 2019; Perrin Grauer, ``Beijing's 
Denial of Huawei Control Bucks Expert Analysis,'' Star Vancouver, 
February 18, 2019.
    \81\ Ministry of Public Security, Gong'an Jiguan Hulianwang Anquan 
Jiandu Jiancha Guiding [Provisions on Internet Security Supervision and 
Inspection by Public Security Organizations], issued September 15, 
2018, effective November 1, 2018, chap. 4.
    \82\ Yuan Yang, ``China's Data Privacy Outcry Fuels Case for 
Tighter Rules,'' Financial Times, October 2, 2018; Samm Sacks and 
Lorand Laskai, ``China's Privacy Conundrum,'' Slate, February 7, 2019; 
Samm Sacks et al., ``Public Security Ministry Aligns with Chinese Data 
Protection Regime in Draft Rules,'' DigiChina (blog), New America, 
December 3, 2018.
    \83\ Samm Sacks and Lorand Laskai, ``China's Privacy Conundrum,'' 
Slate, February 7, 2019. See also Claudia Biancotti, Peterson Institute 
for International Economics, ``The Growing Popularity of Chinese Social 
Media Outside China Poses New Risks in the West,'' January 11, 2019.
    \84\ Jeremy Daum, ``Social Credit Overview Podcast,'' China Law 
Translate (blog), October 31, 2018; Adrian Shahbaz, Freedom House, 
Freedom on the Net 2018: The Rise of Digital Authoritarianism, October 
2018; Yu-Jie Chen, Ching-Fu Lin, and Han-Wei Liu, `` `Rule of Trust': 
The Power and Perils of China's Social Credit Megaproject,'' Columbia 
Journal of Asian Law, 32, no. 1 (2018), reprinted in Social Science 
Research Network, December 20, 2019, 3, 32-3.
    \85\ State Council, ``Shehui Xinyong Tixi Jianshe Guihua Gangyao 
(2014-2020 nian)'' [Social Credit System Construction Program Outline 
(2014-2020)], June 14, 2014. For an unofficial English translation, see 
``Planning Outline for the Construction of a Social Credit System 
(2014-2020),'' translated in China Copyright and Media (blog), April 
25, 2015. For more information on the social credit system, see, e.g., 
Jeremy Daum, ``China Through a Glass, Darkly,'' China Law Translate 
(blog), December 24, 2017; Mareike Ohlberg et al., Mercator Institute 
for China Studies, ``Central Planning, Local Experiments: The Complex 
Implementation of China's Social Credit System,'' MERICS China Monitor, 
December 12, 2017; Rogier Creemers, ``China's Social Credit System: An 
Evolving Practice of Control,'' available at Social Science Research 
Network, May 9, 2018.
    \86\ Kirsty Needham, ``China's All-Seeing Social Credit System 
Stops Actresses and Academics,'' Sydney Morning Herald, March 6, 2019; 
Samantha Hoffman, ``Social Credit: Technology-Enhanced Authoritarian 
Control with Global Consequences,'' Australian Strategic Policy 
Institute, June 28, 2018.
    \87\ Yuan Yang, ``Does China's Bet on Big Data for Credit Scoring 
Work?,'' Financial Times, December 20, 2018; Adrian Shahbaz, Freedom 
House, Freedom on the Net 2018: The Rise of Digital Authoritarianism, 
October 2018.
    \88\ Yuan Yang, ``Does China's Bet on Big Data for Credit Scoring 
Work?,'' Financial Times, December 20, 2018; Adrian Shahbaz, Freedom 
House, Freedom on the Net 2018: The Rise of Digital Authoritarianism, 
October 2018.
    \89\ Yuan Yang, ``Does China's Bet on Big Data for Credit Scoring 
Work?,'' Financial Times, December 20, 2018.
    \90\ CCP Central Committee and State Council, Guanyu Jianchi Nongye 
Nongcun Youxian Fazhan Zuo Hao ``San Nong'' Gongzuo de Ruogan Yijian 
[Various Opinions on Supporting and Prioritizing Agriculture and 
Village Development and Effectively Doing ``3 Rurals'' Work], issued 
February 19, 2019, sec. 6(3).
    \91\ Lauly Li, Coco Liu, and Cheng Ting-Fang, ``China's `Sharp 
Eyes' Offer Chance to Take Surveillance Industry Global,'' Nikkei Asian 
Review, June 5, 2019.
    \92\ David Ramli and Mark Bergen, ``This Company Is Helping Build 
China's Panopticon. It Won't Stop There,'' Bloomberg, November 19, 
2018; Blake Schmidt and Venus Feng, ``China's Powerful Surveillance 
State Has Created at Least Four Billionaires,'' Bloomberg, February 21, 
2019.
    \93\ David Ramli and Mark Bergen, ``This Company Is Helping Build 
China's Panopticon. It Won't Stop There,'' Bloomberg, November 19, 
2018.
    \94\ Paul Mozur, ``One Month, 500,000 Face Scans: How China Is 
Using A.I. to Profile a Minority,'' New York Times, April 14, 2019.
    \95\ Ibid.
    \96\ Huileng Tan, ``The Business of Government Surveillance in 
China Could Boost Some Tech Firms: Credit Suisse,'' CNBC, March 26, 
2019.
    \97\ Robyn Dixon, ``China's New Surveillance Program Aims to Cut 
Crime. Some Fear It'll Do Much More,'' Los Angeles Times, October 27, 
2018.
    \98\ Dan Strumpf and Wenxin Fan, ``A Silicon Valley Tech Leader 
Walks a High Wire between the U.S. and China,'' Wall Street Journal, 
November 19, 2018.
    \99\ Dan Strumpf and Wenxin Fan, ``A Silicon Valley Tech Leader 
Walks a High Wire Between the U.S. and China,'' Wall Street Journal, 
November 19, 2018; Iris Deng, ``Here's What You Need to Know about 
Hikvision, the Camera Maker Behind China's Mass Surveillance System,'' 
South China Morning Post, February 7, 2019; Lauly Li, Coco Liu, and 
Cheng Ting-Fang, ``China's `Sharp Eyes' Offer Chance to Take 
Surveillance Industry Global,'' Nikkei Asian Review, June 5, 2019.
    \100\ Walt Bogdanich and Michael Forsythe, ``How McKinsey Has 
Helped Raise the Stature of Authoritarian Governments,'' New York 
Times, December 15, 2018.
    \101\ Ibid.
    \102\ Adrian Shahbaz, Freedom House, Freedom on the Net 2018: The 
Rise of Digital Authoritarianism, October 2018, 1.
    \103\ Human Rights Watch, ``China,'' in World Report 2019: Events 
of 2018, 2019, 138-39.
    \104\ Zhonghua Renmin Gongheguo Wangluo Anquan Fa [PRC 
Cybersecurity Law], passed November 7, 2016, effective June 1, 2017, 
art. 47. See also Amnesty International, China 2017/2018, accessed 
April 26, 2019.
    \105\ Freedom House, ``China Media Bulletin: 2018 Key Trends, 
Beijing's Global Influence, Tech Firm Backlash (No. 131),'' December 
13, 2018. For recent regulations restricting freedom of speech online, 
see, e.g., Cyberspace Administration of China and Ministry of Public 
Security, Juyou Yulun Shuxing Huo Shehui Dongyuan Nengli De Hulianwang 
Xinxi Fuwu Anquan Pinggu Guiding [Provisions for the Security 
Assessment of Internet Information Services Having Public Opinion 
Attributes or Social Mobilization Capacity], issued November 15, 2018, 
effective November 30, 2018.
    \106\ Phoebe Zhang, ``China's Cyber Police Take Aim at `Negative 
Information' in New Internet Crackdown,'' South China Morning Post, 
January 4, 2019; ``China Deletes 7 Million Pieces of Online 
Information, Thousands of Apps,'' Reuters, January 23, 2019.
    \107\ Josh Horwitz, ``China Steps Up VPN Blocks Ahead of Major 
Trade, Internet Shows,'' Reuters, October 30, 2018; James Griffiths, 
``China Is Exporting the Great Firewall as Internet Freedom Declines 
around the World,'' CNN, November 2, 2018; Yuan Yang, ``China Turns Up 
Heat on Individual Users of Foreign Websites,'' Financial Times, 
January 7, 2019.
    \108\ Li Yuan, ``No Earrings, Tattoos or Cleavage: Inside China's 
War on Fun,'' New York Times, March 27, 2019.
    \109\ Shi Jingnan and Bai Ying, ``Wangluo shengtai zhili zhuanxiang 
xingdong yi qingli youhai xinxi 709.7 wan yu tiao'' [Internet ecology 
governance special action already cleaned up 70.97 million pieces of 
information], Xinhua, January 23, 2019.
    \110\ ``Censored on WeChat: A Year of Content Removals on China's 
Most Powerful Social Media Platform,'' Wechatscope, University of Hong 
Kong, reprinted in Global Voices, February 11, 2019; Sarah Cook, 
``Worried About Huawei? Take a Closer Look at Tencent,'' The Diplomat, 
March 26, 2019.
    \111\ Ryan Gallagher and Lee Fang, ``Google Suppresses Memo 
Revealing Plans to Closely Track Search Users in China,'' The 
Intercept, September 21, 2018. The Chinese government banned Google in 
2010 after the company refused to continue censoring search results. 
See, e.g., Kaveh Waddell, ``Why Google Quit China--and Why It's Heading 
Back,'' Atlantic, January 19, 2016.
    \112\ Ryan Gallagher, ``Google's Secret China Project `Effectively 
Ended' After Internal Confrontation,'' The Intercept, December 17, 
2018; Ryan Gallagher, ``Google Employees Uncover Ongoing Work on 
Censored China Search,'' The Intercept, March 4, 2019.
    \113\ Google and Censorship Through Search Engines, Hearing of the 
Subcommittee on the Constitution, Committee on the Judiciary, U.S. 
Senate, 116th Cong. (2019) (testimony of Karan Bhatia, Vice President 
for Government Affairs and Public Policy, Google, Inc.). Note that 
discussion of Project Dragonfly can be found at 1:14:38 in the hearing 
video on the Judiciary Committee's website.
    \114\ Lusha Zhang and Ryan Woo, ``Censorship Pays: China's State 
Newspaper Expands Lucrative Online Scrubbing Business,'' Reuters, March 
28, 2019.
    \115\ Ibid.
    \116\ Li Yuan, ``Learning China's Forbidden History, So They Can 
Censor It,'' New York Times, January 2, 2019.
    \117\ Ibid.


                                                  Civil Society
                                                Civil Society

                  III. Development of the Rule of Law


                             Civil Society


                                Findings

        <bullet> In the past few years, the Chinese government 
        has harshly repressed human rights lawyers, women's 
        rights advocates, labor rights defenders, citizen 
        journalists, and petitioners. Some previously tolerated 
        ``gray areas'' of civil society experienced what 
        experts describe as a ``chilling effect.'' In 
        conjunction with the continued implementation of 
        legislative and regulatory reforms passed in 2016 and 
        the increased role and purview of the Chinese Communist 
        Party over all aspects of Chinese society, the space 
        which non-governmental organizations (NGOs) had to 
        carry out human rights advocacy activities continued to 
        shrink.
        <bullet> The Chinese government's efforts to promote 
        its vision for ``human rights with Chinese 
        characteristics'' at the November 2018 session of the 
        UN Human Rights Council's (UNHRC) Universal Periodic 
        Review undermined principles in the international human 
        rights framework. A September 2018 Brookings 
        Institution report examining China's activities at the 
        UNHRC from 2016 to 2018 concluded that the Chinese 
        government opposed international standards of 
        legitimate civil society activity and association and 
        is in favor of limiting the power and freedom of civil 
        society organizations. As Chinese government influence 
        in international organizations continues to grow, 
        support from democratic states is critical to upholding 
        civil society's role as independent human rights and 
        rule of law watchdogs.
        <bullet> Chinese government efforts to suppress labor 
        advocacy and to label such efforts as driven by foreign 
        interests make it increasingly difficult for workers in 
        China to organize grassroots efforts and advocate for 
        their rights. Chinese authorities carried out a large-
        scale nationwide crackdown on labor rights advocates 
        that began in July 2018 when workers at a Jasic 
        Technology factory in Shenzhen municipality, Guangdong 
        province, attempted to organize a labor union and 
        received widespread national support from university 
        students and internet users. Authorities portrayed the 
        labor protests as orchestrated by a ``foreign-funded'' 
        NGO, and detained, forcibly disappeared, harassed, and 
        physically assaulted labor advocates and their 
        supporters.
        <bullet> In the fall of 2018, Chinese authorities 
        carried out a broad crackdown on unregistered 
        Protestant churches (``house churches''), including 
        Zion Church (banned in September 2018) and Shouwang 
        Church (banned in March 2019) in Beijing municipality; 
        Rongguili Church in Guangzhou municipality, Guangdong 
        province (banned in December 2018); and Early Rain 
        Covenant Church in Chengdu municipality, Sichuan 
        province (banned in December 2018). The government's 
        efforts to ban major unregistered churches this past 
        year is part of the intensification of national policy 
        against religious groups throughout China.
        <bullet> In the face of pressure and censorship from 
        the government against the growing #MeToo movement in 
        China, women's rights advocates continued to carry out 
        their advocacy on social media, negotiate with 
        officials, and offer support to survivors of sexual 
        harassment. Women's rights advocates use online 
        networks and forums to organize advocacy, offer 
        support, and create a network among supporters. Despite 
        the government's efforts to shut down social media 
        platforms of gender-based advocacy, advocates continue 
        to establish new networks and seek ways to offer 
        support to those who need it.
        <bullet> In addition to implementing the PRC Law on the 
        Management of Overseas Non-Governmental Organizations' 
        Activities in Mainland China, the Chinese government 
        highlighted overseas NGOs that threatened China's 
        ``political security'' and urged citizens to report 
        violations of the law. The Chinese government has 
        intensified efforts to root out illegal overseas NGOs 
        by using the internet and mobilizing Chinese citizens. 
        The lack of a definition for what is considered 
        threatening to China's ``political security'' gives the 
        Chinese government unlimited latitude to crack down on 
        organizations working on human rights and rule of law 
        advocacy.
        <bullet> Chinese central- and provincial-level 
        authorities continued to implement the national 
        campaign launched in 2018 to clamp down on domestic 
        ``illegal social organizations'' that do not possess 
        proper government registration or that perform 
        activities outside the scope of those for which they 
        have registered, targeting those that ``threaten state 
        security and social stability.'' In September 2018, the 
        Ministry of Civil Affairs released an action plan to 
        monitor the online activities of groups and mobilize 
        public reporting of illegal activities online in order 
        to crack down on illegal organizations. Internet 
        surveillance and the use of big data, combined with 
        citizen reporting, narrows the space of operation for 
        organizations that have not obtained official approval, 
        including those focused on human rights advocacy in 
        China.
        <bullet> The Chinese government continued to suppress 
        the rights of lesbian, gay, bisexual, transgender, and 
        questioning (LGBTQ) individuals in China. LGBTQ 
        individuals faced a multitude of challenges, including 
        a lack of legal protections. The Chinese government 
        cracked down on organizations and rights defenders 
        active on LGBTQ issues. Nevertheless, LGBTQ advocates 
        supported online campaigns highlighting workplace 
        discrimination and sexual harassment, and censorship. 
        The Chinese government has not followed multiple 
        recommendations from UN bodies regarding LGBTQ 
        protections.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Urge the Chinese government to revise or repeal the 
        PRC Law on the Management of Overseas NGOs' Activities 
        in Mainland China and revise the PRC Charity Law to 
        reflect the principles of the International Covenant on 
        Civil and Political Rights, especially with regard to 
        the rights to freedom of association, assembly, and 
        expression.
          Urge the Chinese government to refrain from using 
        legal provisions or government policy to crack down on 
        civil society advocates and organizations working on 
        human rights.
          Call on the Chinese government to cease harassment 
        and arbitrary detention of civil society advocates and 
        NGOs and provide adequate procedural due process to 
        those individuals subject to criminal investigation and 
        trial.
          Call on the Chinese government to stop censoring and 
        shutting down social media accounts and internet-based 
        platforms of civil society organizations working on 
        rights advocacy.
          Oppose efforts by the Chinese government at the UN 
        Human Rights Council to undermine universal human 
        rights standards and urge Chinese officials to adopt 
        policies that encourage civil society organizations in 
        China to uphold universal norms and become independent 
        from the government.
          Integrate civil society issues into bilateral 
        discussions and agreements with Chinese officials to 
        promote reciprocity in the approach and implementation 
        of civil society exchanges between the United States 
        and China.
          Continue to fund, monitor, and evaluate foreign 
        assistance programs in China that support democracy 
        promotion, rule of law, and human rights advocacy.
          Take measures to facilitate the participation of 
        Chinese civil society advocates in relevant 
        international conferences and forums and support 
        international training to build their leadership 
        capacity in non-profit management, public policy 
        advocacy, and media relations.


                                                  Civil Society
                                                Civil Society

                             Civil Society


                              Introduction

    Since Chinese President and Communist Party General 
Secretary Xi Jinping came into power in late 2012, the space 
for civil society in China has become more regulated and 
restricted.\1\ Under Xi's rule, moreover, the crackdown on 
civil society has intensified over the past few years as the 
government targeted different sectors of civil society that 
advocate for human rights and the rule of law.\2\ In the past 
few years, the Chinese government has harshly repressed human 
rights lawyers, women's rights advocates, labor rights 
defenders, citizen journalists, and petitioners for peacefully 
exercising their rights.\3\ Some previously tolerated ``gray 
areas'' of civil society experienced what experts describe as a 
``chilling effect.'' \4\ In conjunction with the continued 
implementation of legislative and regulatory reforms passed in 
2016 \5\ and the increased role and purview of the Party over 
all aspects of Chinese society,\6\ the space in which non-
governmental organizations (NGOs) had to carry out human rights 
advocacy activities continued to shrink.\7\
    The number of Chinese NGOs is difficult to determine, in 
part because of the complex regulatory framework, the existence 
of unregistered NGOs and informal associations, the pace of 
growth of the non-governmental and non-profit sector, and the 
range of different types of such organizations.\8\ According to 
the Ministry of Civil Affairs, at the end of 2018, China had 
816,027 registered ``social organizations'' (shehui zuzhi)--the 
official term for NGOs \9\--that consisted of 443,000 non-
governmental, non-commercial organizations (minban feiqiye 
danwei), also called social service organizations (shehui fuwu 
jigou); 7,027 foundations (jijinhui); and 366,000 social 
associations (shehui tuanti).\10\ Many social associations, 
however, are government-organized non-governmental 
organizations (GONGOs) and therefore have close ties to the 
government.\11\ Many NGOs, with few or no ties to the 
government, remain unregistered or are registered as business 
entities due to restrictions and barriers to registration 
imposed by the government.\12\

                       Universal Periodic Review

    At the November 2018 session of the UN Human Rights 
Council's (UNHRC) Universal Periodic Review (UPR) of the 
Chinese government's human rights record, the Chinese 
government continued to promote its vision for ``human rights 
with Chinese characteristics.'' \13\ A September 2018 Brookings 
Institution report outlined China's activities at the UNHRC 
from 2016 to 2018 and concluded that the Chinese government 
opposed international definitions of civil society and is in 
favor of limiting the power and freedom of civil society 
organizations.\14\ The Brookings report urged support from 
democratic states to ``protect [Chinese] civil society's vital 
role as independent watchdogs for upholding universal norms.'' 
\15\ During the 2018 UPR, Estonia recommended that China enable 
civil society to ``freely engage with international human 
rights mechanisms without fear of intimidation and reprisals,'' 
while Greece recommended that China ``ensure a safe environment 
for journalists and other civil society actors to carry out 
their work.'' \16\ In January 2019, 40 international NGOs sent 
a joint appeal urging the UNHRC to issue a resolution 
addressing human rights violations in China, particularly in 
light of the large-scale arbitrary detention of Uyghurs and 
other predominantly Muslim ethnic groups in the Xinjiang Uyghur 
Autonomous Region.\17\ [For more information on the mass 
detention of Uyghurs and other Turkic Muslims, see Section IV--
Xinjiang.]

                Government Suppression of Civil Society

    This past year, government authorities continued to 
suppress Chinese human rights advocates and unregistered 
organizations.\18\ These instances included the following:

        <bullet> Labor rights advocates: Beginning in July 
        2018, Chinese authorities carried out a large-scale 
        nationwide crackdown on labor advocates after workers 
        at a Jasic Technology factory in Shenzhen municipality, 
        Guangdong province, began protests and attempted to 
        organize a labor union.\19\ After the workers at Jasic 
        received support from Chinese university students and 
        internet users,\20\ Chinese state-run media outlet 
        Xinhua portrayed the labor protests as orchestrated by 
        a ``foreign funded'' NGO.\21\ By February 2019, 
        authorities had detained or forcibly disappeared over 
        50 people, including workers, labor advocates, 
        Marxists, students, and graduates from different 
        universities.\22\ In addition to detaining, 
        prosecuting, harassing, and physically assaulting 
        members of the student-led Jasic Workers' Solidarity 
        Group, formed in support of the Jasic workers, Chinese 
        authorities also prevented the group from meeting 
        together.\23\ [For more information on worker rights in 
        China, see Section II--Worker Rights.]
        <bullet> Unregistered Christian churches: Chinese 
        authorities carried out a broad crackdown on 
        unregistered Protestant churches (``house churches''), 
        as part of an intensification of government pressure on 
        religious groups that previously had gathered without 
        much government interference,\24\ including Zion Church 
        (banned in September 2018) and Shouwang Church (banned 
        in March 2019) in Beijing municipality; \25\ Rongguili 
        Church in Guangzhou municipality, Guangdong province 
        (banned in December 2018); \26\ and Early Rain Covenant 
        Church in Chengdu municipality, Sichuan province 
        (banned in December 2018).\27\ Beginning on December 9, 
        2018, public security officials in Chengdu took into 
        custody or detained over 100 leaders and members of the 
        Early Rain Covenant Church--including its pastor Wang 
        Yi and his wife Jiang Rong on the charge of ``inciting 
        subversion of state power.'' \28\ [For more information 
        on religious persecution in China, see Section II--
        Freedom of Religion.]

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
  Registration for Religious Groups: The Chinese government requires
 religious groups to register based on provisions in the Regulations on
 Religious Affairs (RRA).\29\ Under President Xi Jinping, Chinese
 authorities have intensified efforts to force house churches to obtain
 official registration.\30\ Citing the RRA, Chinese authorities required
 house churches across China to submit registration forms and to provide
 personal information on church members.\31\ In January 2019, the State
 Administration for Religious Affairs and the Ministry of Civil Affairs
 issued a joint notice on the registration of religious venues that
 specifies requirements for religious groups seeking authorization to
 receive donations to not only obtain approval by the local government
 religious affairs bureau before applying for official registration with
 the local government civil affairs bureau, but also to provide
 information on finances from an authorized accounting firm as well as
 the social credit numbers of group leaders.\32\ [For more information
 on the social credit system, see Section II--Business and Human
 Rights.]
------------------------------------------------------------------------

        <bullet> Women's rights advocacy: Despite pressure and 
        censorship from the government against the growing 
        #MeToo movement in China, women's rights advocates 
        continued to ``use social media, negotiate with the 
        authorities, and offer support to survivors [of sexual 
        harassment].'' \33\ In December 2018, the Guangzhou 
        Gender and Sexuality Education Center closed after some 
        staff reportedly received threats from Chinese 
        authorities.\34\ A January 2019 Foreign Policy report 
        highlighted that NGOs were the first in responding to 
        the needs of victims of sexual harassment since the 
        #MeToo movement emerged in 2018, particularly in 
        adopting comprehensive anti-sexual harassment measures 
        and fielding sexual harassment-related inquiries.\35\ 
        For example, a grassroots network consisting of 
        hundreds of volunteers that connects victims to 
        activists, lawyers, and psychologists is reportedly 
        underway.\36\ [For more information on gender-based 
        advocacy in China, see Section II--Status of Women.]

                   Foreign NGOs' Activities in China

    This past year, the government continued to carry out the 
PRC Law on the Management of Overseas Non-Governmental 
Organizations' Activities in Mainland China (Overseas NGOs' 
Activities Law) which took effect in January 2017.\37\ By 
August 2019, 496 international NGOs (INGOs) had successfully 
registered representative offices and INGOs had filed 2,065 
temporary activity permits in China, according to official data 
posted to the Ministry of Public Security's Overseas Non-
Governmental Organizations Services Platform.\38\ In 2018, the 
number of representative offices registered per month by INGOs 
began to decline and level off at fewer than ten per month.\39\ 
In contrast, the number of temporary activities filed by INGOs 
increased in the second half of 2018, peaking in November 2018 
with 124, and dropped to 34 in February 2019 before leveling 
off to around 65 per month beginning in May 2019.\40\ Asia 
Society's China NGO Project surmised that the increase in 
temporary activity filings in 2018 can be attributed to the 
greater overall familiarity of government officials, groups, 
and local Chinese partner units with the filing process.\41\ 
INGOs with representative offices work most commonly in the 
sectors of trade, international relations, education, youth, 
health, and poverty alleviation; with the exception of trade, 
INGOs with temporary activities work predominantly in the same 
sectors.\42\
    In addition to implementing the Overseas NGOs' Activities 
Law, the government and Party singled out overseas NGOs that 
allegedly threatened China's ``political security'' and urged 
citizens to report violations of the Overseas NGOs' Activities 
Law. The People's Daily, a Party-run media outlet, detailed in 
an April 2019 article how two foreign NGOs--Chinese Urgent 
Action Working Group (CUAWG), run by formerly detained Swedish 
citizen Peter Dahlin, and South Korean missionary group 
InterCP--``endangered political security'' in China.\43\ The 
article accused CUAWG of accepting large sums of money from 
foreign organizations and called the staff of CUAWG 
``informants planted in China by Western anti-China forces.'' 
\44\ In March 2019, the Guangzhou Municipal Bureau of Ethnic 
and Religious Affairs in Guangdong issued an official measure 
to encourage citizens to report illegal religious activity, 
offering cash rewards of 3,000 to 10,000 yuan (US$436 to 
US$1,455) to Chinese citizens who provide assistance in 
reporting or tracking down illegal overseas religious 
organizations and staff.\45\ In another instance, in January 
2019, the Public Security Bureau in Qidong city, Nantong 
municipality, Jiangsu province, published a WeChat post, which 
was reposted by the Ministry of Public Security, instructing 
citizens on how to recognize and report illegal foreign NGO 
activities to public security authorities.\46\

------------------------------------------------------------------------
     Arbitrary Detention of Canadian Citizen Michael Kovrig in China
-------------------------------------------------------------------------
On December 10, 2018, authorities from the Ministry of State Security in
 Beijing municipality detained Canadian citizen and employee of the non-
 governmental organization International Crisis Group (ICG) Michael
 Kovrig on suspicion of ``endangering state security.'' \47\ Kovrig's
 detention took place days after Canadian authorities arrested Meng
 Wanzhou, the chief financial officer of the Chinese company Huawei, in
 Vancouver \48\ at the request of U.S. officials who sought to extradite
 Meng on charges that include violation of sanctions on Iran.\49\ During
 a press conference on December 12, a Ministry of Foreign Affairs
 spokesperson said that Kovrig may have been detained under the Overseas
 NGOs' Activities Law, saying the ICG ``has not legally registered or
 submitted documents for the record'' in China.\50\ An assessment by
 Asia Society's ChinaFile said that the Chinese government's reference
 to the Overseas NGOs' Activities Law after detaining Kovrig may suggest
 that the law could ``easily be used for political ends and is not a
 safe or reliable mechanism'' for foreign NGOs working in China.\51\ A
 Reuters report said that Kovrig's detention was ``sending chills''
 through foreign NGO workers in China.\52\ [For more information on
 Michael Kovrig's case, see Section II--Criminal Justice.]
------------------------------------------------------------------------

            Overall Regulatory Environment for Domestic NGOs

    This past year, Chinese central- and provincial-level 
authorities continued to implement the national campaign 
launched in 2018 to clamp down on ``illegal social 
organizations'' that do not possess proper government 
registration or that perform activities outside the scope of 
those for which they have registered,\53\ targeting those that 
``threaten state security and social stability.'' \54\ In 2018, 
the Ministry of Civil Affairs (MCA) and the Ministry of Public 
Security investigated 5,845 organizations and ``exposed'' more 
than 300 suspected ``illegal organizations.'' \55\ Under the 
direction of the central government,\56\ provincial- and local-
level governments took action to curb illegal organizations in 
their administrative jurisdictions.\57\ In September 2018, the 
MCA released an action plan to monitor the online activities of 
groups and mobilize public reporting of illegal activities 
online in order to crack down on illegal organizations.\58\ In 
May 2019, state-run media outlet Xinhua reported that the MCA 
and ``telecom authorities'' shut down the websites and social 
media accounts of nine illegal organizations.\59\
    Two years after the release of draft revisions to the three 
major regulations for civil society organizations,\60\ the MCA 
released a new draft regulation for public comment in August 
2018, combining the three regulations that form the core of the 
regulatory system for domestic social service organizations, 
foundations, and social associations into a single regulatory 
document.\61\ As of August 2019, however, there were no further 
updates on the status of the combined draft regulation.

------------------------------------------------------------------------
                   Suppression of the LGBTQ Community
-------------------------------------------------------------------------
  The Chinese government continued to suppress the rights of lesbian,
 gay, bisexual, transgender, and questioning (LGBTQ) individuals in
 China. LGBTQ individuals faced a multitude of challenges, including a
 lack of legal protections. The Chinese government cracked down on
 organizations and rights defenders active on LGBTQ issues.
 Nevertheless, LGBTQ advocates supported online campaigns highlighting
 workplace discrimination and sexual harassment, and censorship. The
 Chinese government has not followed multiple recommendations from UN
 bodies regarding LGBTQ protections.
 
                              Civil Society
 
  <bullet> Continuing Crackdown on Civil Society Undermines LGBTQ
 Advocacy. Chinese officials continued censoring online discussion of
 topics related to LGBTQ issues and shut down organizations engaging in
 advocacy.\62\ These restrictions were a continuation of an official
 crackdown on advocacy that began in 2015.\63\
------------------------------------------------------------------------


------------------------------------------------------------------------
              Suppression of the LGBTQ Community--Continued
-------------------------------------------------------------------------
  <bullet> Blacklisting advocacy organizations and activists. On January
 8, 2019, the Guangzhou Municipal Department of Civil Affairs in
 Guangdong province issued a list of suspected ``illegal social
 organizations,'' naming two organizations that work on gender and
 sexuality issues.\64\ One organization, a student group called the
 Guangzhou University Rainbow Group (Guangzhou Gaoxiao Caihong Xiaozu),
 reportedly organized discussions about sexuality at their
 university.\65\ The other organization, the Guangzhou Gender and
 Sexuality Education Center (Guangzhou Xingbie Jiaoyu Zhongxin), worked
 on both gender and LGBTQ issues, primarily focusing on combating sexual
 harassment and violence.\66\ Founded by Wei Tingting,\67\ the
 organization conducted and published a survey in April 2018 on the
 prevalence of sexual harassment and assault on Chinese college
 campuses.\68\ The group succeeded despite encountering censorship
 restrictions for the group's campaign to raise funds for the
 survey.\69\ The organization announced on the social media platform
 WeChat in December 2018 that it would temporarily cease operations.\70\
 The field program coordinator for an international LGBTQ rights
 organization called the inclusion of these organizations on the list of
 suspected illegal organizations ``a setback for LGBT rights in China.''
 \71\ In another example of the shrinking space for LGBTQ advocacy, on
 January 11, 2019, authorities in Shenzhen municipality, Guangdong,
 administratively detained for three days Cheung Kam Hung, the founder
 of a Hong Kong-based organization promoting LGBTQ rights in mainland
 China,\72\ accusing him of violating the PRC Law on the Management of
 Overseas Non-Governmental Organizations' Activities in Mainland
 China.\73\ Cheung told Hong Kong media that he planned to close his
 organization in 2019, as he could no longer operate in mainland China
 due to the law.\74\
  <bullet> Barriers to individual advocacy of LGBTQ protections from
 discrimination have been heightened by the ongoing government crackdown
 on rights lawyers and advocacy organizations. LGBTQ individuals rarely
 petition for formal redress from discrimination,\75\ in part because
 they lack legal protection under Chinese law.\76\ Nevertheless, the
 State Department reported the NGOs had some success advocating for
 LGBTQ rights ``through specific anti-discrimination cases.'' \77\
  <bullet> Independent public advocacy for LGBTQ rights continued to
 find space despite official repression. Organizations focusing on LGBTQ
 issues continued to operate this past year,\78\ and in an example of
 individual LGBTQ advocacy, two men organized an art project in multiple
 cities in China, driving trucks with slogans on the side that
 criticized the continued use of conversion therapy in China.\79\
 
   LGBTQ Community Lacks Clear Legal Protection from Domestic Violence
 
  A Chinese official indicated in 2015 that the PRC Anti-Domestic
 Violence Law would likely not cover those in same-sex
 relationships.\80\ According to the U.S. Department of State, ``the law
 does not safeguard same-sex couples.'' \81\ As of August 2019, the
 Commission did not observe any other national statistics regarding
 violence against LGBTQ individuals in the reporting year.
------------------------------------------------------------------------


------------------------------------------------------------------------
              Suppression of the LGBTQ Community--Continued
-------------------------------------------------------------------------
                       Censorship of LGBTQ Content
 
  Chinese authorities censored LGBTQ content on television, film, and
 online, and in some cases prevented public forms of LGBTQ
 expression.\82\ In October 2018, authorities in Wuhu municipality,
 Anhui province, sentenced an author to ten years and six months'
 imprisonment on pornography charges for writing a novel depicting gay
 sex.\83\ In April 2019, Chinese social media platforms variously banned
 a hashtag for lesbian issues and the use of rainbow flag emojis in
 display names.\84\ In response to significant online criticism, the
 microblogging platform Weibo restored the hashtag.\85\
 
      UN Recommendations to the Chinese Government on LGBTQ Issues
 
  <bullet> The Chinese government has not followed a UN Committee
 against Torture recommendation made specifically to China to ban its
 particular practice of conversion therapy and other ``forced,
 involuntary or otherwise coercive or abusive treatments.'' Conversion
 therapy, as practiced in Chinese medical facilities, does not meet the
 medical standard of ``free and informed consent,'' according to Human
 Rights Watch. Moreover, such therapy often includes forced medication,
 the involuntary or coercive application of electric shocks, arbitrary
 confinement, as well as aversion therapy.\86\ One non-governmental
 organization (NGO) focusing on LGBTQ issues documented 169 alleged
 cases of forced conversion therapy in China between 2016 and 2017.\87\
 In 2016, the UN Committee against Torture called on the Chinese
 government to ``prohibit the practice of so-called `conversion
 therapy,' and other forced, involuntary or otherwise coercive or
 abusive treatments'' as practiced in Chinese medical facilities.\88\
  <bullet> The Chinese government accepted and supported recommendations
 related to LGBTQ rights from UN member states that participated in the
 Universal Periodic Review. In March 2019, the Chinese government
 accepted recommendations made by Argentina, Chile, France, Mexico, the
 Netherlands, and Sweden during the November 2018 session of the
 Universal Periodic Review of the Chinese government's human rights
 record to ``[p]rohibit all forms of discrimination and violence against
 lesbian, gay, bisexual, transgender, and intersex persons,'' and to
 ``adopt measures, including public policies or laws, which ensure the
 enjoyment of the right of every person not to be discriminated against
 in any way, including their sexual orientation, religion or ethnic
 origin.'' \89\ Although in 2016 over 30 delegates to the National
 People's Congress \90\ proposed passage of draft anti-discrimination
 legislation that would prohibit discrimination on the basis of gender,
 sexual identity, and sexual orientation, the Commission had not
 observed further action toward passage of the law as of August
 2019.\91\
------------------------------------------------------------------------



                                                  Civil Society
                                                Civil Society
    Notes to Section III--Civil Society

    \1\ Shawn Shieh, ``Remaking China's Civil Society in the Xi Jinping 
Era,'' ChinaFile, Asia Society, August 2, 2018.
    \2\ Chinese Human Rights Defenders, Defending Rights in a `No 
Rights Zone': Annual Report on the Situation of Human Rights Defenders 
in China (2018), February 2019, 4.
    \3\ Chinese Human Rights Defenders, Defending Rights in a `No 
Rights Zone': Annual Report on the Situation of Human Rights Defenders 
in China (2018), February 2019, 9; Shawn Shieh, ``Remaking China's 
Civil Society in the Xi Jinping Era,'' ChinaFile, Asia Society, August 
2, 2018.
    \4\ Timothy Hildebrandt, Social Organizations and the Authoritarian 
State in China (Cambridge: Cambridge University Press, 2013), 58. 
Hildebrandt explains use of the term ``chilling effect'' in the context 
of civil society as the internalization of the ``fear of a negative 
state response'' to the point that civil society ``actors do not 
contemplate taking actions that might put them[sic] in jeopardy.'' See, 
e.g., Freedom House, ``China,'' in Freedom on the Net 2015, October 
2015; Mimi Lau, ``Mother of Detained Labour Activist Takes on State 
Media--And Forced into Hardest Decision of Her Life,'' South China 
Morning Post, May 1, 2016; Verna Yu, ``Charity Workers in China Say 
NGOs Being `Pulled Out by the Roots,' '' South China Morning Post, June 
12, 2017; Orville Schell, ``Crackdown in China: Worse and Worse,'' New 
York Review of Books, April 21, 2016; Chinese Human Rights Defenders, 
``China: Repeal Overseas NGO Law & Protect Freedom of Association,'' 
April 28, 2016; Chinese Human Rights Defenders, Repression and 
Resilience: Annual Report on the Situation of Human Rights Defenders in 
China (2017), February 26, 2018, 24-26; Chinese Human Rights Defenders, 
Defending Rights in a `No Rights Zone': Annual Report on the Situation 
of Human Rights Defenders in China (2018), February 2019, 9.
    \5\ Zhonghua Renmin Gongheguo Jingwai Feizhengfu Zuzhi Jingnei 
Huodong Guanli Fa [PRC Law on the Management of Overseas Non-
Governmental Organizations' Activities in Mainland China], passed April 
28, 2016, effective January 1, 2017; Zhonghua Renmin Gongheguo Cishan 
Fa [PRC Charity Law], passed March 16, 2016, effective September 1, 
2016. See also Ministry of Civil Affairs, Shehui Tuanti Dengji Guanli 
Tiaoli (Xiuding Cao'an Zhengqiu Yijian Gao) [Regulations on the 
Registration and Management of Social Organizations (Revised Draft for 
Solicitation of Comments)], August 1, 2016; Ministry of Civil Affairs, 
Minban Feiqiye Danwei Dengji Guanli Zanxing Tiaoli (Xiuding Cao'an 
Zhengqiu Yijian Gao) [Temporary Regulations on the Registration and 
Management of Non-Governmental, Non-Commercial Enterprises (Revised 
Draft for Public Comment)], May 26, 2016; Ministry of Civil Affairs, 
Jijinhui Guanli Tiaoli (Xiuding Cao'an Zhengqiu Yijian Gao) 
[Regulations on the Management of Foundations (Revised Draft for 
Solicitation of Comments)], May 26, 2016; Ministry of Civil Affairs, 
Shehui Zuzhi Dengji Guanli Tiaoli (Cao'an Zhengqiu Yijian Gao) 
[Regulations on the Registration and Management of Social Organizations 
(Draft for Solicitation of Comments)], August 3, 2018; International 
Center for Not-for-Profit Law, ``Civic Freedom Monitor: China,'' 
updated March 6, 2019, accessed June 11, 2019.
    \6\ Nectar Gan, ``Xi Jinping Targets Grass Roots in Push to Extend 
Communist Party Control,'' South China Morning Post, November 29, 2018; 
Chinese Communist Party Central Committee, Zhongguo Gongchandang Zhibu 
Gongzuo Tiaoli (Shixing) [Regulations on Chinese Communist Party Branch 
Operations (Provisional)], effective October 28, 2018, arts. 5, 9. See 
also Chinese Communist Party Central Committee, Zhongggong Zhongyang 
Guanyu Shenhua Dang He Guojia Jigou Gaige de Jueding [Decision on 
Deepening Reform of Party and Government Agencies], March 4, 2018; 
``Zhonggong Zhongyang yinfa `Shenhua Dang he Guojia Jigou Gaige 
Fang'an' '' [Chinese Communist Party Central Committee issues ``Plan 
for Deepening Reform of Party and Government Agencies''], Xinhua, March 
21, 2018. In March 2018, the National People's Congress and the Chinese 
People's Political Consultative Conference unveiled reforms of Party 
and government structures as part of the trend to elevate the role of 
the Party over government and society. See, e.g., Michael Martina, 
``Exclusive: In China, the Party's Push for Influence Inside Foreign 
Firms Stirs Fears,'' Reuters, August 24, 2017; Choi Chi-yuk and Eva Li, 
``Lawyers in Chinese Megacity the New Front in Communist Party's Push 
for Greater Control,'' South China Morning Post, May 18, 2017.
    \7\ Chinese Human Rights Defenders, Repression and Resilience: 
Annual Report on the Situation of Human Rights Defenders in China 
(2017), February 26, 2018, 2; Chinese Human Rights Defenders, Defending 
Rights in a `No Rights Zone': Annual Report on the Situation of Human 
Rights Defenders in China (2018), February 2019, 12; Rule By Fear: 30 
Years After Tiananmen Square, Hearing of the U.S. Senate Committee on 
Foreign Relations, 116th Cong. (2019) (testimony of Sophie Richardson, 
China Director, Human Rights Watch).
    \8\ International Center for Not-for-Profit Law, ``Civic Freedom 
Monitor: China,'' updated March 6, 2019, accessed June 11, 2019; Patti 
Chu and Olivia Yutong Wang, AVPN, ``Philanthropy in China,'' November 
2018, 11-13.
    \9\ Karla W. Simon and Holly Snape, ``China's Social Organisations 
After the Charity Law,'' Made in China Journal 2, no. 1 (January-March 
2017): 26-27.
    \10\ Ministry of Civil Affairs, Minzheng tongji jibao (2018 nian 4 
jidu) [Quarterly report on civil affairs statistics (4th quarter of 
2018)], January 30, 2019, sec. 8(1).
    \11\ Shawn Shieh, ``Mapping the Dynamics of Civil Society: A Model 
Analysis of Trends in the NGO Sector,'' in NGO Governance and 
Management in China, eds. Reza Hasmath and Jennifer Y.J. Hsu (Abingdon: 
Routledge, 2016), 48; International Center for Not-for-Profit Law, 
``Civic Freedom Monitor: China,'' updated March 6, 2019, accessed June 
11, 2019.
    \12\ International Center for Not-for-Profit Law, ``Civic Freedom 
Monitor: China,'' updated March 6, 2019, accessed June 11, 2019; Shawn 
Shieh, ``Mapping the Dynamics of Civil Society: A Model Analysis of 
Trends in the NGO Sector,'' in NGO Governance and Management in China, 
eds. Reza Hasmath and Jennifer Y.J. Hsu (Abingdon: Routledge, 2016), 
52-53. See also Isabel Hilton et al., ``The Future of NGOs in China: A 
ChinaFile Conversation,'' ChinaFile, Asia Society, May 14, 2015.
    \13\ Andrea Worden, ``China Deals Another Blow to International 
Human Rights Framework at Its UN Universal Periodic Review,'' China 
Change, November 25, 2018. See also Human Rights Watch, ``The Costs of 
International Advocacy: China's Interference in United Nations Human 
Rights Mechanisms,'' September 5, 2017.
    \14\ Ted Piccone, ``China's Long Game on Human Rights at the United 
Nations,'' Foreign Policy, Brookings Institution, September 2018, 8, 
11.
    \15\ Ibid., 1.
    \16\ UN Human Rights Council, Report of the Working Group on the 
Universal Periodic Review--China, A/HRC/40/6, December 26, 2018, items 
28.206 (Greece), 28.339 (Estonia).
    \17\ Asian Forum for Human Rights and Development (FORUM-ASIA) et 
al., ``International Civil Society Calls for China Human Rights 
Resolution Ahead of UN Meeting,'' reprinted in RSDL Monitor (blog), 
January 30, 2019. Among the 40 NGO signatories to the public appeal 
were China Labour Bulletin, Christian Solidarity Worldwide, Human 
Rights in China, International Campaign for Tibet, Safeguard Defenders, 
and Uyghur Human Rights Project.
    \18\ See, e.g., Chinese Human Rights Defenders, Defending Rights in 
a `No Rights Zone': Annual Report on the Situation of Human Rights 
Defenders in China (2018), February 2019, 12-14.
    \19\ Sue-Lin Wong and Christian Shepherd, ``China's Student 
Activists Cast Rare Light on Brewing Labor Unrest,'' Reuters, August 
15, 2018; Hong Kong Confederation of Trade Unions, ``Free the Detained 
Labour Activists. Let Them Go Home for New Year.,'' accessed June 11, 
2019; China Labour Bulletin, ``Call to End the Suppression of Labour 
Activists in China,'' March 26, 2019.
    \20\ Chinese Human Rights Defenders, ``China Human Rights Briefing: 
Vaccination Victims, Shenzhen Labor Strike, Churches Shut Down,'' 
September 20, 2018.
    \21\ ``Shenzhen Jiashi Gongsi gongren `weiquan' shijian de beihou'' 
[The back story of Shenzhen Jasic Company workers' `rights defense' 
incident], Xinhua, August 24, 2018.
    \22\ Javier C. Hernandez, ``China's Leaders Confront an Unlikely 
Foe: Ardent Young Communists,'' New York Times, September 28, 2018; 
Chinese Human Rights Defenders, ``China Human Rights Briefing: 
Vaccination Victims, Shenzhen Labor Strike, Churches Shut Down,'' 
September 20, 2018; Ellen David Friedman, ``Video: Chinese Students and 
Labor Activists on Battling the Crackdown at Jasic,'' Labor Notes, 
February 22, 2019; ``Chinese Labour Crackdown: Missing, Detained, 
Arrested,'' Financial Times, March 29, 2019.
    \23\ CIVICUS, ``China: Crackdown on Jasic Labour Struggle Seeks to 
Eliminate Unrest During Economic Downturn,'' March 26, 2019; ``Marxist 
Students Detained, Manhandled by Security Guards at Peking 
University,'' Radio Free Asia, December 28, 2018.
    \24\ Lily Kuo, ``In China, They're Closing Churches, Jailing 
Pastors--And Even Rewriting Scripture,'' Guardian, January 13, 2019. 
See also ChinaAid Association, ``Government Forces House Churches to 
Submit Registration Forms,'' May 26, 2018.
    \25\ ``China's Pre-Christmas Church Crackdown Raises Alarm,'' BBC, 
December 18, 2018; ``Chinese Authorities Shut Down the Shouwang 
Protestant Church in Beijing,'' AsiaNews.it, March 27, 2019; Kate 
Shellnutt, ``China Shuts Down Another Big Beijing Church,'' 
Christianity Today, March 27, 2019.
    \26\ ``China's Pre-Christmas Church Crackdown Raises Alarm,'' BBC, 
December 18, 2018.
    \27\ Rights Defense Network, ``Sichuan Chengdu Qiuyu Jiao an zao 
xingshi juliu, qiangpo shizong qingkuang tongbao: 4 ren zao xingju, 4 
ren bei qiangpo shizong'' [Sichuan Chengdu Early Rain Church [members] 
criminally detained, forced disappearance situation report: 4 people 
criminally detained, 4 people forcibly disappeared], December 12, 2018.
    \28\ ``Zhongguo Chengdu jiating jiaohui bairen bei bu, fei guanfang 
jiaohui zai shou daya'' [100 people detained from China's Chengdu house 
church, non-official church suffers repression again], BBC, December 
12, 2018; Ian Johnson, ``Pastor Charged with `Inciting Subversion' as 
China Cracks Down on Churches,'' New York Times, December 13, 2018; 
Qiao Zhi, ChinaAid Association, ``Yu sanshi ming Qiuyu fuyin ban 
xuesheng canting xuexi zao guanya'' [More than 30 Early Rain gospel 
class students detained at restaurant gathering], January 7, 2019.
    \29\ State Council, Zongjiao Shiwu Tiaoli [Regulations on Religious 
Affairs], passed June 14, 2017, effective February 1, 2018, art. 22.
    \30\ Viola Zhou, ``China's Underground Churches Head for Cover as 
Crackdown Closes In,'' South China Morning Post, September 10, 2017; 
ChinaAid, ``Government Forces House Churches to Submit Registration 
Forms,'' May 26, 2018.
    \31\ ChinaAid, ``Government Forces House Churches to Submit 
Registration Forms,'' May 26, 2018. See also Lily Kuo, ``In China, 
They're Closing Churches, Jailing Pastors - and Even Rewriting 
Scripture,'' Guardian, January 13, 2019; State Council, Zongjiao Shiwu 
Tiaoli [Regulations on Religious Affairs], passed June 14, 2017, 
effective February 1, 2018, art. 22.
    \32\ Ministry of Civil Affairs and State Administration of 
Religious Affairs,``Guojia Zongjiao Shiwu Ju, Minzhengbu Guanyu 
Zongjiao Huodong Changsuo Banli Faren Dengji Shixiang de Tongzhi'' 
[State Administration of Religious Affairs and Ministry of Civil 
Affairs Circular Regarding the Application Items for Legal Persons 
Registering Religious Venues], issued January 5, 2019, published 
January 25, 2019, effective April 1, 2019, arts. 3(6), 4.
    \33\ Simina Mistreanu, ``China's #MeToo Activists Have Transformed 
a Generation,'' Foreign Policy, January 10, 2019.
    \34\ Guangzhou Gender and Sexuality Center, ``Gonghao tinggeng 
shuoming'' [Explanation for the closing of [our] public account], 
December 6, 2018; Zoe Low, ``China Gender and Sexuality Centre Shuts 
Down as Censorship Chill Spreads,'' South China Morning Post, December 
7, 2018.
    \35\ Simina Mistreanu, ``China's #MeToo Activists Have Transformed 
a Generation,'' Foreign Policy, January 10, 2019.
    \36\ Ibid.
    \37\ Zhonghua Renmin Gongheguo Jingwai Feizhengfu Zuzhi Jingnei 
Huodong Guanli Fa [PRC Law on the Management of Overseas Non-
Governmental Organizations' Activities in Mainland China], passed April 
28, 2016, effective January 1, 2017. See also CECC, 2016 Annual Report, 
October 6, 2016, 226-27; CECC, 2017 Annual Report, October 5, 2017, 
225-26; CECC, 2018 Annual Report, October 10, 2018, 216-17.
    \38\ Overseas Non-Governmental Organizations Service Platform, 
Ministry of Public Security, ``Xinxi gongkai--Xinxi gongshi'' [Open 
information--Public information], accessed August 30, 2019.
    \39\ Jessica Batke, ``Visually Understanding the Data on Foreign 
NGO Representative Offices and Temporary Activities,'' ChinaFile, Asia 
Society, July 31, 2019.
    \40\ Ibid.
    \41\ Jessica Batke, ``Two Years of the Foreign NGO Law: How Did 
2018's Registrations and Filings Stack Up Against 2017's?,'' ChinaFile, 
Asia Society, January 3, 2019.
    \42\ Jessica Batke, ``Visually Understanding the Data on Foreign 
NGO Representative Offices and Temporary Activities,'' ChinaFile, Asia 
Society, July 31, 2019; Jessica Batke, ``Two Years of the Foreign NGO 
Law: How Did 2018's Registrations and Filings Stack Up Against 
2017's?,'' ChinaFile, Asia Society, January 3, 2019.
    \43\ ``Guojia anquan jiguan gongbu san qi weihai zhengzhi anquan 
anjian'' [State security agencies announce three cases of endangering 
political security], People's Daily, April 19, 2019.
    \44\ ``Guojia anquan jiguan gongbu san qi weihai zhengzhi anquan 
anjian'' [State security agencies announce three cases of endangering 
political security], People's Daily, April 19, 2019. See also 
``People's Daily Details Cases of Foreign NGOs `Endangering Political 
Security,' '' ChinaFile, Asia Society, April 19, 2019.
    \45\ Guangzhou Municipal Department of Ethnic and Religious 
Affairs, Guangzhou Shi Qunzhong Jubao Feifa Zongjiao Huodong Jiangli 
Banfa [Guangzhou Measures on Rewarding Public Reporting on Illegal 
Religious Activity], March 20, 2019; ``Guangzhou Encourages Citizens to 
Report Illegal Religious Activities, Including Foreign NGO Law 
Violations,'' ChinaFile, Asia Society, April 18, 2019.
    \46\ ``Public Security Infographic: Make Sure Foreign NGOs Have 
Filed!,'' ChinaFile, Asia Society, February 13, 2019.
    \47\ He Qiang, ``Jianada gongmin Kang Mingkai yin shexian weihai 
Zhongguo guojia anquan bei yifa shencha'' [Canadian Citizen Michael 
Kovrig investigated according to law under suspicion of endangering 
state security], Beijing News, December 12, 2018; International Crisis 
Group, ``Michael Kovrig: Senior Adviser, North East Asia,'' accessed 
July 10, 2019.
    \48\ Julia Horowitz, ``Huawei CFO Meng Wanzhou Arrested in Canada, 
Faces Extradition to United States,'' CNN, December 6, 2018.
    \49\ U.S. Department of Justice, ``Chinese Telecommunications 
Conglomerate Huawei and Huawei CFO Wanzhou Meng Charged with Financial 
Fraud,'' January 28, 2019; ``Meng Wanzhou: Huawei Chief Executive Can 
Be Extradited, Canada Says,'' BBC, March 2, 2019.
    \50\ Ministry of Foreign Affairs, ``Foreign Ministry Spokesperson 
Lu Kang's Regular Press Conference on December 12, 2018,'' December 12, 
2018.
    \51\ Jessica Batke, ``Foreign NGO Employee Detained in Beijing,'' 
ChinaFile, Asia Society, December 12, 2018.
    \52\ Christian Shepherd, ``Think-Tank Employee Detention Unnerves 
Foreign NGOs in China'' Reuters, December 12, 2018.
    \53\ ``Minzhengbu Shehui Zuzhi Guanli Ju fuzeren jiu zhili feifa 
shehui zuzhi da ben bao jizhe wen'' [Person responsible for Ministry of 
Civil Affairs Social Organizations Management Bureau answers questions 
from reporters about governance of illegal social organizations], China 
Society News, February 9, 2018.
    \54\ Ibid.
    \55\ Luo Zhengguang, ``Woguo shehui zuzhi dengji shuliang yi 
chaoguo 80 wan jia'' [The number of social organizations registered in 
China has exceeded 800,000], Xinhua, January 3, 2019; Wang Yong, 
``Woguo shehui zuzhi yi da 81 wan ge'' [Domestic social organizations 
already at 810,000], China Philanthropy Times, January 8, 2019.
    \56\ ``Ministry Bans 2 Illegal Social Organizations,'' Xinhua, 
January 23, 2019.
    \57\ See, e.g., Shaanxi Province Ministry of Civil Affairs, 
``Ankang shi zhashi tuijin daji zhengzhi feifa zuzhi zhuanxiang 
xingdong'' [Ankang municipality makes solid progress in the special 
operation of cracking down and rectifying illegal social 
organizations], October 12, 2018; Anhui Province Bureau of the 
Management of Social Organizations, ``Anhui: sheng minzhengting chixu 
daji zhengzhi feifa shehui zuzhi, gongbu 2019 nian di san pi shexian 
feifa shehui zuzhi mingdan, jiaqiang shehui zhili'' [Anhui: provincial 
government continues to crack down on and rectify illegal social 
organizations, announces the list of 2019's third batch of suspected 
illegal organizations, strengthens social governance], reprinted in 
China Social Organizations Public Service Platform, April 16, 2019.
    \58\ Ministry of Civil Affairs, `` `Hulianwang + Shehui Zuzhi 
(Shehui Gongzuo, Zhiyuan Fuwu)' Xingdong Fang'an (2018-2020)'' 
[``Internet and Social Organizations (Social Work, Volunteer Service)'' 
Action Plan (2018-2020)''], issued September 3, 2018, published 
September 11, 2018, secs. 2(1), 6(5); Han Bingzhi, ``Liyong da shuju 
jiada daji lidu rang feifa shehui zuzhi wusuo dunxing'' [Using big data 
to increase striking force, leave illegal social organizations with no 
place to operate], Economic Daily, September 21, 2018.
    \59\ ``China Shuts Down Illegal Social Organizations' Websites,'' 
Xinhua, May 7, 2019.
    \60\ Ministry of Civil Affairs, Minban Feiqiye Danwei Dengji Guanli 
Zanxing Tiaoli (Xiuding Cao'an Zhengqiu Yijian Gao) [Temporary 
Regulations on the Registration and Management of Non-Governmental, 
Non-Commercial Enterprises (Revised Draft for Solicitation of 
Comments)], May 26, 2016; Ministry of Civil Affairs, Jijinhui Guanli 
Tiaoli (Xiuding Cao'an Zhengqiu Yijian Gao) [Regulations on the 
Management of Foundations (Revised Draft for Solicitation of 
Comments)], May 26, 2016; Ministry of Civil Affairs, Shehui Tuanti 
Dengji Guanli Tiaoli (Xiuding Cao'an Zhengqiu Yijian Gao) [Regulations 
on the Registration and Management of Social Organizations (Revised 
Draft for Solicitation of Comments)], August 1, 2016. See also CECC, 
2016 Annual Report, October 6, 2016, 228.
    \61\ Ministry of Civil Affairs, Shehui Zuzhi Dengji Guanli Tiaoli 
(Cao'an Zhengqiu Yijian Gao) [Regulations on the Registration and 
Management of Social Organizations (Draft for Solicitation of 
Comments)], August 3, 2018, arts. 2, 83; Xie Xiaoxia, ``Guanyu `Shehui 
Zuzhi Dengji Guanli Tiaoli (Cao'an Zhengqiu Yijian Gao)' de sikao yu 
jianyi'' [Reflections and suggestions regarding the ``Regulations on 
the Registration and Management of Social Organizations (Draft for 
Solicitation of Comments)''], NGOCN, August 6, 2018.
    \62\ Christian Shepherd, ``China LGBT Community Fears Crackdown 
after Weibo Content Vanishes,'' Financial Times, April 15, 2019; Laurie 
Chen, ``Small Victory for China's Online Lesbian Community as Censored 
Forum Is Restored, but Another Remains Blocked,'' South China Morning 
Post, April 17, 2019; Lu Pin (@pinerpiner), ``After Weibo banned the 
`super topic' (similar with tag) of `les(bian)' with . . . ,'' Twitter, 
April 14, 2019, 8:19 p.m.; Guangzhou Municipal Civil Affairs 
Department, ``Guangzhou Shi Minzheng Ju gongbu shexian feifa shehui 
zuzhi mingdan (di liu pi)'' [Guangzhou Municipal Civil Affairs 
Department issues list of suspected illegal social organizations (sixth 
batch)], January 8, 2019; OutRight Action International, ``Activism 
Crackdown in China,'' January 14, 2019.
    \63\ See, e.g., Rebecca E. Karl et al., ``Dark Days for Women in 
China?'' ChinaFile, Asia Society, March 18, 2015; Maya Wang, ``China's 
Chilling Message to Women,'' CNN, April 7, 2015; Chinese Human Rights 
Defenders, ``5 Women's & LGBT Rights Activists Detained in Escalating 
Clampdown on NGOs (3/6-12/15),'' March 12, 2015. See also CECC, 2015 
Annual Report, October 8, 2015, 172-73; CECC, 2016 Annual Report, 
October 6, 2016, 178-79; CECC, 2017 Annual Report, October 5, 2017, 
176-78.
    \64\ Guangzhou Municipal Civil Affairs Department, ``Guangzhou Shi 
Minzheng Ju gongbu shexian feifa shehui zuzhi mingdan (di liu pi)'' 
[Guangzhou Municipal Civil Affairs Department issues list of suspected 
illegal social organizations (sixth batch)], January 8, 2019; OutRight 
Action International, ``Activism Crackdown in China,'' January 14, 
2019.
    \65\ Guangzhou Municipal Civil Affairs Department, ``Guangzhou Shi 
Minzheng Ju gongbu shexian feifa shehui zuzhi mingdan (di liu pi)'' 
[Guangzhou Municipal Civil Affairs Department issues list of suspected 
illegal social organizations (sixth batch)], January 8, 2019; OutRight 
Action International, ``Activism Crackdown in China,'' January 14, 
2019.
    \66\ Grace Tsoi, ``Chinese Anti-Sexual Violence Center Shuts 
Down,'' Inkstone, December 7, 2018; Jiayun Feng, ``Guangzhou Gender and 
Sexuality Education Center Shuts Down,'' SupChina, December 6, 2018.
    \67\ Wei Tingting is one of the Feminist Five rights advocates 
detained in March 2015 for organizing an anti-sexual harassment 
campaign. For more information on Wei Tingting, see Lu Pin, ``Four 
Years On: The Whereabouts of the `Feminist Five' and the Sustainability 
of Feminist Activism in China'' China Change, March 11, 2019; CECC, 
2015 Annual Report, October 8, 2015, 173. See also the Commission's 
Political Prisoner Database record 2015-00114.
    \68\ Erweima Hen Nan Fuzhi (@GSEC123), ``Gong hao ting geng 
shuoming'' [Account closure and explanation], WeChat, December 6, 2018; 
Jiayun Feng, ``Guangzhou Gender and Sexuality Education Center Shuts 
Down,'' SupChina, December 6, 2018.
    \69\ Erweima Hen Nan Fuzhi (@GSEC123), ``Gong hao ting geng 
shuoming'' [Account closure and explanation], WeChat, December 6, 2018; 
Jiayun Feng, ``Guangzhou Gender and Sexuality Education Center Shuts 
Down,'' SupChina, December 6, 2018.
    \70\ Erweima Hen Nan Fuzhi (@GSEC123), ``Gong hao ting geng 
shuoming'' [Account closure and explanation], WeChat post, December 6, 
2018; Jiayun Feng, ``Guangzhou Gender and Sexuality Education Center 
Shuts Down,'' SupChina, December 6, 2018.
    \71\ OutRight Action International, ``Activism Crackdown in 
China,'' January 14, 2019.
    \72\ Cheung Kam Hung Kenneth, ``My Road of Rainbow China,'' 
Facebook post, January 31, 2013.
    \73\ Lao Xianliang, ``Beishang tuiguang aizibing pingquan gangren 
Zhang Jinxiong Shenzhen bei xingzheng juliu san ri jin rujing 5 nian'' 
[Hong Kong resident Cheung Kam Hung promoted rights of (people with) 
AIDS in (mainland China), administratively detained in Shenzhen for 
three days, forbidden from entering for five years], HK01, January 19, 
2019; ``First Case of an Administrative Detention Linked to the Foreign 
NGO Law?,'' ChinaFile, Asia Society, January 22, 2019.
    \74\ Lao Xianliang, ``Beishang tuiguang aizibing pingquan gangren 
Zhang Jinxiong Shenzhen bei xingzheng juliu san ri jin rujing 5 nian'' 
[Hong Kong Resident Cheung Kam Hung promoted rights of (people with) 
AIDS in (mainland China), administratively detained in Shenzhen for 3 
days, forbidden from entering for 5 years], HK01, January 19, 2019; 
``First Case of an Administrative Detention Linked to the Foreign NGO 
Law?,'' ChinaFile, Asia Society, January 22, 2019.
    \75\ China Labour Bulletin, ``Workplace Discrimination,'' China 
Labor Bulletin, accessed September 9, 2019.
    \76\ Human Rights Watch, ``China,'' in World Report 2019: Events of 
2018, 2019, 145; He Jingjing, ``Jiuye qishi jishi xiu'' [When does 
employment discrimination rest], Huashang Bao, reprinted in Ifeng, 
March 22, 2016; Fan Jiuye Qishi Fa (Zhuanjia Jianyi Gao) [Anti-
Discrimination in Employment Law (Expert Recommendations Draft)], 
reprinted in Chinese Human Rights Defenders, accessed May 13, 2019, 
art. 3(1, 11); Jiao Hongyan, [Fan jiuye qishi fa zhuanjia yijian gao: 
jianyi chengli guojia jihui pingdeng weiyuanhui] ``Anti-Discrimination 
in Employment Law Expert Recommendations Draft: Recommend Creation of 
National Equal Opportunity Commission.'' Legal Daily, April 2, 2009. 
Rainbow China, ``Discrimination Based on Sexual Orientation & Gender 
Identity,'' in Chinese Human Rights Defenders, ``Collection of Civil 
Society Reports Submitted to the United Nations for 3rd Universal 
Periodic Review of the People's Republic of China, ed. Chinese Human 
Rights Defenders,'' October 2018, sec. 3.2., para. 1.
    \77\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``Country Reports on Human Rights Practices for 2018--China 
(Includes Tibet, Hong Kong, and Macau),'' March 13, 2019, sec. 6. For 
an example of an antidiscrimination case from this reporting year, see 
Viola Zhou, ``Gay Chinese Teacher Gets Compensation, but No Recognition 
of Equal Rights,'' Inkstone, November 26, 2018; Christian Shepherd, 
``China School Sued by Fired Gay Teacher in Potential Landmark Case,'' 
Reuters, September 28, 2018; Phoebe Zhang, ``Chinese Gay Teacher Files 
for Unfair Dismissal after Being Outed by Parent of Former Pupil,'' 
South China Morning Post, September 29, 2018; Zhou Shiling, ``Qingdao 
yi you'er jiaoshi zicheng yin tongxinglian bei jiegu qisu you'eryuan 
huo shouli'' [Qingdao Kindergarten Teacher Claims Dismissed for Being 
Gay, Lawsuit against School Accepted] Beijing News, January 15, 2019.
    \78\ Bao Hongwei and He Xiaopei, ``Queer History, Culture, and 
Activism in China: A Conversation with He Xiaopei,'' Made in China 
Journal 4, no. 1 (January-March 2019): 96-105; ``China's Gay-Rights 
Advocates Have a Bit More Freedom than Others,'' Economist, November 
24, 2018.
    \79\ Emily Feng, ``Artists Use Trucks to Highlight Plight of 
China's Gay Community,'' Financial Times, January 25, 2019; Kelly Wang, 
`` `Three Billboards' Campaign Targets Gay Conversion Therapy in 
China,'' Agence France-Presse, reprinted in Yahoo! News, January 16, 
2019.
    \80\ ``Zhongguo shoubu Fan Jia Bao Fa mianshi tongjuren deng 
canzhao zhixing'' [China's first Anti-Domestic Violence Law appears, 
applies to cohabitation], Beijing Times, reprinted in Xinhua, December 
28, 2015; Rainbow China, ``Submission to Universal Periodic Review of 
China (3rd Cycle) on Discrimination Based on Sexual Orientation and 
Gender Identity in China,'' March 15, 2018, para. 3.
    \81\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``Country Reports on Human Rights Practices for 2018--China 
(Includes Tibet, Hong Kong, and Macau),'' March 13, 2019, sec. 6.
    \82\ Christian Shepherd, ``China LGBT Community Fears Crackdown 
after Weibo Content Vanishes,'' Financial Times, April 15, 2019; Dune 
Lawrence and David Ramli, ``A Chinese Dating App for Gay Men Is Helping 
Them Have Kids, Too,'' Bloomberg, March 21, 2019; Brendon Hong, ``It 
Can Be Dangerous to Wave a Rainbow LGBT Flag in China,'' Daily Beast, 
November 6, 2018; Eduardo Baptista, ``Six LGBT Moments Cut from 
`Bohemian Rhapsody' in China,'' CNN, March 25, 2019.
    \83\ ``Zhuanxie nannan xing'ai xiaoshuo zuozhe bei pan shi nian'' 
[Author who wrote erotic novel about gay men sentenced to ten years], 
Radio Free Asia, November 19, 2018; Javier C. Hernandez and Albee 
Zhang, ``Writer of Erotic Novels in China Is Jailed for Producing Gay 
Pornography,'' New York Times, November 19, 2018; PEN America, ``Ten 
Years' Imprisonment for Chinese Novelist Writing Gay Sex Scenes an 
Outrageous Violation of the Freedom to Write,'' November 20, 2018.
    \84\ Christian Shepherd, ``China LGBT Community Fears Crackdown 
after Weibo Content Vanishes,'' Financial Times, April 15, 2019; Laurie 
Chen, ``Small Victory for China's Online Lesbian Community as Censored 
Forum Is Restored, but Another Remains Blocked,'' South China Morning 
Post, April 17, 2019; Lu Pin (@pinerpiner), ``After Weibo banned the 
`super topic' (similar with tag) of `les(bian)' with . . .,'' Twitter, 
April 14, 2019, 8:19 p.m.
    \85\ Laurie Chen, `` `I Am Les': Chinese Social Media Giant 
Reverses Ban on Lesbian Content amid Uproar,'' Inkstone, April 16, 
2019.
    \86\ Human Rights Watch, `` `Have You Considered Your Parents' 
Happiness?' Conversion Therapy against LGBT People in China,'' November 
15, 2017.
    \87\ Rainbow China, ``Submission to Universal Periodic Review of 
China (3rd Cycle) on Discrimination Based on Sexual Orientation and 
Gender Identity in China,'' March 15, 2018, para. 5.
    \88\ UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China, adopted by the Committee at its 1391st 
and 1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, February 3, 
2016, para. 56(a).
    \89\ UN Human Rights Council, Report of the Working Group on the 
Universal Periodic Review--China, A/HRC/40/6, Advance Unedited Version, 
December 26, 2018, paras. 28.83, 28.86-28.90; UN Human Rights Council, 
Report of the Working Group on the Universal Periodic Review--China, 
Addendum, Views on Conclusions and/or Recommendations, Voluntary 
Commitments and Replies Presented by the State under Review, A/HRC/40/
6/Add.1, Advance Version, February 15, 2019, paras. 28.83, 28.86-28.90; 
Michael Taylor, ``China Urged to Take Action on LGBT+ Rights after 
Backing U.N. Changes,'' Reuters, March 7, 2019.
    \90\ The 4th Meeting of the 12th Session of the National People's 
Congress met in March 2016. There were 2,890 representatives present 
out of a total of 2,943 representatives. ``Lianghui shouquan fabu: 
Shi'er Jie Quanguo Renda Si Ci Huiyi zai Jing kaimu'' [Two Sessions 
Authorized Release: Fourth Meeting of the Twelfth Session of the NPC 
Convenes in Beijing], Xinhua, March 5, 2016.
    \91\ He Jingjing, ``Jiuye qishi jishi xiu'' [When does employment 
discrimination rest], Chinese Business View, reprinted in Ifeng, March 
22, 2016; Fan Jiuye Qishi Fa (Zhuanjia Jianyi Gao) [Anti-Discrimination 
in Employment Law (Expert Recommendations Draft)], reprinted in Chinese 
Human Rights Defenders, accessed May 13, 2019, art. 3(1, 11); Jiao 
Hongyan, ``Fan Jiuye Qishi Fa Zhuanjia Yijian Gao: jianyi chengli 
guojia jihui pingdeng weiyuanhui'' [Anti-Discrimination in Employment 
Law Expert Recommendations Draft: Recommend creation of national equal 
opportunity commission,'' Legal Daily, April 2, 2009.


                                                Institutions of 
                                                    Democratic 
                                                     Governance
                                                Institutions of 
                                                Democratic 
                                                Governance

                 Institutions of Democratic Governance


                                Findings

        <bullet> China's one-party authoritarian political 
        system remains out of compliance with international 
        human rights standards because authorities deprived 
        citizens of the right to meaningfully participate in 
        the electoral process and in public affairs in general.
        <bullet> As Chinese Communist Party General Secretary 
        Xi Jinping continued to promote rule-based governance, 
        the Party passed a series of rules to formalize the 
        manner and extent of the Party's control over the 
        government and society. These rules reinforced the all-
        encompassing authority of the Party and centralized 
        personal leadership of Xi Jinping. One set of rules 
        formalized the Party's longstanding control over 
        ``political-legal'' work covering the judiciary, the 
        procuratorate, public security agencies, national 
        security agencies, and judicial administration 
        agencies. The rules focused on protecting the Party's 
        political security and preserving its absolute control.
        <bullet> Central authorities also issued rules to 
        regulate personnel management in the government by 
        requiring civil servants to receive political 
        indoctrination and by imposing political considerations 
        as criteria for career advancement. In one instance, 
        the Party Central Committee issued an opinion 
        prohibiting officials from expressing views 
        inconsistent with the Party's policy or ``improperly 
        discussing'' central Party policy even outside of work 
        hours.
        <bullet> While the Chinese government used technology 
        to facilitate citizens' access to public services, it 
        continued to employ a combination of ``big data, 
        artificial intelligence, recognition technology and 
        other police techniques'' to impose social and 
        political control. Data collection became more 
        centralized and coordinated, as an increasing number of 
        province-level jurisdictions have established ``Big 
        Data Bureaus.'' In particular, authorities in the 
        Xinjiang Uyghur Autonomous Region used apps to track 
        and target Uyghurs and Turkic Muslims for 
        investigation, which often would result in the 
        detention of the targeted individuals for non-criminal 
        conduct.
        <bullet> Citizens' opportunities to participate in 
        limited local elections diminished this past year. 
        Chinese authorities reduced the frequency of elections 
        for grassroots-level committees--from once every three 
        years to once every five years--in order to synchronize 
        with the terms of the corresponding Party offices, 
        thereby ``complementing the Party's complete 
        leadership.''
        <bullet> On the international stage, China 
        categorically denied accountability for human rights 
        violations despite evidence of human rights abuse. It 
        further rejected recommendations to cease the practice 
        of arbitrary detention and rejected calls to release 
        political prisoners. Domestically, the Party and the 
        government continued to carry out an anticorruption 
        campaign, resulting in the discipline or criminal 
        prosecution of some officials on corruption-related 
        charges. Outside of the anti-corruption campaign, some 
        courts awarded compensation to victims who were 
        tortured by government officials, but reporting 
        indicated that officials sometimes failed to hold 
        perpetrators accountable.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Support U.S. research programs that document and 
        analyze the governing institutions and ideological 
        campaigns of the Chinese Communist Party, as well as 
        its influence over companies, government agencies, 
        legislative and judicial bodies, and non-governmental 
        organizations (NGOs).
          Employ a ``whole-of-government'' approach to 
        encourage Chinese authorities to ratify the 
        International Covenant on Civil and Political Rights 
        and release individuals detained or imprisoned for 
        exercising their rights to freedom of speech, 
        association, and assembly. These individuals include 
        those mentioned in this report and in the Commission's 
        Political Prisoner Database, such as Huang Qi, Liu 
        Feiyue, and Qin Yongmin.
          Support joint U.S.-China cooperative programs to 
        develop independent village committee and people's 
        congress election monitoring systems. Encourage central 
        and local Party and government leaders to implement 
        free and fair elections across China. Continue to fund, 
        monitor, and evaluate the effectiveness of democracy 
        promotion and rule of law programs in China.
          Support organizations working in China that seek to 
        work with local governments and NGOs to improve 
        transparency, especially with regard to efforts to 
        expand and improve China's open government information 
        initiatives. Urge Party officials to further increase 
        the transparency of Party affairs.
          Call on the Chinese government to improve procedures 
        through which citizens may hold their officials 
        accountable outside of the internal Party-led 
        anticorruption campaign. Urge Party and government 
        officials to establish and improve public participation 
        in government affairs. Encourage top-level officials to 
        reform governing institutions to promote an authentic 
        multi-party system with protections for freedom of 
        speech, association, and assembly.


                                                Institutions of 
                                                    Democratic 
                                                     Governance
                                                Institutions of 
                                                Democratic 
                                                Governance

                 Institutions of Democratic Governance


                 Governance in China's One-Party System

    China's one-party authoritarian political system remains 
out of compliance with the standards defined in the Universal 
Declaration of Human Rights (UDHR) \1\ and the International 
Covenant on Civil and Political Rights (ICCPR),\2\ which China 
has signed and declared an intention to ratify.\3\ These 
standards require that citizens be allowed to freely choose 
their representatives \4\ and to hold their officials 
accountable through fair and impartial elections regardless of 
political party membership.\5\ During the 2019 reporting year, 
the Commission observed reports of authorities depriving 
citizens of the right to meaningfully participate in the 
electoral process and in public affairs in general.
    The Chinese Communist Party further curtailed the limited 
space for democratic participation as it moved to further 
formalize and tighten its control over government and social 
institutions.\6\ Echoing language used at the 19th National 
Congress of the Chinese Communist Party in 2017,\7\ official 
media continued to emphasize complete dominance of the 
Party,\8\ which in turn remained subject to the personal 
leadership of President and Party General Secretary Xi 
Jinping.\9\

            Communist Party Centralized and Expanded Control

    The Chinese Communist Party Central Committee asserted the 
Party's control in the Opinion on Strengthening Party Political 
Building, issued in January 2019.\10\ The opinion demanded 
absolute loyalty from leading cadres and emphasized the 
importance of protecting the Party's leadership with Xi Jinping 
as the core leader and of adhering to ``Xi Jinping Thought on 
Socialism with Chinese Characteristics for a New Era,'' \11\ 
which is a political ideology incorporated into China's 
Constitution in 2018.\12\
    Beyond reaffirming the Party's authority in the opinion, 
the Central Committee issued substantive rules that had the 
effect of centralizing and expanding the Party's control. The 
Regulations on the Chinese Communist Party's Political-Legal 
Work, for example, institutionalized the Party's longstanding 
de facto control over ``political-legal work'' (zhengfa 
gongzuo) \13\ which covers the judiciary, the procuratorate, 
public security agencies, national security agencies, and 
judicial administration agencies.\14\ The regulations invoked 
the authority of both the Party Constitution as well as China's 
Constitution,\15\ and it was the first time that the Party 
described its political-legal functions by way of Party 
rules.\16\ The regulations repeatedly emphasized the Party's 
absolute control and tasked political-legal committees with 
devising strategies to ensure political security and social 
stability.\17\ A U.S.-based scholar and former rights lawyer in 
China observed that the Party used the regulations as a way to 
assert the Party's control and to forestall attempts to promote 
division of political power or judicial independence.\18\
    The Regulations on Requesting Instructions and Making 
Reports on Important Issues, effective in January 2019, 
established a command structure with Xi Jinping at the core, 
requiring local Party entities to obtain approval or guidance 
from a higher-ranking Party entity for ten categories of 
``important matters,'' such as those necessitating policy 
changes.\19\ Also, the provisional Regulations on Chinese 
Communist Party Branch Operations, effective in October 2018, 
expanded the Party's reach in society \20\ by requiring the 
establishment of Party branches or joint Party branches in 
rural cooperatives and commercial organizations to promote 
Party policies.\21\ These provisional regulations were 
promulgated after the Party amended its Constitution in 2017 in 
part to delineate the nature and functions of Party branches, 
which previously were not governed by written rules.\22\

    Communist Party Formalized Control Over Personnel Management in 
                               Government

    Central Party authorities further strengthened the Party's 
control over civil servants and Party-government leadership 
positions. In November 2018, the Chinese Communist Party 
Central Committee issued a plan requiring personnel in 
leadership positions to be trained at facilities \23\ such as 
the new Central Party School (Chinese Academy of Governance), a 
Party entity established in March 2018 to take over the 
function of training government officials.\24\ The plan covers 
seven categories of personnel, including Party-government 
leaders, civil servants, and leaders of enterprises and public 
institutions.\25\ A minimum of 70 percent of the training at 
Party schools must center on ``Xi Jinping Thought.'' \26\
    In December 2018, the National People's Congress Standing 
Committee revised the PRC Civil Servant Law to require every 
civil servant to support and obey the Party's leadership,\27\ 
an addition to the existing provisions for compliance with the 
constitution and the law.\28\ The Standing Committee also added 
political considerations as criteria for training, examination, 
appointment, and supervision of civil servants.\29\ Under the 
revised law, civil servants are prohibited from disseminating 
speech harmful to the Party's reputation, ``damaging ethnic 
relations,'' or ``joining activities that divide ethnic 
groups.'' \30\ Previously, authorities prosecuted citizens on 
the charge of ``inciting ethnic hatred'' for peacefully 
expressing views on the government's ethnic policies.\31\ 
Furthermore, the Opinion on Strengthening and Improving Party 
Building in Central Authority and Government Agencies, issued 
in March 2019, prohibited officials from expressing views 
inconsistent with the Party's policy or ``improperly 
discussing'' central Party policy (wangyi zhongyang) even 
outside of work hours.\32\ According to one scholar's analysis, 
the political assessment requirement under the revised PRC 
Civil Servant Law may negatively impact non-governmental 
organization (NGO) operations in China, as officials try to 
demonstrate political loyalty by interacting with NGOs in ways 
that are consistent with the Party's policy of limiting the 
scope of public interest activities.\33\
    In March 2019, the Party issued Regulations on Selection 
and Appointment of Party and Government Leading Cadres \34\ to 
``steadfastly prioritize political standards.'' \35\ The 
regulations require that all cadres holding leadership 
positions in the government or the Party must ``resolutely 
safeguard General Secretary Xi Jinping's core leadership and 
uphold the centralized and unified leadership of the Central 
Committee.'' \36\ The new regulations supersede the 2014 
version, which lacks specific reference to Xi Jinping.\37\
    Some observers claimed that centralization and tightening 
of control has stalled democratic progress and political reform 
\38\ and could result in the implementation of policies that 
are insensitive to local conditions.\39\ A Germany-based 
scholar estimated that ``the number of provincial 
experiments''--such as initiatives for building free markets 
and allowing private land ownership--``fell from 500 in 2010 to 
about 70 in 2016.'' \40\ According to some Chinese officials, 
emphasis on loyalty and ``political performance'' had led civil 
servants to become increasingly reluctant to act independently 
and had caused many to leave their jobs.\41\

                 Use of Technology to Control Citizens

    While the Chinese government used technology to facilitate 
citizens' access to public services,\42\ it continued to employ 
a combination of ``big data, artificial intelligence, 
recognition technology and other police techniques'' to impose 
social and political control.\43\

                        SURVEILLANCE TECHNOLOGY

    The Chinese government demonstrated its technological 
capacity \44\ to implement advanced surveillance systems. For 
example, authorities installed facial recognition systems at 
sites with a high volume of human traffic, such as at an 
airport in Shanghai municipality,\45\ four subway stations in 
Guangzhou municipality, Guangdong province,\46\ and the border 
crossing of the Hong Kong-Zhuhai-Macau Bridge.\47\ Despite 
having the potential to speed up the security screening 
process,\48\ the technology has raised privacy concerns.\49\
    Examples of surveillance systems implemented during this 
reporting year, including those that emerged from the Xinjiang 
Uyghur Autonomous Region (XUAR), demonstrate that the Chinese 
government has a policy of using technology for repression.\50\ 
One official who worked in a mass internment camp in the XUAR 
said that authorities could constantly monitor each room 
through a system of surveillance cameras, which they used to 
control detainees' activities including bathroom usage.\51\ In 
another example, authorities required members of a government-
sanctioned Christian church in the XUAR to verify their 
identity and go through a facial recognition system, which 
effectively prevented some of them from participating in the 
church service due to the time involved in being processed.\52\ 
In May 2019, non-governmental organization (NGO) Human Rights 
Watch released a report in which it documented Chinese 
authorities' use of apps as part of the ``Integrated Joint 
Operations Platforms'' to track and target Uyghurs and other 
Turkic Muslims for investigation, which often resulted in the 
detention of the targeted individuals for non-criminal 
conduct.\53\ [For more information on surveillance practices in 
the XUAR, see Section II--Business and Human Rights and Section 
IV--Xinjiang.]

           PROVINCES CREATED BIG DATA ADMINISTRATION BUREAUS

    Authorities' efforts to collect information became more 
coordinated and centralized this past year. Following the 
restructuring of central government agencies in March 2018,\54\ 
local governments also underwent reorganization,\55\ with a 
number of them creating new provincial- and prefectural-level 
bureaus designed to manage big data,\56\ adding to the existing 
21 similar agencies.\57\ These bureaus, seen as instrumental to 
building smart cities,\58\ are tasked with coordinating data 
collection and sharing among different government agencies to 
improve transparency and the capacity of governance.\59\ While 
big data bureaus have the potential to improve citizens' access 
to government services,\60\ observers noted the lack of 
adequate privacy protection and expressed concerns that these 
bureaus can serve as the Chinese government's instrument of 
surveillance.\61\
    In one example, a plan issued by a local government in 
Henan province indicated that the provincial government was 
gathering, auditing, and entering information of religious 
followers into a database, according to an online magazine 
focusing on religious freedom in China.\62\ The database--
called the ``Henan Province Religious Affairs Management and 
Service Platform''--began operation in May 2018,\63\ and the 
data-gathering efforts may be part of the ideological 
``rectification measures'' issued by the Henan Provincial Party 
Committee around September 2018.\64\ Some religious 
practitioners expressed concern that databases like this one 
would facilitate ``the Chinese Communist government to carry 
out further monitoring, restriction, or even crack down'' on 
religious followers.\65\
    In August 2018, China Digital Times reposted an online 
article by an anonymous source claiming to be an experienced 
public security official who disclosed the manner in which 
authorities categorized individuals using information collected 
through big data systems.\66\ Targeted people included Uyghurs 
in the XUAR, Tibetans returning from abroad, Falun Gong 
practitioners, veterans, NGO workers, and foreign 
journalists.\67\ The source also provided photographs of 
computer screens suggesting that public security officials not 
only collect biographical information, but they also track 
travel and internet usage history and have the ability to link 
records of a person's neighbors, relatives, and people 
traveling on the same airplane.\68\ The original article has 
since become unavailable.

                         Citizen Participation


            SUPPRESSION OF POLITICALLY SENSITIVE ACTIVITIES

    While the official Party news outlet People's Daily 
continued to operate a message board through which local 
officials may respond to citizens' complaints and suggestions 
on issues concerning personal matters and local policies, 
political content posted on the board was subject to 
censorship.\69\ Beyond the officially maintained platform, 
authorities criminally detained people who engaged in speech or 
advocacy work that had broader social and political 
implications: In one example, authorities in Shenzhen 
municipality, Guangdong province, detained Wei Zhili in March 
2019 on suspicion of ``picking quarrels and provoking trouble'' 
in connection to his online advocacy for factory workers who 
contracted pneumoconiosis due to the lack of occupational 
safety measures.\70\ In another example, authorities in 
Xinxiang municipality, Henan province, arrested He Fangmei in 
April 2019 on suspicion of ``picking quarrels and provoking 
trouble'' because she protested and organized a support group 
for parents with children who were rendered disabled or 
paralyzed after receiving substandard vaccines.\71\ [For more 
information on Chinese authorities' use of the criminal justice 
system and extralegal measures to suppress rights activities, 
see Section II--Criminal Justice.]

                               ELECTIONS

    The Commission did not observe progress in expanding the 
scope of direct elections, which Chinese law limits to people's 
congresses of local jurisdictions \72\ and grassroots-level 
committees.\73\ In December 2018, the National People's 
Congress Standing Committee amended two sets of laws to 
decrease the frequency of grassroots-level elections from once 
every three years to once every five years, affecting elections 
for village committees in rural areas and residents committees 
in urban areas.\74\ The new five-year term of office for these 
committees synchronized with the term of Party committees at 
the corresponding levels specified in a Party opinion issued 
earlier in July 2018.\75\ According to an official news 
article, the longer term would be beneficial to implementing 
policy plans and improving stability,\76\ and Minister of Civil 
Affairs Huang Shuxian said the change would complement the 
Party's complete leadership.\77\
    Rights Defense Network, a human rights monitoring group, 
documented instances in which officials suppressed meaningful 
participation in or speech regarding elections this past 
year,\78\ demonstrating that China's political institutions do 
not meet the standards for elections outlined in the Universal 
Declaration of Human Rights \79\ and the International Covenant 
on Civil and Political Rights.\80\ For example, in September 
2018, officials in Qianshan county, Anqing municipality, Anhui 
province, disqualified two candidates who, in a preselection, 
were leading or in close contest with another two candidates 
selected by the township Party committee.\81\ The township 
leaders also reportedly hired a known gang member to physically 
assault individuals who opposed the selected candidates.\82\

                             Accountability


            CHINA DENIED COMMITTING HUMAN RIGHTS VIOLATIONS

    In international forums, China categorically denied that it 
had committed human rights violations. As Xi Jinping's 
political ideology continued to guide China's human rights 
practices,\83\ the spokesperson of China's Ministry of Foreign 
Affairs in August 2018 dismissed as baseless \84\ reports of 
Uyghurs and other Muslim minorities being held in incommunicado 
detention, as noted in the concluding observations of the UN 
Committee on the Elimination of Racial Discrimination.\85\
    After the Universal Periodic Review held in November 2018, 
China likewise asserted that ``[t]here is no such problem as 
arbitrary detention,'' in response to multiple calls by UN 
members for China to cease all forms of arbitrary detention, 
including mass internment camps in the XUAR.\86\ China also 
rejected recommendations to cease the persecution of human 
rights defenders and lawyers,\87\ claiming that requests to 
release those detained ``in accordance with law is an 
interference in China's judicial sovereignty.'' \88\

                        ANTICORRUPTION CAMPAIGN

    Domestically, Chinese authorities continued to carry out 
the anticorruption campaign,\89\ which began in 2012 with the 
stated goals of restoring Party discipline and punishing 
official corruption and is viewed as Xi Jinping's signature 
initiative.\90\ According to some observers, the campaign may 
not be effective in combating corruption because it does not 
strengthen institutional supervision such as by the press, 
civil society, and other political parties.\91\
    The National Supervisory Commission (NSC)--an 
anticorruption body created in March 2018 with authority to 
detain people without judicial oversight \92\--has demonstrated 
thus far that its operations were subordinate only to the 
Chinese Communist Party. Director Yang Xiaodu of the NSC said 
in February 2019 that the commission was supervised by the 
Party Central Committee and therefore would not release a 
report separate from the one issued by the Central Commission 
for Discipline Inspection (CCDI), a Party entity.\93\ In 
January, the CCDI issued its work report internally and 
addressed it to CCDI's own standing committee at a plenary 
meeting.\94\ The NSC did not submit a separate work report to 
the National People's Congress (NPC) in March 2019 during the 
annual meetings, although the law subjects supervisory 
commissions to the oversight of the corresponding people's 
congresses.\95\
    Furthermore, while the NSC hired its first cohort of 
``special supervisors'' in December 2018 with the stated 
purpose of improving supervision by the public,\96\ these 
supervisors are required to submit themselves to the Party's 
leadership, and their duties do not go beyond making 
suggestions and promoting the Party's policies.\97\

------------------------------------------------------------------------
   Possible Political Motivations Behind Detaining Interpol President
-------------------------------------------------------------------------
  Among those detained as part of the anticorruption campaign was Meng
 Hongwei,\98\ who was Vice Minister of Public Security when he was
 elected in November 2016 to lead the International Criminal Police
 Organization (Interpol), the international police agency headquartered
 in Lyon, France.\99\ Meng disappeared upon arriving in China on a trip
 from France in October 2018, according to his wife.\100\ In March 2019,
 the Central Commission for Discipline Inspection (CCDI) and the
 National Supervisory Commission (NSC) expelled Meng from the Party and
 stripped him of his official position for a number of alleged
 wrongdoings, including abusing his power, not adhering to Party rules,
 and receiving bribes; the article did not detail any specific act,
 however.\101\ In addition, the article reported that Meng lacked
 ``Party spirit'' and refused to carry out orders from the Party's
 Central Committee.\102\ Meng's wife maintained that the detention was
 politically motivated, adding that Meng ``was well-known in China for
 his reformist views and had in March 2017 tendered his resignation to
 the Central Committee of the Communist Party of China.'' \103\ Sources
 told the Wall Street Journal that Meng, in his capacity as the head of
 the international police agency, did not fully carry out Chinese
 central authorities' instructions to issue ``red notices,'' which would
 help them target dissidents outside of China.\104\
------------------------------------------------------------------------

               CASES OUTSIDE THE ANTICORRUPTION CAMPAIGN

    In some examples, Chinese authorities displayed a 
willingness to hold officials accountable outside the 
anticorruption campaign in cases involving official 
malfeasance:

        <bullet> In October 2018, the Tianjin Municipal No. 1 
        Intermediate Court sentenced nine former procuratorate 
        officials from Yanbian Korean Autonomous Prefecture, 
        Jilin province, to terms of imprisonment ranging from 1 
        year and 3 months to 13 years on charges including 
        ``intentional assault,'' ``extorting confession by 
        torture,'' and ``dereliction of duty,'' after they 
        tortured and caused the death of a Hong Kong 
        businessman during an interrogation that lasted over 
        four days.\105\
        <bullet> In November 2018, the public security bureau 
        in Quanzhou municipality, Fujian province, issued an 
        apology and suspended one officer for harassing a 
        female journalist who was reporting on a biochemical 
        leakage incident in that locality.\106\ The article 
        reporting the event characterized the government's 
        response as rare, however.\107\

    In contrast, other examples showed a lack of commitment to 
hold officials accountable:

        <bullet> In November 2018, the Shandong Province 
        People's Government appointed Ma Yuenan as the director 
        of the provincial Big Data Bureau,\108\ one month after 
        she was reprimanded for failing to prevent the 
        distribution of substandard vaccines in Shandong.\109\ 
        The appointment reportedly violated a Party rule that 
        prohibits the promotion or appointment of a Party 
        member to an important post within six months of a 
        reprimand.\110\
        <bullet> In January 2019, the Liaoyuan Municipal 
        Intermediate People's Court in Jilin province awarded 
        compensation to an individual who served over 25 years 
        in prison for a homicide conviction based on 
        confessions reportedly extracted through torture.\111\ 
        Yet neither the court that awarded him compensation nor 
        the court that reversed his conviction found that 
        torture took place, and sources did not indicate that 
        authorities had held the perpetrators accountable.\112\


                                                Institutions of 
                                                    Democratic 
                                                     Governance
                                                Institutions of 
                                                Democratic 
                                                Governance
    Notes to Section III--Institutions of Democratic Governance

    \1\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A(III) of December 10, 1948.
    \2\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of December 16, 1966, 
entry into force March 23, 1976.
    \3\ United Nations Treaty Collection, Chapter IV, Human Rights, 
International Covenant on Civil and Political Rights, accessed June 7, 
2019; State Council Information Office, ``Guojia Renquan Xingdong Jihua 
(2016-2020 nian)'' [National Human Rights Action Plan of China (2016-
2020)], September 29, 2016, sec. 5.
    \4\ Universal Declaration of Human Rights (UDHR), adopted and 
proclaimed by UN General Assembly resolution 217A(III) of December 10, 
1948, art. 21. According to Article 21 of the UDHR, ``Everyone has the 
right to take part in the government of his country, directly or 
through freely chosen representatives . . .. The will of the people 
shall be the basis of the authority of government, this will shall be 
expressed in periodic and genuine elections which shall be by universal 
and equal suffrage and shall be held by secret vote or by equivalent 
free voting procedures.''
    \5\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of December 16, 1966, 
entry into force March 23, 1976, art. 25.
    \6\ See, e.g., Chinese Communist Party Central Committee, Zhongguo 
Gongchandang Zhengfa Gongzuo Tiaoli [Regulations on the Chinese 
Communist Party Political-Legal Work], effective January 13, 2019; 
Christian Shepherd, ``China's Peking University Tightens Party Control, 
Curbs Activism,'' Reuters, November 14, 2018.
    \7\ ``Xi Jinping: juesheng quanmian jiancheng xiaokang shehui duoqu 
xin shidai Zhongguo tese shehui zhuyi weida shengli'' [Xi Jinping: 
secure a decisive victory in building a moderately prosperous society 
in all respects and strive for the great success of socialism with 
Chinese characteristics for a new era''], October 18, 2017, Xinhua, 
October 27, 2017, sec. 3.
    \8\ See, e.g., Han Qingxiang, ``Bixu jianchi dang dui yiqie gongzuo 
de lingdao'' [Party leadership over every type of work must be 
steadfastly maintained], Qiushi (Seeking Truth), December 22, 2018; 
``Renmin Ribao pinglunyuan: tigao dang lingdao jingji gongzuo nengli he 
shuiping--liu lun guanche luoshi zhongyang jingji gongzuo huiyi 
jingshen'' [People's Daily commentator: Improve ability and standard of 
Party leadership in economy--six points on thoroughly actualizing 
spirit of central committee meeting concerning economy], People's 
Daily, December 27, 2018.
    \9\ Chang'an Street Book Club, `` `Dangjian zhixue' Liu Hanjun: 
mingque lingdao hexin shi dang zixin yu jianding de biaozhi'' [``Study 
of Party building and governance'' Liu Hanjun: clearly identifying core 
leadership is symbol of Party's confidence and determination], The 
Paper, October 25, 2018; Guan Ling, ``Chunqiu bi: Xi hexin yi chao 
Jiang hexin'' [Comparing history: Xi's core has surpassed Jiang's 
core], Duowei, February 28, 2019.
    \10\ Chinese Communist Party Central Committee, Zhonggong Zhongyang 
Guanyu Jiaqiang Dang de Zhengzhi Jianshe Yijian [Opinion on 
Strengthening the Party's Political Building], January 31, 2019.
    \11\ Chinese Communist Party Central Committee, Zhonggong Zhongyang 
Guanyu Jiaqiang Dang De Zhengzhi Jianshe Yijian [Opinion on 
Strengthening the Party's Political Building], January 31, 2019, secs. 
1, 6(18). The components of ``Xi Jinping Thought'' include Xi's 
speeches and writings generated after 2012, when Xi became the Party 
Secretary. See Tao Wenzhao and Lin Jianhua, ``Weihe xue xue shenme 
zenme xue'' [The why, what, and how of studying], Beijing Daily, June 
24, 2019; Xi Jinping guanyu qingshaonian he Gongqingtuan gongzuo lunshu 
zhaibian [Excerpts from Xi Jinping's speeches regarding youth and the 
Communist Youth League], Collected Works for the Study of Xi (Beijing: 
Central Publishing House, 2017), People's Daily, accessed May 14, 2019.
    \12\ Central Commission for Discipline Inspection, ``Yitu dudong: 
`Zhongguo Gongchandang Zhangcheng' '' xiugai duibi yilanbiao'' 
[Understanding through one picture: Table illustrating changes to the 
``Constitution of the Chinese Communist Party''] October 31, 2017. ``Xi 
Jinping Thought'' is an ideology that aims at ``building a moderately 
prosperous society, deepening reform, governing [the] nation by law, 
and tightening Party discipline.'' John Garrick and Yan Chang Bennett, 
`` `Xi Jinping Thought,' '' China Perspectives, no. 2018/1-2 (June 1, 
2018): 99, citing ``Renmin Ribao shouci quanwei dingyi Xi Jinping `Sige 
Quanmian' '' [People's Daily first-ever authoritative definition of Xi 
Jinping's ``Four Comprehensives''], People's Daily, February 24, 2015.
    \13\ ``Xi Jinping zhuchi zhongyang zhengzhiju huiyi shenyi 
`Zhongguo Gongchandang Zhengfa Gongzuo Tiaoli' '' [Xi Jinping presides 
over meeting of the Political Bureau of the Central Committee, reviews 
the Regulations on the Chinese Communist Party's Political-Legal Work], 
Xinhua, December 27, 2018.
    \14\ Chinese Communist Party Central Committee, Zhonggong 
Gongchandang Zhengfa Gongzuo Tiaoli [Regulations on the Chinese 
Communist Party Political-Legal Work], effective January 13, 2019, art. 
3.
    \15\ Ibid, art. 1.
    \16\ Zhou Bin, ``Dang qi yinling xin shidai zhengfa shiye puxie xin 
pianzhang'' [Party's banner leading political-legal work in new age, 
writes new chapters], Legal Daily, January 30, 2019.
    \17\ Chinese Communist Party Central Committee, Zhonggong 
Gongchandang Zhengfa Gongzuo Tiaoli [Regulations on the Chinese 
Communist Party Political-Legal Work], effective January 13, 2019, 
arts. 1, 5, 6(1), 7, 12(1), 15(1), 18.
    \18\ Teng Biao, ``Xi Jinping de fan falu zhanzheng'' [Xi Jinping's 
war against law], Radio Free Asia, February 4, 2019.
    \19\ Chinese Communist Party Central Committee, Zhongguo 
Gongchandang Zhongda Shixiang Qingshi Baogao Tiaoli [Regulations on 
Requesting Instructions and Making Reports on Important Issues], 
effective January 31, 2019, art. 13.
    \20\ Nectar Gan, ``Xi Jinping Targets Grass Roots in Push to Extend 
Communist Party Control,'' South China Morning Post, November 29, 2018.
    \21\ Chinese Communist Party Central Committee, Zhongguo 
Gongchandang Zhibu Gongzuo Tiaoli (Shixing) [Regulations on Chinese 
Communist Party Branch Operations (Provisional)], effective October 28, 
2018, arts. 5, 9.
    \22\ Cao Ying and Han Jiahui, ``Dang zhang xiugai le naxie? 
Zhuanjia bang ni quan zhongdian'' [What is amended in the Party 
Constitution? Experts give you the highlights], Xinhua, October 31, 
2017; ``Quanmian tigao xin shidai dangzhibu jian she zhiliang--
Zhongyang Zuzhibu fuzeren jiu yinfa `Zhongguo Gongchandang Zhibu 
Gongzuo Tiaoli (Shixing)' da jizhe wen'' [Comprehensively improve 
Party-building quality in new era--head of Central Committee's 
Organization Department answers reporters' questions about 
``Regulations on Chinese Communist Party Branch Operations 
(Provisional)''], Xinhua, November 26, 2018.
    \23\ Chinese Communist Party Central Committee, ``2018-2022 nian 
quanguo ganbu jiaoyu peixun guihua'' [2018-2022 education and training 
plan for cadres nationwide], reprinted in Xinhua, November 1, 2018, 
sec. 4.
    \24\ ``Zhonggong zhongyang yinfa `Shenhua Dang He Guojia Jigou 
Gaige Fang'an' '' [Chinese Communist Party Central Committee issues 
`Plan for Deepening Reform of Party and Government Agencies'], Xinhua, 
March 21, 2018, secs. 1(6), (7); ``Zhongzu buzhang chen xi jian guojia 
xingzheng xueyuan yuanzhang tuo zhen ren renmin ribao zongbianji'' 
[Head of Central Committee's Organization Department Chen Xi to head 
Chinese Academy of Governance, Tuo Zhen becomes chief editor of 
People's Daily], Radio Free Asia, April 4, 2018.
    \25\ Chinese Communist Party Central Committee, ``2018-2022 nian 
quanguo ganbu jiaoyu peixun guihua'' [2018-2022 education and training 
plan for cadres nationwide], reprinted in Xinhua, November 1, 2018, 
secs. 1(3), 4(1)-(7).
    \26\ Ibid., sec. 1(3)3.
    \27\ Zhonghua Renmin Gongheguo Gongwuyuan Fa [PRC Civil Servant 
Law], passed April 27, 2005, amended September 1, 2017, revised 
December 29, 2018, effective June 1, 2019, arts. 13(3), 14(1).
    \28\ Zhonghua Renmin Gongheguo Gongwuyuan Fa [PRC Civil Servant 
Law], passed April 27, 2005, effective January 1, 2006, amended 
September 1, 2017, arts. 11, 12.
    \29\ Zhonghua Renmin Gongheguo Gongwuyuan Fa [PRC Civil Servant 
Law], passed April 27, 2005, amended September 1, 2017, revised 
December 29, 2018, effective June 1, 2019, arts. 7, 13, 35, 57, 67.
    \30\ Ibid., art. 59(1), (3).
    \31\ See, e.g., ``Qizi tanjian cai dezhi: Xinjiang qian faguan 
Huang Yunmin bei pan shi nian'' [Wife learns during prison visit: 
former Xinjiang judge Huang Yunmin sentenced to 10 years], Radio Free 
Asia, November 16, 2018; Jane Perlez, ``Chinese Rights Lawyer, Pu 
Zhiqiang, Is Given Suspended Prison Sentence,'' New York Times, 
December 21, 2015.
    \32\ Chinese Communist Party Central Committee, ``Guanyu Jiaqiang 
he Gaijin Zhongyang Guojia Jiguan Dang de Jianshe Yijian'' [Opinion on 
Strengthening and Improving Party Building in Central Party and 
Government Agencies], issued March 2019, art. 4.
    \33\ Holly Snape, ``Re-Writing the Rules,'' ChinaFile, Asia 
Society, August 1, 2019.
    \34\ Chinese Communist Party Central Committee, Dang Zheng Lingdao 
Ganbu Xuanba Renyong Gongzuo Tiaoli [Regulations on the Selection and 
Appointment of Leading Party and Government Cadres], effective March 3, 
2019. These regulations replace the 2014 version. Chinese Communist 
Party Central Committee, Dang Zheng Lingdao Ganbu Xuanba Renyong 
Gongzuo Tiaoli [Regulations on the Selection and Appointment of Leading 
Party and Government Cadres], issued and effective, January 15, 2014.
    \35\ Chinese Communist Party Central Committee, Dang Zheng Lingdao 
Ganbu Xuanba Renyong Gongzuo Tiaoli [Regulations on the Selection and 
Appointment of Leading Party and Government Cadres], effective March 3, 
2019.
    \36\ Ibid., art. 7(1).
    \37\ Chinese Communist Party Central Committee, Dang Zheng Lingdao 
Ganbu Xuanba Renyong Gongzuo Tiaoli [Regulations on the Selection and 
Appointment of Leading Party and Government Cadres], issued and 
effective, January 15, 2014.
    \38\ Perry Link, ``Opinion: No Sign of Political Reform in China 
Since `Charter 08,' '' Deutsche Welle, December 10, 2018; Zheng Yefu, 
``Zheng Yefu: Zhenggai nanchan zhiyin'' [Zheng Yefu: Cause of 
difficulties in having political reform], NewCenturyNet (blog), January 
3, 2019.
    \39\ Jonathan Tepperman, ``China's Great Leap Backward,'' Foreign 
Policy, October 15, 2018.
    \40\ Ibid.
    \41\ ``Disillusioned Bureaucrats Are Fleeing China's Ministries,'' 
Bloomberg, March 11, 2019.
    \42\ See, e.g., Cyberspace Administration of China, ``Hulianwang + 
zhengwu fuwu: chuangzao xin moshi, rang zhengwu fuwu geng zhihui'' 
[Internet + government services: creating a new model and making 
government services smarter], Office of the Central Cyberspace Affairs 
Commission, February 14, 2019; Sha Xueliang, ``Beijing jian wangshang 
zhengfu fuwu zongmenhu niandi qian jiucheng shixiang ke wangshang ban'' 
[Beijing builds centralized website for online government services, 90 
percent of matters can be handled online by end of year], Beijing News, 
November 6, 2018.
    \43\ Charles Parton, ``Social Credit Is Just One Part of China's 
New State Control,'' Spectator, November 17, 2018. See also Human 
Rights Watch, ``China's Algorithms of Repression,'' May 1, 2019; 
Freedom House, Freedom on the Net 2018: The Rise of Digital 
Authoritarianism, October 2018.
    \44\ Ministry of Industry and Information Technology, ``Chujin xin 
yidai rengong zhineng chanye fazhan sannian xingdong jihua (2018-2020 
nian)'' [Three-year plan to promote a new generation of artificial 
intelligence (2018-2020)], December 14, 2017. In December 2017, the 
Ministry of Industry and Information Technology issued a three-year 
plan to enhance the academic and business communities' capacity to 
develop artificial intelligence technologies, including biometric 
identification technology such as facial and sound recognition.
    \45\ Erika Kinetz, ``Shanghai Airport Automates Check-In with 
Facial Recognition,'' South China Morning Post, October 16, 2018.
    \46\ Phoebe Zhang, ``Is Nowhere Private? Chinese Subway Users Upset 
by Plans to Install Facial Recognition Systems,'' South China Morning 
Post, October 25, 2018.
    \47\ Li Tao, ``China Tests Facial Recognition at Border Crossing of 
Hong Kong-Zhuhai-Macau Bridge,'' South China Morning Post, October 24, 
2018.
    \48\ Phoebe Zhang, ``Is Nowhere Private? Chinese Subway Users Upset 
by Plans to Install Facial Recognition Systems,'' South China Morning 
Post, October 25, 2018.
    \49\ Karen Chiu, ``Smart ID Cards and Facial Recognition: How China 
Spreads Surveillance Tech around the World,'' Abacus News, November 15, 
2018; Liang Chenyu, ``Five Ways China Used Facial Recognition in 
2018,'' Sixth Tone, December 18, 2018.
    \50\ Remi Castets, ``What's Really Happening to Uighurs in 
Xinjiang?'' Nation, March 19, 2019; Darren Byler and Timothy Grose, 
``China's Surveillance Laboratory,'' Dissent, October 31, 2018.
    \51\ ``Part II: Interview: `We Can Observe the Toilet with Cameras 
as Well,' '' Radio Free Asia, October 17, 2018.
    \52\ Li Zaili, ``Facial Recognition Checks to Enter a Church,'' 
Bitter Winter, October 15, 2018.
    \53\ Human Rights Watch, ``China's Algorithms of Repression,'' May 
1, 2019.
    \54\ Chinese Communist Party Central Committee, Zhongggong 
Zhongyang Guanyu Shenhua Dang He Guojia Jigou Gaige De Jueding 
[Decision on Deepening Reform of Party and Government Agencies], 
Xinhua, March 4, 2018; ``Zhonggong zhongyang yinfa `shenhua dang he 
guojia jigou gaige fang'an' '' [Chinese Communist Party Central 
Committee issues ``Plan for Deepening Reform of Party and Government 
Agencies''], Xinhua, March 21, 2018; State Council, Guowuyuan Jigou 
Gaige Fang'an [Institutional Reform Plan], March 17, 2018; ``Shisan jie 
Quanguo Renda yi ci huiyi pizhun Guowuyuan Jigou Gaige Fang'an'' [State 
Council Structural Reform Proposal passed at first session of the 13th 
National People's Congress], Xinhua, March 17, 2018.
    \55\ Wang Hongru, ``31 shengfen jigou gaige fang'an huo pi: duo 
shengfen shiye danwei jianyuan, buzai chengdan xingzheng zhineng'' 
[Reform plan for 31 provincial-level agencies approved: many provincial 
public institutions to reduce staff members and will no longer perform 
administrative functions], China Economic Weekly, December 17, 2018.
    \56\ ``Gongxinbu: jiakuai tuidong dashuju he shiti jingji shendu 
ronghe'' [Ministry of Industry and Information Technology: accelerate 
promotion of deep fusion of big data and economy], China Central 
Television, January 29, 2019; ``Zui quan! woguo dashuju guanliju jiben 
qingkuang yilan'' [Most comprehensive! Overview of basic status of our 
nation's big data administration agencies], EChina.gov, December 14, 
2018.
    \57\ Cheng Shuwen, ``Zhengfu she `shouxi shuju guan' cheng xin 
chaoliu'' [Government installs ``chief data officer,'' becomes a new 
trend], Southern Metropolitan Daily, September 2, 2017.
    \58\ Guo Quanzhong, ``Difang weihe fenfen sheli dashuju guanliju'' 
[Why do localities create big data administration one after another], 
Beijing News, October 19, 2018; Li Deren, Cao Jianjun, and Yao Yuan, 
``Big Data in Smart City,'' China Science, August 26, 2015. Smart 
cities use a network of sensors to collect information, which is then 
stored, and analyzed in a cloud computing platform. The processed 
information is then used to automate certain functions around the city.
    \59\ ``Dujia: Zhejiang de zhejia xinshe zhongyao jigou yong jinjun 
caifang daole!'' [Exclusive: This newly established important agency in 
Zhejiang, Yong Jinjun's interview is here!] Zhejiang Daily, January 14, 
2019, reprinted in Sina News; `` `Dashuju guanliju' yu shuju dailai de 
shidai biange (shendu jiedu)'' [``Big data administratve departments'' 
and the epochal reforms that data bring (in-depth explanation)], Dahe 
Daily, November 12, 2018.
    \60\ Li Xiaopeng, ``Shen guancha, jigou gaige: `dashuju fazhan 
guanliju' ruhe huimin?'' [Close observation, organizational reform: how 
do ``big data development administrative departments'' benefit 
citizens?] The Paper, October 25, 2018.
    \61\ Human Rights Watch, ``China's Algorithms of Repression,'' May 
1, 2019; ``Gongmin luntan--Liao Tianqi: Beijing liyong dashuju quanmian 
jiankong shehui ye dui xifang goucheng weixie'' [Citizen forum--Liao 
Tianqi: Beijing's use of big data to surveil entire society also poses 
a threat to the West], Radio France Internationale, February 18, 2019.
    \62\ Jiang Tao, ``Henan mimi jianli zongjiao renyuan shujuku: 
chaoxi fenlei shishi jiankong'' [Henan secretly builds database of 
religious followers: extremely detailed categorization, real time 
surveillance], Bitter Winter, May 2, 2019.
    \63\ Li Dian, ``Henan sheng Zongjiao Shiwu Guanli Fuwu Pingtai 
shangxian'' [Henan Province Religious Affairs Management and Service 
Platform goes online], Henan Daily, May 23, 2018.
    \64\ Feng Yun, Chen Xiao Ping, and Wang Luyang, ``Datong yishi 
xingtai gongzuo zerenzhi luoshi `zuihou yi gongli' '' [Smooth out ``the 
last mile'' in implementing the responsibility system for ideological 
work], Henan Daily, September 11, 2018.
    \65\ Jiang Tao, ``Henan mimi jianli zongjiao renyuan shujuku: 
chaoxi fenlei shishi jiankong'' [Henan secretly builds database of 
religious followers: extremely detailed categorization, real time 
surveillance], Bitter Winter, May 2, 2019.
    \66\ ``Pincong, zhuanlan wenzhang: da qingbao yiwei zhe shenme?'' 
[Pincong, column: What does big data mean?] China Digital Times, August 
27, 2018.
    \67\ Ibid.
    \68\ Ibid.
    \69\ Neil Thomas, ``How Beijing Embraces Public Opinion to Govern 
and Control,'' Macro Polo, Paulson Institute, May 7, 2019.
    \70\ Amnesty International, ``Labour Activist Detained without 
Lawyer,'' March 27, 2019; Rights Defense Network, ``Lushi chenggong 
huijian Wei Zhili guonei faqi `mianju nanhai' huodong shengyuan Wei 
Zhili, Ke Chengbing, Yang Zhengjun deng sanwei laoquan weihuzhe'' 
[Lawyer successfully met with Wei Zhili, ``masked boy'' activity 
initiated in China to show support for three labor rights defenders Wei 
Zhili, Ke Chengbing, and Yang Zhengjun], April 9, 2019. For more 
information on Wei Zhili, see the Commission's Political Prisoner 
Database record 2019-00127.
    \71\ ``Henan yimiao shouhaizhe jiazhang He Fangmei zao 'xunzizui' 
pibu'' [Henan vaccine victim parent He Fangmei arrested for ``picking 
quarrels and provoking trouble''], Radio Free Asia, May 1 2019; Rights 
Defense Network, `` `Yimiao Baobao zhi Jia' weiquan tuanti faqiren He 
Fangmei (Shisan Mei) zao Henan Xinxiang Huixian jingfang xingshi 
juliu'' [Initiator of rights defense group ``Vaccinated Baby's Home'' 
He Fangmei (Sister Thirteen) criminally detained by police in Huixian, 
Xinxiang, Henan], March 21, 2019; ``Li Xin qizi He Fangmei zujian 
`Yimiao Baobao zhi Jia' liangwei gongmin yin 'yimiao' bei hecha juliu'' 
[Li Xin's wife He Fangmei organized ``Vaccinated Baby's Home,'' two 
citizens summoned to have tea and detained because of the ``vaccine 
[group]''], Canyu Net, August 6, 2018. For more information on He 
Fangmei, see the Commission's Political Prisoner Database record 2019-
00185.
    \72\ Zhonghua Renmin Gongheguo Quanguo Renmin Daibiao Dahui He 
Difang Geji Renmin Daibiao Dahui Xuanju Fa [PRC Electoral Law of the 
National People's Congress and Local People's Congresses], passed July 
1, 1979, effective January 1, 1980, amended August 29, 2015, art. 2.
    \73\ Zhonghua Renmin Gongheguo Cunmin Weiyuanhui Zuzhi Fa [PRC 
Organic Law of Village Committees], passed November 4, 1998, effective 
January 1, 1980, amended December 29, 2018. Zhonghua Renmin Gongheguo 
Chengshi Jumin Weiyuanhui Zuzhi Fa [PRC Organic Law of Urban Residents 
Committees], passed December 26, 1989, effective January 1, 1990, 
amended December 29, 2018.
    \74\ National People's Congress Standing Committee, Quanguo Renmin 
Daibiao Dahui Changwu Weiyuanhui Guanyu Xiugai ``Zhonghua Renmin 
Gongheguo Cunmin Weiyuanhui Zuzhi Fa'' Zhonghua Renmin Gongheguo 
Chengshi Jumin Weiyuanhui'' Zuzhi Fa De Jueding [Decision of the 
National People's Congress Standing Committee on Revising the on ``PRC 
Organic Law of Village Committees'' and ``PRC Organic Law of Urban 
Residents Committees''], passed and effective, December 29, 2018; 
Zhonghua Renmin Gongheguo Cunmin Weiyuanhui Zuzhi Fa [PRC Organic Law 
of Village Committees], passed November 4, 1998, amended December 29, 
2018, art. 11(2). Zhonghua Renmin Gongheguo Chengshi Jumin Weiyuanhui 
Fa [PRC Organic Law of Urban Residents Committees], passed December 26, 
1989, effective January 1, 1990, amended December 29, 2018, art. 8(1). 
See also earlier versions of these laws: Zhonghua Renmin Gongheguo 
Cunmin Weiyuanhui Zuzhi Fa [PRC Organic Law of Village Committees], 
passed November 4, 1998, amended October 28, 2010, art. 11; Zhonghua 
Renmin Gongheguo Chengshi Jumin Weiyuanhui Zuzhi Fa [PRC Organic Law of 
Urban Residents Committees], passed December 26, 1989, effective 
January 1, 1990, art. 8.
    \75\ Chinese Communist Party Central Committee General Office, 
Guanyu Dang De Jiceng Zuzhi Renqi De Yijian [Opinion on Terms of Party 
Grassroots-Level Organizations], issued and effective July 12, 2018.
    \76\ ``Cun (ju) min weiyuanhui renqi ni you 3 nian gaiwei 5 nian'' 
[Village (residents) committee terms proposed to be changed from 3 
years to 5 years], CCTV, December 24, 2018.
    \77\ ``Xiang dangzhibu kanqi Zhongguo cunweihui renqi zi 3 nian yan 
wei 5 nian'' [Acting in unison with Party branches, term for village 
committees in China extended from 3 years to 5 years], Central News 
Agency, December 23, 2018.
    \78\ See, e.g., Rights Defense Network, ``Anhui sheng Anqing shi 
Qianshan xian Yujing zhen ganbu yong heishehui dashou qiangpo cunmin 
xuanju guanban cun ganbu'' [Cadre in Yujin township, Qianshan county, 
Anqing municipality, Anhui province, uses gangster fighter to force 
villagers to elect village officials], September 14, 2018; Rights 
Defense Network, ``Shanghai weiquanrenshi Yao Huamei jielu Shanghai 
Pudong Xin qu Huinan zhen Sidun cunmin xuanju weiyuanhui zhuren Zhu 
Weiming weifan Xuanju Fa xunsi wubi'' [Shanghai rights defender Yao 
Huamei exposes violation of election laws and fraud by Zhu Weiming, 
director of village election committee in Sidun, Huinan township, 
Pudong New district, Shanghai], September 29, 2018; Rights Defense 
Network, ``Zhongguo xuanju guancha (2019) zhi yi: Beijing shi Lugouqiao 
xiang Zhengchangzhuang cun timing houxuanren huichang yanjin xuanmin 
paizhao he luxiang'' [China election monitor (2019) part one: voters 
prohibited from taking photographs and recording video at place of 
election candidates nomination in Zhengchangzhuang village, Lugouqiao 
township, Beijing municipality], February 26, 2019.
    \79\ Universal Declaration of Human Rights (UDHR), adopted and 
proclaimed by UN General Assembly resolution 217A (III) on December 10, 
1948, art. 21. According to Article 21 of the UDHR, ``Everyone has the 
right to take part in the government of his country, directly or 
through freely chosen representatives . . .. The will of the people 
shall be the basis of the authority of government; this will shall be 
expressed in periodic and genuine elections which shall be by universal 
and equal suffrage and shall be held by secret vote or by equivalent 
free voting procedures.''
    \80\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of December 16, 1966, 
entry into force March 23, 1976, art. 25.
    \81\ Rights Defense Network, ``Anhui sheng Anqing shi Qianshan xian 
Yujing zhen ganbu yong heishehui dashou qiangpo cunmin xuanju guanban 
cun ganbu'' [Cadre in Yujin township, Qianshan county, Anqing 
municipality, Anhui province, uses gangster fighter to force villagers 
to elect village officials], September 14, 2018.
    \82\ Ibid.
    \83\ UN Human Rights Council, National Report Submitted in 
Accordance with Paragraph 5 of the Annex to Human Rights Council 
Resolution 16/21--China, A/HRC/WG.6/31/CHN/1, August 20, 2018, para. 4.
    \84\ Ministry of Foreign Affairs, ``2018 nian 8 yue 31 ri Waijiaobu 
fayanren Hua Chunying zhuchi lixing jizhehui'' [Ministry of Foreign 
Affairs spokesperson Hua Chunying holds regular press conference on 
August 31, 2018], August 31, 2018.
    \85\ UN Committee on the Elimination of Racial Discrimination, 
Concluding Observations on the Combined Fourteenth to Seventeenth 
Periodic Reports of China (Including Hong Kong, China and Macao, 
China), adopted by the Committee at its 2672nd, 2673rd, 2674th and 
2675th meetings (August 24, 27, 28, 2018), CERD/C/CHN/CO/14-17, August 
30, 2018, para. 40(a).
    \86\ UN Human Rights Council, Report of the Working Group on the 
Universal Periodic Review--China, A/HRC/40/6, December 26, 2018, paras. 
28.175, 28.177, 28.180; UN Human Rights Council, Report of the Working 
Group on the Universal Periodic Review--China (Addendum), A/HRC/40/6/
Add.1, February 15, 2019, para. 2(28.175-28.180).
    \87\ UN Human Rights Council, Report of the Working Group on the 
Universal Periodic Review--China, A/HRC/40/6, December 26, 2018, paras. 
28.213, 28.333, 28.336.
    \88\ UN Human Rights Council, Report of the Working Group on the 
Universal Periodic Review--China (Addendum), A/HRC/40/6/Add.1, February 
15, 2019, para. 2(28.213, 28.333, 28.336).
    \89\ See, e.g., Jiang Jie, ``Kaiqi dang he guojia fanfubai gongzuo 
xin pianzhang'' [Opening a new chapter of Party and government 
anticorruption work], People's Daily, March 1, 2019.
    \90\ Gerry Shih, ``In China, Investigations and Purges Become the 
New Normal,'' Washington Post, October 28, 2018; Ling Li, ``Politics of 
Anticorruption in China: Paradigm Change of the Party's Disciplinary 
Regime 2012-2017,'' Journal of Contemporary China, no. 115 (2019).
    \91\ See, e.g., ``Gongmin luntan--Pan Yongzhong: Xi Jinping fadong 
da guimo fanfu dadao le liwei lixin de mudi'' [Citizen forum--Pan 
Yongzhong: Xi Jinping initiated massive anticorruption campaign, 
achieves goal of establishing power and credibility], Radio France 
Internationale, September 14, 2018; Thomas Heberer, ``Decoding the 
Chinese Puzzle: Rapid Economic Growth and Social Development Despite a 
High Level of Corruption,'' Working Papers on East Asian Studies, no. 
124/2019, Institute of East Asian Studies (Duisburg: University of 
Duisburg-Essen, 2019), 21.
    \92\ Zhonghua Renmin Gongheguo Jiancha Fa [PRC Supervision Law], 
passed March 20, 2018, art. 22.
    \93\ Central Commission for Discipline Inspection and National 
Supervisory Commission, ``Zhongyang Jiwei Guojia Jianwei zhaokai 
zuotanhui tingqu teyue jianchayuan yijian jianyi'' [Central Commission 
for Discipline Inspection and National Supervisory Commission convene 
forum to listen to suggestions of special supervisors], September 27, 
2018.
    \94\ ``Zhongshi luxing Dangzhang he Xianfa fuyu de zhize nuli 
shixian xin shidai jijian jiancha gongzuo gao zhiliang fazhan--zai 
Zhongguo Gongchandang dishijiu jie Zhongyang Jilu Jiancha Weiyuanhui 
disan ci quanti huiyi shang gongzuo baogao (2019 nian 1 yue 11 ri) Zhao 
Leji'' [Faithfully fulfilling duties granted by the Party Constitution 
and the Constitution, diligently realizing high quality developments in 
discipline, inspection, and supervisory work in the new age--work 
report presented at the 3rd plenary session of the 19th Central 
Commission of Discipline and Inspection (January 11, 2019) Zhao Leji], 
Xinhua, February 20, 2019.
    \95\ Zhonghua Renmin Gongheguo Jiancha Fa [PRC Supervision Law], 
passed March 20, 2018, art. 53.
    \96\ National Supervisory Commission, ``Guojia Jiancha Weiyuanhui 
guanyu pinqing diyi jie teyue jianchayuan de jueding'' [Decision on 
hiring the first class of special supervisors], December 17, 2018.
    \97\ National Supervisory Commission, Guojia Jiancha Weiyuanhui 
Teyue Jianchayuan Gongzuo Banfa [Measures on Special Supervisors], 
issued and effective August 24, 2018, arts. 1, 3, 9.
    \98\ Yang Yalan, ``Jieri `dahu' bu shouruan Gong'anbu fubuzhang 
Meng Hongwei jieshou diaocha'' [``Snaring tigers'' relentlessly during 
the holiday, Vice Minister of Public Security Meng Hongwei 
investigated], People's Daily, October 8, 2018.
    \99\ He Chunzhong, ``Meng Hongwei dangxuan Guoji Xingjing Zuzhi 
zhuxi'' [Meng Hongwei elected president of Interpol], China Youth 
Daily, November 11, 2016.
    \100\ Edward Wong and Alissa J. Rubin, ``Interpol Chief Meng 
Hongwei Quits and Is Detained by China,'' New York Times, October 7, 
2018.
    \101\ ``Gong'anbu yuan fubuzhang Meng Hongwei yanzhong weiji weifa 
bei kaichu dangji he gongzhi'' [Former Vice Minister of Public Security 
Meng Hongwei expelled from Party and stripped of official position for 
serious violations of Party rules and law], Xinhua, March 27, 2019.
    \102\ Ibid.
    \103\ Emmanuel Jarry and John Irish, ``Wife of Missing Ex-Interpol 
Chief Says Arrest in China Politically Motivated,'' Reuters, March 28, 
2019; Central Commission for Discipline Inspection and National 
Supervisory Commission, ``Gong'anbu fubuzhang Meng Hongwei shexian 
weifa jieshou Guojia Jianwei jiancha diaocha'' [Vice Minister of Public 
Security Meng Hongwei supervised and investigated by NSC on suspicion 
of unlawful conduct], October 7, 2018; ``Gong'anbu yuan fubuzhang Meng 
Hongwei yanzhong weiji weifa bei kaichu dangji he gongzhi'' [Former 
Vice Minister of Public Security Meng Hongwei expelled from Party and 
stripped of official position for serious violations of Party rules and 
law], Xinhua, March 27, 2019; Zhonghua Renmin Gongheguo Jiancha Fa [PRC 
Supervision Law], passed March 20, 2018, art. 15. Although the Xinhua 
article said that Meng was expelled from the Party, Meng's wife claimed 
that Meng already had withdrawn his Party membership two years earlier. 
Of note is the fact that the initial official announcement stated that 
Meng was being investigated by the National Supervisory Commission, 
which has jurisdiction over non-Party members.
    \104\ Drew Hinshaw and Bradley Hope, ``China Installed Its Top Cop 
to Steer Interpol. Then He Disappeared.,'' Wall Street Journal, April 
26, 2019.
    \105\ Guo Rui and Choi Chi-yuk, ``China Jails Former Prosecutors 
over Tortured Hong Kong Businessman Stephen Lau's Death in Custody,'' 
South China Morning Post, October 25, 2018.
    \106\ ``Caifang tanjiu shigu nu jizhe bei shenye chafang `zhuapiao' 
gong'anju hanyou daoqian ren zhifa budang'' [Reporting on the Tanjiu 
incident, female reporter had room inspected at night for 
`prostitution,' public security bureau apologizes in rare move, admits 
inappropriate law enforcement], Standnews, November 20, 2018; 
``Quanzhou shi gong'anju fa tongbao Quangang qu gong'an zhifa bei 
wenze'' [Quanzhou municipal public security issues bulletin, law 
enforcement officer in Quangang district held accountable], Caixin Net, 
November 21, 2018.
    \107\ ``Quanzhou shi gong'anju fa tongbao Quangang qu gong'an zhifa 
bei wenze'' [Quanzhou municipal public security issues bulletin, law 
enforcement officer in Quangang district held accountable], Caixin Net, 
November 21, 2018.
    \108\ Shandong Province People's Government, ``Shandong Sheng 
Renmin Zhengfu guanyu renming Ma Yuenan deng gongzuo renyuan zhiwu de 
tongzhi'' [Circular on appointing Ma Yuenan and other staff members to 
certain positions], November 1, 2018.
    \109\ Yan Xiangling, ``Shandong sheng dui buhege yimiao wenti sheji 
danwei ji xiangguan renyuan yuyi wenze'' [Shandong province holds work 
units and related personnel accountable over substandard vaccine 
issue], Xinhua, September 30, 2018.
    \110\ ``Zhongguo xin she dashuju ju juzhang jing you shou chufen 
guanyuan'' [Directors of China's new big data bureaus surprisingly 
include disciplined officials], Radio Free Asia, November 6, 2018; 
Organization Department, Central Committee, Chinese Communist Party, 
Guanyu Zuzhi Renshi Bumen dui Lingdao Ganbu Jinxing Tixing, Hanxun he 
Jiemian de Shishi Xize [Implementing Details on Reminders, Written 
Inquiries, and Reprimands Issued to Leading Cadres from the 
Organization [Department's] Human Resources Departments], issued and 
effective June 30, 2015, art. 19.
    \111\ ``Liu Zhonglin an: mengyuan guanya 25 nian huo Zhongguo 
guojia peichang 460 wan'' [Liu Zhonglin case: Unjustly detained for 25 
years, receives compensation of 4.6 million from Chinese government], 
BBC, January 7, 2019.
    \112\ ``Liu Zhonglin an: mengyuan guanya 25 nian huo Zhongguo 
guojia peichang 460 wan'' [Liu Zhonglin case: Unjustly detained for 25 
years, receives compensation of 4.6 million from Chinese government], 
BBC, January 7, 2019; Wang Jingshuo, ``Jilin Liu Zhonglin huo 460 wan 
yuan guojia peichang'' [Liu Zhonglin from Jilin receives 460 yuan of 
state compensation], China Youth Daily, January 8, 2019.


                                                     Access to 
                                                        Justice
                                                Access to 
                                                Justice

                           Access to Justice


                                Findings

        <bullet> Under the International Covenant on Civil and 
        Political Rights (ICCPR), all persons are entitled to 
        equal treatment in the course of seeking enforceable 
        legal remedies within the legal system for violations 
        of their rights. During the 2019 reporting year, the 
        Commission observed examples in which Chinese 
        authorities violated the right to equal treament by 
        influencing the judiciary, controlling the legal 
        profession, and persecuting human rights lawyers, all 
        of which are inconsistent with the relevant ICCPR 
        provisions.
        <bullet> The Chinese Communist Party issued regulations 
        to formalize its control over the judiciary through 
        political-legal work committees, which are Party 
        entities. In January 2019, the Central Political-Legal 
        Committee led an investigation into a case involving 
        allegations that Supreme People's Court President Zhou 
        Qiang interfered with the adjudication of a case. The 
        investigation's conclusion was based on a possibly 
        coerced confession and did not address Zhou's 
        involvement.
        <bullet> The Party's absolute leadership over the 
        judiciary, as promoted by official media, had a 
        negative impact on the overall judicial process. The 
        Supreme People's Court planned to amend past judicial 
        interpretations to conform to approved political 
        ideology and announced that it would not issue any new 
        judicial interpretations unless the topic was specified 
        by the Party. With respect to the legal profession, the 
        Minister of Justice urged lawyers to ``unify their 
        thoughts'' and to accept the Party's complete 
        leadership over their work.
        <bullet> Authorities continued to criminally prosecute 
        human rights lawyers on charges such as ``subversion of 
        state power,'' viewing legal representation provided by 
        them as a threat to the Party's political security. 
        Authorities also restricted the speech and movement of 
        human rights lawyers, and in some cases stripped them 
        of their law licenses.
        <bullet> Citizens continued to use the petitioning 
        system as a channel to express their grievances, but 
        the system's opacity made the effectiveness of their 
        efforts difficult to determine. Some local governments 
        answered calls from central authorities to improve 
        data-sharing capability with anticorruption agencies to 
        better monitor conduct of local officials, suggesting a 
        new focus for the petitioning system.
        <bullet> The Ministry of Justice announced changes to 
        the legal aid system to standardize services, including 
        the prompt assignment of and compensation for legal aid 
        workers. Acting jointly with the Supreme People's 
        Court, the Ministry of Justice also expanded a legal 
        aid service pilot program for criminal cases to cover 
        more locations. These new developments do not appear to 
        expand the space for civil society groups to provide 
        public interest legal aid services, and authorities 
        banned a group formed to provide legal aid and 
        consultation.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Highlight and discuss with Chinese officials the 
        report in which the UN Working Group on Arbitrary 
        Detention found human rights lawyers Wang Quanzhang, 
        Jiang Tianyong, Li Yuhan, and Yu Wensheng to have been 
        arbitrarily detained. Urge the Chinese government to 
        unconditionally exonerate the above-named lawyers and 
        other similarly situated lawyers.
          Highlight and discuss with Chinese officials cases of 
        human rights lawyers such as Sui Muqing, Tan Yongpei, 
        Liu Zhengqing, Xie Yanyi, and Chen Keyun, whose law 
        licenses were revoked or whose ability to practice law 
        was otherwise restricted because of their legal 
        representation and advocacy in cases that Chinese 
        authorities deem politically sensitive.
          Urge the Chinese government to protect the 
        fundamental civil and professional rights of China's 
        lawyers, to investigate all allegations of abuse 
        against them, and to ensure that those responsible are 
        brought to justice. Urge the Chinese government to end 
        all forms of harassment or persecution against the 
        family members of human rights lawyers and advocates, 
        including surveillance and restrictions on their 
        freedom of movement.
          Urge the Chinese government to stop all forms of 
        persecution or prosecution of petitioners who use the 
        petitioning system to peacefully seek redress for their 
        grievances.
          Urge leaders of the Chinese Communist Party and 
        government to grant the judiciary true independence and 
        warn them of the negative impact on the rule of law 
        when the judiciary is involved in political campaigns.
          Increase support for programs that promote dialogue 
        between U.S. and Chinese legal experts to determine how 
        China can structure and implement legal reforms. 
        Concomitantly increase support for collaboration 
        between U.S. and Chinese academic and non-governmental 
        entities to help develop programs that enhance the 
        capacity of the Chinese legal system to protect 
        citizens' rights.


                                                     Access to 
                                                        Justice
                                                Access to 
                                                Justice

                           Access to Justice

    The International Covenant on Civil and Political Rights 
(ICCPR), which China signed and expressed its intention to 
ratify,\1\ provides that all persons are equal before the 
courts; it also obligates a State Party to ensure that people 
have enforceable legal remedies for any violation of the rights 
and freedoms recognized in the convention, even if the 
violation has been committed by an official.\2\
    Although Supreme People's Court President Zhou Qiang 
reported improvements in different aspects of the judicial 
system,\3\ the examples of political interference with the 
judiciary, control over the legal profession, and persecution 
of human rights lawyers that the Commission observed during the 
2019 reporting year are inconsistent with the relevant ICCPR 
provisions.

          Communist Party's Control Over the Judicial Process


   COMMUNIST PARTY EXERTS CONTROL THROUGH POLITICAL-LEGAL COMMITTEES

    The Chinese Communist Party Central Committee issued 
Regulations on the Chinese Communist Party's Political-Legal 
Work, effective in January 2019, to formalize its control over 
a range of state functions, including the judiciary.\4\ Under 
the regulations, Party-run political-legal committees at the 
central and provincial levels are tasked with promoting 
judicial transparency, as well as reporting instances of 
judicial interference by cadres in leadership positions.\5\ 
According to an official interpretation of the new regulations, 
political-legal committees are responsible for setting general 
directions and policies but are not authorized to manage 
substantive work in individual cases.\6\ In practice, however, 
political-legal committees have a record of influencing 
individual cases.\7\
    In March 2018, Central Party authorities expanded the scope 
of the Central Political-Legal Committee's \8\ jurisdiction to 
domestic public security concerns,\9\ including integrated 
``social order management,'' ``social stability maintenance,'' 
and prevention and handling of ``cult'' issues,\10\ which have 
been the bases for prosecuting citizens in connection to their 
legitimate and peaceful exercise of internationally recognized 
human rights.\11\ [For more information on Chinese authorities' 
use of criminal provisions to suppress religion and human 
rights activities, see Section II--Criminal Justice and Freedom 
of Religion.]

------------------------------------------------------------------------
            Judicial Interference and Party-Led Investigation
-------------------------------------------------------------------------
  In January 2019, the Central Political-Legal Committee led an
 investigation into a case involving allegations of judicial
 interference, including those involving the Supreme People's Court
 (SPC) President Zhou Qiang. According to Radio Free Asia, some lawyers
 pointed out that the Central Political-Legal Committee lacks
 constitutional authority to investigate the Supreme People's Court
 since such authority lies with the National People's Congress.\12\
------------------------------------------------------------------------


------------------------------------------------------------------------
      Judicial Interference and Party-Led Investigation--Continued
-------------------------------------------------------------------------
  The subject of the investigation was a case that commenced in 2006,
 when entrepreneur Zhao Faqi's company sued a state-owned enterprise
 over a contract dispute concerning mining rights in Shaanxi
 province.\13\ Despite initial success, Zhao's company lost on appeal,
 and the case twice came before the SPC.\14\ In November 2016, Zhao Faqi
 published an open letter in which he alleged that several high-ranking
 officials in Shaanxi had intervened in the judicial process and thereby
 affected the disposition of the case.\15\
  Beginning in December 2018, Wang Linqing, a former SPC judge who
 handled the case, released several pre-recorded video clips and
 confirmed unofficial information \16\ that the case file had gone
 missing since 2016.\17\ Wang further recounted that an SPC leader--whom
 another source identified as SPC President Zhou Qiang--gave him two
 sets of instructions through another court official, initially to
 remand the case, and later to dismiss the appeal, which would have had
 the effect of reversing the collegial panel's decision \18\ to rule in
 favor of Zhao's company.\19\ In February 2019, official media outlet
 China Central Television broadcasted a recording showing Wang admitting
 to stealing the file himself ostensibly in order to prevent the case
 from being transferred away, given the amount of time he had spent
 working on it.\20\
  The Party-led investigation team found that the SPC's case file
 security measures were defective and that the adjudication process was
 delayed beyond the statutory timeframe.\21\ The team, however, did not
 make a finding specific to the alleged involvement of Zhou Qiang.\22\
 Zhou promptly expressed support for the investigation results, as
 reported in an editorial in the People's Court Daily entitled
 ``Upholding the Party's Absolute Leadership over the Work of People's
 Courts.'' \23\ Observers questioned the voluntariness of Wang Linqing's
 recorded confession and the credibility of the investigation.\24\
------------------------------------------------------------------------

   FIVE-YEAR PLAN TO CONFORM JUDICIAL INTERPRETATIONS TO PARTY VALUES

    Following a Chinese Communist Party directive,\25\ the 
Supreme People's Court (SPC) in September 2018 issued a five-
year plan requiring that the selection, drafting, and amendment 
of judicial interpretations must conform to ``socialist core 
values'' \26\ as guided by the political ideology of Party 
General Secretary and President Xi Jinping.\27\ While the full 
text of the plan was not publicly available,\28\ the head of 
the SPC Research Office explained that the SPC planned to 
revisit existing judicial interpretations and amend portions 
that were in conflict with socialist core values, with an 
intention to incorporate the ideological aims of socialist core 
values into judicial adjudication standards.\29\ He also said 
that the SPC in principle would not issue new judicial 
interpretations in the next five years unless the topic was 
specifically listed in the five-year plan.\30\

                    CONTROL OF THE LEGAL PROFESSION

    In September 2018, the Ministry of Justice convened a 
meeting about Party-building in the legal profession 
nationwide,\31\ echoing a provision in the Measures on Managing 
Law Firms that requires law firms to engage in Party-
building.\32\ ``Party-building'' encompasses a range of 
activities such as improving the Party's organizational 
structure, as well as Party members' discipline and their 
ideological commitment.\33\ At the meeting, Minister of Justice 
Fu Zhenghua urged attendees to further ``unify [their] 
thoughts'' and to ``unabashedly support the Party's complete 
leadership over lawyers' work.'' \34\ The meeting specified 
that Party-building work must be a priority within the entire 
legal profession by 2020.\35\ In May 2019, three non-
governmental organizations submitted a joint analysis to the UN 
Special Rapporteur on the independence of judges and lawyers, 
in which they observed that recent administrative measures 
imposed on lawyers and law firms facilitated political 
interference by granting authorities ``the power to deny, 
temporarily or indefinitely, the right to practice to lawyers 
without reasonable and effective avenues for appeal.'' \36\

                  Persecution of Human Rights Lawyers

    Chinese authorities continued to persecute human rights 
lawyers, including Wang Quanzhang, Jiang Tianyong, Li Yuhan, 
and Yu Wensheng, whom the UN Working Group on Arbitrary 
Detention (Working Group) found to have been detained for their 
rights defense work, in contravention of the Universal 
Declaration of Human Rights.\37\ The Working Group requested 
that the Chinese government immediately release the 
lawyers.\38\ Chinese authorities, however, continued to subject 
them to criminal prosecution and penalty.
    In January 2019, the Tianjin No. 2 Intermediate People's 
Court sentenced Wang Quanzhang to four years and six months in 
prison for ``subversion of state power.'' \39\ In June 2019, 
authorities permitted Wang's wife Li Wenzu to visit him for the 
first time in nearly four years.\40\ Li reported that Wang had 
lost a significant amount of weight, exhibited robotic 
reactions and hazy memory, and was reading from a piece of 
paper when he asked her not to visit him anymore.\41\ In 
February 2019, authorities extralegally detained Jiang Tianyong 
upon completion of his two-year prison term for ``inciting 
subversion of state power.'' \42\ Authorities eventually 
permitted Jiang to return home but continued to subject him to 
strict surveillance,\43\ a measure not provided for in the PRC 
Criminal Procedure Law.\44\ Jiang's wife reported that 
authorities tortured Jiang and that he suffered from depression 
and significant memory loss.\45\ In April 2019, Li Yuhan's 
lawyers reported that Li's health had deteriorated further at a 
detention center in Shenyang municipality, Liaoning province, 
and that the court had postponed a scheduled trial without 
giving them notice.\46\
    As of March 2019, authorities continued to hold Yu Wensheng 
in pretrial detention for over a year and deny him legal 
representation by lawyers hired by his family.\47\ Yu's wife Xu 
Yan reported that in March over 10 public security officials 
and residential committee personnel were stationed outside her 
residence and prevented her from leaving.\48\ Xu previously 
filed an administrative review and an administrative appeal 
over the public security bureau's rejection of clothing that 
she had sent to her husband in detention.\49\
    Besides criminal prosecution, Chinese authorities used 
other methods to persecute human rights lawyers, including 
revoking their law licenses,\50\ placing obstacles in the 
license renewal process,\51\ and restricting their freedom of 
speech \52\ and movement.\53\ In one example, police physically 
assaulted a lawyer when she was performing her duties as a 
criminal defense lawyer: \54\

        <bullet> Sun Shihua. In September 2018, lawyer Sun, the 
        wife of human rights lawyer Sui Muqing,\55\ went to a 
        police station in Guangzhou municipality, Guangdong 
        province, in connection with her client's criminal 
        case.\56\ An officer surnamed Chen reportedly declined 
        to discuss Sun's client's case with her and accused Sun 
        of attacking him.\57\ A group of officers then gathered 
        and beat Sun, during which time Officer Chen choked her 
        and rendered her unconscious.\58\ Officers then ordered 
        Sun to take off her clothes and provide a urine 
        sample.\59\ During Sun's six-hour long detention, 
        officers also reportedly ordered her client to strip 
        naked.\60\ The Guangzhou Public Security Bureau said it 
        investigated the incident and concluded that the 
        officers ``had a rigid attitude and acted uncivilly,'' 
        but it denied physical assault or insult having taken 
        place.\61\ While at the police station, Sun overheard 
        two officers saying to each other that someone had 
        asked the police station to ``handle her case.'' \62\

                          Citizen Petitioning

    The petitioning system (xinfang), also known as the 
``letters and visits system,'' has been a popular mechanism 
outside of the formal legal system for citizens to present 
their grievances to authorities, either in writing or in 
person.\63\ The petitioning system reportedly has been 
ineffective in addressing citizens' grievances due to factors 
such as the large number of petitions,\64\ staff shortages,\65\ 
officials' fraudulent use of data,\66\ and corruption.\67\
    Although the director of the National Public Complaints and 
Proposals Administration said that the petitioning system was 
highly efficient and had a public satisfaction rate of over 95 
percent,\68\ such claims remained unverifiable due to a lack of 
transparency. A group of 57 petitioners from Shanghai 
municipality previously asked the government to release 
information to verify a similar claim made in 2016.\69\ The 
Shanghai government called the information ``state secrets'' 
and refused to disclose it.\70\ The petitioners then sought 
administrative review with the State Council, which had not 
provided them with a response as of October 2018,\71\ far 
exceeding the statutory 90-day case processing time limit.\72\
    This past year, some local governments focused their 
efforts on enhancing the petitioning system's capability to 
collect data for anticorruption agencies.\73\ For example, an 
official news outlet reported that officials in Beijing 
municipality created a system by which they would make 
appointments with petitioners to individually hear complaints 
concerning significant misconduct.\74\ In Guizhou province, 
officials developed a system to sort through this type of 
complaint and set case completion time limits.\75\
    During this reporting year, petitioners continued to face 
official repression. Authorities detained petitioners, alleging 
criminal or administrative offenses including ``disrupting 
order in a public place,'' \76\ ``picking quarrels and 
provoking trouble,'' \77\ and ``obstructing official 
business.'' \78\ In addition, authorities reportedly detained 
petitioners in the period leading up to and during the annual 
meetings of the National People's Congress and Chinese People's 
Political Consultative Conference in March 2019.\79\

                               Legal Aid

    The legal aid system remained a state-controlled 
institution. State Council regulations require that justice 
bureaus of local governments appoint legal aid organizations 
and administer legal aid programs through them.\80\ Legal aid 
organizations may assign eligible applicants to in-house 
lawyers or make referrals to law firms, grassroots legal 
services, or other social organizations.\81\ Lawyers are 
legally obligated to provide legal aid services and may be 
disciplined or fined for refusing to do so.\82\
    This past year, authorities expanded and standardized legal 
aid services across China. In January 2019, the Supreme 
People's Court and the Ministry of Justice expanded a legal aid 
pilot program from 8 locations to 31.\83\ The pilot program 
required authorities to advise unrepresented criminal 
defendants of their right to legal counsel; it also required 
better coordination between courts, procuratorates, public 
security bureaus, justice bureaus, and legal aid offices to 
improve allocation of legal aid resources.\84\
    Following this, the Ministry of Justice in February 2019 
issued a document to standardize legal aid services in criminal 
cases, covering different stages of a criminal case, from 
pretrial investigation to appellate work.\85\ Around the same 
time, the Ministry of Justice and Ministry of Finance issued a 
guiding opinion delineating specific standards for setting the 
amount of compensation for legal aid workers and lawyers in 
administrative, civil, and criminal cases.\86\
    These documents, however, do not contain provisions for 
legal aid services provided by civil society groups operating 
outside the officially sanctioned framework. In at least one 
instance, authorities banned one such group and effectively 
shut down its operations.\87\ In September 2018, several rights 
lawyers who lost their law licenses after a crackdown in 2015 
formed a public interest group based in Nanning municipality, 
Guangxi Zhuang Autonomous Region, to provide legal aid and 
consultation services.\88\ In January 2019, authorities in 
Nanning banned the group, alleging that it operated in 
violation of the Regulations on the Registration and Management 
of Social Organizations.\89\

               Other Developments in the Judicial System

    Parallel to the repressive campaign against rights lawyers 
and advocates, Chinese authorities continued to carry out ``the 
most systematic and structural legal reform, unprecedented 
since Chinese reform started 40 years ago,'' as observed by a 
Hong Kong-based scholar.\90\

        <bullet> Supreme People's Court President Zhou Qiang 
        reported an increase in the number of successfully 
        resolved enforcement cases in the past three years,\91\ 
        thereby accomplishing a goal set at the Fourth Plenum 
        of the 18th Chinese Communist Party Central Committee 
        held in November 2014.\92\ In January 2019, however, 
        the U.S. Department of State cautioned that Chinese 
        authorities could prohibit U.S. citizens from leaving 
        China in order to compel them to resolve civil disputes 
        in favor of Chinese parties.\93\
        <bullet> Court officials used technology to make it 
        more convenient for citizens to access the court 
        system, such as developing online case opening systems 
        and promoting mobile courts housed in vehicles.\94\
        <bullet> In October 2018, the National People's 
        Congress Standing Committee (NPCSC) revised the PRC 
        Organic Law of People's Courts, which codified certain 
        judicial reforms in the past 40 years, including the 
        establishment of specialized courts, a judicial 
        responsibility system, and a judge quota system.\95\
        <bullet> In April 2019, the NPCSC revised the PRC 
        Judges Law to codify the selection and review process 
        for judges.\96\ The revised law also added the 
        requirement to support the Party's leadership and the 
        socialist system.\97\


                                                     Access to 
                                                        Justice
                                                Access to 
                                                Justice
    Notes to Section III--Access to Justice

    \1\ United Nations Treaty Collection, Chapter IV, Human Rights, 
International Covenant on Civil and Political Rights, accessed July 8, 
2019; State Council Information Office, ``Guojia renquan xingdong jihua 
(2016-2020 nian)'' [National human rights action plan of China (2016-
2020)], September 29, 2016, sec. 5.
    \2\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of December 16, 1966, 
entry into force March 23, 1976, arts. 2(3), 14.
    \3\ ``Zuigao Renmin Fayuan gongzuo baogao'' [Supreme People's Court 
work report], March 12, 2019. For examples of the judicial improvements 
presented in the SPC Work Report, see ``Other Developments in the 
Judicial System'' in this section.
    \4\ Chinese Communist Party Central Committee, Zhonggong 
Gongchandang Zhengfa Gongzuo Tiaoli [Regulations on Chinese Communist 
Party Political-Legal Work], effective January 13, 2019, art. 3.
    \5\ Ibid., arts. 21(8), 31.
    \6\ Liu Ziyang, ``Wanshan jiandu zhiyue tixi tisheng zhifa sifa 
gongxinli `Zhongguo Gongchandang Zhengfa Gongzuo Tiaoli' jiedu zhi 
san'' [Improve a system of supervision and constraints to augment the 
judiciary's public trust, an explanation of ``Regulations on the 
Chinese Communist Party's Political-Legal Work'' (iii)], Legal Daily, 
January 31, 2019.
    \7\ See, e.g., ``Zhengfawei lingdao diaocha Zuigaofa shi juanzong 
falu jie zhi weixian'' [Political-Legal Committee leads investigation 
in SPC's loss of case file, legal community calls it unconstitutional], 
Radio Free Asia, January 9, 2019; Yuan Feng and Qing Ping, ``Zhonggong 
sifa gaige xin dongzuo xuezhe jiedu `Zhengfa Gongzuo Tiaoli' (shang)'' 
[New movement in CCP judicial reform, scholar explains ``Regulations on 
the Chinese Communist Party's Political-Legal Work'' (1)], Duowei, 
February 16, 2019; Wu Laosi (@wulaws), ``Weishenme shuo fayuan fujuan 
shi Zhongguo sifa de hei xiazi'' [Why are court copies of case files 
considered to be the judicial black box], July 13, 2015, reprinted in 
WeChat post, 2019; Chen Guangcheng, ``How China Flouts Its Laws,'' New 
York Times, May 29, 2012.
    \8\ The Central Political-Legal Committee is also known as 
``Central Committee of Political Science and Law'' and as the ``Central 
Commission for Political and Legal Affairs.'' Susan V. Lawrence, 
``China's Political Institutions and Leaders in Charts,'' Congressional 
Research Service, Library of Congress, November 12, 2013, 8 n.8.
    \9\ Yuhua Wang and Carl Minzner, ``The Rise of the Chinese Security 
State,'' China Quarterly, no. 222 (June 2015): 339-59.
    \10\ ``Zhonggong zhongyang yinfa `Shenhua Dang he Guojia Jigou 
Gaige Fang'an' '' [Chinese Communist Party Central Committee issues 
``Plan for Deepening Reform of Party and Government Agencies''], 
Xinhua, March 21, 2018, sec. 1(18), (19), (20).
    \11\ ``Zhongguo dangju qiangli weiwen zhongpan canyu tuiwu junren 
weiquan shijian laobing'' [Chinese authorities forcefully maintain 
stability, heavily sentence old soldiers who joined veterans' rights 
defense incident], Voice of America, April 19, 2019; Jiang Tao, 
``Quannengshen Jiaohui shangceng dailing zao zhongpan 13 nian'' 
[Almighty God Church leader given heavy sentence of 13 years], Bitter 
Wind, November 21, 2018. For more information on the associated 
Almighty God Church member detentions, see the Commission's Political 
Prisoner Database records 2013-00025 on Chen Hong, 2019-00107 on Bao 
Shuguang, 2019-00108 on Jiang Xingmei, 2019-00109 on Bai Lanxiang, and 
2019-00110 on Gu Liya.
    \12\ ``Zhengfawei lingdao diaocha Zuigaofa shi juanzong falu jie 
zhi weixian'' [Political-Legal Committee leads investigation in SPC's 
loss of case file, legal community calls it unconstitutional], Radio 
Free Asia, January 9, 2019.
    \13\ ``Wang Linqing qianyi kuangquan an juanzong diushi shijian yu 
diaocha jieguo'' [Investigation result in loss of case file incident in 
100 billion mining rights case involving Wang Linqing], BBC, February 
23, 2019.
    \14\ Ibid.
    \15\ Zhao Faqi, ``Zhao Faqi shiming jubao quanwen: Shanxi yuan 
Shengzhang Yuan Chunqing, Shengwei Shuji Zhao Zhengyong huotong Shaanxi 
Sheng Zhengxie Changwei Liu Juan daoqu guoyou zichan'' [Full text of 
Zhao Faqi's complaint under his real name: former Shaanxi Governor Yuan 
Chunqing, provincial Party Secretary Zhao Zhengyong stole state assets 
with the aid of Shaanxi CPPCC Standing Committee member Liu Juan], 
WeChat post, November 3, 2016, reprinted in China Digital Times, 
January 18, 2019.
    \16\ ``Wang Linqing qianyi kuangquan an juanzong diushi shijian yu 
diaocha jieguo'' [Investigation result in loss of case file incident in 
the 100 billion mining rights case involving Wang Linqing], BBC, 
February 23, 2019; Chris Buckley, ``Chinese Entrepreneur Takes On the 
System, and Drops Out of Sight,'' New York Times, March 9, 2019; 
``Chinese Supreme Court Judge under Criminal Investigation after 
Whistleblowing,'' Radio Free Asia, February 25, 2019.
    \17\ ``Cui Yongyuan baoguang qianyi kuang an hou, Zhongguo Zuigao 
Fayuan faguan Wang Linqing, zibao shipin zuixin 4 duan (20 fenzhong 
wanzheng ban)'' [Complete collection of newest 4 video clips of China's 
supreme court judge Wang Linqing, recorded for self-protection after 
Cui Yongyuan exposed 100 billion mining right case] [Video file], 
YouTube, January 6, 2019. A compiled version of the video clips showing 
Cui Yongyuan's interview with Wang Linqing is available on YouTube.
    \18\ A collegial panel is responsible for case adjudication; it may 
consist of a single judge or a judge and people's assessors. Zhonghua 
Renmin Gongheguo Renmin Fayuan Zuzhi Fa [PRC Organic Law of People's 
Courts], passed July 1, 1979, revised October 26, 2018, effective 
January 1, 2019, arts. 29, 30.
    \19\ ``Cui Yongyuan baoguang qianyi kuang an hou, Zhongguo Zuigao 
Fayuan faguan Wang Linqing, zibao shipin zuixin 4 duan (20 fenzhong 
wanzheng ban)'' [Complete collection of newest 4 video clips of China's 
supreme court judge Wang Linqing, recorded for self-protection after 
Cui Yongyuan exposed 100 billion mining right case] [Video file], 
YouTube, January 6, 2019. A compiled version of the video clips showing 
Cui Yongyuan's interview with Wang Linqing is available on YouTube. 
Chris Buckley, ``Chinese Entrepreneur Takes On the System, and Drops 
Out of Sight,'' New York Times, March 9, 2019.
    \20\ ``Shipin: `Kaiqilai an' juanzong diushi deng wenti diaocha 
jieguo gongbu'' [Video clip: announcement of result of investigation 
into issues such as loss of case file in ``Kaiqilai case''], CCTV, 
February 22, 2019.
    \21\ ``Zhongyang Zhengfawei qiantou de lianhe diaocha zu gongbu 
`Kaiqilai an' juanzong diushi deng wenti diaocha jieguo'' 
[Investigation team led by Central Political-Legal Committee releases 
investigation results concerning issues including missing file in 
``Kaiqilai Case''], Xinhua, February 22, 2019.
    \22\ ``Zhongyang Zhengfawei qiantou de lianhe diaocha zu gongbu 
`Kaiqilai an' juanzong diushi deng wenti diaocha jieguo'' 
[Investigation team led by Central Political-Legal Committee releases 
investigation results concerning issues including missing file in 
``Kaiqilai Case''], Xinhua, February 22, 2019; ``Zhonggong guanmei 
yuanhe didiao chuli Wang Linqing an `diaocha jieguo' '' [Why did 
Chinese official news outlets treat ``investigation results'' in Wang 
Linqing Case in a low-profile manner], Radio Free Asia, February 25, 
2019.
    \23\ ``Jianchi Dang dui renmin fayuan gongzuo de juedui lingdao'' 
[Upholding the Party's absolute leadership over the work of people's 
courts], People's Court Daily, February 24, 2019.
    \24\ Chris Buckley, ``Chinese Entrepreneur Takes On the System, and 
Drops Out of Sight,'' New York Times, March 9, 2019; ``Weixin: zhi 
lianhe diaochazu Wang Linqing renzui hou de shi ge yiwen'' [WeChat: To 
the joint investigation team: ten questions that Wang Linqing's 
confession raised], WeChat post, reprinted in China Digital Times, 
February 23, 2019.
    \25\ ``Zhonggong Zhongyang yinfa `Shehui Zhuyi Hexin Jiazhi Guan 
Rongru Fazhi Jianshe Lifa Xiufa Guihua' '' [CCP Central Committee 
issues ``Plan to Fuse Socialist Core Values into Rule of Law 
Development, Legislation, and Amending Laws''], Xinhua, May 7, 2018.
    \26\ According to official news outlet China Daily, ``socialist 
core values'' ``comprise a set of moral principles summarized as 
prosperity, democracy, civility, harmony, freedom, equality, justice, 
the rule of law, patriotism, dedication, integrity and friendliness.'' 
Zhang Yunbi, ``New Laws to Apply Socialist Core Values,'' China Daily, 
May 8, 2018. There are examples of authorities justifying censorship 
and academic control using these principles. See, e.g., Sophie 
Richardson, Human Rights Watch, ``China Cracks Down on Entertainment 
News,'' June 12, 2017; Hannah Beech, ``China's College Counselors Told 
to Join the Party--The Communist Party,'' Time, November 19, 2015.
    \27\ ``Yi shehui zhuyi hexin jiazhi tixi wei hun, quanmian zhu lao 
sifa jieshi de jiazhi jichu--jiu `Zuigao Renmin Fayuan guanyu zai Sifa 
Jieshi Zhong Quanmian Guanche Shehui Zhuyi Hexin Jiazhiguan de Gongzuo 
Guihua (2018-2023)' fang Zuigao Renmin Fayuan Yanjiushi fuzeren'' 
[Having socialist core values as the soul, comprehensively bolster 
foundation of value of judicial interpretations--interview with head of 
Supreme People's Court Research Office concerning ``Supreme People's 
Court Plan on Comprehensively Implementing Socialist Core Values in 
Judicial Interpretation (2018-2023)''], Zuigao Renmin Fayuan Wang 
[Supreme People's Court Net], September 18, 2018.
    \28\ Commission research staff performed a search on April 16, 
2019, and was unable to locate the full text of the plan.
    \29\ ``Yi shehui zhuyi hexin jiazhi tixi wei hun, quanmian zhu lao 
sifa jieshi de jiazhi jichu--jiu `Zuigao Renmin Fayuan guanyu zai Sifa 
Jieshi Zhong Quanmian Guanche Shehui Zhuyi Hexin Jiazhiguan de Gongzuo 
Guihua (2018-2023)' fang Zuigao Renmin Fayuan Yanjiushi fuzeren'' 
[Having socialist core values as the soul, comprehensively bolster 
foundation of value of judicial interpretations--interview with head of 
Supreme People's Court Research Office concerning ``Supreme People's 
Court Plan on Comprehensively Implementing Socialist Core Values in 
Judicial interpretation (2018-2023)''], Zuigao Renmin Fayuan Wang 
[Supreme People's Court Net], September 18, 2018; Xu Jun, ``Quanmian 
zhulao sifa jieshi de jiazhi jichu'' [Comprehensively build a firm 
foundation for values in judicial interpretations], People's Daily, 
September 19, 2018.
    \30\ ``Yi shehui zhuyi hexin jiazhi tixi wei hun, quanmian zhu lao 
sifa jieshi de jiazhi jichu--jiu `Zuigao Renmin Fayuan guanyu zai sifa 
jieshi zhong quanmian guanche shehui zhuyi hexin jiazhiguan de gongzuo 
guihua (2018-2023)' fang Zuigao Renmin Fayuan yanjiushi fuzeren'' 
[Having socialist core values as the soul, comprehensively bolster 
foundation of value of judicial interpretations--interview with head of 
Supreme People's Court Research Center concerning ``Supreme People's 
Court Plan on Comprehensively Implementing Socialist Core Values in 
Judicial Interpretation (2018-2023),'' Zuigao Renmin Fayuan Wang 
[Supreme People's Court Net], September 18, 2018.
    \31\ Wang Yu, ``Sifabu zhaokai quanguo lushi hangye dangjian 
gongzuo tuijin hui'' [Ministry of Justice convenes meeting on advancing 
party-building in legal profession nationwide], Legal Daily, September 
17, 2018.
    \32\ Ministry of Justice, Lushi Shiwusuo Guanli Banfa [Measures on 
Managing Law Firms], issued May 28, 2008, amended September 6, 2016, 
effective November 1, 2016, art. 4.
    \33\ ``Hu Jintao zai Zhongguo Gongchandang Di Shiba ci Quanguo 
Daibiao Dahui shang de baogao'' [Hu Jintao's report at the 18th Party 
Congress of the Chinese Communist Party], Xinhua, November 17, 2012, 
sec. 12. See also Gerry Groot, ``The Rise and Rise of the United Front 
Work Department under Xi,'' China Brief, Jamestown Foundation, April 
24, 2018.
    \34\ Wang Yu, ``Sifabu zhaokai quanguo lushi hangye dangjian 
gongzuo tuijin hui'' [Ministry of Justice convenes meeting on advancing 
party-building in legal profession nationwide], Legal Daily, September 
17, 2018.
    \35\ Ibid.
    \36\ China Human Rights Lawyers Concern Group, Chinese Human Rights 
Defenders, and International Service for Human Rights, ``Joint Analysis 
of the Measures on the Administration of Law Firms and Administrative 
Measures for the Practice of Law by Lawyers of the People's Republic of 
China,'' reprinted in Chinese Human Rights Defenders, May 22, 2019.
    \37\ UN Human Rights Council, ``Opinion No. 62/2018 concerning Wang 
Quanzhang, Jiang Tianyong and Li Yuhan (China),'' Opinions adopted by 
the Working Group on Arbitrary Detention at its eighty-second session, 
20-24 August 2018, A/HRC/WGAD/2018/62, October 12, 2018, para. 82; 
Human Rights Council, ``Opinion No. 15/2019 concerning Yu Wensheng 
(China),'' Opinions adopted by the Working Group on Arbitrary Detention 
at its eighty-fourth session, 24 April-3 May 2019, A/HRC/WGAD/2019/15, 
May 29, 2019, para., 54.
    \38\ UN Human Rights Council, ``Opinion No. 62/2018 concerning Wang 
Quanzhang, Jiang Tianyong and Li Yuhan (China),'' in Opinions adopted 
by the Working Group on Arbitrary Detention at its eighty-second 
session, 20-24 August 2018, A/HRC/WGAD/2018/62, October 12, 2018, 
paras. 84, 86; Human Rights Council, ``Opinion No. 15/2019 concerning 
Yu Wensheng (China),'' in Opinions adopted by the Working Group on 
Arbitrary Detention at its eighty-fourth session, 24 April-3 May 2019, 
A/HRC/WGAD/2019/15, May 29, 2019, para., 56.
    \39\ Tianjin Municipal No. 2 Intermediate People's Court, ``Wang 
Quanzhang dianfu guojia zhengquan an yishen gongkai xuanpan'' [Wang 
Quanzhang publicly sentenced in first instance trial for subverting 
state power], January 28, 2019.
    \40\ ChinaAid Association, ``Updated: Li Wenzu Meets Husband Wang 
Quanzhang in Prison,'' June 28, 2019; Rights Defense Network, ``709 an 
tongbao: Wang Quanzhang lushi bei yi dianfu guojia zhengquan zui qisu'' 
[709 case bulletin: lawyer Wang Quanzhang indicted for subversion of 
state power], February 15, 2017.
    \41\ ChinaAid Association, ``Updated: Li Wenzu Meets Husband Wang 
Quanzhang in Prison,'' June 28, 2019.
    \42\ ``Weiquan lushi Jiang Tianyong xingman chuyu que bei buming 
shenfen zhe daizou'' [Rights defense lawyer Jiang Tianyong released 
from prison upon sentence completion, but was taken away by 
unidentified people], Deutsche Welle, February 28, 2019.
    \43\ Rights Defense Network, ``Jin Bianling: Jiang Tianyong zao 
Luoshan xian guobao siwang weixie'' [Jin Bianling: Jiang Tianyong 
received death threats from Luoshan county domestic security protection 
officials], Rights Defense Network, April 4, 2019.
    \44\ Zhonghua Renmin Gongheguo Xingshi Susong Fa [PRC Criminal 
Procedure Law], passed July 1, 1979, amended October 26, 2018. The PRC 
Criminal Procedure Law does not provide for surveillance of a person 
who has completed a sentence.
    \45\ ``Jiang Tianyong jiankang kanyou qizi xiwang ta dao Meiguo 
kanbing'' [Jiang Tianyong's health a worry, wife hopes he can come to 
U.S. for medical treatment], Radio Free Asia, March 8, 2019.
    \46\ Rights Defense Network, ``Ma Wei, Wu Li lushi: Li Yuhan lushi 
an jinkuang tongbao'' [Lawyers Ma Wei and Wu Li: Bulletin on lawyer Li 
Yuhan's recent status], April 8, 2019; UN Human Rights Council, 
``Opinion No. 62/2018 concerning Wang Quanzhang, Jiang Tianyong and Li 
Yuhan (China),'' in Opinions adopted by the Working Group on Arbitrary 
Detention at its eighty-second session, 20-24 August 2018, A/HRC/WGAD/
2018/62, October 12, 2018, para. 28.
    \47\ Rights Defense Network, ``Zhongguo Dalu zaiya zhengzhi fan, 
liangxin fan yuedu baogao (2019 nian 3 yue 31 ri) di 42 qi (gong 1001 
ren) (qi)'' [Monthly report on detained political prisoners and 
prisoners of conscience in Mainland China (March 31, 2019) issue no. 42 
(total 1,001 persons) (7)], March 31, 2019; ``Yu Wensheng an jianfang 
qisu zhi fayuan'' [Prosecution files indictment with court in Yu 
Wensheng's case], Radio Free Asia, February 4, 2019.
    \48\ ``Yu Wensheng qizi zao ruanjin `sanba' nuquan huodong 
xiaosheng niji'' [Yu Wensheng's wife held under soft detention, ``March 
8'' feminist activities disappear], Radio Free Asia, March 8, 2019.
    \49\ Rights Defense Network, ``Xu Yan: Yu Wensheng lushi an 
qingkuang tongbao (2019 nian 4 yue 22 ri)'' [Xu Yan: Bulletin on status 
of lawyer Yu Wensheng's case (April 22, 2019)], April 22, 2019.
    \50\ China Human Rights Lawyers Group, ``Weather the Dark Storm, 
Persevere for Rule of Law in China--A 2019 New Year's Message from the 
China Human Rights Lawyers Group,'' China Change, December 31, 2018; 
Rights Defense Network, ``Guanyu Liu Zhengqing lushi jiang bei diaoxiao 
lushi zhiyezheng de jinji huyu shu'' [Urgent letter calling attention 
to imminent law license revocation of lawyer Liu Zhengqing], January 1, 
2019; Rights Defense Network, ``Qin Yongpei lushi yin zao zhuxiao lushi 
zhiyezheng er qisu Guangxi Zhuangzu Zizhiqu Sifa Ting de xingzheng 
qisushu'' [Administrative litigation complaint filed against Guangxi 
Zhuang Autonomous Region's Justice Bureau by lawyer Qin Yongpei after 
revocation of law license], November 12, 2018; `` `Lushi hou' chengli 
julebu zai zhan jianghu'' [``Former lawyers'' established club, again 
taking on challenges in the world], New Tang Dynasty, September 19, 
2018; ChinaAid Association, ``Zhongguo lushi de jingji lu Xie Yanyi bei 
zhuxiao zhizhao'' [Thorny path of Chinese lawyers, Xie Yanyi's law 
license revoked], ChinaAid Association, November 30, 2018; Rights 
Defense Network, ``Zhongguo lushi hou julebu: Zhongguo lushi cunwang 
zhi qiu--Chen Keyun lushi xiao zheng shijian'' [Chinese Former Lawyers' 
Club: Critical time of Chinese lawyers' survival--matter concerning 
revocation of lawyer Chen Keyun's law license], November 4, 2018.
    \51\ ``Beijing Fengrui tingye hou yizhi qiu zhuan lusuo Liu 
Xiaoyuan bu huo shouli mianlin zhuxiao zhiye zheng'' [Continuously 
asked to change law firms after Beijing Fengrui stopped operation, Liu 
Xiaoyuan's application ignored, license to practice may be revoked], 
Radio Free Asia, February 24, 2019.
    \52\ All China Lawyers Association, ``Jinyan shenxing zuo zunfa 
shoufa yongfa de kaimo'' [Exercise care in speech and action so as to 
be a model for obedience, compliance, and application of the law], 
March 4, 2019; ``[Lici cunzhao] Guanyu jiaoban zhongyao min'gan xinfang 
xinxi de han'' [[For the record] Letter concerning assignment of 
handling of important sensitive message about petitioning], China 
Digital Times, January 16, 2019; ``Li Jinxing lushi yin wangshang 
yanlun jieshou diaocha'' [Lawyer Li Jinxing investigated for online 
speech], Radio Free Asia, November 21, 2018; ``Chongqing lushi yin 
wangshang yanlun zao sifaju diaocha huo shou chufa'' [Chongqing lawyer 
investigated and possibly punished by justice bureau for online 
speech], Voice of America, September 17, 2018.
    \53\ Civil Rights and Livelihood Watch, ``Shou `709' yinxiang Huang 
Simin lushi zhi jin bei bian kong'' [Affected by ``709'' incident, 
lawyer Huang Simin continues to be under border-crossing restrictions], 
September 4, 2018; Chen Jian'gang, ``A Statement by Lawyer Chen 
Jiangang, Blocked Today from Leaving China to Take Part in the Humphrey 
Fellowship Program,'' China Change, April 1, 2019; ``China Bars Human 
Rights Lawyer from US State Dept. Program,'' Associated Press, April 3, 
2019.
    \54\ China Human Rights Lawyers Concern Group, ``You yitian, 
jingcha kaishi pengci--wo bei Guangzhou jingcha gouxian zhuabu, xiuru 
de kongbu jingli--Sun Shihua'' [One day, police began to feign being 
attacked--my horrific experience of being framed, detained, and 
insulted by Guangzhou police--Sun Shihua], October 11, 2018.
    \55\ ``Zhongguo nu lushi paichusuo `luo jian' shijian gongzhong 
huyu gongkai jiankong'' [In incident of Chinese female lawyer being 
``strip searched'' at police station, public call for disclosure of 
surveillance], BBC, October 12, 2018.
    \56\ China Human Rights Lawyers Concern Group, ``You yitian, 
jingcha kaishi pengci--wo bei Guangzhou jingcha gouxian zhuabu, xiuru 
de kongbu jingli--Sun Shihua'' [One day, police began to feign being 
attacked--my horrific experience of being framed, detained, and 
insulted by Guangzhou police--Sun Shihua], October 11, 2018.
    \57\ Ibid.
    \58\ Ibid.
    \59\ Ibid.
    \60\ Ibid.
    \61\ Zhou Shiling, ``Guangzhou jingfang: shipin xianshi bu cunzai 
xiuru Sun Shihua'' [Guangzhou police: video shows non-existence of 
insult of Sun Shihua], Beijing Daily, October 14, 2018.
    \62\ China Human Rights Lawyers Concern Group, ``You yitian, 
jingcha kaishi pengci--wo bei Guangzhou jingcha gouxian zhuabu, xiuru 
de kongbu jingli--Sun Shihua'' [One day, police began to feign being 
attacked--my horrific experience of being framed, detained, and 
insulted by Guangzhou police--Sun Shihua], October 11, 2018.
    \63\ State Council, Xinfang Tiaoli [Regulations on Letters and 
Visits], issued January 5, 2005, effective May 1, 2005; Benjamin L. 
Liebman, ``A Populist Threat to China's Courts?'' in Chinese Justice: 
Civil Dispute Resolution in Contemporary China, eds. Margaret Y.K. Woo 
and Mary E. Gallagher (Cambridge: Cambridge University Press, 2011), 
269-313; Liang Shibin, ``Jianjue da ying huajie xinfang ji'an gong jian 
zhan'' [Resolutely fight to win the battle on clearing backlog of 
petitioning cases], Legal Daily, 27 April 16. Such grievances 
reportedly include cases concerning demolition or expropriation of 
property, social security, agriculture, land and resources, and 
environmental protection.
    \64\ See, e.g., Civil Rights & Livelihood Watch, ``Beijing Guojia 
Xinfangju bei shuwan shangfang minzhong baowei'' [Beijing's State 
Bureau of Letters and Visits surrounded by tens of thousands of 
petitioners], February 26, 2018; ``29 shengshi yu wan ming minban 
jiaoshi zai xian quanguo jiti shangfang chao'' [Over ten thousand 
temporary teachers from 29 provinces and municipalities caused another 
national group petitioning movement], Radio Free Asia, October 19, 
2016; ``Shaanxi liangqian min shi sheng xinfangju shangfang yaoqiu 
shifang weiquan daibiao'' [Two thousand petitioners from Shaanxi went 
petitioning at provincial letters and visits bureau, ask for release of 
rights defense representative], Radio Free Asia, April 13, 2017.
    \65\ Yi Lili, ``Zengqiang xinfang gangwei guazhi zhidu xiaoguo de 
youxiao tujing tantao'' [Exploring efficient ways to improve results of 
temporary position assignments in the petition system], Administration 
Reform, reprinted in Views.ce.cn, December 25, 2018.
    \66\ ``Zhongdian jieshou 12 lei tuchu wenti de xinfang'' [Admitting 
12 categories of outstanding problems in the petition system], 
Supervision Office, Commission for Discipline Inspection, Southern 
Medical University, December 7, 2018.
    \67\ ``Juebu yunxu gongzheng de pingtai fubai cheng zaojia 
shuohuang wugui men dang jian cheng pai'' [Adamantly oppose a fair 
platform being used by fraudulent and lying turtles as a shield], 
Boxun, November 20, 2018; ``Weiwen huiyi luyin waixie dingxing 
shangfang shi `fan dang fan zhengfu' xingwei'' [Recording from meeting 
to maintain social stability leaked, identifies petitioners as 
``opposing the Party and government''], Radio Free Asia, 15 May 18; 
``China's Ruling Party in Nationwide Operation to Stop People 
Complaining About it,'' Radio Free Asia, March 5, 2018; Guo Hongmin, 
``Guojia Xinfangju de xiaohao `liancai tuan' '' [Record-deleting 
``money-hoarding syndicate'' of State Bureau of Letters and Visits], 
Prosecutorial View, May 2, 2017.
    \68\ Dong Xiaodi, ``Guojia Xinfangju: xinfang shixiang banjie lu 
95% tuiguang rang qunzhong `zuiduo fang yi ci' '' [National Public 
Complaints and Proposals Administration: Petition matters completion 
rate 95%, promote idea that the public ``petition only once at most''], 
China News, January 18, 2019.
    \69\ Rights Defense Network, ``Shanghai jiti shenqing caijue yi an 
de shenqingren daibiao di 12 ci dao Guowuyuan Fazhi Ban yaoqiu shumian 
dafu reng wu guo, weiquan renshi shangjie ju pai nahan: Zhongguo fazhi 
zai nali!'' [Representatives of case in Shanghai group request for 
decision demand written response in their 12th visit to State Council's 
Legislative Affairs Office but still have not received response, rights 
defenders took to the streets and shouted ``where is China's rule of 
law?!''], October 18, 2018.
    \70\ Ibid.
    \71\ Ibid.
    \72\ Zhonghua Renmin Gongheguo Xingzheng Fuyi Fa [PRC 
Administrative Review Law], passed April 29, 1999, effective October 1, 
1999, amended September 1, 2017, art. 31; Rights Defense Network, 
``Shanghai jiti shenqing caijue yi an de shenqingren daibiao di 12 ci 
dao Guowuyuan Fazhi Ban yaoqiu shumian dafu reng wu guo, weiquan renshi 
shangjie ju pai nahan: Zhongguo fazhi zai nali!'' [Representatives of 
case in Shanghai group request for decision demand written response in 
their 12th visit to State Council's Legislative Affairs Office but 
still have not received response, rights defenders took to the streets 
and shouted ``where is China's rule of law?!''], October 18, 2018.
    \73\ ``Jiangxi Lianhua: dui fupin lingyu xinfang jian lingdao `yi 
bao daodi' '' [Lianhua, Jiangxi: Leaders to ``assume continuous 
responsibility'' in petitions concerning poverty alleviation], Central 
Commission for Discipline and Inspection, National Supervisory 
Committee, January 2, 2019; ``Guangxi Luchuan: yashi zeren rang xinfang 
jubao you huiyin'' [Luchuan, Guangxi: Taking serious responsibility to 
ensure complaints filed through petition system will receive response], 
Central Commission for Discipline and Inspection, National Supervisory 
Committee, February 11, 2019.
    \74\ Zhang Nan, ``Xin jinzhan xin changxiao'' [New development, new 
results], Beijing Daily, January 29, 2019.
    \75\ ``Guizhou Guiding: jizhong liliang tupo qunzhong fanying 
qianglie de xinfang jian'' [Guiding, Guizhou: Focus energy on breaking 
through petitions involving strong public sentiments], Central 
Commission for Discipline and Inspection, National Supervisory 
Committee, February 14, 2019.
    \76\ See, e.g., ``Shandong Pingdu laobing kangyi: guanfang cheng 
fanzui qianke renyuan `baoli xi jing' '' [Protests by veterans from 
Pingdu, Shandong: official says people who ``violently attacked 
police'' had criminal record], BBC, December 10, 2018.
    \77\ See, e.g., Civil Rights & Livelihood Watch, ``Wuhan Hu 
Zhengqiu bei yi `xunxin zishi zui' xingju'' [Wuhan Hu Zhengqiu 
criminally detained on ``charge of picking quarrels and provoking 
trouble''], November 1, 2018.
    \78\ See, e.g., Rights Defense Network, ``Guo Hongying bei `fanghai 
gongwu zui' yi an zuori zai Tiedong qu fayuan kaishen'' [Trial held 
yesterday in Tiedong district court in case where Guo Hongying accused 
of ``obstructing official business offense''], April 19, 2019.
    \79\ See, e.g., Civil Rights & Livelihood Watch, ``Lianghui weiwen 
jinxing shi xilie baodao zhi wu'' [Report series for ongoing stability 
maintenance during Two Sessions--report no. 5], March 13, 2019.
    \80\ State Council, Falu Yuanzhu Tiaoli [Legal Aid Regulations], 
issued July 16, 2003, effective September 1, 2003, arts. 4, 5.
    \81\ State Council, Banli Falu Yuanzhu Anjian Chengxu Guiding 
[Regulations on the Procedure of Handling Legal Aid Cases], issued 
February 21, 2012, effective July 1, 2012, arts. 8, 13, 20.
    \82\ Zhonghua Renmin Gongheguo Lushi Fa [PRC Lawyers Law], passed 
15 May 96, amended September 1, 2017, art. 47(5); Xiao Xianfu, ``Wo guo 
falu yuanzhu zhidu yu sikao'' [Thoughts on China's legal aid system], 
Institute of Law, Institute of International Law, Chinese Academy of 
Social Sciences, accessed June 7, 2019. See also State Council, Falu 
Yuanzhu Tiaoli [Legal Aid Regulations], issued July 16, 2003, effective 
September 1, 2003, arts. 4, 5.
    \83\ Supreme People's Court and Ministry of Justice, Guanyu Kuoda 
Xingshi Anjian Lushi Bianhu Quan Fugai Shidian Fanwei de Tongzhi 
[Circular on Expanding Pilot Program for Ensuring Legal Representation 
in Criminal Cases], issued December 27, 2018, sec. 1.
    \84\ Ibid., sec. 2.
    \85\ Ministry of Justice, ``Quanguo xingshi falu yuanzhu fuwu 
guifan'' [Specifications for national criminal legal aid services], 
issued February 25, 2019, secs. 8.5.1-8.5.2.4.
    \86\ Ministry of Justice and Ministry of Finance, Guanyu Wanshan 
Falu Yuanzhu Butie Biaozhun de Zhidao Yijian [Guiding Opinion on 
Standardizing Compensation for Legal Aid], issued February 15, 2019.
    \87\ `` `Lushihou julebu' zao qudi daya shengji'' [``Former 
Lawyers' Club'' banned as repression intensifies], Radio Free Asia, 
January 16, 2019.
    \88\ ``709 zhua bu jin? `lushihou julebu' zai zhan jianghu [Are the 
709 detentions unending? ``Former Lawyers' Club'' engages in battle 
again], Radio Free Asia, September 18, 2018.
    \89\ `` `Lushihou julebu' zao qudi daya shengji'' [``Former 
Lawyers' Club'' banned as repression intensifies], Radio Free Asia, 
January 16, 2019. See also `` `Lushihou julebu' zao daya faqiren 
tuichu'' [Crackdown on ``Former Lawyers' Club,'' initiators withdraw], 
Radio Free Asia, November 7, 2018; Ministry of Civil Affairs, Shehui 
Tuanti Dengji Guanli Tiaoli [Regulations on the Registration and 
Management of Social Organizations], issued February 6, 2016.
    \90\ Hualing Fu, ``Duality and China's Struggle for Legal 
Autonomy,'' editorial, China Perspectives, no. 1 (2019): 3.
    \91\ ``Zuigao Renmin Fayuan gongzuo baogao'' [Supreme People's 
Court work report], March 12, 2019.
    \92\ Chinese Communist Party Central Committee, Zhonggong Zhongyang 
Guanyu Quanmian Tuijin Yifa Zhiguo Ruogan Zhongda Wenti de Jueding 
[Decision on Several Major Issues in Comprehensively Advancing 
Governance of the Country According to Law], Xinhua, October 28, 2014, 
item 4(2).
    \93\ U.S. Department of State, ``China Travel Advisory,'' January 
3, 2019.
    \94\ ``Zuigao Renmin Fayuan gongzuo baogao'' [Supreme People's 
Court work report], March 12, 2019.
    \95\ Zhonghua Renmin Gongheguo Renmin Fayuan Zuzhi Fa [PRC Organic 
Law of the People's Courts], revised October 26, 2018, effective 
January 1, 2019, arts. 8, 15, 27; ``NPCSC Amends Criminal Procedure 
Law, Overhauls Judicial System Organic Laws, Loosens Stock Buyback 
Restrictions & Designates SPC as National IP Appeals Court (Further 
Updated),'' NPC Observer, October 31, 2018.
    \96\ Zhonghua Renmin Gongheguo Faguan Fa [PRC Judges Law], passed 
February 28, 1995, revised April 23, 2019, effective October 1, 2019, 
arts. 25-68.
    \97\ Zhonghua Renmin Gongheguo Faguan Fa [PRC Judges Law], passed 
February 28, 1995, revised April 23, 2019, effective October 1, 2019, 
art. 12(2). See also Zhonghua Renmin Gongheguo Faguan Fa [PRC Judges 
Law], passed February 28, 1995, effective July 1, 1995, amended 
September 1, 2017, art. 12(2).


                                                       Xinjiang
                                                Xinjiang

                              IV. Xinjiang


                                Findings

        <bullet> During the Commission's 2019 reporting year, 
        authorities in the Xinjiang Uyghur Autonomous Region 
        (XUAR) expanded a system of extrajudicial mass 
        internment camps in which they continued to arbitrarily 
        detain Uyghurs, Kazakhs, Kyrgyz, Hui, and others. 
        Security personnel at the camps subjected detainees to 
        torture, including beatings; electric shocks; 
        waterboarding; medical neglect; forced ingestion of 
        medication; sleep deprivation; extended solitary 
        confinement; and handcuffing or shackling for prolonged 
        periods, as well as restricted access to toilet 
        facilities; punishment for behavior deemed religious; 
        forced labor; overcrowding; deprivation of food; and 
        political indoctrination. Some detainees reportedly 
        died in camps due to poor conditions, medical neglect, 
        or other reasons.
        <bullet> Authorities forced some mass internment camp 
        detainees to engage in labor and forced former 
        detainees to engage in labor following their release 
        from camps. According to research published by German 
        researcher Adrian Zenz in July 2019, authorities began 
        establishing forced labor programs for camp detainees 
        and ``graduates'' in the second half of 2018, in 
        addition to extensive forced labor programs for XUAR 
        residents not detained in camps.
        <bullet> Scholars and rights groups provided a strong 
        argument, based on available evidence, that the 
        ``crimes against humanity'' framework may apply to the 
        case of mass internment camps in the XUAR. Article 7 of 
        the Rome Statute of the International Criminal Court 
        provides a list of 11 acts that may constitute ``crimes 
        against humanity'' ``when committed as part of a 
        widespread or systematic attack directed against any 
        civilian population, with knowledge of the attack.''
        <bullet> Official Chinese media portrayed revised 
        regional regulations on extremism as justification for 
        mass internment camps, but the camps remained illegal 
        under both Chinese and international law. In October 
        2018, the XUAR People's Congress revised the region's 
        first anti-extremism regulations, which were adopted in 
        March 2017, and official media described the revisions 
        as a legal basis for ``vocational training centers'' 
        combating ``extremism'' in the XUAR--an apparent 
        reference to mass internment camps. International legal 
        scholars and rights advocates stressed that, despite 
        Chinese officials' attempt to use the revised 
        regulations to justify mass internment camps, the 
        revised local legislation did not provide a legal basis 
        for the camps, particularly because the PRC Law on 
        Legislation only allows deprivation of personal liberty 
        under statutes passed by the National People's Congress 
        or its Standing Committee.
        <bullet> In November 2018, Adrian Zenz published the 
        findings of research he conducted into budgets for 
        security expenditures in the XUAR and other regions of 
        China which showed that ``political reeducation'' 
        carried out in mass internment camps appeared to be 
        aimed at ``political indoctrination and 
        intimidation''--refuting Chinese officials' assertions 
        that the purpose of mass internment camps is to provide 
        vocational education and employment training. In 
        October 2018, Agence France-Presse (AFP) reported that, 
        based on its analysis of 1,500 publicly available 
        procurement documents from local governments in the 
        XUAR, authorities administered mass internment camps in 
        the same way as prisons. AFP reported that government 
        departments in charge of administering camps ordered 
        police uniforms, riot shields and helmets, electrified 
        batons, cattle prods, billy clubs, spears, handcuffs, 
        pepper spray, tear gas, tasers, net guns, stun guns, 
        and spiked clubs known as ``wolf's teeth'' to maintain 
        control over detainees.
        <bullet> Mass internment camp detainees reportedly 
        included permanent residents of the United States and 
        Australia. American officials stated in March 2019 that 
        Chinese authorities may have detained several American 
        residents. As of August 2019, Chinese authorities 
        reportedly detained ten or more Australian residents in 
        mass internment camps. In addition, at least five 
        Australian children were reportedly unable to leave the 
        XUAR due to restrictions on the freedom of movement of 
        their parents in the XUAR.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Call on the Chinese government to end the mass, 
        arbitrary detention of predominantly Muslim ethnic 
        minorities, including Uyghurs, Kazakhs, Kyrgyz, Hui, 
        and others in mass internment camps, and release those 
        currently detained. Call on Chinese officials to allow 
        U.S. officials, diplomatic representatives of other 
        countries, UN officials, humanitarian organizations, 
        and international journalists to visit the XUAR and 
        independently investigate reports of arbitrary 
        detention. Coordinate with other governments and 
        international non-governmental organizations to compile 
        relevant information regarding specific XUAR officials 
        responsible for the arbitrary mass detention and abuse 
        of individuals in mass internment camps in preparation 
        for possible sanctions under the Global Magnitsky Human 
        Rights Accountability Act (Public Law No. 114-328).
          Support the passage of the Uyghur Human Rights Policy 
        Act of 2019 (S. 178 and H.R. 649), requiring the 
        Director of National Intelligence and the State 
        Department to report on issues including the regional 
        security threats caused by Chinese government 
        repression of ethnic minorities in the XUAR, and on the 
        transfer or development of technologies to facilitate 
        mass internment and surveillance there; requiring the 
        Federal Bureau of Investigation to report on topics 
        such as its efforts to protect ethnic Uyghurs and 
        Chinese nationals in the U.S. from Chinese government 
        intimidation, and those whose families in China have 
        been threatened or detained because of their advocacy 
        for the Uyghurs; and establishing a position known as 
        the Special Coordinator for Xinjiang.
          Urge U.S. companies selling products, providing 
        services, conducting business, or investing in 
        development initiatives in the XUAR to ensure that 
        their products, services, and investment funds do not 
        provide support for XUAR officials' arbitrary detention 
        of ethnic minority individuals or XUAR authorities' use 
        of technology to otherwise repress and control XUAR 
        residents, rather than for legitimate law enforcement 
        activities. Urge the Bureau of Industry and Security at 
        the U.S. Department of Commerce to track the sale of 
        equipment and technology used by Chinese security 
        agencies and U.S. companies' sale of surveillance and 
        crime control technology to XUAR officials, and 
        investigate the legality of such sales according to 
        existing U.S. Export Administration Regulations.
          Urge American universities to provide support to 
        Uyghur, Kazakh, and Kyrgyz students at their 
        institutions who are Chinese nationals, to ensure they 
        are able to study in a safe environment free of threats 
        and intimidation from Chinese government officials; to 
        provide scholarships or other financial assistance to 
        students whose parents or guardians have been detained 
        in mass internment camps in the XUAR; to inquire about 
        the well-being of Turkic Muslims who have returned to 
        China after having studied or taught in their 
        institutions; to hold conferences and other programs to 
        raise awareness among students and the general public 
        about the mass, arbitrary detention of Turkic Muslims 
        in the XUAR; and to refrain from holding conferences or 
        establishing programs with Chinese government entities 
        that lend legitimacy to the mass surveillance and mass 
        arbitrary detention programs in place in the XUAR.
          Urge Organization of Islamic Cooperation (OIC) member 
        states to take coordinated action to pressure the 
        Chinese government to shut down mass internment camps 
        and end repressive security and surveillance measures 
        aimed at Muslim Chinese citizens, and to condemn mass 
        internment camps and human rights abuses of Muslim 
        Chinese citizens at OIC and other international forums.
          In bilateral and multilateral consultations with the 
        governments of Kazakhstan and Kyrgyzstan, raise 
        concerns regarding the detention of Kazakhs, Kyrgyz, 
        and Uyghurs in mass internment camps in the XUAR; work 
        with officials from Kazakhstan and Kyrgyzstan to 
        pressure Chinese officials to release citizens and 
        residents of these two countries from mass internment 
        camps in the XUAR; and urge officials from Kazakhstan 
        and Kyrgyzstan not to deport ethnic Kazakhs, Kyrgyz, or 
        Uyghurs to China, where they are at risk of arbitrary 
        detention in mass internment camps and other types of 
        political persecution.


                                                       Xinjiang
                                                Xinjiang

                                Xinjiang


            Intensified Repression in Mass Internment System

    During the Commission's 2019 reporting year, authorities in 
the Xinjiang Uyghur Autonomous Region (XUAR) expanded a system 
of extrajudicial mass internment camps \1\ in which they 
continued to arbitrarily detain predominantly Muslim ethnic 
minorities, including Uyghurs, Kazakhs, Kyrgyz, Hui, and 
others.\2\ Security personnel at the camps subjected detainees 
to torture, including beatings; \3\ electric shocks; \4\ 
waterboarding; \5\ medical neglect; \6\ forced ingestion of 
medication; \7\ sleep deprivation; \8\ extended solitary 
confinement; \9\ and handcuffing or shackling for prolonged 
periods,\10\ as well as restricted access to toilet facilities; 
\11\ punishment for behavior deemed religious; \12\ forced 
labor; \13\ overcrowding; \14\ deprivation of food; \15\ and 
political indoctrination.\16\ Some detainees reportedly died in 
camps due to poor conditions, medical neglect, or other 
reasons.\17\ Deaths that occurred in mass internment camps or 
shortly after release from camps included the following (this 
list is illustrative of available reports and not exhaustive):

        <bullet> Forty-year-old Uyghur Mutellip Nurmehmet, who 
        earned two Master's degrees in the United States, 
        reportedly died nine days after authorities released 
        him from a camp.\18\
        <bullet> Renowned Uyghur writer Nurmuhemmet Tohti died 
        in May 2019 after being held in a mass internment camp 
        from November 2018 to March 2019.\19\ Tohti's Canada-
        based relatives said the 70-year-old suffered from 
        diabetes and heart disease.\20\
        <bullet> Amine Qadir, a Uyghur in her early thirties, 
        died in a mass internment camp in early 2018. Qadir 
        reportedly had a heart condition that was not treated 
        by authorities at the camp where she was detained.\21\
        <bullet> Alimjan Emet, a 22-year-old Uyghur security 
        guard, reportedly died in a camp at an unknown date as 
        a result of being beaten during an interrogation.\22\
        <bullet> Aytursun Eli, a 35-year-old Uyghur woman who 
        had worked as the deputy head of a tourism company, 
        reportedly died during a police interrogation in June 
        2018. It was unclear whether Eli died in a mass 
        internment camp or at a police station.\23\

    In March 2019, German researcher Adrian Zenz, speaking on a 
panel co-hosted by the U.S. Government on the sidelines of the 
UN Human Rights Council in Geneva, said he estimated that 1.5 
million Uyghurs and other Muslims in the XUAR were or had been 
detained in mass internment camps.\24\ According to this 
estimate, nearly one in six adult Uyghurs are or have been 
detained in the camps.\25\
    Mass internment camps in the XUAR, though varied in size 
and structure, included extremely large camps such as one 
located in Dabancheng district, Urumqi municipality, XUAR.\26\ 
Using satellite imagery, analysts estimated the camp in 
Dabancheng had the capacity to hold up to 130,000 
detainees.\27\ Internment camps shared common features, such as 
watchtowers,\28\ barracks,\29\ barbed wire,\30\ and reinforced 
walls.\31\ Some camps were located in structures formerly used 
as schools, hospitals, or other existing structures,\32\ and 
some were newly constructed.\33\

           MASS INTERNMENT CAMPS HAVE NO BASIS IN CHINESE LAW

    Official Chinese media portrayed revised regional 
regulations on extremism as justification for mass internment 
camps, but the camps remained illegal under both Chinese and 
international law. In October 2018, the XUAR People's Congress 
revised the region's first anti-extremism regulations,\34\ 
which were adopted in March 2017,\35\ and official media 
described the revisions as a legal basis for ``vocational 
training centers'' combating ``extremism'' in the XUAR--an 
apparent reference to mass internment camps.\36\ Prior to the 
revisions,\37\ the regulations made no mention of ``vocational 
training centers.'' \38\ International law also prohibits the 
mass detention taking place in mass internment camps.\39\ For 
example, as discussed by Lawfare contributor Hilary Hurd, 
Article 1 of the International Convention on the Elimination of 
All Forms of Racial Discrimination (ICERD) prohibits the forced 
internment of Uyghurs ``on the basis of their religious, and 
ethnic, identity.'' \40\ International legal scholars and 
rights advocates stressed that, despite Chinese officials' 
attempt to use the revised regulations to justify mass 
internment camps, the revised local legislation did not provide 
a legal basis for the camps, particularly because the PRC Law 
on Legislation only allows deprivation of personal liberty 
under statutes passed by the National People's Congress (NPC) 
or its Standing Committee.\41\ At a June 2019 conference on 
Uyghur human rights issues, George Washington University law 
professor Donald Clarke emphasized that when a group of 
American experts engaged in a bilateral legal dialogue asked 
their Chinese counterparts to provide the legal basis for mass 
internment camps, none of the counterparts were able to provide 
a relevant legal basis.\42\

              CRIMES AGAINST HUMANITY AND MASS INTERNMENT

    Scholars \43\ and rights groups \44\ provided a strong 
argument, based on available evidence, that the ``crimes 
against humanity'' framework may apply to the case of mass 
internment camps in the XUAR. Article 7 of the Rome Statute of 
the International Criminal Court provides a list of 11 acts 
that may constitute ``crimes against humanity'' ``when 
committed as part of a widespread or systematic attack directed 
against any civilian population, with knowledge of the 
attack.'' \45\ The following acts, listed in the Rome Statute, 
may apply to the persecution of Turkic Muslims in the XUAR:

------------------------------------------------------------------------
                                         Possible application to the
  Acts listed in Article 7 of the    treatment of Turkic Muslims in the
         Rome Statute \46\                          XUAR
------------------------------------------------------------------------
(e) Imprisonment or other severe    Arbitrary, prolonged detention of
 deprivation of physical liberty     Uyghurs, Kazakhs, Kyrgyz, Hui, and
 in violation of fundamental rules   others in mass internment camps in
 of international law; \47\          the XUAR since around April 2017;
                                     \48\
------------------------------------------------------------------------
(f) Torture;                        Security personnel in mass
                                     internment camps in the XUAR
                                     subjected detainees to widespread
                                     torture, including through the use
                                     of electric shocks and shackling
                                     people in painful positions; \49\
------------------------------------------------------------------------
(h) Persecution against any         Security personnel have detained a
 identifiable group or               million or more Uyghurs, Kazakhs,
 collectivity on political,          Kyrgyz, and Hui; \50\ enforced
 racial, national, ethnic,           harsh, widespread restrictions on
 cultural, religious, gender as      peaceful Islamic practices of XUAR
 defined in Paragraph 3 [Article     residents; \51\ and subjected
 7(3) of the Rome Statute], or       Turkic and Muslim XUAR residents to
 other grounds that are              intense surveillance, checkpoints,
 universally recognized as           intimidation, and involuntary
 impermissible under international   biometric data collection.\52\
 law, in connection with any act
 referred to in this paragraph
 [Article 7 of the Rome Statute]
 or any crime within the
 jurisdiction of the Court;
------------------------------------------------------------------------
(i) Enforced disappearance of       Hundreds of intellectuals forcibly
 persons.                            disappeared by authorities in the
                                     XUAR are among the million or more
                                     Uyghurs, Kazakhs, Kyrgyz, and Hui
                                     detained in mass internment
                                     camps.\53\
------------------------------------------------------------------------

             REASONS FOR DETENTION IN MASS INTERNMENT CAMPS

    Security personnel continued to detain people in mass 
internment camps for such reasons as engaging in ``religious 
extremism'' or having foreign connections, such as previous 
overseas travel or relatives living abroad.\54\ Chinese laws 
define a wide range of peaceful religious customs as 
``extremism,'' including the wearing of veils and having 
``abnormal'' beards.\55\ In its March 2019 white paper, the 
State Council Information Office said detainees in mass 
internment camps, whom it referred to as ``trainees'' in 
``education and training centers,'' included those ``who were 
incited, coerced or induced into participating in terrorist or 
extremist activities.'' \56\ According to the Xinjiang Victims 
Database, a resource created by American researcher Gene Bunin 
\57\ that contains information on political prisoners in the 
XUAR,\58\ as of August 15, 2019, of the detainees for whom a 
reason for detention had been provided, the top three reasons 
were as follows: about 33 percent were detained for reasons 
related to religion; about 20 percent were detained in relation 
to having traveled abroad; and about 11 percent were detained 
in connection with a relative or relatives.\59\

           SHIFT IN OFFICIAL NARRATIVE FROM DENIAL TO DEFENSE

    During this reporting year, Chinese authorities shifted the 
official narrative regarding mass internment camps, moving from 
denial of the camps' existence in early 2018 \60\ to a public 
defense of the facilities.\61\ Rights advocates and scholars 
noted that Chinese officials felt compelled to change their 
narrative from denial to justification, in part following 
criticism of the camps at an August 2018 review of China's 
compliance with the ICERD by the UN Committee on the 
Elimination of Racial Discrimination.\62\ In November 2018, 
during China's Universal Periodic Review by the UN Human Rights 
Council, Vice Foreign Minister Le Yucheng described the camps 
as a measure that was effective in preventing people from 
engaging in extremism and terrorism.\63\ In March 2019, XUAR 
government chairperson Shohrat Zakir told NPC delegates that 
the camps were ``like boarding schools where the students eat 
and live for free,'' \64\ and that the camps had been 
``effective in eliminating religious extremism.'' \65\ In a 
March 2019 white paper, the State Council Information Office 
said the camps ``fully respect and protect the customs and 
habits of trainees of different ethnic groups,'' including by 
``car[ing] for their mental health,'' and ``offer[ing] 
psychological counseling services.'' \66\ In addition, 
officials invited foreign journalists on escorted tours of mass 
internment camps, during which they referred to the facilities 
as voluntary educational institutions.\67\ During one such 
trip, in April 2019, Bloomberg reporter Peter Martin noted that 
there were bars on the windows of camp dormitories, and doors 
that locked only from the outside.\68\
    On July 30, 2019, Shohrat Zakir and XUAR government vice 
chairperson Erkin Tuniyaz held a press conference to describe 
what they referred to as the success of ``vocational education 
and training centers,'' telling journalists that most people 
had left the centers and obtained employment.\69\ Research 
indicated authorities compelled many current and former camp 
detainees to engage in forced labor, but reports did not 
substantiate XUAR officials' claims that authorities had 
released the majority of camp detainees.\70\ Observers, 
including Uyghurs living abroad whose family members were 
detained in camps, disputed the claims that most camp detainees 
had been released.\71\ In August 2019, the New York Times 
reported that the camp system continued to expand.\72\
    While Chinese officials highlighted the occupational 
benefits they said camp detainees obtained from vocational 
education and training,\73\ official documents sometimes 
referred to camps as ``transformation through education'' 
centers, a term that refers to ideological transformation.\74\ 
Chinese authorities have also used ``transformation through 
education'' efforts to ``transform'' Falun Gong practitioners, 
pressuring them to renounce their spiritual beliefs.\75\ 
Freedom House analyst Sarah Cook stated that Chinese Communist 
Party and government officials who had influence on policies in 
the XUAR ``appear[ed] to be following the anti-Falun Gong 
playbook,'' and that some of these officials had previously 
overseen the ``transformation'' of Falun Gong 
practitioners.\76\

                 Documentation of Mass Internment Camps

    Information on the scope, nature, and architecture of mass 
internment camps, and on conditions for detainees in the camps, 
primarily comes from the following sources:

                ANALYSIS OF CHINESE GOVERNMENT DOCUMENTS

    Adrian Zenz's November 2018 publication on security 
expenditures in the XUAR and other regions of China--research 
based on openly accessible official Chinese documents--
illustrated that ``political reeducation'' carried out in mass 
internment camps appeared to be aimed at ``political 
indoctrination and intimidation.'' \77\ Zenz's research thus 
refuted official Chinese claims that the purpose of mass 
internment camps is to provide vocational education and 
employment training.\78\ Specifically, Zenz analyzed 
information posted online by the Chinese government, including 
government procurement documents and construction bids for mass 
internment camps in the XUAR.\79\ According to Zenz's research, 
XUAR budgetary data showed that spending decreased on 
vocational training between 2016 and 2017, while spending on 
security-related facility construction, prisons, and detention 
centers increased significantly.\80\
    In October 2018, Agence France-Presse (AFP) reported that, 
based on its analysis of 1,500 publicly available procurement 
documents from local governments in the XUAR, authorities 
administered mass internment camps in the same way as 
prisons.\81\ AFP reported that government departments in charge 
of administering camps ordered police uniforms, riot shields 
and helmets, electrified batons, cattle prods, billy clubs, 
spears, handcuffs, pepper spray, tear gas, tasers, net guns, 
stun guns, and spiked clubs known as ``wolf's teeth'' to 
maintain control over detainees.\82\ In addition, AFP 
discovered orders for advanced surveillance systems, 
surveillance cameras, razor wire, a telephone eavesdropping 
system, and infrared monitoring equipment.\83\

           TESTIMONIES FROM CAMP SURVIVORS AND FAMILY MEMBERS

    In the past reporting year, Uyghurs, Kazakhs, and rights 
advocates living outside of China have documented cases of 
detention in XUAR mass internment camps, including by sharing 
detention information online and speaking with international 
media. In testimony presented at a U.S. Senate Foreign 
Relations subcommittee hearing in April 2019, Uyghur-American 
rights advocate Rushan Abbas said ``[a]lmost every Uyghur in 
the U.S. has friends and family detained--sometimes dozens and 
dozens of family members detained.'' \84\ Abbas said Chinese 
authorities detained her sister and her aunt in China in 
retaliation for her participation in a September 2018 panel on 
repression in the XUAR that took place at a think tank in 
Washington, DC.\85\ According to rights advocates, fear of 
Chinese official retaliation against their family members or 
friends prevented many Uyghurs and Kazakhs living outside of 
China from publicizing the cases of camp detainees, but over 
the past year, they have spoken out in increasing numbers.\86\ 
Radio Free Asia Uyghur Service journalists continued to 
publicize the detention of their own family members in the 
XUAR, which they viewed as retaliation for their reporting on 
rights abuses.\87\
    Online forums have provided overseas Uyghurs and Kazakhs 
with opportunities to document the cases of internment camp 
detainees. Many Uyghurs and Kazakhs began to publicize the 
cases of their detained relatives and friends in February 2019, 
after the Turkish Foreign Ministry criticized mass internment 
camps and mourned the reported death of Uyghur musician 
Abdurehim Heyit \88\ in one of the camps.\89\ The day after the 
Turkish Foreign Ministry released its statement, an official 
Chinese media organization released a video of Heyit, showing 
that he was alive.\90\ The video's release prompted many 
Uyghurs and Kazakhs living outside of China to post online 
videos, pictures, and information about missing family members, 
including some posts that linked to a social media campaign 
using the hashtag ``#MeTooUyghur,'' in which they asked Chinese 
authorities to release video of their detained relatives in 
order to prove they were still alive.\91\ Uyghurs, Kazakhs, and 
rights advocates have also compiled information on thousands of 
political prisoners in mass internment camps and other 
facilities in the online Xinjiang Victims Database, which 
represents a small proportion of the total number of camp 
detainees in the XUAR.\92\

                      INTERNATIONAL MEDIA REPORTS

    International media documented the size of mass internment 
camps, as well as the security features in place in and around 
the camps, by traveling to camp sites throughout the XUAR. 
Journalists from Reuters,\93\ BBC,\94\ and the Globe and Mail 
\95\ independently traveled to camps throughout the XUAR to 
document their existence. Journalists from international media 
also interviewed former internment camp detainees and their 
family members to document their experiences.\96\ For example, 
a Washington Post contributor interviewed the wife of ethnic 
Kazakh Chinese national Zharqynbek Otan, who returned to 
Kazakhstan after authorities detained him in a camp and other 
detention facilities in the XUAR for nearly two years.\97\ 
After his release, Otan, 31 years old, reportedly had problems 
with his memory and difficulty recognizing his family 
members.\98\

                    DETENTIONS OF FOREIGN RESIDENTS

    Mass internment camp detainees reportedly included 
permanent residents of the United States and Australia. 
American officials stated in March 2019 that Chinese 
authorities may have detained several American residents, 
including the father of a man living in California.\99\ As of 
August 2019, Chinese authorities reportedly detained ten or 
more Australian residents in mass internment camps.\100\ In 
addition, at least five Australian children were reportedly 
unable to leave the XUAR due to restrictions on the freedom of 
movement of their parents in the XUAR.\101\

                      ANALYSIS OF SATELLITE IMAGES

    In November 2018, the International Cyber Policy Centre of 
the Australian Strategic Policy Institute released a report 
with research based on analysis of satellite imagery, as well 
as existing scholarly research, news reports, and other 
sources, which documented the recent expansion of both 
individual mass internment camps and the camp system as a 
whole.\102\ According to the Centre's report, which contained 
analysis of 28 camp locations in the XUAR, these camps 
increased in size by 465 percent from early 2016 to the quarter 
ending in September 2018.\103\ The report determined that the 
facilities being constructed ``appear intended for permanent 
use.'' \104\
    Additional satellite imagery analysis showed rapid growth 
in the size and scope of camp facilities. In November 2018, 
Reuters published a report based on analysis of satellite 
images it conducted together with Earthrise Media, finding that 
the size of 39 camps they chose to analyze had nearly tripled 
between April 2017 and August 2018.\105\ In October 2018, BBC 
published the findings of satellite imagery analysis it 
conducted with aerospace company GMV, concluding that the 
recent trend in camp construction was towards building larger 
facilities.\106\

                 Forced Labor in Mass Internment Camps

    According to international media reports, authorities 
forced some mass internment camp detainees to engage in labor, 
and forced former detainees to engage in labor following their 
release from camps. According to research published by Adrian 
Zenz in July 2019, authorities began establishing forced labor 
programs for camp detainees and ``graduates'' in the second 
half of 2018.\107\ At the same time, according to Zenz's 
research, officials implemented extensive forced labor programs 
that involved sending rural residents not detained in camps to 
centralized training and employment, as well as programs in 
``satellite factories'' located in villages in which rural, 
mainly female, residents, were forced to work.\108\ Government 
authorities provided subsidies to companies for each current or 
former camp worker they trained and employed.\109\ Companies 
from provinces and municipalities in eastern China also 
employed forced labor in the XUAR, including in mass internment 
camps, through a continuing ``pairing assistance'' 
program.\110\ Zenz wrote that, since camp detainees have been 
forced to labor alongside others that have not been detained in 
camps, ``it will soon become impossible to clearly determine 
whether a labor-intensive manufacturing product in Xinjiang 
will be made with labor from former detainees or not.'' \111\
    U.S. Customs and Border Protection officials investigated 
reports of forced labor products manufactured in a mass 
internment camp being sold in the United States after the 
Associated Press reported that an American sportswear company 
had imported such products.\112\ Authorities in Ili (Yili) 
Kazakh Autonomous Prefecture reportedly sent some former camp 
detainees back to an internment camp after they refused the 
terms of their forced labor in a factory.\113\ [For more 
information on forced labor in the XUAR, see Section II--Human 
Trafficking and Section II--Business and Human Rights.]

      Transfer of Camp Detainees to Facilities Outside of the XUAR

    Reports emerged that authorities transferred some detainees 
from mass internment camps in the XUAR to detention facilities 
in other parts of China, due to factors including overcrowding 
in camps within the XUAR and authorities' desire to conceal 
information on camp detainees.\114\ Authorities reportedly 
carried out transfers in strict secrecy, including through 
using ``sealed railway carriages,'' covering the windows of 
vehicles transporting detainees, and blocking off roads used to 
transport detainees.\115\ Radio Free Asia reported that 
authorities transferred detainees to prisons in Heilongjiang 
province; \116\ Gansu province; \117\ Shaanxi province; \118\ 
Sichuan province; \119\ Shandong province; \120\ and the Inner 
Mongolia Autonomous Region.\121\ Authorities also reportedly 
transferred camp detainees to other locations within the XUAR 
due to concerns over existing relationships of camp employees 
to detainees.\122\ On September 26, 2018, state media reported 
that ticket sales for the regional rail system would be 
suspended for trains departing on October 22 and later.\123\ 
Australian scholar James Leibold speculated that authorities 
were transferring camp detainees in part in order to prevent 
human rights monitors from being able to track what had 
happened to them.\124\

------------------------------------------------------------------------
     Detentions of Leading Turkic Cultural and Intellectual Figures
-------------------------------------------------------------------------
  As in the previous reporting year,\125\ officials continued to detain
 leading Turkic intellectuals and cultural figures, including Uyghur,
 Kazakh, and Kyrgyz scholars, musicians, writers, and journalists, in
 mass internment camps and other facilities.\126\ According to an
 American scholar and rights advocate, Chinese officials have attempted
 to ``undermine Uyghur scholarly achievement and leadership through
 indoctrination and terrorization of intellectuals.'' \127\
  In May 2019, the U.S.-based organization Uyghur Human Rights Project
 (UHRP) reported the detention or disappearance of at least 435
 intellectuals since early 2017 in the XUAR, stating that the cases it
 had documented were ``likely a small portion of those persecuted,''
 given the lack of transparency in the region and the severe
 consequences to individuals providing information about such
 cases.\128\ UHRP cited University of Washington anthropologist Darren
 Byler, who said Chinese authorities had focused on public figures
 ``working in speech or text-oriented mediums,'' in part because ``the
 reeducation campaign specifically targets public figures who have
 significant influence.'' \129\
------------------------------------------------------------------------


------------------------------------------------------------------------
    Detentions of Leading Turkic Cultural and Intellectual Figures--
                                Continued
-------------------------------------------------------------------------
  The detentions of Tashpolat Teyip \130\ and Sanubar Tursun \131\ are
 illustrative of Chinese authorities' targeting of leading cultural
 figures in the XUAR. According to reports published during this
 reporting year, an unidentified court reportedly sentenced Teyip, the
 president of Xinjiang University, to death with a two-year reprieve
 sometime after he disappeared in March 2017.\132\ Authorities
 reportedly accused Teyip, who received an honorary doctoral degree from
 the Ecole Pratique des Hautes Etudes in Paris in 2008, of being a
 ``separatist'' and ``two-faced.'' \133\ In the case of Uyghur musician
 Sanubar Tursun, an international artistic expression advocacy
 organization reported in February 2019 that authorities may have
 detained her in a mass internment camp in the XUAR, and cited
 unconfirmed information that authorities may have sentenced her to five
 years in prison.\134\ In November 2018, organizers canceled concerts
 she had been scheduled to perform in France in February 2019, after her
 international contacts could no longer reach her.\135\
  Additional representative cases of detained Uyghur cultural and
 intellectual figures are as follows: Uyghur medical scholar Halmurat
 Ghopur; \136\ Uyghur comedian Adil Mijit; \137\ Uyghur singer Zahirshah
 Ablimit; \138\ Uyghur journal editor Qurban Mamut; \139\ Uyghur
 education official Satar Sawut; \140\ Uyghur editor and writer Yalqun
 Rozi; \141\ and retired Uyghur professor Mutellip Sidiq Qahiri.\142\
------------------------------------------------------------------------

   Detentions of Kazakhs and Kyrgyz; Documentation in Kazakhstan and 
                Kyrgyzstan of XUAR Mass Internment Camps

    XUAR authorities continued to detain ethnic Kazakhs in mass 
internment camps, including some who held permanent residency 
status in Kazakhstan, sometimes after officials requested that 
they return to the XUAR from Kazakhstan.\143\ XUAR authorities 
detained at least one Kazakh citizen who was born in 
Kazakhstan, Gulbahar Jelilova, in a mass internment camp.\144\ 
Authorities detained Jelilova, an ethnic Uyghur businesswoman, 
in May 2017, in Urumqi municipality, and held her in custody 
for one year and three months after confiscating her Kazakh 
passport and issuing her a Chinese identification 
document.\145\ In December 2018, Kazakhstan's Foreign Ministry 
reported that Chinese officials had agreed to allow 2,500 
ethnic Kazakhs in China to forfeit their Chinese citizenship 
and go to Kazakhstan, but details of the move were 
unclear.\146\ In March 2019, Kazakhstan's Foreign Ministry said 
Chinese authorities had released 20 Kazakh citizens out of a 
total of 33 held in mass internment camps.\147\ Nevertheless, 
this past year, Kazakhstan authorities repeatedly denied asylum 
to Chinese citizen Sayragul Sauytbay, an ethnic Kazakh, who 
fled China in April 2018 after Chinese authorities compelled 
her to work in a mass internment camp.\148\ In June 2019, 
Sauytbay, her husband, and her children flew to Sweden on an 
alien's passport issued by Swedish authorities.\149\
    Kazakhs in Kazakhstan with family members detained in camps 
in the XUAR increasingly publicized their cases, through social 
media and online videos, often in cooperation with the Almaty-
based organization Atajurt Kazakh Human Rights 
(``Atajurt'').\150\ In March 2019, Kazakhstan authorities 
detained Atajurt head Serikzhan Bilash on charges of ``inciting 
ethnic hatred'' and raided Atajurt's offices, removing 
equipment used to videotape detention testimonies.\151\ In 
August 2019, a court in Almaty, Kazakhstan, freed Bilash from 
detention according to the terms of a plea agreement that 
reportedly required him to curtail his rights advocacy 
activities.\152\
    Rights advocates in Kyrgyzstan also began documenting the 
cases of detained ethnic Kyrgyz, including university students 
whom Chinese authorities detained when the students returned to 
China after studying in Kyrgyzstan.\153\

        Forcible Displacement of the Children of Camp Detainees

    Authorities have reportedly placed the children of mass 
internment camp detainees in the XUAR in orphanages, welfare 
centers, and boarding schools, often despite the willingness of 
other relatives to care for the children, raising concerns of 
forcible assimilation.\154\ In 2017, authorities developed a 
strategy to invest billions of yuan in childcare and boarding 
school facilities in the XUAR, and the creation of these 
facilities largely coincided with the establishment of the mass 
internment camp system in the region.\155\ Orphanages, boarding 
schools, and other full- and part-time childcare facilities in 
the XUAR house children with one or both parents in internment 
or another form of detention or forced labor, and provide care 
for children as young as several months old.\156\ Reports 
suggested the number of displaced children is high: between 
January 2017 and September 2018, the XUAR government reportedly 
invested over US$30 million in 45 new orphanages.\157\ In 2017, 
a county in Kashgar prefecture built 18 new orphanages,\158\ 
and authorities oversaw the regionwide building and renovation 
of 4,300 ``bilingual'' kindergartens, some of which board 
students.\159\ In 2018, Uyghurs in Turkey,\160\ 
Kazakhstan,\161\ and the U.S.\162\ began reporting the possible 
disappearance and institutionalization of child relatives, 
including several non-Chinese citizens. A human rights 
organization expressed concern that authorities' displacement 
of minority children from family homes into state-run 
institutions, where orphans have long been raised according to 
Han Chinese cultural norms,\163\ represented an attempt by the 
government to forcibly assimilate Uyghurs.\164\

                      Intrusive Homestay Programs

    Authorities continued to assign cadres and government 
workers, usually of Han ethnicity, to live with ethnic minority 
families in their homes for certain periods of time to gather 
information that was used, in some cases, to send their hosts 
to mass internment camps.\165\ According to official media, as 
of September 2018, regional officials and other government 
employees had made more than 49 million visits to ethnic 
minority residents since the ``pairing relatives'' (jiedui 
renqin) or ``pairing and assistance'' (jiedui bangfu or jiedui 
fubang) program began in the fall of 2016.\166\ Government 
workers are reportedly eligible for promotions if they 
volunteer to take part in a homestay program to monitor ethnic 
minority families and teach them about Communist Party 
policies.\167\ According to an in-depth report by Darren Byler, 
government workers who refused to take part in homestay 
programs could lose their jobs.\168\ Under such programs, 
workers, referred to as ``big brothers'' and ``big sisters,'' 
watch their host families for signs that their practice of 
Islam is too ``extreme.'' Signs of a host family's 
``extremism'' might include possession of the Quran; having an 
acquaintance who lives abroad; and an unwillingness to drink 
alcohol.\169\ Visiting cadres were authorized to ask children 
in the family for information if they felt other family members 
were evading their questions.\170\ The cadres then used the 
information they compiled to decide whether to recommend that 
authorities should send members of their host families to a 
mass internment camp.\171\

        Repressive Surveillance Technology and Security Measures

    During this reporting year, XUAR government authorities 
continued to use surveillance technology and other measures to 
tighten state control over ethnic minority groups in the 
region, and to identify individuals to detain in mass 
internment camps.\172\ A report published by Human Rights Watch 
in May 2019 documented authorities' continued use of a 
centralized system known as the ``Integrated Joint Operations 
Platform'' (IJOP) to compile and analyze information collected 
through mass surveillance mechanisms in the XUAR and to detect 
``abnormal'' behaviors, targeting individuals for detention in 
camps or other types of restriction on movement.\173\ In 
February 2019, Dutch cybersecurity researcher Victor Gevers 
discovered an online database run by the Chinese facial 
recognition company SenseNets that compiled real-time 
information on the movements of more than 2.5 million 
individuals in the XUAR, recording more than 6.7 million 
coordinates in a 24-hour period.\174\ Gevers consequently 
asserted that the database was used to surveil Uyghur 
Muslims.\175\ According to international media reports, 
SenseTime, which set up SenseNets together with Chinese firm 
NetPosa Technologies in 2015, helped establish a ``smart 
policing'' venture in the XUAR, and counted American and other 
companies among its investors.\176\ [For more information on 
surveillance measures and foreign commercial investment in 
repressive security technology in the XUAR, see Section II--
Business and Human Rights.]

                          Freedom of Religion

    During the reporting year, the head of the Chinese 
Communist Party's United Front Work Department, You Quan, and 
XUAR Party Secretary Chen Quanguo both emphasized the need to 
``sinicize'' religion and resist ``religious extremism'' in the 
XUAR under the direction of the Party.\177\ Chinese officials 
justified measures to repress Islamic religious faith and 
Muslim cultural identity, often by invoking ``sinicization'' 
and ``anti-extremism'' arguments.\178\ These measures included:

        <bullet> Restrictions on religious ceremonies, 
        including funerals and burial practices; \179\
        <bullet> The confiscation and destruction of religious 
        books and prayer mats; \180\
        <bullet> The policing of commonly used religiously 
        inflected phrases such as ``assalamu alaykum''; \181\
        <bullet> Cracking down on halal products and their 
        designation; \182\ and
        <bullet> Forcing some Muslims to drink alcohol and eat 
        pork, in violation of their religious beliefs.\183\

    Throughout the XUAR, government and Party officials also 
enforced the physical destruction and closure of mosques, as 
well as policies restricting and deterring mosque 
attendance.\184\ In May 2019, the Guardian newspaper released 
the findings of research it had conducted with the journalism 
site Bellingcat, using satellite imagery analysis, reporting 
that 15 mosques and Islamic shrines out of 91 sites analyzed 
had been destroyed or nearly destroyed between 2016 and 
2018.\185\ Of the sites analyzed, the Guardian and Bellingcat 
also found that 31 mosques and 2 major shrines, including the 
prominent Keriya Heytgah Mosque in Hotan prefecture, XUAR, had 
suffered significant structural damage.\186\ Scholars and 
journalists reported that mosques throughout the XUAR were 
empty of worshipers and featured security cameras, razor wire, 
and security guards at entrances who were responsible for 
checking visitors' identity documents.\187\
    Officials throughout the XUAR detained Turkic Muslims in 
mass internment camps for religious reasons. Examples of such 
individuals whose detentions were reported in the past year 
included an 80-year-old man detained in a camp for one year 
reportedly in part because ``he was a Muslim who had a beard''; 
\188\ an 87-year-old man detained in a camp because he could 
read the Quran; \189\ a woman detained in a camp and a prison 
for studying Islam at an Egyptian university; \190\ and a man 
in his twenties whom authorities detained in a camp and then 
sentenced to 15 years in prison for posting information and 
photos about Islam on the messaging service WeChat.\191\ 
Authorities reportedly sentenced well-known Uyghur businessman 
Abdughappar Abdurusul to death, possibly for making an 
unsanctioned Islamic pilgrimage to Saudi Arabia.\192\
    As in previous reporting years,\193\ XUAR officials 
reportedly imposed controls on Muslims' observance of Ramadan. 
Turkic Muslim residents of the XUAR faced restrictions on 
fasting,\194\ mosque attendance,\195\ and the exchange of 
Islamic greetings.\196\ Authorities reportedly forced some 
Muslim civil servants and students to eat lunch during Ramadan 
\197\ and forced some Uyghur Muslims to eat pork in spite of 
their Muslim faith.\198\


                                                       Xinjiang
                                                Xinjiang
    Notes to Section IV--Xinjiang

    \1\ Rob Taylor, ``China Supersizes Internment Camps in Xinjiang 
Despite International Criticism,'' Wall Street Journal, November 1, 
2018; Fergus Ryan, Danielle Cave, and Nathan Ruser, ``Mapping 
Xinjiang's `Re-education' Camps,'' International Cyber Policy Centre, 
Australian Strategic Policy Institute, November 1, 2018.
    \2\ See, e.g., Human Rights Watch, ``China's Algorithms of 
Repression,'' May 1, 2019; Reid Standish and Aigerim Toleukhanova, 
``Kazakhs Won't Be Silenced on China's Internment Camps,'' Foreign 
Policy, March 4, 2019; Gene A. Bunin, ``Kyrgyz Students Vanish into 
Xinjiang's Maw,'' Foreign Policy, March 31, 2019; Reid Standish, 
``China's Expanding War on Islam: Now They're Coming for the 
Kazakhs.,'' Washington Post, March 1, 2019; ``China's Kazakh Ambassador 
Angrily Rejects Xinjiang Crackdown Allegations,'' Radio Free Europe/
Radio Liberty, May 28, 2019.
    \3\ Reid Standish and Aigerim Toleukhanova, ``Kazakhs Won't Be 
Silenced on China's Internment Camps,'' Foreign Policy, March 4, 2019.
    \4\ Nathan VanderKlippe, `` `I Felt Like a Slave:' Inside China's 
Complex System of Incarceration and Control of Minorities,'' Globe and 
Mail, March 31, 2019.
    \5\ Reid Standish and Aigerim Toleukhanova, ``Kazakhs Won't Be 
Silenced on China's Internment Camps,'' Foreign Policy, March 4, 2019; 
James Millward, `` `Reeducating' Xinjiang's Muslims,'' New York Review 
of Books, February 7, 2019.
    \6\ ``Interview: `I Did Not Believe I Would Leave Prison in China 
Alive,' '' Radio Free Asia, November 1, 2018.
    \7\ Flint Duxfield and Ian Burrows, ``Uyghur Woman Details Life 
Inside Chinese `Re-education Camp' in Xinjiang,'' Australian 
Broadcasting Corporation, January 8, 2019.
    \8\ Mustafa Akyol, ``China's Gulag for Muslims,'' New York Times, 
January 2, 2019.
    \9\ James Millward, `` `Reeducating' Xinjiang's Muslims,'' New York 
Review of Books, February 7, 2019; Mustafa Akyol, ``China's Gulag for 
Muslims,'' New York Times, January 2, 2019. For more information on 
extended solitary confinement in mass internment camps, see, e.g., 
Gerry Shih, ``China's Mass Indoctrination Camps Evoke Cultural 
Revolution,'' Associated Press, May 18, 2018.
    \10\ Nathan VanderKlippe, `` `I Felt Like a Slave:' Inside China's 
Complex System of Incarceration and Control of Minorities,'' Globe and 
Mail, March 31, 2019.
    \11\ Ibid.
    \12\ Ibid.
    \13\ Martha Mendoza and Yanan Wang, ``US Reviews Report of Imports 
from Forced Labor in China Camp,'' Associated Press, December 19, 2018; 
Chris Buckley and Austin Ramzy, ``China's Detention Camps for Muslims 
Turn to Forced Labor,'' New York Times, December 16, 2018.
    \14\ James Millward, `` `Reeducating' Xinjiang's Muslims,'' New 
York Review of Books, February 7, 2019; `` `I Dream About the Suffering 
in the Camp Most of the Time Now,' '' Radio Free Asia, January 30, 
2019.
    \15\ Darren Byler, `` `As If You've Spent Your Whole Life in 
Prison': Starving and Subdued in Xinjiang Detention Centers,'' 
SupChina, December 5, 2018.
    \16\ Human Rights Watch, ``China's Algorithms of Repression,'' May 
1, 2019; Ryan Mac, Rosalind Adams, and Megha Rajagopalan, ``US 
Universities and Retirees Are Funding the Technology Behind China's 
Surveillance State,'' BuzzFeed News, June 5, 2019.
    \17\ See, e.g., ``Uyghur Businessman Dies While Detained in 
Xinjiang Political `Re-education Camp,' '' Radio Free Asia, January 28, 
2019; ``Young Uyghur Woman Dies in Detention in Xinjiang Political `Re-
education Camp,' '' Radio Free Asia, September 25, 2018; ``Oppression 
of Uyghurs in China Only `Gives Rise to Hatred,' Say Their Families in 
Japan,'' Sankei Shimbun, translated in JapanForward, October 26, 2018; 
``Interview: `I Did Not Believe I Would Leave Prison in China Alive,' 
'' Radio Free Asia, November 1, 2018; ``Xinjiang Authorities Sentence 
Uyghur Philanthropist to Death for Unsanctioned Hajj,'' Radio Free 
Asia, November 21, 2018; ``Uyghur Businessman Dies Following Heart 
Attack in Xinjiang Political `Re-education Camp,' '' Radio Free Asia, 
April 18, 2019; Nathan VanderKlippe, ``Inside China's Campaign against 
the Uyghurs,'' Globe and Mail, November 5, 2018.
    \18\ Uyghur Human Rights Project, ``The Persecution of the 
Intellectuals in the Uyghur Region Continues,'' January 28, 2019.
    \19\ Asim Kashgarian, ``Prominent Uighur Writer Dies at Chinese 
Internment Camp,'' Voice of America, June 14, 2019; ``Prominent Uyghur 
Writer Dies After Being Deprived Treatment in Xinjiang Internment 
Camp,'' Radio Free Asia, June 17, 2019.
    \20\ Asim Kashgarian, ``Prominent Uighur Writer Dies at Chinese 
Internment Camp,'' Voice of America, June 14, 2019; Alison Flood, 
``Uighur Author Dies Following Detention in Chinese `Re-Education' 
Camp,'' Guardian, June 19, 2019.
    \21\ ``Young Uyghur Woman Dies in Detention in Xinjiang Political 
`Re-education Camp,' '' Radio Free Asia, September 25, 2018. For more 
information on Amine Qadir, see the Commission's Political Prisoner 
Database record 2018-00405.
    \22\ ``Uyghur Man Dies in Xinjiang Internment Camp After Sacking 
Over Muslim Prayers,'' Radio Free Asia, July 15, 2019.
    \23\ ``Young Uyghur Tour Director Dies Under Questioning by 
Xinjiang Authorities: Mother,'' Radio Free Asia, June 24, 2019.
    \24\ Stephanie Nebehay, ``1.5 Million Muslims Could Be Detained in 
China's Xinjiang: Academic,'' Reuters, March 13, 2019; Nick Cumming-
Bruce, ``U.S. Steps Up Criticism of China for Detentions in Xinjiang,'' 
New York Times, March 13, 2019.
    \25\ Stephanie Nebehay, ``1.5 Million Muslims Could Be Detained in 
China's Xinjiang: Academic,'' Reuters, March 13, 2019. See also ``One 
in Six Uyghurs Held in Political `Re-Education Camps' in Xinjiang's 
Onsu County,'' Radio Free Asia, August 31, 2018.
    \26\ John Sudworth, ``China's Hidden Camps,'' BBC, October 25, 
2018; Philip Wen and Olzhas Auyezov, ``Tracking China's Muslim Gulag,'' 
Reuters, November 29, 2018.
    \27\ John Sudworth, ``China's Hidden Camps,'' BBC, October 25, 
2018.
    \28\ John Sudworth, ``China's Hidden Camps,'' BBC, October 25, 
2018; Philip Wen and Olzhas Auyezov, ``Tracking China's Muslim Gulag,'' 
Reuters, November 29, 2018.
    \29\ ``An Internment Camp for 10 Million Uyghurs: Meduza Visits 
China's Dystopian Police State,'' Meduza, October 1, 2018.
    \30\ Philip Wen and Olzhas Auyezov, ``Tracking China's Muslim 
Gulag,'' Reuters, November 29, 2018; Sean R. Roberts, ``Fear and 
Loathing in Xinjiang: Ethnic Cleansing in the 21st Century,'' Fair 
Observer, December 17, 2018.
    \31\ Fergus Ryan, Danielle Cave, and Nathan Ruser, ``Mapping 
Xinjiang's `Re-education' Camps,'' International Cyber Policy Centre, 
Australian Strategic Policy Institute, November 1, 2018.
    \32\ Mark Doman, Stephen Hutcheon, Dylan Welch, and Kyle Taylor, 
``China's Frontier of Fear,'' Australian Broadcasting Corporation, 
November 1, 2018; Nathan VanderKlippe, `` `I Felt Like a Slave:' Inside 
China's Complex System of Incarceration and Control of Minorities,'' 
Globe and Mail, March 31, 2019; Fergus Ryan, Danielle Cave, and Nathan 
Ruser, ``Mapping Xinjiang's `Re-education' Camps,'' International Cyber 
Policy Centre, Australian Strategic Policy Institute, November 1, 2018; 
Philip Wen and Olzhas Auyezov, ``Tracking China's Muslim Gulag,'' 
Reuters, November 29, 2018.
    \33\ Philip Wen and Olzhas Auyezov, ``Tracking China's Muslim 
Gulag,'' Reuters, November 29, 2018; Lily Kuo, `` `If You Enter a Camp, 
You Never Come Out': Inside China's War on Islam,'' Guardian, January 
11, 2019.
    \34\ Xinjiang Uyghur Autonomous Region People's Congress Standing 
Committee, Xinjiang Weiwu'er Zizhi Qu Jiduanhua Tiaoli [Xinjiang Uyghur 
Autonomous Region Anti-Extremism Regulations], passed March 29, 2017, 
amended and effective October 9, 2018; ``Xinjiang Rolls Out China's 
First Law to Purge Religious Extremism,'' Xinhua, March 30, 2017.
    \35\ Xinjiang Uyghur Autonomous Region People's Congress Standing 
Committee, Xinjiang Weiwu'er Zizhiqu Qu Jiduanhua Tiaoli [Xinjiang 
Uyghur Autonomous Region Anti-Extremism Regulations], passed March 29, 
2017, effective April 1, 2017; ``Xinjiang Rolls Out China's First Law 
to Purge Religious Extremism,'' Xinhua, March 30, 2017. See also CECC, 
2017 Annual Report, October 5, 2017, 286.
    \36\ Liu Caiyu and Liu Xuanzun, ``Xinjiang Revises Its Anti-
Extremism Regulation,'' Global Times, October 10, 2018; Cui Jia, 
``Xinjiang Fighting Extremist Thought,'' China Daily, October 12, 2018.
    \37\ Xinjiang Uyghur Autonomous Region People's Congress Standing 
Committee, Xinjiang Weiwu'er Zizhi Qu Jiduanhua Tiaoli [Xinjiang Uyghur 
Autonomous Region Anti-Extremism Regulations], passed March 29, 2017, 
amended and effective October 9, 2018, arts. 14, 17, 21, 33.
    \38\ Xinjiang Uyghur Autonomous Region People's Congress Standing 
Committee, Xinjiang Weiwu'er Zizhiqu Qu Jiduanhua Tiaoli [Xinjiang 
Uyghur Autonomous Region Anti-Extremism Regulations], passed March 29, 
2017, effective April 1, 2017. See also Jeremy Daum, ``Explainer on 
Xinjiang Regulations,'' China Law Translate, October 11, 2018. Daum's 
analysis includes a chart titled ``Decision to Revise the `Xinjiang 
Uighur Autonomous Region Regulation on De-extremification,' '' which 
juxtaposes provisions in the 2017 version of the regulations with 
changes in the 2018 revised version.
    \39\ International Convention on the Elimination of All Forms of 
Racial Discrimination (ICERD), adopted by UN General Assembly 
resolution 2106 (XX) of December 2, 1965, entry into force January 4, 
1969, art. 1; United Nations Treaty Collection, Chapter IV, Human 
Rights, 2, International Convention on the Elimination of All Forms of 
Racial Discrimination, accessed June 16, 2019. The Chinese government 
acceded to ICERD on December 29, 1981. International Covenant on 
Economic, Social and Cultural Rights (ICESCR), adopted by UN General 
Assembly resolution 2200A (XXI) of December 16, 1966, entry into force 
January 3, 1976; United Nations Treaty Collection, Chapter IV, Human 
Rights, International Covenant on Economic, Social and Cultural Rights, 
accessed June 16, 2019. China signed and ratified the ICESCR. 
Convention on the Elimination of All Forms of Discrimination against 
Women (CEDAW), adopted by UN General Assembly resolution 34/180 of 
December 18, 1979, entry into force September 3, 1981, arts. 7, 24. 
United Nations Treaty Collection, Chapter IV, Human Rights, Convention 
on the Elimination of All Forms of Discrimination against Women, 
accessed June 16, 2019. China signed CEDAW on July 17, 1980, and 
ratified it on November 4, 1980, thereby committing to undertake the 
legal rights and obligations contained in these articles. Convention 
against Torture and Other Cruel, Inhuman or Degrading Treatment or 
Punishment (CAT), adopted by UN General Assembly resolution 39/46 of 
December 10, 1984, entry into force June 26, 1987. United Nations 
Treaty Collection, Chapter IV, Human Rights, Convention against Torture 
and Other Cruel, Inhuman or Degrading Treatment or Punishment, accessed 
June 16, 2019. China signed the CAT on December 12, 1986, and ratified 
it on October 4, 1988. See also Hilary Hurd, ``China's Human Rights 
Abuses Against Uighurs in Xinjiang,'' Lawfare (blog), October 9, 2018.
    \40\ Hilary Hurd, ``China's Human Rights Abuses Against Uighurs in 
Xinjiang,'' Lawfare (blog), October 9, 2018; International Convention 
on the Elimination of All Forms of Racial Discrimination, adopted by UN 
General Assembly resolution 2106 (XX) of December 2, 1965, entry into 
force January 4, 1969, art. 1.
    \41\ Donald Clarke, ``No, New Xinjiang Legislation Does Not 
Legalize Detention Centers,'' Lawfare (blog), October 11, 2018; Jeremy 
Daum, ``Explainer on Xinjiang Regulations,'' China Law Translate, 
October 11, 2018; Jeremy Goldkorn, ``China Explicitly Acknowledges, 
Tries to Justify Concentration Camps in Xinjiang,'' SupChina, October 
10, 2018; Nectar Gan and Mimi Lau, ``China Changes Law to Recognise 
`Re-education Camps' in Xinjiang,'' South China Morning Post, October 
13, 2018; Eva Dou, ``China Acknowledges Re-Education Centers for 
Uighurs,'' Wall Street Journal, October 10, 2018. See also Zhonghua 
Renmin Gongheguo Lifa Fa [PRC Legislation Law], passed March 15, 2000, 
effective July 1, 2000, amended March 15, 2015, arts. 7, 8, 9; ``New 
Law Aims to Justify Xinjiang Camps amid Rising U.S. Concerns,'' China 
Digital Times, October 10, 2018.
    \42\ World Uyghur Congress (@UyghurCongress), ``A group of Chinese 
experts legal experts were asked 4 weeks in advance . . .,'' Twitter, 
June 6, 2019, 6:04 p.m.
    \43\ Kevin Carrico and Jerome A. Cohen, ``Muslims in Xinjiang Are 
Facing Human Rights Abuses: Time for China Scholars to Break the 
Silence,'' letter to the editor, South China Morning Post, September 
20, 2018; Kate Cronin-Furman, ``China Has Chosen Cultural Genocide in 
Xinjiang--For Now,'' Foreign Policy, September 19, 2018; ``Kate Cronin-
Furman: Overview,'' Belfer Center for Science and International 
Affairs, Harvard Kennedy School, September 19, 2018; Daniel Bessner and 
Isaac Stone Fish, ``How the Left Should Respond to Ethnic Cleansing in 
China,'' Nation, January 15, 2019; Michael Caster, ``At Davos, the 
Message of `Globalization 4.0' Must Include a Rebuke of China's Ethnic 
Cleansing in Xinjiang,'' Hong Kong Free Press, January 21, 2019; Sarah 
Cook, ``A Different Kind of Prison: Mass Surveillance in Xinjiang and 
Its Global Implications'' [Transcript], Center for Strategic & 
International Studies, June 28, 2019; Freedom House, ``Sarah Cook: 
Senior Research Analyst for East Asia,'' accessed August 12, 2019.
    \44\ Global Centre for the Responsibility to Protect, ``The 
Persecution of the Uighurs and Potential Crimes Against Humanity in 
China,'' April 2019; International Service for Human Rights, ``HRC41--
23 States Jointly Condemn China's Suppression of Minorities in 
Xinjiang,'' July 11, 2019; Uyghur Human Rights Project, ``Universal 
Children's Day 2018: China Must Reunite Uyghur Children and Parents. 
Forcible Placement of Children of Living Parents in State-Run 
Facilities Constitutes a Crime Against Humanity,'' November 19, 2018. 
See also Rushan Abbas, ``I've Fought China's Slow-Motion Genocide of 
Uighur Muslims. Now, My Family Are Victims,'' USA Today, May 9, 2019.
    \45\ Rome Statute of the International Criminal Court, adopted by 
the United Nations Diplomatic Conference of Plenipotentiaries on the 
Establishment of an International Criminal Court of July 17, 1998, 
entry into force July 1 2002, art. 7; United Nations Treaty Collection, 
Chapter XVIII, Penal Matters, Rome Statute of the International 
Criminal Court, accessed June 14, 2019. China has neither signed nor 
ratified the Rome Statute. According to Article 7 of the Rome Statute, 
any of the following acts may constitute a ``crime against humanity'': 
murder; extermination; enslavement; deportation or forcible transfer of 
population; imprisonment or other severe deprivation of physical 
liberty in violation of fundamental rules of international law; 
torture; rape, sexual slavery, enforced prostitution, forced pregnancy, 
enforced sterilization, or any other form of sexual violence of 
comparable gravity; persecution against any identifiable group or 
collectivity on political, racial, national, ethnic, cultural, 
religious, gender as defined in paragraph 3, or other grounds that are 
universally recognized as impermissible under international law, in 
connection with any act referred to in this paragraph or any crime 
within the jurisdiction of the Court; enforced disappearance of 
persons; the crime of apartheid; and other inhumane acts of a similar 
character intentionally causing great suffering, or serious injury to 
body or to mental or physical health. See also Michael Caster, 
``China's Crimes Against Humanity You've Never Heard Of,'' CNN, July 
26, 2018; `` `Crimes Against Humanity' in Xinjiang Draw Attention,'' 
China Digital Times, July 30, 2018.
    \46\ Rome Statute of the International Criminal Court, adopted by 
the United Nations Diplomatic Conference of Plenipotentiaries on the 
Establishment of an International Criminal Court of July 17, 1998, 
entry into force July 1 2002, art. 7.
    \47\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of December 10 1948, art. 
9; International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of December 16, 
1966, entry into force March 23 1976, art. 9(1). See also CECC, 2014 
Annual Report, October 9, 2014, 81; United Nations Treaty Collection, 
Chapter IV, Human Rights, International Covenant on Civil and Political 
Rights, accessed June 16, 2019. China has signed but not ratified the 
ICCPR. See also Body of Principles for the Protection of All Persons 
Under Any Form of Detention or Imprisonment, adopted by UN General 
Assembly resolution 43/173 of December 9, 1988, principle 4. Extralegal 
and extrajudicial forms of detention that restrict a person's liberty 
violate Article 9 of the Universal Declaration of Human Rights and 
Article 9(1) of the International Covenant on Civil and Political 
Rights.
    \48\ Peter Martin, ``How China Is Defending Its Detention of 
Muslims to the World,'' Bloomberg, April 19, 2019; Gene A. Bunin, 
``Kyrgyz Students Vanish into Xinjiang's Maw,'' Foreign Policy, March 
31, 2019; Nathan VanderKlippe, `` `I Felt Like a Slave:' Inside China's 
Complex System of Incarceration and Control of Minorities,'' Globe and 
Mail, March 31, 2019; Uyghur Human Rights Project, ``Update--Detained 
and Disappeared: Intellectuals Under Assault in the Uyghur Homeland,'' 
May 21, 2019; Reid Standish and Aigerim Toleukhanova, ``Kazakhs Won't 
Be Silenced on China's Internment Camps,'' Foreign Policy, March 4, 
2019; ``Chinese `Reeducation Camps' Whistle-Blower Leaves Kazakhstan 
for Unnamed Country,'' Radio Free Europe/Radio Liberty, June 3, 2019.
    \49\ Nathan VanderKlippe, `` `I Felt Like a Slave:' Inside China's 
Complex System of Incarceration and Control of Minorities,'' Globe and 
Mail, March 31, 2019; James Millward, `` `Reeducating' Xinjiang's 
Muslims,'' New York Review of Books, February 7, 2019.
    \50\ Stephanie Nebehay, ``1.5 Million Muslims Could Be Detained in 
China's Xinjiang: Academic,'' Reuters, March 13, 2019; Nick Cumming-
Bruce, ``U.S. Steps Up Criticism of China for Detentions in Xinjiang,'' 
New York Times, March 13, 2019; Reid Standish and Aigerim Toleukhanova, 
``Kazakhs Won't Be Silenced on China's Internment Camps,'' Foreign 
Policy, March 4, 2019; Gene A. Bunin, ``Kyrgyz Students Vanish into 
Xinjiang's Maw,'' Foreign Policy, March 31, 2019; ``Chinese 
`Reeducation Camps' Whistle-Blower Leaves Kazakhstan for Unnamed 
Country,'' Radio Free Europe/Radio Liberty, June 3, 2019.
    \51\ See, e.g., Nathan VanderKlippe, ``Inside China's Campaign 
against the Uyghurs,'' Globe and Mail, November 5, 2018; Li Zaili, 
``CCP Interfering with How Muslims Perform Funerals,'' Bitter Winter, 
January 24, 2019; Darren Byler, ``China's Government Has Ordered a 
Million Citizens to Occupy Uighur Homes. Here's What They Think They're 
Doing.,'' ChinaFile, Asia Society, October 24, 2018; Ruth Ingram, `` 
`Surviving China': Uyghur Voices from Xinjiang and Guantanamo,'' Bitter 
Winter, April 15, 2019.
    \52\ See, e.g., Human Rights Watch, ``China's Algorithms of 
Repression,'' May 1, 2019.
    \53\ Uyghur Human Rights Project, ``Update--Detained and 
Disappeared: Intellectuals Under Assault in the Uyghur Homeland,'' May 
21, 2019; Gene A. Bunin, ``Kyrgyz Students Vanish into Xinjiang's 
Maw,'' Foreign Policy, March 31, 2019; Remi Castets, ``What's Really 
Happening to Uighurs in Xinjiang?,'' Nation, March 19, 2019; Kate Lyons 
and Lily Kuo, ``Fears for Uighur Comedian Missing amid Crackdown on 
Cultural Figures,'' Guardian, February 21, 2019; Reid Standish and 
Aigerim Toleukhanova, ``Kazakhs Won't Be Silenced on China's Internment 
Camps,'' Foreign Policy, March 4, 2019; ``Chinese `Reeducation Camps' 
Whistle-Blower Leaves Kazakhstan for Unnamed Country,'' Radio Free 
Europe/Radio Liberty, June 3, 2019.
    \54\ See, e.g., Nathan VanderKlippe, `` `I Felt Like a Slave:' 
Inside China's Complex System of Incarceration and Control of 
Minorities,'' Globe and Mail, March 31, 2019 (``religious extremism''); 
Gene A. Bunin, ``Kyrgyz Students Vanish into Xinjiang's Maw,'' Foreign 
Policy, March 31, 2019 (previous overseas travel); Rob Schmitz, 
``Families of the Disappeared: A Search for Loved Ones Held in China's 
Xinjiang Region,'' Morning Edition, NPR, November 12, 2018 (relatives 
living abroad); CECC, 2018 Annual Report, October 8, 2018, 273.
    \55\ Human Rights Watch, ``China's Algorithms of Repression,'' May 
1, 2019. See also Omer Kanat, ``Religious Repression and Cultural 
Decimation: Spare a Thought for Uyghurs This Ramadan,'' Global Post, 
May 14, 2019.
    \56\ State Council Information Office, ``The Fight against 
Terrorism and Extremism and Human Rights Protection in Xinjiang,'' 
March 2019, 20. See also ``Xinhua Headlines: Preventive Approach: 
China's Effective Means to Combat Terrorism,'' Xinhua, March 18, 2019.
    \57\ Nathan VanderKlippe, `` `I Felt Like a Slave:' Inside China's 
Complex System of Incarceration and Control of Minorities,'' Globe and 
Mail, March 31, 2019.
    \58\ Austin Ramzy, `` `Show Me That My Father Is Alive.' China 
Faces Torrent of Online Pleas.,'' New York Times, February 17, 2019; 
Nathan VanderKlippe, ``Documenting the Disappeared: Relatives, Friends 
Build Database of Missing Uyghurs,'' Globe and Mail, November 2, 2018.
    \59\ Xinjiang Victims Database (www.shahit.biz), Stats, Detention 
Reason, accessed August 15, 2019. As of August 15, 2019, the three 
reasons for detention most frequently provided in the Xinjiang Victims 
Database were ``related to religion'' (535); ``related to going 
abroad'' (324); and ``relative(s)'' (187). These responses were noted 
in the case records of 1,642 detainees for whom a reason for detention 
had been provided.
    \60\ ``Mandatory Indoctrination Classes for Unemployed Uyghurs in 
Xinjiang,'' Radio Free Asia, February 7, 2019.
    \61\ Peter Martin, ``How China Is Defending Its Detention of 
Muslims to the World,'' Bloomberg, April 19, 2019.
    \62\ Lily Kuo, ``From Denial to Pride: How China Changed Its 
Language on Xinjiang's Camps,'' Guardian, October 21, 2018; Peter 
Martin, ``How China Is Defending Its Detention of Muslims to the 
World,'' Bloomberg, April 19, 2019; Nectar Gan and Mimi Lau, ``China 
Changes Law to Recognise `Re-education Camps' in Xinjiang,'' South 
China Morning Post, October 13, 2018.
    \63\ ``Spotlight: China Completes 3rd Universal Periodic Review at 
UN Human Rights Council,'' Xinhua, March 16, 2019; UN Office of the 
High Commissioner for Human Rights, ``Human Rights Council Adopts the 
Outcomes of the Universal Periodic Review of Belize, Chad, China and 
Malta,'' March 15, 2019; Nick Cumming-Bruce, ``At U.N., China Defends 
Mass Detention of Uighur Muslims,'' New York Times, November 6, 2018.
    \64\ Chris Buckley and Amy Qin, ``Muslim Detention Camps Are Like 
`Boarding Schools,' Chinese Official Says,'' New York Times, March 12, 
2019.
    \65\ Cui Jia, ``Xinjiang Vocational Centers `Effective' against 
Extremism,'' China Daily, March 13, 2019. See also Cui Hui'ao and You 
Siyuan, ``A Look at Vocational Education and Training Programs in 
Xinjiang,'' CGTN, March 13, 2019.
    \66\ State Council Information Office, ``The Fight against 
Terrorism and Extremism and Human Rights Protection in Xinjiang,'' 
March 2019, 22. See also ``Xinhua Headlines: Preventive Approach: 
China's Effective Means to Combat Terrorism,'' Xinhua, March 18, 2019.
    \67\ See, e.g., Peter Martin, ``How China Is Defending Its 
Detention of Muslims to the World,'' Bloomberg, April 19, 2019; Ben 
Blanchard, ``China Says Pace of Xinjiang `Education' Will Slow, but 
Defends Camps,'' Reuters, January 6, 2019; Sophie Richardson, Human 
Rights Watch, ``China's Xinjiang Tour Should Have Fooled No One,'' 
January 7, 2019; Karen Leigh, ``China Takes Diplomats to Tour Xinjiang 
`Re-Education Camps,' '' Bloomberg, January 7, 2019.
    \68\ See, e.g., Peter Martin, ``How China Is Defending Its 
Detention of Muslims to the World,'' Bloomberg, April 19, 2019.
    \69\ Chun Han Wong, ``China Says Majority of Xinjiang Detainees 
Released, but Activists Question Claim,'' Wall Street Journal, July 30, 
2019; ``Xinjiang Situation to Realize a Soft Landing,'' Global Times, 
August 1, 2019; ``Xinjiang Weiwu'er Zizhiqu zhuxi: jiaopei zhongxin 
xueyuan duoshu yi huigui shehui jiu cheng ren zhaodao lixiang jiuye'' 
[XUAR chairman: majority of education and training students have 
returned to society, ninety percent have found ideal employment], 
Global Times, July 30, 2019. The Chinese term for ``vocational 
education and training centers'' is zhiye jineng jiaoyu peixun 
zhongxin.
    \70\ Chris Buckley and Steven Lee Myers, ``China Said It Closed 
Muslim Detention Camps. There's Reason to Doubt That.,'' New York 
Times, August 9, 2019; Chris Buckley and Edward Wong, ``Doubt Greets 
China's Claim That Muslims Have Been Released from Camps,'' New York 
Times, July 30, 2019; Chun Han Wong, ``China Says Majority of Xinjiang 
Detainees Released, but Activists Question Claim,'' Wall Street 
Journal, July 30, 2019.
    \71\ Chris Buckley and Edward Wong, ``Doubt Greets China's Claim 
That Muslims Have Been Released from Camps,'' New York Times, July 30, 
2019; Michael Martina, ``China Says Most People in Xinjiang Camps Have 
`Returned to Society,' '' Reuters, July 30, 2019; Chun Han Wong, 
``China Says Majority of Xinjiang Detainees Released, but Activists 
Question Claim,'' Wall Street Journal, July 30, 2019; Anna Fifield, 
``China Celebrates `Very Happy Lives' in Xinjiang, After Detaining 1 
Million Uighurs,'' Washington Post, July 30, 2019.
    \72\ Chris Buckley and Steven Lee Myers, ``China Said It Closed 
Muslim Detention Camps. There's Reason to Doubt That.,'' New York 
Times, August 9, 2019.
    \73\ See, e.g., State Council Information Office, ``Vocational 
Education and Training in Xinjiang,'' August 16, 2019, 4-5.
    \74\ Adrian Zenz, ``Brainwashing, Police Guards and Coercive 
Internment: Evidence from Chinese Government Documents about the Nature 
and Extent of Xinjiang's `Vocational Training Internment Camps,' '' 
Journal of Political Risk 7, no. 7 (July 2019). The Chinese term for 
``transformation through education'' is jiaoyu zhuanhua.
    \75\ Sarah Cook, ``The Learning Curve: How Communist Party 
Officials Are Applying Lessons from Prior `Transformation' Campaigns to 
Repression in Xinjiang,'' China Brief, Jamestown Foundation, February 
1, 2019.
    \76\ Sarah Cook, ``The Learning Curve: How Communist Party 
Officials Are Applying Lessons from Prior `Transformation' Campaigns to 
Repression in Xinjiang,'' China Brief, Jamestown Foundation, February 
1, 2019. See also Timothy Grose, `` `Once Their Mental State Is 
Healthy, They Will Be Able to Live Happily in Society,' '' ChinaFile, 
Asia Society, August 2, 2019.
    \77\ Adrian Zenz, ``Xinjiang's Re-Education and Securitization 
Campaign: Evidence from Domestic Security Budgets,'' China Brief, 
Jamestown Foundation, November 5, 2018.
    \78\ ``Full Transcript: Interview with Xinjiang Government Chief on 
Counterterrorism, Vocational Education and Training in Xinjiang,'' 
Xinhua, October 16, 2018; Rob Taylor, ``China Supersizes Internment 
Camps in Xinjiang Despite International Criticism,'' Wall Street 
Journal, November 1, 2018; ``Slandering Xinjiang as `No Rights Zone' 
Against Fact, Chinese Official Told UN Panel,'' Xinhua, August 14, 
2018.
    \79\ See, e.g., Adrian Zenz, `` `Thoroughly Reforming Them Toward a 
Healthy Heart Attitude'--China's Political Re-Education Campaign in 
Xinjiang,'' Academia.edu (website), updated May 15, 2018, accessed July 
14, 2019, 8-14; Adrian Zenz, ``New Evidence for China's Political Re-
Education Campaign in Xinjiang,'' China Brief, Jamestown Foundation, 
May 15, 2018; CECC, 2018 Annual Report, October 8, 2018, 247, 273.
    \80\ Adrian Zenz, ``Xinjiang's Re-Education and Securitization 
Campaign: Evidence from Domestic Security Budgets,'' China Brief, 
Jamestown Foundation, November 5, 2018.
    \81\ Ben Dooley, ``Tear Gas, Tasers and Textbooks: Inside China's 
Xinjiang Internment Camps,'' Agence France-Presse, reprinted in Hong 
Kong Free Press, October 24, 2018.
    \82\ Ibid.
    \83\ Ibid.
    \84\ ARIA in Action, Part 1: Human Rights, Democracy, and the Rule 
of Law, Hearing of the Subcommittee on East Asia, the Pacific, and 
International Cybersecurity Policy, Committee on Foreign Relations, 
U.S. Senate, 116th Cong. (2019) (testimony of Rushan Abbas, Director of 
Campaign for Uyghurs).
    \85\ Ibid.
    \86\ Nathan VanderKlippe, ``Documenting the Disappeared: Relatives, 
Friends Build Database of Missing Uyghurs,'' Globe and Mail, November 
2, 2018.
    \87\ See, e.g., Andrew McCormick, ``What It's Like to Report on 
Rights Abuses against Your Own Family,'' Atlantic, March 1, 2019; Ivan 
Watson and Ben Westcott, `` `Cultural Genocide': How China Is Tearing 
Uyghur Families Apart in Xinjiang,'' CNN, November 15, 2018; CECC, 2018 
Annual Report, October 8, 2018, 276.
    \88\ For more information on Abdurehim Heyit, see the Commission's 
Political Prisoner Database record 2017-00371.
    \89\ Austin Ramzy, `` `Show Me That My Father Is Alive.' China 
Faces Torrent of Online Pleas.,'' New York Times, February 17, 2019; 
Ministry of Foreign Affairs, Republic of Turkey, ``QA-9 February 2019, 
Statement of the Spokesperson of the Ministry of Foreign Affairs, Mr. 
Hami Aksoy, in Response to a Question Regarding Serious Human Rights 
Violations Perpetrated against Uighur Turks and the Passing Away of 
Folk Poet Abdurehim Heyit,'' February 9, 2019.
    \90\ Austin Ramzy, `` `Show Me That My Father Is Alive.' China 
Faces Torrent of Online Pleas.,'' New York Times, February 17, 2019; 
Lily Kuo, ``China Releases Video of Uighur Poet Said to Have Died in 
Custody,'' Guardian, February 11, 2019. See also Liu Caiyu, ``China 
Refutes Turkish FM's Accusation on Xinjiang Training Centers,'' Global 
Times, February 11, 2019.
    \91\ Austin Ramzy, `` `Show Me That My Father Is Alive.' China 
Faces Torrent of Online Pleas.,'' New York Times, February 17, 2019; `` 
`Wo ye shi Weiwu'er ren': qinshu yaoqiu dangju gongkai shizong jiaren 
xialuo'' [``I'm a Uyghur too'': relatives ask authorities to disclose 
the whereabouts of missing family members], Radio Free Asia, February 
12, 2019; Kate Lyons and Lily Kuo, ``Fears for Uighur Comedian Missing 
amid Crackdown on Cultural Figures,'' Guardian, February 21, 2019.
    \92\ Austin Ramzy, `` `Show Me That My Father Is Alive.' China 
Faces Torrent of Online Pleas.,'' New York Times, February 17, 2019; 
Nathan VanderKlippe, ``Documenting the Disappeared: Relatives, Friends 
Build Database of Missing Uyghurs,'' Globe and Mail, November 2, 2018.
    \93\ Philip Wen and Olzhas Auyezov, ``Tracking China's Muslim 
Gulag,'' Reuters, November 29, 2018.
    \94\ John Sudworth, ``China's Hidden Camps,'' BBC, October 25, 
2018.
    \95\ Nathan VanderKlippe, ``The Globe's Nathan VanderKlippe 
Recounts Surveillance, Threats of Arrest, Destruction of Photos While 
Reporting in Xinjiang,'' Globe and Mail, November 4, 2018.
    \96\ See, e.g., Nathan VanderKlippe, `` `I Felt Like a Slave:' 
Inside China's Complex System of Incarceration and Control of 
Minorities,'' Globe and Mail, March 31, 2019; Flint Duxfield and Ian 
Burrows, ``Uyghur Woman Details Life Inside Chinese `Re-education Camp' 
in Xinjiang,'' Australian Broadcasting Corporation, January 8, 2019; 
Reid Standish, ``China's Expanding War on Islam: Now They're Coming for 
the Kazakhs.,'' Washington Post, March 1, 2019.
    \97\ Reid Standish, ``China's Expanding War on Islam: Now They're 
Coming for the Kazakhs.,'' Washington Post, March 1, 2019. See also 
Nathan VanderKlippe, `` `I Felt Like a Slave:' Inside China's Complex 
System of Incarceration and Control of Minorities,'' Globe and Mail, 
March 31, 2019.
    \98\ Reid Standish, ``China's Expanding War on Islam: Now They're 
Coming for the Kazakhs.,'' Washington Post, March 1, 2019. See also 
Nathan VanderKlippe, `` `I Felt Like a Slave:' Inside China's Complex 
System of Incarceration and Control of Minorities,'' Globe and Mail, 
March 31, 2019.
    \99\ Amy Gunia, ``State Department Official Says U.S. Residents May 
Be Among the Muslims Detained in Xinjiang,'' Time, March 29, 2019; 
Michelle Kosinski and Jennifer Hansler, ``State Dept. Believes US Legal 
Residents are Being Held in Chinese Detention Camps,'' CNN, March 29, 
2019; Tara Francis Chan, ``U.S. Resident May Be One of a Million People 
Imprisoned in China's Secretive Detention Camps,'' Newsweek, March 29, 
2019.
    \100\ `` `Deeply Concerned' Marise Payne to Pursue China Over 
Detention of Million Uighurs,'' SBS News, July 15, 2019; Paul Karp, 
``Australia `Deeply Concerned' About China's Treatment of Uighur 
People,'' Guardian, July 14, 2019. See also Vicky Xiuzhong Xu and Jamie 
Tarabay, ``In Australia, Muslims Call for Pressure on China Over 
Missing Relatives,'' New York Times, April 13, 2019; Kate Lyons, 
``Revealed: 17 Australian Residents Believed Detained in China's Uighur 
Crackdown,'' Guardian, February 11, 2019.
    \101\ Kate Lyons, ``Revealed: Five Australian Children Trapped in 
China amid Uighur Crackdown,'' Guardian, April 5, 2019.
    \102\ Fergus Ryan, Danielle Cave, and Nathan Ruser, ``Mapping 
Xinjiang's `Re-education' Camps,'' International Cyber Policy Centre, 
Australian Strategic Policy Institute, November 1, 2018.
    \103\ Ibid.
    \104\ Ibid.
    \105\ Philip Wen and Olzhas Auyezov, ``Tracking China's Muslim 
Gulag,'' Reuters, November 29, 2018.
    \106\ John Sudworth, ``China's Hidden Camps,'' BBC, October 25, 
2018.
    \107\ Adrian Zenz, ``Beyond the Camps: Beijing's Grand Scheme of 
Forced Labor, Poverty Alleviation and Social Control in Xinjiang,'' 
SocArXiv, July 14, 2019, 1, 6.
    \108\ Ibid., 5-7.
    \109\ Ibid., 8-9.
    \110\ Ibid., 18-19.
    \111\ Ibid., 12.
    \112\ Martha Mendoza and Yanan Wang, ``US Reviews Report of Imports 
from Forced Labor in China Camp,'' Associated Press, December 19, 2018.
    \113\ ``Businesses in China's Xinjiang Use Forced Labor Linked to 
Camp System,'' Radio Free Asia, January 1, 2019.
    \114\ See, e.g., ``China Secretly Transferring Uyghur Detainees 
from Xinjiang to Shaanxi, Gansu Province Prisons,'' Radio Free Asia, 
February 8, 2019.
    \115\ ``As Many as 1,200 Uyghur Detainees Held in Gansu Prison 
after Secret Transfer from Xinjiang,'' Radio Free Asia, April 12, 2019; 
``China Secretly Transferring Uyghur Detainees from Xinjiang to 
Shaanxi, Gansu Province Prisons,'' Radio Free Asia, February 8, 2019.
    \116\ ``Xinjiang Authorities Secretly Transferring Uyghur Detainees 
to Jails Throughout China,'' Radio Free Asia, October 2, 2018; ``China 
Secretly Transferring Uyghur Detainees from Xinjiang to Shaanxi, Gansu 
Province Prisons,'' Radio Free Asia, February 8, 2019.
    \117\ ``Xinjiang da guimo zhuanyi Musilin jizhongying qian Gansu'' 
[Large-scale transfer of Muslims in Xinjiang, concentration camps moved 
to Gansu], Radio Free Asia, October 1, 2018; ``As Many as 1,200 Uyghur 
Detainees Held in Gansu Prison after Secret Transfer from Xinjiang,'' 
Radio Free Asia, April 12, 2019; ``China Secretly Transferring Uyghur 
Detainees from Xinjiang to Shaanxi, Gansu Province Prisons,'' Radio 
Free Asia, February 8, 2019.
    \118\ ``China Secretly Transferring Uyghur Detainees from Xinjiang 
to Shaanxi, Gansu Province Prisons,'' Radio Free Asia, February 8, 
2019; ``As Many as 1,200 Uyghur Detainees Held in Gansu Prison after 
Secret Transfer from Xinjiang,'' Radio Free Asia, April 12, 2019.
    \119\ ``China Spiriting Uyghur Detainees Away from Xinjiang to 
Prisons in Inner Mongolia, Sichuan,'' Radio Free Asia, February 21, 
2019.
    \120\ ``As Many as 1,200 Uyghur Detainees Held in Gansu Prison 
after Secret Transfer from Xinjiang,'' Radio Free Asia, April 12, 2019.
    \121\ ``China Spiriting Uyghur Detainees Away from Xinjiang to 
Prisons in Inner Mongolia, Sichuan,'' Radio Free Asia, February 21, 
2019.
    \122\ ``Xinjiang Authorities Secretly Transferring Uyghur Detainees 
to Jails Throughout China,'' Radio Free Asia, October 2, 2018; 
``Xinjiang da guimo zhuanyi Musilin jizhongying qian Gansu'' [Large-
scale transfer of Muslims in Xinjiang, concentration camps moved to 
Gansu], Radio Free Asia, October 1, 2018.
    \123\ Wang Yanhong, ``Xinjiang tielu zanting fashou 10 yue 22 ri ji 
yihou chepiao'' [Xinjiang trains to suspend ticket sales for trains 
beginning October 22], Urumqi Evening News, reprinted in People's 
Daily, September 27, 2018; ``Shifou you you da shi fasheng? Xinjiang 
tielu zan ting shoupiao'' [Is something big happening again? Xinjiang 
trains temporarily suspend ticket sales], Deutsche Welle, September 26, 
2018.
    \124\ Holly Robertson, ``China Reportedly Begins Mass Transfers of 
Uighur Detainees from Xinjiang to Prisons Nationwide,'' Australian 
Broadcasting Company, October 9, 2018.
    \125\ CECC, 2018 Annual Report, October 8, 2018, 276.
    \126\ Uyghur Human Rights Project, ``Update--Detained and 
Disappeared: Intellectuals Under Assault in the Uyghur Homeland,'' May 
21, 2019.
    \127\ Henryk Szadziewski, ``Disappeared Forever?,'' China Channel, 
Los Angeles Review of Books, February 21, 2019. See also Magnus 
Fiskesjo, ``China's Thousandfold Guantanamos,'' Inside Higher Ed, April 
8, 2019.
    \128\ Uyghur Human Rights Project, ``Update--Detained and 
Disappeared: Intellectuals Under Assault in the Uyghur Homeland,'' May 
21, 2019.
    \129\ Uyghur Human Rights Project, ``Update--Detained and 
Disappeared: Intellectuals Under Assault in the Uyghur Homeland,'' May 
21, 2019; Darren Byler, `` `As If You've Spent Your Whole Life in 
Prison': Starving and Subdued in Xinjiang Detention Centers,'' 
SupChina, December 5, 2018.
    \130\ For more information on Tashpolat Teyip, see the Commission's 
Political Prisoner Database record 2019-00064.
    \131\ For more information on Sanubar Tursun, see the Commission's 
Political Prisoner Database record 2019-00071.
    \132\ Amy Anderson, ``A Death Sentence for a Life of Service,'' Art 
of Life in Central Asia, January 22, 2019; ``Three Uyghur Intellectuals 
Jailed for Separatism, Political Study Film Reveals,'' Radio Free Asia, 
October 10, 2018.
    \133\ Amy Anderson, ``A Death Sentence for a Life of Service,'' Art 
of Life in Central Asia, January 22, 2019; ``Three Uyghur Intellectuals 
Jailed for Separatism, Political Study Film Reveals,'' Radio Free Asia, 
October 10, 2018. Authorities use the term ``two-faced'' to describe 
ethnic minority individuals who they say appear to support the Chinese 
Communist Party, but privately disagree with official policies towards 
ethnic minorities. ``Uyghur Police Commissar Said Detained Since June 
2018,'' Radio Free Asia, August 20, 2019.
    \134\ Rachel Harris, ``China: Sanubar Tursun, Voice of the Uyghurs, 
Missing Presumed Detained in Xinjiang's Internment Camps,'' Freemuse, 
February 8, 2019. See also Gregory Lee, ``Concern Over Sanubar Tursun: 
Uyghur Cultural Icon's Concerts Cancelled in France,'' MediaPart, La 
longue marche de Gregory Lee (blog), January 31, 2019.
    \135\ Gregory Lee, ``Concern Over Sanubar Tursun: Uyghur Cultural 
Icon's Concerts Cancelled in France,'' MediaPart, La longue marche de 
Gregory Lee (blog), January 31, 2019. See also Rachel Harris, ``China: 
Sanubar Tursun, Voice of the Uyghurs, Missing Presumed Detained in 
Xinjiang's Internment Camps,'' Freemuse, February 8, 2019.
    \136\ ``Chinese Authorities Arrest Xinjiang Intellectual amid 
Crackdown on Prominent Uyghurs,'' Radio Free Asia, January 12, 2018; 
``Prominent Uyghur Intellectual Given Two-Year Suspended Death Sentence 
for `Separatism,' '' Radio Free Asia, September 28, 2018. For more 
information on Halmurat Ghopur, see the Commission's Political Prisoner 
Database record 2019-00041.
    \137\ ``Popular Uyghur Comedian Disappears, Believed Detained,'' 
Radio Free Asia, December 21, 2018; Kate Lyons and Lily Kuo, ``Fears 
for Uighur Comedian Missing amid Crackdown on Cultural Figures,'' 
Guardian, February 21, 2019; Sheena Goodyear, ``Family Fears Missing 
Uighur Comedian Taken to Chinese Detention Camp,'' Canadian 
Broadcasting Corporation, December 31, 2018. For more information on 
Adil Mijit, see the Commission's Political Prisoner Database record 
2019-00090.
    \138\ Rachel Harris, ``China: Uyghur Pop Idol Zahirshah Ablimit 
Detained in Xinjiang,'' Freemuse, January 24, 2019.
    \139\ ``Authorities Detain Senior Editors of Uyghur Publishing 
House over `Problematic' Books,'' Radio Free Asia, November 12, 2018. 
For more information on Qurban Mamut, see the Commission's Political 
Prisoner Database record 2019-00191.
    \140\ ``Three Uyghur Intellectuals Jailed for Separatism, Political 
Study Film Reveals,'' Radio Free Asia, October 10, 2018.
    \141\ Leigh Hartman, ``China Targets Intellectuals in Bid to 
Eradicate Uighur Culture,'' ShareAmerica, U.S. Department of State, 
March 21, 2019.
    \142\ ``Cong lao Dangyuan dao fenlie fenzi, Weiwu'er xuezhe kong yi 
`shandian zui' bei panxing'' [From old Party member to separatist, 
Uyghur scholar feared to have been sentenced for ``inciting subversion 
of state power''], Voice of America, February 20, 2019.
    \143\ Reid Standish, ``China's Expanding War on Islam: Now They're 
Coming for the Kazakhs.,'' Washington Post, March 1, 2019; Reid 
Standish and Aigerim Toleukhanova, ``Kazakhs Won't Be Silenced on 
China's Internment Camps,'' Foreign Policy, March 4, 2019.
    \144\ Flint Duxfield and Ian Burrows, ``Uyghur Woman Details Life 
Inside Chinese `Re-education Camp' in Xinjiang,'' Australian 
Broadcasting Corporation, January 8, 2019; Isabel van Brugen, 
``Prisoners Tortured, Drugged, Killed by Injection in Xinjiang `Re-
Education Camps,' Ex-Inmate Reveals,'' Epoch Times, December 13, 2018; 
Darren Byler, `` `As If You've Spent Your Whole Life in Prison': 
Starving and Subdued in Xinjiang Detention Centers,'' SupChina, 
December 5, 2018. For more information on Gulbahar Jelilova, see the 
Commission's Political Prisoner Database record 2019-00032.
    \145\ Flint Duxfield and Ian Burrows, ``Uyghur Woman Details Life 
Inside Chinese `Re-education Camp' in Xinjiang,'' Australian 
Broadcasting Corporation, January 8, 2019; Isabel van Brugen, 
``Prisoners Tortured, Drugged, Killed by Injection in Xinjiang `Re-
Education Camps,' Ex-Inmate Reveals,'' Epoch Times, December 13, 2018; 
Darren Byler, `` `As If You've Spent Your Whole Life in Prison': 
Starving and Subdued in Xinjiang Detention Centers,'' SupChina, 
December 5, 2018.
    \146\ Reid Standish and Aigerim Toleukhanova, ``Kazakhs Won't Be 
Silenced on China's Internment Camps,'' Foreign Policy, March 4, 2019; 
Dake Kang, ``China Allowing 2,000 Ethnic Kazakhs to Leave Xinjiang 
Region,'' Associated Press, January 9, 2019.
    \147\ Reid Standish and Aigerim Toleukhanova, ``Kazakhs Won't Be 
Silenced on China's Internment Camps,'' Foreign Policy, March 4, 2019. 
It was unclear if the 20 Kazakh citizens released mentioned in this 
report were among the 2,500 ethnic Kazakhs whom Chinese officials had 
agreed to release to Kazakhstan.
    \148\ Reid Standish, ``She Fled China's Camps--But She's Still Not 
Free,'' Foreign Policy, February 6, 2019; Nathan VanderKlippe, `` `I 
Felt Like a Slave:' Inside China's Complex System of Incarceration and 
Control of Minorities,'' Globe and Mail, March 31, 2019; Kate De Pury, 
``Woman Who Told of Chinese Internment Camps Headed to Sweden,'' 
Associated Press, June 3, 2019.
    \149\ Kate De Pury, ``Woman Who Told of Chinese Internment Camps 
Headed to Sweden,'' Associated Press, June 3, 2019; ``Chinese 
`Reeducation Camps' Whistle-Blower Leaves Kazakhstan for Unnamed 
Country,'' Radio Free Europe/Radio Liberty, June 3, 2019.
    \150\ Reid Standish and Aigerim Toleukhanova, ``Kazakhs Won't Be 
Silenced on China's Internment Camps,'' Foreign Policy, March 4, 2019; 
Austin Ramzy, ``Critic Who Exposed China's Muslim Camps Is Detained, 
Even Across the Border,'' New York Times, March 13, 2019.
    \151\ Austin Ramzy, ``Critic Who Exposed China's Muslim Camps Is 
Detained, Even across the Border,'' New York Times, March 13, 2019.
    \152\ Austin Ramzy, ``Critic of China's Detention Camps Is Free, 
but Silence May Be the Price,'' New York Times, August 17, 2019.
    \153\ Gene A. Bunin, ``Kyrgyz Students Vanish into Xinjiang's 
Maw,'' Foreign Policy, March 31, 2019; Tolkun Namtbayeva and 
Christopher Rickleton, ``Central Asians Cry Out over China's Secret 
Detention Camps,'' Agence France-Presse, reprinted in Yahoo! News, 
December 18, 2018.
    \154\ Adrian Zenz, ``Break Their Roots: Evidence for China's 
Parent-Child Separation Campaign in Xinjiang,'' Journal of Political 
Risk 7, no. 7 (July 2019); Uyghur Human Rights Project, ``Universal 
Children's Day 2018: China Must Reunite Uyghur Children and Parents. 
Forcible Placement of Children of Living Parents in State-Run 
Facilities Constitutes a Crime Against Humanity,'' November 19, 2018; 
Emily Feng, ``Uighur Children Fall Victim to China Anti-Terror Drive,'' 
Financial Times, July 9, 2018.
    \155\ Adrian Zenz, ``Break Their Roots: Evidence for China's 
Parent-Child Separation Campaign in Xinjiang,'' Journal of Political 
Risk 7, no. 7 (July 2019).
    \156\ Adrian Zenz, ``Break Their Roots: Evidence for China's 
Parent-Child Separation Campaign in Xinjiang,'' Journal of Political 
Risk 7, no. 7 (July 2019); Adrian Zenz, ``Beyond the Camps: Beijing's 
Grand Scheme of Forced Labor, Poverty Alleviation and Social Control in 
Xinjiang,'' SocArXiv, July 14, 2019, 1, 2, 4, 17-18.
    \157\ Yanan Wang and Dake Kang, ``China Treats Uighur Kids as 
`Orphans' After Parents Seized,'' Associated Press, September 21, 2018.
    \158\ Emily Feng, ``Uighur Children Fall Victim to China Anti-
Terror Drive,'' Financial Times, July 9, 2018.
    \159\ Yanan Wang and Dake Kang, ``China Treats Uighur Kids as 
`Orphans' After Parents Seized,'' Associated Press, September 21, 2018.
    \160\ Megha Rajagopalan and K. Murat Yildiz, ``China Has Also Been 
Targeting Foreigners in Its Brutal Crackdown on Muslims,'' BuzzFeed 
News, March 27, 2019; ``Interview: `I Have Never Cried so Much in My 
Life,' '' Radio Free Asia, March 5, 2019; Yanan Wang and Dake Kang, 
``China Treats Uighur Kids as `Orphans' After Parents Seized,'' 
Associated Press, September 21, 2018; Yanan Wang and Dake Yang, ``Empty 
Places at the Table: Uighur Children Missing in China,'' Associated 
Press, September 21, 2018.
    \161\ Yanan Wang and Dake Kang, ``China Treats Uighur Kids as 
`Orphans' After Parents Seized,'' Associated Press, September 21, 2018.
    \162\ Sigal Samuel, ``China's Jaw-Dropping Family Separation 
Policy,'' Atlantic, September 4, 2018.
    \163\ ``Uyghur Children's `Identities Changed,' '' Radio Free Asia, 
May 22, 2009.
    \164\ Uyghur Human Rights Project, ``Universal Children's Day 2018: 
China Must Reunite Uyghur Children and Parents. Forcible Placement of 
Children of Living Parents in State-Run Facilities Constitutes a Crime 
Against Humanity,'' November 19, 2018.
    \165\ Darren Byler, ``China's Government Has Ordered a Million 
Citizens to Occupy Uighur Homes. Here's What They Think They're 
Doing.,'' ChinaFile, Asia Society, October 24, 2018. See also CECC, 
2018 Annual Report, October 10, 2018, 279.
    \166\ Ji Yuqiao, ``1.1 Million Civil Servants in Xinjiang Pair Up 
with Ethnic Minority Residents to Improve Unity,'' Global Times, 
November 7, 2018; Yang Mingfang, Li Ya'nan, and A'erdake, ``Qinqing 
yangyi nuan Tianshan'' [Family-friendly and warm Tianshan], People's 
Daily, November 7, 2018 (jiedui renqin); Shang Lucun, Guo Mengchen, and 
Cheng Shucheng, ``Tianshan xuesong gen lian gen minzu tuanjie xin lian 
xin Xinjiang Gong'an Ting Kexin Zongdui nanjiang qianli jieqin'' [The 
roots of Tianshan cedars link together, ethnic unity links hearts 
together, Xinjiang PSB Science and Technology Corps links relatives 
together across thousands of miles in southern Xinjiang], Northwest 
Energy Net, November 4, 2016, reprinted in China News Agency, July 6, 
2017 (jiedui bangfu); Qiao Nong, ChinaAid, ``Xinjiang guanbi shaoshu 
minzu xuexiao Xinyuan Si Zhong biangeng wei zhengzhi xuexi jidi'' 
[Xinjiang closes ethnic minority schools, Xinyuan No. 4 High School 
changed into political study base], April 4, 2018 (jiedui fubang).
    \167\ Rob Schmitz, ``A Woman Tells Her Story of Forced Abortion and 
Escape from China's Repression,'' Morning Edition, NPR, November 14, 
2018.
    \168\ Darren Byler, ``China's Government Has Ordered a Million 
Citizens to Occupy Uighur Homes. Here's What They Think They're 
Doing.,'' ChinaFile, Asia Society, October 24, 2018.
    \169\ Ibid.
    \170\ Ibid.
    \171\ Ibid.
    \172\ See CECC, 2018 Annual Report, October 10, 2018, 277-78.
    \173\ Human Rights Watch, ``China's Algorithms of Repression,'' May 
1, 2019. Activities monitored by the IJOP system that authorities 
consider ``abnormal'' (feizhengchang) reportedly include the use of 
more electricity than ``normal'' and a relationship to a person who has 
obtained a new phone number.
    \174\ Yanan Wang and Dake Kang, ``Exposed Chinese Database Shows 
Depth of Surveillance State,'' Associated Press, February 19, 2019.
    \175\ Victor Gevers (@0xDUDE), ``So this insecure face recognition/
personal verification solution . . .,'' Twitter, February 14, 2019, 
12:30 p.m. See also Chris Baynes, ``Chinese `Muslim Tracker' 
Surveillance System Monitoring Movements of 2.5m People in Xinjiang,'' 
Independent, February 19, 2019.
    \176\ Li Tao, ``SenseNets: The Facial Recognition Company That 
Supplies China's Skynet Surveillance System,'' South China Morning 
Post, April 12, 2019; David Ramli and Mark Bergen, ``This Company Is 
Helping Build China's Panopticon. It Won't Stop There,'' Bloomberg, 
November 19, 2018; Christian Shepherd, ``China's SenseTime Sells Out of 
Xinjiang Security Joint Venture,'' Financial Times, April 15, 2019. 
SenseTime sold its stake in SenseNets in July 2018.
    \177\ John Ruwitch, ``Chinese Official Says `Sinicization' of 
Religion in Xinjiang Must Go On,'' Reuters, October 13, 2018; 
``Xinjiang Promotes Policy Awareness for Religions,'' Global Times, 
April 2, 2019; ``You Quan: dali cujin minzu tuanjie he zongjiao hexie 
nuli shixian Xinjiang shehui wending he changzhi jiu'an'' [You Quan: 
vigorously promote national unity and religious harmony, strive to 
achieve social stability and long-term security in Xinjiang], Xinhua, 
October 13, 2018. See also Li Qingqing, ``China Explores Effective 
Governance of Religion in Secular World,'' Global Times, January 6, 
2019.
    \178\ See, e.g., Lily Kuo, ``Revealed: New Evidence of China's 
Mission to Raze the Mosques of Xinjiang,'' Guardian, May 6, 2019; State 
Council Information Office, ``The Fight against Terrorism and Extremism 
and Human Rights Protection in Xinjiang,'' March 2019, 20; John 
Ruwitch, ``Chinese Official Says `Sinicization' of Religion in Xinjiang 
Must Go On,'' Reuters, October 13, 2018.
    \179\ Li Zaili, ``CCP Interfering with How Muslims Perform 
Funerals,'' Bitter Winter, January 24, 2019; James Millward, `` 
`Reeducating' Xinjiang's Muslims,'' New York Review of Books, February 
7, 2019.
    \180\ Ruth Ingram, `` `Surviving China': Uyghur Voices from 
Xinjiang and Guantanamo,'' Bitter Winter, April 15, 2019; Leigh 
Hartman, ``China's Repression of Muslims in Xinjiang,'' ShareAmerica, 
U.S. Department of State, February 14, 2019. See also Farida Deif, ``A 
Missed Opportunity to Protect Muslims in China,'' New Arab, March 21, 
2019.
    \181\ Darren Byler, ``China's Government Has Ordered a Million 
Citizens to Occupy Uighur Homes. Here's What They Think They're 
Doing.,'' ChinaFile, Asia Society, October 24, 2018; Nathan 
VanderKlippe, ``Inside China's Campaign against the Uyghurs,'' Globe 
and Mail, November 5, 2018; James Millward, `` `Reeducating' Xinjiang's 
Muslims,'' New York Review of Books, February 7, 2019; Timothy Grose, 
``China's Mass Incarceration of Muslims Cannot Be Left Unchallenged,'' 
Guardian, November 13, 2018. ``Assalamu alaykum'' is an Arabic-language 
greeting meaning ``peace be upon you.''
    \182\ Darren Byler, ``The Future of Uyghur Cultural--and Halal--
Life in the Year of the Pig,'' SupChina, February 6, 2019; ``Xinjiang's 
Kashgar University Students, Teachers Forced to Give Up Muslim Dietary 
Restrictions,'' Radio Free Asia, November 6, 2018; ``China Launches 
Anti-Halal Crackdown in Xinjiang City,'' Agence France-Presse, 
reprinted in Hong Kong Free Press, October 11, 2018; Liu Caiyu, 
``Officers, Party Members Urged to Strengthen Faith,'' Global Times, 
October 9, 2018.
    \183\ ``Chinese Officials Force Muslims to Drink, Eat Pork at 
Festival,'' Radio Free Asia, February 6, 2019; ``Xinjiang's Kashgar 
University Students, Teachers Forced to Give Up Muslim Dietary 
Restrictions,'' Radio Free Asia, November 6, 2018; Darren Byler, ``The 
Future of Uyghur Cultural--and Halal--Life in the Year of the Pig,'' 
SupChina, February 6, 2019; Reid Standish, ``China's Expanding War on 
Islam: Now They're Coming for the Kazakhs.,'' Washington Post, March 1, 
2019.
    \184\ Nathan VanderKlippe, ``Inside China's Campaign against the 
Uyghurs,'' Globe and Mail, November 5, 2018.
    \185\ Lily Kuo, ``Revealed: New Evidence of China's Mission to Raze 
the Mosques of Xinjiang,'' Guardian, May 6, 2019.
    \186\ Lily Kuo, ``Revealed: New Evidence of China's Mission to Raze 
the Mosques of Xinjiang,'' Guardian, May 6, 2019; Shawn Zhang, 
``Clarification of Keriya Etika Mosque's Current Situation,'' Medium 
(blog), April 23, 2019; Nick Waters, ``Are Historic Mosques in Xinjiang 
Being Destroyed?,'' Bellingcat, April 5, 2019; ``Keriye Heytgah 
Jamesining shimaliy ishikining cheqiwetilgenliki ilgiri suruldi'' 
[Source claims north gate of Keriye Heytgah Mosque has been 
demolished], Radio Free Asia, April 24, 2019. Some reports have 
referred to the Keriya Heytgah Mosque as the Keriya Etika Mosque or the 
Yutian Aitika Mosque.
    \187\ Joanne Smith Finley, `` `Now We Don't Talk Anymore,' '' 
ChinaFile, Asia Society, December 28, 2018; Nathan VanderKlippe, 
``Inside China's Campaign against the Uyghurs,'' Globe and Mail, 
November 5, 2018; Josh Chin and Clement Burge, ``After Mass Detentions, 
China Razes Muslim Communities to Build a Loyal City,'' Wall Street 
Journal, March 20, 2019.
    \188\ Mark Doman, Stephen Hutcheon, Dylan Welch, and Kyle Taylor, 
``China's Frontier of Fear,'' Australian Broadcasting Corporation, 
November 1, 2018.
    \189\ Nathan VanderKlippe, ``Inside China's Campaign against the 
Uyghurs,'' Globe and Mail, November 5, 2018.
    \190\ ``Interview: `They Detained Her Because She Had Studied Islam 
in a Foreign Country,' '' Radio Free Asia, October 3, 2018. For more 
information on Muyesser Muhemmet, see the Commission's Political 
Prisoner Database record 2018-00626.
    \191\ Li Zaili, ``15 Years in Prison for a Social Media Post,'' 
Bitter Winter, October 6, 2018.
    \192\ ``Xinjiang Authorities Sentence Uyghur Philanthropist to 
Death for Unsanctioned Hajj,'' Radio Free Asia, November 21, 2018. For 
more information on Abdughappar Abdurusul, see the Commission's 
Political Prisoner Database record 2018-00645.
    \193\ For information on official religious restrictions enforced 
during Ramadan in previous reporting years, see, e.g., CECC, 2018 
Annual Report, October 10, 2018, 279, 281; CECC, 2017 Annual Report, 
October 5, 2017, 287; CECC, 2016 Annual Report, October 6, 2016, 287.
    \194\ Eva Xiao and Pak Yiu, ``Wrecked Mosques, Police Watch: A 
Tense Ramadan in Xinjiang,'' Agence France-Presse, reprinted in Yahoo! 
News, June 5, 2019; Sophia Yan, ``China's Uighur Muslims Forced to Eat 
and Drink as Ramadan Celebrations Banned,'' Telegraph, June 1, 2019.
    \195\ Rebecca Asoulin and Ann Scott Tyson, ``Reporting in Xinjiang: 
`A War Zone With No War,' '' Christian Science Monitor, May 8, 2019; 
Sophia Yan, ``China's Uighur Muslims Forced to Eat and Drink as Ramadan 
Celebrations Banned,'' Telegraph, June 1, 2019; Darren Byler, ``Empty 
Uyghur Mosques During Ramadan in China,'' Milestones, May 18, 2019.
    \196\ Eva Xiao and Pak Yiu, ``Wrecked Mosques, Police Watch: A 
Tense Ramadan in Xinjiang,'' Agence France-Presse, reprinted in Yahoo! 
News, June 5, 2019; Sophia Yan, ``China's Uighur Muslims Forced to Eat 
and Drink as Ramadan Celebrations Banned,'' Telegraph, June 1, 2019.
    \197\ Sophia Yan, ``China's Uighur Muslims Forced to Eat and Drink 
as Ramadan Celebrations Banned,'' Telegraph, June 1, 2019; Rikar 
Hussein, ``Diplomat Confirms Limits on Ramadan in Xinjiang,'' Voice of 
America, May 16, 2019.
    \198\ Sophia Yan, ``China's Uighur Muslims Forced to Eat and Drink 
as Ramadan Celebrations Banned,'' Telegraph, June 1, 2019; Rikar 
Hussein, ``Diplomat Confirms Limits on Ramadan in Xinjiang,'' Voice of 
America, May 16, 2019.


                                                          Tibet
                                                Tibet

                                V. Tibet


                                Findings

        <bullet> There has been no formal dialogue between the 
        Dalai Lama's representatives and Chinese Communist 
        Party and government officials since the ninth round of 
        dialogue was held in January 2010. The Chinese 
        government continues to regard the Dalai Lama as a 
        ``separatist'' and to reject his Middle Way approach of 
        genuine Tibetan autonomy within China.
        <bullet> The Chinese government and Communist Party 
        have significantly tightened restrictions on access to 
        the Tibet Autonomous Region (TAR) and other Tibetan 
        areas in China for international journalists, non-
        governmental organizations (NGOs), foreign officials, 
        scholars, and members of the Tibetan diaspora. Chinese 
        authorities require all foreign visitors to the TAR to 
        apply for a special permit. Tourists must be 
        accompanied by government-designated tour guides and 
        are only allowed to see controlled sites. International 
        journalists have stated that the isolation of the TAR 
        is worse than North Korea, allowing the Chinese 
        government to conceal human rights abuses and 
        environmentally damaging large-scale projects, such as 
        river damming and mining, and to promote the claim that 
        Tibetans benefit from and support the Party and its 
        actions.
        <bullet> The government and Party used increasingly 
        advanced technology to intensify security and 
        surveillance in the TAR and other Tibetan autonomous 
        areas, and continued to use measures included in a 
        nationwide ``anti-crime and vice'' campaign to crack 
        down on Tibetans suspected of organizing or 
        participating in activities that authorities deemed to 
        be threatening to maintaining control or ``social 
        stability.''
        <bullet> Authorities continued to restrict religious 
        freedom in the name of ``sinicization,'' using policies 
        that force religious believers to promote the Party's 
        agenda. Actions taken included mandatory political 
        education for religious leaders, large-scale evictions 
        from influential Tibetan Buddhist monasteries, and 
        replacing visibly displayed images of Tibetan 
        Buddhists' spiritual leader, the Dalai Lama, with past 
        and current Party leaders Mao Zedong and Xi Jinping.
        <bullet> The Chinese government continued to pursue 
        large-scale infrastructure and investment projects in 
        the TAR and other Tibetan areas, including hydropower 
        dams, mines, and the resettlement of Tibetan nomads, 
        with no apparent representative input from the Tibetan 
        population, independent environmental NGOs, or rights 
        groups. These actions violate the social, economic, and 
        cultural rights of Tibetans, such as their rights to 
        housing and livelihood, and raised concern among 
        environmental scientists and advocates about the 
        regional and global impact of these projects.
        <bullet> April 25, 2019, marked the 30th birthday of 
        the Panchen Lama, Gedun Choekyi Nyima, whom the Dalai 
        Lama recognized in 1995. He and his parents remain 
        incommunicado since authorities took them into custody 
        in May 1995. Moreover, in violation of the religious 
        freedom of Tibetan Buddhists, the government continued 
        to promote public appearances by its chosen Panchen 
        Lama, Gyaltsen Norbu, including his first trip abroad 
        to Thailand, and to a sacred Tibetan Buddhist site, 
        adding to speculation that Chinese officials will 
        eventually attempt to use him in efforts to select the 
        next Dalai Lama.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Call on the Chinese government and Communist Party to 
        respect--as a matter of the right to religious freedom 
        recognized under Chinese and international law--that 
        the decision regarding the Dalai Lama's succession or 
        reincarnation must be reserved for the current Dalai 
        Lama, Tibetan Buddhist leaders, and the Tibetan people.
          Urge the Chinese government to recognize the role of 
        restrictive Party policies and government measures, and 
        the increasing securitization of Tibetan autonomous 
        areas of China, in Tibetan self-immolations and 
        protests. Urge the Chinese government to cease treating 
        the Dalai Lama as a security threat, and stress to the 
        government the importance of respecting and protecting 
        Tibetan culture and language--policy changes that would 
        promote and protect social stability in Tibetan areas.
          Encourage the Chinese government to respect the right 
        of Tibetans to travel domestically as well as 
        internationally, and to allow unrestricted access to 
        Tibetan autonomous areas of China to international 
        journalists, representatives of the United Nations and 
        NGOs, U.S. Government officials, and members of the 
        Tibetan diaspora living around the world.
          Call on the Chinese government to remove all 
        restrictions on foreigners' access to the TAR. The 
        Administration should use existing laws to hold 
        accountable Chinese government officials and others 
        complicit in restricting access to the TAR, including 
        by using the sanctions available in the Reciprocal 
        Access to Tibet Act (Public Law No. 115-330). Encourage 
        the Chinese government to invite independent observers 
        with relevant expertise to assess and publicly report 
        on the damage incurred by the February 2018 fire at the 
        1,300-year-old Jokhang temple in Lhasa municipality, 
        TAR.
          Urge the Chinese government to withdraw the charges 
        against Tibetan language rights advocate Tashi Wangchug 
        and stress that peacefully advocating for genuine 
        bilingual education--a right recognized under Chinese 
        and international law--is not a crime.
          In interactions with Chinese officials, call for the 
        release of Tibetan political prisoners currently 
        detained or imprisoned for the peaceful exercise of 
        their human rights. The records of detained Tibetans in 
        the Commission's Political Prisoner Database--albeit an 
        incomplete picture of the extent of Tibetan detentions 
        and disappearances--provide a useful resource for such 
        interactions with Chinese officials. Urge the Chinese 
        government and its security forces to cease using 
        arbitrary detention, disappearance, beatings, torture, 
        and intimidation to suppress and punish Tibetans' 
        peaceful exercise of their rights.
          Urge the Chinese government to take into full account 
        the views and preferences of Tibetans when planning 
        infrastructure, natural resource development, 
        settlement or resettlement projects, and tourist 
        attractions in Tibetan areas of China.
          Continue to request that the Chinese government 
        invite an independent representative of an 
        international organization to meet with Gedun Choekyi 
        Nyima, the 11th Panchen Lama, whom the Dalai Lama 
        recognized in 1995, and who has been held incommunicado 
        since May 17, 1995.


                                                          Tibet
                                                Tibet

                                 Tibet


                              Introduction

    During the November 2018 session of the UN Human Rights 
Council Universal Periodic Review (UPR) of China's human rights 
record, the Chinese government promised to ``actively 
participate in international cooperation in human rights,'' \1\ 
pledged its support for the work of UN human rights 
mechanisms,\2\ and touted its legal and other actions aimed at 
the protection of human rights.\3\ In contradiction to these 
statements, several foreign governments and international, non-
governmental rights groups reported at the UPR and elsewhere 
that the human rights situation for Tibetans in the Tibet 
Autonomous Region (TAR) and other Tibetan areas of China had 
worsened in 2018.\4\ Various stakeholders at the UPR stated 
that Chinese authorities had continued to violate the rights of 
Tibetans to freedom of religion,\5\ movement,\6\ association 
and assembly,\7\ and expression,\8\ as well as their cultural 
\9\ and economic rights.\10\ Rights groups documented Chinese 
authorities' continued oppression of Tibetans through the use 
of such measures as arbitrary detention,\11\ enforced 
disappearances,\12\ torture,\13\ intrusive and increasingly 
sophisticated surveillance and data collection,\14\ and the 
forcible resettlement of nomads.\15\ During the Commission's 
2019 reporting year, Chinese authorities used many of these 
measures as part of a nationwide anti-crime campaign launched 
in early 2018 that included the TAR and Tibetan autonomous 
areas.\16\

  Status of Negotiations Between the Chinese Government and the Dalai 
                      Lama or His Representatives

    There has been no formal dialogue between the Dalai Lama or 
his representatives and the Chinese government since the ninth 
round of dialogue in January 2010.\17\ The Chinese government 
continues to regard the Dalai Lama as a ``separatist'' \18\ and 
to reject his Middle Way approach of genuine Tibetan autonomy 
within China.\19\ Reports published this past year, including 
one by the Tibetan government-in-exile, rejected the Chinese 
government's narrative of its historical control over the TAR 
and other Tibetan areas.\20\ The Central Tibetan Administration 
asserted that ``[t]oday's continued occupation of Tibet by 
China . . . violates international law and the fundamental 
rights of the Tibetan people.'' \21\ Based on this assertion, 
the Tibetan government-in-exile continues to call for a 
peaceful, negotiated resolution to the Sino-Tibetan 
conflict.\22\

                      Government and Party Policy


   ANTI-CRIME AND VICE CAMPAIGN IN THE TAR AND TIBETAN AREAS OF CHINA

    During this reporting year, Chinese authorities continued 
the anti-crime and vice campaign launched in early 2018 aimed 
at those who allegedly threaten ``political security'' and 
``social stability.'' \23\ The Tibetan Centre for Human Rights 
and Democracy (TCHRD) reported that Chinese authorities had 
intensified control and repression in Tibetan areas of China, 
including the criminalization of ordinary social welfare 
activities,\24\ and turned ``Tibet into a human rights black 
hole.'' \25\
    The following are examples in which authorities used the 
anti-crime and vice campaign to further crack down in Tibetan 
areas of China this past year:

        <bullet> According to Voice of Tibet, Chinese 
        authorities detained ``a large number'' of Tibetans in 
        Lhasa municipality, capital of the TAR.\26\ Authorities 
        in the TAR and other Tibetan areas reportedly posted 
        notices asking people to inform on others suspected of 
        involvement in such activities as ``extremism,'' 
        ``splittism,'' ``connections with the Dalai clique,'' 
        advocating ``freedom to use one's language,'' 
        ``resisting land grabs, demolitions, infrastructure 
        projects, and . . . related development projects,'' and 
        ``espousing causes like economic freedom, right to 
        livelihood, environmental protection, [and] cultural 
        freedom,'' offering cash rewards to informants in at 
        least one county.\27\
        <bullet> According to TCHRD and Radio Free Asia, in 
        July 2018, public security authorities detained Tibetan 
        villagers Gedun Zoepa, Choesang, Bende Dorje, Tashi 
        Tsering, Sonam Gyal, Dargye, Shawo Tsering, Khajam 
        Gyal, and Drugbum Tsering, all of whom are from Horgyal 
        (Huorijia) village, Rongbo (Longwu) town, Rebgong 
        (Tongren) county, Malho (Huangnan) Tibetan Autonomous 
        Prefecture (TAP), Qinghai province, after they wrote a 
        petition to reclaim village property expropriated by 
        local government authorities.\28\ In April 2019, the 
        Tongren County People's Court sentenced them to between 
        three and seven years in prison on the charges of 
        founding an ``evil organization'' and ``disturb[ing] 
        social order by mobilizing support from the public.'' 
        \29\

                 INTENSIFYING SECURITY AND SURVEILLANCE

    This reporting year, Chinese authorities reportedly 
continued to use ``pervasive surveillance apparatus,'' \30\ 
including security cameras, big data centers,\31\ artificial 
intelligence,\32\ and ``grid'' surveillance.\33\ Authorities 
also reportedly confiscated and secretly installed surveillance 
apps on Tibetans' mobile phones.\34\
    The following examples illustrate Chinese authorities' 
efforts to tighten control in Tibetan areas of China:

        <bullet> In July 2018, authorities displaced over 200 
        monks under the age of 18 from at least two monasteries 
        in Kardze (Ganzi) county, Kardze (Ganzi) TAP, Sichuan 
        province, and forced them instead to attend government-
        run schools.\35\
        <bullet> In September 2018, Tibet University and Wise-
        web Technology Company jointly launched a big data 
        center to track the real-time activities of 
        tourists.\36\ The Party-run Global Times, citing a 
        professor at Minzu University in Beijing municipality, 
        noted that ``developing tourism in Tibet is also an 
        important move to safeguard regional stability, promote 
        national unity, and guard against separatist forces.'' 
        \37\
        <bullet> In October 2018, Party officials opened a new 
        ``political education camp'' in Shigatse (Rikaze) 
        municipality, TAR, to provide training in Party 
        ideology and policies for officials throughout the 
        municipality, with a particular focus on work related 
        to ``grassroots Party building'' and ``anti-
        separatism.'' \38\
        <bullet> Prior to the 60th anniversary of the 1959 
        Tibetan uprising on March 10, 2019, Chinese authorities 
        closed the TAR to foreign visitors for two months,\39\ 
        restricted inter-regional travel by Tibetans,\40\ and 
        added facial recognition, big data analysis, and 
        upgraded GPS tracking devices in taxi cabs to monitor 
        drivers.\41\
        <bullet> Following the passage of the Reciprocal Access 
        to Tibet Act (RATA) by the U.S. Government in December 
        2018,\42\ TAR authorities announced plans to speed up 
        the process for obtaining the special permit required 
        of foreigners to visit the TAR.\43\ In March 2019, the 
        State Department reported that the Chinese government 
        ``systematically impeded travel'' by U.S. diplomats, 
        officials, journalists, and tourists to Tibetan areas 
        in 2018.\44\
        <bullet> In April 2019, Radio Free Asia reported that 
        authorities closed enrollment at Larung Gar Buddhist 
        Institute in Serthar (Seda) county, Kardze (Ganzi) TAP, 
        Sichuan, after having recently built walls and 
        checkpoints to prevent entry, while keeping monks and 
        nuns under strict surveillance.\45\ In summer 2016, 
        authorities began demolishing homes and forcibly 
        expelling monks and nuns from Larung Gar, in an effort 
        to reduce their numbers from around 10,000 to 
        5,000.\46\
        <bullet> From May to July 2019, authorities forcibly 
        evicted an estimated 3,500 monks and nuns from Yachen 
        Gar, a major Tibetan Buddhist institute in Palyul 
        (Baiyu) county, Kardze (Ganzi) TAP, Sichuan.\47\ In 
        July, authorities demolished at least 100 dwellings of 
        recently evicted nuns, despite appeals by senior monks 
        to authorities.\48\

                Religious Freedom for Tibetan Buddhists


         REINCARNATION AND THE SELECTION OF THE 15TH DALAI LAMA

    As the 14th Dalai Lama, Tenzin Gyatso, turned 84 years old 
on July 6, 2019,\49\ his advancing age continued to fuel 
discussion about his succession.\50\ The Chinese government 
continued to claim the authority to manage the selection and 
education of his successor through the state-controlled 
Buddhist Association of China,\51\ stating that ``reincarnation 
of living Buddhas including the Dalai Lama must comply with 
Chinese laws and regulations and follow religious rituals and 
historical conventions.'' \52\ In July 2019, a Party official 
in the TAR said that the Dalai Lama's reincarnation ``must be 
recognized by the central government,'' and that the 
reincarnation would not be ``decided by his personal wish or by 
some group of people living in other countries.'' \53\ The 
government's position violates international standards of 
religious freedom, which guarantee the right of religious 
communities ``to train, appoint, elect or designate by 
succession appropriate leaders.'' \54\ The Dalai Lama has 
stated that the Chinese Communist Party, which rejects belief 
in reincarnation, has no authority or role in the recognition 
of reincarnated Lamas.\55\ Furthermore, he said that anyone 
chosen by the Party would not be accepted by Tibetan 
Buddhists,\56\ reiterating this position in a March 2019 
interview with international media outlet Reuters.\57\
    April 25, 2019, marked the 30th birthday of Gedun Choekyi 
Nyima, whom the Dalai Lama recognized as the Panchen Lama in 
1995.\58\ He and his family remain incommunicado since 
authorities abducted them in May 1995.\59\ The Chinese 
government's chosen Panchen Lama, Gyaltsen Norbu, continued to 
appear in public, including at the sacred Buddhist site Lhamo 
Latso lake in Lhokha (Shannan) municipality, Tibet Autonomous 
Region (TAR), in August 2018,\60\ and made his first trip 
abroad to Thailand in May 2019, where he reportedly praised the 
``greatness'' of the Chinese Communist Party.\61\

                  ``SINICIZATION'' OF TIBETAN BUDDHISM

    During this reporting year, Chinese authorities issued 
directives that curtailed previously tolerated religious 
practices under the national ``Sinicization of Religion'' 
policy promoted by President Xi Jinping beginning in April 
2016.\62\ Such directives contravene the freedom of religious 
belief guaranteed in China's Constitution \63\ and violate the 
right to freedom of religion defined in international human 
rights instruments, such as the Universal Declaration of Human 
Rights.\64\
    The Commission observed the following violations of Tibetan 
Buddhists' right to religious freedom in this reporting year:

        <bullet> Promotion of the Sinicization of Tibetan 
        Buddhism. Authorities held a seminar in Sichuan 
        province in October 2018 to discuss the ``adaptation of 
        Tibetan Buddhism to socialist society.'' \65\ At a 
        symposium in Qinghai province that same day, one of the 
        major topics of discussion for monks and scholars was 
        ``how Buddhism could better serve China's Belt and Road 
        Initiative.'' \66\
        <bullet> Cancellation of a major prayer festival at 
        Larung Gar. In October 2018, authorities canceled the 
        weeklong Dechen Shingdrup festival at Larung Gar 
        Buddhist Institute, in Serthar (Seda) county, Kardze 
        (Ganzi) Tibetan Autonomous Prefecture (TAP), Sichuan 
        province, for the third consecutive year.\67\
        <bullet> Forced removal of photos of the 14th Dalai 
        Lama from temples and homes. In December 2018, 
        authorities in Dzoege Toema (Zuogeduoma) township, Tsoe 
        (Hezuo) city, Kanlho (Gannan) TAP, Gansu province, 
        reportedly announced a ``Specialized Cleanup of the 
        14th Dalai Lama's Portraits,'' requiring locals to 
        replace pictures of the Dalai Lama with portraits of 
        former Party Chairman Mao Zedong and current Party 
        General Secretary Xi Jinping.\68\ Following the Dalai 
        Lama's birthday in July 2019, police in Palyul (Baiyu) 
        county, Kardze (Ganzi) TAP, Sichuan, reportedly beat 
        Tibetan residents in two subsidized resettlement 
        communities for displaying photos of the Dalai Lama in 
        their homes.\69\ Public security officials also 
        reportedly detained several individuals who had burnt 
        incense and offered prayers on his birthday.\70\
        <bullet> Mandatory political education for monks and 
        nuns. In December 2018, the TAR Party Committee 
        announced that all religious personnel and officials 
        must attend a three- to five-year political education 
        workshop.\71\ In March 2019, Chinese official sources 
        reported that authorities required 30,000 monks to take 
        exams on Chinese laws and regulations, including the 
        PRC Anti-Terrorism Law and the PRC Counterespionage 
        Law.'' \72\
        <bullet> Restrictions on religious education. In 
        December 2018, authorities in Nangchen (Nangqian) 
        county, Yulshul (Yushu) TAP, Qinghai province, banned 
        classes offered by monks, proscribing them as 
        ``ideological infiltration among the young,'' 
        ``dangerous,'' and ``harmful.'' \73\
        <bullet> Forced acts of worship of Chinese leaders. In 
        January 2019, authorities in Serthar (Seda) county, 
        Kardze (Ganzi) TAP, Sichuan, reportedly forced Tibetans 
        to prostrate and make offerings before pictures of 
        Chinese Communist Party leaders, including Xi 
        Jinping.\74\ A January report disclosed that in May 
        2018, authorities also had ordered Lhasa municipality 
        residents, some of whom are dependent on state 
        assistance due to previous government land seizures, to 
        stop worshiping the Buddha or risk losing their 
        subsidies.\75\

                            Self-Immolation

    At least two self-immolations as a form of protest occurred 
in Tibetan autonomous areas of China this past year.\76\ 
According to Tibetan advocacy groups, Chinese government 
suppression of Tibetans' freedoms of expression and religion 
have led some Tibetans to turn to self-immolation as 
protest.\77\ According to the International Campaign for Tibet 
and the Central Tibetan Administration (the Tibetan government-
in-exile located in Dharamsala, India), more than 150 Tibetans 
have self-immolated since 2009, with many calling for the long 
life of the Dalai Lama, his return from exile, and freedom for 
Tibet.\78\
    The Commission observed the following cases of Tibetans who 
self-immolated as a form of protest:

        <bullet> On November 4, 2018, a 23-year-old man named 
        Dopo (or Dorbe) reportedly died after self-immolating 
        in Ngaba (Aba) county, Ngaba (Aba) Tibetan and Qiang 
        Autonomous Prefecture (T&QAP), Sichuan province, while 
        shouting wishes to see the Dalai Lama and for his long 
        life.\79\ Radio Free Asia also reported that 
        authorities quickly controlled the scene and refused to 
        provide further information.\80\
        <bullet> On December 8, 2018, a former monk in his 
        twenties named Drugkho, previously known as Choekyi 
        Gyaltsen,\81\ from Soruma (Suorima) village, Choejema 
        (Qiujima) township, Ngaba county, reportedly self-
        immolated in Ngaba county while shouting for the Dalai 
        Lama's long life and freedom for Tibet.\82\ According 
        to one Tibetan advocacy organization, Drugkho 
        reportedly survived.\83\

    Following these two self-immolations, authorities increased 
security measures in the area, including reportedly blocking 
internet communications.\84\

                 Status of Tibetan Culture and Language

    The Chinese government's National Human Rights Action Plan 
(2016-2020) provides both that ``the cultural rights of ethnic 
minorities shall be guaranteed'' and that ``[t]he right of 
ethnic minorities to learn, use and develop their own spoken 
and written languages shall be respected and guaranteed,'' 
echoing provisions of China's Constitution, the PRC Regional 
Ethnic Autonomy Law, and the PRC Education Law.\85\ In March 
2019, the State Council Information Office released the white 
paper, ``Democratic Reform in Tibet--Sixty Years On,'' which 
featured two aims regarding Tibetan language: ``While 
protecting and developing the Tibetan language, the state is 
promoting . . . standard Chinese across the country, including 
[in] Tibet . . ..'' \86\ In contradiction to the stated aim to 
protect and develop the Tibetan language, authorities continued 
to restrict access to Tibetan language education and suppress 
Tibetan language education advocacy this past year:

        <bullet> According to Radio Free Asia, in December 
        2018, Chinese authorities restricted Tibetan language 
        classes for children at monasteries in Nangchen 
        (Nangqian) county, Yulshul (Yushu) TAP, Qinghai 
        province.\87\
        <bullet> In January 2019, authorities at Dongchuan 
        Prison in Xining municipality, Qinghai, reportedly 
        barred a lawyer from meeting with Tibetan language 
        education advocate Tashi Wangchug (Tashi Wangchuk), 
        whom the Yushu TAP Intermediate People's Court in 
        Yushu, Qinghai, sentenced to five years in prison in 
        May 2018 on the charge of ``inciting separatism.'' \88\ 
        By blocking this meeting, authorities effectively 
        denied him his right to proceed with a criminal 
        petition (shensu).\89\ In August 2019, prison 
        authorities again barred lawyers from meeting with him, 
        despite their submission of required documents.\90\

                         Freedom of Expression

    The U.S. State Department and the international non-
governmental organization Human Rights Watch reported in 2019 
that the Chinese government continued to restrict freedom of 
speech and assembly in the Tibet Autonomous Region (TAR) and 
Tibetan areas of China.\91\ According to the State Department, 
``The Chinese government harassed or detained Tibetans as 
punishment for speaking to foreigners, attempting to provide 
information to persons abroad, or communicating information 
regarding protests . . ..'' \92\ The State Department also 
reported that authorities had restricted internet service ``for 
weeks or months at a time'' during times deemed to be 
politically sensitive or times of unrest, and threatened 
Tibetans with prison sentences for sharing videos or 
information about self-immolations.\93\ A Tibetan researcher 
reported that Chinese authorities had ``crack[ed] down hard on 
[social media platform] WeChat users who demonstrate sympathy 
and support for the Tibetan cause,'' including the use of 
``restrictions and fines.'' \94\
    Representative examples of violations of Tibetans' right to 
free expression this past year include:

        <bullet> In September 2018, authorities in Kyangche 
        (Jiangqian) township, Gade (Gande) county, Golog 
        (Guoluo) TAP, Qinghai, reportedly beat and detained 
        Sengdra, a Tibetan advocate known for his campaign 
        against corruption, on suspicion of ``picking quarrels 
        and provoking trouble.'' \95\
        <bullet> In September 2018, authorities in Ngaba (Aba) 
        county, Ngaba (Aba) Tibetan and Qiang Autonomous 
        Prefecture, Sichuan province, reportedly detained 
        Tenzin Geleg, an 18-year-old monk from Ngaba's Kirti 
        Monastery, after he conducted a solo protest calling 
        for freedom for Tibet.\96\ In the same month, 
        authorities also reportedly detained 23-year-old monk 
        Dorje Rabten and another unidentified monk, both also 
        from Kirti, after they staged solo protests.\97\

    On December 10, 2018, authorities in Ngaba reportedly 
severely beat and detained Sanggye Gyatso, a 16- or 17-year-old 
monk also from Kirti Monastery, as he staged a solo protest 
calling for ``Freedom for Tibet.'' \98\

        <bullet> On April 29, 2019, public security officials 
        in Sershul (Shiqu) county, Kardze (Ganzi) TAP, Sichuan, 
        detained four Tibetan men in connection with one of 
        them, Wangchen, praying and reportedly shouting slogans 
        calling for the release of the 11th Panchen Lama, 
        despite warnings from other monks of possible arrest by 
        police.\99\ In May, a court sentenced Wangchen to four 
        years and six months in prison for leading an illegal 
        public protest.\100\ On May 2, authorities detained his 
        aunt Drolkar, and later that month sentenced her to one 
        year and three months' imprisonment for sharing 
        information about the protest.\101\
        <bullet> During this reporting year, the Commission did 
        not observe further news about the large February 2018 
        fire at the Jokhang temple in Lhasa municipality, TAR, 
        one of Tibetan Buddhism's holiest sites and a UNESCO 
        World Heritage site.\102\ An international advocacy 
        organization used satellite imagery analysis to show 
        that the fire did more damage than the government 
        reported, and cited commentators who criticized the 
        government's failure to report the severity of the 
        damage.\103\ Authorities also reportedly censored the 
        online sharing of information about the fire.\104\ 
        Neither Chinese media reports on activities at the 
        Jokhang in April 2019 nor an international media report 
        on U.S. Ambassador to China Terry Branstad's visit to 
        the temple in May 2019 mentioned the fire, resulting 
        damage, or repair efforts.\105\
        <bullet> In April 2019, authorities reportedly detained 
        Tibetan graduate student Sonam Lhundrub at Northwest 
        Minzu University in Lanzhou municipality, Gansu 
        province, after he posted an essay on social media 
        criticizing the decline in opportunities to obtain 
        government jobs for Tibetans in Tibetan areas.\106\

                          Freedom of Movement

    The Chinese government continued to restrict Tibetans' 
freedom of movement in violation of the International Covenant 
on Civil and Political Rights, which articulates the rights of 
every person to ``liberty of movement and freedom to choose his 
residence''; ``freedom to leave any country, including his 
own''; and ``the right to enter his own country.'' \107\ 
Authorities tightened borders in Tibetan regions and restricted 
Tibetans' ability to travel abroad.\108\
    The Commission observed the following restrictions on 
Tibetans' movement and travel this past year:

        <bullet> According to TCHRD's 2018 annual report, 
        authorities required Tibetan visitors to Lhasa from 
        Tibetan areas outside the TAR to surrender their ID 
        cards and obtain special permits to enter the city, and 
        to undergo close searches and frisking at checkpoints 
        in order to visit the Jokhang temple.\109\
        <bullet> Tibetans wishing to travel abroad, especially 
        for pilgrimage to India for the Dalai Lama's annual 
        teachings at Bodh Gaya, India in December 2018, faced 
        barriers in obtaining passports.\110\ Authorities 
        reportedly subjected Tibetan travelers to a ``two-
        track'' passport system,\111\ long interrogations, and 
        cancellation of passports or denial of permission to 
        travel at airports without refunds.\112\ Authorities 
        had also reportedly confiscated and destroyed the 
        passports of returning Tibetan pilgrims after the 2018 
        annual teachings.\113\
        <bullet> The U.S. State Department reported that the 
        ``People's Armed Police (PAP) and local public security 
        bureaus (PSB) set up roadblocks and checkpoints in 
        Tibetan areas . . . especially around sensitive dates'' 
        \114\ and that authorities required monks and nuns to 
        undergo ``extra scrutiny . . . at roadside checkpoints 
        and at airports.'' \115\
        <bullet> According to TCHRD, in 2018, Chinese 
        authorities in Rebgong (Tongren) county, Malho 
        (Huangnan) TAP, Qinghai, informed a Tibetan refugee 
        visiting from India that, as of January 2018, Tibetans 
        returning to China were not allowed to permanently 
        reside in their hometowns.\116\ TCHRD found no evidence 
        that the statement was connected to any formal 
        policy.\117\

             Economy, Environment, and Development Concerns

        <bullet> Economy. According to the Office of the UN 
        High Commissioner for Human Rights summary of rights 
        groups' submissions in advance of the November 2018 
        session of the UN Human Rights Council's Universal 
        Periodic Review (UPR) of China, the Chinese 
        government's ``large-scale infrastructure and 
        investment projects in Tibet . . . often resulted in 
        violations of Tibetan's [sic] economic, social, and 
        cultural rights, such as their rights to livelihood and 
        to adequate housing.'' \118\
        <bullet> Environment. The Chinese government has 
        designated large areas in the TAR and Qinghai province 
        as national parks, and has relocated Tibetans for the 
        stated purposes of protecting ecosystems and improving 
        the livelihoods of local residents.\119\ Tibetan groups 
        state, however, that government claims about the need 
        to protect the environment are also used as a pretext 
        to forcibly resettle Tibetans from traditional grazing 
        lands.\120\ Scientists and Tibetan groups note that 
        many government actions on the Tibetan Plateau 
        exacerbate climate change, resulting in glacial 
        melting, permafrost degradation, and desertification of 
        grasslands.\121\
        <bullet> Water rights. Many of Asia's major rivers 
        originate on the Tibetan Plateau, known as the ``Third 
        Pole'' and ``water tower of Asia.'' \122\ A Tibet 
        researcher argued that the government's dams and water 
        diversion projects on many of Asia's rivers violate the 
        water rights of Tibetans and over 1.3 billion people in 
        downstream countries who are dependent on these rivers 
        for drinking water and agriculture.\123\
        <bullet> Development. The Chinese government continued 
        to forcibly resettle Tibetans throughout the TAR and 
        other Tibetan areas of China for the stated purposes of 
        development and poverty alleviation.\124\ Between 
        January and May 2019, Radio Free Asia reported the 
        following:

                  Authorities forced Tibetan nomadic families 
                in Chamdo (Changdu) municipality, TAR, to move 
                into towns and pay nearly 8,000 yuan (US$1,165) 
                for their new homes.\125\
                  Authorities removed 12 families from Gonjo 
                (Gongjue) county, Chamdo, and relocated them to 
                Nyingchi (Linzhi) municipality, TAR.\126\
                  Nomadic families who were forcibly resettled 
                several years ago to an area east of Chengguan 
                district, Lhasa municipality, TAR, were 
                suffering financial and other hardships due to 
                the loss of their livelihoods and the failure 
                of authorities to provide promised 
                assistance.\127\
                  Authorities resettled around 40 Tibetan 
                families from their village in Qinghai for 
                airport construction.\128\

    Some attempts by Tibetans to oppose development projects 
have led to violence against or detention of protesters. 
Observers reported the following:

        <bullet> On September 11, 2018, authorities detained 
        five monks at Gomang Monastery in Ngaba (Aba) county, 
        Ngaba (Aba) Tibetan and Qiang Autonomous Prefecture, 
        Sichuan province, for protesting a residential 
        construction project near the monastery.\129\
        <bullet> On October 11, 2018, Han Chinese workers 
        reportedly attacked Tibetans who were protesting their 
        work installing solar panels on grazing land in Chabcha 
        (Gonghe) county, Tsolho (Hainan) Tibetan Autonomous 
        Prefecture, Qinghai.\130\


                                                          Tibet
                                                Tibet
    Notes to Section V--Tibet

    \1\ UN Human Rights Council, Report of the Working Group on the 
Universal Periodic Review--China, A/HRC/40/6, December 26, 2018, para. 
17.
    \2\ Ibid.
    \3\ UN Human Rights Council, Report of the Working Group on the 
Universal Periodic Review--China, A/HRC/40/6, December 26, 2018, paras. 
7, 8, 12, 13. See also PRC Constitution, passed and effective December 
4, 1982 (amended March 11, 2018), art. 33.
    \4\ Tibetan Centre for Human Rights and Democracy, Annual Report 
2018--Human Rights Situation in Tibet, May 2019, 9; Bureau of 
Democracy, Human Rights, and Labor, U.S. Department of State, ``Country 
Reports on Human Rights Practices for 2018--China (Includes Tibet, Hong 
Kong, and Macau),'' March 13, 2019, 2; International Federation for 
Human Rights and International Campaign for Tibet, ``China: Dramatic 
Deterioration of Human Rights Situation in Tibet Detailed in Report for 
UN Review,'' March 29, 2018.
    \5\ UN Human Rights Council, Summary of Stakeholders' Submissions 
on China, Report of the Office of the United Nations High Commissioner 
for Human Rights, A/HRC/WG.6/31/CHN/3*, September 3, 2018, para. 65; 
PRC Constitution, passed and effective December 4, 1982 (amended March 
11, 2018), art. 36.
    \6\ UN Human Rights Council, Summary of Stakeholders' Submissions 
on China, Report of the Office of the United Nations High Commissioner 
for Human Rights, A/HRC/WG.6/31/CHN/3*, September 3, 2018, paras. 64, 
67.
    \7\ Ibid., para. 64.
    \8\ Ibid., para. 17.
    \9\ UN Human Rights Council, Summary of Stakeholders' Submissions 
on China, Report of the Office of the United Nations High Commissioner 
for Human Rights, A/HRC/WG.6/31/CHN/3*, September 3, 2018, para. 65; 
PRC Constitution, passed and effective December 4, 1982 (amended March 
11, 2018), art. 4.
    \10\ UN Human Rights Council, Summary of Stakeholders' Submissions 
on China, Report of the Office of the United Nations High Commissioner 
for Human Rights, A/HRC/WG.6/31/CHN/3*, September 3, 2018, para. 12.
    \11\ UN Human Rights Council, Summary of Stakeholders' Submissions 
on China, Report of the Office of the United Nations High Commissioner 
for Human Rights, A/HRC/WG.6/31/CHN/3*, September 3, 2018, para. 65; 
PRC Constitution, passed and effective December 4, 1982 (amended March 
11, 2018), art. 37.
    \12\ ``Zhonggong dangju yu Xizang Lasa `Saohei Chu'e' zhongjin 
youhuo Zangren xuxiang jiefa'' [Chinese Communist Party authorities in 
Lhasa, Tibet's ``Anti-Crime and Evil Campaign'' use large sums to 
entice Tibetans to expose each other], Voice of Tibet, May 23, 2019.
    \13\ UN Human Rights Council, Summary of Stakeholders' Submissions 
on China, Report of the Office of the United Nations High Commissioner 
for Human Rights, A/HRC/WG.6/31/CHN/3*, September 3, 2018, para. 65.
    \14\ Ibid., para. 5.
    \15\ Ibid., para. 12.
    \16\ Tibetan Centre for Human Rights and Democracy, Annual Report 
2018--Human Rights Situation in Tibet, May 2019, 9; Weida Li, ``China 
to Begin Nationwide Crackdown on Organised Crime,'' Global Times, 
January 25, 2018.
    \17\ U.S. Department of State, ``2019 Report to Congress on Tibet 
Negotiations, Department of State Authorities Act, Fiscal Year 2017 
Improvements Act PL 115-94, Sec. 13,'' June 3, 2019, attached to letter 
from Mary Elizabeth Taylor, Assistant Secretary, Bureau of Legislative 
Affairs, U.S. Department of State, to United States Senate, Committee 
on Foreign Relations, May 30, 2019, 1.
    \18\ Zhu Weiqun, `` `Daogui shu' wan bu hui Dalai jituan shibai 
mingyun'' [``Mischief-making'' will not prevent the failure of the 
Dalai clique], Global Times, October 19, 2018; ``Tibet Vows to Fight 
against Separatism,'' Xinhua, January 10, 2019; State Council 
Information Office, ``Tibet's Path of Development Is Driven by an 
Irresistible Historical Tide,'' April 15, 2015, sec. V.
    \19\ State Council Information Office, ``Tibet's Path of 
Development Is Driven by an Irresistible Historical Tide,'' April 15, 
2015, Conclusion; Central Tibetan Administration, ``Tibet Was Never a 
Part of China, but the Middle Way Approach Remains a Viable Solution,'' 
October 2018, 120; Sherab Woeser, Office of His Holiness the Dalai 
Lama, `` `I Am Not Seeking Independence,' Reconfirms His Holiness,'' 
November 3, 2009.
    \20\ Central Tibetan Administration, ``Tibet Was Never a Part of 
China, but the Middle Way Approach Remains a Viable Solution,'' October 
2018, title page, 40-41, 42, 66, 239; Michael van Walt van Praag and 
Miek Boltjes, ``Speaking Truth to Power Regarding China's Claim to 
Tibet: Working Paper Prepared for the 7th World Parliamentarians' 
Convention on Tibet,'' Riga, Latvia, May 8, 2019, 55-57.
    \21\ Central Tibetan Administration, ``Tibet Was Never a Part of 
China, but the Middle Way Approach Remains a Viable Solution,'' October 
2018, 37. See also Michael van Walt van Praag and Miek Boltjes, 
``Speaking Truth to Power Regarding China's Claim to Tibet: Working 
Paper Prepared for the 7th World Parliamentarians' Convention on 
Tibet,'' Riga, Latvia, May 8, 2019, 55-57. On May 16, 2019, van Walt 
van Praag presented a detailed analysis and refutation of the Chinese 
government's historical claim that Tibet was always an integral part of 
China, and argued that the virtually unchallenged international 
acceptance of this notion removes the possibility of equal footing for 
negotiations and undermines the prospect of a satisfactory resolution 
to the Sino-Tibetan conflict.
    \22\ Tibetan Parliament in Exile, Riga Declaration, adopted by the 
7th World Parliamentarians' Convention on Tibet, May 14, 2019.
    \23\ CCP Central Committee and State Council, Guanyu Kaizhan Saohei 
Chu'e Zhuanxiang Douzheng De Tongzhi [Circular on the Specialized 
Struggle to Sweep Away Organized Crime and Eliminate Vice], January 24, 
2018; Tibetan Centre for Human Rights and Democracy, Annual Report 
2018--Human Rights Situation in Tibet, May 2019, 9; Weida Li, ``China 
to Begin Nationwide Crackdown on Organised Crime,'' Global Times, 
January 25, 2018; Xu Wei, ``Chengchu hei e shili fanzui yao da zhun da 
hen'' [Black and evil forces and crimes must be ruthlessly punished], 
People's Daily, February 1, 2018.
    \24\ Tibetan Centre for Human Rights and Democracy, Annual Report 
2018--Human Rights Situation in Tibet, May 2019, 13.
    \25\ Ibid., 9.
    \26\ ``Zhonggong dangju yu Xizang Lasa `saohei chu'e' zhongjin 
youhuo Zangren xuxiang jiefa'' [Chinese Communist Party authorities in 
Lhasa, Tibet's ``Anti-Crime and Evil Campaign'' use large sums to 
entice Tibetans to expose each other], Voice of Tibet, May 23, 2019.
    \27\ ``Zhonggong dangju yu Xizang Lasa `saohei chu'e' zhongjin 
youhuo Zangren xianghu jiefa'' [Chinese Communist Party authorities in 
Lhasa, Tibet's ``Anti-Crime and Evil Campaign'' use large sums to 
entice Tibetans to expose each other], Voice of Tibet, May 23, 2019; 
Bureau of Democracy, Human Rights, and Labor, U.S. Department of State, 
``Country Reports on Human Rights Practices for 2018--China (Includes 
Tibet, Hong Kong, and Macau),'' March 13, 2019, 78; Tibetan Centre for 
Human Rights and Democracy, Annual Report 2018--Human Rights Situation 
in Tibet, May 2019, 11-12.
    \28\ Tibetan Centre for Human Rights and Democracy, ``Nine Tibetans 
Sentenced Up to 7 Years in Prison under China's Organised Crime 
Crackdown,'' April 19, 2019; Tibetan Centre for Human Rights and 
Democracy, ``Zhongguo `Saohei Chu'e Zhuanxiang Douzheng' xia 9 ming 
Zangren bei panchu 7 nian deng tuxing'' [Under China's ``Specialized 
Struggle to Sweep Away Organized Crime and Eliminate Vice,'' 9 Tibetans 
sentenced to up to 7 years], April 19, 2019; ``Nine Tibetans Are Jailed 
in Rebgong for Running an `Illegal Organization' Claiming Land 
Rights,'' Radio Free Asia, April 23, 2019.
    \29\ Tongren County People's Court, ``Tongren Xian Renmin Fayuan 
gongkai kaiting shenli `kanguowa' e shili fanzui jituan anjian'' 
[Tongren County People's Court holds open trial in ``khagowa'' evil 
forces criminal gang case], April 16, 2019.
    \30\ Tibetan Centre for Human Rights and Democracy, Annual Report 
2018--Human Rights Situation in Tibet, May 2019, 5.
    \31\ Tenzin Tsultrim, ``Big Brother Really Is Watching: China's 
Grand Plan for Smart Surveillance in Tibet,'' Hong Kong Free Press, 
March 31, 2019; Tibetan Centre for Human Rights and Democracy, Annual 
Report 2018--Human Rights Situation in Tibet, May 2019, 5; Claude Arpi, 
``Big Data near the Indian Border,'' Claude Arpi (blog), December 29, 
2018.
    \32\ Tenzin Tsultrim, ``Big Brother Really Is Watching: China's 
Grand Plan for Smart Surveillance in Tibet,'' Hong Kong Free Press, 
March 31, 2019; Tibetan Centre for Human Rights and Democracy, Annual 
Report 2018--Human Rights Situation in Tibet, May 2019, 5; Claude Arpi, 
``Big Data near the Indian Border,'' Claude Arpi (blog), December 29, 
2018.
    \33\ International Campaign for Tibet, ``China's Control State in 
Lhasa--The Black Box of Tibet's Prison System: Detention Center 
Notorious for Torture next to 5-Star Global Brand Hotel,'' October 3, 
2018. ``Grid-style social management''--a central government 
``securitization'' policy first deployed in the Tibet Autonomous Region 
in 2012--divides urban and rural areas into smaller units for the 
purpose of intensifying surveillance, policing, and control at the 
community level. Human Rights Watch, ``China: Alarming New 
Surveillance, Security in Tibet,'' March 20, 2013; Tibetan Centre for 
Human Rights and Democracy, Annual Report 2017--Human Rights Situation 
in Tibet, May 7, 2018, 8; Adrian Zenz and James Leibold, ``Chen 
Quanguo: The Strongman behind Beijing's Securitization Strategy in 
Tibet and Xinjiang,'' China Brief, Jamestown Foundation, September 21, 
2017. See also ``Grid Locked,'' Economist, June 22, 2013.
    \34\ Tenzin Dalha, ``How WeChat Conquered Tibet,'' The Diplomat, 
July 16, 2019.
    \35\ Tibetan Centre for Human Rights and Democracy, Annual Report 
2018--Human Rights Situation in Tibet, May 2019, 36. See also 
International Campaign for Tibet, ``China Forces Young Tibetan Monks 
Out of Monastery into Government-Run School as Part of Drive to Replace 
Monastic Education with Political Propaganda,'' July 12, 2018.
    \36\ Cao Siqi, ``Big Data System Keeps Real-Time Track of Visitors 
in Tibet,'' Global Times, October 7, 2018.
    \37\ Ibid.
    \38\ Wang Yufei, ``Rikaze shi kaishe `zhengzhi jiaoyu xunlian ying' 
'' [Shigatse municipality opens ``political education training camp''], 
Tibet Daily, January 22, 2019; ``China Sets Up Camp in Tibet's Shigatse 
to Train Party Workers in `Correct Thought': Report,'' Radio Free Asia, 
February 14, 2019.
    \39\ International Campaign for Tibet, ``China Bans Foreigners from 
Visiting Tibet Autonomous Region until April,'' February 19, 2019.
    \40\ ``Chinese Authorities Tighten Restrictions in Qinghai amid 
Tibetan Uprising Anniversaries,'' Radio Free Asia, March 14, 2019.
    \41\ Free Tibet, ``China Installed New Surveillance in Tibet Ahead 
of 1959 Anniversary,'' March 13, 2019; ``Lhasa Uses Facial Recognition, 
Big Data Analysis in New Taxis,'' Global Times, March 5, 2019.
    \42\ Reciprocal Access to Tibet Act of 2018, Pub. L. No. 115-330.
    \43\ ``China Pledges Easier Access to Tibet for Foreign Tourists 
after US Pressure,'' Reuters, January 11, 2019; ``Tibet Travel to 
Become Easier for Foreigners,'' CGTN, January 14, 2019.
    \44\ U.S. Department of State, ``Report to Congress on Section 4 of 
the Reciprocal Access to Tibet Act of 2018 of P.L. 115-330,'' March 25, 
2019.
    \45\ ``Larung Gar Buddhist Academy Closes to New Enrollment as 
China Tightens Controls,'' Radio Free Asia, April 19, 2019.
    \46\ International Campaign for Tibet, ``Demolitions Begin at 
Larung Gar, `A Monastery for the World,' as Religious Teachers Urge 
Calm,'' July 25, 2016; Human Rights Watch, ``China: Major Tibetan 
Buddhist Institution Faces Further Demolitions,'' March 29, 2017; 
``Larung Gar Expulsions Now Complete: Local Source,'' Radio Free Asia, 
April 7, 2017. See also CECC, 2018 Annual Report, October 10, 2018, 
294; CECC, 2017 Annual Report, October 5, 2017, 303-4; CECC, 2016 
Annual Report, October 6, 2016, 303-4.
    \47\ ``Thousands of Monks, Nuns Evicted from Sichuan's Yachen 
Gar,'' Radio Free Asia, June 11, 2019. For more information on Yachen 
Gar (Yarchen Gar), see CECC, 2017 Annual Report, October 5, 2017, 304.
    \48\ ``Large-Scale Demolition Begins at Sichuan's Yachen Gar 
Tibetan Buddhist Center,'' Radio Free Asia, July 29, 2019; ``Photo 
Shows Dramatic Demolition of Yachen Gar Buddhist Complex,'' Radio Free 
Asia, August 28, 2019.
    \49\ Office of His Holiness the Dalai Lama, ``Thank You from His 
Holiness,'' July 10, 2019.
    \50\ Krishna N. Das and Sunil Kataria, ``Exclusive: Dalai Lama 
Contemplates Chinese Gambit after His Death,'' Reuters, March 18, 2019; 
Yonden Lhatoo, ``China and the Dalai Lama Play Endgame for Tibet, and 
It's Going to Be an Unholy Mess,'' South China Morning Post, March 30, 
2019; Jessica Batke, ``Is This the Last Dalai Lama?,'' ChinaFile, Asia 
Society, March 15, 2019.
    \51\ ``The Religious Ritual and Historical Convention of Living 
Buddha Reincarnation,'' China Tibet Online, January 24, 2019; State 
Council Information Office, ``Tibet's Path of Development Is Driven by 
an Irresistible Historical Tide,'' April 15, 2015, sec. V.
    \52\ State Administration for Religious Affairs, Zangchuan Fojiao 
Huofo Zhuanshi Guanli Banfa [Measures on the Management of the 
Reincarnation of Living Buddhas in Tibetan Buddhism], issued July 13, 
2007, effective September 1, 2007, arts. 5-11; Ministry of Foreign 
Affairs, ``Foreign Ministry Spokesperson Geng Shuang's Regular Press 
Conference on March 19, 2019,'' March 19, 2019; Embassy of the People's 
Republic of China in the Hellenic Republic, ``Foreign Ministry 
Spokesperson Lu Kang's Regular Press Conference on April 10, 2019,'' 
April 11, 2019; ``The Religious Ritual and Historical Convention of 
Living Buddha Reincarnation,'' China Tibet Online, January 24, 2019; 
State Council Information Office, ``Tibet's Path of Development Is 
Driven by an Irresistible Historical Tide,'' April 15, 2015, sec. V. By 
``historical conventions,'' Chinese authorities are referring to 
practices during the Qing dynasty (1644-1911) and the Republican era 
(1912-1949) when those governments recognized the current 14th Dalai 
Lama (in 1940) and previous Dalai Lamas.
    \53\ Manash Pratim Bhuyan, ``Next Dalai Lama Must Be Chosen within 
China; India Should Not Intervene: Chinese Authorities,'' Press Trust 
of India, reprinted in India Today, July 14, 2019; Elizabeth Roche, 
``Selection of the Next Dalai Lama May Test New Delhi-Beijing Ties,'' 
Livemint, July 15, 2019.
    \54\ Declaration on the Elimination of All Forms of Intolerance and 
of Discrimination Based on Religion or Belief, proclaimed by UN General 
Assembly resolution 36/55 of November 25, 1981, art. 6(g); UN Human 
Rights Committee, General Comment 22, Article 18 (Forty-eighth session, 
1993). Compilation of General Comments and General Recommendations 
Adopted by Human Rights Treaty Bodies, HRI/GEN/1/Rev.1 (July 29, 1994), 
para. 4. See also International Campaign for Tibet, ``China's Response 
to Dalai Lama Reincarnation Statements Shows Beijing's Insecurity and 
Lack of Legitimacy,'' March 20, 2019.
    \55\ Office of His Holiness the Dalai Lama, ``Reincarnation,'' 
September 24, 2011. See also Jessica Batke, ``Is This the Last Dalai 
Lama?,'' ChinaFile, Asia Society, March 15, 2019.
    \56\ Office of His Holiness the Dalai Lama, ``Reincarnation,'' 
September 24, 2011.
    \57\ Krishna N. Das and Sunil Kataria, ``Exclusive: Dalai Lama 
Contemplates Chinese Gambit after His Death,'' Reuters, March 18, 2019.
    \58\ ``The Panchen Lama Turns 30, 24 Years after He Disappeared,'' 
AsiaNews, April 26, 2019; Tenzin Dorjee, U.S. Commission on 
International Religious Freedom (USCIRF), ``Open Letter from USCIRF 
Chair Tenzin Dorjee to the Panchen Lama on His 30th Birthday,'' April 
25, 2019. For more information on Gedun Choekyi Nyima, see the 
Commission's Political Prisoner Database record 2004-00835.
    \59\ ``The Panchen Lama Turns 30, 24 Years After He Disappeared,'' 
AsiaNews, April 26, 2019; Tenzin Dorjee, U.S. Commission on 
International Religious Freedom (USCIRF), ``Open Letter from USCIRF 
Chair Tenzin Dorjee to the Panchen Lama on His 30th Birthday,'' April 
25, 2019.
    \60\ International Campaign for Tibet, ``China Tightens Screws on 
Tibetan Buddhism,'' September 11, 2018. For more information on the 
Panchen Lama and the Chinese government's likely model for selecting 
the next Dalai Lama, see CECC, 2008 Annual Report, October 31, 2008, 
189.
    \61\ ``China Says Its Panchen Lama Made First Trip outside Country 
in May,'' Reuters, June 11, 2019.
    \62\ Wang Zuo'an, ``Yinling zongjiao zhongguohua jincheng xing wen 
zhi yuan'' [Leading religion in the stable and long-term process of 
sinicization], China Ethnic News, March 26, 2019; John Dotson, 
``Propaganda Themes at the CPPCC Stress the `Sinicization' of 
Religion,'' China Brief, Jamestown Foundation, April 9, 2019; Charlotte 
Gao, ``Chinese Communist Party Vows to `Sinicize Religions' in China,'' 
The Diplomat, October 24, 2017. For more background on the 
``sinicization'' of religions, see CECC, ``Freedom of Religion'' in 
2018 Annual Report, October 10, 2018, 121-24; CECC, 2017 Annual Report, 
October 5, 2017, 129 (text box titled ``Revisions to the Regulations on 
Religious Affairs''). In a March 2019 article in the state-run China 
Ethnic News, director of the State Administration for Religious Affairs 
and vice-minister of the United Front Work Department Wang Zuo'an 
reiterated the ``four perseverances'' in guiding religions ``to 
sinicize'' (zhongguohua), a process the Party defines as adapting to 
socialist society under its leadership (the literal meaning of 
zhongguohua is ``to make [something] Chinese,'' without specific Party 
or ideological connotations). The ``four perseverances'' comprise: 1) 
following the leadership of the Party; 2) awakening religious circles 
to their duty and mission to contribute to the great project of 
``building socialism with Chinese characteristics''; 3) ``classifying 
and leading'' each religion according to its characteristics such as 
upholding the concept of ``humanistic Buddhism''; and 4) seeking 
``long-term success'' in guiding religion through the complexities and 
changes of history.
    \63\ PRC Constitution, passed and effective December 4, 1982 
(amended March 11, 2018), art. 36.
    \64\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of December 10, 1948, art. 
18.
    \65\ ``Wo sheng juban Zang chuan Fojiao yu shehuizhuyi shehui xiang 
shiying yantaohui'' [[Sichuan] Province holds conference on the 
adaptation of Tibetan Buddhism to socialist society], Sichuan Daily, 
reprinted in Sichuan Online, October 18, 2018.
    \66\ Zhang Han, ``Buddhism Encouraged to Serve BRI,'' Global Times, 
October 17, 2018.
    \67\ ``China Bans Major Prayer Festival in Larung Gar for Third 
Consecutive Year,'' Radio Free Asia, October 25, 2018; Tibetan Centre 
for Human Rights and Democracy, Annual Report 2018--Human Rights 
Situation in Tibet, May 2019, 45.
    \68\ Tibetan Centre for Human Rights and Democracy, Annual Report 
2018--Human Rights Situation in Tibet, May 2019, 42; Sang Jieja, 
``Tibetans Get Home Decor Order: Hang Xi, Mao Portraits,'' UCANews, 
January 23, 2019; Tenzin Saldon, Central Tibetan Administration, 
``Tibetans Forced to Prostrate to Xi Jinping Pictures: Religious 
Repression in Tibet Accelerates,'' January 19, 2019.
    \69\ ``Tibetans Beaten, Detained in Kardze Over Dalai Lama 
Photos,'' Radio Free Asia, July 29, 2019.
    \70\ Ibid.
    \71\ Tibetan Centre for Human Rights and Democracy, Annual Report 
2018--Human Rights Situation in Tibet, May 2019, 50; Ambika Choudhary 
Mahajan, ``China Imparting `Patriotic Education' to Tibetan Monks and 
Nuns Infuriates Region's Religious Leaders,'' Firstpost.com, April 8, 
2019.
    \72\ Liu Caiyu, ``30,000 Monks and Nuns in Tibet Take Exams on 
Laws,'' Global Times, March 26, 2019. According to the Chinese official 
news outlet Global Times, the tests reinforce the idea that ``national 
laws are superior to religious regulations, and abiding by the law 
comes ahead of adhering to religious discipline.'' Free Tibet, ``China 
Forces 30,000 Monks and Nuns to Take Exams on Chinese Law,'' May 23, 
2019. The workshops require three to five years of political education 
on China's history, laws, policies, and regulations on religion. 
According to Free Tibet, the exams were administered at Gaden, Drepung, 
and Sera Monasteries in Lhasa municipality, Tibet Autonomous Region 
(TAR), among other sites in the TAR.
    \73\ Human Rights Watch (HRW), ``China: Tibetan Children Banned 
from Classes,'' January 30, 2019. HRW provided an official copy 
(Tibetan language) and an unofficial English translation of the 
Nangchen county notice proscribing classes taught by monks.
    \74\ Tenzin Saldon, Central Tibetan Administration, ``Tibetans 
Forced to Prostrate to Xi Jinping Pictures: Religious Repression in 
Tibet Accelerates,'' January 19, 2019; Free Tibet, ``Chinese Order 
Tibetans to Put Shrines to Xi Jinping and Party Leaders in Their 
Homes,'' January 22, 2019.
    \75\ Li Zaili, ``Authorities Use Welfare Payments Against Tibetan 
Buddhists,'' Bitter Winter, January 18, 2019.
    \76\ For information on self-immolations in previous reporting 
years, see CECC, 2018 Annual Report, October 10, 2018, 294-95; CECC, 
2017 Annual Report, October 5, 2017, 301-02; CECC, 2016 Annual Report, 
October 6, 2016. For additional information on self-immolations in 
Tibetan autonomous areas of China, see Tibetan Centre for Human Rights 
and Democracy, Annual Report 2018--Human Rights Situation in Tibet, May 
2019, 20.
    \77\ Tibetan Centre for Human Rights and Democracy, Annual Report 
2018--Human Rights Situation in Tibet, May 2019, 20; International 
Campaign for Tibet, ``Self-immolations,'' accessed July 2, 2019.
    \78\ Central Tibetan Administration, ``Photos of 2012 Tibetan Self-
Immolators Identified,'' May 22, 2019; International Campaign for 
Tibet, ``Self-Immolation Fact Sheet,'' December 10, 2018; International 
Campaign for Tibet, ``Brave Solo Protests Show Tibetans' Remarkable 
Courage and Steadfast Loyalty to the Dalai Lama,'' October 11, 2018; 
Yangchen Dolma, ``Two More Youths Set Themselves on Fire in Protest 
Against China's Repression in Tibet,'' Tibet Post International, 
December 14, 2018.
    \79\ International Campaign for Tibet, ``Self-Immolation Fact 
Sheet,'' December 10, 2018; ``Liuwang Zangren aidao ji shengyuan zuixin 
zifenzhe'' [Exiled Tibetans mourn and voice support for latest self-
immolator], Radio Free Asia, November 9, 2018; Tibetan Centre for Human 
Rights and Democracy, Annual Report 2018--Human Rights Situation in 
Tibet, May 2019, 21.
    \80\ ``Liuwang Zangren aidao ji shengyuan zuixin zifenzhe'' [Exiled 
Tibetans mourn and voice support for latest self-Immolator], Radio Free 
Asia, November 9, 2018.
    \81\ Tinley Nyandak, ``Tibetan Youth Self-Immolates Over China's 
Tibet Policies,'' Voice of America, December 10, 2018; Tenzin Sangmo, 
``Tibetan Monk Beaten Up, Arrested in Ngaba for Protest,'' Phayul, 
December 14, 2018.
    \82\ Tinley Nyandak, ``Tibetan Youth Self-Immolates Over China's 
Tibet Policies,'' Voice of America, December 10, 2018; Yangchen Dolma, 
``Tibetan Youth Sets Himself on Fire in Eastern Tibet to Protest 
China's Rule,'' Tibet Post International, December 9, 2018; ``Tibetan 
Man in Ngaba Stages Self-Immolation Protest,'' Radio Free Asia, 
December 9, 2018.
    \83\ Tenzin Sangmo, ``Tibetan Monk Beaten Up, Arrested in Ngaba for 
Protest,'' Phayul, December 14, 2018.
    \84\ ``New Self-Immolations, Protest Reported in Sichuan's Ngaba,'' 
Radio Free Asia, December 14, 2018; ``Tibetan Man in Ngaba Stages Self-
Immolation Protest,'' Radio Free Asia, December 9, 2018; Yangchen 
Dolma, ``Tibetan Youth Sets Himself on Fire in Eastern Tibet to Protest 
China's Rule,'' Tibet Post International, December 9, 2018.
    \85\ State Council Information Office, ``National Human Rights 
Action Plan of China (2016-2020),'' August 2016, reprinted in Xinhua, 
September 29, 2016, sec. III(1); PRC Constitution, passed and effective 
December 4, 1982 (amended March 11, 2018), arts. 4, 121; Zhonghua 
Renmin Gongheguo Minzu Quyu Zizhi Fa [PRC Regional Ethnic Autonomy 
Law], issued May 31, 1984, amended and effective February 28, 2001, 
arts. 10, 21, 37; State Council, Guowuyuan Shishi ``Zhonghua Renmin 
Gongheguo Minzu Quyu Zizhi Fa'' Ruogan Guiding [Certain Provisions on 
Implementing the ``PRC Regional Ethnic Autonomy Law''], issued May 19, 
2005, effective May 31, 2005, art. 22; Zhonghua Renmin Gongheguo Jiaoyu 
Fa [PRC Education Law], passed March 18, 1995, amended August 27, 2009, 
December 27, 2015, effective June 1, 2016, art. 12. China's 
Constitution and the PRC Regional Ethnic Autonomy Law provide nominal 
protection for the use of minority languages. The State Council 
Provisions on Implementing the PRC Regional Ethnic Autonomy Law affirm 
the freedom to use and develop minority languages, but also place 
emphasis on the use of Mandarin by promoting ``bilingual'' education 
and bilingual teaching staff.
    \86\ State Council Information Office, ``Democratic Reform in 
Tibet--Sixty Years On,'' March 2019, 26.
    \87\ ``Tibetan Monasteries in Nangchen Banned from Teaching 
Language to Young Tibetans,'' Radio Free Asia, January 30, 2019.
    \88\ Tenzin Dharpo, ``Tibetan Language Language Rights Advocate 
Tashi Wangchuk Appeals Against 5-Year Prison Term,'' Phayul, June 20, 
2018. For more information on Tashi Wangchug, see the Commission's 
Political Prisoner Database record 2016-00077.
    \89\ Tenzin Dharpo, ``Tibetan Language Advocate Denied Right to 
Appeal at Higher Court,'' Phayul, January 30, 2019; Independent Chinese 
PEN Center, ``Lushi huijian Zhaxi Wense zaici yu zu, liyou shi min'gan 
anjian teshu duidai' '' [Lawyer again blocked from meeting with Tashi 
Wangchug, reason [given] is ``special treatment for a sensitive 
case''], August 2, 2019.
    \90\ ``Jailed Tibetan Language Rights Advocate Is Refused Visits 
from His Lawyers,'' Radio Free Asia, August 2, 2019.
    \91\ Human Rights Watch, ``China,'' in World Report 2019: Events of 
2018, 2019, 144.
    \92\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``Country Reports on Human Rights Practices for 2018--China 
(Includes Tibet, Hong Kong, and Macau),'' March 13, 2019, 73.
    \93\ Ibid., 80.
    \94\ Tenzin Dalha, ``How WeChat Conquered Tibet,'' The Diplomat, 
July 16, 2019. See also ``Tibetan Man Detained for Sharing Dalai Lama 
Photo on WeChat,'' Radio Free Asia, August 26, 2019.
    \95\ Tibetan Centre for Human Rights and Democracy, ``China Detains 
Tibetan Anti-Corruption Activist on Politicised Charge of `Provoking 
Trouble,' '' December 20, 2018. For more information on Sengdra, see 
the Commission's Political Prisoner Database record 2016-00353.
    \96\ Tibetan Centre for Human Rights and Democracy, ``Teenage Monk 
and Blogger Detained at Undisclosed Location After Staging Solo 
Protest,'' September 25, 2018. For more information on Tenzin Geleg, 
see the Commission's Political Prisoner Database record 2018-00472.
    \97\ ``Three Tibetan Monks Detained after Launching Solo Protests 
in Ngaba,'' Radio Free Asia, September 24, 2018. For more information 
on Dorje Rabten, see the Commission's Political Prisoner Database 
record 2018-00471.
    \98\ Tibetan Centre for Human Rights and Democracy, ``Teen Monk 
Disappears into Chinese Police Custody After Staging a Solo Protest 
Calling for Freedom in Tibet,'' December 15, 2018; ``New Self-
Immolations, Protest Reported in Sichuan's Ngaba,'' Radio Free Asia, 
December 14, 2018. For more information on Sanggye Gyatso, see the 
Commission's Political Prisoner Database record 2018-00697.
    \99\ Tenzin Sangmo, ``Three Tibetans Detained for Praying for the 
Release of the Panchen Lama,'' Phayul, April 30, 2019; ``Wei Banchan 
Lama qifu er zao bu, liang ming Zangren zai Xizang Shiqu zao panxing'' 
[Arrested for praying for Panchen Lama, two Tibetans sentenced in 
Sershul, Tibet], Voice of Tibet, May 9, 2019; ``Three Tibetans Are 
Detained for Calling for Panchen Lama's Release,'' Radio Free Asia, 
April 30, 2019.
    \100\ Tenzin Sangmo, ``Three Tibetans Detained for Praying for the 
Release of the Panchen Lama,'' Phayul, April 30, 2019; ``Wei Banchan 
Lama qifu er zao zu, liang ming Zangren zai Xizang Shiqu zao panxing'' 
[Arrested for praying for Panchen Lama, two Tibetans sentenced in 
Sershul, Tibet], Voice of Tibet, May 9, 2019; ``Three Tibetans Are 
Detained for Calling for Panchen Lama's Release,'' Radio Free Asia, 
April 30, 2019. For more information on Wangchen, see the Commission's 
Political Prisoner Database record 2019-00174.
    \101\ ``Tibetan Man, Aunt Sentenced for Panchen Lama Protest in 
Sichuan,'' Radio Free Asia, May 8, 2019; Free Tibet, ``Tibetans 
Sentenced to Prison after Panchen Lama Gathering,'' May 9, 2019. For 
more information on Drolkar, see the Commission's Political Prisoner 
Database record 2019-00178.
    \102\ Tom Phillips, ``Jokhang Temple: Fire Engulfs Ancient `Heart' 
of Tibetan Buddhism,'' Guardian, February 17, 2018; ``Fire Put Out in 
Jokhang Temple in China's Tibet,'' Xinhua, February 17, 2018; CECC, 
2018 Annual Report, October 10, 2018, 298.
    \103\ Free Tibet, ``The Jokhang Fire Four Months On,'' June 22, 
2018.
    \104\ Free Tibet, ``The Jokhang Fire Four Months On,'' June 22, 
2018; Nithin Coca, ``China's Digital Wall Around Tibet,'' Coda Story, 
May 16, 2019.
    \105\ See e.g., ``Jokhang Temple Holds Tibetan Calligraphy 
Exhibition for First Time,'' Xinhua, April 30, 2019; ``Efforts Underway 
to Map Tibet's Jokhang Temple,'' Xinhua, April 7, 2019; ``U.S. 
Ambassador Urges China to Talk to the Dalai Lama,'' Reuters, May 25, 
2019.
    \106\ ``Chinese Authorities Detain Tibetan Student Who Decried Lack 
of Government Jobs in Tibet,'' Radio Free Asia, April 16, 2019; Karma 
Tenzin, ``China's White Paper on Education in Tibet: The Missing 
Facts,'' Bitter Winter, May 9, 2019. For more information on Sonam 
Lhundrub, see the Commission Political Prisoner Database record 2019-
00175.
    \107\ Tibetan Centre for Human Rights and Democracy, Annual Report 
2018--Human Rights Situation in Tibet, May 2019, 25-26; International 
Covenant on Civil and Political Rights (ICCPR), adopted by UN General 
Assembly resolution 2200A (XXI) of December 16, 1966, entry into force 
March 23, 1976, art. 12; United Nations Treaty Collection, Chapter IV, 
Human Rights, International Covenant on Civil and Political Rights, 
accessed July 23, 2019. China has signed but not ratified the ICCPR.
    \108\ ``Chinese Authorities Tighten Restrictions in Qinghai amid 
Tibetan Uprising Anniversaries,'' Radio Free Asia, March 14, 2019; 
``Tibetan Migration into India Down to a Trickle,'' Voice of America, 
July 2, 2018; UN Human Rights Council, Summary of Stakeholders' 
Submissions on China, Report of the Office of the United Nations High 
Commissioner for Human Rights, A/HRC/WG.6/31/CHN/3*, September 3, 2018, 
paras. 64, 67.
    \109\ Tibetan Centre for Human Rights and Democracy, Annual Report 
2018--Human Rights Situation in Tibet, May 2019, 25.
    \110\ ``Tibetan Passport Restrictions Limit Attendance at Dalai 
Lama Prayer Gathering,'' Radio Free Asia, December 26, 2018; Free 
Tibet, ``Hundreds of Tibetans Ordered to Immediately Return from 
Pilgrimage Sites,'' January 4, 2019.
    \111\ Tenzin Saldon, Central Tibetan Administration, ``Travel 
Restrictions on Tibetans Persist despite International Outcry against 
China,'' January 2, 2019.
    \112\ Tibetan Centre for Human Rights and Democracy, Annual Report 
2018--Human Rights Situation in Tibet, May 2019, 26.
    \113\ Tenzin Saldon, Central Tibetan Administration, ``Travel 
Restrictions on Tibetans Persist despite International Outcry against 
China,'' January 2, 2019; Tibetan Centre for Human Rights and 
Democracy, Annual Report 2018--Human Rights Situation in Tibet, May 
2019, 26. See also CECC, 2018 Annual Report, October 8, 2018, 298-99.
    \114\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``Country Reports on Human Rights Practices for 2018--China 
(Includes Tibet, Hong Kong, and Macau),'' March 13, 2019, 83.
    \115\ Ibid.
    \116\ Tibetan Centre for Human Rights and Democracy, Annual Report 
2018--Human Rights Situation in Tibet, May 2019, 26.
    \117\ Ibid.
    \118\ UN Human Rights Council, Summary of Stakeholders' Submissions 
on China, Report of the Office of the United Nations High Commissioner 
for Human Rights, A/HRC/WG.6/31/CHN/3*, September 3, 2018.
    \119\ Zhang Zhihao and Cui Jia, ``Tibet to Get Five National 
Parks,'' China Daily, March 12, 2019; Stephen Chen, ``China Plans 
World's Biggest National Park on Tibetan Plateau,'' South China Morning 
Post, April 22, 2017.
    \120\ International Campaign for Tibet, ``Damming Tibet's Rivers: 
New Threats to Tibetan Areas under UNESCO Protection,'' May 30, 2019, 
1; Central Tibetan Administration, ``Tibet Was Never a Part of China, 
but the Middle Way Approach Remains a Viable Solution,'' October 2018, 
135, 142-43, 149, 151-53; Ambika Choudhary Mahajan, Central Tibetan 
Administration, ``Tibetan Nomads Forcibly `Resettled' by China Struggle 
with Loss of an Over 8,000-Year-Old Heritage,'' April 6, 2019.
    \121\ The Hindu Kush Himalaya Assessment: Mountains, Climate 
Change, Sustainability and People, eds. Philippus Wester et al. (Cham: 
Springer Open, 2019), 23, 65; Central Tibetan Administration, ``Tibet 
Was Never a Part of China, but the Middle Way Approach Remains a Viable 
Solution,'' October 2018, 135, 138-42; Office of Tibet, ``Backgrounder: 
Climate Action for Tibet,'' accessed July 20, 2019. See also Michael 
Buckley, Meltdown in Tibet (New York: Palgrave Macmillan, 2014), 106-8.
    \122\ Dechen Palmo, ``The World's Third Pole Is Melting,'' The 
Diplomat, March 28, 2019; Central Tibetan Administration, ``Tibet Was 
Never a Part of China, but the Middle Way Approach Remains a Viable 
Solution,'' October 2018; Office of Tibet, ``Backgrounder: Climate 
Action for Tibet,'' accessed July 3, 2019.
    \123\ Tenzin Sangmo, ``World Water Day: China's Damming of Rivers 
in Tibet Continues to Violate the Water Rights of the Downstream 
Countries,'' Phayul, March 22, 2019. See also Michael Buckley, Meltdown 
in Tibet (New York: Palgrave Macmillan, 2014), 167-87.
    \124\ ``Capital City Lhasa Leads Poverty Reduction in Tibet,'' 
Xinhua, January 7, 2019; State Council Information Office, ``Great 
Leap: Democratic Reform in Tibet--Sixty Years On,'' March 2019, 24.
    \125\ ``Tibetan Nomads in Chamdo Forced from Their Land in 
Resettlement Scheme,'' Radio Free Asia, January 23, 2019.
    \126\ ``Tibetan Villagers Forced from Their Homes in Gonjo 
County,'' Radio Free Asia, April 4, 2019.
    \127\ ``Tibetans Relocated from Ancestral Land Face Hardships in 
City Life,'' Radio Free Asia, May 1, 2019.
    \128\ ``Tibetan Villagers Evicted to Make Room for New Airport,'' 
Radio Free Asia, May 16, 2019.
    \129\ ``Four Tibetan Monks Detained Over Land Protest in Ngaba,'' 
Radio Free Asia, September 17, 2018; ``Xizang Aba wu ming sengren buman 
zhengfu shigong yingxiang siyuan hou zao jingfang jubu'' [Five Tibetan 
monks from Aba detained by police after [expressing] dissatisfaction 
with government construction effect on monastery], Voice of Tibet, 
September 18, 2018. For more information on the five monks, see the 
following records in the Commission's Political Prisoner Database: 
2018-00466 on Nyida, 2018-00467 on Kalsang, 2018-00468 on Nesang, 2018-
00469 on Choeje, and 2018-00470 on Shakya.
    \130\ ``Tibetan Villagers Evicted to Make Room For New Airport,'' 
Radio Free Asia, May 16, 2019.


                                                Developments in 
                                                 Hong Kong and 
                                                          Macau
                                                Developments in 
                                                Hong Kong and 
                                                Macau

                VI. Developments in Hong Kong and Macau


                                Findings

        <bullet> The Commission observed a further erosion of 
        Hong Kong's autonomy and fundamental freedoms under the 
        ``one country, two systems'' framework. The Hong Kong 
        government sought to advance changes to the territory's 
        extradition ordinance to allow the surrender of 
        individuals to mainland China and to empower the Chief 
        Executive to make decisions on fugitive arrangements on 
        a case-by-case basis without a vetting process in the 
        Legislative Council (LegCo). If passed, the bill would 
        expose local and foreign citizens transiting, visiting, 
        or residing in Hong Kong to the risk of being 
        extradited to mainland China.
        <bullet> A series of large-scale anti-extradition bill 
        and pro-democracy demonstrations took place in Hong 
        Kong beginning in late March 2019. Protests continued 
        despite the Hong Kong government's decision to 
        suspend--but not withdraw--consideration of the 
        extradition bill. Protesters demanded that the 
        government withdraw the extradition bill, retract the 
        characterization of protests on June 12 as a ``riot,'' 
        drop charges against all arrested protesters, establish 
        an independent commission of inquiry on police conduct, 
        and enact democratic reforms toward universal suffrage 
        in Hong Kong's Chief Executive and LegCo elections.
        <bullet> International and Hong Kong human rights 
        groups, journalists, and crowd-control experts noted 
        that the Hong Kong Police Force (HKPF) used excessive 
        force and inappropriately operated crowd-control 
        equipment in instances during the 2019 protests. The 
        HKPF fired projectiles including rubber bullets, bean 
        bag rounds, and pepper balls at close range; launched 
        tear gas canisters into crowded and enclosed areas and 
        from high buildings, did not give warning before firing 
        tear gas, and struck individuals with tear gas 
        canisters; and misused batons against protesters, 
        causing blunt force trauma. The HKPF's use of force 
        contravened international standards enumerated in the 
        United Nations Code of Conduct for Law Enforcement 
        Officials and the Basic Principles on the Use of Force 
        and Firearms for Law Enforcement Officials, both of 
        which require officials to avoid using force, or where 
        necessary, use the minimum extent of force at a 
        proportionate level.
        <bullet> The Chinese central government employed 
        propaganda, disinformation, and censorship in an 
        apparent attempt to shape reporting on the Hong Kong 
        protests, attributing the protests to influence by 
        ``foreign forces,'' and signaling threats to protesters 
        in Hong Kong. Central government authorities issued 
        directives to delete or promote certain content on all 
        websites and news media platforms and detained and 
        harassed citizens in mainland China who showed support 
        for the Hong Kong protests on their social media 
        accounts. The Chinese government's restrictions on 
        expression violate Article 19 of the International 
        Covenant on Civil and Political Rights guaranteeing the 
        right to freedom of expression.
        <bullet> Over the past year, the Hong Kong government 
        continued to reject the candidacy of LegCo and local 
        election nominees such as Lau Siu-lai and Eddie Chu 
        Hoi-dick based on their political beliefs and 
        associations, violating Article 21 of the Hong Kong 
        Bill of Rights Ordinance guaranteeing the right to 
        ``vote and be elected at genuine periodic elections.''
        <bullet> The Hong Kong government continued to pursue 
        criminal charges against leaders and participants of 
        public demonstrations, including the 2014 pro-democracy 
        protests (``Umbrella Movement''). In April 2019, a Hong 
        Kong court found nine leaders of the Umbrella Movement 
        guilty of charges related to ``public nuisance'' and 
        sentenced Benny Tai Yiu-ting and Chan Kin-man to one 
        year and four months in prison and Raphael Wong Ho-ming 
        and Shiu Ka-chun to eight months in prison.
        <bullet> The Commission did not observe progress in 
        Macau toward universal suffrage in the 2019 Chief 
        Executive (CE) election. Former Macau Legislative 
        Assembly president Ho Iat Seng--running as the only 
        candidate--won the CE election on August 25, 2019. Ho 
        received 392 out of 400 possible votes from the CE 
        Election Committee, many of whose members are 
        considered to be supporters of the central government.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Reassess whether Hong Kong authorities are ``legally 
        competent,'' in accordance with the U.S.-Hong Kong 
        Policy Act of 1992, to enforce the U.S.-Hong Kong 
        Extradition Treaty and other obligations in the act, 
        including support for U.S. businesses and the 
        protection of human rights.
          Enact the Hong Kong Human Rights and Democracy Act 
        (S. 417/H.R. 3856, 115th Cong., 1st Sess.) to monitor 
        the state of Hong Kong's autonomy from mainland China, 
        punish human rights violators, and reaffirm U.S. 
        government support for democracy in Hong Kong.
          Continue to advocate for Hong Kong pro-democracy 
        advocates who are serving prison sentences for their 
        role in peaceful demonstrations, such as Chan Kin-man. 
        Ask Chinese authorities about the whereabouts and 
        condition of Hong Kong bookseller Gui Minhai, a Swedish 
        citizen whom Chinese authorities are holding in 
        arbitrary detention in mainland China.
          Emphasize in meetings with Chinese and Hong Kong 
        officials that the continued erosion of Hong Kong's 
        autonomy, which is guaranteed in both the 1984 Sino-
        British Joint Declaration and the Basic Law under the 
        ``one country, two systems'' policy, threatens the 
        underpinnings of U.S. policy toward Hong Kong, 
        particularly Hong Kong's separate treatment under U.S. 
        law.
          Urge the Chinese and Hong Kong governments to restart 
        the electoral reform process and work toward 
        implementing Chief Executive and Legislative Council 
        elections by universal suffrage, in accordance with 
        Articles 45 and 68 of the Basic Law and Article 25 of 
        the International Covenant on Civil and Political 
        Rights (ICCPR).
          Call on the Chinese and Macau governments to set a 
        timeline for implementing elections in Macau for Chief 
        Executive and the Legislative Assembly by universal 
        suffrage, as required under Article 25 of the ICCPR.


                                                Developments in 
                                                 Hong Kong and 
                                                          Macau
                                                Developments in 
                                                Hong Kong and 
                                                Macau

                  Developments in Hong Kong and Macau


                   Introduction: Hong Kong's Autonomy

    Hong Kong's autonomy from the central government of the 
People's Republic of China (PRC) under the ``one country, two 
systems'' policy is defined by the 1984 Sino-British Joint 
Declaration (Declaration) and the Basic Law of the Hong Kong 
Special Administrative Region (Basic Law). In the Declaration, 
the governments of the PRC and the United Kingdom agreed that 
the Hong Kong government, under the ``one country, two 
systems'' framework,\1\ ``will enjoy a high degree of autonomy, 
except in foreign and defence affairs'' and be ``vested with 
executive, legislative and independent judicial power . . ..'' 
\2\ The Basic Law, the constitutional document of Hong Kong, 
details the implementation of social \3\ and economic \4\ 
systems, the protection of fundamental rights and freedoms,\5\ 
and the executive,\6\ legislative,\7\ and judicial systems in 
Hong Kong.'' \8\ The Basic Law enshrines the provisions of the 
International Covenant on Civil and Political Rights (ICCPR) 
and the International Covenant on Economic, Social, and 
Cultural Rights, and international labor conventions as they 
apply to Hong Kong.\9\ The United States-Hong Kong Policy Act 
of 1992 commits the United States to treating Hong Kong as a 
separate customs territory from the rest of China, so long as 
Hong Kong remains ``sufficiently autonomous.'' \10\ According 
to the act, ``[s]upport for democratization'' is fundamental to 
U.S. policy in Hong Kong \11\ and human rights ``are directly 
relevant to United States interests in Hong Kong'' and ``serve 
as a basis for Hong Kong's continued economic prosperity.'' 
\12\

               Erosion of Political Autonomy in Hong Kong

    During its 2019 reporting year, the Commission observed a 
further erosion of Hong Kong's autonomy and fundamental 
freedoms under the ``one country, two systems'' framework.\13\ 
Chinese government influence over the territory, and Hong Kong 
officials' willingness to comply with the interests of the 
Chinese government, continued an accelerated trend of decreased 
autonomy observed in recent years.\14\

          CHIEF EXECUTIVE ADVANCES CENTRAL GOVERNMENT POLICIES

    The Chief Executive (CE) of Hong Kong pursued policies that 
aligned with the interests of the Chinese central government. 
There were no signs within the past year of electoral reform to 
grant universal suffrage to Hong Kong people in electing the 
CE.\15\ Carrie Lam Cheng Yuet-ngor was elected CE in 2017 by a 
1,194-member Election Committee consisting of many members who 
are widely considered to be supporters of the central 
government.\16\ Lam's government promoted and implemented 
policies consistent with the central government's policy 
objectives this past year, especially greater economic 
integration with mainland China through the new Guangzhou-
Shenzhen-Hong Kong High Speed Rail (opened in September 
2018),\17\ a new Hong Kong-Zhuhai-Macau bridge (opened in 
October 2018),\18\ and the Greater Bay Area (GBA) project 
(official plan released in February 2019).\19\ The GBA project 
is a central government plan to create an innovation hub for 
science and technology by integrating the economic activities 
of cities in Guangdong province, Macau, and Hong Kong--three 
jurisdictions with separate customs, legal, and monetary 
systems.\20\ One Hong Kong-based observer expressed concern 
that the GBA project may negatively impact Hong Kong's 
autonomy, turning it into ``just another Chinese city'' that 
may not warrant special economic treatment by the United 
States.\21\

------------------------------------------------------------------------
                          National Anthem Bill
-------------------------------------------------------------------------
  After passing the PRC National Anthem Law in mainland China in
 September 2017,\22\ the National People's Congress Standing Committee
 (NPCSC) added the PRC National Anthem Law to Annex III of the Basic Law
 of Hong Kong and Macau in November 2017,\23\ requiring the Hong Kong
 and Macau governments to prepare local national anthem legislation in
 accordance with the central government's law.\24\ Chinese laws do not
 apply to Hong Kong except for those listed in Annex III.\25\ In January
 2019, the Hong Kong government introduced the National Anthem Bill to
 the Legislative Council amid concerns that the bill would stifle
 freedom of expression in Hong Kong.\26\ According to the bill, those
 who ``misuse'' or ``insult'' the Chinese national anthem could face a
 fine of up to HK$50,000 (approximately US$6,370), imprisonment for
 three years, or both.\27\ Observers said that the move by the central
 government to use Annex III to insert a law unrelated to defense and
 foreign affairs was ``unprecedented'' \28\ and warned that more laws
 passed by the NPCSC may become applicable to Hong Kong in the
 future.\29\ In June 2019, the Constitutional and Mainland Affairs
 Bureau decided not to send the National Anthem Bill to its second
 reading in the LegCo before the end of the legislative calendar year,
 which ended in July 2019.\30\
------------------------------------------------------------------------

         RESTRICTIONS ON PRO-DEMOCRACY CANDIDATES IN ELECTIONS

    The Hong Kong government continued to reject the candidacy 
of Legislative Council (LegCo) and local election nominees 
based on their political beliefs and association. In October 
2018, the Hong Kong government denied Lau Siu-lai, one of the 
six elected lawmakers who lost their seats in 2016 and 2017, 
from running in the November 2018 LegCo by-election for Kowloon 
West, the district in which she had previously won her 
seat.\31\ The election officer Franco Kwok Wai-fun cited the 
High Court ruling of July 2017 that disqualified Lau from 
LegCo, stating that she could not sincerely take her oath of 
office.\32\ Kwok also cited Lau's past support for ``self-
determination'' in Hong Kong as a ground for 
disqualification.\33\ Similarly, in December 2018, the Hong 
Kong government rejected pro-democracy lawmaker Eddie Chu Hoi-
dick's nomination to run as a candidate in the village 
representative election for Yuen Kong San Tsuen in Yuen Long 
district, based on his past promotion of ``democratic self-
determination'' for Hong Kong.\34\ Enoch Yuen, the election 
officer who invalidated Chu's nomination, said that Chu's 
political stance and remarks cast doubt on whether he 
``acknowledged PRC's sovereignty over [Hong Kong] and hence 
whether he genuinely upheld the [Basic Law].'' \35\ The 
government's rejection of certain candidates from running in 
elections violates Article 21 of the Hong Kong Bill of Rights 
Ordinance and Article 25 of the ICCPR guaranteeing the right 
``to vote and to be elected at genuine periodic elections.'' 
\36\

------------------------------------------------------------------------
       2019 Anti-Extradition Bill and Pro-Democracy Demonstrations
-------------------------------------------------------------------------
  The Extradition Bill. The Hong Kong government formally introduced an
 extradition bill in the Legislative Council (LegCo) on April 3,
 2019.\37\ The proposed changes to the Fugitive Offenders Ordinance and
 the Mutual Legal Assistance in Criminal Matters Ordinance would allow
 case-based arrangements for the extradition of suspects to
 jurisdictions with which it has no extradition agreements, including
 mainland China.\38\ Civil society groups,\39\ businesses,\40\
 lawyers,\41\ and international human rights organizations \42\
 expressed concern that the amendments would compromise the rule of law
 in Hong Kong and subject the people of Hong Kong to the opaque criminal
 justice system in mainland China where they could face unfair trials,
 torture, and other serious human rights violations.
  Widespread Protests. A series of large-scale anti-extradition bill and
 pro-democracy demonstrations took place in Hong Kong beginning in late
 March 2019.\43\ On June 9, an estimated 1.03 million Hong Kong people
 according to organizers (240,000 according to the Hong Kong police),
 participated in demonstrations against the extradition bill.\44\ On
 June 12, the scheduled date of the second reading of the bill in
 LegCo,\45\ tens of thousands of demonstrators surrounded government
 offices in the Admiralty district of Hong Kong demanding that the
 government withdraw the extradition bill from consideration.\46\ Police
 officers deployed rubber bullets, tear gas, pepper spray, and a water
 cannon against protesters amid clashes \47\ and Hong Kong Police
 Commissioner Stephen Lo declared the protest a ``riot.'' \48\ LegCo
 canceled the scheduled meeting.\49\ On June 16, a day after the
 government suspended the bill from consideration,\50\ an estimated two
 million people (338,000 according to the Hong Kong police) participated
 in a demonstration \51\ and made five demands of the government: 1)
 withdraw the extradition bill; 2) investigate police violence; 3) drop
 charges against all arrested protesters; 4) retract the
 characterization of the June 12 protests as a ``riot''; and 5) compel
 the resignation of Chief Executive Carrie Lam.\52\ Over the following
 months, anti-extradition bill protesters and groups such as
 lawyers,\53\ civil servants,\54\ financial workers,\55\ airport
 staff,\56\ medical professionals,\57\ teachers,\58\ and students \59\
 separately organized peaceful marches,\60\ rallies,\61\ strikes,\62\
 fundraising campaigns \63\ and other forms of demonstrations \64\ in
 different districts in Hong Kong. Protesters expanded demands to
 include the establishment of an independent commission of inquiry on
 police conduct \65\ and democratic reforms toward universal suffrage in
 Hong Kong's Chief Executive and LegCo elections.\66\
------------------------------------------------------------------------


------------------------------------------------------------------------
 2019 Anti-Extradition Bill and Pro-Democracy Demonstrations--Continued
-------------------------------------------------------------------------
  Excessive Use of Force by Hong Kong Police Force. International and
 Hong Kong human rights groups,\67\ journalists, and crowd-control
 experts \68\ noted that the Hong Kong Police Force (HKPF) used
 excessive force and inappropriately operated crowd-control equipment in
 some instances during the 2019 protests. The HKPF fired projectiles
 including rubber bullets, beanbag rounds, and pepper balls at close
 range; \69\ launched tear gas canisters into crowded and enclosed areas
 and from high buildings, did not give warning before firing tear gas,
 and struck individuals with tear gas canisters; \70\ and misused batons
 against protesters, causing blunt force trauma.\71\
  International and local journalist associations expressed concerns
 about the HKPF's treatment of journalists during protests, including
 firing tear gas at reporters, physically and verbally assaulting
 journalists, and conducting unjustified searches.\72\ The HKPF's use of
 force contravened international standards enumerated in the United
 Nations Code of Conduct for Law Enforcement Officials \73\ and the
 Basic Principles on the Use of Force and Firearms for Law Enforcement
 Officials,\74\ both of which require officials to avoid using force, or
 where necessary, use the minimum extent of force at a proportionate
 level. The Office of the UN High Commissioner for Human Rights
 ``reviewed credible evidence of law enforcement officials employing
 less-lethal weapons in ways that are prohibited by international norms
 and standards,'' and urged the Hong Kong government to not only
 ``investigate these incidents immediately'' but also to ``act with
 restraint.'' \75\
  Gang Attacks and Violence. Groups of men, some confirmed to be members
 of criminal syndicates with suspected links to the Chinese Communist
 Party,\76\ attacked Hong Kong residents and protesters on various
 occasions.\77\ Notably, on July 21, a mob armed with wooden poles,
 rattan sticks, and metal pipes indiscriminately attacked residents at
 the Yuen Long MTR subway station, resulting in 45 people being
 hospitalized.\78\ Police officers did not arrive on scene and respond
 until around 45 minutes after the attack, which prompted accusations
 from observers of police apathy and collusion with the attackers.\79\
 Ten days prior to the attack, an official from the Liaison Office of
 the Central People's Government in Hong Kong had urged local community
 leaders to ``prevent protesters from causing trouble in Yuen Long.''
 \80\ Some anti-extradition bill protesters engaged in radical actions
 during demonstrations, such as vandalizing government buildings,\81\
 violently clashing with HKPF officers,\82\ and assaulting two
 individuals identified as a public security official from mainland
 China and a reporter for Global Times, a Party-run news outlet.\83\
------------------------------------------------------------------------


------------------------------------------------------------------------
 2019 Anti-Extradition Bill and Pro-Democracy Demonstrations--Continued
-------------------------------------------------------------------------
  Selective Arrests and Prosecution. By September 1, the HKPF had
 reportedly arrested more than 1,100 participants, activists, and pro-
 democracy LegCo members in connection with the protests.\84\ Charges
 included ``rioting,'' \85\ ``unlawful assembly,'' \86\ ``assaulting a
 police officer,'' \87\ ``possessing offensive weapons,'' \88\ and other
 offenses.\89\ Prosecutors, lawyers, and protesters expressed concern
 that arrests and prosecution of anti-extradition bill demonstrators
 were selective and politically driven.\90\ For example, in contrast to
 the 23 people linked to criminal syndicates arrested in connection with
 the July 21 Yuen Long attack who were charged with ``unlawful
 assembly,'' hundreds of arrested demonstrators were charged with
 ``rioting,'' a charge carrying a punishment of up to ten years.\91\
  Central Government Manipulation of the Media. The central government
 employed propaganda, disinformation, and censorship in an apparent
 attempt to shape reporting on the Hong Kong protests,\92\ attributing
 the protests to influence by ``foreign forces,'' \93\ and signaling
 threats to protesters in Hong Kong.\94\ Central government authorities
 reportedly issued directives to delete or promote certain content on
 all websites and news media platforms \95\ and detained and harassed
 citizens in mainland China who showed support for the Hong Kong
 protests on their social media accounts.\96\ The Chinese government's
 restrictions on expression violate Article 19 of the International
 Covenant on Civil and Political Rights guaranteeing the right to
 freedom of expression.\97\
------------------------------------------------------------------------

               Government Prosecution in Hong Kong Courts

    The Hong Kong government continued to pursue prosecutions 
against leaders and participants of public demonstrations, 
including the 2014 pro-democracy protests, also known as the 
``Umbrella Movement,'' this past year.\98\

                     UMBRELLA MOVEMENT PROSECUTIONS

    Since the end of the Umbrella Movement in 2014, the Hong 
Kong government has filed 48 legal cases against 33 pro-
democracy leaders.\99\ Of these cases, 23 were brought against 
16 LegCo members.\100\ From November to December 2018, nine 
leaders of the Umbrella Movement (``the Umbrella Nine''), Benny 
Tai Yiu-ting, Chu Yiu-ming, Chan Kin-man, Lee Wing-tat, Shiu 
Ka-chun, Tanya Chan, Raphael Wong Ho-ming, Tommy Cheung Sau-
yin, and Eason Chung Yiu-wah, were tried on public nuisance-
related charges under common law, which carry up to seven years 
in prison, a much heavier penalty compared to a maximum of 
three months in prison under statutory law.\101\ In April 2019, 
the Hong Kong District Court found all nine guilty \102\ and 
sentenced Tai and Chan to one year and four months' 
imprisonment \103\ and Shiu and Wong to eight months' 
imprisonment.\104\ On August 15, Tai was released on bail 
pending appeal.\105\
    International human rights organizations and observers 
warned that the charges and verdicts against the Umbrella Nine 
not only infringed on the rights of Hong Kong people to the 
freedom of assembly and expression,\106\ but also serve as 
precedent to prosecute other Umbrella Movement participants and 
pro-democracy protesters.\107\ Sophie Richardson, China 
Director at Human Rights Watch, said that prosecutions against 
pro-democracy leaders ``raise further questions about Hong Kong 
authorities' moves to politicize the courts.'' \108\ The Hong 
Kong-based Progressive Lawyers Group assessed in a report that, 
``the resort to criminal proceedings to criminalize the pro-
democracy movement to an unprecedented extent in Hong Kong has 
given rise to serious concerns of political persecution through 
prosecution.'' \109\

    PROSECUTIONS AGAINST PARTICIPANTS IN THE NOVEMBER 2016 PROTESTS

    The Hong Kong government continued prosecuting nine leaders 
of the November 2016 demonstrations against the central 
government's National People's Congress Standing Committee 
(NPCSC) interpretation of the Basic Law,\110\ which requires 
public officials to take their oaths ``sincerely'' and 
``solemnly.'' \111\ The central government issued the 
interpretation while a Hong Kong court was considering the Hong 
Kong government's case against legislators-elect Sixtus 
``Baggio'' Leung and Yau Wai-ching, who altered their oaths 
during an oath-taking ceremony in October 2016.\112\ Nine 
leaders and participants in the demonstrations, including Avery 
Ng Man-yuen, Dickson Chau Ka Fat, Sammy Yip Chi Hin, Chan Man 
Wai, Lo Tak Cheong, Cheng Pui Lun, Chow Shu Wing, Derek Lam, 
and Ivan Lam, were tried on a variety of charges such as 
``inciting unlawful assembly,'' ``unlawful assembly,'' 
``obstructing police,'' and ``assaulting police'' from July to 
November 2018.\113\ In May 2019, a court found six out of nine 
guilty in connection with their roles in the protests.\114\

                          Fundamental Freedoms

    The Hong Kong government continued to violate fundamental 
freedoms enshrined in the Basic Law this past year. The central 
government's interference in Hong Kong's political affairs, and 
the Hong Kong government's limitations on the freedoms of 
expression, association, and assembly, raised alarms among 
foreign governments,\115\ local groups,\116\ and international 
human rights organizations.\117\

        <bullet> Hong Kong Designated as ``Partly Free.'' 
        Freedom House's 2019 Freedom in the World report, 
        citing the lack of universal suffrage in the electoral 
        process and limitations to civil and political rights, 
        rated Hong Kong as ``partly free'' with a score of 59 
        out of 100 in its aggregate freedom score (100 being 
        ``most free'').\118\ In the 2019 World Press Freedom 
        Index by Reporters Without Borders, Hong Kong's press 
        freedom ranking fell three places to 73 out of 180 
        territories assessed.\119\ The Hong Kong Journalists 
        Association's surveys on press freedom in 2018 found 
        that public perception of press freedom in Hong Kong 
        was at an all-time low, while journalists perceived the 
        central government's interference in Hong Kong to be 
        the major contributing factor in the erosion of press 
        freedom.\120\
        <bullet> Government Ban of Hong Kong National Party. On 
        September 24, 2018, the Hong Kong Secretary for 
        Security officially banned the Hong Kong National Party 
        (HKNP), a small pro-independence political party,\121\ 
        by applying a provision in the Societies Ordinance 
        \122\--a British colonial-era law intended to prohibit 
        organizations like the Chinese Communist Party and the 
        Nationalist Party (Kuomintang) \123\--that allows the 
        prohibition of a group on grounds related to ``national 
        security'' and ``public safety.'' \124\ According to 
        U.K.-based human rights organization Hong Kong Watch, 
        the Societies Ordinance places ``excessive restrictions 
        on freedom of expression and association'' against the 
        government's political opposition and should be revised 
        to better define what constitutes a ``national security 
        threat.'' \125\
        <bullet> Government Denial of Victor Mallet's Visa 
        Renewal. In October 2018, Hong Kong authorities denied 
        the visa renewal request of Financial Times Asia editor 
        Victor Mallet,\126\ sparking an international outcry 
        regarding the increasingly restrictive press 
        environment in Hong Kong and the negative implications 
        for foreign journalists working in the city.\127\ 
        Reports tied the rejection to Mallet's role as the vice 
        president of the Foreign Correspondent's Club of Hong 
        Kong (FCCHK) in hosting an event months earlier, which 
        featured Andy Chan, pro-independence advocate, founder 
        of the HKNP, and critic of the central government in 
        mainland China.\128\ Human rights organizations 
        condemned the Hong Kong government's treatment of 
        Mallet as retaliation for facilitating the FCCHK 
        event.\129\
        <bullet> Increased Pressure on Artists, Writers, and 
        Singers. Freedom of expression in Hong Kong's 
        entertainment and creative arts sectors came under 
        pressure in the past year. In November 2018, organizers 
        Hong Kong Free Press, Amnesty International, and 
        Reporters Without Borders canceled a show in Hong Kong 
        featuring dissident artist Badiucao, an Australian 
        cartoonist of Chinese descent, over ``safety concerns'' 
        after authorities from the central government 
        reportedly made threats against the artist.\130\ In the 
        same month, the Tai Kwun Center for Heritage and Arts 
        in Hong Kong reportedly canceled two events featuring 
        Chinese dissident novelist Ma Jian, but later reversed 
        the decision and hosted Ma as originally 
        scheduled.\131\ Reports in April 2019 revealed that 
        Apple Music's mainland China services removed a song by 
        pop star Jacky Cheung with references to the 1989 
        Tiananmen protests and songs by Hong Kong singers 
        Denise Ho and Anthony Wong, who were supporters of the 
        2014 pro-democracy protests in Hong Kong.\132\

                                 Macau

    Macau's Basic Law does not provide for elections by 
``universal suffrage,'' \133\ although its provisions ensure 
the applicability of the International Covenant on Civil and 
Political Rights (ICCPR) in Macau \134\ and guarantee Macau a 
``high degree of autonomy'' within China.\135\ During its 2019 
reporting year, the Commission did not observe progress in 
Macau toward universal suffrage in the 2019 Chief Executive 
(CE) election.\136\ Former Macau Legislative Assembly president 
Ho Iat Seng--running as the only candidate--won the CE election 
on August 25, 2019.\137\ Ho received 392 out of 400 possible 
votes from the CE Election Committee, many of whose members are 
considered to be supporters of the central government.\138\
    This past year, the Macau government continued to 
``securitize'' the city against pro-democracy forces that might 
challenge the central government's rule. In September 2018, the 
government established a new National Defense Commission to 
``[safeguard] national security'' and assess the city's broader 
``social stability'' out of concerns regarding pro-independence 
advocacy in Hong Kong.\139\ In October 2018, the Macau 
Legislative Assembly (AL) approved the government's plans for a 
Cybersecurity Bill, which critics said would undermine freedom 
of expression in the city and allow the Macau government to 
``monitor, sensor, block and delete online speech.'' \140\ In 
June 2019, the AL passed the Cybersecurity Bill into law,\141\ 
effective December 2019.\142\
    In January 2019, the AL passed an amendment to the Macau 
Special Administrative Region's 1999 National Anthem Law 
(effective June 2019), making acts disrespectful of the Chinese 
national anthem punishable by up to three years in prison.\143\ 
Three pro-democracy legislators voted against the bill, in 
particular citing their opposition to the provision that some 
interpret as requiring local media outlets to assist the 
government in carrying out ``promotion'' (xuanchuan) campaigns 
for the national anthem.\144\ The Macau Journalists Association 
also opposed the same provision, declaring that the media is 
not ``the propaganda machine of the regime, and it has no 
obligation to cooperate.'' \145\


                                                Developments in 
                                                 Hong Kong and 
                                                          Macau
                                                Developments in 
                                                Hong Kong and 
                                                Macau
    Notes to Section VI--Developments in Hong Kong and Macau

    \1\ Basic Law of the Hong Kong Special Administrative Region of the 
People's Republic of China, passed April 4, 1990, effective July 1, 
1997, preamble. See also Instrument 8 under Annex III of the Basic Law 
on ``one country, two systems'' as a guiding policy for the 
establishment of the Hong Kong Special Administrative Region.
    \2\ Joint Declaration of the Government of the United Kingdom of 
Great Britain and Northern Ireland and the Government of the People's 
Republic of China on the Question of Hong Kong, adopted December 19, 
1984, item 3(2)-(3).
    \3\ Basic Law of the Hong Kong Special Administrative Region of the 
People's Republic of China, passed April 4, 1990, effective July 1, 
1997, arts. 136-149.
    \4\ Ibid., arts. 105-127.
    \5\ Ibid., arts. 24-42.
    \6\ Ibid., arts. 43-65.
    \7\ Ibid., arts. 66-79.
    \8\ Ibid., arts. 80-96.
    \9\ Ibid., art. 39.
    \10\ United States-Hong Kong Policy Act, 22 U.S.C., chap. 66 
(1992), sec. 5722, item (a).
    \11\ Ibid., sec. 5701, item 5.
    \12\ Ibid., sec. 5701, item 6.
    \13\ For more information on Hong Kong's ``one country, two 
systems'' policy, see National People's Congress, ``Explanations on 
`The Basic Law of the Hong Kong Special Administrative Region of the 
People's Republic of China (Draft)' and Its Related Documents,'' March 
28, 1990. This document is also included as Instrument 8 under Annex 
III of the Basic Law of the Hong Kong Special Administrative Region of 
the People's Republic of China.
    \14\ See, e.g., Benedict Rogers, ``Hong Kong Needs the World's 
Help,'' The Diplomat, April 3, 2019; Maya Wong, Human Rights Watch, 
``China's Fast Train to Erode Hong Kong's Autonomy,'' June 17, 2018; 
Stephan Ortmann, ``Xi Jinping's New Era and Hong Kong's Declining 
Autonomy,'' Asia Dialogue, University of Nottingham Asia Policy 
Institute, October 26, 2017.
    \15\ Freedom House, ``Hong Kong'' in Freedom in the World 2019, 
February 2019.
    \16\ Richard Bush, Brookings Institution, ``Another Hong Kong 
Election, Another Pro-Beijing Leader--Why It Matters,'' March 29, 2017. 
See also CECC, 2017 Annual Report, October 5, 2017, 319-20.
    \17\ Eric Cheung, ``Launch of HK-China High-Speed Rail Link Goes 
Smoothly, but Fears Remain,'' CNN, September 23, 2018. See also ``Neidi 
yu Xianggang Tebie Xingzhengqu guanyu zai Guang Shen Gang Gaotie 
Jiulong Zhan sheli kou'an shishi `yidi liangjian' de hezuo anpai'' 
[Cooperation plan for mainland and Hong Kong Special Administrative 
Region regarding the implementation of ``co-location'' at the 
Guangzhou-Shenzhen-Hong Kong High Speed Rail West Kowloon Station], 
November 18, 2017, reprinted in National People's Congress, December 
28, 2017.
    \18\ ``Hong Kong-Zhuhai Bridge: World's Longest Sea Bridge Opens to 
Quiet Start,'' BBC, October 24, 2018; Luis Liu and An Baijie, ``Bridge 
Hailed as Key to Bay Area,'' China Daily, October 24, 2018.
    \19\ ``Gaiyao'' [About], Greater Bay Area official website, 
accessed May 23, 2019; ``Outline Development Plan for the Guangdong-
Hong Kong-Macao Greater Bay Area (English),'' Greater Bay Area official 
website, accessed May 23, 2019; Kimmy Chung and Catherine Wong, 
``Greater Bay Area Has Potential to Rival Both Silicon Valley and Wall 
Street, Says Hong Kong Leader Carrie Lam at Beijing Forum,'' South 
China Morning Post, March 25, 2019.
    \20\ David Tweed, Yinan Zhao, and Edwin Chan, ``China Plans to Turn 
Hong Kong and Macau into a Silicon Valley Rival,'' Time, February 19, 
2019; Kimmy Chung and Catherine Wong, ``Greater Bay Area Has Potential 
to Rival Both Silicon Valley and Wall Street, Says Hong Kong Leader 
Carrie Lam at Beijing Forum,'' South China Morning Post, March 25, 
2019.
    \21\ ``China's Master-Plan Rings Alarm Bells in Hong Kong,'' 
Economist, February 21, 2019; Kimmy Chung and Catherine Wong, ``Greater 
Bay Area Has Potential to Rival Both Silicon Valley and Wall Street, 
Says Hong Kong Leader Carrie Lam at Beijing Forum,'' South China 
Morning Post, March 25, 2019.
    \22\ Zhonghua Renmin Gongheguo Guoge Fa [PRC National Anthem Law], 
passed September 1, 2017, effective October 1, 2017.
    \23\ Liu Huan, ``Guoge Fa lieru Xianggang, Aomeng Tebie Xingzhengqu 
Jiben Fa Fujian San'' [National Anthem Bill listed in Annex 3 of the 
Basic Laws of Hong Kong and Macau Special Administrative Regions], 
Xinhua, November 4, 2017; National People's Congress, Quanguo Renmin 
Daibiao Dahui Changwu Weiyuanhui Guanyu Zengjia ``Zhonghua Renmin 
Gongheguo Xianggang Tebie Xingzhengqu Jiben Fa'' Fujian San Suolie 
Quanguoxing Falu De Jueding [National People's Congress Standing 
Committee Decision on Adding a National Law to Annex Three of the ``PRC 
Hong Kong Special Administrative Region Basic Law''], passed November 
4, 2017.
    \24\ Hong Kong Special Administrative Region, ``LCQ1: Enactment of 
a Local National Anthem Law,'' November 1, 2017; Ben Blanchard and 
Alexandra Harney, ``China Extends National Anthem `Disrespect' Law to 
Hong Kong,'' Reuters, November 4, 2017; ``Luoshi `Guoge Fa' de Aomen 
Tequ Fagui (Yi)'' [Realizing the ``National Anthem Law'' in Macau SAR 
Legislation (part 1)], Look News, February 11, 2019.
    \25\ Ambrose Leung, Research Office, Information Services Division, 
Legislative Council, Secretariat, ``Applying National Laws in Hong 
Kong,'' December 30, 2015.
    \26\ Legislative Council, ``National Anthem Bill,'' January 23, 
2019; Jessie Pang, ``Hong Kong Moves to Make Disrespecting Chinese 
National Anthem a Crime,'' Reuters, January 22, 2019; Natasha Khan, 
``Hong Kong Moves to Criminalize Disrespect of China's National 
Anthem,'' Wall Street Journal, January 9, 2019; Holmes Chan, ``Hong 
Kong Gov't Puts National Anthem Bill to Legislature, Says Law `Easy to 
Understand and Follow,' '' Hong Kong Free Press, January 23, 2019.
    \27\ Jessie Pang, ``Hong Kong Moves to Make Disrespecting Chinese 
National Anthem a Crime,'' Reuters, January 22, 2019; Legislative 
Council, ``National Anthem Bill,'' January 23, 2019, part 3, clauses 6-
7; Criminal Procedure Ordinance (Cap. 221), sec. 113B, schedule 8, 
level of fines for offenses.
    \28\ Kevin Carrico, Hong Kong Watch, ``Legal Malware: Hong Kong's 
National Anthem Ordinance,'' March 28, 2019.
    \29\ Violet Law, ``Hong Kong's Legislature Take Up China National 
Anthem Bill,'' Associated Press, January 23, 2019.
    \30\ Kris Cheng, ``Hong Kong Bill Criminalising Mockery of National 
Anthem to be Delayed Until at Least October,'' Hong Kong Free Press, 
June 20, 2019.
    \31\ Holmes Chan, `` `Gov't Twisted My Words': Lau Siu-lai Leads 
Democrats in Protest against Her Election Ban,'' Hong Kong Free Press, 
October 13, 2018.
    \32\ Holmes Chan, ``Hong Kong Bans Democrat Lau Siu-lai from 
Standing in Legislative By-Election,'' Hong Kong Free Press, October 
12, 2018.
    \33\ Ibid.
    \34\ Tom Grundy, ``Hong Kong Bans Pro-Democracy Lawmaker Eddie Chu 
from Running in Village Election,'' Hong Kong Free Press, December 2, 
2018.
    \35\ Ibid. See item 8 in the Returning Officer's decision.
    \36\ Hong Kong Bill of Rights Ordinance (Cap. 383), art. 21; 
International Covenant on Civil and Political Rights, adopted by UN 
General Assembly resolution 2200A (XXI) of December 16, 1966, entry 
into force March 23, 1976, art 25.
    \37\ Legislative Council of the Hong Kong Special Administrative 
Region, ``Legislative Council Brief: Fugitive Offenders and Mutual 
Legal Assistance in Criminal Matters Legislation (Amendment) Bill 
2019,'' SBCR 1/2716/19, item 16. The first reading is the formal 
introduction date of the bill. Austin Ramzy, ``Despite Fears about 
China, Hong Kong Pushes Ahead on Extradition Bill,'' New York Times, 
April 3, 2019.
    \38\ Legislative Council of the Hong Kong Special Administrative 
Region, ``Fugitive Offenders and Mutual Legal Assistance in Criminal 
Matters Legislation (Amendment) Bill 2019,'' Explanatory Memorandum, 
para. 1(b); Legislative Council of the Hong Kong Special Administrative 
Region, ``Legislative Council Brief: Fugitive Offenders and Mutual 
Legal Assistance in Criminal Matters Legislation (Amendment) Bill 
2019,'' SBCR 1/2716/19, items 7(b), 13(b), 15(a)(ii), 17. See also Hong 
Kong Bar Association, ``A Brief Guide to Issues Arising from the 
Fugitive Offenders and Mutual Legal Assistance in Criminal Matters 
Legislation (Amendment) Bill 2019,'' June 6, 2019; Michael C. Davis, 
``Debate over Hong Kong's Proposed Extradition Law Devolves into a 
Scuffle in the Legislative Council,'' Washington Post, May 11, 2019.
    \39\ ``Gang minjian tuanti fan xiuding taofan tiaoli danyou 
Xianggang cheng guoji jiaohuan renzhi jidi'' [Hong Kong civil groups 
oppose revision to fugitive bill, worry Hong Kong will become a 
location for hostage exchanges], Voice of America, February 21, 2019.
    \40\ American Chamber of Commerce in Hong Kong, ``Press Release: 
Fugitive Offenders Ordinance,'' March 29, 2019; Nikki Sun, ``Pressure 
Rises for Hong Kong to Drop Extradition Law Proposal,'' Nikkei Asian 
Review, March 11, 2019.
    \41\ Hong Kong Bar Association, ``Observations of the Hong Kong Bar 
Association (`HKBA') on the Security Bureau's Proposal to Amend the 
Mutual Legal Assistance in Criminal Matters Ordinance, Cap. 525 
(`MLAO') and the Fugitive Offenders Ordinance, Cap. 503 (`FOO'),'' 
March 4, 2019; Jason Y. Ng, Progressive Lawyers Group, ``Dangerous and 
Unnecessary: Why Hong Kong's Extradition Proposal Is a Legislative 
Menace,'' Hong Kong Free Press, March 3, 2019.
    \42\ Human Rights Watch, ``Hong Kong: Scrap Proposed Extradition 
Changes,'' October 10, 2018.
    \43\ Holmes Chan, ``In Pictures: 12,000 Hongkongers March in 
Protest against `Evil' China Extradition Law, Organizers Say,'' Hong 
Kong Free Press, March 31, 2019.
    \44\ Jennifer Creery, ``Over a Million Attend Hong Kong Demo 
against Controversial Extradition Law, Organisers Say,'' Hong Kong Free 
Press, June 9, 2019; Bonnie Au, ``Bird's-Eye View of Hong Kong Protest 
against Extradition Law Proposal,'' South China Morning Post, June 10, 
2019.
    \45\ Holmes Chan, ``Hong Kong Extradition Bill to Bypass 
Legislative Committee Scrutiny, as Gov't Fast-Tracks Controversial 
Law,'' Hong Kong Free Press, May 20, 2019; Legislative Council of the 
Hong Kong Special Administrative Region, ``Legislative Council Agenda, 
Wednesday 12 June 2019 at 11:00 am,'' A 18/19-36, June 12, 2019.
    \46\ Sum Lok-kei, ``Hong Kong Extradition Bill: Thousands of 
Protesters Block City Streets and Prepare for Worst as Riot Police 
Gather Nearby,'' South China Morning Post, June 12, 2019; ``Bricks, 
Bottles, and Tear Gas: Protesters and Police Battle in Hong Kong,'' New 
York Times, June 11, 2019; Julia Hollingsworth, ``Hong Kong Police 
Declare China Extradition Protest `A Riot' as Rubber Bullets and Tear 
Gas Fired at Crowd,'' CNN, June 12, 2019.
    \47\ Julia Hollingsworth, ``Hong Kong Police Declare China 
Extradition Protest `A Riot' as Rubber Bullets and Tear Gas Fired at 
Crowd,'' CNN, June 12, 2019; Helen Roxburgh, ``In Pictures: Protests 
over China Extradition Law Paralyse Hong Kong as Police Deploy Pepper 
Spray, Water Cannon,'' Agence France-Presse, reprinted in Hong Kong 
Free Press, June 12, 2019.
    \48\ Government of Hong Kong Special Administrative Region, 
``Jingfang caiqu xingdong zhizhi baodong'' [Police take actions to stop 
riot], June 12, 2019; Shanshan Kao and Chieu Luu, ``Hong Kong Police 
Chief Declares Anti-Extradition Bill Protests a `Riot,' Raising Stakes 
for Those Arrested,'' South China Morning Post, June 12, 2019; Julia 
Hollingsworth, ``Hong Kong Police Declare China Extradition Protest `A 
Riot' as Rubber Bullets and Tear Gas Fired at Crowd,'' CNN, June 12, 
2019.
    \49\ Government of the Hong Kong Special Administrative Region, 
``Council Meeting Not to Be Held Today,'' June 12, 2019.
    \50\ ``As It Happened: Carrie Lam Backs Down and `Suspends' Hong 
Kong Extradition Bill, Sets No New Timeframe,'' South China Morning 
Post, June 15, 2019.
    \51\ Helen Regan, Ben Westcott, Steve George, and James Griffith, 
``Hong Kong Protest Sees Hundreds of Thousands Call for City's Leader 
to Step Down,'' CNN, June 16, 2019; ``Huge Turnout by Protesters Keeps 
Heat on Hong Kong's Leader,'' New York Times, June 16, 2019.
    \52\ ``[6.16 da youxing] Minzhen: jin 200 wan ren jingfang: 
gaofengqi 33.8 wan ren'' [[June 16 demonstrations] CHRF: close to 2 
million people; police: 338,000 people at height], Stand News, June 16, 
2019; Civil Human Rights Front (Minjian renquan zhenxian), ``Lin Zheng 
xia tai, chehui efa, mingri sanba'' [Step down, Carrie Lam! Withdraw 
the extradition bill! Strike tomorrow!], Facebook post, June 16, 2019.
    \53\ See, e.g., Kris Cheng, ``Thousands of Hong Kong Lawyers Stage 
Rare Protests Urging End to Political Prosecutions during Anti-Gov't 
Demos,'' Hong Kong Free Press, August 7, 2019.
    \54\ See, e.g., Kimmy Chung, Su Xinqi, and Alvin Lum, ``Hong Kong 
Civil Servants Embarrass Government with Protest against Extradition 
Bill and Determination to `Stand Together with Citizens,' '' South 
China Morning Post, August 3, 2019.
    \55\ See, e.g., Ng Kang-chung, ``Banker Flash Mob in Hong Kong as 
Financial Sector Workers Gather in Chater Garden to Protest against 
Government Handling of Extradition Bill Crisis,'' South China Morning 
Post, August 1, 2019.
    \56\ See, e.g., Lily Kuo, ``Hong Kong Airport Staff Stage Protest 
against Yuen Long Attack,'' Guardian, July 26, 2019.
    \57\ See, e.g., Felix Tam and Greg Torode, ``Thousands of Hong Kong 
Civil Servants Defy Government to Join Protests,'' Reuters, August 1, 
2019; ``Hong Kong Hospital Workers Protest against Police Violence,'' 
Channel News Asia, August 13, 2019.
    \58\ See, e.g., Kanis Leung and Simone McCarthy, ``More than 22,000 
March in Teachers' Rally Supporting Hong Kong's Young Protesters, 
Organizers Say,'' South China Morning Post, August 17, 2019.
    \59\ See, e.g., Holmes Chan, ``Video: Exiled Activists Send 
Messages of Support for Hong Kong Protesters, as Students and Teachers 
Rally in Central,'' Hong Kong Free Press, August 17, 2019.
    \60\ See, e.g., Kris Cheng, ``Thousands of Hong Kong Lawyers Stage 
Rare Protests Urging End to Political Prosecutions during Anti-Gov't 
Demos,'' Hong Kong Free Press, August 7, 2019; Kanis Leung and Simone 
McCarthy, ``More than 22,000 March in Teachers' Rally Supporting Hong 
Kong's Young Protesters, Organizers Say,'' South China Morning Post, 
August 17, 2019.
    \61\ See, e.g., Jennifer Creery, `` `Democracy Now, Free Hong 
Kong': Thousands of Protesters Urge G20 to Back Anti-Extradition Law 
Movement,'' Hong Kong Free Press, June 26, 2019; Holmes Chan, ``Video: 
Exiled Activists Send Messages of Support for Hong Kong Protesters, as 
Students and Teachers Rally in Central,'' Hong Kong Free Press, August 
17, 2019.
    \62\ See, e.g., Kate Leung and Vimvam Tong, ``Hong Kong Shops, 
Workers in Rare Strike to `Defend Freedom,' '' Reuters, June 12, 2019; 
Kanis Leung, Tony Cheung, and Kimmy Chung, ``Hong Kong Braces for 
Largest Citywide Strike in Decades as 14,000 People from 20 Sectors Vow 
to Join Industrial Action to Protest against Government,'' South China 
Morning Post, August 4, 2019.
    \63\ See, e.g., Rowland Manthorpe, ``Hong Kong Protesters Raise 
<brit-pound>1.5m in a Day to Fund Global Ad Campaign,'' Sky News, 
August 13, 2019; Mary Hui, ``Hong Kong's Entrepreneurial Protesters Are 
Crowdfunding Everything from Doctors to Legal Fees,'' Quartz, July 16, 
2019.
    \64\ See, e,g., Kris Cheng, ``In Pictures: `Liberate Hong Kong'--
Anti-Extradition Protesters Stage Consulate `Marathon' to Lobby 
Leaders,'' Hong Kong Free Press, June 26, 2019; ``Protesters Form Human 
Chain across Hong Kong,'' RTHK, August 23, 2019.
    \65\ ``Cong `Taofan Tiaoli' dao wu da suqiu: Xianggang shiwei zui 
xin quanjing'' [From ``Extradition Bill'' to five major demands: most 
recent overview of Hong Kong protests], BBC, August 23, 2019; 
``Xianggang Zhi Lu shengming: wu da suqiu, que yi buke'' [Hong Kong Way 
statement: five major demands, not one less], inMedia HK, August 23, 
2019; ``HKFP Lens: Hongkongers Hit the Streets Again Demanding 
Independent Inquiry into Police Conduct,'' Hong Kong Free Press, July 
21, 2019.
    \66\ ``Cong `Taofan Tiaoli' dao wu da suqiu: Xianggang shiwei zui 
xin quanjing'' [From ``Extradition Bill'' to five major demands: most 
recent overview of Hong Kong protests], BBC, August 23, 2019; 
``Xianggang Zhi Lu shengming: wu da suqiu, que yi buke'' [Hong Kong Way 
statement: five major demands, not one less], inMedia HK, August 23, 
2019; Amy Qin, ``Hong Kong Protesters Are Fueled by a Broader Demand: 
More Democracy,'' New York Times, July 8, 2019.
    \67\ Amnesty International, ``How Not to Police a Protest: Unlawful 
Use of Force by Hong Kong Police,'' ASA 17/0576/2019, June 21, 2019; 
Chinese Human Rights Defenders et al., ``Open Letter from 35 NGOs 
Calling for an Independent Commission of Inquiry into Use of Force by 
Hong Kong Police on June 12, 2019,'' June 30, 2019.
    \68\ Javier C. Hernandez et al., ``Did Hong Kong Police Abuse 
Protesters? What Videos Show,'' New York Times, June 30, 2019; K.K. 
Rebecca Lai and Austin Ramzy, ``1,800 Rounds of Tear Gas: Was the Hong 
Kong Police Response Appropriate?,'' New York Times, August 18, 2019; 
Simon Parry, ``The Truth about Tear Gas: How Hong Kong Police Violated 
All Guidelines for the `Non-Lethal Weapon,' '' South China Morning 
Post, August 16, 2019.
    \69\ Amnesty International, ``How Not to Police a Protest: Unlawful 
Use of Force by Hong Kong Police,'' ASA 17/0576/2019, June 21, 2019; 
Mike Ives, ``Extradition Protesters in Hong Kong Face Tear Gas and 
Rubber Bullets,'' New York Times, June 12, 2019; Kris Cheng, ``Hong 
Kong Police Shoot Projectiles at Close Range in Tai Koo, as Protester 
Suffers Ruptured Eye in TST,'' Hong Kong Free Press, August 12, 2019.
    \70\ K.K. Rebecca Lai and Austin Ramzy, ``1,800 Rounds of Tear Gas: 
Was the Hong Kong Police Response Appropriate?,'' New York Times, 
August 18, 2019.
    \71\ Amnesty International, ``How Not to Police a Protest: Unlawful 
Use of Force by Hong Kong Police,'' ASA 17/0576/2019, June 21, 2019; 
Committee to Protect Journalists, ``Hong Kong Police Attack Journalists 
with Batons, Tear Gas amid Protests,'' June 14, 2019.
    \72\ Reporters Without Borders, ``Violence against Journalists 
Escalates in Hong Kong,'' August 14, 2019; Committee to Protect 
Journalists, ``Hong Kong Police Attack Journalists with Batons, Tear 
Gas amid Protests,'' June 14, 2019; Jennifer Creery, ``Anti-Extradition 
Protests: Hong Kong Press Watchdog Files Police Complaint Alleging 
Abuse against 26 Journalists,'' Hong Kong Free Press, June 16, 2019; Su 
Xinqi, ``Hong Kong Journalism Groups Accuse Police of Assaulting 
Reporters and Photographers during Extradition Bill Clashes in Mong 
Kok,'' South China Morning Post, July 8, 2019; Jeffie Lam, Zoe Low, and 
Danny Mok, `` `More than 1,500' Join Journalists' Silent March in Hong 
Kong, Accusing Police of Mistreating Media during Extradition Bill 
Protests and Demanding Carrie Lam Steps In to Defend Press Freedom,'' 
South China Morning Post, July 14, 2019.
    \73\ Code of Conduct for Law Enforcement Officials, adopted by UN 
General Assembly resolution 34/169 of December 17, 1979, art. 3.
    \74\ UN Basic Principles on the Use of Force and Firearms by Law 
Enforcement Officials, adopted by the Eighth UN Congress on the 
Prevention of Crime and the Treatment of Offenders, Havana, Cuba 
(August 27-September 7, 1990), A/CONF.144/28/Rev.1, principle 9. See 
also Amnesty International, ``How Not to Police a Protest: Unlawful Use 
of Force by Hong Kong Police,'' ASA 17/0576/2019, June 21, 2019; 
Chinese Human Rights Defenders et al., ``Open Letter from 35 NGOs 
Calling for an Independent Commission of Inquiry into Use of Force by 
Hong Kong Police on June 12, 2019,'' June 30, 2019.
    \75\ UN Office of the High Commissioner for Human Rights, ``Press 
Briefing Note on Hong Kong, China,'' August 13, 2019.
    \76\ Gerry Shih, ``China's Backers and `Triad' Gangs Have a History 
of Common Foes. Hong Kong Protesters Fear They Are Next,'' Washington 
Post, July 23, 2019; Laignee Barron, ``Suspected `Triad' Gangs Mark 
Dangerous New Phase in Hong Kong's Crisis,'' Time, July 23, 2019.
    \77\ Gerry Shih, ``China's Backers and `Triad' Gangs Have a History 
of Common Foes. Hong Kong Protesters Fear They Are Next,'' Washington 
Post, July 23, 2019; Reporters Without Borders, ``Violence against 
Journalists Escalates in Hong Kong,'' August 14, 2019; Mary Hui, 
``Armed Thugs Returned to the Streets of Hong Kong to Attack 
Protesters,'' Quartz, August 5, 2019; Alice Woodhouse, George Hammond, 
Joe Leahy, and Nicolle Liu, ``Hong Kong Protest Organisers Attacked by 
Thugs,'' Financial Times, August 29, 2019.
    \78\ Yanan Wang, ``Who Are the Men in White behind Hong Kong's Mob 
Attack?,'' Associated Press, July 24, 2019; Laignee Barron, ``Suspected 
`Triad' Gangs Mark Dangerous New Phase in Hong Kong's Crisis,'' Time, 
July 23, 2019; Jeffie Lam, Danny Mok, and Alvin Lum, ``At Least 45 
Injured as Rod-Wielding Mob Dressed in White Rampage through Yuen Long 
MTR Station, Beating Screaming Protesters,'' South China Morning Post, 
July 22, 2019.
    \79\ Jeffie Lam, Danny Mok, and Alvin Lum, ``At Least 45 Injured as 
Rod-Wielding Mob Dressed in White Rampage through Yuen Long MTR 
Station, Beating Screaming Protesters,'' South China Morning Post, July 
22, 2019; Laignee Barron, ``Suspected `Triad' Gangs Mark Dangerous New 
Phase in Hong Kong's Crisis,'' Time, July 23, 2019.
    \80\ James Pomfret, Greg Torode, and David Lague, ``Chinese 
Official Urged Hong Kong Villagers to Drive Off Protesters before 
Violence at Train Station,'' Reuters, July 26, 2019.
    \81\ Karen Zhang et al., ``Protesters Storm and Vandalise 
Legislative Council as Anarchy and Violence Engulf Hong Kong Government 
Centre,'' South China Morning Post, July 1, 2019; ``Hong Kong Police 
Clear Protesters Occupying Legislature after Day of Unprecedented 
Violence and Chaos,'' South China Morning Post, July 2, 2019; Holmes 
Chan, ``The Writing on the Wall: Understanding the Messages Left by 
Protesters during the Storming of the Hong Kong Legislature,'' Hong 
Kong Free Press, July 4, 2019; ``Hong Kong's Violent Protests against 
Chinese Rule,'' Economist, July 25, 2019.
    \82\ Karen Zhang et al., ``Protesters Storm and Vandalise 
Legislative Council as Anarchy and Violence Engulf Hong Kong Government 
Centre,'' South China Morning Post, July 1, 2019; Holmes Chan, ``Hong 
Kong Police Officer Shoots Live Round amid Clashes with Protesters in 
Tsuen Wan,'' Hong Kong Free Press, August 25, 2019; Jessie Yeung, Sandi 
Sidhu, and Rebecca Wright, ``A Gun Shot, Petrol Bombs and Water Cannons 
Mark Violent Escalation in Hong Kong Protests,'' CNN, August 26, 2019.
    \83\ Brendon Hong, ``Hong Kong Protesters Capture Alleged 
Infiltrators in Airport Chaos,'' Daily Beast, August 14, 2019; Gerry 
Shih and Timothy McLaughlin, ``After Airport Mayhem, Hong Kong 
Protesters Face Tipping Point in Battle for Hearts and Minds,'' 
Washington Post, August 14, 2019.
    \84\ Gary Cheung, ``Mass Arrests of Hong Kong Protesters by Police 
Could Backfire in Long Run, Say Academics,'' South China Morning Post, 
September 3, 2019; Holmes Chan and Tom Grundy, ``Hong Kong Lawmakers 
Jeremy Tam and Au Nok-hin Arrested, as Police Continue Round-Up of 
Democrats,'' Hong Kong Free Press, August 30, 2019.
    \85\ See, e.g., Jasmine Siu, Alvin Lum, Danny Lee, and Su Xinqi, 
``First Wave of Alleged Hong Kong Rioters--Including Teacher, 16-Year-
Old and Cathay Pacific Pilot--Released on Bail with Most Handed 
Curfew,'' South China Morning Post, July 31, 2019; Brian Wong and Chris 
Lau, ``Hong Kong Protests: Two More Demonstrators Charged with Rioting 
over Clash with Police in Kowloon Bay,'' South China Morning Post, 
August 28, 2019.
    \86\ See, e.g., Michelle Wong, Clifford Lo, and Phila Siu, ``Hong 
Kong Police Target High-Profile Activists Joshua Wong, Andy Chan and 
Agnes Chow in Wave of Arrests amid Anti-Government Protests,'' South 
China Morning Post, August 30, 2019.
    \87\ See, e.g., Holmes Chan and Tom Grundy, ``Hong Kong Lawmakers 
Jeremy Tam and Au Nok-hin Arrested, as Police Continue Round-Up of 
Democrats,'' Hong Kong Free Press, August 30, 2019.
    \88\ See, e.g., Kris Cheng, ``Hong Kong Protesters Charged with 
Possessing Offensive Weapons at Yuen Long Protest Denied Bail,'' Hong 
Kong Free Press, July 30, 2019.
    \89\ Brian Wong and Chris Lau, ``Hong Kong Protests: Two More 
Demonstrators Charged with Rioting over Clash with Police in Kowloon 
Bay,'' South China Morning Post, August 28, 2019; Holmes Chan and Tom 
Grundy, ``Hong Kong Lawmakers Jeremy Tam and Au Nok-hin Arrested, as 
Police Continue Round-Up of Democrats,'' Hong Kong Free Press, August 
30, 2019.
    \90\ Alvin Lum and Tony Cheung, ``Hong Kong Riot Charges Pushed 
Ahead in Unprecedented Hardline Move as Justice Chief Forgoes Usual 
Written Advice,'' South China Morning Post, August 1, 2019; Mary Hui, 
``Armed Thugs Returned to the Streets of Hong Kong to Attack 
Protesters,'' Quartz, August 5, 2019; Kris Cheng, ``Thousands of Hong 
Kong Lawyers Stage Rare Protests Urging End to Political Prosecutions 
during Anti-Gov't Demos,'' Hong Kong Free Press, August 7, 2019.
    \91\ Alvin Lum and Tony Cheung, ``Hong Kong Riot Charges Pushed 
Ahead in Unprecented Hardline Move as Justice Chief Forgoes Usual 
Written Advice,'' South China Morning Post, August 1, 2019; Mary Hui, 
``Armed Thugs Returned to the Streets of Hong Kong to Attack 
Protesters,'' Quartz, August 5, 2019; Kris Cheng, ``Thousands of Hong 
Kong Lawyers Stage Rare Protests Urging End to Political Prosecutions 
during Anti-Gov't Demos,'' Hong Kong Free Press, August 7, 2019.
    \92\ See, e.g., Steven Lee Myers and Paul Mozur, ``China Is Waging 
a Disinformation War against Hong Kong Protesters,'' New York Times, 
August 13, 2019; Nikhil Sonnad, ``China Is Creating an Alternative 
Reality about the Hong Kong Protests, in Real Time,'' Quartz, June 19, 
2019.
    \93\ Hou Xiaochen, ``Waijiaobu bo Mei Ying she Gang yanlun: juebu 
rongxu renhe waibu shili gaoluan Xianggang'' [Foreign Ministry refutes 
U.S. and U.K.'s rhetorical meddling in HK: resolutely opposed to any 
foreign forces' interference in Hong Kong], Xinhua, July 23, 2019; 
``China Says It Will `Not Tolerate Foreign Forces' in Hong Kong,'' Hong 
Kong Free Press, July 24, 2019; ``Minitrue: To Foreign Media, on HK 
Coverage (Updated),'' China Digital Times, August 20, 2019.
    \94\ See, e.g., Ministry of Foreign Affairs, ``Foreign Ministry 
Spokesperson Hua Chunying's Regular Press Conference on July 26, 
2019,'' July 26, 2019; Ministry of Foreign Affairs, ``Foreign Ministry 
Spokesperson Hua Chunying's Regular Press Conference on August 1, 
2019,'' August 1, 2019; Bernard Chan, ``To Beijing, the Hong Kong 
Protest Unrest Is Now a Threat on a National Level,'' South China 
Morning Post, August 30, 2019. Hong Kong Executive Council Convenor 
Bernard Chan emphasized that threats of response in Chinese official 
statements and state-run media articles cannot be ignored.
    \95\ See, e.g., ``Minitrue: Delete Content Related to HK 
Protests,'' China Digital Times, June 16, 2019; ``Minitrue: Promote 
These Reports on Hong Kong,'' China Digital Times, August 20, 2019. See 
also Nikhil Sonnad, ``China Is Creating an Alternative Reality about 
the Hong Kong Protests, in Real Time,'' Quartz, June 19, 2019.
    \96\ Frances Eve, Chinese Human Rights Defenders, 
``#StandWithHongKong Is Essentially a Crime in Mainland China,'' 
September 3, 2019.
    \97\ Frances Eve, Chinese Human Rights Defenders, 
``#StandWithHongKong Is Essentially a Crime in Mainland China,'' 
September 3, 2019; International Covenant on Civil and Political Rights 
(ICCPR), adopted by UN General Assembly resolution 2200A (XXI) of 
December 16, 1966, entry into force March 23, 1976, art 19; United 
Nations Treaty Collection, Chapter IV, Human Rights, International 
Covenant on Civil and Political Rights, accessed May 29, 2019. China 
has signed but not ratified the ICCPR.
    \98\ Kong Tsung-gan, ``Regularly Updated Overview of Trials of Hong 
Kong Pro-Democracy Leaders and Activists,'' Medium, updated on May 22, 
2019.
    \99\ Ibid.
    \100\ Ibid.
    \101\ Holmes Chan, ``Leading Hong Kong Umbrella Movement Activists 
Found Guilty of Public Nuisance,'' Hong Kong Free Press, April 9, 2019; 
Amnesty International, ``Umbrella Movement: End Politically Motivated 
Prosecutions in Hong Kong,'' November 2018, 7. The public-nuisance 
related charges included ``conspiracy to commit public nuisance,'' 
``incitement to incite public nuisance,'' and ``incitement to commit 
public nuisance.''
    \102\ Hong Kong Special Administrative Region v. Tai Yiu Ting, Chan 
Kin Man, Chu Yiu Ming, Shiu Ka Chun, Cheung Sau Yin, Chung Yiu Wa, 
Raphael Wong Ho Ming, and Lee Wing Tat, (2017) Hong Kong District Court 
450, paras. 757-64.
    \103\ Hong Kong Special Administrative Region v. Tai Yiu Ting, Chan 
Kin Man, Chu Yiu Ming, Shiu Ka Chun, Cheung Sau Yin, Chung Yiu Wa, 
Raphael Wong Ho Ming, and Lee Wing Tat, (2017) Hong Kong District Court 
568, paras. 90, 109, 144-45.
    \104\ Ibid., paras. 109, 119, 128, 132, 146.
    \105\ Kris Cheng, ``Jailed Hong Kong Umbrella Movement Leader Benny 
Tai Released on Bail Pending Appeal,'' Hong Kong Free Press, August 15, 
2019.
    \106\ Amnesty International, ``Umbrella Movement: End Politically 
Motivated Prosecutions in Hong Kong,'' November 2018, 8; Human Rights 
Watch, ``Hong Kong: Drop Case against `Umbrella 9,' '' November 14, 
2018; Hong Kong Watch, ``Breaking: Lord Patten Calls Occupy Trial 
Verdict `Appallingly Divisive,' as the Trial Is Condemned by German 
Human Rights Committee Members,'' April 8, 2019.
    \107\ Amnesty International, ``Umbrella Movement: End Politically 
Motivated Prosecutions in Hong Kong,'' November 2018, 9.
    \108\ Human Rights Watch, ``Hong Kong: Drop Case against `Umbrella 
9,' '' November 14, 2018.
    \109\ Progressive Lawyers Group, Hong Kong Rule of Law Report 2018, 
March 2019, 16.
    \110\ Nash Jenkins, ``Hong Kong Protest Turns Violent as Anxiety 
over China's Interference Rises,'' Time, November 6, 2016.
    \111\ ``Interpretation of Article 104 of Basic Law of Hong Kong 
SAR,'' Xinhua, reprinted in China Daily, November 7, 2016, item 2(2).
    \112\ Nash Jenkins, ``Hong Kong Protest Turns Violent as Anxiety 
over China's Interference Rises,'' Time, November 6, 2016.
    \113\ Li Cai-yan, `` `Fan Shifa Youxing An' bianfang jie'an zhi 
jingfang fei zhengdang shiyong wuli, kongfang: jingbu fang heli'' 
[``Anti-Interpretation Demonstrations Case'' Defense conclusion 
referred to the police's improper use of force, prosecution: the police 
were reasonable], inMedia HK, November 2, 2018; ``Fan Shifa Youxing, 
kongfang: Wu Wenyuan shandong taren chongpo tiema'' [Anti-
Interpretation Demonstrations, prosecution: Avery Ng Man-yuen incited 
others to break through the barricade], Ming Pao, July 9, 2018.
    \114\ Holmes Chan, ``Avery Ng and Other Pro-Democracy Activists 
Convicted over 2016 Clashes outside Beijing Office,'' Hong Kong Free 
Press, May 15, 2019.
    \115\ Bureau of East Asian and Pacific Affairs, U.S. Department of 
State, ``2019 Hong Kong Policy Act Report,'' March 21, 2019; UK Foreign 
and Commonwealth Affairs, ``The Six-Monthly Report on Hong Kong: 1 July 
to 31 December 2018,'' March 27, 2019.
    \116\ See, e.g., Progressive Lawyers Group, Hong Kong Rule of Law 
Report 2018, March 2019, 96-102; Hong Kong Journalists Association et 
al., ``Joint Statement: The Death Knell for Freedom of Speech in Hong 
Kong,'' November 9, 2018. The signatories to the November 2018 joint 
statement consist of the Hong Kong Journalists Association, Hong Kong 
Press Photographers Association, Independent Commentators Association, 
Journalism Educators for Press Freedom, Ming Pao Staff Association, 
Next Media Trade Union, and RTHK Programme Staff Union.
    \117\ See, e.g., Amnesty International, ``Hong Kong: Final 
`Umbrella Nine' Pro-Democracy Activists Sentenced,'' June 10, 2019; 
Maya Wang, ``Amid China's Storm, Hong Kong Holds Fast to Its 
Umbrella,'' Globe and Mail, April 26, 2019.
    \118\ Freedom House, ``Hong Kong'' in Freedom in the World 2019, 
February 2019.
    \119\ Reporters Without Borders, ``Hong Kong'' in World Press 
Freedom Index, accessed June 12, 2019; Jennifer Creery, ``Hong Kong 
Stumbles in Reporters Without Borders Press Freedom Index, Down 25 
Places in 10 Years,'' Hong Kong Free Press, April 18, 2019.
    \120\ Hong Kong Journalists Association, ``Public See New Low in 
Hong Kong's Press Freedom; Beijing Viewed as the Major Factor in 
Decline,'' April 16, 2019.
    \121\ Austin Ramzy, ``Hong Kong Bans Pro-Independence Party,'' New 
York Times, September 24, 2018.
    \122\ Secretary for Security, Government of the Hong Kong Special 
Administrative Region, ``Societies Ordinance (Chapter 151),'' G.N. (E.) 
52 of 2018, Gazette 22, no. 44 (September 24, 2018).
    \123\ Austin Ramzy, ``Hong Kong Bans Pro-Independence Party,'' New 
York Times, September 24, 2018; Kris Cheng, ``Explainer: How Hong Kong 
Is Seeking to Ban a Pro-Independence Party Using Existing National 
Security Laws,'' Hong Kong Free Press, July 19, 2018.
    \124\ Societies Ordinance (Cap. 151), sec. 8(1)-(2). See also Kris 
Cheng, ``Explainer: How Hong Kong Is Seeking to Ban a Pro-Independence 
Party Using Existing National Security Laws,'' Hong Kong Free Press, 
July 19, 2018.
    \125\ Hong Kong Watch, ``3 Reasons to Worry about the Decision to 
Ban the Hong Kong National Party,'' July 20, 2018.
    \126\ ``Hong Kong Rejects Visa for FT Editor Victor Mallet,'' BBC, 
October 6, 2018; ``Hong Kong's Move against Free Speech,'' editorial, 
Financial Times, October 7, 2018.
    \127\ See, e.g., Hong Kong Watch, ``Gray Sergeant: The Expulsion of 
Victor Mallet Has Rightly Caused an International Outcry,'' October 27, 
2018; Reporters Without Borders, ``After Hosting a Talk That Annoyed 
China, British Journalist Denied Entry to Hong Kong,'' November 10, 
2018.
    \128\ Hong Kong Watch, ``Gray Sergeant: The Expulsion of Victor 
Mallet Has Rightly Caused an International Outcry,'' October 27, 2018; 
``Hong Kong Rejects Visa for FT Editor Victor Mallet,'' BBC, October 6, 
2018; Austin Ramzy, ``Journalist's Expulsion from Hong Kong `Sends a 
Chilling Message,' '' New York Times, October 10, 2018.
    \129\ See, e.g., Hong Kong Watch, ``Gray Sergeant: The Expulsion of 
Victor Mallet Has Rightly Caused an International Outcry,'' October 27, 
2018; Reporters Without Borders, ``After Hosting a Talk That Annoyed 
China, British Journalist Denied Entry to Hong Kong,'' November 10, 
2018.
    \130\ Reporters Without Borders, ``Hong Kong: Chinese Threats Lead 
to the Cancellation of an Exhibition by Cartoonist Badiucao,'' November 
3, 2018; James Griffiths, ``Chinese Dissident Artist's Hong Kong Show 
Canceled over `Safety Concerns,' '' CNN, November 2, 2018.
    \131\ Vivienne Chow, ``China's `Red Line' for Hong Kong's Creative 
Freedom,'' Quartz, November 11, 2018.
    \132\ Holmes Chan, ``Apple Music in China Removes Jacky Cheung Song 
with Reference to Tiananmen Massacre,'' Hong Kong Free Press, April 9, 
2019; ``Zhang Xueyou `Renjian Dao' zao dalu Apple Music xiajia yi yin 
anyu Liusi'' [Jacky Cheung's ``The Path of Man'' taken down by 
mainland's Apple Music, reason might be its subtle reference to June 
4th], Stand News, April 7, 2019. See also Shannon Liao, ``Lawmakers 
Lash Out at Apple for Censoring a Song about Tiananmen Square 
Protests,'' Verge, April 12, 2019.
    \133\ Zhonghua Renmin Gongheguo Aomen Tebie Xingzhengqu Jiben Fa 
[Basic Law of the Macao Special Administrative Region of the People's 
Republic of China], passed March 31, 1993, effective December 20, 1999, 
arts. 47, 68, annexes I, II; ``Why Macau Is Less Demanding of Democracy 
Than Hong Kong,'' Economist, September 15, 2017.
    \134\ Zhonghua Renmin Gongheguo Aomen Tebie Xingzhengqu Jiben Fa 
[Basic Law of the Macao Special Administrative Region of the People's 
Republic of China], passed March 31, 1993, effective December 20, 1999, 
art. 40.
    \135\ Ibid., arts. 12, 16, 22.
    \136\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of December 16, 
1966, entry into force March 23, 1976, art. 25(b). Article 25(b) of the 
ICCPR guarantees the right ``to vote and to be elected at genuine 
periodic elections which shall be by universal and equal suffrage . . 
..''
    \137\ Raquel Carvalho, ``Ho Iat-seng Will Be New City Leader of 
Macau, China's Gambling Hub,'' South China Morning Post, August 25, 
2019; ``Ho Iat Seng Gets Backing from 95% of CE Election Committee 
Members,'' Macau News, July 23, 2019.
    \138\ Raquel Carvalho, ``Ho Iat-seng Will Be New City Leader of 
Macau, China's Gambling Hub,'' South China Morning Post, August 25, 
2019; ``Ho Iat Seng Gets Backing from 95% of CE Election Committee 
Members,'' Macau News, July 23, 2019.
    \139\ ``Macau Establishes New National Security Defence 
Commission,'' Economist Intelligence Unit, September 7, 2018.
    \140\ Julie Zhu, ``Cybersecurity: Government Banned from Collecting 
Internet Data,'' Macau Daily Times, June 7, 2019; Joao Paulo Meneses, 
``Cybersecurity Bill: Security, the Key Word,'' Macau Business, March 
23, 2019. See also Cross-Border Chinese Q&A, Culture & Media Education 
Foundation, ``Aomen zhengfu de `Wangluo Anquan Fa' jian zhi hefang?'' 
[What is the Macau government's ``Cybersecurity Law'' aimed at?], 
inMedia HK, January 24, 2018.
    \141\ Jane K.C. Wong, ``Cybersecurity Law Passed as Gov't Reassures 
It Will Not Censor Online Content,'' Macau Business, June 6, 2019; 
Macau Special Administrative Region, Law No. 13/2019, Wangluo Anquan Fa 
[Cybersecurity Law], passed June 24, 2019, art. 28.
    \142\ Macau Special Administrative Region, Law No. 13/2019, Wangluo 
Anquan Fa [Cybersecurity Law], passed June 24, 2019, art. 28; Angus 
Young, ``Macau: Cybersecurity Law `Will Present Unprecedented 
Challenges to Local and Foreign Industries,'' OneTrust DataGuidance, 
June 27, 2019.
    \143\ Macau Special Administrative Region, Law No. 1/2019, 
Amendment to Law No. 5/1999, Guoqi, Guohui Ji Guoge De Shiyong Ji Baohu 
[On the Use and Protection of the National Flag, National Emblem, and 
National Anthem], passed January 24, 2019; Emily Pottier, ``Macau: 
National Anthem Law Amendments Passed, Disrespecting Anthem Punishable 
by up to 3 Years in Prison,'' Macau Business, January 25, 2019; Yi Wei 
Wong, ``Macau: National Anthem Law to Be Implemented in June 2019,'' 
Macau Business, February 1, 2019.
    \144\ ``Li Hui xize xing tongguo Guoge Fa'' [Legislative Assembly 
passed the National Anthem Law], Zheng Bao (Jornal Cheng Pou), January 
25, 2019; Macau Special Administrative Region, Law No. 1/2019, 
Amendment to Law No. 5/1999, Guoqi, Guohui Ji Guoge De Shiyong Ji Baohu 
[On the Use and Protection of the National Flag, National Emblem, and 
National Anthem], passed January 24, 2019, art. 4; Macau Special 
Administrative Region, Law No. 5/1999, Guoqi, Guohui Ji Guoge De 
Shiyong Ji Baohu [On the Use and Protection of the National Flag, 
National Emblem, and National Anthem], passed and effective December 
20, 1999, amended January 29, 2019, art. 11. The new provision on the 
role of the media to promote (xuanchuan) the national anthem is found 
in section 7-C in Article 4 of the Amendment; it is Article 11 in the 
amended law. See also Kris Cheng, ``Insults against Chinese National 
Anthem Banned in Macau, as Offenders Risk 3-Years Jail,'' Hong Kong 
Free Press, January 26, 2019.
    \145\ Journalist Association of Macau, ``Jiu `Xiugai di 5/1999 Hao 
Falu `Guoqi, Guohui Ji Guoge De Shiyong Ji Baohu' fa'an tijiao yijian'' 
[Opinion submitted regarding Amendment to Law No. 5/1999 ``On the Use 
and Protection of the National Flag, National Emblem, and National 
Anthem''], January 16, 2019, Son Pou (Jornal Informacao) Facebook post, 
January 17, 2019; Yi Wei Wong, ``Macau: Journalist Association of Macau 
Believes National Anthem Law Might Suppress Press Freedom,'' Macau 
Business, January 17, 2019; Yi Wei Wong, ``Macau: Draft National Anthem 
Law Unchanged despite Press Freedom Concerns,'' Macau Business, January 
18, 2019.
</pre></body></html>
